<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 107-703]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-703
 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2003
=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 5121/S. 2720

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2003, AND FOR OTHER PURPOSES

                               __________

             Architect of the Capitol (except House items)
                          Capitol Police Board
                      Congressional Budget Office
                       General Accounting Office
                       Government Printing Office
                          Library of Congress
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______









                       U. S. GOVERNMENT PRINTING OFFICE
78-483                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                 RICHARD J. DURBIN, Illinois, Chairman
TIM JOHNSON, South Dakota            ROBERT F. BENNETT, Utah
JACK REED, Rhode Island              TED STEVENS, Alaska
ROBERT C. BYRD, West Virginia
  (ex officio)
                           Professional Staff
                          Carolyn E. Apostolou

                         Administrative Support

                             Elnora Harvey











                            C O N T E N T S

                              ----------                              

                       Wednesday, March 13, 2002

                                                                   Page
Library of Congress..............................................     5

                       Wednesday, April 17, 2002

U.S. Senate: Office of the Secretary.............................    79
Architect of the Capitol.........................................   143

                         Wednesday, May 1, 2002

U.S. Senate: Office of the Sergeant at Arms and Doorkeeper.......   197
Capitol Police Board.............................................   229

                         Wednesday, May 8, 2002

General Accounting Office........................................   253
Government Printing Office.......................................   277
Congressional Budget Office......................................   305

















         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                       WEDNESDAY, MARCH 13, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Bennett, and Stevens.

                          LIBRARY OF CONGRESS

STATEMENT OF DR. JAMES BILLINGTON, THE LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        GENERAL DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        WINSTON TABB, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES


             opening statement of senator richard j. durbin


    Senator Durbin. Good morning. The subcommittee will come to 
order.
    We meet this morning to hold our first hearing on the 
fiscal year 2003 budget cycle. Excluding the President's 
proposal to fund retirement and health benefits in individual 
agencies, the total request for the legislative branch is $3.4 
billion, roughly 5 percent above the fiscal year 2002 enacted 
level. Much of that increase is associated with critical 
security initiatives, and mandatory pay and price level 
increases.

                          prepared statements

    Today we will hear first from Dr. James Billington, the 
Librarian of Congress, who is accompanied by the Deputy 
Librarian, General Donald Scott. Then we will hear from Mr. Dan 
Mulhollan, Director of the Congressional Research Service.
    We will also recognize and welcome this morning Ms. 
Marybeth Peters, Register of Copyrights. We will insert all the 
statements into the record.
    [The statements follow:]
               Prepared Statement of James H. Billington
    I appreciate the opportunity to discuss the Library of Congress 
budget request for fiscal 2003. The tragic events of September 11, 
2001, and subsequent anthrax incidents have underscored the importance 
of the Library's historic mission of making its resources available and 
useful to the Congress and the American people and sustaining and 
preserving a universal collection of knowledge and creativity for 
future generations. Since September 11th, the Library has provided 
legislative support to the Congress on issues of terrorism, emergency 
preparedness, anthrax in the mail, civil defense, and many other 
subjects. In collaboration with other archival institutions and private 
organizations, the Library has helped to capture important digital 
information and has documented for listeners the thoughts and feelings 
expressed by citizens, matching our efforts following the bombing of 
Pearl Harbor on December 7, 1941. The Library has also provided 
administrative assistance to the House of Representatives, the Senate, 
the Congressional Budget Office, and the Supreme Court following the 
discovery in mid-October of anthrax in the mail system. The Library 
provided emergency work space for staff, communications and computer 
access, and technical assistance with mail handling.
    At the start of the new millennium and the Library's third century, 
the Library faces a host of new challenges: bringing in materials when 
delivery by mail poses potential new threats to safety; registering 
digital copyright claims; and acquiring, preserving, and ensuring 
rights-protected access to the proliferating materials that are 
produced only in digital format and are playing an increasingly 
important role in the commercial and creative life of the United 
States. We must continue to add to the Library's collections some three 
million artifactual items annually and at the same time harvest the 
exponential growth of electronic materials. The Library's fiscal 2003 
budget accordingly requests additional funds both to support our 
growing traditional collections and to accelerate our plans and 
programs for obtaining materials electronically.
    The Library of Congress is fundamentally different from any other 
institution in the legislative branch of government. The Library serves 
not only the Congress but the nation with the most important commodity 
of our time: information. The Library's first priority is to make the 
world's knowledge available and useful to the United States Congress. 
This primary purpose can continue to be realized only if the Library 
can acquire, secure, preserve, and make accessible its uniquely 
universal collection. In the digital era, this requires creation of a 
national digital library collection while sustaining the traditional 
library of books and other artifacts.
    The Library seeks support in its fiscal 2003 budget request not for 
any new function, but simply for the resources needed to perform our 
historic mission in a radically changing environment.
    For fiscal 2003, the Library of Congress requests a total budget of 
$572.7 million ($536.1 million in net appropriations and $36.6 million 
in authority to use receipts), a net increase of $56.3 million above 
the fiscal 2002 level. The requested increase includes $46.2 million 
for mandatory pay and price-level increases, and $34 million for 
program increases, offset by $23.9 million for nonrecurring costs. Of 
the $46.2 million requested for mandatory pay and price-level 
increases, $24.6 million, or 53 percent, is related to the 
Administration's new legislative proposal to fund health and retirement 
benefits entirely in agency budgets. Excluding this mandated 
legislative proposal, the Library's fiscal 2003 budget request is a net 
increase of 6.1 percent above fiscal 2002.
    Requested funding will support 4,358 full-time-equivalent (FTE) 
positions, an increase of 169 FTEs over the fiscal 2002 target of 
4,189. To ensure that the Library's workforce can meet the needs of the 
agency and its customers, the Library is assuming staffing at the 
fiscal 2002 target level and requesting the additional FTEs largely to 
support the maintenance and security of the Library's artifactual 
collections, which continue to grow at the rate of approximately three 
million items per year.
    We deeply appreciate the Congress's approval of fiscal 2002 
supplemental funds to address recovery from the anthrax closure and 
unplanned costs to ensure continuity of operations in the event of any 
future incidents. Further fiscal 2002 supplemental funds are required 
for the Copyright Office because of continuing delays in receiving U.S. 
Postal Service mail.
    New protocols for mail delivery have had a profound impact on many 
business processes in the Library. Anthrax concerns severely delayed 
processing copyright registrations, acquiring materials for the 
collections, and communicating with many domestic and foreign partners. 
These delays have challenged the Library to conduct much more of its 
business electronically and to put in place safe mail handling 
procedures for artifactual materials. The Library will continue to 
receive approximately one million mail items each month for the 
foreseeable future. Because of delays in mail delivery, the Library is 
requesting additional supplemental funding of $7.5 million, which is 
required to make up for a projected fiscal 2002 shortfall in copyright 
registration receipts. The Register of Copyrights has provided further 
information in her statement regarding this supplemental appropriations 
request.
    The Library's fiscal 2003 budget reflects the higher costs of this 
new world environment, where major additional steps must be taken to 
ensure the safety of staff, facilities, and the mail. The Library 
proposes to retain $8.6 million in its fiscal 2003 budget base from the 
fiscal 2002 emergency supplemental appropriation to fund prospective 
new mail handling costs.
    The fiscal 2003 budget request supports the Library's ongoing 
priorities of (1) service to the Congress; (2) acquisition, security, 
and preservation of materials; and (3) comprehensive access to our 
collections. The budget request is needed to fund the following major 
initiatives (which I address in more detail later in this statement):
  --Digital Futures Increases ($16.5 million and 35 FTEs).--The 
        Library's digital futures budget request for fiscal 2003 covers 
        the third year of building support for the National Digital 
        Library (NDL) and provides for the Law Library's electronic 
        initiatives.
  --Collections Access, Preservation, and Security Increases ($8.7 
        million and 118 FTEs).--The Library's massive collections of 
        more than 124 million items require additional resources to 
        provide for their security, to store and preserve them for 
        future generations, and to facilitate access to them.
  --Infrastructure Support Increases ($5.3 million and 4 FTEs).--The 
        Library's programs require additional infrastructure support, 
        including a new central financial management system, an 
        educational outreach initiative, safety services modernization, 
        and additional capacity for the Office of Inspector General.
  --Copyright Office's Reengineering Plans ($1.4 million).--The Library 
        is requesting the use of available receipts from the no-year 
        account to fund the Copyright Office's ongoing reengineering 
        program.
  --Congressional Research Service Capacity Increases ($1.4 million and 
        12 FTEs).--The Congress must have available the policy 
        expertise and information resources needed to address key 
        public policy issues. CRS is requesting new analytical and 
        informational capacity in two critical areas affecting the 
        lives of almost every American: (1) terrorism and homeland 
        security, and (2) issues resulting from the aging of the U.S. 
        population.
                     the library of congress today
    The core of the Library is its incomparable collections and the 
specialists who interpret and share them. The Library's 124 million 
items include almost all languages and media through which knowledge 
and creativity are preserved and communicated.
    The Library has more than 28 million items in its print 
collections, including 5,706 volumes printed before the year 1500; 12 
million photographs; 4.9 million maps; 2.5 million audio recordings; 
877,000 motion pictures, including the earliest movies ever made; 5 
million pieces of music; and 55.2 million pages of personal papers and 
manuscripts, including those of 23 U.S. presidents as well as hundreds 
of thousands of scientific and government documents.
    New treasures are added each year. Notable acquisitions during 
fiscal year 2001 include: copies of 15,000 Arabic manuscripts held by 
the British Library; the collections of Patrick Hayes and Evelyn 
Swarthout and Frederick Loewe; and the archives of Theodore Presser. 
They also include the letters of Leon Bakst and a host of great 
musicians: Irving Berlin, Johannes Brahms, Aaron Copland, Marilyn 
Horne, Otto Klemperer, Erich Wolfgang Korngold, Franz Liszt, Felix 
Mendelssohn, Ned Rorem, and Arnold Schoenberg.
    During fiscal year 2001, the Library also reached an agreement to 
purchase the only known copy of the map that has been called 
``America's birth certificate.'' Compiled by Martin Waldseemuller in 
1507, this is the first document of any kind to refer to the New World 
as ``America'' and to depict a separate Western Hemisphere with the 
Pacific as a separate ocean. The map will be on permanent display in 
the Thomas Jefferson Building.
    Every workday, the Library's staff adds more than 10,000 new items 
to the collections after organizing and cataloging them. The staff then 
shares them with the Congress and the nation by assisting users in the 
Library's reading rooms, by providing on-line access across the nation 
to many items, and by featuring the Library's collections in cultural 
programs.
    Every year the Library delivers more than 710,000 research 
responses and services to the Congress, registers more than 600,000 
copyright claims, and circulates more than 23 million audio and braille 
books and magazines free of charge to blind and physically handicapped 
individuals all across America. The Library annually catalogs more than 
270,000 books and serials and provides its bibliographic record 
inexpensively to the nation's libraries, saving them millions of 
dollars annually.
    The Library also provides free on-line access, via the Internet, to 
its automated information files, which contain more than 75 million 
records to Congressional offices, Federal agencies, libraries, and the 
public. The Library's Internet-based systems include major World Wide 
Web (www) services (e.g., Legislative Information System, THOMAS, 
<www.loc.gov> <www.AmericasLibrary.gov>, Global Legal Information 
Network, the Library of Congress On-line Public Access Catalog 
<www.catalog.loc.gov>, and various file transfer options.
    Library of Congress programs and activities are funded by four 
salaries and expenses (S&E) appropriations supporting congressional 
services, national library services, law library services, copyright 
administration, services to blind and physically handicapped people, 
and management support. A separate appropriation funds furniture and 
furnishings.
                        national digital library
    The Library is requesting a $12.9 million and 25 FTE increase to 
support the NDL, which consists of two major components:
  --1. Technology Backbone.--The Library is requesting $7,392,000 and 
        17 FTEs to: (a) identify Library of Congress preservation 
        standards and protocols that can support a national digital 
        information infrastructure and preservation strategy 
        ($815,000); (b) develop digital repository architecture and 
        research and test alternative strategies for long-term 
        preservation of Library of Congress digital content 
        ($1,500,000); and (c) implement a flexible, yet sufficiently 
        sound technical infrastructure to protect the Library's 
        multimillion dollar investment in digital content and access 
        services ($5,077,000). A robust technology backbone at the 
        Library is required to support the acquisition of born-digital 
        items, provide efficient access to digital materials, and 
        maintain and preserve the digital items for the future.
  --2. Digital Access, Services, and Tools.--The Library is requesting 
        $5,544,000 and 8 FTEs to: (a) improve access services to both 
        on-site and remote library users ($544,000); and (b) continue 
        to support the development of a high-speed data transmission 
        capability between the Library's digital content and western 
        North Carolina ($5,000,000).
    The fiscal 2003 NDL budget request of $12,936,000 is for the third 
year of the Library's plan for building resources required to support 
the Library's digital services. (This request is separate from, but 
complementary to, the special appropriation of $99.8 million to develop 
and lead a national strategic plan for the distributed, long-term 
preservation of digital materials. In accordance with the provisions of 
that December 2000 special appropriation, the Library is now 
formulating an implementable national strategy for the life-cycle 
management of digital materials as part of the national collection.)
    The fiscal 2003 NDL budget request is designed to make sure that 
the Library's present operating environment and associated digital 
infrastructure can be scaled in the future to support and sustain the 
national digital information strategy that is being concurrently 
designed. It is already evident that major enhancements will be needed, 
for the Library, and that delay will lead to the loss of important but 
often ephemeral materials. (The average life of a Web site today is 44 
days, and a growing amount of important material is being lost 
forever.)
    The objective of the National Digital Information Infrastructure 
Preservation Program plan is to encourage shared responsibility and to 
seek solutions for:
  --the continued selection, collection, and organization of the most 
        historically significant materials, regardless of evolving 
        digital formats;
  --securing the long-term storage, preservation, and survivability of 
        those needed digital materials; and
  --ensuring rights-protected access to the growing electronic 
        historical record of the American people.
    The Library is encouraged by the level of support it has received 
for this critical national program. We will continue to collaborate 
with a wide variety of institutions in the information community as 
mandated by the Congress in the special appropriation. We will forward 
our plan to the Congress later this year.
             collections security, access, and preservation
    A primary mission of the Library is to secure, preserve, and 
provide access to its vast and largely unique and irreplaceable 
artifactual collections. The Library is requesting $8.7 million and a 
118-FTE increase for collections access, preservation, and security. 
Components of the increase are:
  --$2,615,000 and 60 FTEs to secure the collections by improved 
        inventory management.--The Library's collections security plan 
        requires tracking incoming materials using the Library of 
        Congress Integrated Library System (LC ILS). The LC ILS 
        replaces multiple stand-alone legacy systems and permits a 
        greater level of control over the collections. However, 
        additional staff are required to achieve this strengthened 
        level of control through the application of bar codes matched 
        to LC ILS records. The fiscal 2003 budget requests support four 
        security initiatives that will capture data for 1,562,000 new 
        items at the point of entry; ensure that LC ILS records are 
        updated as the status of approximately 75,000 serial items 
        changes annually; provide for on-line serials check-in for 
        foreign collections (by converting 10,000 manual records in 
        Japanese, Chinese, and Korean to electronic files); and enable 
        the Library to secure 65,000 new sound recordings received 
        annually.
  --$1,475,000 and 14 FTEs to eliminate the backlog of serials 
        materials.--Security concerns have created new mail processing 
        protocols. These have added not only a backlog, but another 
        expensive step to the acquisitions process. The Library must 
        now assess the condition of collection materials following 
        their irradiation requiring additional staff resources. The 
        backlog (arrearage) has a direct impact on research services to 
        the Congress in science, technology, and business, because 
        these disciplines rely heavily on journal literature, where the 
        newest research is published. Therefore, it is critical that 
        the Library's arrearages in periodicals be addressed and 
        eliminated as soon as possible.
  --$2,288,000 and 35 FTEs to prepare collections for secure off-
        Capitol Hill storage.--Funding is requested to support a three-
        year plan for the preparation, packaging, and stabilization of 
        select rare and special collections in advance of their 
        relocation to the National Audio-Visual Conservation Center 
        (NAVCC) and to Ft. Meade, Module 2. Module 2 is designed to 
        store books and rare and fragile items from the Library's 
        special collections. Because of the diversity of formats and 
        types of material that will be moved to off-site storage, 
        careful planning and preparation of collections before the move 
        is essential. Sound recordings, moving image materials, paper 
        records, and bound items must be carefully reviewed as to their 
        condition and readiness for transport. Special collections 
        materials (e.g., fragile manuscripts, oversized maps, rare 
        books, and collections of ephemera in many formats) must be 
        carefully packaged to prevent damage. This preventive work not 
        only reduces the risk of items being damaged in transit, but 
        also ensures that the collections will be reviewed, 
        inventoried, packaged, and labeled correctly, and will arrive 
        at the new facilities ready for use. Our forthcoming preventive 
        conservation effort will focus on treating first those 
        collections most in need of cleaning, basic packaging, minor 
        mending, and labeling. This action will ensure that the 
        approximately 3-4 million audiovisual items destined for NAVCC, 
        and the millions of rare and fragile items bound for Ft. Meade, 
        Module 2, arrive at those facilities clean, intact, preserved, 
        and ready for use. Funding for this initiative is crucial to 
        providing sustained congressional and public access to 
        America's most comprehensive collection of audiovisual 
        resources and rare and special collections. Without funding, 
        the movement of these at-risk, unpackaged collections into the 
        new facilities will risk degrading many materials and will 
        create an instant preservation arrearage, that in the initial 
        years of residency in the new facilities, seriously delaying 
        access by the Congress and the public.
  --$895,000 to support the third of five increments required in our 
        30-year (one generation) mass deacidification program.--A 
        priority of the Library's preservation efforts is the 
        deacidification of a significant portion of materials printed 
        on high-acid paper, which has dominated printing since the 
        middle of the 19th century. The Congress approved the first two 
        increments of this critical preservation program as part of the 
        fiscal 2001 and 2002 budgets, and the Library requests a 
        planned increase of $895,000 to continue to scale up to $5.7 
        million by fiscal year 2005. By 2005, the Library plans to have 
        reached the capacity to deacidify annually 300,000 books and 
        1,000,000 manuscript sheets.
  --$789,000 to support the Lewis and Clark exhibition.--In fiscal 
        1999, the Congress appropriated $250,000 to begin work on 
        planning the Library's portion of the national celebration of 
        the bicentennial of the Lewis and Clark expedition. In fiscal 
        2003, the Library is requesting $789,000 in no-year funds to 
        complete the bulk of locating exhibition material, conducting 
        research, convening advisory panels, for designing and 
        preparing a presentation and accompanying materials for the 
        nationwide commemoration, and for sending a smaller version of 
        the exhibition to at least three sites in the Midwestern and 
        Western United States. The exhibition, set to open in the 
        summer of 2003, will bring the Library's collections on Western 
        exploration to the public's attention, highlighting the impact 
        of early exploration on the United States.
  --$476,000 and 6 FTEs to support the Veterans History Project 
        (VHP).--In fiscal 2002, the Congress approved $250,000 to begin 
        this massive project. The Library had already raised private 
        money and solicited volunteer help to launch the project, but 
        now needs additional support to implement fully the 
        Congressionally mandated program. The funds are needed for 
        expanding public and partner engagement through instructional 
        materials and training workshops, digitizing the best portions 
        of interviews and materials received, reformatting and 
        preserving materials received, and supporting local efforts in 
        Congressional districts.
                              law library
    The Law Library of Congress has the largest collection of legal 
materials in the world and a unique body of lawyers trained in foreign 
legal systems. They supply legal research and analysis, primarily for 
the Congress, on the laws of other nations and on international and 
comparative law. Law Library specialists cover more than 200 
jurisdictions representing the vast majority of the sovereign entities 
of the world that issue laws and regulations. In addition to the 
Congress, the U.S. Courts, and the executive branch, the legal 
community depends heavily on the Law Library. The Law Library's staff 
of American-trained attorney-librarians provides reference services to 
the U.S. Congress whenever either chamber is in session (as mandated by 
2 U.S.C. Sec. 138).
    The Library is requesting a program increase of $3,063,000 and 6 
FTEs to create a fully functional Global Legal Information Network 
(GLIN) system with better security, multilingual search capabilities, 
and the ability to incorporate additional categories of legal 
information, such as court decisions. For 15 countries, GLIN already 
provides timely access to primary sources of law, including born-
digital primary sources. These nations send the Law Library digital 
versions of their official legal texts together with summary analysis 
and finding aids that help the Law Library provide the Congress with 
quality service. The Law Library will be seeking $12.7 million over a 
five-year period to expand GLIN to a core of the 50 countries of most 
interest to the Congress, including retrospective materials dating back 
to 1950 for all the 29 Spanish and Portugese-speaking jurisdictions of 
Latin America.
    The Library is also requesting: $248,000 and 2 FTEs to increase the 
Law Library's capacity to meet the legal research needs of the Congress 
for Spanish/Portuguese and English-speaking jurisdictions; $213,000 and 
2 FTEs to establish an Electronic Reference Unit to respond to the 
growing demand for digital services; $124,000 and 3 FTEs to implement 
inventory management elements of the Law Library's collections security 
plan; and $36,000 to establish a training center with specialized 
translation and vernacular language capabilities. Funding the full 
request of $3,684,000 and 13 FTEs will secure the Law Library's 
electronic future, and its ability to supply quality and timely service 
to the Congress.
                         infrastructure support
    The Library is requesting $5.3 million and a 4-FTE increase to 
improve infrastructure support, which consists of four components:
  --$4,250,000 to replace the Library's central financial management 
        system.--The Library proposes to replace its aging mainframe-
        based financial management system with more modern server-based 
        technology to maintain and improve financial management 
        support, including program-based budgeting, access to financial 
        information, and handling additional electronic transaction 
        processes (e.g., the capability to receive and route documents 
        electronically and expand electronic commerce). The Library 
        proposes to proceed with a joint procurement effort with other 
        legislative branch agencies during fiscal 2002 and to implement 
        a cost-effective system over several years.
  --$504,000 for Educational Outreach.--The Library has become a world 
        leader in providing high quality educational material free of 
        charge on-line. These content-rich materials range from the 
        papers of the Founding Fathers and other important historical 
        figures, such as Frederick Douglass and Alexander Graham Bell, 
        to the basic drafts of the Declaration of Independence and the 
        Gettysburg Address. But there is a need to educate the public 
        about the ready availability of these resources with broadcast-
        quality communications equipment and to support the expenses 
        associated with projected special events in Congressional 
        districts that will involve Members of Congress and 
        representatives of the Library in highlighting constituent 
        services that the Library is engaged in, such as the 
        educational resources for all ages on our Web site. The 
        astonishingly successful National Book Festival, led by Laura 
        Bush, has created new possibilities for reading promotion. The 
        First Lady has expressed a willingness to extend the message to 
        local libraries and schools. Possible events with the Librarian 
        of Congress and Members of Congress in local settings could 
        include the First Lady and/or local governmental and civic 
        figures.
  --$190,000 for Inspector General Computer Security Audits.--The 
        Office of the Inspector General (OIG) is requesting an increase 
        of 2 additional FTEs to provide oversight of the Library's 
        information technology (IT) security program. With the 
        additional resources, the OIG would perform a top-down audit of 
        agency-wide policies and the security management structure for 
        information technology. The OIG would conduct reviews of 
        system-specific policies, procedures, and management, including 
        operational (people) and technical (computer) controls. Four IT 
        security reviews would be conducted annually.
  --$308,000 and 2 FTEs for Safety Services Modernization and 
        Training.--The Library needs to upgrade its Safety Services 
        Division to meet new legal and mission-critical requirements. 
        The division is responsible for assessing the workplace for 
        environmental health factors such as air and water quality, for 
        ergonomic issues, and for chemical/biological exposure to 
        anthrax and other potential pathogens. The division is also 
        responsible for defining and coordinating required safety 
        training for more than 4,300 employees. In its January 2001 
        report, the Office of Compliance reported weaknesses in the 
        fire safety programs of both the Library and the Architect of 
        the Capitol. The Library has made progress, but needs 
        additional resources to address both the many safety 
        requirements of the Congressional Accountability Act and the 
        new needs resulting from the September 11 terrorist attacks.
                            copyright office
    The Library's Copyright Office promotes creativity and effective 
copyright protection annually processing more than 600,000 claims. The 
office annually transfers more than 700,000 works, with an estimated 
value of $32 million, to the Library. The Office also annually records 
approximately 15,000 documents with more than 150,000 titles and 
responds annually to more than 340,000 requests for information.
    The Library requests an increase in the Copyright Office's 
Offsetting Collections Authority from $21,880,000 to $23,321,000. The 
$1,441,000 increase in Offsetting Collections Authority is based on 
projected annual registration receipts of $21,500,000 supplemented by 
$1,821,000 from the Copyright Office no-year account.
    The Copyright Office proposes that the increase in receipts be used 
to support information technology and business process reengineering 
initiatives. While the fee receipt forecast for fiscal 2003 is the same 
as fiscal 2002, the recent anthrax incidents impacting legislative 
branch mail operations have dramatically reduced Copyright Office 
deposits and service fees. Mail delivery has been disrupted for more 
than four months. Until mail delivery has been restored fully and 
delayed mail processed by the office, the Copyright Office's fee 
projection will be subject to wider fluctuations than in the past. 
Given the uncertainty of the situation, the Copyright Office is 
requesting a fiscal 2002 supplemental appropriation of $7.5 million to 
make up for lost receipts. Depending on the ultimate outcome of the 
collection of fees, the Copyright Office may need to use more funds 
from the no-year account than previously planned, and the fiscal 2003 
budget may also require amendment.
    The Register of Copyrights delivered a revised schedule of fees and 
accompanying analysis to the Congress on February 28, 2002, to be 
effective July 1, 2002 (unless the Congress enacts a law objecting to 
the new fee schedule). The new fee schedule does not change the $30 fee 
for a basic claim in an original work of authorship, but a number of 
other fees are increased. While the new fee schedule may ultimately 
generate a 7 percent increase in receipts, the Copyright Office is not 
recommending any change in the fiscal 2003 budgeted receipt level of 
$21.5 million, because information is not available at this time to 
warrant a change.
                     congressional research service
    As a pooled resource of nonpartisan analysis and information, CRS 
is a valuable and cost-effective asset to the Congress. To carry out 
its mission, CRS staff provide a great diversity of analytic and 
research services, including close support to the legislative process 
through interdisciplinary reports and consultations, analyses of 
alternative legislative proposals and their impacts, assistance with 
hearings and other phases of the legislative and oversight processes, 
and analysis of emerging issues and trend data.
    In order to continue serving the Congress at the highest level, CRS 
is requesting additional capacity in two critical areas that will 
affect the lives of almost every American: (1) terrorism and homeland 
security, and (2) issues resulting from the aging of the U.S. 
population.
    CRS is requesting $572,000 and 5 FTEs to acquire new analytical and 
informational capacity to assist the Congress in grappling with 
terrorism and broader homeland security issues that are likely to be at 
the center of congressional attention for years to come, and for which 
CRS does not presently have adequate resources and expertise. This 
funding will support four senior analysts and one senior librarian to 
provide intellectual resources for the Congress in the areas of Islamic 
and Arabic Affairs, Public Health (Epidemiology), Infrastructure and 
Systems Analysis, Science and Technology (Biochemistry), and 
Comparative Religion. Given the profound effects the September 11 
attacks have had on virtually all aspects of American government and 
society, this additional expertise is needed to support the Congress.
    CRS is also requesting $849,000 and 7 FTEs for the salaries and 
benefits of seven senior analysts to build the service's capability to 
assist the Congress in issue areas affected by the aging of the United 
States population. These issues will have major impact on the economy, 
the health-care system and on a wide range of social policies and 
services. This request would enable CRS to acquire new competencies in 
genetics, gerontology, the economics of aging, and the economics of 
health care, as well as actuarial and demographic expertise and would 
allow CRS to build its overall capacity to support the Congress in 
science and technology. The added expertise we are requesting in 
epidemiology, biochemistry, genetics, bioethics, and pharmacology will 
better equip CRS to address a wide range of legislative issues, from 
global warming to stem cell research. The Library is the nation's 
leading scholarly repository, which this new expertise will be able to 
mine for the Congress.
   national library service for the blind and physically handicapped
    The Library administers a free national library program of braille 
and recorded materials for blind and physically handicapped persons 
through its National Library Service for the Blind and Physically 
Handicapped (NLS). Under a special provision of the U.S. copyright law 
and with the permission of authors and publishers of works not covered 
by the provision, NLS selects and produces full-length books and 
magazines in braille and on recorded disc and cassette. Reading 
materials are distributed to a cooperating network of regional and 
subregional (local, nonfederal) libraries, where they are circulated to 
eligible borrowers. Reading materials and playback machines are sent to 
borrowers and returned to libraries by postage-free mail. Established 
by an act of Congress in 1931 to serve blind adults, the program was 
expanded in 1952 to include children, in 1962 to provide music 
materials, and again in 1966 to include individuals with other physical 
impairments that prevent the reading of standard print.
    The fiscal year 2003 budget maintains program services by funding 
mandatory pay and price-level increases totaling $1,954,000. Funding 
the fiscal year 2003 increase is necessary to ensure that all eligible 
individuals are provided appropriate reading materials and to maintain 
a level of sound reproduction machines able to satisfy basic users' 
requirements without developing waiting lines. The budget also supports 
the exploration of alternative digital technologies, which will 
ultimately lead to a new delivery system to replace the current analog 
cassette tape technology.
                     library buildings and grounds
    The Architect of the Capitol (AOC) is responsible for the 
structural and mechanical care and maintenance of the Library's 
buildings and grounds. In coordination with the Library, the AOC has 
requested a capital budget of $15,163,000, an increase of $4,263,000. 
The AOC capital budget includes funding totaling $6,600,000 in 
appropriations for five projects that were requested by the Library.
    The largest Library-requested project, amounting to $5.5 million, 
is for the National Audio-Visual Conservation Center in Culpeper, 
Virginia. During fiscal years 2000-2002, the Congress approved the 
first three increments ($11.6 million) of its matching appropriated 
share. The fiscal 2003 budget request continues to build toward the 
Federal share of $17.1 million (including an increase of $600,000 
needed for higher oversight and monitoring costs). Assurance of the 
government support is critical in leveraging the far larger amount 
(which has now increased to well over 75 percent of the total) that we 
are raising privately for this project.
    The four other Library-requested projects support the preservation 
of the Library's collections and space modifications in the James 
Madison Building. Library- requested projects are prioritized based on 
critical need and in accordance with both the security needs and 
strategic plan of the Library.
    The Library also requested, but the Architect did not approve, 
funding requests for the construction of book-storage module two at 
Fort Meade, Maryland, and for the design of modules three and four. The 
Library has been seeking off-Capitol-Hill storage for its growing 
collections for more than a decade. The availability of the first book 
storage module is now far behind schedule; and the Library cannot 
accept the Architect's proposal to delay work further on the second, 
third, and forth collections-storage modules. The Library's existing 
storage facilities are extremely overcrowded. Many books cannot be 
shelved, posing security, life safety, and preservation problems. The 
Library cannot postpone, again, the availability of additional storage 
facilities. I respectfully ask that the Congress reconsider the 
Architect's proposal to delay the construction of module two and the 
design of modules three and four.
                        automated hiring system
    To resolve outstanding motions pending in the District Court 
related to the Library's hiring and selection procedures for 
professional, administrative, and supervisory technical positions, the 
Library implemented a new hiring process, including an automated hiring 
system. The motions were resolved when the court adopted the Joint 
Report of the parties, which included the new automated competitive 
hiring process. The Joint Report stipulated that the new hiring process 
would be in place no later than March 1, 2001.
    Implementation problems associated with the Library's automated 
hiring system, AVUE, prompted me to ask the Library's Inspector General 
(IG), on July 30, 2001, to undertake a programmatic audit of the 
system. Prior to receiving the final IG report, the Library took steps 
to implement improvements, including appointing a new project manager. 
The IG report, dated February 12, 2002, covered only the initial period 
of implementation (March 2001 through October 2001), and made 
recommendations to improve the automated hiring process and to evaluate 
other alternative systems.
    The Deputy Librarian, the Library's Chief Operating Officer, has 
organized a project management team to address the IG's recommendations 
and has asked for an extensive review of the Library's requirements for 
a content-valid, automated hiring system. In the short term, the 
project management team is working with the vendor to resolve 
processing issues and to improve the timeliness of recruitment actions. 
In the long term, the project management team's evaluation of 
alternatives will help guide further action. The Library will take the 
necessary steps to ensure that our hiring system meets both competitive 
selection requirements and timeliness goals.
                                summary
    ``Every day in America is a new beginning,'' President Reagan used 
to say. ``We are a nation that never becomes, but that is always 
becoming.'' With Congress's support, the Library of Congress has become 
the most universal collection of information and knowledge in the 
history of the world, far more comprehensive even than that of the 
ancient library of Alexandria. Its superbly qualified staff now serves 
the Congress with public policy research service and a Law Library that 
are the world's largest; the nation's libraries with cataloging data 
and material for the blind; the general public with 21 public reading 
rooms here and with on-line digital materials everywhere; and the 
nation's authors and creative artists with the administration of the 
copyright laws.
    Now the Library faces a new challenge to extend its traditional 
function beyond artifactual to electronic collection and preservation. 
We will deliver a National Digital Information Infrastructure 
Preservation Program plan later this year that builds a wide variety of 
new national and international networked relationships. These 
relationships will broaden the Library's reach and support in new ways 
America's role as a leader in the community of nations.
    Maintaining our artifactual collections and at the same time 
building for a networked digital future requires additional resources. 
If America is to remain strong, free, and capable of growth and 
innovation, we must preserve the knowledge of the past, gather in the 
information of the present, and help develop wisdom for the future. The 
Library has an important catalytic role to play in the new, networked 
environment. We can and must fortify and stimulate the research and 
dissemination of knowledge as America becomes engaged in complex 
international issues and conflicts.
    The Congress deserves great credit for supporting all the work that 
the Library of Congress is doing to preserve and make accessible the 
nation's creative heritage and the world's knowledge. Consistently for 
202 years, on a bipartisan basis, our national legislature has been the 
greatest patron of a single library in the history of the world.
    With congressional support of our fiscal 2003 budget, the Library 
of Congress will continue its dedicated service to the work of the 
Congress and to the creative life of the American people.
    On behalf of the Library and all its staff, I thank this Committee 
for its support, and look forward to working for and with the Congress 
in the Library's work of acquiring and transmitting knowledge for 
America.
                                 ______
                                 
Prepared Statement of James H. Billington, Chairman, Board of Trustees, 
               Center for Russian Leadership Development
    I am appearing before this Subcommittee for the first time as 
Chairman of the Center for Russian Leadership Development, the new 
Legislative Branch institution that has succeeded the Russian 
Leadership Program at the Library of Congress.
    The Board of Trustees of the Center for Russian Leadership 
Development met for the first time on March 7, 2002, at the Library of 
Congress. The Board's Honorary Chairman, Senator Ted Stevens (R-AK) , 
and all four of the leadership appointed Congressional trustees were 
present: Senators Carl Levin (D-MI) and Bill Frist (R-TN); 
Representatives Amo Houghton (R-NY) and Bud Cramer (D-AL).
    Board appointees from the private sector, appointed by me as 
Librarian of Congress, joined us by telephone: former Member of 
Congress James W. Symington, former U.S. Ambassador to Russia, James F. 
Collins, and Anthony Richter of the Open Society Institute, 
representing George Soros. One board vacancy remains to be filled.
    The members elected me to serve as Chairman for one year. Senator 
Levin and Representative Houghton will serve as vice chairs for the 
same term. The Board approved an operating budget of $15.0 million for 
2002 including grants and contracts totaling $13.3 million. The board 
also approved the Center's fiscal year 2003 appropriations request 
about which I am testifying today. The members of the board intend to 
remain actively engaged with the Center providing valuable, continuing 
oversight.
    Finally, the board approved the formation of a corporate advisory 
council and initial appointments to that council. The board 
acknowledged receipt of current gifts and pledges totaling $2.0 million 
and engaged in an active discussion of the center's opportunity for 
private fund raising, to supplement the funds appropriated by Congress, 
in accordance with the Center's authorizing legislation.
    The Russian Leadership Program (as it was designated in its first 
Congressional authorization) began in 1999 as a one-year pilot at the 
Library of Congress. The law creating the pilot program (Public Law 
106-31) presented the Library with the challenge of identifying and 
bringing up to 3,000 young and emerging political leaders from Russia 
to the United States for short-term stays to observe our democracy and 
market economy in action.
    This initial authorizing and funding legislation gave the Library a 
mere six months to launch and carry out the program. The leadership and 
vision of Senator Ted Stevens (R-AK), at that time the Chairman of the 
Joint Committee on the Library, recognized and seized a historic 
opportunity to improve U.S.-Russian relations at one of their lowest 
points since the collapse of Communism in the former Soviet Union. Now 
nearly three years later, U.S.-Russian relations are in a dramatically 
different and more positive condition in the wake of the terrorist 
attacks of September 11.
    The United States and Russia are now addressing, in a more 
cooperative way than in recent times, a wide range of critical issues 
such as rule of law, security, trade, and the global fight against 
terrorism. A second summit is scheduled for May in Moscow between 
President George W. Bush and Russian President Vladimir Putin, and 
dialogue is reviving between the American business community and the 
Russian economic sector (led by the U.S.-Russia Business Council and 
the American Chamber of Commerce in Moscow).
    The role that can be played in the Legislative Branch by the Center 
for Russian Leadership Development is suggested by its origin in April 
1999. Throughout its brief history, the Russian Federation has called 
this program ``Open World,'' a term that we have now adopted for 
official use in both the United States and Russia.
History
    At a breakfast meeting of 25 Members of Congress from both Houses 
and both parties during the NATO engagement in Kosovo, I reported that 
U.S. actions in the Balkans had produced severe strains in U.S.-Russian 
relations and, when asked, ``What can be done?'', I repeated a 
suggestion made to past CODELs that I had accompanied to the former 
Soviet Union: the need to replicate for Russia that small part of the 
Marshall Plan that had brought the new post-war generation of political 
leaders from a former adversary to the United States to experience the 
workings of an open democratic society.
    Many Members of Congress were eager to discuss this idea. Senator 
Stevens moved quickly to draft legislation and to provide funding for a 
pilot in the supplemental appropriations bill on Kosovo, which was 
signed in six weeks (Public Law 106-31). The Library rapidly organized 
a program that brought 2,150 young Russians to America in just over 
five months.
    In late 1999, Congress extended the pilot for a second year (Public 
Law 106-113) and in 2001 for a third. It has become more focused on key 
issues for Russian reform, and has been extraordinarily well received 
by American hosts.
    The ``Open World'' Russian Leadership Program has been a success 
and deserves the Subcommittee's continued support:
    It links and engages legislature to legislature and community-to-
community. Russian leaders have come to date from 88 of Russia's 89 
regions and have been hosted in over 700 communities in 48 states and 
the District of Columbia.
    Open World engages a ``people-to-people'' diplomacy unequaled in 
scope and impact since the Fulbright-Hays exchange program and the 
Peace Corps.
The Center for Russian Leadership Development (Public Law 106-54)
    Three years after its founding, the Open World Program is still 
housed at the Library of Congress, but it is independently managed by 
the new Center for Russian Leadership Development, created by the 
Congress (Public Law 106-554). The Center is overseen by a 
distinguished Board of Trustees, many of whom were among the earliest 
supporters of Senator Stevens' initiative in drafting the enacting 
legislation. Senator Stevens himself serves as active and committed 
Honorary Chairman.
Why Should Congress Continue Its Support?
    Having a constructive, more open relationship with Russia--which is 
what prompted the Senate to authorize and fund the program in 1999--is 
even more crucial now for the United States, in light of our need for 
Russia's continued partnership in the global fight against terrorism.
    The United States needs to engage the leadership and people of 
Russia--at all levels--at this critical juncture in the relations 
between our two nations. The Open World Program is a necessary, viable, 
and key partner in the U.S. government's engagement with Russia at many 
complementary levels:
    Open World is an important means for the U.S. Congress to engage 
both the Russian Parliament and Russia's regional and local leaders on 
the issues that are paramount to our evolving relations, particularly 
the issues of security and trade--the focal points of Open World's 2002 
parliamentary program.
    In 2002, we propose to bring Russian parliamentary delegations to 
work with their American counterparts on such key issues as Jackson-
Vanik, WTO accession, money laundering, banking and land reform, and 
combating global terrorism, and, most importantly, rule of law, which 
is key to all other reforms and overall political and economic 
stability in Russia.
    The Open World Program has led the way, for the past three years, 
in reviving public diplomacy with Russia at the community-to-community 
and people-to-people levels. The key element of the program remains 
constant: short-term stays by current and future political leaders who 
have not before visited the United States and who do not speak English 
(thus making them unlikely to be chosen by other U.S. exchange 
programs).
    The heroes of Open World are the American organizations and host 
families that make it possible for the program to operate on such a 
large scale with such modest funding and with such spectacular results. 
Ten days in America can make a great difference to a Russian who has 
never before visited this country. We continually evaluate our criteria 
for selection and the programs offered to our participants.
    The first question we are often asked is about the short length of 
stay. We are bringing active political leaders with day-to-day 
responsibilities and ongoing involvement in building democracy and a 
market economy in Russia. The time we ask them to spend is all they can 
spare. Despite its brevity, the United States stay can still bring 
about a dramatic change in understanding and attitude. Follow-up 
communications between hosts and guests and between host communities 
and Open World participants express the nature of the experience most 
eloquently:

          ``I equate the eleven days I spent in the United States with 
        eleven years of my life (in terms of the exchange of 
        information, the wide spectrum of professional discourse, and 
        the opportunity to get acquainted with another culture and 
        people).''----Judge Mikhail Tarasov, Deputy Chair, Novgorod 
        City Court, Head of the Novgorod Oblast Council of Judges. 
        Host: Chief Judge D. Brooks Smith, U.S. District Court, Western 
        District of Pennsylvania
          ``I truly believe these visits will have, over time, an 
        historic impact on the development of Russian democracy.''----
        Judge Michael M. Mihm, U.S. District Court, Central District of 
        Illinois, Member, Judicial Conference Committee on 
        International Judicial Relations
          ``I give the highest possible rating to the preparation and 
        organization of the program for Russian judges . . . We had the 
        opportunity to spend time with judges, court employees, 
        lawyers, prosecutors, journalists, and state congressmen . . . 
        During the visit to America I was convinced that there is a 
        great deal in common between American and Russian jurists and 
        between the American and Russian people. And we must take steps 
        to bring our countries closer together.''----Judge Alimzhan 
        Shaimerdyanov, Chair, Aleksandrov City Court, Head of the 
        Vladimir Oblast Council of Judges. Host: Judge Michael M. Mihm, 
        U.S. District Court, Central District of Illinois

    The thanks for these results rest with our American volunteer hosts 
who are also affected and rewarded for their participation in the Open 
World program:

          ``We host many visitors and this group was definitely among 
        the best--they were well selected, highly qualified and very 
        engaged. We thoroughly enjoyed hosting this delegation and were 
        highly impressed with their professionalism and level of 
        interest. Through such an exchange, both sides--the Russian and 
        the American--can only benefit as longstanding, productive 
        relationships are initiated and a great amount of information 
        is exchanged.''----Sylvia L. Nimmo, Friendship Force Local Host 
        Coordinator
Results-What Can Open World Achieve:
    The Open World brief stays are catalysts in three areas:
    They are catalysts for dramatic changes in attitude. Experiencing 
the reality of the United States rather than absorbing the distortion 
of American popular culture portrayed in television, film, and music 
helps dispel stereotypes embedded in Soviet-era anti-American 
propaganda;
    The visits are--in a large number of cases--``life-changing'' 
experiences that leave participants with the ability to imagine 
solutions to the many obstacles in the Russia's path to democracy and a 
market economy;
    Most significantly--for the future--Open World fosters ties between 
people and communities that help promote systemic change long after the 
visits have ended.
    Let me cite just a few examples:
    Open World's Rule of Law program brings Russian judges to the 
United States to be hosted by senior U.S. federal and state judges. A 
total of 163 Russian judges participated in 2000-2001. Our plans to 
bring 300 judges in 2002 coincide with Russia's preparations to 
implement recently enacted judicial reforms. Our partner in this effort 
is the Judicial Conference of the United States. Many of the American 
judges who have participated--led by Judge Paul Magnuson of Minnesota 
and Judge Michael Mihm of Illinois--are actively seeking to establish 
U.S.-Russian ``sister court'' relationships to further promote key 
concepts of court administration and judicial ethics in Russia.
    A grant to the American International Health Alliance (AIHA) 
approved at our Board meeting last week will bring key political 
leaders from five Russian regions on a pilot basis to advance a model 
of healthy communities to combat Russia's overwhelming health crises. 
Pilot sites in both the United States and Russia are being carefully 
chosen to create the optimal linkage between U.S. host communities and 
participating Russian communities.
Conclusion
    President Putin's call to President Bush immediately after the 
attacks on the World Trade Center and Pentagon on September 11 set in 
motion a dramatic realignment in U.S.-Russian relations. President 
Putin is advancing bold and ambitious reforms on many topics; the 
upcoming U.S.-Russia Summit has many unresolved issues as the two 
nations seek to address security, trade, and anti-terrorism agendas.
    Understanding of these common goals remains, however, less well 
understood within the 50 states that make up the United States and the 
89 regions that constitute the Russian Federation. The Open World 
Program is unique among American exchange efforts. The Center's 
mission, scope, and results enable it to advance the overall U.S. 
agenda with Russia. It has been praised by business leaders, NGO 
leaders, political leaders, and citizens in both nations.
    This Subcommittee's support is essential. The Center's fiscal year 
2003 budget request seeks to restore our initial funding level of $10.0 
million and absorb inflation in the United States and Russia over three 
years and the costs to be reimbursed to the Library for housing the 
Center, and the costs of applying the lessons learned over three years 
to provide the highest-quality program possible to 2,500 Russian 
political leaders in 2002.
    The United States has painfully discovered the consequences of 
abandoning public diplomacy and engagement in Afghanistan and other 
nations of the Muslim world. Russia is a key ally in the global war 
against terrorism. It is home to vast natural resources, huge and often 
ill-secured reserves of weapons-grade plutonium, and the world's 
largest land-mass with a largely unsecured border with China. The 
reasons to support our budget request for fiscal year 2003 are 
straightforward:
  --The Open World Program is identifying and bringing to the United 
        States the leaders throughout Russia who will be the United 
        States' partners at negotiations on security, trade, and other 
        issues in 2002 and beyond.
  --An investment of $10.0 million from the Congress in that next 
        generation of leaders is a smart and economic step toward 
        ensuring the future.
                                 ______
                                 
               Prepared Statement of Daniel P. Mulhollan
    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to appear before you today to present the fiscal 2003 
budget request for the Congressional Research Service (CRS). Our 
request this year focuses on two areas of critical importance to the 
nation's security and future stability: terrorism and homeland 
security, and the aging of the U.S. population. Before discussing the 
details of our request, however, I would like to thank the Subcommittee 
for its generous support of our fiscal 2002 budget.
            status of fiscal 2002 crs technology initiative
    Last year, with your support, Congress provided CRS with $3.5 
million to build analytical capacity in the areas of information and 
technology policy, and to acquire the technical staff and tools needed 
to build and maintain a secure 21st century technology-based research 
environment. Included in this initiative was funding to hire five 
senior policy analysts in information and technology policy and 12 
technology staff. We hope to have the full complement of these staff 
on-board in CRS by the end of this year. Also included in our 2002 
technology initiative was funding to support our efforts in the areas 
of disaster recovery and information security, and to begin developing 
a collaborative computing infrastructure in CRS. Earlier this year, I 
approved a series of contracts to support these aspects of our 
technology initiative, and we are in the process now of implementing 
those contracts.
    While CRS has focused for many years on issues related to 
information security and disaster recovery, these efforts took on added 
significance in the aftermath of the September 11th attacks and the 
anthrax assaults on Capitol Hill. In response to these events, CRS 
escalated its emergency preparedness and business continuity planning 
efforts so as to ensure that in the event of any future emergency, 
Congress would have near-immediate access to needed CRS staff and 
information systems such as the CRS Website and the Legislative 
Information System (LIS). I am particularly pleased that CRS has been 
asked by the Senate to integrate our emergency preparedness and 
business continuity planning efforts with your own ``Continuity of 
Operations Plan''. Thank you again for your generous investment in our 
technology capacity. We will continue to use the resources you have 
given us to further protect and enhance our information systems in 
support of our ultimate goal to build a robust technological 
infrastructure from which to deliver leading edge research services to 
the Congress when, where, and in the form that you need them.
  assisting the congress on issues related to terrorism and homeland 
                                security
    Beyond these endeavors to ensure the safety and security of our 
staff and systems here on Capitol Hill, CRS continues to work closely 
with Members and Committees in both Houses on a multitude of issues 
related to combating terrorism and ensuring homeland security. As we 
are all too aware, the September 11, 2001 terrorist attacks on the 
United States have fundamentally altered America's way of life. From 
the steps of the Capitol to the Olympic stadiums of Salt Lake City, we 
see daily reminders of this new and different world: heightened 
security at public buildings and sporting events; new screening 
procedures at the nation's airports; town hall meetings to discuss 
emergency preparedness and evacuation plans; news reports concerning 
potential risks to our nation's food, water and energy supplies; and 
continuing uncertainty about the state of the U.S. economy--to name but 
a few.
    In all the years that the U.S. government has had to confront 
organized terrorism, the challenges of deterrence, detection, 
interdiction, immediate response, and incident remediation have never 
been as great, and the consequences of failure more potentially 
catastrophic. The September 11th attacks, subsequent anthrax incidents, 
and the unfolding responses have few precedents in terms of their 
impact on virtually all U.S. programs and policies. The budgetary 
implications of these events and the ongoing war against terrorism will 
be equally profound. Current estimates for homeland security 
appropriations are $29 billion in fiscal 2002, and nearly $38 billion 
requested for fiscal 2003. Future costs will likely continue to rise, 
accompanied by numerous questions about how much is adequate, how 
priorities should be set, and how resources should be allocated. New 
policies and programs may need to be developed to defend against 
conventional, biological, chemical, and nuclear attack by improving our 
threat assessment and response capabilities, federal coordination, law 
enforcement capabilities, and public health services. Indeed, most of 
the issues on the Administration and congressional agendas are being 
reexamined and reshaped in the context of September 11th.
    Congress must be prepared to address these challenges in both the 
short and long term. And CRS must be prepared to help you. Building on 
our already close working relationship, my goal is for CRS to be there 
with you at every step of the way as you examine the universe of issues 
related to combating terrorism and ensuring homeland security. Congress 
and CRS already have a strong history of working together on terrorism-
related issues. For example, following the October 2000 assault on the 
U.S.S. Cole in Yemen and the release of the recommendations of four 
national study commissions, CRS supported Congress in its efforts to 
address federal anti-terrorism policy, organization, and funding, and 
to develop reform legislation. We provided extensive analysis to a 
number of Members and Committees examining terrorism-related issues, 
and developed a range of analytic products and services, including a 
terrorism website. CRS specialists testified before two House 
Committees on proposals for reforming U.S. anti-terrorism efforts. We 
organized a congressional seminar to compare and analyze commission 
findings with senior representatives from each of the study panels. 
Several reports and issue briefs were prepared for Congress on 
terrorism-related topics, including a comprehensive assessment of Near 
Eastern terrorism groups and state sponsors that was released on 
September 10, 2001.
    To assist Congress in the aftermath of the September 11 attacks, 
CRS instituted a Service-wide, coordinated response that drew upon 
senior policy experts in all relevant fields. Within days after the 
attacks, we had prepared dozens of situation reports and assessments on 
a range of issues. Within two weeks, we prepared policy analyses on 
over 80 pertinent topics and offered these to Congress through our 
website. We provided intensive counsel to a number of Members and 
Committees during their deliberations of the Fiscal 2002 Emergency 
Supplemental, the Aviation and Transportation Security Act, the USA 
Patriot Act, and the Border Security and Visa Entry Reform bill. In 
addition, we continue to conduct in-person briefings and seminars for 
Members and congressional staff, testify before congressional 
Committees, and prepare new reports each week on topics ranging from 
the federal role in emergency management to the future government of 
Afghanistan.
    Mr. Chairman, I am grateful for the opportunity CRS has had to 
serve you during this difficult time in our nation's history, and I am 
proud that so many Members and staff have called upon us to deliver the 
type of objective, nonpartisan assistance that only CRS can provide. 
Each Member who has called to request a briefing, and each staffer who 
has called to discuss the implications of a particular policy issue or 
problem, has given us an opportunity to contribute directly to the 
nation's recovery from the September 11th attacks.
    Despite this record of support, however, there are several 
important areas of expertise that CRS has been unable to offer you up 
to this point. These areas of expertise include Islamic and Arabic 
affairs, epidemiology, biochemistry, infrastructure engineering, and 
comparative religions. For example, a specialist in Islamic and Arabic 
affairs or comparative religions would have enabled CRS to analyze in-
depth the various Islamic sects and factions to help Congress address 
questions about what religious beliefs the terrorists held and how 
those beliefs may have dictated their actions, what backing those 
beliefs have in the Islamic world, and why the terrorists exhibit such 
hatred toward America. Without a specialist in public health/
epidemiology, CRS was similarly not well positioned to provide timely 
analyses on the nation's readiness to respond to acts of bio-terrorism 
through early detection and prevention methodologies such as vaccines 
and prescription drugs, or to discuss the relationship between the U.S. 
public health system and various state and local health entities and 
how that relationship supports or hinders accurate threat assessment 
and early detection and treatment of public health hazards. CRS also 
lacked the capacity to provide sophisticated analysis on legislative 
issues associated with domestic risks and threats from biological and 
chemical agents expertise that could have been provided by a specialist 
in biochemistry. Finally, CRS could have done more to assist Congress 
in assessing risks to the nation's critical infrastructure had we had a 
specialist who could lead analysis on issues related to structural or 
civil infrastructure engineering, risks associated with critical 
infrastructure elements such as dams and nuclear power supplies, and 
related governmental planning and operational procedures.
    To address these critical gaps in CRS capacity, I am requesting 5 
FTEs and $572,000 to hire senior expertise in each of these five areas. 
These are not capacities to be acquired temporarily on contract. Nor 
are they capacities that are resident in CRS's current mix of staff. 
They are fundamental new competencies that Congress must have available 
to it in order to legislate effectively on issues related to terrorism 
and homeland security--issues that are likely to be at the center of 
the congressional agenda for many years to come. Without this infusion 
of new expertise, CRS support to Congress on these critical national 
issues will be incomplete.
   assisting the congress on issues related to the aging of the u.s. 
                               population
    Although much of Congress's attention is rightly focused on issues 
related to combating terrorism and ensuring homeland security, there is 
another ``national security'' issue confronting the Congress that I 
would like to raise with you today, namely the aging of the U.S. 
population. Issues related to the aging of the U.S. population will 
affect the lives of millions of Americans and have a profound impact on 
our economy, our health care system, and on a whole range of social 
policies and services, from now until well into the foreseeable future. 
Already, this session, you are grappling with several major age-related 
initiatives: improved coverage of prescription drugs under Medicare as 
proposed in the Medicare Prescription Drug and Modernization Act (S. 
358) and the Medicare Reform Act (S. 1135); new tax incentives to 
encourage the purchase of long-term care insurance, such as the Health 
Care Assurance Act (S. 24); and increased staffing and improved 
employment conditions in nursing homes and home health care agencies, 
as proposed in the Nurse Reinvestment Act (S. 4). In addition, you are 
facing the prospect of major Social Security reform legislation in the 
108th Congress. Given their enormous scope and the implications they 
will have for so many aspects of American society, I believe it is 
critical that CRS begin positioning itself now to assist you with these 
important issues.
    From a budgetary standpoint alone, these issues are enormous. 
Annual federal spending associated with retirement and disability 
programs will reach $1 trillion for the first time in fiscal 2002. This 
spending amounts to half of all federal spending and 9 percent of gross 
domestic product (GDP). These programs, the largest of which are Social 
Security, Medicare, Medicaid, and federal employee retirement, already 
dominate the fiscal policy debate. Projections indicate that, under 
current policies, these programs will continue to grow as a proportion 
of total federal spending and GDP as the U.S. population grows older. 
Congressional concern with these spending trends will likely intensify 
because of reduced revenue projections and the spending impacts of 
recession and the war against terrorism. Already, Congress is 
considering a number of Social Security reform proposals. Projections 
that Medicare's Hospital Insurance Trust Fund will become insolvent as 
early as 2029 are also occupying congressional attention. In addition, 
many Members have expressed concern about the status of the federal-
state Medicaid program, which is experiencing a higher growth rate in 
costs than is Social Security. Many states are in a fiscal struggle to 
keep their programs adequately funded. Federal Medicaid spending, $143 
billion in fiscal 2002, is expected to grow at an annual rate of 6.3 
percent over the next decade, the highest growth rate of any 
entitlement program. Nearly half of Medicaid spending goes for long-
term care services for the elderly.
    Against this backdrop of fiscal concern, Congress is under pressure 
to address perceived weaknesses in current benefits for the aged, and 
these pressures are likely to grow as the number of elderly Americans 
begins to accelerate. In particular, the aging and retirement of the 
``Baby Boomers'' (the oldest of whom will reach age 60 in 2006) will 
cause considerable changes and challenges in our political, social, and 
budgetary institutions. However, the immediate concern regarding the 
retirement of the large Baby Boom generation is only a stage in an 
expected transformation of our society, a transformation that will 
produce an older population than has ever existed before. Indeed, over 
the next thirty years, the population over age 65 is projected to 
double, and will constitute 20 percent of the population in 2030.
    Recognition of the future rapid aging of the population is already 
driving current legislative activity on private pensions, retirement 
savings, proposals for prescription drug coverage, long-term care, 
military health care for retirees and dependents, social services for 
the aging, special housing and assisted living, health personnel and 
facilities, and other programs focused on the elderly. To address such 
a broad set of initiatives within the context of growing budget 
pressures, the Congress will need access to high levels of expertise 
across a number of fields. CRS is uniquely positioned to provide this 
type of expertise, but building such a staff capability will require us 
to hire new competencies in genetics, gerontology, the economics of 
aging, and the economics of health care, as well as actuarial and 
demographic expertise. Accordingly, I am requesting 7 FTEs and $849,000 
to hire seven senior analysts to build these capacities in CRS. Given 
the extraordinary transformation our society will undertake in the 
coming years, I believe that now is the time to start acquiring and 
developing this expertise for the Congress.
  growing capacity for congress in the areas of science and technology
    Finally, I would like to note what I perceive to be a significant 
added benefit of funding CRS's fiscal 2003 budget request. If approved, 
this request would enable CRS to continue building its overall capacity 
to support the Congress in the areas of science and technology. Indeed, 
the expertise we are requesting in epidemiology, biochemistry, 
genetics, gerontology, and pharmacology could be applied broadly across 
a wide range of emerging legislative policy issues. For example, 
Congress will be facing increasing legislative needs in the biomedical 
area with accelerating developments in genetics and biotechnology 
affecting the areas of human health and governmental oversight; in the 
domestic and international environmental area as growing population and 
economic activity place increasing burdens on the sustainability of 
natural systems; and in the general area of emerging information 
technologies as they affect security and infrastructure systems. 
Together with the positions you provided to us last year to increase 
CRS's technology and information policy capacity, these additional 
positions would significantly enhance CRS's ability to enrich the 
policy analysis it provides to the Congress with high-quality 
scientific and technical expertise.
    The addition of these positions would also serve to augment the 
efforts CRS has undertaken within existing resources to identify much-
needed science and technology capacities through our ongoing succession 
planning. Over a year ago, we identified and filled a number of 
positions in the areas of science and technology, including four 
Ph.D.'s in physics, biomedical science, environmental science, and 
information policy. In addition, CRS currently is contracting for 
Ph.D.-level expertise in the areas of biology, chemistry, and petroleum 
geology.
    As this budget request demonstrates, science and technology are 
playing an increasingly important role in virtually all areas of public 
policy. In order for Congress to legislate effectively in this 
increasingly complex world environment, you must have access to the 
best scientific minds and technological expertise the country has to 
offer. I believe that CRS can and should play a role in providing you 
with this expertise. If approved, this budget request will assist us in 
doing so.
                               conclusion
    Mr. Chairman, I appreciate the opportunity to appear before you and 
your colleagues today, and I want to thank you again for the support 
you and this Subcommittee have given to CRS over the years. I want to 
assure you that I continue to adjust existing staff and resources to 
align with the Congress' legislative needs. This request for 12 
positions reflects new added capacities that cannot be drawn from other 
subject areas without weakening CRS's overall support to Congress 
across all legislative issues. We take very seriously our mission to 
provide the Congress with comprehensive and reliable analysis, 
research, and information services that are timely, objective, 
nonpartisan and confidential, thereby contributing to an informed 
national legislature. I hope you find that we are meeting this mission, 
and that we are doing so in a way that warrants your continued trust 
and support.
                                 ______
                                 
    Prepared Statement of Marybeth Peters, Register of Copyrights, 
                            Copyright Office
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to present the Copyright Office fiscal year 2003 budget 
request. This is an exciting time for the Copyright Office as we move 
ahead with our reengineering program to improve our public services 
including the provision of these services online. This budget request 
ensures our ability to maintain a strong and effective national 
copyright system, one that serves both owners and users of copyrighted 
works. It provides funding to administer the nation's copyright law and 
provide expert policy assistance to Congress and the Executive Branch.
                    fiscal 2002 supplemental request
    I would like to begin by noting that the Office has requested a 
$7.5 million supplemental appropriation for fiscal 2002 resulting from 
the security-related suspension of U.S. Postal Service mail to the 
Library. This disruption of USPS mail delivery began on October 17, 
2001 and has caused a one-third decrease in receipts for the first four 
months of the fiscal year from the level we had projected. This is 
extremely significant since two-thirds of the Copyright Office's basic 
budget is funded through fees, primarily those received for registering 
claims to copyright. Based on current information from the 
congressional mail task force, we anticipate a substantially reduced 
flow of USPS mail continuing for at least another four or five months. 
Even when full mail delivery resumes, the Office will have difficulty 
processing the resulting backlog and fees before the end of the fiscal 
year. Based on actual receipts for the first four months of the fiscal 
year and the expected continued delays in mail delivery, the Copyright 
Office estimates the fiscal year 2002 receipts will be down from $21.5 
million to $14 million. We are, therefore, requesting a $7.5 million 
supplemental appropriation for the Copyright Office, Salaries and 
Expenses Account.
    We need this supplemental funding for the Office to maintain its 
basic operations and staff. This capacity must be ensured so that we 
can meet public service needs once mail delivery resumes.
                        copyright office mission
    The mission of the Copyright Office is to promote creativity by 
administering and sustaining an effective national copyright system. In 
doing this, the Office carries out the following functions: (1) 
Administration of the United States copyright law: It processes claims 
for copyright registration, documents for recordation, and works 
deposited under the mandatory deposit provisions of the law. It creates 
public records of these actions and provides copies of deposited works 
for the Library's collections. The Office also administers the law's 
compulsory licensing provisions, and convenes arbitration panels to 
determine royalty rates, terms and conditions of licenses, and the 
disposition of royalties. (2) Policy Assistance, Regulatory Activities, 
and Litigation: The Office assists congressional committees in drafting 
and analyzing legislation relating to intellectual property; represents 
the U.S. Government at international meetings and diplomatic copyright 
conferences; and advises the U.S. Trade Representative, the State 
Department, and the Commerce Department on domestic and international 
copyright laws. (3) Public Information and Education: The Copyright 
Office provides information to the public about United States copyright 
laws and Copyright Office practices and procedures, and conducts 
searches, which may be certified, of the copyright records. The Office 
conducts outreach to inform the public discussion of copyright issues.
                fiscal year 2003 budget request summary
    For fiscal 2003, the Copyright Office requests an increase in its 
Offsetting Collections Authority from $21,880,000 to $23,321,000. This 
$1,441,000 increase is based on projected annual fee receipts of 
$21,500,000, and the use of $1,821,000 from the Copyright Office no-
year account.
    The Copyright Office no-year account balance totaled $3,080,660 as 
of September 30, 2001. In the current fiscal year we will use $380,000 
from the no-year account to fund the ongoing reengineering program. 
This fiscal 2003 initiative represents the continuation of a five-year 
reengineering program initiative started in fiscal year 2000. In fiscal 
2003, the Office proposes that no-year account funds be used for two 
parts of the reengineering program: (1) $1,441,000 to partially fund 
the IT improvements; and (2) $380,000 to continue implementing business 
process reengineering. We plan to use the remainder of the no-year 
account funds to further develop and build IT systems.
    The fiscal 2003 reengineering funds will be used to hire 
contractors to perform system design and development activities based 
on the IT Requirements Analysis we are now undertaking and which is 
scheduled to be completed in June. The analysis will provide the 
Copyright Office with an IT strategy that supports reengineering, lays 
out a plan for replacing aging systems, and expands the electronic 
delivery of our public services.
           proposed adjustment in some copyright office fees
    On February 28, 2002, I delivered a revised schedule of fees to 
Congress. The new fees will take effect 120-days after submission, on 
July 1, 2002, unless Congress enacts a law within that period stating 
that it does not approve the schedule. The Office is proposing 
adjustments for certain fees, but does not recommend a change for the 
$30 basic copyright registration filing fee. No change is recommended 
in the fiscal 2003 budgeted receipt level of $21.5 million because of 
the great uncertainty in our receipt levels due to the mail situation 
both this year and into next year, making it extremely difficult for us 
to make fee projections at this time.
                 review of office work and future plans
    I would like to briefly highlight some of the Office's current and 
past work, as well as our plans for fiscal 2003.
Reengineering
    Since September 2000, the Office has pursued a needed, and 
ambitious, reengineering program to improve our public services. We are 
now merging our information technology planning and our business 
process reengineering to form an Office-wide reengineering program that 
incorporates our processes, technology, organization, and facilities. 
This program will allow the transformation of our processes from hard-
copy and largely manual processing to one where we offer our services 
electronically to the maximum extent possible and use technology to 
improve our internal workflow. The reengineered processes call for 
information systems and tools that markedly reduce keyboarding of data 
and the extensive movement of paper and materials that are so prevalent 
in the processes the Office use today. The initiative will also enable 
the Copyright Office and the Library of Congress to fulfill their 
missions in the digital environment by increased acquisition of digital 
works through the copyright registration system.
    To provide public services online and to implement the reengineered 
business processes, the Office must put into place a new technology 
infrastructure, including hardware and software. The new infrastructure 
will promote the use of electronic applications, deposits, and 
correspondence; incorporate the latest scanning technologies including 
optical and intelligent character recognition (OCR/ICR); create 
tracking and reporting capabilities; and permit the exchange and 
sharing of data between Copyright Office and the Library of Congress 
electronic records.
    The time line is aggressive and carefully integrates the new 
business processes with the development of new robust Copyright Office 
Information Technology (IT) systems. We have made significant progress 
in defining new processes and improvements for our core business 
processes and in chartering a path for a comprehensive information 
technology strategy.
    In fiscal year 2001, the Copyright Process Reengineering Team, 
composed of staff directly involved in these processes, assessed the 
Office's core business processes and completed a Baseline Current 
Operations Report in January 2001. This report was the first of a 
series of documents to record findings, conclusions, recommendations, 
and plans to implement new processes in the Office. The team used this 
report as the baseline from which to plan for the new environment.
    From January until April 2001, the team worked to redesign the 
Office's principal business processes. During this phase of the 
project, the team analyzed issues and problems with the current 
processes and developed new processes that are organized around 
outcomes to ensure that activities focus on the final output to be 
produced. The new processes are: Maintain Accounts, Answer Requests, 
Record Documents, Acquire Deposits, Register Claims, and Receive Mail.
    A Reengineering Implementation Plan was completed in June. We are 
now defining the redesigned processes to an operational level, drafting 
procedures manuals, creating a training plan, and developing a 
reorganization package, including new job roles for the new processes.
    Recognizing the need for a concomitant reengineering of IT systems 
to support the reengineered business processes, last year the Office 
began a comprehensive assessment of IT systems and projects and 
established an interim Information Technology Oversight Group (ITOG) to 
direct IT activities. In 2001, the Office formally began the 
reengineering of its automated systems by issuing a request for 
quotation for contract assistance to complete an IT requirements 
analysis. This is the first step in the process of building and 
acquiring the Office's IT systems so they will support the reengineered 
business processes and allow the Office to provide more services 
electronically.
    In September 2001, an IT requirements analysis contract was awarded 
to follow in step with the Office's reengineering work and define the 
automated procedures to collect, route, and manage the information that 
makes up the historical record of a copyright. This effort will address 
electronic and scanned images of applications for copyright 
registration and documents, more comprehensive fiscal processing 
including acceptance of credit card payments, electronic routing of 
records and documents, and effective means to track public service 
requests. In addition, parts of the Office not included in the business 
process reengineering study are being looked at and opportunities 
identified for technology based improvements in those areas.
    The requirements analysis will produce two products by this summer 
that will be critical to fully prepare for the new business 
architecture: (1) functional specifications for system components that 
will be needed to support the reengineered business processes including 
decisions about best hardware and software options and best IT 
development and operation practices; and (2) an integrated BPR and IT 
implementation plan that lays out the events and tasks necessary to put 
in place the changes in the Office processes, organization, and 
facilities, as well as in technology. The plan will delineate the 
dependencies between events and will identify the critical path to 
facilitate management of the overall program.
    This year, based on the planning and requirements analysis work now 
underway, the Copyright Office will award task order contracts to begin 
systems analysis, design and development work. These contracts will be 
put into place to rebuild and integrate the Copyright Office's 
information systems to meet the new business process requirements. The 
systems development effort will be substantial and the Office expects 
that most, if not all, work will be done through outsourcing tasks to 
contractors skilled in building state of the art systems. The task 
order contracts will facilitate assignment of manageable and measurable 
tasks to the contractors. Issuing concurrent task assignments will also 
accelerate development with most occurring during fiscal years 2003, 
2004, and 2005.
Registration, Recordation, and Cataloging Operations
    In fiscal 2001, the Copyright Office continued to fulfill its 
statutory mandate to register claims to copyright and make available a 
public record of these claims. During the fiscal year, the Office 
received 590,091 claims to copyright covering more than 800,000 works, 
and registered 601,659 claims. The Office worked diligently to improve 
the timeliness of its registrations by reducing a backlog of claims on 
hand. In February 2001, the Examining Division implemented a major 
backlog reduction effort. The goal of this effort was to reduce the 
processing time for a copyright registration from receipt of the 
application to issuance of a certificate and to reduce the number of 
unexamined claims on hand to four. At the end of the year, this number 
had been achieved and the backlog had been reduced by more than 80 
percent.
    Title 17 of the U.S. Code requires the Register of Copyrights to 
provide and keep records of all deposits, registrations, recordations, 
and other copyright-related services such as renewals and to prepare 
indexes of all the records. The Cataloging Division records the 
copyright facts of all works registered in the Copyright Office. In 
fiscal 2001, the Division received 595,224 registrations and created 
cataloging records for 548,458.
    The public record created by the Cataloging Division also includes 
assignments, security interests, notices of termination of transfers, 
statements of death, and notices of errors in the name in a copyright 
notice. The Documents Recordation Section received 15,369 documents and 
recorded 15,242 covering more than 300,000 titles or works.
Licensing Activities
    The Copyright Office administers the compulsory licenses and a 
statutory obligation under Title 17. The Licensing Division collects 
royalty fees from cable operators for retransmitting television and 
radio broadcasts, from satellite carriers for retransmitting 
``superstation'' and network signals, and from importers and 
manufacturers of digital audio recording products for later 
distribution to copyright owners. In fiscal year 2001, the Office 
distributed approximately $264 million to copyright owners. The 
Division deducts its full operating costs from the royalty fees and 
invests the balance in interest-bearing securities with the U.S. 
Treasury.
    During fiscal year 2001, the Copyright Office administered five 
Copyright Arbitration Royalty Panel (CARP) proceedings. Three of the 
five proceedings involved setting rates and terms and the other two 
proceedings involve the distribution of royalty fees.
Copyright Education
    Another principal function of the Copyright Office is providing 
information on copyright law and its application. The Copyright Office 
responds to public requests for information and engages in outreach 
programs to inform the public discussion on copyright issues. The 
Public Information Office responded to 138,352 telephone inquiries, 
13,932 letter requests, and 12,000 electronic mail requests for 
information from the public. It also assisted 11,600 members of the 
public in person, taking in 21,845 registration applications, and 2,164 
documents for recordation. The Copyright Office Web site continued to 
play a key role in disseminating information to the copyright community 
and the general public with 12.1 million hits during the year, a 28 
percent increase over the prior year.
                               conclusion
    The Office looks forward to working with Congress on the copyright 
challenges facing the United States both at home and abroad. Our major 
reengineering program will position us to fully meet the 
responsibilities given to the Office in the Copyright Act. I thank you 
for your consideration of this request for fiscal 2003, as well as our 
supplemental appropriations request for the current fiscal year.

             MAJOR ELEMENTS OF THE LIBRARY'S BUDGET REQUEST

    Senator Durbin. The Library's budget request for fiscal 
year 2003, excluding the Congressional Research Service and the 
President's accrual proposal for health and retirement 
benefits, is $423.9 million, an increase of $23.7 million over 
the current year. The Library is requesting a substantial 
increase for digital initiatives as it balances the need to 
adapt to the electronic age with its traditional mission of 
acquiring, preserving, and making accessible books and other 
artifacts. Significant increases are also requested to expedite 
processing of new materials, eliminate arrearages, and prepare 
items for off-site storage.
    Other critical issues we look forward to discussing today 
include the Library's mail backlog and its impact on 
operations, an issue which we are familiar with on Capitol 
Hill; the status of the new automated hiring system; and the 
Russian Leadership Program.
    I now turn to my friend and ranking member, Senator 
Bennett, for his opening statement.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman. You have covered 
all of the items that we need to pay attention to.
    I would simply like to raise an issue that I raised in 
conversation with Mr. Mulhollan, when he came by in a courtesy 
visit prior to the hearing, that really goes back to my memory 
of the Library of Congress when I was serving up here as a 
staffer, and that is how do we make sure that Members of 
Congress understand what is available to them in the form of 
the Congressional Research Service and do what we can to 
facilitate the use of those superb support services that are 
there in CRS.
    The Library represents a national treasure. I try not to 
use that term overmuch. I remember a period in our political 
history when everybody was a national treasure, the old line 
about we are all special. But the Library truly is a national 
treasure, but we must remember that it exists primarily, first 
and foremost, to serve the Congress and support the Congress. 
Unfortunately, I think some of our fellow members do not 
understand what a treasure they have within walking distance 
and do not use it as much as they should.
    So, Mr. Mulhollan and I had that conversation when he was 
in my office, and I want to get it on the record of the hearing 
here that it is going to be one of the things that I am going 
to pursue in the time ahead.
    With that, Mr. Chairman, I would just comment that I have 
been to enough of these now, met these three gentlemen often 
enough, to know that they are outstanding public servants and 
that the country, as well as the Congress, should be grateful 
for the service that they render.
    Senator Durbin. Thank you, Senator Bennett. Not only are 
these gentlemen fine public servants, you are truly a national 
treasure.
    Dr. Billington.

                        OUR NATION'S CHALLENGES

    Dr. Billington. Thank you, Mr. Chairman and Senator Bennett 
and members of the committee.
    The details of our funding request, which we are very 
pleased and honored to have the opportunity to present to you 
today, are in my longer statement. I would like just briefly to 
suggest at the outset how the Library is helping to address 
some of these key challenges facing our Nation today.
    We are, in the first place, in the midst of a digital 
explosion. It is the greatest revolution in communication since 
the advent of the printing press. The Library of Congress is 
playing a leading role in bringing the potential educational 
benefits on the Internet free of charge to the American people 
in their own localities with our National Digital Library, 
which now has more than 7\1/2\ million items of American 
history and culture on line. We have the beginning of a global 
on-line library with agreements with the national libraries of 
Russia and Spain, continuing conversations with others, and we 
are putting on line the best practice teaching experiences of 
teachers and librarians across the country, a number of whom we 
have helped train.
    The Advertising Council has recognized the educational and 
inspirational value of these on-line Americana resources by 
supporting for the first time in their history a multi-million 
dollar, nationwide program for a library.
    Overall, our free on-line services, such as THOMAS for 
comprehensive information on the Congress, received well over 1 
billion transactions last year. We are now leading the new 
congressionally mandated campaign to create and implement also 
a shared national plan to preserve the growing amount of 
important material that is being produced only in digital form 
in a world where the average website lasts only 44 days and 
much of the most important material is endangered and 
vanishing.
    Much of the Library's requested budget increase, including 
key digital projects in the Law Library for its Global Legal 
Information Network, and in the Copyright Office for its re-
engineering process, are needed so that we can, in effect, 
enhance electronic services as befits the age we live in and 
also integrate, a new virtual library into the already existing 
traditional artifactual one.

                            WAR ON TERRORISM

    In the war on terrorism, as in the competitive global 
marketplace, both of which America is deeply involved, we need 
to know more about more parts of the world than ever before. 
Hitherto little-known regions like Kosovo, Burundi, Chechnya, 
Afghanistan, smaller Muslim countries of Central Asia, all play 
a much greater role in our thinking these days, and the Library 
has unique collections for all of these places, collections in 
450 languages. We continuously gather in a wide range of 
materials from six unique overseas offices in places like 
Cairo, Islamabad, New Delhi, Jakarta. We have large special 
reading rooms for the Asian, European, Hispanic, African, and 
Middle Eastern worlds, and we have the largest and most 
comprehensive Middle Eastern collection in the world, including 
also an extraordinarily rich Arabic one.
    Our expert curators recently discovered, for instance, in 
our Arabic language collections a 92-page, 11-year-old 
interview with Osama bin Laden with a great deal of important 
detail that was not otherwise available. Supporting such 
collections and the curators who understand them and cull them 
is a national need that our proposed budget will help meet.
    There is a closely related national need to bridge the 
continuing split in our society between the thinkers and doers. 
The Congressional Research Service does much of this, providing 
knowledge usefully for the Congress in a shared service. We are 
proposing now to augment that capacity particularly in 
technical fields within CRS that Mr. Mulhollan will talk about 
in a minute. These are areas that are important in the current 
war on terrorism.
    The Library has now also raised a private endowment, thanks 
to John Kluge, the head of our Madison Council, largely, but 
from a few others as well, to bring a significant number of the 
world's greatest minds to the Library to be available for 
informal contact with the Congress, people who can dispense 
wisdom, not just sound bites, and provide deep perspective for 
a present-minded city.
    The war on terrorism has opened up new areas of cooperation 
with Russia and this relationship is becoming even more 
important as we seek to prevent the spread of Russia's huge and 
unique supply of weapons of mass destruction to hostile nations 
of terrorists. The Library has helped forge good relations with 
the new generation of emerging Russian political leaders by 
bringing more than 4,000 of them from all over Russia to 
America, with more than 2,000 scheduled for this year under our 
Open World Russian Leadership Program, which the Congress has 
now set up as an independent center.

                INFRASTRUCTURE AND SECURITY ENHANCEMENTS

    Wherever people today are trying to move from autocracy to 
democracy, they realize that open access to knowledge is one of 
the essentials for a participatory and accountable government 
and they admire the special link that our legislature has had 
from the beginning with its Library. The Congress of the United 
States quite simply has been the greatest single patron of a 
library in the history of the world, amassing here more than 
124 million items in all languages and formats and a staff 
superbly equipped to make it all freely accessible to the 
public.
    The Library of Congress provides the Congress and the 
Government here in Washington with the world's knowledge and 
transmits to people everywhere more and more the primary 
materials of America's creative heritage and also increasingly 
of the world's varied cultures.
    To sustain this demanding range of things that we do and to 
sustain these collections, the Library needs substantial 
infrastructure and security enhancements. The increased funds 
requested for the coming fiscal year are mainly for mandatory 
pay raises and benefits and unavoidable price increases. 
Programmatic and infrastructure requests represent net overall 
only about a $10 million net increase over last year's 
appropriations.
    Mr. Chairman, Senator Bennett, and members of the 
committee, we thank you on behalf of all of us at the Library 
of Congress for your terrific support over the years and for 
your consideration of this year's request.
    I would like to turn the microphone over to my 
distinguished colleague, our Chief Operating Officer, the 
Deputy Librarian of Congress, General Donald Scott.

                ADMINISTRATIVE AND TECHNICAL INITIATIVES

    General Scott. Thank you, Dr. Billington.
    Good morning, Mr. Chairman, Senator Bennett. I thank you 
for the opportunity to support Dr. Billington's overview of the 
Library's efforts to address some of the key challenges facing 
our Nation. I will highlight a few of the ongoing 
administrative and technical initiatives that this budget will 
fund and help to achieve the Library's vision for providing 
service to the Congress and to the Nation.
    The Library requires continuing support from Congress to 
build and strengthen our digital infrastructure. This budget 
includes the necessary next steps toward building a digital 
library, one that provides for storage, preservation, and the 
access to information that the Congress and the American people 
increasingly rely upon for decision making in their daily 
lives. This budget also funds collections and computer security 
improvements.
    Keeping the mail flowing safely is a must for the Library's 
comprehensive collections. We greatly appreciate the Congress' 
immediate response to the anthrax closure by providing 
supplemental funds to address recovery from the shutdown and 
other unplanned costs to ensure continuity of operations. While 
the Library's mail flow has resumed, it is at a greatly-reduced 
level, which has had a major impact on the acquisition of 
materials and the intake of copyright registrations and 
receipts. We are, however, taking the necessary steps to 
process as quickly as possible the backlog of materials that 
originate from within the United States, as well as materials 
from our critical overseas operations in Cairo, New Delhi, 
Islamabad, Rio, Jakarta, and Kenya.
    Mr. Chairman, we also have asked for funds to support the 
purchase and implementation of a new financial management 
system.
    And, finally, we continue in our efforts to install a fair 
and timely automated hiring system so that we are able to 
recruit individuals with the varied skills and abilities that 
our unique work force requires.
    All of these ongoing efforts are part of the Library's 
vision to keep pace with the informational and service needs of 
the Congress and the Nation.
    Thank you.
    Senator Durbin. Thank you very much, General Scott. If you 
do not mind, we will ask questions relative to the Library and 
then Mr. Mulhollan will speak to the CRS.

                            MAIL--PROCESSING

    Let us talk about mail for a minute, a constant source of 
vexation since September 11th and the anthrax scare on Capitol 
Hill. Let me try to go over some information that we have and 
ask you for your comment.
    It is my understanding that the Library of Congress is now 
processing its mail, letters and parcels, with the use of an 
outside contractor, Pitney Bowes, and that the estimated 
expense to the Library is about $8 million a year for that 
purpose. Is that what you are anticipating in next year's 
budget? Is that correct?
    General Scott. Yes, sir. The Library is participating with 
the House and the Senate. Our cost for the processing of the 
mail is about $5.4 million, with fixed costs we estimate to be 
approximately $2.8 million. The difference making our costs so 
much higher than the Senate's is our volume, which is about 70 
percent more than the Senate's.
    Senator Durbin. I think that is accurate. The staff has 
advised me that 70 percent is a pretty good estimate of the 
difference in volume. I also understand there is a difference 
in character of mail and that you are more likely to have 
parcels than the Senate in our normal course of activity.
    Here is the point I would like to make to you. We spend in 
the range of $2.5 million in the Senate, the House about $9 
million, and the Library of Congress about $8 million to 
literally process this mail. I cannot imagine the days coming 
when we are going to abandon this activity. It is more likely 
that this is now part of the routine that we are going to face 
for a long time unless something happens that I cannot 
envision.

                         MAIL--CONTRACTING OUT

    So, my question to you is this. Do you believe that it is 
worthwhile for us now to take a step back, 6 months after 
September 11th, and to assess whether or not contracting out 
under this circumstance makes sense, is cost wise in terms of 
what this is going to entail, or whether we ought to look at 
this approach somewhat differently?
    For instance, if you take the $2.5 million spent by the 
Senate where we do it in-house and double it to $5 million, it 
is still considerably less than what the Library is paying 
Pitney Bowes. Add another 20 percent or more for the fact that 
you have more parcels, and you are still below the amount being 
paid to Pitney Bowes. What is your thought about dealing with 
this from a nonemergency perspective in a long-term view?
    General Scott. We do feel that it is time now to take a 
hard look at all available options to make sure that we can 
process the mail in a timely way and a safe manner. To that 
end, we are looking at other vendors who have processes that 
meet the specifications of the DOD scientists, and looking at 
the option of perhaps having our own people process the mail. 
We will come up with what we think is in the best interest of 
timely, efficient, and safe processing of the mail and the 
Library's mission.

                       MAIL--COMPETITIVE BIDDING

    Senator Durbin. Was this a competitive bid? Did other 
vendors bid on this business?
    General Scott. I am not sure that I can answer that since 
we were not the contractor.
    Dr. Billington. There was not, Mr. Chairman, any 
alternative that could deal with both the mail processing 
aspects and the environmental aspects. Obviously, we want to 
take a look at how we are going to do it in the future.

                             MAIL--BACKLOG

    But the other important point in our case is that getting 
over this backlog is of critical importance, because when there 
is a backlog, a very heavy backlog, in serials for instance, if 
we do not keep them current, we are not able to make sure that 
we are accurately surveying all of the world on these various 
problems. We have a real backlog to get over now, and there was 
only one vendor who was able to process the mail in a timely 
way and safeguard it environmentally.

                        MAIL--SOLE SOURCE VENDOR

    Senator Durbin. I understand that, and you faced the same 
emergency we faced on Capitol Hill. The House went in one 
direction, the Senate in another, and only time will tell which 
made the right choice. But I anticipate, at least I suspect, 
from your budget request for next year, you are planning to 
continue on with this sole source vendor. Is that correct?
    General Scott. No, sir. We did ask for the money for next 
year, but we also plan to take a very serious look at 
alternatives. If we do come up with some alternatives that are 
better than what we currently are doing, then we certainly will 
go with the best alternative.

                              RETAIL SALES

    Senator Durbin. I have asked you from time to time about 
the retail sales, the retail income into the Library of 
Congress, and we have asked the General Accounting Office to 
take a look at it. We had a preliminary report from them which 
raises some interesting questions. I do not know if you are 
familiar with their findings. Have you had a chance to review 
them?
    General Scott. Yes. We received the GAO report just 
yesterday and are in the process of going through it to make 
sure we understand all the recommendations.
    Mr. Chairman, we welcome the opportunity to have retail 
sales and to make sure that we can put the necessary planning 
together that will assure this becomes a profitable operation. 
We have already put in motion a marketing plan, and have hired 
a contractor to help us do so.
    Senator Durbin. When was that done?
    General Scott. About 2 weeks ago.

                        PHOTODUPLICATION SERVICE

    Senator Durbin. Now, what the GAO has found is in a period 
of 5 years, ending September 30, 2001, your Photoduplication 
Service reported losses of $2.2 million, gift shop losses of 
$180,000, and the audio-video laboratory $120,000.
    It is my understanding that the Photoduplication Service 
has reported losses. In the first 2 years of this review, they 
made money, but in the last 3 years, they have lost money when 
you used contractors to meet internal microfilm needs. Are you 
familiar with that?
    General Scott. Yes, sir, I am familiar with the fact that 
we found it necessary to make some drastic cuts in the 
photoduplication service. I would like, with your permission, 
to call up Winston Tabb, who is our manager in this area and, 
who, I think, has done an expert job of handling this issue, 
which is systemic to some of the challenges we face in assuring 
cost effective operations.
    Senator Durbin. Of course.
    Mr. Tabb. Thank you, Mr. Chairman.
    It is true that we had to make significant reductions in 
the staffing of the Photoduplication Service last year. A total 
of 29 staff were considered to be redundant primarily because 
that business had changed dramatically. The Photoduplication 
Service was initially set up to make copies, upon individual 
requests from people, from the Library's collections. Those 
requests had decreased, and a lot of the staff who were working 
in that area had been doing microfilming, but now we are moving 
much more toward digitization for our preservation work. So, it 
was no longer necessary to have that many staff there.
    We also felt that if we were going to get repositioned to 
have the Photoduplication Service focus on the kinds of things 
that you are interested in and that we are, which is to be much 
more proactive in getting people to want to have copies from 
the collections, we needed to get on a sound financial basis so 
that we could begin to build from that with a very different 
kind of focus, from a very passive one, as established in the 
1930's, to a much more aggressive one of outreach. And that is 
what we are trying to do.
    Senator Durbin. Let me make sure I understand the 
situation. I can understand that you would need internal 
photoduplication and digitization and such. My impression from 
the GAO report, though, is we are talking about the outside 
world asking for Photoduplication Services and paying for them, 
and that over the 5-year period reviewed by the GAO, in the 
first 2 years, the Library made a profit off of that 
Photoduplication Service, but then decided to contract it out, 
and for 3 straight years lost money on it, which suggests to me 
that you are not charging your customers enough to break even.
    Mr. Tabb. Pricing is always a difficult area in the 
Government, and this is one of the points that we have been 
working with GAO on--to determine at what point you raise the 
prices to the point that you drive people away.
    Unfortunately, it is not always possible in the Government 
to be as agile as one needs to be. This is why we know that if 
we are going to be able to achieve the objectives, which we 
share, to be able to generate profits from some of these areas, 
we probably are going to have to have some legislative help so 
that we can be much more agile in having both contract and 
Library staff.
    Part of the problem here has been that historically we had 
really been focusing in the Photoduplication Service, if I can 
say this a different way, on two different primary customers, 
one, the passive requests coming from people who wanted single 
items from our collections, and second, on microfilming the 
Library's collections for preservation purposes.
    Senator Durbin. Here is the problem I am having. Most 
people say we should contract out to save the taxpayers money. 
It appears in Photoduplication Services you contracted out to 
lose taxpayer money.
    Mr. Tabb. What actually happened is that the management of 
the Photoduplication Service, if I can be direct about this, 
was not quick enough to furlough staff or to reduce staff after 
the point when their revenues had ceased to come in.
    Senator Durbin. For 3 years?
    Mr. Tabb. It was actually 2 years.
    Senator Durbin. It took 2 years?
    Mr. Tabb. Yes.
    Senator Durbin. There is a definite lack of agility.
    Mr. Tabb. The problem has been resolved now. I will be 
happy to speak about that preferably off the record since it 
involves personnel.
    Senator Durbin. That would be fine to do it that way.
    But are you telling me that if we sit down together next 
year, that the Photoduplication Services to outside customers 
will show at least a break-even or a profit?
    Mr. Tabb. It will be at least at a break-even, which is 
what it is supposed to be, and that was the reason why we did 
reduce in force the 29 positions. We are on a much better 
footing now than we were 6 months ago.
    But I would like also to say that we are not looking at the 
Photoduplication Service. What we think must occur, if we are 
to achieve the objectives that you have set for us and that we 
have for ourselves, is that we think about the Photoduplication 
Service, the motion picture revolving fund, and the retail 
shops as one entity for marketing purposes, not as three 
separate ones. And that is one of the other changes that we 
have recently made, to bring these three activities together so 
they can be thought of collectively as a way of making the 
Library's collections more available to the public.
    Senator Durbin. The reason I asked for the GAO study and 
the reason I raise this issue is not to suggest that we need to 
commercialize the treasures of the Library of Congress, but to 
suggest that there are certain things that we can do to make 
them available and, in generating revenue from that 
availability, help defer some of the needs of the Library so we 
can reinvest it right back into the Library for things of value 
to the American people for generations to come. We can stop 
short of putting a price tag on everything that you have in 
your inventory but still find a way to show profitability in 
what is known as a retail venture. My colleague has been 
involved in business a lot longer than I have, and I will 
suggest to him that even with losses, you cannot make it up in 
volume.
    So, I will pass it along to Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.

           ACQUISITION AND PRESERVATION OF DIGITAL MATERIALS

    Dr. Billington, we have had a number of conversations over 
the years about the digital age and the digital revolution. We 
appropriated in December 2000, $100 million for a national 
digital strategy effort to archive and preserve digital 
information. The law authorized the Library to spend $5 million 
immediately to develop a plan and then the balance would be 
made available upon completion of the plan and matching funds 
of $75 million.
    As I contemplate this from a layman's point of view, I have 
a concern that I would like to raise here and have you speak 
to. Digital information inherently is a whole lot cheaper than 
hard copy. We have discovered that just in our families, that 
it is a whole lot easier to send an e-mail than it is to write 
a letter and buy a 34 cent stamp and pay for the stationery and 
wait for it and so on. We politicians are discovering that in 
campaigns that if you get a digital mailing list, you can send 
an e-mail piece of campaign literature for virtually nothing, 
compared to what it would cost you to mail post cards to 
everybody in your congressional district or your home State.
    So, I would be interested in knowing where we are with the 
plan and the raising of the $75 million, but I would also be 
interested in your long-term view. As we go down this road of 
trying to preserve digital information and we see the ratio 
between digital information and hard copy information tilt 
toward the former, are we going to see long term some financial 
savings out of the fact that we are not archiving magazines, we 
are archiving websites? More and more magazines are web 
magazines and information can be taken off the Internet 
virtually for free and preserved virtually for free as opposed 
to having to have a subscription and having to have somebody 
handle it physically as it comes in, look at it, place it on a 
shelf, give it a number, all of the things connected with hard 
copy information.
    So, that is kind of a long-term view of things, but as we 
are talking about the cost of this, I would like to know where 
we are short term, but I would also like your observations 
about where we are going long term.

 NATIONAL DIGITAL INFORMATION INFRASTRUCTURE AND PRESERVATION PROGRAM 
                                (NDIIPP)

    Dr. Billington. Well, it is a very good and very searching 
question. Let me take the long-term view first.
    I think there is no doubt that in the long term, if you 
adopt as your costing device a unit of knowledge, or a unit of 
information, we will have enormous savings. But if you take the 
overall cost, it may not show because we are generating so much 
more knowledge. So much more knowledge is being made public 
through the Internet. In other words, you have a huge number of 
data sets, publications, expressions of opinion that would fall 
short of publication under traditional artifactual 
publications.
    What we are seeing is an explosion of the world's knowable 
information; that is to say, things that were in somebody's 
head now spill out into the Internet in digital form. There is 
going to be a tremendous expansion of knowable information and 
of the recorded intellectual activity of the human race. There 
are many more participants in this activity in many more 
countries. This is the first generation in which women have 
really come anywhere near equality of participation in the 
generation of knowledge. There is going to be a great deal 
more.
    The problem is that if you have great savings in the unit 
cost, you also have the explosion of worthless information. You 
do not have to go very far on the Internet to see chat rooms 
and violent games and all kinds of things that really do not 
add, which are helping to fill it up.
    We have been trying to get a standard of quality free on 
line. I regret to say we have not had as much participation in 
the for-profit sector as we would like because the Internet is 
still seen basically as a marketing and an entertainment device 
and an area for just disorganized chatter. Indeed, the basic 
unit of human thought, the sentence, is gradually getting 
assaulted as we get these run-on chat room conversations.
    One of the purposes of the legislation is to task us with 
forming a shared distributed national strategy for organizing 
and sorting this information so that it is retrievable.
    But the startup costs of establishing that are really very, 
very substantial. Congress took this welcomed initiative last 
year and gave us the assignment of bringing all the Government 
and the non-governmental people together to address this issue.
    In the long term, yes, both in terms of the unit cost of a 
unit of information and knowledge, there are going to be real 
economies. In terms of the overall amount of useful knowledge, 
as well as useless knowledge, there is going to be a great 
expansion of that. Both qualitatively and, in terms of unit 
costs, quantitatively, this is a tremendous boon.
    Now, it is a tremendous challenge to sort, to use it, to 
make it accessible. That is what we have accepted on a shared 
basis.
    We have had two meetings of our 26-member advisory board to 
begin formulating a strategy.
    The situation is becoming very alarming. The last survey 
that was taken some years ago said the average life of a 
website was 76 days. Now the latest study made last year says 
it is 44 days. The information that gets eliminated tends to be 
disproportionately the good information. It has real utility, 
but does not have present marketability. We are going to want 
it 10 years from now. And that is what we are enjoined to do, 
and it is very visionary of the Congress to do this.
    We have a 26-member advisory board that includes a great 
many people from the stakeholder communities, the industry, 
representatives of new media, websites, digital TV, film, e-
journals. These kinds of people have been brought in, as well 
as representatives of the major public libraries and private 
archives and repositories.
    We have had two planning meetings and then we have broken 
up in individual teams to deal with different aspects of what 
is really an enormous problem.
    We have 15 other Federal agencies involved in this 
discussion. There are four designated by the legislation, 
myself, the Archivist of the United States, the Secretary of 
Commerce, and the White House Advisor in Science and 
Technology, as a core group. There is also a broader group.
    We will be presenting a plan later this year, most likely 
in either July or September, with the results of this planning 
operation and recommendations. What we are doing now, after 
defining many aspects of this problem--and developing a 
national plan, is the initiation of archiving. We work with the 
Internet Archive, which is the principal agency archiving this 
material. They give us snapshots of the web at periodic 
intervals. We are beginning to deal with the challenges in a 
variety of ways that Laura Campbell, who is in charge of this, 
could explain in greater detail if you wanted.
    We think the IT community is getting involved.

                     NDIIPP STRATEGIC FUNDING PLAN

    On the question of funding, you will remember that the 
first stage is the $5 million, to develop a strategic plan, out 
of this very highly iterative and consultative process.
    We have had particularly good leadership from James 
Barksdale who is one of the pioneers in this industry. He has 
been playing a particularly helpful role, but others have as 
well. We call it the National Digital Information 
Infrastructure Preservation Program, NDIIPP.
    We had hoped to be further along. The legislation provides 
for an additional $20 million that begins when we have 
submitted our plan to Congress, which must approve and 
authorize. Finally, as is presently scheduled, by March of next 
year, we are scheduled to have developed the plan to match the 
$75 million remaining in that which was appropriated from 
either cash or in-kind contributions.
    To be frank about it, since 9/11, the fundraising climate 
for this has been not very propitious. It was the judgment of 
the key people in the private sector that we consulted with 
that it would be better to defer our fundraising efforts until 
later for two reasons; one, because it was very difficult in 
this climate for this kind of a thing to be done, and second of 
all, it would be more effective to approach it once we had the 
strategic plan developed, which we are in the process of doing.
    The key is future scenarios. We have to have a variety. We 
have to have made a major effort to really analyze the breadth 
of this problem. This is a colossal problem for which there is 
no precedent. The only precedent that comes to my mind is when 
the Library of Congress undertook at the Congress' behest at 
the beginning of the 20th century, to develop a systematic 
cataloguing that was suitable for the expanding libraries that 
had outgrown the Dewey Decimal System. Congress was willing to 
use the Library of Congress' system to bring order out of what 
was considerable developing chaos in the then exploding world 
of published materials.
    Now we are dealing with a far greater explosion, and the 
cataloguing data, the so-called meta-data, is not developed. 
All this has to be done consultatively. We have been working 
under Laura Campbell's leadership very effectively.
    In all candor, we may have to ask for an extension on 
meeting the March 2003 deadline, for the $75 million match. The 
people who we hope and believe will help us in the private 
sector have advised us that this is not the best time to do 
this, and because in their judgment it is better to have a plan 
to show to demonstrate in order to effectively engage the 
industry because a lot of the private contribution will be in-
kind in nature. We will also have a much clearer idea of 
exactly what we are going to need by then.
    That is where we stand on both aspects of that question. I 
am sorry I took so long.
    Senator Bennett. Thank you. You give me a view of where the 
long term will be. In the short term, you are saying you are 
probably going to come back next year for a little more money.
    Dr. Billington. Probably a little more time.
    Senator Bennett. Some of the people behind you are shaking 
their heads and some are nodding.
    Dr. Billington. I think we will need more time if we are 
going to approach that match, not more money next year. In the 
long run, yes, it is going to be more expensive.
    This is to be a distributed and a shared responsibility. We 
may need the Congress' help and counsel, this committee or 
others' help and counsel in determining who and how to do the 
sharing. Everyone participating on our advisory board thinks 
this is a great idea and deserving of help that somebody else 
will certainly be willing to provide.
    Senator Bennett. Yes, I am familiar with that. We have all 
lived with it.
    Dr. Billington. We are trying to develop a sense that this 
is shared, but you are dealing with competitive industries and 
you are dealing with institutions. I think we can develop this 
but I think it is probably going to take a little more time. In 
the long run, beyond this $100 million, it is certainly going 
to take a great deal more funding. But we hope that as we 
develop a certain esprit in this group and as the importance of 
this becomes clearer to everybody, we will be able to get 
better buy-in and work out some pattern of how the burden 
should be shared.

                            DIGITAL FUTURES

    We have found, for instance, in the National Digital 
Library, that we raised the money, private money, for a number 
of other institutions to digitize their material to put on the 
net. We have 36 institutions on the National Digital Library, 
among the 7\1/2\ million things we have digitized. With an 
extremely small development office, we have ended up raising 
the money to bring other institutions of very considerable 
wealth into this.
    I think this cannot be the case, we are going to have to 
have direct collaboration.
    This is part of entering the new networked world. I think 
there is a sense of patriotism and common purpose that America 
has generated so much of the world's knowledge. If we do not 
find ways to effectively preserve it and make it accessible, as 
we have with books and with other artifacts in the past, we 
will be losing our own resource. I think more and more people 
recognize this. More education is needed of people interested 
in short-term returns rather than the long-term position of the 
United States. I think people are more open to that argument, 
but it has to be made decisively.
    I think we may have to involve Members of Congress at the 
appropriate point in developing a strategy to get everyone's 
buy-in on this. We are working on it and we think when we have 
a plan to you, hopefully by July, but certainly by September, 
we will be able to move ahead confidently to the next step of 
this program.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Senator Durbin. Thank you very much, Senator Bennett and 
Dr. Billington.

                             HIRING SYSTEM

    I want to ask a question about the hiring system, and I 
think I am going to elicit answers from both the Library and 
specifically from CRS. So, it is a little out of order here, 
but Mr. Mulhollan, I will go into the hiring question and then, 
after Senator Bennett has completed his second round, we will 
go to your statement.
    But let me ask you about this. As I understand it, you are 
facing a court order of some complexity which is asking for a 
much more non-prejudicial and colorblind approach to hiring at 
the Library of Congress, and that in response to that, the 
Library has brought on an automated hiring system.
    I am told that during the course of the last year, the 
Congressional Research Service has been unable to fill a 
vacancy with this system, and that many of the people hired 
within the Library of Congress are actually internal 
promotions, people more familiar with the system than perhaps 
the outside world.
    So, could you tell me if you believe that this automated 
system is meeting the goals that were enumerated in the court 
decision that led you to use it?
    General Scott. Yes, sir. The Library, just to set the stage 
here, and plaintiffs attorney's negotiated an agreement, that 
was approved by the court to develop a new automated hiring 
system, one that would not discriminate. The court gave us a 
time line in which we had to implement the new system.
    Additionally, we had an old hiring system that was manually 
based that was very cumbersome and took an enormous amount of 
time to try and get quality staff hired. As a matter of fact, 
the old system had an average of taking 175 days to get someone 
from start to finish through the system.
    So, having the impetus to move ahead and wanting to 
establish a system that was timely, a system that also would 
respond to the various agencies within the Library who have 
different hiring needs, we looked at vendors and OMB and 
selected a vendor that was on the GSA schedule.
    We started this last March. We underestimated some of the 
challenges that we would face in putting in a new system. We 
had training problems. We had some other system problems and 
typically some of the problems that you have anytime you put in 
a new system.

                  INSPECTOR GENERAL'S RECOMMENDATIONS

    To date, Dr. Billington has recognized that we needed to 
have a deeper insightful look at what we were doing and 
appointed his Inspector General to come up with a report that 
would give us recommendations. Of the recommendations, the key 
one which Dr. Billington has acted on was to form a project 
manager and a project management team. That team has currently 
expanded with some outside consultants in human resources, and 
we are giving a very detailed review of what the system needs 
to do in order to respond to the unique hiring challenges 
within the Library of Congress.
    Senator Durbin. Well, if it took about 6 months to hire 
someone under the old system, how long does it take to hire 
them under the automated hiring system?
    General Scott. We have mixed reviews. We have hired about 
140-some-odd people under the new system, and the average time 
of that was about 80 days under that system.
    Senator Durbin. Those were internal hires, most of them.
    General Scott. Some of those were internal hires, to 
include permanent placement of digital technology staff. I 
could get you the breakout of how many were internal and how 
many were external.
    Senator Durbin. Your Inspector General came out with a 
report in February of this year making some recommendations for 
some changes, and what you have mentioned so far, General, is 
that the project manager recommendation is being responded to. 
How about the other recommendations from your Inspector 
General?
    General Scott. Yes, sir. The other recommendations from the 
Inspector General are also being reviewed. The reason we acted 
with some urgency to appoint a project management team was to 
be sure that we had a team that could look at all of the 
recommendations and help us to prioritize them so that we could 
do a couple of things simultaneously. Also we needed to try and 
get as many of our critical hires through the system as we 
possibly could, and develop some system requirements that 
uniquely meet the Library's hiring needs. We think that the 
project management expanded team will be able to handle all of 
the recommendations that the Inspector General has proposed.
    Senator Durbin. Now, do I understand it, in reading the 
background of this lawsuit, which interestingly enough was 
filed in 1975 by employees alleging discrimination in the 
Library's hiring practices and finally resolved in 1999, a mere 
24 years later, was a negotiated settlement? Is that correct? 
Or was this an order of the court?
    General Scott. There are a couple of things here that I 
need to be clear on. The negotiated settlement was between the 
Library's attorneys and the plaintiffs' attorneys, for a new 
hiring process or amended appendix B, which is the guideline 
under which we have to implement this new hiring system.
    Senator Durbin. I do not want to belabor this. And I was 
mistaken. It appears that it was filed in 1975 and finally 
resolved in 2001. So, it was 26 years.
    But what I am trying to drive at is, did you have any 
options? Was this the only way that you could go to meet the 
terms of the negotiated settlement, an automated system?
    General Scott. The settlement included implementing the new 
hiring process using an automated system. At the time, we 
thought the online system was the best option that would 
satisfy our hiring needs, satisfy the court, and, I might add, 
the Library's desire to have a system that is fair and does not 
discriminate. So, yes, we thought this was the best.

                   OTHER AGENCIES USING HIRING SYSTEM

    Senator Durbin. Are there any other agencies of the Federal 
Government that use this automated data hiring system that you 
are familiar with?
    General Scott. Yes, sir, there are other agencies in the 
Federal Government all in the executive branch, that use an 
automated hiring system.
    Senator Durbin. Have they had any better luck than the 
Library in terms of actually hiring people from the outside?
    General Scott. I cannot speak to the detail of the other 
agencies in the luck that they have had. I can speak, by way of 
comparison, that the other agencies do not have the diversity 
of jobs and the complexity of position descriptions that we 
have in the Library, which has caused us to have to work harder 
to make this system, or any automated system, adjust to our 
needs.
    Senator Durbin. So, Mr. Mulhollan, you have had, obviously, 
some difficulty with the system and been unable to fill a 
vacancy with it.
    Mr. Mulhollan. We have been doing everything possible 
working with the Library to get this to work for us as other 
parts of the Library.
    My recollection is, to the question you asked before, out 
of the 144 positions--my most recent information--that have 
been filled under the Avue system, 94 were internal. But I 
believe our head of human resources would like to point out a 
number of those were temporary employees that were included in 
the internal mix because they were part of the digital library 
staff that Congress allowed to be incorporated.
    The Avue system called for is part of a number of automated 
systems that are out there currently being used. The challenge 
is applying the system to what Don Scott just mentioned, 
amended appendix B, which is an amendment to the original 
settlement you mentioned in 1999. The Library had a hiring 
system, but the court determined that that system produced a 
workforce that was underrepresented in two major areas. There 
was also a question about the statistical system being used for 
reporting statistics to the courts. Those are the issues that 
we responded to.

                CRS VACANCIES FILLED USING HIRING SYSTEM

    Senator Durbin. How many vacancies have you tried to fill 
in the CRS using this system?
    Mr. Mulhollan. We currently have and plan to fill 88 
positions; 79 positions will be filled under the new Avue 
system, and 9 positions will able filled under alternative 
hiring programs, such as the law recruits.
    Senator Durbin. I am trying to get to a scorecard here.
    Mr. Mulhollan. Yes. We have not filled any positions under 
the new system.
    Senator Durbin. How long have you been trying?
    Mr. Mulhollan. Since the implementation of the negotiated 
settlement.
    Senator Durbin. One year.
    Mr. Mulhollan. Yes, sir.
    Senator Durbin. This is hard for me to deal with here. This 
is a system which you agreed to by negotiation, and it 
apparently has created a world of problems for you if you 
cannot fill a vacancy in 1 year. The old system took 6 months, 
which sounds terrible, and this system is going to break all 
records. Maybe you will never fill a vacancy.
    But I am wondering, has there been any thought given to 
either, one, reviewing whether you have a good system or there 
is a better system being used by other executive agencies, or 
perhaps returning to the court to try to negotiate some other 
approach that achieves this goal? If the idea was to improve 
the diversity of the employment at the Library of Congress and 
the only people who are being, quote, hired--and I used that 
term advisedly--are already on your employee rolls, it does not 
sound like you are going to reach your goal of having a more 
diverse work force.
    General Scott. If I might respond to that, Senator. We are 
currently in the process of evaluating the current system and 
at the same time examining other systems that might be 
available that would help us to reach our goal. We have not 
ruled out that this system can work. We have admitted that it 
has been a difficult challenge and we think we have all the 
horsepower we need to come up with what is in the best interest 
of the Library to hire people fairly and efficiently and to be 
able to know how we have met the challenge within the next 45 
to 60 days.
    Senator Durbin. I am going to conclude this round of 
questioning with one last question. Is it fair to say that some 
of these vacancies are critical in terms of the operations of 
the Library of Congress?
    General Scott. Yes, sir, it is.
    Senator Durbin. Well, I hope that you will get on this very 
quickly. What we have heard this morning about the contracting 
out and photoduplication and 2 years before people can be 
furloughed, a system that took 6 months to hire people is now 
replaced with an automated system that does not hire anyone, 
cannot fill critical vacancies, this is not a good report card 
in terms of dealing with some essential management problems. We 
want to work with you. We know you are facing a court order, so 
this is not all your own design or choice, but it appears that 
there should be a better way.
    Senator Bennett, do you have any questions?
    Senator Bennett. Well, Senator Stevens.
    Senator Durbin. Senator Stevens?
    Senator Stevens. If I may. I have just come from another 
hearing and I have got to go to two more yet today. I 
appreciate the chance to be here to welcome the Librarian and 
General Scott and Mr. Mulhollan.

                  MAIL--IMPACT ON LIBRARY'S OPERATIONS

    I do want you to know we are working very hard on the mail 
problem. Mr. Chairman and Senator Bennett, the Librarian showed 
me yesterday one of the applications for a copyright that had 
been caught up in the mail. The tape was burned and the blue 
ink was turned to brown, and it did not arrive until 2 months 
late, something like that. That is a tremendous problem and I 
hope that we will be sensitive to the impact on the operations 
of the Library, particularly the Copyright Office. This is a 
very difficult problem we are all facing in terms of mail 
delays, but also the costs associated with that. Now they have 
got to go back and have the applicant repeat the process, I 
gather. We are having to do the same job two and three times. 
The Librarian, I think, has a tough job trying to work with 
that.

                       RUSSIAN LEADERSHIP PROGRAM

    I want to commend you on the way that you have handled the 
Russian Leadership Program. It was my honor to be involved in 
it, but beyond that, I was called to the Rotarians' annual 
meeting and they were overwhelmed and have supported this 
process now substantially. We are attracting more and more non-
government people into this operation. I am told now, Dr. 
Billington, are there not several members that have come over 
here from local governments that are now members of the Duma?
    Dr. Billington. Yes. A good number of the members of the 
Duma have actually participated in the program as well.
    Senator Stevens. It is an outreach that is bringing into 
the cities of our country people who are elected 
representatives of local governments in Russia. They are the 
leaders of the future and they are coming over and living with 
our people and learning how individual cities in this country 
are run and what freedom means to our people. I think it is an 
extremely fine program and I hope we can continue it.

                  KNOWLEDGE OF HIRING SYSTEM PROBLEMS

    Lastly, I too am concerned about what this chairman was 
talking about in terms of this hiring problem. Are your 
relationships with your own IG such that you think you can work 
together to formulate a program that will meet less criticism?
    Dr. Billington. Yes, I think we will. There are a couple of 
things, and then I will turn it over to General Scott again who 
has been working intensively and effectively on these difficult 
problems.
    First of all, we initially had rather favorable reports 
from other Government agencies on this process. We have since 
had some more mixed reports. There are concerns. Part of this 
evaluation that we are doing is to determine our own 
specifications so that we can then examine a variety of 
alternative systems as a possibility including the one we have.
    The Library faces a very unusual situation which is that no 
other agency dealing with an automated hiring system faces the 
problem of depending primarily on applicant questionnaires to 
assess qualifications. That is a so-called elimination of 
minimum qualifications.
    Senator Stevens. You do not have the money to pay to bring 
them in and interview them?
    Dr. Billington. Oh, yes, we bring them in and interview 
them. But, if you have a process which generates four times the 
number you used to get, per vacancy, it tends to clog up the 
system.

                          WORKFORCE DIVERSITY

    We have, in fact, been steadily and I think successfully 
increasing the diversity of the work force. So, the end 
objective here is being methodically approached and 
successfully advanced internally within the Library quite apart 
from the court order. The terms of the settlement agreement 
specified how the Library must approach this issue, which no 
other Government agency has had to deal with--and has been an 
inhibiting factor.
    Anyhow, I turn it over to the General.
    Senator Stevens. Well, I am sorry. They have called me next 
door. I was an hour over there getting in line, so I either go 
back or lose my place in line over there.
    Thank you very much.
    General Scott. Yes, sir. The short answer is that the IG is 
helping us as part of this project management team to work 
through these issues.
    Senator Durbin. Thank you very much.
    Senator Bennett.

                 HIRING SYSTEM IMPLEMENTATION PROBLEMS

    Senator Bennett. I do not want to beat the horse anymore, 
so I will just make an observation. I finally understand what 
the problem is with Dr. Billington saying that you have four 
times as many applications as you used to have and you have to 
look at all of those. Is that fundamentally what is clogging--
--
    Dr. Billington. That is a good part of the problem, yes.
    General Scott. That is one part, but there are more 
problems than that, Senator, but that is one piece of it.
    Senator Bennett. I can understand some of that clogging new 
hires. I have a tough time understanding why it takes 80 days 
to evaluate an employee that you already have.
    We have all had the experience of hiring people, and I had 
a vacancy in my office, did not have anybody on board that I 
thought was the right one to fill it, and we spent a fairly 
significant amount of time looking around, getting 
applications, trying to find people who could fill that. And 
that we understand.
    When my chief of staff here left, I knew he was going to 
go, and you certainly have advance notice of who is retiring 
because we have already had information from you about your 
attrition rate. I knew he was going to go. I had his 
replacement within 30 minutes because I knew that there was 
somebody on the staff that was capable of stepping into that 
slot with whom I had been working for 8 years. So, in that 8-
year period, I did not need another interview. If the bulk of 
your hires, since you have gotten into this new circumstance, 
have been promotions from within and it takes you 80 days, it 
does not meet the smell test.
    General Scott. Yes, sir. That was an average and we have 
had some positions that have been filled within a shorter 
timeframe.
    I think, Senator, it does not sound good, but it also is a 
fact that anytime you start to replace a system that has been 
in place for 15 to 20 years or longer and you add automation, 
there are going to be a lot of startup challenges and problems.
    Senator Bennett. I can understand that. When you are 
dealing with your own employees whom you already know, the 
interview cycle should be a whole lot shorter, unless you are 
required by the court order to see that everybody in the world 
gets to bid on that before you end up with your own employee. 
Is that the problem?
    General Scott. The Library's hiring process requires that 
every position that you post, that everyone has to go through 
the same process in order to compete for the position.
    Senator Bennett. So, you cannot automatically say, well, we 
have been watching Dan Mulhollan for 15 years and he is clearly 
the guy to move in when his supervisor leaves. You cannot do 
that.
    General Scott. No, sir, we cannot. The plaintiffs alleged 
that the Library's hiring process was tinged with too many 
instances of individuals being appointed without going through 
any kind of a competitive process.
    Senator Bennett. I will leave it because it is not 
productive to pursue anymore.
    Senator Durbin. Well, this automation will really slow 
things down.

                         TRAVEL FUNDING REQUEST

    Let me ask you about this travel request of $1.7 million, a 
58 percent increase. Any basis for that?
    General Scott. Yes, sir. The specific request for travel 
for 2003 is $213,000 or 14 percent over the 2002 funding. The 
reason we have to do more travel is our work to implement all 
of the networks that the Library is developing and involved 
with in our digital futures initiative.
    Senator Durbin. A 58 percent increase over a 2-year period?
    Dr. Billington. This was a specific recommendation of the 
National Academy of Sciences study. As they enjoined us to do 
this massive program for retaining Born Digital materials, they 
said one of the major inhibiting factors was the fact that it 
could not possibly be accommodated on the travel budget we 
have. We have now reviewed and found out that in the first 
year, getting into this business of determining a shared 
national plan, there is just an awful lot more travel we have 
to do, in addition to bringing the advisors in, which is done 
under the other budget.
    Senator Durbin. Thank you.
    Mr. Mulhollan, we will make your statement a part of the 
record. If you would like to summarize it for us at this point.

                    TERRORISM AND HOMELAND SECURITY

    Mr. Mulhollan. Thank you, Mr. Chairman, Senator Bennett. I 
do appreciate the opportunity to appear before you today to 
present our fiscal year 2003 budget request. Our request this 
year focuses on two areas of critical importance to the 
Nation's security and future stability: terrorism and homeland 
security, and the aging of the U.S. population.
    We are all too well aware, the September 11th terrorist 
attacks on the United States have fundamentally altered 
America's way of life. In all the years the U.S. Government has 
had to confront organized terrorism, the challenges of 
deterrence, detection, interdiction, immediate response, and 
incident remediation have never been as great and the 
consequences of failure more potentially catastrophic. The 
September 11th attacks, the subsequent anthrax ordeal, and the 
unfolding responses have few precedents in terms of their 
impact on virtually all U.S. programs and policies.
    The budgetary implications of these events and the ongoing 
war against terrorism will be equally profound. Current 
estimates for homeland security appropriations are $29 billion 
in fiscal year 2002, and nearly $38 billion requested for 
fiscal year 2003. Future costs will likely continue to rise, 
accompanied by numerous questions about how much is adequate, 
how priorities should be set, and how resources should be 
allocated. New policies and programs may need to be developed 
to defend against conventional, biological, chemical, and 
nuclear attack by improving our threat assessment and response 
capabilities, the whole notion of Federal coordination, law 
enforcement capabilities, and public health services.
    Congress must be prepared to address these challenges in 
both the short and long term. CRS must be prepared to help you. 
Congress and CRS already have a strong history of working 
together on terrorism-related issues. However, there are 
several important areas of expertise that we have been unable 
to offer you up to this point. These areas are Islamic and 
Arabic affairs, epidemiology, biochemistry, infrastructure 
engineering, and comparative religions.
    These are not capacities to be acquired temporarily on 
contract. Nor are they capacities that are resident in CRS's 
current mix of staff. They are fundamental to new competencies 
that Congress must have available in order to legislate 
effectively on issues related to terrorism and homeland 
security, issues that are likely to be at the center of the 
congressional agenda for many years to come. Without this 
infusion of new expertise, CRS support to Congress on these 
critical national issues will be incomplete. Accordingly, I am 
requesting 5 FTE's and $572,000 to hire senior expertise in 
each of these five areas.

                      AGING OF THE U.S. POPULATION

    The second component of our fiscal year 2003 request is for 
additional capacity to address issues related to the aging of 
the U.S. population. These issues will affect the lives of 
millions of Americans and have a profound impact on our 
economy, our health care system, and a whole range of social 
policies and services from now until well into the foreseeable 
future.
    The budgetary implications of these issues are enormous. 
Annual Federal spending associated with retirement and 
disability programs will reach $1 trillion for the first time 
in fiscal year 2002. This spending amounts to half of all 
Federal spending, 9 percent of GDP. These programs, the largest 
of which, of course, is Social Security, Medicare, Medicaid, 
and Federal employee retirement, already dominate the fiscal 
policy debate. Projections indicate that under current 
policies, these programs will continue to grow as a proportion 
of total Federal spending and GDP as the U.S. population grows 
older.
    Against this backdrop of fiscal concern, Congress is under 
pressure to address perceived weaknesses in current benefits 
for the aged, and these pressures are likely to grow as the 
number of elderly Americans begins to accelerate. Indeed, over 
the next 30 years, the population over 65 is projected to 
double and will constitute 20 percent of the population in 
2030.
    Recognition of the future rapid aging of the population is 
already driving current legislative activity on private 
pensions, retirement savings, proposals for prescription drug 
coverage, long-term care, military health care for retirees and 
dependents, social services for the aging, health personnel and 
facilities and other programs focused on the elderly. In 
addition, Social Security reform is expected to be a top 
legislative issue in the 108th Congress.
    To assist you in addressing such a broad set of initiatives 
within the context of growing fiscal pressure, I am requesting 
seven FTE's and $849,000 to hire senior expertise in genetics, 
gerontology, the economics of aging, the economics of health 
care, actuarial and demographic expertise.
    Finally, I would like to note what I perceive to be a 
significant added benefit of funding CRS's fiscal year 2003 
budget request. If approved, this request would enable CRS to 
continue to build its overall capacity to support the Congress 
in the areas of science and technology. Indeed, the expertise 
we are requesting in epidemiology, biochemistry, systems 
engineering, genetics, and gerontology could be applied broadly 
across a wide range of emerging legislative policy issues. As 
the budget request demonstrates, science and technology play an 
increasingly important role in virtually all areas of public 
policy. In order for Congress to legislate effectively in this 
increasingly complex world environment, you must have access to 
the best scientific minds and technological expertise that this 
country has to offer. I believe that CRS can and should play a 
role in providing you with this expertise. If approved, this 
budget request will assist us in doing so.

                  CONGRESSIONAL RESEARCH SERVICE (CRS)

    I appreciate the opportunity to appear before you. I want 
to thank you again for the support that this subcommittee has 
given to CRS over the years. In particular, I want to thank you 
for your generous support of our fiscal year 2002 technology 
initiative. I want to assure you that I will continue to adjust 
existing staff and resources to align with Congress' 
legislative needs. This request for 12 positions reflects new 
added capacities that cannot be drawn from other subject areas 
without weakening CRS's overall support for Congress across 
legislative issues. We take very seriously our mission to 
provide the Congress with comprehensive, reliable analysis, 
research, and information services that are timely, objective, 
nonpartisan, and confidential, thereby contributing to an 
informed national legislature. I hope you find that we are 
meeting this mission and that we are doing so in a way that 
warrants your continued trust and support.
    Thank you.
    Senator Durbin. Thank you very much, Mr. Mulhollan, and I 
do find that the Congressional Research Service is widely 
respected on Capitol Hill. You do a great job.
    Mr. Mulhollan. Thank you.

                        CRS WORKFORCE DIVERSITY

    Senator Durbin. You came to my office and made a similar 
presentation and it is a convincing presentation, particularly 
in the two areas that you have focused on.
    But I have to get back to an earlier question. If you could 
not fill 88 vacancies in the last year, what will 12 new FTE's 
really mean to you?
    Mr. Mulhollan. I would not be here today asking for those 
additional 12 positions if I did not believe, notwithstanding 
what has happened so far, that we are on a trajectory to fill 
all 88 positions by the end of September.
    Because you are dealing with the restructuring of the Merit 
Selection process as a result of what has been discussed so 
far, there was a great deal of up-front work, particularly with 
developing the content-valid position descriptions for our 
analytical capacity. We have completed that work and we are now 
in the process of putting up all those positions. The next 2 
months will tell, and I would not be here asking for that 
capacity if I did not feel that we can meet it within the 
timeframe.
    Senator Durbin. Of course, the lawsuit was generated over 
questions of diversity.
    Mr. Mulhollan. That is correct.
    Senator Durbin. In terms of the employees at the 
Congressional Research Service, what can you tell me about the 
diversity of your work force?
    Mr. Mulhollan. A survey done from 1997 through today, we 
have been able to increase our diversity from 14 to 16 percent 
in minority population.
    Senator Durbin. You have increased it from 14----
    Mr. Mulhollan. Fourteen to sixteen percent in professional 
positions.
    Our most recent recruitments for graduate students in 
analysts positions have been at 20 percent. So I think we have 
a good record, but this is always going to be a ``work in 
progress''. We have been aggressive in our recruitment and will 
continue to do so, looking at every feasible program to help to 
ensure that we reflect the diversity of the Nation.
    Senator Durbin. Thank you.
    Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.

                     FORT MEADE STORAGE FACILITIES

    I do not want to put you in a difficult position here, Dr. 
Billington, but we are concerned about the building of storage 
facilities at Fort Meade, which was deeded to the Library 
several years ago. Construction of the first module is behind 
schedule. A number of code and other issues are outstanding, 
and the Architect of the Capitol did not request funds for 
designing and constructing additional storage modules at Fort 
Meade in his request for fiscal year 2003.
    What are the implications for the Library of the slow 
progress that the Architect seems to be making in building 
storage at Fort Meade? And do you have any comments about that? 
I know it is difficult because you are dealing with another 
colleague and his budget. But I would ask for your comments and 
would like to know what the Library's long-term plan for 
storage is.
    Dr. Billington. Let me just say one word and then General 
Scott can deal with this.
    This is a very serious concern for the Library because 
these things are very much delayed, and we do take some issue 
with our sister agency in terms of the urgency of this and the 
need to have it included in the Architect's budget.
    There is a great deal of books piling up in the stacks. It 
is a very serious problem, and when you consider the various 
other problems we have with the delay of things coming in from 
the mail, it is really imperative that this facility, which is 
way behind schedule, be put at a high priority and carried on.
    I will let General Scott talk about it in detail because he 
has worked on it.
    General Scott. Yes, sir. You asked about the immediate 
impact, which is that we do not have ample storage for at least 
50,000-plus books, currently located in buildings here on 
Capitol Hill but long planned to go into the first module that 
we asked to be built at Fort Meade.

                         FORT MEADE--MODULE ONE

    This first module is 5 years overdue. The issues for delay 
currently have boiled down to a concern with the fire 
protection system. We finally got through to the Architect of 
the Capitol on expediting resolution of that issue, and they 
are working with an outside consultant. They now tell us that 
within 2 weeks we should have a report that documents what 
needs to be done in order to finally get that facility open.

                   FORT MEADE--MODULES TWO AND THREE

    As you mentioned, we have modules 2 and 3 for which we need 
to have a module completed every 2 years just to handle 
critical collections storage requirements.
    The Architect took our requests for those two buildings out 
of the fiscal 2003 budget request without talking to us. We 
have since communicated to him in writing explaining why it is 
so critically important for us to have the design and 
construction of those two buildings to proceed on schedule. We 
have not gotten a satisfactory resolution to this issue as of 
this time. Any additional delay will have a significant 
negative impact upon the collections and operations awaiting 
the long-delayed storage space at Fort Meade.
    Senator Bennett. Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator Bennett, and thank you 
to all the members of the panel.

                     ADDITIONAL COMMITTEE QUESTIONS

    As part of our ongoing effort to prepare this legislative 
appropriation, your testimony has been valuable and we will 
probably have some follow-up questions on issues that we did 
not touch on this morning.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard J. Durbin
                                  mail
    Question. The Library began receiving mail only last week and has a 
backlog of hundreds of thousands of items of mail dating back to 
October. The Library does not expect to get through the backlog until 
July. Why will it take this long?
    Answer. There were some delays in establishing the off-site mail 
facility. The major issue was obtaining an occupancy permit from the 
Prince George's County. The permit was finally issued on March 8th. The 
Library anticipates that the Off-Site mail facility build-out may be 
completed before July 4th, the original projected completion date.
    Question. What is the impact on the Library's operations?
    Answer. The full impact of the mail delay will not be known until 
all of the mail has been located by the United States Postal Service 
(USPS) and the Library begins receiving the materials. However, at the 
very least the delay has created a new massive backlog of materials. In 
addition, the delay will require additional administrative work as 
owners of the damaged Copyright submissions will have to be notified 
and instructed on how to resubmit their materials and checks. The delay 
has also affected the Copyright Office's receipt level--the reason the 
Library requested a supplemental for the Copyright Office. The 
President submitted an emergency fiscal year 2002 supplemental request 
to the Congress on March 21st, which included the Library's request of 
$7.5 million for the Copyright Office.
    Question. Has the Postal Service been fully cooperative in ensuring 
mail is properly irradiated and expeditiously processed on its end?
    Answer. No. As part of a Hill-wide task force addressing the many 
issues and complexities involved in resuming safe and timely delivery 
of mail, the Library has been frustrated by problems with the USPS. The 
USPS has been very uncooperative in providing accurate information on 
the location of the Library's mail, the volume of mail, and the 
irradiation of Flat mail. In addition, delivery schedules have not been 
met. The Library continues to work with the local post office and the 
Postmaster General to resolve all of these issues.
    Question. The Library has requested a $7.5 million supplemental for 
the Copyright Office owing to the fact that receipts are far below 
normal. Please explain the assumptions behind the $7.5 million, and how 
the copyright receipts to date compare to what had been projected?
    Answer. The Library is requesting a supplemental of $7.5 million 
for the Copyright Office. Actual receipts through January reflect a 
loss of $2.5 million or -31 percent as compared to projected receipts 
for this time period. February and March receipts each show a greater 
drop, -40 percent compared to last year. If the mail does not resume 
until early or mid summer, the Copyright Office anticipates that 
another $2.5 million in receipts will be lost during the period of 
February-May.
    Due to the uncertainty of when mail will resume and the condition 
of that mail, the Library assumes that receipts for the last four 
months of the fiscal year will also be $2.5 million below projected 
receipts, resulting in a total projected income loss of $7.5 million. 
It should be noted that even if mail does resume around or before July, 
many other factors may prevent the Copyright Office from collecting or 
processing fees. Many checks received may no longer be valid due to the 
length of time that will have passed, requiring a request for new 
payment. Irradiated checks may be damaged, preventing the processing of 
the checks and also require the Office to request a substitute payment. 
Finally, due to the public's knowledge of the mail situation on Capitol 
Hill, some individuals may be withholding registration claims until an 
announcement is made that mail is once again being delivered to the 
Capitol Hill offices. All of these factors make us very concerned about 
the Copyright Office's ability to operate without the proposed 
additional funds.
    Question. To what extent do you expect irradiation to make 
materials unusable?
    Answer. Some of the irradiated mail received to date has been 
unusable. Examples include: melted CD's and cassette tapes; checks 
fused into the envelopes; and letters and paper products that are stuck 
together and crumble when pulled apart.
    Question. What will the impact upon the Library be?
    Answer. The most serious impact of receiving damaged materials is 
the long-term impact on the Library's collections, as some damaged 
collections will not be replaceable. The delay and associated problems 
create more backlogs and may require the redirection of staff resources 
to process damaged materials and to send letters to donors indicating 
damage and need for new materials and checks. This redirection of staff 
resources may, in turn, cause delays in other work processes. The 
cumulative impact may have future budget implications.
                 national library in-process arrearage
    Question. I understand the National Library's backlog of 
uncataloged materials is growing at the rate of 8,300 monographs and 
300 new serials each month. It is expected there will be 781,056 serial 
issues to be checked in at the beginning of fiscal year 2003. What is 
the impact of this backlog on researchers?
    Answer. The impact on researchers is extensive. Researchers are 
denied access to the most comprehensive and current collection in the 
United States, including the greatest foreign language collection in 
the United States, and the richest integrated collection--books, maps, 
photos, etc.--of recorded human knowledge in the world.
    Question. With the additional funds the Library is requesting for 
next year ($1.475 million) when will the arrearage be eliminated?
    Answer. The delay in mail receipts has enabled the Library to 
reduce its in-process materials arrearage significantly. However, the 
delayed mail has also created a new arrearage, the bulk of which will 
be processed in fiscal year 2003. Therefore, the requested funding and 
staffing are now needed to address this mail backlog. Specific tasks 
include examining serial issues received in the Library, via copyright 
deposit, for irradiation damage, sorting, checking-in on the LC ILS, 
and shelving in the curatorial division. The Library estimates that 
monthly receipts of the copyright serials will be approximately 83,000 
issues per month--the reason why staff and contract support is needed.
    Funding and staffing requested reflected one-time costs and will 
not be required after fiscal year 2003.
    Question. The Library did not receive mail for several months. Has 
this allowed the Library to make a big dent on arrearage?
    Answer. Yes. During this period of time, staff have reduced the 
number of serials to be checked in from 400,000 to 100,000; reduced the 
number of books to be accessioned to 35,000; and processed over 1 
million items in the cataloging arrearage into the collections.
                              acquisitions
    Question. Last year the Congress provided a special appropriation 
of $5 million for the acquisition of a map dating back to 1507 known as 
America's birth certificate--the Waldseemuller map. This was a one-time 
appropriation for a very special acquisition. The Library has included 
$5 million in its ``base'' for fiscal year 2003, increasing the 
acquisitions budget from the fiscal year 2001 level of $11 million to a 
proposed $16 million. Why?
    Answer. Most of the Library's relatively small acquisitions budget 
is spent on current materials that cannot be obtained via copyright 
deposit. As costs continue to rise--both for current publications, 
especially serials, and for unique materials available in the volatile 
auction market--the Library's purchasing power to augment its special 
collections is steadily diminishing. Special collections--manuscripts, 
maps, photographs, rare books, etc.--are almost always very expensive, 
and usually available with little or no advance notice.
    The acquisition process for the Waldseemuller Map was unique in 
that the owner was permitted by terms of the German export license to 
sell the object only to the Library of Congress. Therefore, the owner 
had no choice but to wait for Congress to provide extra support through 
the normal budget process timetable.
    Because that kind of situation rarely, if ever, occurs, it is 
critical that the $5 million be retained, in the Library's base budget, 
for rare and special acquisitions. The Library can negotiate 
effectively with sellers and private funders only if it can respond 
quickly to these special acquisition opportunities and have some 
federal funds available to meet matching requirements. Only then can 
the Library continue to build its unique research collections, making 
the Library of Congress, America's pre-eminent Library.
    Question. Are there specific items the Library anticipates 
attempting to acquire?
    Answer. There are many examples of collections the Library would 
like to acquire including:
  --The Forbes Collection of Americana, one of, if not the, best such 
        collections remaining in private hands. This collection 
        includes several hundred letters from Washington, Jefferson, 
        Madison and Lincoln. The estimate for the entire collection, 
        every piece of which is worthy of being added to the Library's 
        national research collections, is in the $15 million range.
  --The owner of the most comprehensive and important collection of 
        stage design in the United States has offered to sell this 
        collection to the Library at a very concessionary price. 
        However, the Library's inability to offer complete payment in 
        one year, or to offer ironclad assurance that we can purchase 
        the collection over a period of years has brought negotiations 
        for this important acquisition to a standstill.
  --Eero Saarinen Collection--extensive archive of architectural 
        drawings by leading American Modernist architect. Masterpieces 
        include the drawings for: Dulles Airport terminal; TWA terminal 
        at JFK airport, CBS headquarters in New York City and the U.S. 
        Embassy in London. $1.2 million.
  --Art Wood Cartoon and Caricature Collection--the world's most 
        comprehensive collection of original, historical cartoon art in 
        private hands; includes 30,000 items by more than 3,000 artists 
        made between 1757 and 1995. $200,000.
  --Design proposals for a New World Trade Center--Sixty, highly 
        imaginative and thought-provoking design concepts created by a 
        group of well-known and emerging architects worldwide in 
        response to the destruction of the World Trade Center towers in 
        New York in September 2001. Conceptual proposals include 
        sketches, renderings, and multi-media presentations were 
        exhibited to acclaim at a New York gallery in January-February, 
        2002; after a show at the National Building Museum in April 
        through May, the U.S. State Department will enter the works as 
        the official U.S. display at the 2002 Venice Biennale. 
        Architects include many of the major figures practicing today--
        Michael Graves, Paolo Soleri, Coop Himmelblau, Hugh Hardy, Hans 
        Hollein, Daniel Liebeskind, and Frei Otto. $400,000.
  --Larry Fritsch Baseball Card collection--world's largest and most 
        comprehensive collection of historic baseball cards; 750,000 to 
        1,000,000 items spanning the 1880s to present and including 
        complete sets and editions. $2.5 million.
  --John Steptoe Collection--Drawings, sketches, and painting of 
        renowned African-American author-illustrator of books about 
        children, old legends, and neighborhoods of his youth. 
        Publications include: Train Ride, Stevie, Creativity, Mufaro's 
        Beautiful Daughters, and Uptown. $1.7 million.
  --Garth Williams Collection--Illustrator of numerous enduring 
        classics of American Children's literature, including E.B. 
        White's Charlotte's Web and Stuart Little, and Laura Wilder's 
        Little House books. $1.87 million.
    Question. To what extent should such items be financed by private 
rather than public funds?
    Answer. Acquiring documents or other historical treasures that 
should be held by and for the American people and exhibited in the 
Congress' Library for all to share is an appropriate use of public 
funds. While the Library does seek private funds for many of its 
collections, securing private funds can be challenging, at best, and 
recent events have made this process even more difficult. Reliance on 
private funds also brings other complications: flexibility can be lost 
due to the demands/wishes of donors; negotiations may not be as timely 
as the time-sensitive acquisitions require; the private donors often 
require a Federal match. The $5 million will not only allow the Library 
to purchase items in a timely manner but also provide the leverage 
needed to secure funding from private partners.
                         law library arrearage
    Question. Last year, a special appropriation of $850,000 was 
provided to address the significant backlog of material in the Law 
Library. What is the status of Law Library arrearages and when will the 
Law Library's materials be current?
    Answer. The Law Library is on track with an action plan that will 
eliminate arrearages in four different categories/processes by the end 
of 2003. For example, the looseleaf arrearage has already been reduced 
by 184,482 items (20 percent).
    While the Law Library does not anticipate any problems in reducing 
its current backlog, the impact the mail delay may have in terms of 
creating new arrearages is not known.
                        veterans history project
    Question. The fiscal year 2002 budget included $250,000 for the 
Veterans History Project and another $476,000 is requested for next 
year. The project is also receiving generous support from AARP. Could 
you update us on the project?
    Answer. The project is unfolding in the way that Congress 
envisioned: grandchildren are interviewing grandparents; veterans are 
interviewing each other; and schools are identifying subjects and 
conducting interviews as class projects. The project is receiving help 
from many organizations in 47 states and the District of Columbia, 
including veterans associations, libraries, museums, and civic groups.
    The Library has developed a complete instruction kit for 
organizations and volunteers, available on the project's Web site 
(www.loc.gov/folklife/vets) and in print. Large print and audio 
versions are also available for the visually impaired. Since the start 
of the project, the Library has attracted over 200 official partners. 
Close to 40,000 brochures have already been distributed. The Library 
receives up to 250 phone calls a day and over 400 submissions have been 
received to date, with many more expected. Some members of Congress are 
active in this project, organizing projects in their state or 
conducting interviews themselves.
    This wonderful project assures the American people a personal and 
permanent record of our veterans' experiences.
                       nls/bph digital technology
    Question. Last year the National Library Service for the Blind and 
Physically Handicapped established a digital long-term planning group. 
What has come of this effort and what are the implications of emerging 
digital information technologies on the provision of books and 
materials to the blind community?
    Answer. In 1990, the National Library Services (NLS) began its 
long-term planning to convert to a digital system to assess the impact 
of the emerging digital technologies on the NLS program and to 
investigate the opportunities they provide. In 2001, a long-term 
planning group was formed. The group, which has met twice, advises NLS 
on the impact on NLS consumers and network libraries of the transition 
to a digital audio distribution system, has already provided feedback 
on the options for audio book distribution, and contributed to the 
gathering of cost data for the system. NLS plans to convene the 
committee twice a year for the next five years to lead the program into 
the digital age and to guide the development of the digital talking 
book.
    Digital technologies are already changing the way blind persons 
access information, especially as information increasingly becomes 
available electronically and accessible to the technically-able in the 
blind community. The future use of commercial audio books as a 
mainstream publication medium has significant potential. Improvements 
in synthesized speech will also enhance information delivery. The long-
term planning group was formed to look at these technologies and assess 
their viability for the blind community in general and for the NLS 
patron base, in particular.
    The development of the digital talking book by NLS is seen to have 
very specific implications on the provision of books and materials to 
the blind community. Some key aspects of the new technologies under 
investigation are:
  --Increase ease of use of recorded media (less manipulation of 
        media).
  --Improved sound quality.
  --Faster access to information within a document (enhanced navigation 
        tools).
  --Improved interaction with digital media (ability to set bookmarks, 
        highlight material, etc.)
  --Potentially more information accessible (less processing of data).
  --Ability to integrate full text file with recorded human speech to 
        allow keyword searches, spelling of words and other searches.
  --Choice of format for accessing text file (human speech, synthetic 
        speech, braille, large print).
  --Direct access to audio materials via the Internet, once sufficient 
        bandwidth is widely available at a reasonable cost.
    Question. With an inventory of more than 700,000 cassette tape 
machines, any change will be very expensive. Are there long-term budget 
implications we should be aware of?
    Answer. The NLS projects that digital audio will be of comparable 
cost to current analog cassette system. The impact on NLS budget will 
be primarily during the critical transition years as digital copies of 
existing audio books are created and as digital playback devices are 
built at a higher rate than the normal replacement rate. It is 
projected that an additional $70 million, with no-year authority, will 
be required to produce an adequate number of digital audio machines for 
a period of five years from the date of the first manufacture. At the 
end of that period, the current level of funding will be sufficient to 
meet patron requirements.
    Question. When will the Library request additional funds?
    Answer. The NLS plans to make the first request for additional 
funds in fiscal year 2005, although the fiscal year 2005 and fiscal 
year 2006 budget requests will be nominal. Requests for significant 
increases will begin in fiscal year 2007.
                    global legal information network
    Question. The Law Library is requesting $3 million and 6 FTEs to 
create a fully functional Global Legal Information Network (GLIN). GLIN 
has been under development, without dedicated funding, for a number of 
years to provide timely access to primary sources of law including 
``born-digital'' sources. I understand over a 5-year period the Law 
Library will be seeking $12.7 million to expand GLIN to a core of 50 
countries. Can you explain the importance of this program?
    Answer. The GLIN is the foundation of the digital law library and 
consistent with the goals of the Library's digital futures program. It 
serves as the database for foreign and U.S. Law and currently includes 
90,000 law summaries, over 32,000 full texts of legal instruments, and 
over 250 legal writings. The network consists of 15 member nations, two 
international organization members. The Law Library contributes the 
laws of 24 Portuguese, Spanish and French speaking nations and the 
United States. These numbers will increase to 50 participating 
countries with planned outreach efforts during the next five years. The 
database/network is critical to the work of the Law Library, ultimately 
reducing paper documents and related storage space issues, increasing 
staff efficiency and productivity, and providing more immediate access 
to all materials.
    Question. Why is a specific appropriation needed for the first 
time?
    Answer. Limited resources have precluded even basic technological 
upgrades to the GLIN. No new GLIN system functionality has been 
implemented since 1998 and obsolete technology is impeding the growth 
of the network. An infusion of resources is necessary now to implement 
a critical system upgrade. No funding or reduced funding will result in 
the gradual loss of current members and will prevent the attraction of 
new members, eventually leading to the demise of the system. The 
proposed upgrades to the GLIN can be accomplished in a relatively short 
period of time with readily available technology.
    Question. How will the expansion of this system benefit the 
Congress?
    Answer. The system will benefit Congress by providing current and 
accurate information on legislation enacted by other nations. 
Heightened national security and growing economic interdependence makes 
GLIN indispensable in responding to Congress on foreign issues. Recent 
major multinational studies exemplify the use and great potential of 
the GLIN endeavor: Legislative responses to terrorism in various 
countries; health emergencies including anthrax and other contagious 
diseases; computer security; and law and policy related to cloning.
                           computer security
    Question. As shown in the annual financial statements for several 
years, the Library's auditors have reported an internal control 
weakness in computer security. The Library's on-line services are 
important to the legislative branch operations and to the nation. What 
steps are you taking to address the auditors' concerns and to improve 
the Library's computer security?
    Answer. The Library continues to upgrade its computer security 
through a number of measures:
  --External LC firewall deflected over 1 million unauthorized 
        connection attempts in CY 2001.
  --Authorized remote access to LC's internal network is secured 
        through Virtual Private Network which encrypts data traffic and 
        requires user authentication prior to use.
  --Recent penetration studies reveal no significant network security 
        vulnerabilities from external (Internet) sources.
  --There have been no major incidents or break-ins in the two years 
        since the January 2000 defacement of the THOMAS system web 
        page.
    Other improvements include upgraded router security, internal 
computer security training for all LC staff, and card access security 
to the LC central computer facility.
    Future Plans include:
  --Request for two additional IG auditors in fiscal year 2003 to 
        increase computer security audits.
  --Replicating the central Library data center at a remote facility 
        for the purposes of disaster recovery and/or speedy recovery 
        from security incidents. This work is in cooperation with the 
        House and Senate, using the $16 million provided in the fiscal 
        year 2002 emergency supplemental.
  --Hiring a computer security/communications expert to help document 
        security policies and procedures across all service units.
  --Conducting monthly or quarterly internal network security 
        penetration studies.
  --Installing redundant capabilities to the central firewall to 
        eliminate the possibility of an unscheduled firewall outage.
  --Adding processor power to scan for viruses and inappropriate 
        content and other security tools.
  --Card access security to all telecommunication closets.
                         hiring and avue system
    Question. Did the negotiated agreement specifically call for an 
automated hiring system?
    Answer. Yes. The negotiated agreement specifically stated that 
Appendix B or the new hiring process would be implemented via an 
automated system to ensure content validity and objectivity.
    Question. Has the Library been able to hire staff under the new 
system?
    Answer. Yes. In addition to the 144 employees hired under the 
automated system, the Library has also selected 113 professional and 
administrative employees under the old merit hiring system for a total 
of 257 hires.
    Question. Has the project manager been able to help with the 
implementation of the automated system?
    Answer. Yes. The Project Manager coordinated the review of the 
Library's hiring process to develop Standard Operating Procedures. The 
Project Manager also drafted a Customer Requirements Document to ensure 
that the automated system meets the Library's hiring needs. This work 
was accomplished at the same time that critical positions were being 
filled.
    Question. What has been the impact of the Library's new selection 
process on workforce diversity?
    Answer. The Library has continued its strong record of a diverse 
professional and administrative workforce, a record that exceeds the 
federal government as a whole. Under the new process, 28.5 percent of 
all professional and administrative selections have been minorities, 
and overall, 31 percent of the Library's professional and 
administrative employees are minorities.
    Question. Does the Library believe that filling a job in 80 days is 
a good benchmark for the Library?
    Answer. While an 80 day recruitment process is not an optimum goal 
in filling a vacancy it does represent an aggressive milestone. An 80-
day fill time is more impressive when one understands the complexities 
of and specific steps required in the hiring and selection of staff 
based on a fair and open competition.
                             hiring system
    Question. Dr. Mulhollan, I understand there has been no hiring at 
CRS for almost a year under the new automated hiring system. When do 
you expect to be able to hire staff? What has been the impact on your 
operations?
    Answer. At the March 13th Senate hearing, I stated that CRS plans 
to fill 79 positions under the new automated hiring system and nine 
positions under alternative hiring programs (such as the Law Recruit 
Program). Since that time, the details of our hiring time line have 
been updated as follows:
    April:
  --Complete selection for a Review Specialist.
  --Post 12 analyst positions, with selections to be completed during 
        August and September.
    May/June:
  --Complete selections for two Public Affairs Coordinators.
  --Post the remaining 38 analyst positions, with selections to be 
        completed between September and December.
    June/September:
  --Post an additional 26 non-analyst positions, with the first 
        selections being completed in September.
    October:
  --Post the 12 new analyst positions requested in the fiscal year 2003 
        request, with selections being completed in the second quarter 
        of fiscal year 2003.
Decreased coverage and service quality for the Congress:
    Operating with 57 analyst vacancies has been difficult. While CRS 
has met all of the Congressional requests, we do not believe that our 
analysis has always reflected the depth that might have been possible 
if we were fully staffed. Even with the imminent resumption of hiring, 
restoring full service to the Congress cannot be accomplished 
immediately. New policy experts typically take several years to acquire 
the level of knowledge and skills needed to operate with full 
effectiveness. New staff will have missed out on mentoring 
opportunities from seasoned experts who are beginning to retire in 
greater numbers, as we had anticipated. CRS service to Congress in 
numerous areas of expertise is currently seriously compromised by staff 
departures and unfilled positions. These areas include the following:

Agricultural economics
Appointments and confirmations
Aviation safety and security
Biometrics
Business taxation
Civil rights, equal rights, violence against women
Defense budget
Disease control
Europe-U.S. relations, NATO, EU
Federal laboratory research and management
Financial institutions, regulation and oversight
Global securities markets
Hazard and risk assessment
Impeachments and standards of proof
Industrial technology and infrastructure
Information technology and govt. IT management
Intergovernmental finance and taxation
International monetary systems
International natural disaster assistance
International finance
Judicial reform and improvement
Law and information technology
Military base closures: local impacts and assistance
National defense stockpiles
Natural disasters
research, mitigation and assistance
Ocean and coastal resources
Postal affairs
Productivity and U.S. living standards
Proliferation of nuclear and other sensitive technologies and weapons
Public health policy
Refugee policies
Regulatory commissions and regulatory reform
Research and development incentives
Social security and long-term reform
Social security and the Federal budget
South Asia
U.S. relations
Stem cell research
Tax administration
Trade in financial services
World health threats and assistance
World oil and gas resources and recovery
Disruptions in on-going efforts to strengthen and upgrade business 
        operations:
    Important operational and strategic reviews affecting CRS' ability 
to improve Service-wide business operations have been delayed this year 
because substantial senior management resources had to be redirected to 
help implement the new hiring process. Some significant examples 
include the following:
  --A major, one-time effort to incorporate ideas and reactions of all 
        CRS staff on enhancing our service to the Congress was 
        suspended six months into the process.
  --Efforts to develop an online capability for facilitating 
        congressional access to CRS resources focused on current 
        legislative issues were truncated and that capability now 
        operates at a lower level of service than planned.
  --A functional review to evaluate and determine the best use of 
        information resource specialists and CRS' recently enhanced 
        information technology to integrate electronic information 
        resources more fully and effectively into research activities 
        has been on hold for about a year.
    Further, from time to time, research responses to congressional 
requests have been less than optimal. Senior researchers have had to 
assume operational duties, such as review and project management 
responsibilities for senior managers whose time had to be diverted to 
help implement the new hiring process.
    Question. What are you doing to adjust workload internally rather 
than asking for additional FTEs?
    Answer. In my opening remarks before the Subcommittee on 
Legislative Branch Appropriations, I assured the members that CRS was 
continuing to adjust existing staff and resources to align with 
Congress' legislative needs. The request for twelve additional 
positions reflects new added capacities that cannot be drawn from other 
subject areas without weakening CRS' overall support to Congress across 
all legislative issues.
    With regard to the seven additional positions to handle aging 
issues, Congress is already, this session, grappling with several major 
age-related initiatives such as improved coverage of prescription drugs 
under Medicare, new tax incentives to encourage the purchase of long-
term care insurance, and increased staffing and improved employment 
conditions in nursing homes and home health care agencies. In addition, 
Congress is facing the prospect of major Social Security reform 
legislation in the 108th Congress. These issues will affect the lives 
of millions of Americans and have a profound impact on our economy, our 
health care system, and a whole range of social policies and programs 
from now until well into the foreseeable future. These issues also have 
a considerable impact on the U.S. budget wherein annual federal 
spending associated with retirement and disability programs will reach 
$1 trillion for the first time in fiscal year 2002. This spending 
amounts to half of all federal spending and 9 percent of the gross 
domestic product. Given the enormity of these issues and the costs 
associated with them, CRS must be positioned now to assist the 
Congress.
    With regard to terrorism and homeland security, the five positions 
identified in the budget request represent knowledge and skills not 
currently resident within the current CRS staffing capacity. CRS has 
adjusted work assignments, created teams to foster interdisciplinary 
support in issue areas related to combating terrorism and ensuring 
homeland security, and has already adjusted baseline capacity to 
address some of the policy areas arising from the event of September 
11th. The new positions reflect knowledge, skills and work experiences 
that the current analyst pool cannot assume for two reasons: (1) the 
level of sophistication needed by the Congress is such that current 
analysts cannot gain the equivalent expertise quickly; and (2) the 
current pool of analysts are fully engaged in supporting other policy 
needs of the Congress.
    CRS uses a formal and structured process to determine research and 
support needs. This process is undertaken at the beginning of each 
fiscal year and is reviewed and revised, if needed, regularly. The 
Assistant Directors for each research area identify their personnel 
needs using a Service-wide ``Needs Assessment'' tool that measures risk 
of capacity loss due to planned retirements, historical attrition 
rates, and Congress' legislative needs. The Assistant Director for 
Finance and Administration and the Assistant Director for Work Force 
Development inform this process with reports on the financial condition 
of the Service as well as the status of personnel actions such as 
hiring and retirements, and contract procurement. At the end of this 
process, the Director decides which staffing needs would be filled 
given resources. These decisions are reviewed periodically and adjusted 
if needed. In addition to this process, CRS is constantly shifting 
existing resources within the Service to adjust to Congress' 
legislative agenda and needs. The decision to ask Congress for twelve 
additional positions in fiscal year 2003 was made after completing a 
Service-wide review and determining that the specific research 
capacities inherent in these positions could not be met with current 
staff or staff identified as part of our fiscal year 2002 hiring 
decisions.
    Even if it were possible to move analysts from one area to another, 
the results would be draconian. CRS would be forced to accommodate the 
research needs in equally important issue areas without sufficient 
resources.
    Question. To what extent is CRS contracting for the needed 
expertise, and how effective are contracts in lieu of in-house staff 
for getting CRS' work accomplished?
    Answer. CRS aggressively pursues the use of contracts to acquire 
the capacity needed to meet the needs of the Congress--in any year. The 
use of contracts provides some limited relief to current capacity 
shortfalls; however, this strategy does not serve the long-term mission 
of CRS. The CRS mission can best be carried out with a permanent 
workforce that has both institutional knowledge of the legislative 
issues facing the Congress and an understanding of the analysis needed 
to support Congress' deliberations on these issues. Permanent staff 
also gain an organizational loyalty critical to successful public 
service.
    Having said this, CRS experience with contractors has been very 
positive, over a number of years. For example, CRS has used contractors 
to develop a database and econometric modeling supporting CRS research 
projects, develop seminar presentations by nationally recognized 
experts (on terrorism, peacekeeping, budget process), and to complete 
selected studies on specific issues for which CRS expertise was not 
available, and for which lead time in meeting congressional needs was 
not immediate. For the vast majority of Congressional demands on CRS, 
use of permanent staff is most efficient and effective. With very few 
exceptions Congress places its demands on CRS with some urgency. 
Resident experts who are available on demand provide the only feasible 
way for CRS to meet the large volume urgent congressional requests in a 
timely manner. Congress places a large volume of demands on CRS that 
reach across all areas of policy-making. Resident experts who have 
experience working together quickly identify the most appropriate 
specialist(s) for each set of work requirements and combine forces as 
appropriate across disciplines (law, economics, science, international 
relations, etc.) or fields (e.g. banking, fraud, pensions, corporate 
finance, etc.) to meet the great variety of congressional needs. 
Congress works in a setting in which events and responses frequently 
evolve rapidly. Resident experts have the flexibility to adjust work in 
progress to adapt to new events and evolving legislative proposals. 
Because resident experts have continuing responsibilities, they develop 
research products that they can and do maintain through updates and 
revisions to keep pace with events, including the legislative process.
                            diversity report
    Question. CRS recently completed a report on diversity at CRS. Can 
you tell us why CRS undertook this project, and what you found? What is 
CRS planning to do to enhance its diversity with respect to the 
categories needing improvement, namely Hispanic men and Asian men?
    Answer. A copy of the CRS Diversity Report is submitted for the 
record. CRS prepared the report for two reasons: (1) to demonstrate 
that CRS has been committed to diversity (for a number of years), and 
(2) to let the record show that the actions taken over the past few 
years has indeed produced a diverse staff in CRS. CRS believes that it 
must have a high quality workforce that mirrors the Congress we serve 
and the constituencies it represents. The obligation to pursue that 
level of diversity in its workforce is one of the core values to which 
CRS is fully committed. While this effort is now, and will always be, a 
``work in progress'', CRS has successfully employed a diversity 
strategy with several component elements:
    The first component of the CRS Succession Initiative, was supported 
by congressional funding in fiscal year 1999 and fiscal year 2000. This 
initiative involved extensive nationwide recruiting efforts and has 
revealed intense competition for a small pool of minority graduate 
students (14 percent) reduced further by fewer students seeking public 
service. This effort included several components: (1) the CRS Graduate 
Recruit Program (41 hires, 20 percent minority) between 1997-2000, (2) 
the CRS Law Recruit Program (five hires, 40 percent minority) between 
1997-2000, (3) the Presidential Management Intern Program (seven hires, 
43 percent minority) between 1997-2000, (4) Research Partnerships 
(``Capstone'' projects), and (5) Outreach to Minority-Serving 
Organizations (e.g., Atlanta University Center, United Negro College 
Fund, Congressional Black Caucus, etc.).
    The second component in the CRS diversity strategy is the CRS 
Internal Programs which comprise internships, working groups, and 
professional development opportunities, such as: project management 
coordinators, technical support assistants, and the CRS detail 
opportunity program. CRS also participates in the Library's Volunteer 
Intern Program, Career Opportunity Plan, and Recruitment and Mentoring 
Workgroups.
    The third component in the CRS diversity strategy is participation 
in many of the Library's diversity programs, including: Hispanic 
Association of Colleges and Universities (HACU) National Internship 
Program (one to two interns per year since 1996), Affirmative Action 
Intern Program (three interns in fiscal years 1994-1996), Affirmative 
Action Detail Program (participated in the 2000 program), Leadership 
Development Program (recently submitted nine project proposals), and 
the Executive Potential Program (eight assignments since 1996).
    Since the beginning of fiscal year 1994, CRS has lost more staff 
than it has been able to replace. For both total staff and professional 
staff, however, CRS has been able to hire minorities in a greater 
proportion than it has lost. CRS has increased professional minority 
staff to 16 percent (total minority staff 33 percent). As of June 2001, 
when compared to the national professional civilian labor force, CRS is 
at or above parity for Black men and women and Native Americans.
    CRS is working to improve under-representation in other areas, 
especially for Hispanic men and Asian American/Pacific Island men, the 
two categories in which CRS is currently most under-represented. CRS is 
focusing recruitment efforts on universities with high concentrations 
of Asian and Hispanic students; partnering with specific public policy 
schools which have high proportions of Asian and Hispanic students to 
undertake research through the ``Capstone'' projects; and meeting with 
all Members of Asian-American descent and Members who participate in 
the Black Caucus and the Hispanic Caucus to elicit ideas on how to 
improve staff representation.
  Director's Report--Diversity in the Congressional Research Service--
                             November 2001
                                                 November 13, 2001.

    The sole mission of the Congressional Research Service is ``to 
provide the Congress, throughout the legislative process, comprehensive 
and reliable legislative research, analysis, and information services 
that are timely, objective, non-partisan, and confidential, thereby 
contributing to an informed national legislature.'' The Service must 
carry out that mission, adhering to its core values of client service, 
uncompromising integrity, total quality, mutual respect, and diversity.
    The commitment of CRS to diversity has been especially apparent in 
its recent efforts to meet the challenge presented by the imminent 
departure of a large proportion of its staff to retirement. The Service 
has operated on many fronts as part of its ``Succession Initiative'' to 
take full advantage of the opportunities presented by this transition 
period for ensuring for the Congress a talented and diverse workforce 
to support its legislative work in the future. The Congress expects no 
less, and I am pleased to report on our progress to date and our plans 
for the future.
    This report outlines many of those efforts that are an integral 
part of our succession planning, as well as on-going diversity efforts 
that are a regular and permanent feature of CRS programs, policies and 
procedures. What is described here is, of course, but a snapshot of 
what we have accomplished, where we are today, and what we are working 
to achieve in the coming years. Our diversity efforts are, and will 
always be, a ``work in progress.'' They must never be a reason for 
complacency, but rather a stimulus for further efforts, both new and 
old, with the same goal in mind a high quality workforce that mirrors 
the Congress we serve and the constituencies it represents.
                                       Daniel P. Mulhollan,
                                                          Director.
                           executive summary
    Diversity has long been identified as one of the five core 
strategic values of the Congressional Research Service (CRS), and 
remains critical to its success as both a congressional support 
organization and an organization of people. The impending retirement 
eligibility of more than 60 percent of the Service's professional staff 
by 2006 offers significant opportunities for CRS in the area of 
diversity opportunities that have not been present on this scale since 
the early 1970s, when Congress infused the Service with a new mandate 
to serve its analytic needs and provided funding for a substantial 
increase in staff capacity. Those 1970s hires have largely remained 
with CRS and now approach retirement eligibility. With a very low staff 
turnover rate and with government-wide budget constraints, CRS has had 
but limited opportunity to add new research staff.
    Over the past five years, in anticipation of these impending 
retirements, CRS has taken a number of actions, including the 
following:
  --Launching a formal ``Succession Initiative'' supported by 
        congressional funding, and using it to fill 53 permanent 
        positions;
  --Utilizing national recruitment and hiring programs to attract 
        minority applicants to CRS programs such as the CRS Graduate 
        Recruit Program, the CRS Law Recruit Program, and the Federal 
        Presidential Management Intern Program;
  --Targeting universities and public policy schools with high minority 
        enrollment to serve as recruitment sources for entry level 
        professional positions visiting over 60 schools;
  --Working with higher education institutions, such as Syracuse 
        University, the University of Texas at Austin, and the 
        University of California at Los Angeles, to build research 
        partnerships that include objectives related to the Service's 
        ability to attract a diverse pool of applicants for CRS 
        professional positions;
  --Forging special connections with minority-serving organizations 
        such as Historically Black Colleges and Universities, the 
        United Negro College Fund, the Congressional Black Caucus, the 
        Congressional Hispanic Caucus, and others.
    In addition to these actions, CRS has developed programs and 
initiatives to provide career development opportunities for all staff, 
including the creation of a new positions, the formalization of a 
detail opportunity program in cooperation with its labor union, the 
Congressional Research Employees Association, and participation in the 
Career Opportunity Program. CRS has created a program providing work 
opportunities for volunteer interns. The Director also created 
recruitment and mentoring working groups to further the goal of 
enhancing diversity in the implementation of the succession initiative.
    CRS has participated in Library diversity programs and initiatives 
in order to enhance diversity in professional and administrative 
positions throughout the Service; these include the Hispanic 
Association of Colleges and Universities National Internship Program, 
the Affirmative Action Intern and Detail Programs, the Leadership 
Development Program, and the Executive Potential Program.
    Finally, examination of data related to the diversity of the CRS 
workforce today reveals that, while CRS has been successful in its 
diversity programs, work remains to be done especially to attract 
Hispanic and Asian men. The Service is fully committed to a continuing 
effort to see that its staff mirrors the full range of diversity found 
in the Congress itself and in its constituencies.
                              introduction
    Diversity has long been identified as one of the five core 
strategic values of the Congressional Research Service (CRS), and 
remains critical to its success as both a congressional support 
organization and an organization of people.\1\ As an agency charged 
with assisting the United States Congress in the formulation and 
evaluation of legislative proposals, CRS has sought to ensure that its 
research and analysis are reflective of the diversity within the 
Congress itself and among the many constituencies that it represents. 
Apart from such obligations, CRS also recognizes the organizational 
benefits for a workforce community that flow from incorporating diverse 
views, multiple disciplines, and a variety of research approaches into 
its work activities and culture.
---------------------------------------------------------------------------
    \1\ The other four core CRS strategic values are client service, 
uncompromising integrity, total quality, and mutual respect (as 
outlined in ``The Congressional Research Service: Supporting the 
Legislative Work of the Congress in a Period of Fiscal Constraint,'' 
February 1996).
---------------------------------------------------------------------------
    Thus, when recruiting for its professional positions, CRS focuses 
on bringing in staff from all racial and ethnic backgrounds. As a 
result, since fiscal year 1994, in spite of staff losses, CRS has 
increased minority professional staff \2\ slightly and has even reduced 
underrepresentation for some groups when compared to the national 
civilian labor force. It has been more difficult for other groups, 
however, specifically Hispanic men and Asian men who were significantly 
underrepresented in fiscal year 1994 and are still underrepresented. 
For example, since fiscal year 1994, CRS has lost four professional 
Hispanic males to retirement, other employment, or for other reasons--a 
higher turnover rate than any other group. CRS has been able to replace 
only two of them through outside appointments. For Asian males, CRS has 
lost two and hired three, which reduced underrepresentation, but only 
slightly.
---------------------------------------------------------------------------
    \2\ For the purpose of this report, the term ``professional staff'' 
is based on the Office of Personnel Management's (OPM) Professional, 
Administrative, Technical, Clerical and Other (PATCO) definition of 
professional. For CRS, this consists of research analysts and 
librarians.
---------------------------------------------------------------------------
    Low turnover rates among professional staff and government-wide 
budget constraints have limited CRS's opportunity to add new research 
staff over the past several years. However, as the Service faced the 
impending retirement eligibility of a large number of its professional 
staff over the next few years, it became clear that this situation 
offered significant opportunities for further progress in the area of 
diversity--opportunities that have not been present on this scale since 
the early 1970s, when Congress infused the Service with a new mandate 
and provided funding for a substantial increase in staff capacity. 
Consequently, CRS sought and received congressional support for a 
succession strategy that placed heavy emphasis on finding a diverse 
pool of entry-level candidates for the positions being vacated by those 
retiring.
    This report examines the key strategic actions CRS has undertaken 
in recent years to prepare for these impending retirements and to take 
advantage of the opportunities they represent for enhancing diversity 
within the Service. The report, which will be updated periodically, 
also summarizes CRS participation in other ongoing workplace diversity 
initiatives, and provides information on the composition and diversity 
of the CRS workforce. The Service remains committed to the goal of 
further enhancing the diversity of its workforce in all areas.
                       crs succession initiative
    The Legislative Reorganization Act of 1970 greatly expanded the CRS 
mission, mandating that the Service provide, without partisan bias, 
``analysis, appraisal, and evaluation of legislative proposals.'' \3\ 
To implement this new mission, Congress appropriated funds for CRS to 
hire significant numbers of new staff. Many of the staff hired during 
that period have remained with CRS and are now, or soon will become, 
eligible to retire. Indeed, by 2006, more than 60 percent of CRS's 
professional staff will be eligible to retire, and more than half of 
those eligible have indicated that they will in fact retire within this 
time-frame.\4\
---------------------------------------------------------------------------
    \3\ The mission of the Congressional Research Service (CRS) is to 
provide to the Congress, throughout the legislative process, 
comprehensive and reliable legislative research, analysis, and 
information services that are timely, objective, nonpartisan, and 
confidential, thereby contributing to an informed national legislature. 
This mission derives directly from the CRS organic statute, codified at 
Section 166 of Title 2 of the United States Code. The Legislative 
Reorganization Act of 1946, as amended in 1970, mandated that CRS 
perform a variety of functions in fulfilling its responsibilities. 
Generally, the Director is obligated, without partisan bias, to 
``develop and maintain an information and research capability.'' 
Specifically, CRS is to advise and assist congressional committees in 
``analysis, appraisal, and evaluation of legislative proposals'', 
determining advisability of enactment, estimating probable results, and 
evaluating alternatives. Upon request or on its own initiative, CRS is 
to ``collect, classify and analyze'' information having a bearing on 
legislation and to make that information available to Members and 
committees. Legislative support is to be provided at all stages of the 
process, from the development of proposals, to the preparation and 
conduct of hearings, to mark-up and the writing of reports, to final 
floor consideration, and beyond to implementation and oversight.
    \4\ The CRS staff is comprised of nationally recognized experts in 
many disciplines, able to cover the wide range of issues before the 
Congress, including law, economics, foreign affairs, the physical and 
behavioral sciences, environmental science and natural resources, 
public administration, and the social sciences. The work of these 
experts can be undertaken through a synthesis of existing research or 
through original analysis based on models, unique databases, or other 
analytical tools which support collaborative internal research efforts. 
In addition to these subject experts, CRS staff with years of 
experience and institutional memory are available to assist with 
matters related to legislative processes themselves--from parliamentary 
procedures to budget and appropriations procedures, to matters of 
jurisdiction and oversight responsibility. The breadth and depth of 
resident expertise enable CRS staff to come together quickly to provide 
integrated, cross-cutting analysis on complex issues that span multiple 
legislative and program areas.
---------------------------------------------------------------------------
    To address this anticipated loss of senior expertise, CRS in 1996 
developed a comprehensive risk assessment and succession planning 
strategy designed to identify the areas of expertise at greatest risk 
through retirements and plan in advance for their replenishment.\5\ The 
goal of this Succession Initiative was to obtain congressional funding 
to hire a cadre of 60 entry-level staff to work alongside veteran staff 
in an apprenticeship capacity before those veteran staff retired, thus 
providing the Congress with a seamless transfer of CRS knowledge and 
institutional memory. Moreover, CRS sought to use this singular 
recruitment opportunity as a means to attract minority applicants to 
the Service.
---------------------------------------------------------------------------
    \5\ The CRS workforce will undergo a significant transition during 
the next five years. As these retirements are taking place, the nature 
of the work in CRS is changing to meet the needs of Congress, 
particularly as the Congress moves from a primarily paper-based world 
to one that is digitally-dominated. During the past several years, the 
Service has taken steps to build its internal capacity to continue to 
meet the changing needs of Congress, including realigning the 
organization, and implementing a succession plan for professonal staff. 
Additionally, CRS has undertaken several internal studies related to 
better understanding how the work has changed, particularly as related 
to production support and research assistance, information services and 
librarianship. These studies all point out the need to re-evaluate our 
effectiveness, hone position descriptions, and more precisely identify 
competencies and skills needed to perform the work. Finally, CRS is in 
the process of creating a five-year strategic plan, and it is clear 
that replenishing and developing a talented, diverse staff with the 
skills to serve Congress in a technologically fast-paced environment is 
a key strategy for CRS if it is to comply with its congressional 
mandate and meet its strategic goals for the future.
---------------------------------------------------------------------------
    Today, five years later, CRS has achieved much of what it set out 
to accomplish. As of this writing, the Service has filled 53 permanent 
positions as part of this initiative. Fifteen of these positions were 
specifically funded by increased congressional appropriations in fiscal 
years 1999 and 2000; the remainder were funded from the CRS base 
appropriation. Twenty-five percent of these were minority hires (racial 
and ethnic).
I. Utilizing National Recruitment and Hiring Programs
    The Service primarily used two CRS-created nationwide recruitment 
programs as well as the Presidential Management Intern Program to carry 
out its succession initiative.
  --The CRS Graduate Recruit Program.--This is a two-phase, competitive 
        program designed to attract the nation's top graduate students 
        as they complete their degree programs. Phase one consists of 
        an initial summer experience for those selected. During this 
        phase participants work closely with senior CRS staff on a 
        variety of research and analytical projects intended to expand 
        their academic knowledge and skills and enhance their 
        familiarity with the work of CRS. Participants who perform 
        successfully during this initial summer experience are then 
        considered for Phase Two of the program--non-competitive 
        placement in a permanent position with the Service. For 
        students having already completed their advanced degree, the 
        program provides an opportunity for immediate conversion to a 
        permanent position. Students who have not yet earned their 
        advanced degree return to school and are given the opportunity 
        for a permanent position upon completion of all degree 
        requirements.
      CRS has hired 41 permanent staff including 8 minorities (20 
        percent) under the Graduate Recruit program since 1997.
  --The CRS Law Recruit Program.--This program offers law students the 
        opportunity for permanent employment as legislative attorneys 
        with the CRS American Law Division. The program is open to law 
        students in their final year of law school. Offers to students 
        are effective after all requirements for the degree have been 
        completed, with the understanding that bar membership will be 
        obtained within a stipulated time period. Since 1997, CRS has 
        hired five permanent staff under the Law Recruit Program, 
        including two minorities (40 percent).
  --The Federal Presidential Management Intern (PMI) Program.--This is 
        a national program administered by the Office of Personnel 
        Management and designed to attract to federal service 
        outstanding graduate-level students from a wide variety of 
        academic disciplines having an interest in, and commitment to, 
        a career in the analysis and management of public policies and 
        programs. Universities nominate the top ten percent of their 
        advanced degree candidates to compete in a national pool out of 
        which 500 interns are selected for placement. CRS has hired 
        seven staff under the PMI program since 1997, including three 
        minorities (43 percent). CRS offered rotation opportunities to 
        eight additional PMIs from other agencies, 25 percent of whom 
        were minorities.
II. Building and Sustaining Successful University Recruiting 
        Relationships
    The Succession Initiative presented CRS with considerable 
opportunities and challenges in the area of university recruitment. 
Government-wide budget reductions and exceptionally low CRS staff 
turnover rates \6\ resulted in relatively few new hires to the Service 
during the late 1980's and early 1990's. Consequently, by the mid-
1990s, many of the Service's university recruitment networks had become 
inactive.
---------------------------------------------------------------------------
    \6\ The typical annual staff turnover rate for CRS in the early 
1990s was between 3 and 4 percent.
---------------------------------------------------------------------------
    To address this problem, CRS launched an aggressive campaign to re-
familiarize graduate school administrators and faculty with the Service 
and its work. Specifically, CRS focused its recruitment efforts on 
graduate schools (particularly public policy schools) considered to be 
of the highest academic caliber and with a high proportion of minority 
enrollment. CRS relied on several sources in making these judgments, 
notably studies conducted by the Association for Public Policy and 
Management (APPAM) and by the National Association of Schools of Public 
Affairs and Administration (NASPAA), national school rankings by 
various media, and input from resident CRS experts in key policy areas. 
The truly national character of the effort is evidenced by the number 
and geographic dispersal of universities visited.\7\
---------------------------------------------------------------------------
    \7\ The colleges and universities visited by CRS during these 
recruitment efforts include: American University, Brigham Young 
University, California State University, Hayward, Carnegie Mellon 
University, Catholic University, Chicago State University, Clark 
Atlanta University, College of William and Mary, Columbia University, 
Cornell University, Duke University, Emory University, Florida 
International University, Florida State University, Florida A&M, 
Georgia State University, George Mason University, George Washington 
University, Georgetown University, Georgia Institute of Technology, 
Golden Gate University, Harvard University, Howard University, Indiana 
University, Johns Hopkins University, Johns Hopkins (SAIS), 
Massachusetts Institute of Technology, Morehouse College, Morris Brown 
College, New York University, Northwestern University, Old Dominion 
University, Princeton University, Rutgers University, San Jose State 
University, San Francisco State University, Spelman College, Stanford 
University, Syracuse University, Texas A&M, The New School for Social 
Research, Tufts (Fletcher School), Tulane University, University of 
California-Berkeley, University of California-Davis, University of 
California-Los Angeles, University of California-San Diego, University 
of Chicago, University of Delaware, University of Denver, University of 
Illinois, Chicago, University of Maryland-College Park, University of 
Maryland-Baltimore, University of Michigan, University of Minnesota, 
University of Missouri, Kansas City, University of Nevada, Las Vegas, 
University of North Carolina-Chapel Hill, University of Pennsylvania, 
University of Pittsburgh, University of Rochester, University of 
Southern California, University of Texas, Austin, University of Texas, 
San Antonio, University of Utah, University of Virginia, University of 
Washington, University of Wisconsin, Virginia Commonwealth University, 
Washington University, Wayne State University, Yale University.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    CRS has conducted its recruitment campaign at several levels. At 
the highest level, top CRS management, including the Director, Deputy 
Director, and the Associate Director for Research Operations, conducted 
personal visits to over 40 universities, meeting with Deans, Career 
Counselors, and key faculty. Recruiting at these and other graduate 
schools was also undertaken across CRS by top managers and other senior 
staff.\8\ As part of its Graduate Recruit Program, CRS enlisted the 
further support of 39 staff who volunteered to visit and maintain 
relationships with graduate school career counselors and faculty 
members.\9\
---------------------------------------------------------------------------
    \8\ Six CRS research divisions (the American Law Division, the 
Domestic Social Policy Division, the Foreign Affairs, Defense, and 
Trade Division, the Government and Finance Division, the Information 
Research Division, and the Resources, Science, and Industry Division) 
and the Office of Information Resource Management participated.
    \9\ In selecting staff to serve as recruiters, careful attention 
was paid to ensure diversity. In addition to being racially and 
ethnically diverse, recruiters represented a range of CRS divisions and 
subject areas and a mix of new and veteran staff. Where possible, 
recruiters were paired in two-person teams that joined senior staff 
with more recent hires, and minorities with non-minorities. Recruiters 
participated in formal training sessions that emphasized diversity as a 
core CRS value, and were provided information on how to target minority 
groups and organizations on graduate school campuses. When available, 
the names and telephone numbers of university minority recruitment 
coordinators were also provided to recruiters.
---------------------------------------------------------------------------
    Finally, CRS has maintained an active presence at the following 
regional minority career fairs: the Mid-Atlantic Black Law Students 
Association Job Fair, the Midwest Minority Recruitment Conference, the 
Northeast Black Law Students Association Job Fair, the Southeastern 
Minority Job Fair, the Sunbelt Minority Recruitment Program, and the 
University of California at Berkeley Diversity Career Fair--a three-day 
event that is considered to be the largest diversity job fair of its 
kind in the United States.
    The importance of maintaining relationships with the academic 
community cannot be overstated. First and foremost, they offer CRS an 
opportunity to inform key university officials about the work of CRS 
and to promote the Service as a potential employer. At the same time, 
they provide an opportunity for CRS to learn about the latest trends in 
university recruiting from some of the top graduate schools in the 
United States. For example, through these relationships, CRS learned 
that many graduate schools were experiencing a decline in the number of 
graduates interested in pursuing public service careers.\10\ For those 
graduates who are choosing public service as a career, CRS was told 
that the promise of substantive work and the opportunity to ``make a 
difference'' are the most important considerations.\11\ CRS has 
witnessed first-hand that competition for top graduates is increasing 
among both public and private sector organizations, many of whom are 
able to offer graduates signing bonuses, increased benefit packages, 
student loan forgiveness options, and workplace flexibility such as 
work-at-home, telecommuting, casual dress, and flexible work hours.
---------------------------------------------------------------------------
    \10\ This observation has since been echoed by several public 
administration scholars, most notably Paul Light at the Brookings 
Institution. In his 1999 research study, ``The New Public Service'', 
Light observes that the number of public policy and administration 
graduates taking first jobs with the government has decreased steadily 
from 76 percent in 1973/74, to 68 percent in 1983, to 49 percent in 
1993. See also, Chetkovich, Carol A. ``Winning the Best and Brightest: 
Increasing the Attraction of Public Service.'' The 
PricewaterhouseCoopers Endowment for The Business of Government, Human 
Capital Series (July 2001).
    \11\ Heather Barrett, et al. ``Recruiting Strategies for the 
Congressional Research Service'', a research study conducted by 
students of the Maxwell School at Syracuse University, June 11, 1999.
---------------------------------------------------------------------------
    These relationships have also provided a forum for CRS to exchange 
ideas, observations, and experiences on how to successfully recruit 
minority graduate students. By initiating this dialogue on diversity, 
CRS has gained valuable insights into the factors that motivate 
minority graduate students to pursue careers in public service.
    Perhaps most significantly, CRS learned that the pool of minority 
graduate degree recipients is proportionately small--in the 1996-1997 
school year, only 14 percent of all graduate degree recipients were 
minorities.\12\ In the fields of public administration, law, library 
science, and social science--fields which traditionally have yielded 
large numbers of hires for CRS--the pool of minority graduate degree 
recipients is even smaller. In these fields, a recent study suggests 
that minorities represent only 7 percent of the graduate degree 
recipients.\13\ As a result, there is strong competition for the top 
minority graduate students among both public and private sector 
organizations. In terms of incentives that attract minority graduates 
to particular organizations, it became evident that minority graduate 
students typically are attracted to diverse organizations in diverse 
communities, and to jobs that offer an opportunity to make a difference 
and impact change. CRS also learned that proximity to family, 
availability of student loan forgiveness programs, access to mentors 
and other senior minority employees, and workplace flexibility were 
also mentioned as important factors minority graduate students consider 
in their job search.\14\
---------------------------------------------------------------------------
    \12\ National Center for Education Statistics, ``Degrees and Other 
Awards Conferred by Title IV Eligible, Degree-granting Institutions: 
1996-97''.
    \13\ Ellen Rubin, et al. ``CRS Succession Planning: Diversity and 
Reform'', a research study conducted by students of the Maxwell School 
at Syracuse University, June 9, 2000.
    \14\ These observations were later confirmed by Ellen Rubin, et al.
---------------------------------------------------------------------------
III. Establishing Research Partnerships
    In addition to efforts focused exclusively on recruitment, CRS also 
commenced partnerships with select universities through their 
``capstone'' projects--graduate course work designed to give students 
the opportunity to work on ``real world'' issues for ``real'' clients 
as a final component of the curriculum.\15\ Concomitantly, CRS and the 
Congress benefit from the substantive research resulting from these 
efforts. As a ``spin-off'' of CRS recruiting efforts of the past few 
years, the capstone effort has focused on many of the same schools 
targeted by the Graduate Recruit Program and by other Service actions 
aimed at attracting a diverse pool of talented applicants for each 
hiring opportunity presented. The recruiting efforts that have led to 
examination of capstone programs specifically targeted schools with 
strong diversity postures. Reciprocally, involvement in capstone 
projects clearly helps CRS attain its goal of identifying and 
attracting minority candidates for positions at CRS. One of the 
projects undertaken through this program evaluated general recruitment 
efforts of CRS and another focused specifically on recruiting diverse 
candidates.\16\ The panel for the latter project was itself highly 
diverse, with 3 of the 7 graduate students (43 percent) being 
minorities.
---------------------------------------------------------------------------
    \15\ Angela Evans, et al. ``University ``Capstone'' Programs, 
Congressional Research Service Opportunities for Cooperative Public 
Research Projects for the Congress'', October 2000.
    \16\ These studies were conducted by the Maxwell School of 
Citizenship and Public Affairs at Syracuse University, which has 
produced several other studies in recent years as part of the capstone 
programs. CRS also has entered into an agreement for two projects with 
the Lyndon Baines Johnson School of Public Affairs at the University of 
Texas. The Service has been exploring further partnerships with the 
University of California at Los Angeles School of Public Policy and 
Social Research, the John F. Kennedy School of Government at Harvard 
University, and the School of International and Public Affairs at 
Columbia University.
---------------------------------------------------------------------------
    It is generally recognized that one of the most effective 
recruiting tools is ``word of mouth.'' The capstone concept not only 
educates students, both minority and non-minority, to the nature of CRS 
work, but also gives them a glimpse of how we operate and the positive 
aspects of a CRS career. Whether the students working on the project 
prove interested in applying for a position with CRS or not, 
information about the agency travels throughout the program and leads 
to expressions of interest by students who learn of CRS from classmates 
and faculty. Capstone projects also provide CRS an opportunity to gauge 
the quality of students at a particular school and to look at the 
curriculum and points of emphasis in the training received. CRS 
managers who visit these schools in the course of carrying out a 
capstone project are also thereby positioned to conduct recruiting 
sessions with students, discuss potential candidates with faculty, and 
continue fostering a positive relationship with the schools for future 
recruiting and collaborative purposes.
    As part of its capstone project with the Maxwell School of 
Citizenship and Public Affairs at Syracuse University, CRS submitted a 
proposal requesting that a team of Master of Public Administration 
candidates recommend means by which it can bolster the recruitment of 
qualified minority candidates. A team of graduate students under the 
supervision of a senior faculty member was assigned to this task. This 
project joins a series of efforts CRS has recently undertaken to 
increase diversity in its succession planning, including a risk 
assessment and the creation of an Office of Workforce Development.
    The Maxwell report \17\ made recommendations in the categories of 
facilitating change in organizational culture; supporting and 
encouraging minority networking; broadening the scope of external 
contacts; enlarging the target recruitment pool; modifying the current 
application process; developing standard recruitment training; creating 
the Office of Workforce Development; implementing professional 
development strategies; and augmenting current CRS strategies. Many of 
the recommendations expand or increase existing actions or programs at 
CRS. The report recognized that CRS had already taken many positive 
steps toward achieving its goal of diversifying its workforce, and 
recommended that CRS continue with these actions or programs: focusing 
on a ``promotion without competition'' philosophy \18\; streamlining 
the application process; creating relationships with professors; using 
internet and mail for schools that CRS was unable to visit; and 
expanding the functions of the Office of Workforce Development. The 
team also cited additional CRS actions such as using analysts as 
recruiters; participating in minority career fairs, conferences and 
symposia; and conducting outreach to minority fellowship organizations, 
as actions that should be encouraged and supported by CRS as an 
organization.
---------------------------------------------------------------------------
    \17\ Ellen Rubin, et al. ``CRS Succession Planning: Diversity and 
Reform'', a research study conducted by students of the Maxwell School 
at Syracuse University, June 9, 2000.
    \18\ CRS analysts are placed in a career ladder that runs up to GS-
15. The ``ladder'' allows analysts to be promoted without having to 
compete against colleagues, which not only provides attractive upward 
mobility potential, but also promotes team work and collegiality in the 
workplace.
---------------------------------------------------------------------------
IV. Forging Special Connections with Minority-Serving Organizations
    In addition to the recruitment efforts outlined above, CRS has, as 
part of its ongoing recruitment and hiring activities, conducted 
extensive outreach to organizations that promote diversity in higher 
education. These organizations include Historically Black Colleges and 
Universities (HBCUs), national minority organizations and education 
associations such as the United Negro College Fund, and congressional 
organizations such as the Congressional Black Caucus Foundation and 
Congressional Hispanic Caucus Institute. The nature and scope of these 
relationships are described below.
            Historically Black Colleges and Universities (HBCUs)
    Over the past several years, CRS has worked with HBCU 
administrators and faculty in pursuit of three objectives: (1) to 
promote CRS as a potential employer of HBCU students; (2) to encourage 
HBCU students to consider public service as a career option; and (3) to 
encourage undergraduate HBCU students to consider graduate study as a 
means to fulfilling their long-term career objectives.
    For example, CRS has undertaken efforts to recruit at the Atlanta 
University Center (AUC), made up of Clark Atlanta University, Morehouse 
College, Spelman College, and Morris Brown College, to develop a 
program for providing paid summer work experiences for students with 
outstanding academic credentials and to explore the feasibility of a 
faculty sabbatical program with the Service. Several visits to these 
schools by the Director, the Deputy Director, and an Associate Director 
resulted in an inaugural program for the summer of 2001.
    The first student nominated by the AUC for the intern program has 
now completed his work experience with the CRS American Law 
Division.\19\ Feedback from the student, his CRS mentor, and his 
supervisor indicates that the program was highly beneficial to both the 
student and CRS. Based on this feedback, the Service will continue to 
work with the AUC schools to develop and potentially expand the program 
for the coming academic year. The AUC program is a direct outgrowth of 
the recruiting efforts CRS has undertaken at Clark Atlanta University, 
Morehouse College, and Spelman College over the past several years.
---------------------------------------------------------------------------
    \19\ A graduating senior at Morehouse College worked with CRS over 
the summer of 2001, before going on to graduate work in education at 
Columbia University.
---------------------------------------------------------------------------
    In addition to the AUC program, the Service has also conducted 
extensive outreach with Howard University, both through the Ralph J. 
Bunche International Affairs Center and the Patricia Roberts Harris 
Public Affairs Program. Specifically, CRS has provided internship 
opportunities to Howard University students, and participated in career 
fairs and made presentations to various student groups and 
organizations on campus.\20\ In addition, CRS has made available to the 
Bunche Center a senior CRS librarian who was instrumental in helping 
the University establish and organize an international affairs library.
---------------------------------------------------------------------------
    \20\ CRS has established personal relationships with both past and 
present Howard University administrators, including the current 
President, H. Patrick Swygert.
---------------------------------------------------------------------------
            National Minority Organizations and Education Associations
    In establishing recruiting relationships with various universities, 
CRS was made aware of several groups that offer valuable perspectives 
and networks for minority recruiting. One such group is the Institute 
for International Public Policy (IIPP). Administered by the United 
Negro College Fund, the IIPP is a fellowship program designed to 
identify, recruit, and prepare under-represented minority 
undergraduates for careers in international service. Working with the 
Director of the IIPP, CRS developed a program for providing paid summer 
work experiences to qualified IIPP Fellows. CRS selected its first IIPP 
Fellow in the spring of 2001.\21\ Based on the initial success of this 
program, CRS is currently considering options for expanding its 
relationship with the IIPP.
---------------------------------------------------------------------------
    \21\ A Morehouse graduate, returning from work in China, worked as 
an IIPP Fellow in the Foreign Affairs, Defense, and Trade Division of 
CRS for the summer of 2001.
---------------------------------------------------------------------------
    CRS has also regularly attended recruiting events and annual 
conferences of minority organizations such as Blacks in Government 
(BIG), the National Association for Equal Opportunity in Higher 
Education (NAFEO), the National Association for the Advancement of 
Colored People (NAACP), and the National Urban League.
    Similarly, CRS has taken an active role in higher education 
associations such as the Association for Public Policy and Management 
(APPAM), the National Association of Schools of Public Affairs and 
Administration (NASPAA), and the Association of Professional Schools in 
International Affairs (APSIA), as well as professional associations 
such as the American Bar Association, the American Library Association, 
the American Political Science Association, etc. Specifically, CRS has 
participated in annual career fairs and job expos sponsored by these 
organizations, attended meetings with key organization representatives 
and affiliates, participated in various panels and symposia, and 
delivered speeches and presentations on diversity-related topics.
            Congressional Organizations
    CRS has established recruiting relationships with both the 
Congressional Hispanic Caucus Institute (CHCI) and the Congressional 
Black Caucus Foundation (CBCF). CRS's involvement with the 
Congressional Hispanic Caucus Institute has centered around the CHCI 
Public Policy Fellows Program. The CHCI Fellowship Program accepts up 
to 20 promising Hispanics each year from across the country, Puerto 
Rico, and Guam. The purpose of the program is to provide Fellows with 
hands-on experience at the federal level in the public policy area of 
their choice. For the past several years, CRS has participated in the 
formal orientation program for CHCI Fellows by making a presentation 
about career opportunities in Washington, DC. This year, CRS is seeking 
to expand its relationship with the CHCI program by serving as a job 
placement site for one or more CHCI Fellows.
    CRS is working to develop a similar relationship with the 
Congressional Black Caucus Foundation in the near future. The CBCF 
sponsors a number of internship and fellowship programs for both 
undergraduate and graduate students. CRS has traditionally been 
involved in providing legislative training for these interns and 
fellows, but has not served as a job placement site for CBCF Fellows. 
Discussions are currently underway with the CBCF to determine whether 
CRS might be included as a placement site for CBCF Fellows during 
congressional recesses. CRS is also working with the CBCF to expand the 
training opportunities available to CBCF Fellows.
            crs internal diversity programs and initiatives
    In addition to recruitment and outreach efforts directed at outside 
institutions and organizations, CRS has developed programs and career 
development opportunities for its own staff. This section of the report 
highlights those programs, opportunities, and activities.
Project Management Coordinators
    Over the past five years, CRS has undergone a number of 
organizational reviews. One such review resulted in the elimination of 
the senior level position of Coordinator of Research. This was followed 
by an examination of the administrative \22\ and managerial support 
provided to senior managers throughout the Service to determine their 
needs in this area. As a result of this examination, the Project 
Management Coordinator position was created in 1997. This position, in 
a promotion plan to the GS-15, was made available to each office and 
division and was posted limited to the Service as a means of providing 
CRS staff with an opportunity to compete for it. As a result, out of 
the 14 project management coordinator positions filled, five (36 
percent) were filled by minorities (4 African-American and one 
Hispanic).
---------------------------------------------------------------------------
    \22\ The term ``administrative positions'' is also based on OPM's 
PATCO definition. For CRS this consists of certain senior managers, 
technical information specialists, computer specialists, information 
specialists, administrative officers, management specialists, project 
management coordinators, and certain other administrative positions.
---------------------------------------------------------------------------
Technical Support Assistants
    In early 1995, CRS determined that there was a need for mid-level 
computer specialist assistance not only in its Technology Office, but 
also in its 12 divisions and offices. As a result, a GS-12 was added to 
the GS-7 to GS-11 Technical Support Assistant career ladder to meet 
this need. Subsequently, in March 1995 CRS began posting these 
administrative positions at various grade levels. To provide 
advancement opportunities for its non-professional staff, most of the 
vacancy announcements were posted under the Library's Affirmative 
Action Intern Program, the CRS Career Opportunity Program, or through 
vacancy announcements limited to Library or CRS staff. Since that time, 
16 appointments have been made to these positions, 11 (69 percent) were 
filled by minorities.
Detail Opportunity Program
    In May 1996, with the cooperation and agreement of the 
Congressional Research Employees Association (CREA), CRS began a 
process under which it posts throughout the Service notices of detail 
opportunities. This program was designed as a means of increasing the 
Service's capacity to shift resources quickly and effectively in order 
to meet the ever increasing and changing needs of Congress. Through 
this program, CRS provides employees at various levels within the 
organization an opportunity to fill a temporary need (not to exceed one 
year) within a division or office while at the same time providing them 
with work experience in an area of interest. Since this program was 
launched, out of the 32 selections made, 17 (53 percent) were 
minorities.
Volunteer Intern Program
    The Volunteer Intern Program was developed in June 1994 by a 
committee tasked by the Director to explore the possibility of 
expanding the gratuitous services program as a way to bring in 
volunteers to supplement the work performed by the permanent staff 
during a period of budgetary constraints. While intern opportunities 
are available to professionals at all levels, the primary focus of this 
program is to recruit undergraduate and graduate students from 
institutions with programs that reflect the work we do at CRS and that 
have a diverse student enrollment. By recruiting students from diverse 
social and cultural backgrounds, CRS has been able to identify a 
broader pool of volunteers and to build strong relationships and 
partnerships with participating colleges, universities and 
organizations. During fiscal year 2001, the Service brought in 17 
student volunteers under this program. Three of these students (18 
percent) were minorities.
Career Opportunity Plan (COP)
    COP is a career development program that is part of the Collective 
Bargaining Unit Agreement between the Library and the Congressional 
Research Employees Association (CREA). It was developed to provide CRS 
non-professional staff with the opportunity to use their knowledge, 
skills and abilities to compete for professional opportunities. There 
are two primary components, the position component and the detail 
component. Under the position component, selectees participate in the 
program for two years, during which they receive on-the-job training 
and assignments designed to provide them with ample opportunity to 
demonstrate their capacity to perform professional work. Following 
successful completion of the two year program, participants remain 
permanently in the new professional positions. The detail component 
involves the announcement of a competitive six-month detail to a policy 
analyst or legislative attorney position for the purpose of enabling 
detailees to gain creditable research experience. Since its inception, 
17 CRS staff have been selected under this program, four of whom (24 
percent) were minorities.
Recruitment and Mentoring Working Groups
    In an effort to further the Service's goal of enhancing diversity 
in implementing its succession initiative, in March 1998, the Director 
established two diversity working groups, one on recruitment and one on 
mentoring. The recruitment working group focused on reviewing and 
strengthening the Service's processes to attract a diverse applicant 
pool for permanent professional positions. The mentoring working group 
focused on exploring ways to incorporate mentoring of new staff into 
the Service's work environment as well as identifying ways to mentor 
current staff who move into different areas of responsibility. Upon 
completion of their work, these groups provided a report to the 
Director that included a number of recommendations. Many of the 
recruitment recommendations are currently being implemented. While 
mentors are assigned to staff hired under special programs, because of 
staff shortages, most of the recommendations of the mentoring working 
group will not be implemented until additional staff are hired.
       ongoing participation in library-wide diversity activities
    While succession planning provided a strategic framework in which 
to focus on diversity during the past five years, CRS also regularly 
participates in Library-wide workplace diversity programs and 
activities.\23\ These programs include:
---------------------------------------------------------------------------
    \23\ While not discussed explicitly, CRS has supported and made 
every effort to comply with all Library and government-wide policies 
and procedures designed to ensure fairness and equity. Such policies 
and procedures include: diversity training, procurement regulations, 
bestowal of awards, promotions, professional development opportunities, 
and formulation of recruiting plans for each hire. In addition, CRS is 
represented on the Diversity Advisory Council and has supported staff 
participation in minority sponsored activities such as Blacks in 
Government, the Black Caucus, and Hispanic Leadership Conference, as 
well as efforts to celebrate diversity such as Heritage Month 
activities. CRS also regularly hires high school students under the 
Work Study Program and as provides work opportunities for students 
under the Summer Youth Program. Work Study is a progressive, career-
development effort that combines on-the-job training with classroom 
instruction and training. The Summer Youth program also provides on-
the-job training to students. Over 90 percent of the students who 
participate in these programs are minority.
---------------------------------------------------------------------------
HACU National Internship Program (HNIP)
    The Hispanic Association of Colleges and Universities (HACU) is a 
non-profit organization that sponsors an internship program for 
Hispanic-Serving Institutions (HSIs), with a minimum of 25 percent 
Hispanic enrollment. This program, the HACU National Internship Program 
(HNIP), provides undergraduate and graduate students with an 
opportunity to serve as paid interns at federal agencies and private 
organizations. Through the Library's agreement to serve as a sponsoring 
agency for this program, since 1996 CRS has provided one to two HACU 
interns a year with an opportunity to gain professional work experience 
in a variety of areas.
Affirmative Action Intern Program
    The Library's Affirmative Action Intern Program is a two-year 
program designed to further the career development of Library staff in 
clerical or technical positions by providing them with training and 
experience for placement into permanent professional or administrative 
positions. (CRS selected 3 under the fiscal year 1994-96 program.)
Affirmative Action Detail Program
    The Library's Affirmative Action Detail Program is designed to 
encourage the interest of talented and motivated staff, especially 
women, minorities and persons with targeted disabilities in 
administrative or managerial work. The experience gained through the 
detail can be used as qualifying experience for positions in the 
administrative/managerial field. (CRS participated in the 2000 
Affirmative Action Detail Program, the first such program.)
Leadership Development Program
    The Leadership Development Program is designed to develop future 
leaders for the library profession in the Library of Congress or other 
libraries, to expose Fellows to cutting-edge technology and information 
systems, to increase the number of minorities who are prepared to 
assume leadership positions in the library, and to prepare them for the 
next generation of librarianship in an expanding electronic 
environment. For the 1999-2000 program, the most recent program year, 
CRS submitted nine possible projects for consideration of the ten 
fellows chosen under this program as part of their one year assignment 
to this program.
Executive Potential Program
    The Executive Potential Program (EPP) is a 12-month nationwide 
career enhancement program that offers training and development 
experiences for high-potential GS 13-15 employees who wish to move into 
managerial positions. EPP provides managerial needs assessment, 
individual development plans, developmental work assignments and 
residential training that address the competencies necessary for 
executive-level positions. Participants are required to complete a 
minimum of four months of developmental work assignments away from the 
position of record. Since 1996, CRS has provided developmental 
assignments for eight people.
               composition and diversity of crs workforce
    Since the beginning of fiscal year 1994, CRS has lost more staff 
than it has been able to replace, suffering a net loss of total staff 
on board (from 753 on September 30, 1993 to 690 on August 31, 2001) and 
professional staff on board (from 450 on September 30, 1993 to 407 on 
August 31, 2001). For both total staff and professional staff, however, 
CRS has been able to hire minorities in a greater proportion than it 
has lost. Thus the percent of minorities among total staff has 
increased from 30 percent to 33 percent and the percent of minorities 
among professional staff has increased from 14 percent to 16 percent. 
During the same period, despite overall staff losses, CRS has increased 
the number of staff in the administrative category from 143 to 168 and 
increased the percent of minorities in that category from 33 percent to 
44 percent.
    The first chart presented below, based on Library of Congress data, 
shows the status of the CRS professional staff as of June, 2001, in 
terms of underrepresentation index (UI) scores. The underrepresentation 
score, calculated for each protected class, shows the percentage of 
that class in the CRS workforce compared to the percentage in the 
civilian labor force to which the CRS workforce is compared. (The 
Library compares its professional workforce to the national 
professional civilian labor force.) A score below 100 indicates 
underrepresentation. The lower the score, the higher the 
underrepresentation. A score of 100 indicates that the class in CRS is 
at or above parity with the relevant civilian labor force, that is, it 
is at least as well represented in the CRS workforce as it is in the 
relevant civilian labor force. Thus it is not underrepresented. Indeed, 
in several categories CRS is well above parity. For example, the UI 
scores for Black men, Black women, and Native American women among CRS 
professionals are considerably above parity. See Appendix, CRS 
Professional Staff as of June 30, 2001, for a breakdown of these 
numbers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The next chart, based on the same table in the Appendix, shows the 
number that CRS would need to hire for each currently underrepresented 
group among CRS professionals to achieve parity with the professional 
civilian labor force.\24\ While CRS will continue to recruit to 
increase diversity among all groups, it is clear that CRS should direct 
its recruitment most urgently to Hispanic men and Asian-American/
Pacific Island men.
---------------------------------------------------------------------------
    \24\ Note that each additional hire (or each loss) changes all the 
UI scores because it changes the ratio of each group to the whole.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While the CRS staff can be broken down in any number of ways to 
calculate underrepresentation,\25\ two categories that are often 
examined are senior level staff and senior level manager positions. The 
Research Policy Council--the top senior level managers consisting of 
the Director, the Deputy Director, and Assistant and Associate 
Directors--are 23 percent minority (3 of 13) and 46 percent female (6 
of 13). All senior level managers, which includes Deputy Assistant 
Directors and others besides the members of the Research Policy 
Council, are 16 percent minority (6 of 38) and 37 percent female (14 of 
38). All senior level staff, including senior level managers, are 15 
percent minority (8 of 54) and 35 percent female (19 of 54). This chart 
shows underrepresentation scores for professional senior level staff, 
whether managers or not.\26\ The most severely underrepresented groups 
are Hispanic men and women and Native American men. The Appendix, CRS 
Professional Senior Level Staff as of June 30, 2001, provides a 
breakdown for these numbers.
---------------------------------------------------------------------------
    \25\ For example, one could examine the scores of specific 
occupational groups such as social science analysts, or of grade 
groupings either for total staff or for an occupational group such as 
GS-13-15 social science analysts.
    \26\ Six other senior level staff, including 3 white women and 1 
black woman, are in the administrative category.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               conclusion
    CRS has redoubled its diversity efforts in recent years, utilizing 
a wide variety of programs and initiatives--both CRS-specific and 
Library-wide. Indeed, it has become clear that success in this regard 
is dependent on such a multi-faceted approach that relies on a variety 
of hiring practices, recruiting strategies, and communication 
techniques. These efforts have been an integral part of succession 
planning. The impending large turnover of CRS personnel provides the 
opportunity to address goals in a comprehensive way that will help 
guarantee the diversity of the next generation of staff.
    What this report describes is only an overview of what has been 
accomplished, and that picture clearly demonstrates the commitment of 
the CRS Director, managers, and staff to the principles of diversity as 
they carry out the Service's programs, policies and procedures. CRS 
remains fully committed to diversity both in its substantive research 
perspectives and in the makeup of its staff--diversity that mirrors 
that of the Congress and its constituencies. And while its diversity 
efforts will always be a ``work in progress,'' the Service has had a 
high degree of success in recent years and is determined to see that 
trend continue.
                               Appendix 1
    The following tables illustrate the breakdown of CRS professional 
staff and senior level staff compared to the national professional 
civilian labor force (CLF). Note that UI Scores are capped at 100 and 
do not reveal whether the group exceeds parity, although that can be 
seen where the percent in CRS exceeds the percent in the CLF. The 
number needed to achieve parity is always rounded up to the next whole 
number.

                                   CRS PROFESSIONAL STAFF AS OF JUNE 30, 2001
----------------------------------------------------------------------------------------------------------------
                                                  Number of    Percent of   Percent of  UI Score (B/  No. Needed
                     Group                         group in     group in     group in   C <greek-e>   to achieve
                                                   CRS (A)      CRS (B)      CLF (C)        100)        parity
----------------------------------------------------------------------------------------------------------------
White men......................................          203        51.39        54.70  ...........  ...........
White women....................................          127        32.15        30.30          100            0
Black men......................................           16         4.05         2.40          100            0
Black women....................................           25         6.33         3.20          100            0
Hispanic men...................................            2         0.51         2.10           24            7
Hispanic women.................................            5         1.27         1.40           90            1
Asian/Pacific men..............................            7         1.77         3.50           51            7
Asian/Pacific women............................            7         1.77         1.90           93            1
Indian/Alaskan men.............................            1         0.25         0.20          100            0
Indian/Alaskan women...........................            2         0.51         0.20          100            0
                                                ----------------------------------------------------------------
      Total....................................          395  ...........  ...........  ...........           16
----------------------------------------------------------------------------------------------------------------


                             CRS PROFESSIONAL SENIOR LEVEL STAFF AS OF JUNE 30, 2001
----------------------------------------------------------------------------------------------------------------
                                                  Number of    Percent of   Percent of  UI Score (B/  No. Needed
                     Group                         group in     group in     group in   C <greek-e>   to achieve
                                                   CRS (A)      CRS (B)      CLF (C)        100)        parity
----------------------------------------------------------------------------------------------------------------
White men......................................           29        60.42        54.70  ...........  ...........
White women....................................           12        25.00        30.30           83            3
Black men......................................            3         6.25         2.40          100            0
Black women....................................            1         2.08         3.20           65            1
Hispanic men...................................            0         0.00         2.10            0            2
Hispanic women.................................            0         0.00         1.40            0            1
Asian/Pacific men..............................            1         2.08         3.50           59            1
Asian/Pacific women............................            1         2.08         1.90          100            0
Indian/Alaskan men.............................            0         0.00         0.20            0            1
Indian/Alaskan women...........................            1         2.08         0.20          100            0
                                                ----------------------------------------------------------------
      Total....................................           48  ...........  ...........  ...........            9
----------------------------------------------------------------------------------------------------------------

                     ADDITIONAL SUBMITTED MATERIAL

    [Clerk's Note.--The subcommittee received a letter from 
James H. Billington requesting that several statements and 
letters relating to the Center for Russian Leadership 
Development be included in the record.]
                    Letter From James H. Billington
                                                    April 17, 2002.
The Honorable Richard J. Durbin,
Chairman, Subcommittee on Legislative Branch, Committee on 
        Appropriations, United States Senate, 115 Dirksen Senate Office 
        Building, Washington, DC.
    Dear Mr. Chairman: I was grateful for the opportunity to appear 
before your subcommittee last month to present testimony about the 
Center for Russian Leadership Development (CRLD). I would be glad to 
supply additional information for the record or in person if that would 
be helpful.
    Meanwhile, members of the CRLD Board of Trustees and others who 
have organized significant programs for the Open World Program have 
asked that their testimony be submitted for the record. I am enclosing 
statements from the Honorable James W. Symington and the Honorable 
James F. Collins, members of the CRLD Board of Trustees. I am also 
enclosing a statement from Mr. Lee Boothby, vice president of the 
International Academy for Freedom of Religion and Belief. Finally, I am 
enclosing a copy of recent correspondence from Judge Michael Mihm of 
Peoria, Illinois, who has previously corresponded with you about the 
partnership between the Open World Program and the United States 
Judicial Conference.
    I would be grateful if these statements could be made part of the 
official hearing record, since this was the first chance to testify 
about the program and its new structure, and there was no opportunity 
for outside witnesses to appear before the subcommittee.
            Sincerely,
                                       James H. Billington,
                                 Chairman of the Board of Trustees.
                                 ______
                                 
 Prepared Statement of Honorable James W. Symington, Member, Board of 
          Trustees, Center for Russian Leadership Development
    It is my great honor and pleasure to submit testimony in support of 
the fiscal year 2003 appropriations request for the Center for Russian 
Leadership Development submitted to the members of this subcommittee by 
the Librarian of Congress, Dr. James H. Billington, who testified in 
support of the Center's request on March 13, 2002. The Center is now a 
distinct entity in the Legislative Branch, housed at the Library of 
Congress, and charged with managing the largest exchange program the 
United States maintains with Russia--the Open World Program.
    I am pleased to serve on the Board of Trustees for the Center, with 
Jim Billington (Chairman), Senator Ted Stevens my good friend, who 
serves as Honorary Chairman, Senators Carl Levin and Bill Frist; 
Representatives Amo Houghton and Bud Cramer; former Ambassador Jim 
Collins, and philanthropist and financier George Soros.
    My involvement with the Center is almost as long as that of Senator 
Stevens and Jim Billington. When Jim Billington first proposed the idea 
of a large-scale effort (modeled on the Marshall Plan's success after 
World War II in rebuilding Germany by allowing young German political 
leaders to visit the United States to observe democracy in action) 
Senator Ted Stevens moved quickly to give this bold idea a chance to 
demonstrate its worth.
    The fiscal year 1999 supplemental appropriations request for Kosovo 
contained $10.0 million to give the Library of Congress the opportunity 
to launch a pilot effort to bring up to 3,000 young Russian leaders--
with no English language skills--to the United States for short-term 
stays in American homes and communities. Senator Stevens, whom I am 
honored to have as my friend, was familiar with my lifelong interest in 
and passion for Russian culture and forging ties between Russia and the 
United States. I have continued to work to bring major exhibitions to 
both the United States and Russia through the Russian-American Cultural 
Foundation, which I chair. Senator Stevens asked me to serve as 
Executive Director for the program--launched as the Russian Leadership 
Program but known throughout Russia as ``Open World.'' Jim Billington 
arranged to have experienced staff at the Library loaned to the program 
for six months. I worked day-to-day with Gerry Otremba, whom the Board 
has asked to serve as Executive Director for the Center, and Aletta 
Waterhouse from the Congressional Research Service, who had worked on 
the Frost Task Force some years earlier. We had our work cut out for 
us.
    We found ourselves with scarcely seven months to create the first 
grant-making program in the Legislative Branch; find partners who would 
help us ensure home stays in American communities for our guests; put 
arrangements in place in Russia to nominate, screen, and obtain visas 
for participants; develop appropriate local programs; arrange 
international and domestic travel; and find and train escort-
interpreters to accompany the delegations during their typically 10-day 
visits in the United States.
    The Open World Program was a resounding success: in just seven 
months, the program brought 2,045 young Russian leaders to 48 states 
and the District of Columbia. We at the Library did not produce this 
miracle alone. Our key partner was the American Councils for 
International Education, led by Dan Davidson, which handled all of our 
Russian and U.S. logistics, including travel. Our major hosts were the 
Russia Initiative of the United Methodist Church, Rotary International, 
and the Friendship Force.
    Jim Billington, in his testimony before this subcommittee, 
presented powerful and persuasive thoughts on why our relations with 
Russia three years later are even more dependent on large-scale 
exchanges such as the Open World Program. Jim is a world-renowned 
scholar of Russian history and culture and has advised many Members of 
Congress and, indeed, U.S. presidents on Russia's political history and 
culture. Jim's original idea was simple and direct and it remains vital 
three years later. Let me add a very personal perspective on the impact 
the program can have--both for its Russian participants and its 
American hosts.
    The very first summer, Open World brought as many as 400 young 
Russians per month to the United States. We wanted, quite naturally, to 
see and evaluate their experience firsthand, rather than rely solely on 
second hand reports. So we visited delegations during their stay in 
America to meet them, meet their U.S. local hosts, and determine 
firsthand the impact of the program. Let me hasten to add that our 
informal on-the-ground evaluation was supplemented at the conclusion of 
the program with a systematic evaluation and debriefing of all the 
returning Russian participants.
    I mentioned that the Methodist Church's Russia Initiative was one 
of our host partners. I traveled to Lee's Summit, Missouri--my home 
state--in July 1999 to meet the delegation being hosted by Steve 
Whitehurst, Patty Sents, Bob Farr, and others of Grace Methodist Church 
in Lee's Summit. The program was a typical mix of activities designed 
to show America--its people, values, culture, and volunteer spirit--to 
young Russians who had come of age in the Soviet era and live today in 
Russia surrounded by images of the United States drawn almost 
exclusively from American popular culture: films, television, music, 
and advertising. I can assure members of the subcommittee that Lee's 
Summit, Missouri, is a far cry from reruns of ``Dallas''.
    The delegation's two newspaper editors, one journalist, and one 
professor had a 10-day visit that featured meetings with Kansas City 
mayor Kay Waldo-Barnes and U.S. Representative Ike Skelton, a meeting 
of the town council, and visits to the Truman Library, television and 
radio stations, a hospital, a school, and Jefferson City, the state 
capital. A highlight of their visit was being hosted by the man who was 
both the Methodist minister and the volunteer fire chief for the town.
    The wide variety of civic endeavors that Americans take in stride 
provides an astonishing spectacle to the foreign visitor. Lee's Summit, 
a vibrant community close to Kansas City, presented this delegation 
with a slice of all-American life they will not likely forget. Bob 
Farr, their robust host, after taking them on a wave-splashing 
motorboat tour of Lake Lotawana, where they also fished and swam, 
welcomed them into a comfortable, rambling home that could have been 
the subject of a Norman Rockwell illustration, complete with two 
teenagers doing their homework on the living room floor, a sleeping 
pup, and a mountainous dinner for 18 beckoning in the next room.
    Dinner had been prepared by Mrs. Farr's mother, since Mrs. Farr had 
just completed her first day as a seventh-grade teacher in the local 
high school. Mr. Farr, having preached the previous day as Minister of 
the Methodist Church, had doffed his robes, and donned his gold-braided 
uniform as the community's fire chief. He then escorted the somewhat 
bewildered Open World delegation to the firehouse, where they witnessed 
a dazzling demonstration of planned pyrotechnics. An old car was set 
aflame, setting the stage for the arrival of a gleaming, fully equipped 
yellow fire truck that disgorged about two dozen masked firefighters. 
The hose was rolled out, the flames were doused, and a dummy ``victim'' 
was pulled to safety. This done, the brigade removed their masks to 
reveal the jovial faces of young men and women in their twenties.
    One Russian tentatively inquired ``How much make?'', ``Nothing, 
we're all volunteers.'' ``Well, how you life?'' They described their 
several ``day'' jobs and obligations. Volunteerism was an integral part 
of the life and times of Lee's Summit. Earlier, the Russians had been 
introduced first to the Police Chief, a retired Kansas City cop who 
enjoyed the quieter life of a city jail with one empty cell to keep him 
company, then the Mayor, a charming lady who proudly introduced her two 
employees, including the Treasurer, another lady, slowly counting out 
greenbacks. ``She collects the money,'' said the Mayoress. ``I spend 
it.'' The Russians smiled at this division of labor.
    Back at the fire station, the Russians were so delighted with their 
new and multitalented young friends that they suggested a beer in the 
local tavern. The invitation was enthusiastically accepted. The party, 
unimpeded by normal language barriers, went on into the small hours. At 
the next day's farewell the lead spokesman for the visitors told their 
host, The Reverend Fire Captain Farr, that his imaginative hospitality 
topped an already burgeoning list of happy and instructive experiences.
  --Open World provides precisely the elements we have been told 
        repeatedly that first-time visitors find immensely valuable;
  --Open World makes possible direct observation of our political 
        process--usually at the town or county level, where the level 
        of citizen involvement and relations with the business and 
        volunteer sectors are very apparent;
  --Open World introduces American culture, values, and customs through 
        attendance at community events--baseball games, Fourth of July 
        parades and picnics, barbecues in American backyards with 
        friends and neighbors, and the like;
  --Open World builds mutual understanding: our delegations meet with 
        the local newspaper editor, are interviewed on the local 
        television station, and meet leaders and citizens of 
        communities large and small who are involved with the PTA, the 
        local Rotary Club, the Methodist Church, and other civic, 
        religious, and voluntary organizations like the Lee's Summit 
        Fire Brigade.
    At the hearing on March 13, Senator Stevens particularly praised 
the Open World Program for its success in involving nongovernmental 
organizations in hosting our Russian guests.
    A week earlier, the Board of Trustees voted overwhelmingly for a 
2002 program and budget that will allow Open World to invite 2,500 
participants--the largest number since the program's first pilot year 
in 1999. We on the board made that decision with the full understanding 
that the program's carry-over funds would be needed to supplement the 
$8.0 million Congress appropriated for fiscal year 2002. The Center's 
full $10.0 million request for fiscal year 2003 will allow the program 
to plan and execute a program of equal scope next year. I urge the 
Chairman and members of the Subcommittee to support the full request.
    As a former member of the House of Representatives, I know full 
well the difficult funding decisions that you as members of the 
Appropriations Committee must make. The Open World Program is a modest 
investment in supporting Russia's dramatic transformation from 
Communism to democratic and market principles in the space of 10 brief 
years. The investment from the Federal government of approximately 
$6,000 per participant is matched by hundreds of hours of volunteer 
time provided by mayors, ministers, and state and federal judges. Home 
stays replace expensive and isolating hotel stays. American hosts 
provide entertainment and cultural activities greatly valued by first-
time visitors. The home stays also provide a unique view of everyday 
American life from the inside, instead of a view from the outside in. 
The Russian participants want to interact with the Americans they meet 
and be able to ask questions freely and exchange views. They want to 
see the infrastructure of everything, know its practical application 
and experience it from top to bottom.
    In conclusion, it has been my pleasure to serve as the Open World 
Program's first Executive Director and, now three years later, as a 
member of its Board of Trustees. I pay tribute to the two visionaries--
Ted Stevens and Jim Billington--who made Open World a reality. I 
strongly encourage members of the subcommittee to meet delegations when 
they travel to your home states--as they surely will this year--and see 
for yourselves the profound impact the Open World Program has on both 
its Russian and American partners.
                                 ______
                                 
  Prepared Statement of Honorable James F. Collins, Member, Center's 
Board of Trustees and International Advisor, Akin, Gump, Strauss, Hauer 
                            and Feld, L.L.P.
    I am pleased to submit a statement in support of the fiscal year 
2003 appropriations request from the Center for Russian Leadership 
Development to the Legislative Branch Subcommittee of the United States 
Senate.
    I am submitting this testimony wearing, if you will, multiple hats: 
as a member of the Board of Trustees appointed by the Librarian of 
Congress, Dr. James H. Billington, in accordance with the terms of 
Public Law 106-554, and also as ambassador from the United States to 
Russia from 1997 to July 2001. I would like to share my impressions of 
the need and value associated with the ``Open World'' Russian 
Leadership Program managed by the Center. I have been associated with 
the program since its inception and I have enjoyed a unique perspective 
because I have had the opportunity to gauge the need for and efficacy 
of the program in Russia and to contemplate its long-term effect since 
my return to the United States last summer.
    I have known Jim Billington for many years. During this time we 
have been colleagues and friends with a shared, deep interest in 
improving relations between the United States and Russia--through the 
Cold War, glasnost, perestroika, and the current period exemplified by 
burgeoning ties between the two countries nurtured by an interest in 
promoting democracy and market economy in Russia. I will not here 
review all the reasons why I believe these ties are important--my 
career commitment and Jim Billington's own testimony on this subject 
are sufficient. Rather I want to focus on my own role in shaping the 
first pilot Open World exchange in 1999 and how I have already seen the 
results of that effort and succeeding years.
    As a career State Department official, I have been intimately 
familiar with the full-range of exchange efforts that the U.S. 
government has conducted with Russia for many years. Programs such as 
the International Visitors Program have been instrumental in bringing 
educators, scientists, government officials, and cultural leaders to 
the United States for extended stays of a few weeks' time. These 
programs were the mainstay of maintaining important ties to key opinion 
leaders in the former Soviet Union, particularly through the Cold War 
era. Few such programs were available to non-English-speaking leaders 
far from the power centers of Moscow and St. Petersburg. Numbers of 
visitors also fluctuated with funding for such activities as U.S. 
foreign policy priorities dictated.
    Had the Cold War lingered on and Russia not begun a series of 
remarkable transitions in the late 1980's, such an approach would 
probably have been sufficient. With the collapse of Communism in Russia 
and that nation's completely unanticipated turn toward democratic 
principles and processes, a more dramatic effort--in both scope and 
size--was clearly needed. Jim Billington was a direct observer of what 
he correctly calls ``the greatest political transformation in the late 
twentieth century'': the final overthrow of Communist rule in Moscow in 
1991. Perhaps no other living scholar/statesman--for that truly is Jim 
Billington's calling--was better poised to comprehend both the promise 
and danger that lay ahead for Russia and its people. Jim is hard-nosed 
about the lingering threat that Russia's vast stores of nuclear weapons 
and materials pose for the West. He is simultaneously poetic about the 
long history of the Russian people's struggles to survive their 
leaders.
    It is our country's good fortune that Jim Billington's 
understanding of Russia's politics and her people collided, so to 
speak, in April 1999 with the collective political insight and will of 
the many Members of Congress gathered early one morning to discuss the 
state of U.S.-Russian relations at an Aspen Institute breakfast. Jim 
has escorted many CODELS and even Presidential Summit delegations to 
Russia. He offers guidance when asked and informs whenever and wherever 
possible about Russia's complex and remarkable history and culture. 
Fluent in its language and familiar with its far reaches, Jim keeps a 
steady eye on and ear to the Russian citizen's attitudes toward the 
West and the United States in particular.
    When asked about Russian views toward the U.S. engagement in 
Kosovo, Jim provided both an important history lesson and a note of 
concern about the deterioration of the average Russian's views of U.S. 
foreign policy. When asked what could be done, Jim offered a dramatic, 
but certainly not new proposal: a large-scale program modeled on that 
portion of the Marshall Plan that brought thousands of young Germans to 
the United States for essential training to rebuild their shattered 
nation and its economy. Last year marked the 50th anniversary of the 
Marshall Plan. Even after 50 years, numerous participants spoke at 
celebrations, symposia, and reminiscences of the power and efficacy of 
the U.S. investment in guaranteeing the democratic future of the German 
Federal Republic.
    Jim and I had discussed such an approach many times. I am certain 
that he raised it to many senior Members of Congress or presidential 
advisors. In April 1999 the time and place had come together. With the 
strong backing of Members of Congress--Senator Ted Stevens of Alaska, 
then-Majority Leader Trent Lott of Mississippi, Senator Carl Levin of 
Michigan, Representative David Obey of Wisconsin, to name but a few who 
involved themselves in the first discussions of launching and funding 
such a program--the ``Open World'' Russian Leadership Program was 
launched in May 1999. The Open World Program was tasked with bringing 
up to 3,000 of Russia's future political leaders to the United States 
to see democracy and a market economy for themselves, all in a scarce 
five-month period.
    In all candor, I must tell the members of this subcommittee that I 
was pleased to be involved in shaping the program, its goals, and its 
management. As Ambassador in Moscow, I knew that this program would 
affect official relations with all levels of the Russian government and 
that the embassy's own resources of staff would be greatly strained--if 
only by the unprecedented number of visas we would be processing.
    I had already had the opportunity to travel widely throughout the 
Russian Federation and knew firsthand the tremendous reserves of 
political talent dedicated to building democracy in Russia and eager to 
understand options open to Russia from American experience. I also was 
well aware of a whole generation of emerging leaders faced with the 
daunting challenges of a virtually-ruined economy and collapsing social 
infrastructure. Like Jim Billington, I shared a belief that a program 
of the size and scope we were proposing had to reach deep into every 
area of Russia--over thousands of miles--to introduce a shock wave of 
direct experience with the country that had so long been identified in 
the minds of every Russian as Russia's principal adversary.
    If invited, would they come?
    If they came, what benefit could be derived in 10 days?
    I will not dwell very long on the first question. The record of 
achievement speaks for itself; Jim Symington's and Jim Billington's 
testimony amply cover the challenges of mounting such a large-scale 
program. We had heroic partners in both Russia and the United States. 
In Russia, the U.S. consulates and a score of organizations including 
the Open Society Institute, IREX, and others, including leading Russian 
government and non-government organizations, provided a superb pool of 
nominees from 86 Russia's 89 regions. In the United States, voluntary 
organizations such as Rotary International, Peace Links, and the Russia 
Initiative of the Methodist Church became the program's partners and 
made it possible for over 2,000 young Russian leaders to experience the 
political ideals and American hospitality of over 500 American 
communities. Jim Symington's heartwarming experience in Lee's Summit, 
Missouri, was repeated hundreds of times as young Russians shared 
volunteerism, political debate, barbecues, sports events, American 
music, and Fourth of July picnics and parades.
    I would like to devote the balance of my testimony to the second 
question. We know the Russian have come to the United States under the 
aegis of the ``Open World'' Program--nearly 4,000 leaders from 88 
regions. What has the experience meant to them and what does that 
experience offer to persuade members of this subcommittee to support 
its continuation and growth?
    The facilities at Spaso House offer the U.S. Ambassador to Russia a 
wonderful place to engage continually Russian leaders and citizens. 
Virtually all receptions held after September 1999 included Open World 
alumni. I also met groups in Samara, Saratov, Tomsk, Tolyatti, and 
Novosibirsk at locations where the United States launched American 
Corners and Centers to house much-needed information resources about 
the United States. Let me describe what I think is important about the 
experience the Open World Program provides from the impressions I 
gained at these meetings and alumni conferences:
  --The program is reaching not only a large number of young Russians--
        the average age is 38--but Russians involved in town, city and 
        regional non-governmental organizations, and regional and city 
        Dumas--who would not be invited to the United States under any 
        other circumstances. These are the future leaders of a civil 
        society in Russia's regions.
  --The Open World Program does not require English speakers and gives 
        priority to first-time visitors to the United States. In 
        hundreds of communities, the Open World Program is providing 
        the first contact with America--with the real America, not 
        reruns of Dallas.
  --Unlike virtually all other exchange programs, Open World guests 
        stay in American homes. Direct contact with American families 
        in your home states is the most powerful public diplomacy tool 
        that America possesses. Open World has fully capitalized on 
        that possibility--nearly 4,000 Russians have stayed in over 700 
        communities in 48 states and the District of Columbia. The 
        photo albums that document each visit and return to Russia with 
        our guests capture memories and experiences that will be 
        discussed around kitchen tables in both countries for years to 
        come.
  --Each participant returns home with new insight into American values 
        and an understanding of just what we means by accountable 
        government. Participants also told me repeatedly--judges, 
        nurses, city councilmen, etc.--how much they valued the 
        exchanges they had with American counterparts.
    When the Board of Trustees met recently for the first time, we were 
given the opportunity to scale back the program or expand it. We voted 
overwhelmingly to expand the scope and debated the desirability of 
allowing return visits to Russia by American hosts. We were fortunate 
the first year to have the opportunity to bring newly elected State 
Duma Deputies--nearly 25 percent traveled to the United States and were 
hosted by Members of Congress.
    As new leadership enters the Duma and Federation Council and they 
are tasked with enacting significant legislation dealing with trade and 
security issues, it is more important than ever to continue to expand 
these ties. I am particularly pleased that the Congressional members of 
the Center's Board of Trustees want to be fully engaged with their 
counterparts. This aspect of the Open World Program--direct and 
sustained legislature-to-legislature relations--is of the utmost 
importance. As Ambassador, I worked with scores of CODELS, but I must 
emphasize how important it is for Russian legislators to meet their 
American counterparts on American soil and to participate in the 
informed and transparent work of the U.S. Congress.
    In closing, I urge you to support the Center's fiscal year 2003 
request for $10.0 million. The members of the board are committed to 
assisting with private fundraising but results cannot be expected 
overnight. Meanwhile, the continuing support of the U.S. Congress for 
this program--or the lack thereof--will be noticed in Russia. I can 
assure members of this subcommittee that senior Russian officials in 
all three branches of their government are keenly aware of it and 
appreciative of the opportunities the Open World Program affords 
Russian political leaders of all parties and points of view.
                                 ______
                                 
   Prepared Statement of Lee Boothby, Vice President, International 
               Academy for Freedom of Religion and Belief
    I submit this written testimony before this Subcommittee as Vice 
President of and on behalf of the International Academy for Freedom of 
Religion and Belief. The Academy has a membership of approximately 100 
experts in the fields of religious freedom and human rights drawn from 
many countries and different faiths. The Academy provides technical 
assistance on issues of freedom of religion and human rights, and its 
work has included conducting several conferences in the New Independent 
States and Central and Eastern Europe.
    Our organization hosted a delegation from Russia under the 2000 
Open World Russian Leadership Program. We also received a small grant 
from Open World to support alumni participation in a conference on 
``Freedom of Conscience and Ensuring Interreligious Understanding'' 
that we conducted in Moscow in June 2001, and we have recently been 
awarded another grant from the Center for Russian Leadership 
Development to host fifty Open World participants in June 2002.
    Since 1992 our Academy has regularly conducted seminars, 
conferences, and consultations in the Russian Federation, often with 
the Russian Academy for State Service Under the Presidency as our host. 
These meetings focus on problems relating to religious human rights, 
and the attendees are usually federal and regional officials who 
oversee religious matters.
    We have extensive contacts with Russian religious affairs 
officials, the people who make the decisions that affect the decisions 
impacting on religious organizations present throughout the Russian 
Federation. Although most of these officials are conscientious in 
carrying out their responsibilities, because of the past they do not 
fully appreciate the positive benefits of religious tolerance and the 
right of people individually and in community with others to practice 
their religious beliefs without official discrimination and free from 
state interference. Although the Academy conferences have helped reduce 
the problems that foreign religious organizations operating in Russia 
and others face, there is always substantial resistance to change.
    The experience we had with the delegation of Russians brought to 
the United States under the Open World Russian Leadership Program was 
both astonishing and gratifying. Although their visit was brief (five 
days in Washington, D.C., and five days in Utah), it was apparent from 
these officials' comments that their rigid attitudes were changed 
almost overnight by their experience in the United States. One 
participant later wrote: ``The realization of the program of the 
Library of Congress was not only unique, but also actualized at a high 
level. In the process of open dialogue with our American colleagues, 
we, the Russian participants of the program, were able not only to 
exchange information and the experience of our work, but also to 
develop close working contacts and establish opportunities and main 
directions for future joint projects.''
    It has always been difficult to communicate the concept that the 
state should be neutral toward all religions and should not erect 
impediments to the free exercise of religion, free from bureaucratic 
imposition. We addressed these issues through programs and activities 
such as a mini-conference at George Washington University on the 
International Religious Freedom Act; sessions at Catholic University 
School of Law on key U.S. Supreme Court cases on freedom of religion 
and registration and tax policy; and discussions with Utah governmental 
officials on practical issues such as zoning, governmental regulation 
of religiously affiliated educational institutions, and governmental 
funding of religious social service activities. The Russians' visit to 
the United States seemed to erase many of their preconceived attitudes. 
I recall several of them commenting on how well the religious 
communities got along together, seeming to fight only about parking 
spaces on Sunday morning.
    More importantly, even though our new Russian friends spent only a 
brief time here, it still allowed them and Americans with similar 
interests to get to know one another on a personal basis and to bond. 
These experiences, we found, continued to be remembered and to have an 
abiding, salutary effect after these participants returned to Russia to 
carry out their responsibilities. Now they have an altogether different 
attitude toward foreign religious organizations and missionaries.
    Our Academy has two basic objectives in hosting the people visiting 
the United States through the Open World Russian Leadership Program: 
(1) to introduce key Russian leaders responsible for shaping and 
implementing religion policy in Russia to the institutions of religious 
freedom in the United States and to U.S. experts on these themes; and 
(2) to acquaint U.S. political, academic, and church leaders with 
Russian concepts of religious freedom. It continues to be our 
experience that all program participants come away with greater 
appreciation of: the importance of religious freedom; problems with 
implementing this ideal in both countries; and ways it can be better 
implemented in practice. We expect that our Russian guests and their 
counterparts in the United States will maintain the working 
relationships established through Open World.
    In relation to the latter point, our Academy has been able to 
continue contacts and discuss matters of mutual concern with the alumni 
of the Open World Program, which extends the benefits of the visit of 
these Russians to the United States. In this regard, I want to express 
how valuable we have found the staff carrying out the Open World 
Program at the Embassy in Moscow to be. Allison Hawley and Alexander 
Khilkov multiply the benefits of the program by holding alumni meetings 
throughout this vast country.
    Our Academy has also found the staff of the program here in the 
United States to be most helpful. I know the officers and members of 
the Board of the Academy believe that the expenditures made in 
connection with the Open World Program are the best dollars ever spent 
in American-Russian relations. We are certainly getting our money's 
worth in the results obtained.
                                 ______
                                 
         Center for Russian Leadership Development,
                                                Open World,
                                                     April 8, 2002.
The Honorable Michael M. Mihm,
Judge of the U.S. District Court, Central District of Illinois, 204 
        U.S. Courthouse, 100 Northeast Monroe Street, Peoria, IL 61602.
    Dear Judge Mihm: Thank you for your letter of March 27, 2002, and 
your previous correspondence. We are honored that you and so many of 
your fellow judges across the Unites States have worked so diligently 
to make Open World's rule of law component a success. I have also read 
the letter that you sent Senator Richard Durbin last October, and I 
appreciate your remarks about Open World's impact.
    I agree with you wholeheartedly that the key to Open World's 
effectiveness is the person-to-person aspect of the exchanges, as 
exemplified by the judge-to-judge relationships the rule of law program 
fosters. Only when former Cold War adversaries sit around a table 
together can the process that you describe in your letter begin. Open 
World's colleague-to-colleague approach also ensures that these 
relationships are meaningful and sustainable. Our American host judges' 
commitment to making return visits to Russia and to establishing 
``sister court'' relationships demonstrates this.
    Russia is at a crucial stage in its transition to democracy, with 
judicial reforms providing, possibly, the critical hinge. The American 
judiciary's active engagement with its Russian counterpart through the 
Open World Program helps make me optimistic about the direction this 
reform process will take.
    The staff of the Center for Russian Leadership Development and I 
appreciate your kind words about their efforts and professionalism. I 
look forward to working with you in the future on this exciting 
program.
            Sincerely,
                                       James H. Billington,
                                 Chairman of the Board of Trustees.
                                 ______
                                 
                      United States District Court,
                              Central District of Illinois,
                                  Peoria, Illinois, March 27, 2002.
Dr. James H. Billington,
The Library of Congress, 101 Independence Avenue, S.E., Washington, 
        D.C. 20540.
    Dear Dr. Billington: The last time I wrote you was in August of 
2001, soon after the visit to my home in Peoria of four judges from the 
Russian Federation who were here as part of the Russian Leadership 
Program (Open World). I dug that letter out yesterday and reread it to 
assess where we have progressed since then. In that letter, a copy of 
which I attach to this letter, I was very exuberant about the wonderful 
experience that the visit had been, both for the Russians and for all 
of the people here in Peoria. I ended the letter by saying that more 
delegations were on the way and that we would be meeting to discuss how 
we could make the program even better for the delegations coming to 
America in 2002.
    Representatives of the federal and state judiciary did in fact meet 
in Washington in mid November with all of the staff people involved and 
with representatives of Rotary International. It was a good meeting and 
fine tuning of program details (the devil is always in the details) 
followed. Now we are into 2002, and the first delegations have already 
come and gone. The first delegations this year have visited Tampa, FL, 
Eugene, OR, Nashville, TN, Ann Arbor, MI, Louisville, KY, and 
Rochester, NY. All reports that I have received indicate that the 
visits were very successful. We hope to bring over this year a total of 
around 200 judges. Since the beginning of our involvement 18 judges (14 
federal and 4 state) in 18 states have hosted delegations. Of course, 
many more federal and state judges have been actively involved in the 
programs and other hosting activities.
    I'm sure you are aware that there is significant judicial reform 
underway in the Russian Federation. Major legislation, including a new 
Criminal Procedure Code and three bills dealing with a variety of 
matters (everything from mandatory retirement age for judges to new 
judicial disciplinary procedures and new powers for judges in the areas 
of arrest, search and seizure, and pretrial detention) passed the State 
Duma and Federation Council in December and were signed by President 
Putin. These major reforms, most the result of significant debate, are 
changing the whole equation of judicial performance and judicial 
accountability in Russia. Not surprisingly, the judges strongly 
supported some of these changes and resisted others. All of this 
change, taken in conjunction with the other demands on a judiciary 
which will be celebrating only the 10th anniversary of its Council of 
Judges early next month, makes the Open World Program just that much 
more important, because the visits to the local communities give the 
Russian judges involved a new strength to face those challenges when 
they go home.
    Under the new laws jury trials in certain serious criminal cases, 
which had been an option for a defendant in only selected experimental 
locations until now, will be extended to the entire Russian Federation. 
That change alone is of epic proportions. As a result, one of the major 
focuses of the local visits this year will be on the jury trial system 
in this country. Visiting judges will be exposed as much as possible to 
the variety of issues, problems, and solutions that we encounter here 
in jury cases. I believe this exposure will be of substantial 
assistance to them as they go about the task of establishing a 
tradition of jury trials in their communities. This move toward jury 
trials is in direct response to the recognition of the need to address 
the historic lack of trust of the Russian people in their court system.
    No matter how much fine tuning to the Open World Program occurs, 
the most important product of the exchange will always be the person to 
person contact leading to life long communication and friendship. One 
of the judges who visited in our home in Peoria last summer was Chief 
Judge Alimzhan Shaymerdyanov. While he was here we came to realize the 
relative similarities of our respective communities. He is from the 
Vladimir Oblast. We have remained in communication since then. We have 
decided that there is much to be gained from the creation of a ``sister 
court'' relationship between his court and the federal and state courts 
here in central Illinois. Through a sister court relationship we will 
continue to exchange information and answer questions about how our 
systems operate. This will include not just judges, but also lawyers 
and court administrators.
    I will be in Moscow early next month along with Judge Lloyd George 
of the District of Nevada to represent the American federal judiciary 
at the 10 year anniversary of the Council of Judges. I am going to use 
that opportunity to meet with Open World Alumni, and also specifically 
to meet with Judge Shaymerdyanov and the judges of his court in his 
home town to firm up the details of our sister court relationship.
    If the Open World Program meant only that the Russian judges would 
come here and spend 10-12 days totally immersed is our legal and social 
culture, that would be a worthwhile project. If the visit here by the 
Russian judges leads to continued communication and dialogue, then the 
visit was not only an event, but the first step in a PROCESS, a 
partnership if, you would, a partnership committed to the establishment 
and enrichment of the Rule of Law.
    By the way, in terms of ongoing communications, the alumni 
publication is wonderful. It is not only informative but also acts as a 
kind of ``glue'' or ``cement'' to the concept of long term 
relationships.
    I work on a regular basis with many staff people who make the Open 
World Program a reality. I have yet to encounter any person who has not 
been highly professional, competent, and committed to ever improving 
the program. I believe that my brother and sister judges have all had 
the same experience. The superlative quality of the staff is, 
ultimately, a credit to you, because the positive attitude they display 
had to begin with you.
    I came in very early this morning to write this letter, since I am 
in the middle of a jury trial. I tell you that not to make myself a 
better person than I really am, but rather to make the point that all 
of the judges who have been, are, and will be involved in this Open 
World Program, are judges first. If we did not believe that this 
program was an important one, we would not devote our time to it. Thank 
you for all of your efforts in regard to the Open World Program. I'll 
give you another report as circumstances warrant. If you have any 
questions of me regarding the program, please contact me at your 
convenience.
            Warm Regards,
                                                   Michael M. Mihm.
                                 ______
                                 
                        Russian Leadership Program,
                                           Open World 2000,
                                                September 18, 2001.
The Honorable Michael Mihm,
Judge of the Central District of Illinois, 100 North East Monroe, 
        Peoria, IL.
    Dear Judge Mihm: Thank you for your remarkable letter and all the 
time and attention you devoted to planning and hosting the first of our 
2001 rule of law judges' delegations. You and your wife have set a 
standard for hospitality that was deeply appreciated by the Russian 
judges. The follow-up debriefing among all the July and September 
hosting judges has been invaluable for all involved with the pilot 
program. Your personal commitment to the effort has been outstanding 
and somewhat contagious among your fellow judges--much to our delight.
    You are very kind to have noted the role played by the Russian 
Leadership Program and American Councils for International Education 
staff. We in turn are extremely grateful for the partnership with the 
Administrative Office of the United States Courts and the contribution, 
in particular, of Ms. Karen Hanchett, Ms. Mira Gur-Arie, and Mr. Peter 
McCabe. I am very pleased that the interest among your fellow judges is 
high and that we have been able to plan for another group of judges for 
November. Meanwhile, I would welcome the opportunity to meet with you 
later this fall to discuss what we have learned from the pilots and how 
to proceed with a program for 2002.
            Sincerely,
                                       James H. Billington,
                                         The Librarian of Congress.
                                 ______
                                 
          Judicial Conference of the United States,
             Committee on International Judicial Relations,
                                                   August 23, 2001.
Dr. James H. Billington,
The Library of Congress, 101 Independence Avenue, S.E., Washington, 
        D.C.
    Dear Dr. Billington: I wanted to share with you, briefly, my 
personal account of the recent visit to Peoria by four judges from the 
Russian Federation. All four of the judges and the non-judge 
facilitator stayed with my wife and me in our home. While we had 
volunteered to host the group in our home, I must confess that by the 
day they were due to arrive, Judy and I were more than a little 
apprehensive, given the language and cultural barriers. We found out 
later from our new Russian friends that they were even more 
apprehensive than we had been. In fact, when they arrived in Peoria, 
they believed that staying at our home was going to be a major problem.
    Well, all of our apprehensions were unfounded. The eight days that 
we spent together were truly some of the most enjoyable of our lives. 
The morning that they left to fly back to Russia we had a private 
ceremony in my front yard, where we planted a young fir tree to 
commemorate their visit and to symbolize that our friendship would 
continue to grow long after they left. In fact, they vehemently 
resisted my efforts to pay for the tree the day before at the nursery 
and successfully argued that it wasn't, in fact, my tree--it was 
theirs.
    My wife also gave each of them a key to our house with the 
admonition that, now that they had become part of our family, they 
would always be welcome in our home as family.
    On the Tuesday night of their visit, Judge Astanin (from western 
Siberia) cooked a Russian meal. This followed a trip to the grocery 
store with my wife and the facilitator. Upon their return, proper 
ingredients were mixed together, and then we spent the next three hours 
standing around the kitchen counter manufacturing for immediate 
consumption the most incredible ``Siberian dumplings'' which have ever 
been made. Add to that small amounts of Russian vodka and appropriate 
Russian folk songs, and you have a priceless memory.
    I could go on for pages about our other activities, and I haven't 
even mentioned the formal programs in Washington and Peoria, which were 
superb. I think you get the idea.
    My wife was so taken with the entire experience that she may now 
accompany me to Russia next April for the celebration of the 10-year 
anniversary of the new Russian judiciary. That would give us the 
opportunity to meet at least some of the families of the judges who 
stayed with us. We have already established email contact with two of 
our guests.
    Geraldine Otremba and Aletta Waterhouse from the Library and Lewis 
Madanick and Jeff Magnuson of the American Councils for International 
Education all performed their duties in a super manner and were very 
easy to work with. They are decent people who perform their jobs very 
professionally.
    Now we are looking forward to three more groups coming over early 
in September. Preparations for that visit are well under way. I expect 
that after the September visits we will meet to discuss what we have 
learned from the six pilot visits and make decisions regarding the 
future course of the project.
    Thank you for the vision to create this program and for providing 
my wife and me with an opportunity to be a part of it.
            Warm regards,
                                                   Michael M. Mihm.
                                 ______
                                 
                                      United States Senate,
                                  Washington, DC, November 6, 2001.
Honorable Michael M. Mihm,
Chief U.S. District Judge, Central District of Illinois, 100 N.E. 
        Monroe Street, Peoria, IL.
    Dear Judge Mihm: Thank you for your thoughtful letter and kind 
wishes. I appreciate knowing your insights on and favorable views of 
the Russian Leadership Program. Given your role in developing this 
program with the Library of Congress, it is helpful to learn about your 
personal experiences with the Russian participants.
    As chair of the Legislative Branch Subcommittee of the Senate 
Appropriations Committee, I am familiar with this program and its 
merits. The conference committee crafting the details of the 
Legislative Branch appropriation bill recently approved an $8 million 
payment to the Russian Leadership Development Center Trust Fund for the 
Center for Russian Leadership Development. These funds will help enable 
emerging political leaders of Russia, including judges, to gain 
significant, firsthand exposure to the American free-market economic 
system and the operation of American democratic institutions. I will 
continue to support funding for this important program.
    Thank you again for contacting me. Please stay in touch.
            Sincerely,
                                         Richard J. Durbin,
                                             United States Senator.
                                 ______
                                 
                      United States District Court,
                              Central District of Illinois,
                                                  October 30, 2001.
Honorable Richard Durbin,
United States Senator, 332 Dirksen Senate Office Building, Washington, 
        DC.
    Dear Senator Durbin: I hope this letter finds you and your family 
well in these perilous times.
    I almost never contact you about pending legislation, but I just 
learned this morning that an appropriations bill involving the Library 
of Congress Russian Leadership Program is presently under 
consideration. I write to offer my unqualified support for the program.
    About a year ago Chief Judge Paul Magnuson of the District of 
Minnesota and I were contacted by James Billington, the Librarian of 
Congress, to ask for our support in putting together a program which 
would bring a large number of Russian judges to this country for a 
period of total immersion in our judicial and social culture. He 
contacted us because Judge Magnuson is the present head of the 
Committee on International Judicial Relations of the U.S. Judicial 
Conference, and I am the past chair of that Committee, a present 
member, and the person who has the primary responsibility for 
coordinating Rule of Law projects for the Committee involving the 
Russian Federation.
    We met with Dr. Billington and others from the Library of Congress 
in Washington early this year. They explained that Congress had already 
approved funds for the purpose of bringing a wide variety of emerging 
Russian leaders from various walks of life to this country for a 10 day 
stay. The idea was that this would be the modern version of the 
Marshall Plan (where large numbers of emerging German leaders were 
brought here after the second world war). At the time of our meeting 
over 2,000 Russians had already taken advantage of this program. They 
indicated to us at that meeting that it had become clear to them how 
critically important it was to focus the program in part on the Russian 
judiciary, because without an honest, professional, and independent 
judiciary, it would be next to impossible to create and maintain a true 
Rule of Law in the Russian Federation.
    To make a long story short, our Committee agreed to fully cooperate 
on this project. In March of this year I traveled to Moscow with two 
other judges, and while there we met with leaders of the Russian 
judiciary to seek their support for the program. They were very 
supportive of the project and promised their full cooperation.
    In late July of this year the first contingent of Russian judges 
arrived in Washington. I was at the airport to greet them. We presented 
an intense two day orientation for them at the Thurgood Marshall 
Building on the American judicial system, state and federal. These 
presentations were made by both federal and state judges. On the third 
day the group split up into smaller delegations which traveled to local 
communities for full 7 day visits. I hosted one of the groups here in 
Peoria. In fact, the Russian judges stayed in our home with Judy and me 
for the entire week. During the week we presented a full program of 
judicial programming in the federal and state courts and also a variety 
of social events. The entire community became involved in the project. 
In fact, on one day we had a special setting of the Third District 
Appellate Court convene in my courtroom and hear oral argument in a 
civil and criminal case. The courtroom was filled to capacity with 
lawyers and judges from the entire area. Supreme Court Justice Tom 
Kilbride was instrumental in making that event possible, and personally 
attended and conferred with the Russian judges. We also had meetings 
with state legislators, representatives of the news media, prosecutors 
and defense attorneys, etc.
    I could go on for pages. The bottom line is that the visit was very 
meaningful for the Russian judges. It made them fully understand what 
the Rule of Law means in reality in this country. Everyone who was 
involved in this program was touched, moved, and changed by it. I have 
maintained contact with the judges after their return to Russia. This 
same scenario played out at the same time in Oklahoma City and 
Baltimore, and since then delegations have traveled to Minneapolis, 
Denver, Nashville, and Boston. Tomorrow the next group arrives in 
Washington, and they will go to Salt Lake City, Las Vegas, and 
Albuquerque.
    I would not presume to tell you that the continued funding of this 
program takes precedence over other budget demands. I have the greatest 
respect for your judgement. I can tell you that the program has been an 
unqualified success in each city where a delegation has visited, and 
that the emerging Russian judicial leaders who have participated in the 
program went home with a new vision of what a true Rule of Law 
environment could mean for the people of the Russian Federation. If 
funding is available we plan to bring over 400 Russian judges here in 
the year 2002. Many district courts around the country have expressed 
an interest in hosting a delegation in their community.
    I believe that, if Russia succeeds in establishing a maintaining a 
meaningful democratic system, there is hope for many of the fledgling 
democracies of Central and Eastern Europe and Central Asia. If Russia 
fails in its democratic experiment, that failure will almost inevitably 
extend to those other new democracies. This program seems to be making 
a difference. A small, incremental difference that hopefully will grow 
with time.
    I would be remiss if I did not also say that the people we have 
worked with on this project from the Library of Congress and their 
support staff are superlative in every respect. We have never worked 
with a better group of people on an international Rule of Law project.
    I remember reading the transcript of your eloquent words in defense 
of the professionalism and in defense of our federal judiciary at a 
hearing of the Senate Judiciary Committee. This program exposes the 
Russian judges to that model as it performs in practice--in the big 
towns and small towns of America--made real for them by the men and 
women who serve the law in each local community.
    I know there are demands on your time and attention. That is why I 
have written this letter instead of trying to contact you by phone. If 
you have any questions concerning this matter I would be happy to try 
to answer them at your convenience.
    Please stay safe and continue your important work.
            Warm Regards,
                                                   Michael M. Mihm.

                          subcommittee recess

    Senator Durbin. The subcommittee is going to stand in 
recess now until Wednesday, March 20, at 10:30 a.m. Thank you.
    [Whereupon, at 11:50 a.m., Wednesday, March 13, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 20.]











         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                       WEDNESDAY, APRIL 17, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:31 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Reed, and Bennett.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF JERI THOMSON, SECRETARY
ACCOMPANIED BY:
        BARBARA TIMMER, ASSISTANT SECRETARY
        TIM WINEMAN, FINANCIAL CLERK

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Good morning. I would like to convene the 
subcommittee. Today we will take testimony from the Secretary 
of the Senate and the Architect of the Capitol on the fiscal 
year 2003 budget request. Our first witness is Jeri Thomson, 
Secretary of the Senate, who will be accompanied by Assistant 
Secretary of the Senate Barbara Timmer and the Senate Chief 
Financial Clerk, Tim Wineman. We certainly welcome you this 
morning.

                             SEPTEMBER 11TH

    Before we review your budget, Jeri, I think it is 
appropriate to extend our sincere appreciation for your hard 
work and continuing efforts since last September 11. Most of 
the people who are viewing this hearing on C-SPAN do not 
realize what you have been through, and your family, I might 
add, since September 11, along with so many other dedicated 
people who work in the Capitol Building.
    This subcommittee has a general responsibility, as the 
legislative subcommittee, and of course has major assignments 
when it comes to the continued operations, successful 
operations, of the United States Senate. But it also has a 
special obligation to the people who work as part of this 
operation and to our great legacy, these buildings which 
represent, not only to the United States, but to the world, a 
true symbol of freedom and democracy.
    On September 11, a day which none of us will ever forget, 
you were called on, as many were, to do heroic things to 
protect this building. You had wonderful help in that regard. 
The Sergeant at Arms of the Senate Al Lenhardt and you were 
inseparable for months, as you both worked together to make 
certain that the buildings were secure and safe.
    I cannot give enough praise today, or ever, to the Capitol 
Police for what they have done. I do not think any of us can 
really appreciate the sacrifices that were made by these men 
and women in an effort to keep all of us who work here safe and 
all who visit this great Capitol Building.

                            ANTHRAX INCIDENT

    You and your staff then on October 15 faced a new challenge 
with the anthrax threat, which closed down a major portion of 
Capitol Hill. It was a threat that was unprecedented. The best 
experts in America came together and said, ``We have never 
faced anything quite like this.'' And you were in the middle. 
You were in the eye of that storm, as we tried to bring 
business back to usual.
    You faced a lot of pressure from members who wanted to be 
back in their offices, from staff, some of whom wanted to be 
back in their offices and others who did not want to go back in 
their offices. And you handled it with grace and real 
dedication.
    I will just tell you that on behalf of all of the Members 
of the United States Senate--and I am sure I speak for both 
parties--that we want to give you, as well as the Architect's 
Office, the Capitol Police, the Sergeant at Arms, all of you, 
special commendation for the extraordinary and historic efforts 
that you made to keep the Senate in operation. It is a credit 
to you and your commitment to this institution that it was as 
successful as it was.
    We understand that the countless hours that you put in on 
those days have diminished some, but are still being invested 
in preparedness and planning efforts to protect this great 
institution and all who work and visit here. We thank you so 
much for that critical work.
    With respect to your budget, the request totals roughly $24 
million, close to the fiscal year 2002 total budget. The 
request includes a one-time $5 million series of disbursing 
office initiatives aimed at improving financial management and 
the efficiency with which the Senate offices conduct resource 
tracking and reporting.
    Senator Bennett will be joining us in a few minutes. But if 
I could ask you at this point--here he is, on cue. At this 
point, I would be happy to turn to my ranking member, Senator 
Bennett, for his opening statement.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman. I read your 
opening statement and want to join in expressing my gratitude 
to the Secretary and her staff for the work that has gone into 
the activities surrounding September 11 and October 15. October 
15 is not a date that is burned into the consciousness of the 
country. But certainly here in the Senate with the anthrax 
scare, it is a date that I am sure the Secretary of the Senate 
will never forget.
    So, Jeri, we are very grateful to you for your leadership 
and your diligence and your dedication to lead us through that 
very difficult time.
    Your budget request at $24 million does not seem 
unreasonable. I will be happy to have you tell us about the new 
initiatives that you are trying to bring on and the significant 
increase for the expenses of the Office of the Secretary. I am 
sure you can justify them. But for the record, we will go 
through that and I look forward to understanding them better.
    We welcome you here, and I express my thanks and gratitude 
for the job you have done.
    Jeri Thomson knows, Mr. Chairman, how she is referred to in 
our household as a term of endearment as she is herding 
Senators around to an event. My wife, who did not know her 
exalted title and position, referred to her as the ``den 
mother'' that was trying to see that all the Cub Scouts got to 
where they needed to be at the proper time and not get lost, so 
that she did not have to report to their mommies that they had 
wandered away.
    It is a term of affection and admiration.
    We are glad to have you here.
    Senator Durbin. Thank you.
    The Secretary of the Senate, Jeri Thomson.
    Ms. Thomson. Well, thank you, Mr. Chairman and Senator 
Bennett, for all of those kind words. I think the praise of the 
staff and the Capitol Police is really warranted for their 
efforts during the extraordinary events of last fall.
    I thank you for this opportunity to present testimony in 
support of the Office of the Secretary of the Senate's budget 
request for fiscal year 2003. I am requesting $24,156,000. That 
is an increase of $161,000 over last year's budget request.

                              LIS AND FMIS

    Although the fiscal year 2003 budget request is essentially 
the same as last year's, there are some important differences 
in how next year's money will be spent. The Secretary's Office 
has responsibility for two critical systems that are mandated 
by law. They are the legislative information system, known as 
LIS, and the financial management information system, known as 
FMIS.
    Historically, the development of these systems has been 
funded by the Appropriations Committee through multiyear 
appropriations, which has enabled this office to plan, develop, 
and install these large and complex systems in a systematic and 
cost-effective way. Funding for the LIS augmentation project, 
which is known as LISAP, began in fiscal year 2000.
    As former Secretary Gary Sisco noted in his testimony in 
May of 2001, the overall objective of LISAP is to implement 
extensible markup language or XML as the data standard to 
author and exchange legislative documents among the Senate, 
House of Representatives, the Government Printing Office, and 
other legislative agencies.
    Our program carries out the December 2000 mandate to the 
Secretary of the Senate and the Clerk of the House from the 
Senate Committee on Rules and Administration and the House 
Committee on House Administration. Last year the committee 
appropriated $7 million to fund LISAP. The Secretary's Office 
is leading a team that includes staff from the Senate Sergeant 
at Arms, the Government Printing Office, the Library of 
Congress, Senate Legislative Counsel, and our own enrolling 
clerk. And we are working closely with the Clerk of the House 
so that the authoring tool that we develop is compatible with, 
and we hope identical to, the authoring tool developed by the 
House of Representatives.
    This year I am recommending an appropriation of $5 million 
for a multiyear program to upgrade and expand the financial 
management information system of the Senate. The explanation 
and specific components of this project are described in my 
written testimony and in the much more detailed briefing book 
that has been provided by the disbursing office to the members 
of this subcommittee.
    Briefly, with these funds our disbursing office will 
continue to modernize processes and applications to meet the 
continuing requests from Senate offices for efficiency, 
accountability, and ease of use. And in addition, with this 
funding the Senate will essentially complete the process of 
preparing the Senate to produce financial statements that can 
be audited, as mandated by the Senate Committee on Rules and 
Administration.
    The multiyear funds appropriated by this committee in 1995 
for the FMIS project have been spent. It is appropriate now to 
request another multiyear funding installment for this critical 
project, so that we can continue FMIS development in a 
strategic and orderly way. This approach is the same one this 
subcommittee used in 1995, when it appropriated $5 million for 
a multiyear financial modernization effort. Although that 
appropriation ended in 2000, the Secretary's Office funded 
additional contracts from our salary and expense budgets.
    A piecemeal approach to financial management modernization 
is less efficient and less cost effective than the kind of 
long-term planned initiative that this committee put in place 
in 1995 and that we propose starting again next year.

                         STRATEGIC INITIATIVES

    There are five strategic initiatives the disbursing office 
will implement, if this $5 million request is granted. And very 
briefly, they are: Moving to a paperless voucher processing 
system, improving the web FMIS function, making payroll system 
improvements; improving and integrating accounting subsystems, 
and, finally, being able to produce the financial statements.
    The flexibility of multiyear funding assists the Secretary 
and the disbursing office in providing the long-range planning 
necessary to implement initiatives of this size and complexity. 
The previous similar FMIS funding strategy approved by this 
committee was a key factor in its successful execution.

                        DEPARTMENTAL OPERATIONS

    While the overall budget request increase of the 
Secretary's Office is only $161,000, reallocation of funds 
within the office will result in an increase of $506,000 in the 
Secretary's departmental operations budget. Beginning with the 
fiscal year 1997 budget, the Secretary's departmental operating 
budget has remained essentially static at $1.5 million, with 
the one-time exception in fiscal year 2001, when the committee 
added approximately that same amount for an FMIS contract.
    So for at least 6 years, the Secretary's operational 
systems, those systems that are a critical part of the 
infrastructure of the legislative and administrative services 
provided by the Secretary's Office, have had minimal or no 
upgrades. And as we know, 6 years is many lifetimes in 
information technology.
    So I am recommending approximately $506,000, the same 
amount that was spent on the FMIS contract in fiscal year 2001, 
be available in fiscal year 2003, which would return the 
department's expense budget to about $2 million, which is the 
same that it was in fiscal year 2001.
    The explanation of what needs to be done to bring the 
Secretary's departments the training, equipment, and systems 
they need to do their jobs is provided in detail in my written 
testimony. These new funds will begin to pay for new systems 
and upgrades that we have identified as critical to the Senate. 
And briefly, the $506,000 in funds that I have recommended for 
the departmental operations budget includes both recurring and 
nonrecurring costs.
    The recurring costs are for the Secretary's annual 
continuity of Government/continuity of operations training and 
preparation. And we estimate that the initial expenditure for 
next year to be about $20,000.
    The nonrecurring expenses are outlined in detail in my 
written testimony. But very briefly, it includes new hardware 
and software for the gift shop and the stationery room. The 
Senate curator needs to create microfiches of collection 
records to document the history and value of all the objects 
and to authenticate ownership and meet our COOP obligations. We 
have an obligation to take the same care that museums would of 
the Senate's art and antiquities, such as the Senate desks that 
are under the care of the Commission on Art. The approximate 
cost there is about $50,000. Our Official Reporters of Debate, 
who prepare the Congressional Record, need new computers. That 
is approximately $20,000. The Senate Library's catalog should 
be available online to every Senate office. The current catalog 
system has that capability, but the implementation was delayed 
pending release of a new Oracle-based software and scheduled 
replacement of an operating system. We are ready now. We would 
like to proceed. That approximate cost is $25,000.

                           CAPTIONING SYSTEM

    And finally, the Senate's captioning system is now more 
than 10 years old. The system software is outdated. The 
computerized stenotype machines are the original machines 
purchased in 1991, when I was Assistant Secretary, and they are 
no longer manufactured. Replacement parts for the stenotype 
machines have become scarce.
    And the present captioning system lends itself to possible 
errors that are mechanical in nature, rather than being caused 
by the captioners themselves. There is a critical need to 
upgrade the Senate's captioning system simply because we have 
an obligation to get it right. And the approximate cost there 
is about $100,000.

                         COOP AND COG PLANNING

    Our response to the September 11 and October 15, 2001 
events took the form of a direct, sustained, and now a 
permanent partnership between the offices of the Secretary of 
the Senate and the Sergeant at Arms. During and after the two 
biggest challenges of last year, the Senate's two principal 
officers have worked together seamlessly, both in coordinating 
continuity of Government planning efforts after the September 
11 attacks and in managing the Senate efforts to reopen the 
Hart Building after the anthrax contamination.
    After the events of the fall of 2001, it was obvious to the 
Sergeant at Arms and me, as newly sworn officers of the Senate, 
that more needed to be done in every Senate office to prepare 
for continuing Government functions during an emergency. The 
Senate's officers have been working together since that time to 
accomplish an extensive list of projects.
    The Sergeant at Arms, as the Senate's lead officer in COG 
COOP planning, will brief the committee during his testimony. 
I, however, would like to brief you on what has been done in 
emergency planning in the Office of the Secretary.
    Shortly after I took office on July 12, 2001, I tasked each 
department to complete their COOP plans by August 31. When I 
was Assistant Secretary, we had a small emergency planning 
process and I have remained convinced of the importance of 
emergency preparedness. As Secretary, I wanted to be assured 
that each department had the ability to perform essential 
functions in the event of the disruption of normal business 
operations.
    Now all departments have finished their COOP plans. We have 
met in and tested off-site facilities. We have ordered 
equipment that departments will need to assist the Senate in 
session, in any location, in almost any circumstance. With the 
help of Senate legal counsel and the General Accounting Office, 
we are preparing a manual that will describe the process State 
by State for replacement of Senators, should that be necessary.
    Each department has outlined a plan for the gradual 
restoration of operations, which might be interrupted or 
postponed by an event. They have identified requirements for 
operation at an alternative work site, which records, 
databases, equipment, and supplies are necessary to conduct 
essential functions. Each department has made arrangements to 
duplicate and store essential items offsite or has made sure 
adequate arrangements are in place to ensure timely replacement 
of those items.
    COOP plans include maintenance schedules for records and 
databases, as well as a copy of the plan itself. Information 
from all final departmental plans was integrated into a 
Secretary of the Senate plan. And following the creation of 
this document, a comprehensive inventory of all space under the 
control of the Secretary of the Senate was undertaken. A vital 
records program, a training and testing exercise program, and a 
maintenance schedule were developed and included in a final 
three-volume comprehensive Office of the Secretary COOP plan.
    And, of course, seven departments in the Secretary's Office 
were able to fully exercise those COOP plans when the Hart 
Building was closed for 3 months. I am pleased to report that 
all statutory responsibilities and obligations of the Office of 
the Secretary were met during that time, including meeting 
payrolls, paying bills, and receiving campaign and lobbying 
reports.
    In coordination with the Sergeant at Arms, we are assisting 
the bipartisan Senate leadership, Senate committees, and 100 
Senate offices in the development of their own COOP plans.

                         CAPITOL VISITOR CENTER

    Capitol Police officers Jacob Chestnut and John Gibson died 
during the summer of 1998. And their tragic deaths focused 
attention on Capitol security and the need for a Capitol 
Visitor Center. The 105th Congress appropriated $100 million 
for the Capitol Visitor Center and directed that the remaining 
required funds be raised by the private sector. The Fund for 
the Capitol Visitor Center, a 501(c)(3) organization, was 
formed and successfully raised $35 million for this project 
before the events of September 11 and the anthrax bioterrorism 
attack.
    I would like to commend Chairman Marilyn Ware and the board 
of the Fund for the Capitol Visitor Center for their essential 
contributions and their individual dedication in helping the 
Nation build a visitor center which will improve security while 
providing a much better educational opportunity for students 
and others who visit the Capitol Building.
    To assist in funding the visitor center, Congress 
authorized the Capitol Visitor Center commemorative coins. Over 
360,000 coins have been sold, and over $3.3 million has been 
raised for the purpose of constructing the Capitol Visitor 
Center.
    For nearly 200 years the Capitol Building has stood as the 
greatest visible symbol of our representative democracy. It is, 
and will remain, the workplace of our elected representatives, 
as well as a museum and a major tourist attraction. Since 1859, 
when the present House and Senate wings were completed, our 
country has undergone tremendous growth. Citizens of the United 
States, and now the world, visit the Capitol in increasing 
numbers. And even though the events of the fall of 2001 
resulted in a decrease in visitors, we already see that 
visitors will soon be at their highest levels once again.
    The 19th century design of the Capitol Building does not 
easily lend itself to tourists and cannot safely accommodate 
the numbers of visitors we are again expecting to experience. 
The Capitol Visitor Center will provide a safe, comfortable, 
and educational introduction to the Capitol Building.
    Following the World Trade Center and Pentagon tragedies, 
Congress appropriated sufficient funds to fully finance the 
construction of the Capitol Visitor Center. The Fund for the 
Capitol Visitor Center has ceased operation. And with full 
funding, the Capitol Preservation Commission has authorized 
construction. Pre-construction activities have been underway 
for several months. Excavation of the east front site will 
begin in mid-June 2002. The Capitol Visitor Center will be 
completed by January 2005.
    The Clerk of the House and Secretary of the Senate continue 
to chair weekly meetings of leadership staff, who are 
informally charged, on behalf of the joint leadership of 
Congress, with overseeing this project. Project staff, 
representatives of the Architect, the Capitol Police, 
contractors, and others, as appropriate, attend these meetings.
    And while construction of the visitor center will be 
disruptive, dirty, and noisy, we are confident that the 
American public and visitors and Congress will be proud of the 
new facility and pleased with the educational opportunities, 
the enhanced security, and the amenities it will provide 
everyone who visits the Nation's Capitol Building.

           STAFF OF THE OFFICE OF THE SECRETARY OF THE SENATE

    And finally, Mr. Chairman, I would like to say a word about 
the staff of the Office of the Secretary of the Senate. The 
events of last fall illustrated once again how valuable these 
people are to the Senate. The Secretary's legislative staff are 
almost irreplaceable in that one cannot just hire a legislative 
clerk or a parliamentarian or a bill clerk or an enrolling 
clerk. These people have years of training and experience. And 
the Senate would be hard pressed to conduct its business 
without them.
    The same is true for the staff of the disbursing office, 
the Office of Public Records, Interparliamentary Service, the 
Official Reporters of Debates, and the captioners. We all 
depend each day on the services provided by the document and 
printing services staff and those who work in the stationery 
and gift shops. We need to hire qualified people who are 
willing to make a career here in the Senate. And then we need 
to have personnel policies, a salary schedule, and benefits 
that will keep them here.
    Throughout the day on September 11, the Secretary's staff 
assumed responsibilities and helped out in any and every way 
they were asked. And during the anthrax incidents, those who 
were displaced went about their jobs and fulfilled the 
statutory obligations of this office without question and with 
a can-do spirit that I found quite remarkable.

                          PREPARED STATEMENTS

    They have earned recognition and thanks from the Senate and 
from me for their unwavering dedication to the United States 
Senate.
    Thank you.
    [The statements follow:]
                   Prepared Statement of Jeri Thomson
    Mr. Chairman, Senator Bennett and Members of the Subcommittee, 
thank you for your invitation to present testimony in support of the 
budget request of the Office of the Secretary of the Senate for fiscal 
year 2003.
    I am pleased to provide this statement to accompany the budget 
request and I am particularly pleased to be able to highlight the 
achievements of this Office during the past year.
                    fiscal year 2003 budget request
The Appropriations Request
    Mr. Chairman and Members of the Subcommittee, the budget request 
from the Office of the Secretary for fiscal year 2003 is $24,156,000, 
an increase of $161,000. Although the budget request for fiscal year 
2003 is essentially the same as the amount requested last year, there 
are some important differences in how next year's monies will be spent. 
These differences reflect several significant initiatives that 
ultimately will benefit every Senate office, and, I believe, the Senate 
as an institution.
The Mandated Systems: LIS and FMIS
    The two major mandated systems, the Legislative Information System 
(LIS) and the Financial Management Information System (FMIS), 
historically have been funded through multi-year appropriations. The 
funding for the LIS Augmentation Project began in fiscal year 2000. As 
former Secretary Sisco explained in his statement prepared for this 
Subcommittee in May of 2001, the overall objective of the Legislative 
Information System Augmentation Program (LISAP) is to implement 
Extensible Markup Language, or XML, as the data standard to author and 
exchange legislative documents among the Senate, the House, the 
Government Printing Office and other legislative agencies. Our program 
carries out the December 2000 mandate to the Secretary of the Senate 
and Clerk of the House from the Senate Committee on Rules and 
Administration and the Committee on House Administration.
    Last year, this Committee appropriated $7 million to fund LISAP. We 
are leading a team that includes staff from the Sergeant at Arms, the 
Government Printing Office, the Library of Congress, Senate Legislative 
Counsel, and our own Enrolling Clerk and we are working closely with 
the Clerk of the House so that the authoring tool we develop is 
compatible with, and hopefully identical to, the authoring language 
being developed by the House. The LISAP XML project is historic. I was 
Assistant Secretary when we embarked upon similar projects: automation 
of the production of the Congressional Record and electronic filing 
with the Government Printing Office, and automating the production of 
enrolled and engrossed bills. Like those projects, the LISAP project 
will change the legislative operation of the Senate.
    This year I am recommending an appropriation of $5 million for a 
multi-year program to upgrade and expand the Financial Management 
Information System (FMIS) of the Senate. The explanation and specific 
components of the project are described below, and in much more detail 
in the separate briefing book that the Disbursing Office has prepared 
for each Member of the Appropriations Committee. Briefly, with these 
funds our Disbursing Office will continue to modernize processes and 
applications to meet the continuing requests from Senate offices for 
efficiency, accountability, and ease of use. In addition, with this 
funding the Senate will essentially complete the process of preparing 
the Senate to produce financial statements that can be audited, as 
previously mandated by the Rules Committee.
    The multi-year funds appropriated in 1995 for the FMIS project have 
been spent and it is appropriate to request another funding installment 
for this critical Senate project. I believe it is very important once 
again for this Subcommittee to put into place a planned, strategic 
multi-year initiative for FMIS--and we have prepared a separate 
proposal for your review that outlines the goals of this initiative and 
the benefits to the Senate. This is the same process this Subcommittee 
used in 1995, when it appropriated $5 million for a multi-year 
financial modernization effort. Although that appropriation ended in 
2000, the Secretary's Office funded additional contracts each of the 
last two years from our salary and expense budget. A piecemeal approach 
to financial management modernization is less efficient and less cost 
effective than the kind of long term planned initiative that the 
Subcommittee put in place in 1995 and that we propose starting again 
next year.
    These are the five strategic initiatives the Disbursing Office will 
implement if the $5 million request is granted:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot project, we will implement new technology, including 
        imaging and electronic signatures, that will reduce the 
        Senate's dependence on paper vouchers. This will enable 
        continuation of voucher processing operations from any 
        location, in any situation;
  --Web FMIS--Requests from Accounting Locations.--We will respond to 
        requests from the Senate's many accounting locations for 
        additional functionality in Web FMIS. We have several specific 
        requests from the Rules Committee; we anticipate additional 
        requests from Senate offices for security management; and, we 
        have requests from Senate Offices for a series of new monthly 
        reports;
  --Payroll System--Requests from Accounting Locations.--We will 
        respond to requests from the Senate's accounting locations for 
        on-line, real time access to payroll data, the capacity to 
        project payroll more than twice a month, and the ability to 
        submit payroll actions online;
  --Accounting Sub-system Integration.--We will integrate Senate-
        specific accounting systems, improve internal controls, and 
        eliminate errors caused by re-keying of data. This includes 
        updates to the approval process, the ability to track not-to-
        exceed budget amounts, and contract tracking; and
  --CFO Financial Statement Development.--We will provide the Senate 
        with the capacity to produce auditable financial statements 
        that will earn an unqualified opinion.
    Each of these initiatives and the specific projects composing these 
initiatives is described more fully in the separate briefing book we 
have prepared for the Members of the Committee. The flexibility of 
multi-year funding assists the Secretary and the Disbursing Office in 
providing the long-range planning necessary to implement initiatives of 
this size and complexity. The previous similar FMIS funding strategy 
approved by this Committee was a key factor in its successful 
execution.
The Operating Budget
    I am recommending an increase of $506,000 in the Secretary's 
departmental operating budget. Beginning with the fiscal year 1997 
budget, the Secretary's departmental operating budget has remained 
static at $1,571,000, with a one-time exception in fiscal year 2001 
when the Committee added approximately $506,000 for an FMIS contract. 
For at least six years the Secretary's office operational systems, the 
critical infrastructure of the legislative and administrative services 
provided by the Secretary, have had minimal or no upgrades, and, as we 
know, six years is more than a lifetime in information technology. I am 
recommending approximately $506,000 (the same amount as was spent on 
FMIS in fiscal year 2001) be available in fiscal year 2003.
    The explanation of what needs to be done to bring the Secretary's 
departments the training, equipment and systems they need to do their 
jobs is detailed below. Having had static operating budgets since 1996 
has actually meant that the resources available to support the 
infrastructure of the Secretary's legislative, financial and 
administrative responsibilities have dropped, year-by-year, in real 
terms. These funds will begin to pay for the new systems and upgrades 
we have identified as critical for the Senate.
    The $506,000 in funds that I have recommended for the Secretary's 
operating budget include both recurring and non-recurring costs:
    The recurring expenses are for the Secretary's annual COOP training 
and preparations, estimated to be approximately $20,000 each year.
    The non-recurring expenses include the following:
  --New software (with accompanying hardware) for the Gift Shop. The 
        current software is so old it meets few, if any, of the current 
        standards for a point-of-sale retail business. Inventory 
        control, and therefore accountability, would be next to 
        impossible except for the extraordinary efforts of dedicated 
        staff. The Senate Gift Shop is a real business, supplying items 
        for Senate offices and staff, as well as visiting constituents 
        and the public. Senate offices, here and in the states, have 
        requested the ability to purchase online, both from the Senate 
        Gift Shop and the Stationary Store. The current systems in both 
        places do not have the capacity to meet the demand. Approximate 
        cost, including training, installation, integration of online 
        sales capacity, and a year of support, is $240,000.
  --The Stationary Room, like the Gift Shop, currently depends upon an 
        outdated computer program and hardware. The Stationary Room, 
        like the Gift Shop, should meet current sales, inventory and 
        accounting standards. After we upgrade the Gift Shop, we will 
        upgrade the Stationary Room software and hardware. By building 
        on our evaluation of the Gift Shop and using the same vendors, 
        we anticipate that the Stationary Room upgrade will cost less 
        than the Gift Shop's new system, approximately $75,000 during 
        the coming fiscal year.
  --The Curator needs to create microfiches of collection records, to 
        document not only the history and value of each object, but to 
        authenticate ownership and meet our COOP obligations. Standard 
        museum practices require archival copies for storage and 
        preservation. We have a fiduciary duty to and should be taking 
        the same care of the art and objects entrusted to the Senate, 
        and meeting the same standards of care applicable in any modern 
        museum. Approximate cost: $50,000.
  --The Official Reporters need new flat computer screens, which we 
        estimate will cost approximately $20,000.
  --The Senate Library's catalog should be available online to all 
        Senate offices. The current catalog program has this 
        capability, but implementation was delayed pending release of 
        new Oracle-based software and the scheduled replacement of the 
        old operating system. Approximate cost: $25,000.
  --The Senate's captioning system is now more than ten years old. The 
        system software is outdated, the computerized stenotype 
        machines are the original machines purchased in 1991, and are 
        no longer manufactured. Replacement parts for the stenotype 
        machines have become scarce and the present captioning system 
        lends itself to possible errors that are mechanical in nature. 
        There is a critical need to upgrade the Senate's captioning 
        system. There are only a small number of companies designing 
        and manufacturing equipment and software products for the 
        industry. It is the intent of the Secretary's office this year 
        to complete a study regarding the possible replacement of the 
        current Senate captioning system with a next generation system 
        and implement its recommendations. Approximate cost: $100,000.
    We will search for the most efficient and cost effective ways to 
meet each of these needs. We have set high standards for ourselves, as 
we do with each of our departments. This office has been a good 
steward, as shown with the previous FMIS funding and with the current 
LIS funds, we will continue to be careful with the taxpayer's monies 
and mindful of the Committee's trust.
    Members of the Subcommittee, this list is not exhaustive. Each 
department has been asked to review every system and process to 
determine what could be done better. This extensive review was delayed 
by September 11 and the anthrax incident, but we have continued the 
process. As this year progresses we may find more work that needs to be 
done to modernize those parts of the Senate's infrastructure for which 
the Secretary is responsible. We will not hesitate to bring that 
information to this Committee's attention, and seek the guidance of 
this Committee and the Committee on Rules and Administration.
                          legislative services
     september 11, 2001, evacuation and october 15 anthrax attack: 
                   continuity of operations planning
Partnership with the Sergeant at Arms
    Our response to September 11 and October 15, 2001, took the form of 
a direct, sustained and now permanent partnership between the Offices 
of the Secretary and the Sergeant at Arms. During and after the two 
biggest challenges of last year, the Senate's two principal officers 
have worked together, seamlessly, both in coordinating continuity of 
operations planning efforts after the September 11 attacks, and in 
managing Senate efforts to reopen the Hart Senate office building after 
the anthrax contamination.
Continuity of Operations Plans (COOP)
    After the events in the fall of 2001, it was obvious to us, as 
newly sworn officers of the Senate, that more needed to be done by 
every office of the Senate to prepare for continuing government 
functions during an emergency. The Senate's officers have been working 
together since that time to accomplish an extensive list of projects. 
The Sergeant at Arms, as the lead officer, will brief the Committee 
more thoroughly in his testimony. I will, however, brief the Committee 
on the status of emergency planning in the Office of the Secretary.
    Immediately after I took the oath of office, on July 12, 2001, I 
tasked the twenty-one individual departments within the Secretary of 
the Senate's operation to develop their Continuity of Operations Plans 
(COOP plans). A small emergency preparedness project was completed when 
I was Assistant Secretary and I have remained convinced of its 
importance. As Secretary, I wanted to ensure that each department had 
the ability to perform essential functions in the event of a disruption 
in normal business operations.
    The Departments in the Secretary's Office have finished their COOP 
plans. We've met in and tested offsite facilities. We have ordered 
equipment that the Departments of the Secretary's Office will need to 
assist the Senate in session in any location. With the help of Senate 
Legal Counsel and the General Accounting Office, we are preparing a 
manual that will describe the state-by-state replacement of Senators, 
should that be necessary.
    Each department has outlined a plan for the gradual restoration of 
operations which might be interrupted or postponed by an event, as well 
as identify requirements for operation at an alternative work site. The 
departments also were required to identify records, databases, 
equipment and supplies necessary to conduct essential functions and to 
make arrangements to duplicate and store essential items offsite or to 
make certain adequate arrangements were made to ensure timely 
replacement. COOP plans include maintenance schedules for records and 
databases, as well as a copy of the plan itself. The review of the 
departmental plans began in September, and every plan had been reviewed 
at least twice before the final departmental plan was approved.
    Information from all final departmental plans was integrated into a 
Secretary of the Senate plan by mid-February 2002. Following the 
creation of this document, a comprehensive inventory of all space under 
the control of the Office of the Secretary was undertaken and a vital 
records program, a training and testing exercise program, and 
maintenance schedule were developed and included in the final, 
comprehensive Office of the Secretary COOP plan. In coordination with 
the Sergeant at Arms, we are also assisting the bipartisan Senate 
leadership, Senate committees, and the 100 Senate offices in the 
development of COOP plans.
    Let me describe in detail some of the steps we have taken to put 
COOP training and plans in place:
            Template/Standard Document
  --Starting with the standard document that had been created for the 
        use of the SAA and SOS COOP planning, a Senate leadership 
        template, a committee specific template, and a personal office 
        template were created for use in the development of office COOP 
        plans.
            Training
  --Committee staff directors have been briefed on COOP goals and COOP 
        plan author training has been provided for all committee staff. 
        This training includes continuing validation and gap analysis 
        of all plans, which is essential prior to final integration 
        into the Senate-wide Operational Recovery Program. We are 
        working with the Joint Office of Education and Training (JOET), 
        to develop Senate wide COOP awareness and training capability.
            Coordination
  --Our goal is to complete the initial COOP process for all identified 
        Senate entities prior to the Memorial Day Recess 2002. An 
        August 2002 tabletop exercise has been scheduled to train staff 
        of the Secretary and SAA.
            Ongoing Projects
  --COOP briefing materials will be provided for Senator-Elect 
        Orientation for early December 2002.
                legislative services--department reports
Duties of the Secretary of the Senate
    As each of my predecessors has said in prior testimony before the 
Members of this Subcommittee, the Secretary's Office is directed by the 
Constitution, statutes, the rules, resolutions and precedents of the 
Senate, the directives of the Senate leadership, oversight and 
appropriating committees, and by the Office's own rich traditions and 
history. The Office, which began April 8, 1789, now employs 
approximately 230 employees in almost two-dozen departments.
    Today, an analyst might describe the Secretary as the Chief 
Information Officer of the Senate, responsible for disseminating 
legislative and administrative information.
    The Secretary also might be described as the Chief Operations 
Officer, responsible for the day to day financial and administrative 
operations of the Senate, from the parliamentarian to payroll, art in 
the Capitol to the Senate's Web site, the library to the historian, but 
always focused on the ability of the Senate and the Senators to carry 
out their constitutional duties.
    But perhaps the most important function of the Secretary is as 
Chief Legislative Officer, responsible for everything necessary to 
support the legislative activities of Senators and the Senate, the 
activities that make this democracy work, and the work that makes this 
democracy a model for the world.

                                                                CHART ONE: YEARLY COMPARISON OF THE SENATE LEGISLATIVE ACTIVITIES
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                           1988       1989       1990       1991       1992       1993       1994       1995       1996       1997       1998       1999       2000       2001
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.......................       1/25        1/3       1/23        1/3        1/3        1/5       1/25        1/4        1/3        1/3       1/27        1/6       1/24        1/3
Senate Adjourned......................      10/21      11/21      10/28     1/3/92       10/9      11/26      12/01     1/3/96       10/4      11/13      10/21      11/19      12/15      12/20
Days in Session.......................        137        136        138        158        129        153        138        211        132        153        143        162        141        173
Hours in Session......................   1,12648"   1,00319"   1,25014"   1,20044"   1,09109"   1,26941"   1,24333"   1,83910"   l,03645"   1,09307"   1,09505"   1,18357"   1,01751"   1,23615"
Average Hours per Day.................        8.2        7.4        9.1        7.6        8.5        8.3        9.0        8.7        7.8        7.1        7.7        7.3        7.2        7.1
Total Measures Passed.................        814        605        716        626        651        473        465        346        476        386        506        549        696        425
Roll Call Votes.......................        379        312        326        280        270        395        329        613        306        298        314        374        298        380
Quorum Calls..........................         26         11          3          3          5          2          6          3          2          6          4          7          6          3
Public Laws...........................        473        240        244        243        347        210        255         88        245        153        241        170        410        136
Treaties Ratified.....................         15          9         15         15         32         20          8         10         28         15         53         13         39          3
Nominations Confirmed.................     42,317     45,585     42,493     45,369     30,619     38,676     37,446     40,535     33,176     25,576     20,302     22,468     22,512     25,091
Average Voting Attendance.............      91.58       98.0      97.47      97.16       95.4       97.6      97.02      98.07      98.22      98.68      97.47      98.02      96.99      98.29
Sessions Convened Before 12  Noon.....        120         95        116        126        112        128        120        184        113        115        109        118        107        140
Sessions Convened at 12  Noon.........         12         14          4          9          6          9          2         15         12         31         17         25         10         12
Sessions Convened after 12  Noon......          5         27         17         23         10         15         17         12          7          7          2         19         24         21
Sessions Continued after 6 p.m........         37         88        100        102         91        100        100        158         88         96         93        113         94        108
Sessions Continued after 12 Midnight..          7          9         13          6          4          9          7          3          1  .........  .........  .........  .........          2
Saturday Sessions.....................          0          1          3          2          2          2          3          5          1          1          1          3          1          3
Sunday Sessions.......................  .........  .........          2  .........  .........  .........  .........          3  .........          1  .........  .........          1  .........
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

Offices in the Legislative Department
    The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators in carrying out their 
daily chamber activities as well as the constitutional responsibilities 
of the Senate. The department consists of eight offices, the Bill 
Clerk, Captioning Services, Daily Digest, Enrolling Clerk, Executive 
Clerk, Journal Clerk, Legislative Clerk, and the Official Reporters of 
Debates. Today, the Legislative Clerk acts as supervisor for the 
department providing a single line of communication to the Assistant 
Secretary and Secretary, and is responsible for overall coordination, 
supervision, scheduling, and cross training.
    The Legislative Department is fully staffed and employee morale is 
high. Each of the eight offices within the Legislative Department is 
supervised by experienced veterans of the Secretary's office. The 
average length of service in the Office of the Secretary of the Senate 
for legislative supervisors is 18 years. There is not one supervisor 
with less than 11 years of service. The experience of these senior 
professional staff is a great asset for the Senate.
    In managing legislative personnel, emphasis is continually placed 
on training for succession and continuity of the Senate's legislative 
business. Whenever and wherever possible, cross training is implemented 
among staff. For example, members of the Bill Clerk's office are cross 
training on the Senate floor with the Legislative Clerks. Instead of 
having three clerks who can call the roll and so forth, there are now 
four employees capable of performing at least the basic 
responsibilities of the Legislative Clerk on the Senate floor. At a 
minimum eight staffers will be involved in cross training throughout 
the legislative department this year.
    Legislative Information System (LIS).--The first session of the 
107th Congress was the second operational year for the new Legislative 
Information System (LIS). LIS is a mandated system (2 U.S.C. 123e) with 
the objective of providing desktop access to the content and status of 
all Senate legislative information and supporting documents. LIS now 
provides Senate users with immediate access to accurate and timely 
legislative information from a single source. The legislative clerks, 
working with staff from the technical operations staff of the Sergeant 
at Arms, have helped plan, design, test, and implement phases of LIS. 
During the past year, the legislative staff continued to monitor and 
evaluate data input screens, and provide valuable feedback to the 
technical operations staff of the Sergeant at Arms. The Bill Clerk, 
Daily Digest Editor, Executive Clerk, and Legislative Clerk devoted 
many hours to documenting over 200 ``Change Requests'' to enhance the 
new system with the intent of providing accurate, precise, timely, and 
user-friendly information to the LIS users.
    The excellent working relationship between the legislative clerks 
and the Sergeant at Arms' technical operations staff illustrates the 
working partnership we have developed with the Sergeant at Arms and 
contributes to the overall success of the project.
    Continuity of Operations Planning.--An overall COOP plan involving 
every legislative office is complete. The objective of such planning is 
to provide the legislative support required for the Senate to carry out 
its constitutional responsibilities should it become necessary for the 
Senate to conduct business in a location other than the Senate Chamber, 
and if necessary, with a new legislative staff. The legislative staff, 
like every other department in the Secretary's Office, will continue to 
review and update these COOP plans on a regular, annual basis. In fact, 
we have made it a part of each manager's annual review.
    Each legislative office has established and practiced emergency 
evacuation procedures. Each office has assembled emergency ``Fly-Away 
Kits'' containing materials that would allow for immediate continuity 
of Senate operations. Examples of some of the items contained in Fly-
Away Kits are roll call tally sheets, forms for various types of 
legislation, stenotype machines, audio recorders, and electronic discs 
containing information pertinent to the operations of the Senate.
    Vital Record Preservation.--The Secretary's overall COOP plan 
identifies data and information produced by the legislative staff as 
essential to the Senate's vital record preservation program. Today, 
data produced by each supervisor is included in a dual nightly 
replication process. The data is stored in two separate offsite 
facilities. Every two weeks a copy of the data is stored to a third 
offsite location. A major concern in developing a replication process 
was to secure engrossed and enrolled legislative data produced by the 
Senate Enrolling Clerk.
            Bill Clerk
    The Bill Clerk records the official actions of the Senate, keeps an 
authoritative historical record of Senate business, enters daily 
legislative activities and votes into the automated legislative status 
system, and prints all introduced, submitted and reported legislation. 
In addition, this office assigns numbers to all bills and resolutions.
    The Bill Clerk's Office is generally regarded as the most timely 
and accurate source of legislative information in the Senate. The Bill 
Clerk's ledgers, or ``Bill Books'', contain information on the 
legislative activity of the Senate, recorded directly from the Senate 
floor within minutes of Senate action. The ``Bill Books'' are part of a 
continuous historic record of Senate business, dating back to the 3rd 
Congress. Currently, the Office of the Bill Clerk, in conjunction with 
the technical operations staff of the Sergeant at Arms and the GPO, is 
working to apply technology to modernize the ``Bill Books'' process by 
developing a touch screen electronic bill ledger that will improve data 
entry and retrieval, increase portability and information security, and 
facilitate the production of a bound archival volume at the end of a 
Congress.
            Captioning Services
    Real-time captioning began in the Senate in response to the 
Americans with Disabilities Act. The Office of the Secretary began 
providing real-time captioning of Senate proceedings in 1991, ahead of 
the January 1992 deadline of the ADA, and continues to do so today. The 
Senate is fortunate to have a staff of five of the best and most 
experienced captioners in the country. Senate captioners are all 
Registered Professional Reporters (RPR) and have been certified to 
write testimony at 225 words per minute with 97 percent accuracy. 
Currently, the Senate captioners have an office accuracy rate average 
of above 99 percent.
    However, the Senate's captioning system itself is now more than ten 
years old. The system software is outdated, the computerized stenotype 
machines are the original machines purchased in 1991, and are no longer 
manufactured. Replacement parts for the stenotype machines have become 
scarce and the present captioning system lends itself to possible 
errors that are mechanical in nature. There is a need to begin the 
process of upgrading the Senate's captioning system. The captioning 
industry is very small. There are approximately 300 real-time 
captioners working in the United States. There are only a small number 
of companies designing and manufacturing equipment and software 
products for the industry. It is the intent of the Secretary's office 
this year to complete a study and begin implementing the 
recommendations of that study regarding the replacement of the current 
Senate captioning system with a next generation system.
    Closed captioning gets that name because the caption text is 
``closed'' or hidden within the broadcast signal. It is hidden and 
carried (encoded) on Line 21 of the Vertical Blanking Interval until it 
is detected and displayed for viewing by a closed caption decoder in 
the television set. The VBI is the black bar seen on older televisions 
when the picture would lose vertical hold. Beginning in 1994, 
television sets 13 inches and larger sold in the United States must 
have caption decoder technology built in. There are two basic ways a 
program is closed-captioned. Real-time, using specialized court-
reporting technology for live, televised events, and Off-Line, a post-
production method of captioning used for movies, documentaries, sit-
coms and other pre-recorded programs.
    Real-time is the method used to caption Senate Floor Debates. The 
Senators speak; the captioners listen with comprehension to understand 
what is being said contextually, and then write on a stenotype machine 
phonetic outlines of what they hear. The output of the stenotype 
machine is transmitted to a computer where the steno outlines are 
matched with a dictionary that outputs word parts, whole words or 
complete phrases that match the corresponding steno. This occurs with 
not only remarkable accuracy but with remarkable speed as well. 
Captions can be written, translated, inserted for broadcast, 
transmitted, decoded and displayed on a viewer's television set with a 
minimal delay, usually less than 1.5 seconds. Most of this delay is 
because the captioner is trying to understand what is being said so it 
can be written correctly in context.
    Real-time captioning is now 20 years old. It is the primary method 
of captioning television news and sports programming. FCC requirements 
for broadcasters to caption most of their daily schedule will be fully 
in place in 2006. These requirements impact broadcasters in large 
markets. These requirements have been phased-in beginning January 2000. 
Even with the increased number of hours of real-time captioning, the 
number of captioners has not increased in any significant way. There 
are still only about 150 people who real-time caption full-time in the 
English-speaking world, compared to the 35,000 people who are court 
reporters in the United States alone.
            Daily Digest
    The Daily Digest section of the Congressional Record provides a 
concise accounting of all official actions taken by the Senate on a 
particular day. All Senate hearings and business meetings (including 
joint meetings and conferences) are scheduled through the Daily Digest 
office and published in the Congressional Record.
            Enrolling Clerk
    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    Technology continues to change the work of the Enrolling Clerk. In 
1998 new computers doubled the speed at which bill pages were composed. 
The data retrieval system was changed during that year so the office 
could (1) pull bill files from the Government Printing Office by FTP 
(File Transfer Protocol) via the Internet, and, (2) rather than going 
through GPO for Legislative Counsel files, retrieve bill files directly 
from the Legislative Counsel computer with a direct internet 
connection. For the past year, the Enrolling Clerk has been an active 
and important participant in the LISAP/XML team and in the current 
phase of the XML project, development of an XML-based authoring 
application. The team believes that the Senate Legislative Counsel and 
the Enrolling Clerk are the first two offices that will be actually 
using the new authoring language that is being developed.
            Executive Clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties), which is published as the Executive Journal at the end of 
each session of Congress. The Executive Clerk also prepares the daily 
Executive Calendar as well as all nomination and treaty resolutions for 
transmittal to the President.
            Journal Clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Senate Journal as required by Article 
I, Section 5 of the Constitution. The Senate Journal is published each 
calendar year.
            Legislative Clerk
    The Legislative Clerk reads aloud bills, amendments, the Senate 
Journal, Presidential messages, and other materials when directed to do 
so by the Presiding Officer of the Senate. The Legislative Clerk calls 
the roll of members to establish the presence of a quorum and to record 
and tally all yea and nay votes. This office prepares the Senate 
Calendar of Business, published each day that the Senate is in session, 
and prepares additional publications relating to Senate class 
membership and committee and subcommittee assignments. The Legislative 
Clerk maintains the official copy of all measures pending before the 
Senate and must incorporate into those measures any amendments that are 
agreed upon by the Senate. This office retains custody of official 
messages received from the House of Representatives and conference 
reports awaiting action by the Senate.
            Official Reporters of Debate
    The Official Reporters of Debate prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The 
transcript of proceedings, submitted statements and legislation are 
transmitted, in hard copy and electronically, throughout the day to the 
Government Printing Office.
            Parliamentarian
    I am pleased to report that the Parliamentarian's Office is now 
fully staffed with four well-qualified employees.
    Last year, with the assistance of the Information Systems/Computer 
support staff of the Secretary, the Office of the Parliamentarian 
completed a project to electronically scan more than 11,000 documents 
that record precedents of the Senate that had existed only in paper 
format. This year, at our request, the GPO scanned and put into an 
electronic PDF file Riddicks' Senate Procedures. This PDF file and the 
documents scanned the year before greatly enhance the Senate's ability 
to operate at another location in the event of an emergency.
    The Parliamentarians advise the Chair, Senators and their staff as 
well as committee staff, House members and their staffs, administration 
officials, the media and members of the general public on all matters 
requiring an interpretation of the Standing Rules of the Senate, the 
precedents of the Senate, unanimous consent agreements, and the 
provisions of public law affecting the proceedings of the Senate. The 
Office of the Parliamentarian is responsible for the referral of all 
legislation introduced in the Senate, all legislation received from the 
House, as well as all communications received from the executive 
branch. The office works extensively with Senators and their staffs to 
advise them of the jurisdictional consequences of particular drafts of 
legislation, and evaluates the jurisdictional effect of proposed 
modifications in drafting.
    The office continued to work with other Senate offices throughout 
the year in developing a COOP plan to guarantee that the work that the 
office provides to the Senate will continue under any circumstances. 
The essential materials on which the work of the office depends have 
been identified and duplicate sets are available to cover any future 
contingencies. The office has prepared material outlining how the 
Senate would operate if it had to meet in emergency session.
            Counsel
    The General Counsel advises the Office of the Secretary and its 
departmental directors on a diverse array of issues ranging from 
contracts and torts to legislation and appropriations. Additionally, 
the General Counsel currently serves as the Senate point of contact for 
issues related to the Capitol Visitor Center, including the Fund for 
the Capitol Visitor Center and the Capitol Visitor Center Commemorative 
Coin. Beginning in mid-May, Counsel also will take on the 
responsibility, along with the Secretary's Security Office, for COOP 
planning and implementation.
    This past year, the General Counsel advised my office on the 
conduct of two GAO audits: one conducted on the Senate Gift Shop 
operations and another conducted on the Stationery Room operations. 
Both audits revealed generally good financial accounting, with some 
minor recommendations for improvements that have already been 
implemented.
            Senate.gov
    Overview: The Redesign Project.--One of the top priorities 
identified by the current Senate leadership is to redesign and greatly 
enhance the Senate's official Web site with the goal of making it the 
foremost site for educating the world about the Senate and its 
activities in our system of representative democracy. In September 2001 
we entered into a contract with >design, Inc., to provide an action 
plan and cost estimate for redesigning the site. After considering the 
amount of current content on the Web site, and the anticipated addition 
of extensive educational content, the report recommended the 
installation of a Web Content Management System.
    We have begun a major project, in partnership with the Sergeant at 
Arms, to implement the report's recommendations. This project can be 
considered part of the LISAP project; a major component of the upgrade 
will be the ability, through the Content Management System, of the site 
to read and search XML-tagged content, including the legislative 
documents that Senate offices will be creating with the new XML-based 
authoring tool under development. Senate.gov should be one of the best 
government Web sites in the world. Senate.gov should be the first stop 
the public makes when seeking information about the Senate. But just as 
important, Senate.gov should have information that every Senate office 
can use--to help constituents learn about legislation, the Senate, or 
plan their trip to Washington, D.C., contact their Senator, and 
eventually through video, experience the Senate.
    The Webmaster for the Office of the Secretary designs, develops and 
maintains Senate.gov, our public site, the Secretary's pages on 
Webster, and the Secretary's intranet, to provide Senate staff, and to 
a lesser degree the general public, access to those administrative, 
legislative, and financial services that are the responsibility of the 
Secretary of the Senate. Senate.gov is already a key component of 
communication in the Senate and was one of the principal Senate staff 
communication tools post-September 11 and post-October 15, with 
continually updated Hart building information, medical updates, and 
meeting notices.
    The Senate.gov Team.--A team of Senate staff led by the Office of 
the Secretary, in partnership with the Office of the Sergeant at Arms, 
and with the assistance of the Rules Committee, developed a Statement 
of Work to be used in a solicitation for a Web Content Management 
System. On December 10th, 2001, a Request for Proposals (RFP) was 
published in Commerce Business Daily. An evaluation team consisting of 
staff from the Office of the Secretary and the Sergeant at Arms spent 
four weeks evaluating the responses. Technical and managerial 
representatives read the top contenders and oral presentations were 
scheduled and held with vendors.
    After an extensive procurement process, the Office of the Secretary 
has recommended to the Rules Committee that we enter into a contract 
with Headstrong Public Sector, Inc. to build a Web Content Management 
System (WCMS) for the Senate Web site. Headstrong can build the WCMS 
using a Documentum product that meets our current requirements and will 
scale to accommodate future enhancements. Headstrong has extensive 
experience in the government sector and Documentum is a leader in 
providing content management solutions. The Senate's Legislative 
Information System (LIS) is based on Documentum.
    The new Web Content Management System will allow content providers, 
primarily, but not exclusively, in the Office of the Secretary, to 
author and post content to the Web site with little or no knowledge of 
the Web formatting language, HTML. The Senate also included in the RFP 
a required option to have the vendor describe, analyze and price 
formatting or recognizing the structure of Senate Web content using 
XML. Headstrong's proposal included an excellent response to this 
option and that work has been included in the scope of the project. 
Having content in an XML format provides maximum flexibility; 
information can be posted to the Web site, printed in a brochure or 
report, or sent to a wireless device, without having to change the data 
for each event. Structured data, like XML-tagged data, is also easier 
to import or migrate to new systems if the need arises at a future 
time. Headstrong also will provide the Senate with graphical and 
navigational design assistance to create a new look and feel to the 
Senate Web site. Developing the Web site design requires conducting 
extensive usability testing and Headstrong can provide expertise in 
this area as well.

              Using www.senate.gov As A Communication Tool

    On October 17th, 2001, the Hart Senate Office Building was closed 
due to anthrax contamination. Thousands of Senate staff were displaced, 
many working from home or other off-the-``Hill'' locations. Under these 
circumstances, the normal methods of Senate internal communication were 
no longer viable. www.senate.gov was identified as an acceptable means 
of communicating important medical and logistical information to staff. 
The first notice to Senators and staff was posted on October 17th. 
Almost 50 notices were posted over the following weeks assuring that 
Senate staff had important information they needed as soon as it was 
available.
    Many areas of the Web site were updated and new information added 
as the 107th Congress unfolded. The public was very interested in 
following the decisions being made as the Senate organized based on a 
50/50 party split. All existing Web pages in the Senate History section 
of Senate.gov were updated in January 2001, and then again in June 
2001, to reflect the changing division of parties in the Senate. 
Several new statistical tables were added and the ``Senate History 
News'' feature was created and updated regularly to bring an historical 
context to current events, and to guide visitors to relevant pages on 
www.senate.gov. Finally, the Historical Office created a ``Quick 
Reference'' page to help visitors more rapidly locate the information 
they seek.

               Additional Enhancements to www.senate.gov

    Nearly all of the 1,864 Senate entries included in the Biographical 
Directory of the U.S. Congress now include a photo or other image of 
the member. A new photo exhibit--``Breaking New Ground: Women in the 
Senate''--chronicles key moments in the history of female senators, and 
accompanies the Arthur Scott photo exhibit. The transcripts of 
additional oral history interviews were included on the web site, 
bringing the total to fifteen (consisting of a total of 3,980 
transcript pages). New features have been added as well, including the 
extensive Institutional Bibliography of the U.S. Senate, a compilation 
of more than six hundred citations of scholarly books and articles 
about the U.S. Senate, 1789 to the present. Improvements to the Roll 
Call Vote Feature were completed in April 2001. New procedures were 
developed to allow the generation of the Roll Call Vote menus and 
individual vote pages directly from the LIS/DMS for posting on 
www.senate.gov. Improvements also were needed in the formatting and 
descriptive information provided for the votes. The Roll Call Vote 
tables list votes in chronological order by vote number with links from 
the vote number to the tally for that vote. Users could not tell from 
the vote table or the vote tally page what the vote was about. 
Improvements were made to the individual vote tally pages by adding the 
``Measure Title'' for Bills and the ``Statement of Purpose'' for 
Amendments and linking the measure number to the Thomas Bill Summary 
and Status File. In late 2001 development began to improve the 
information provided in the Vote Tables as well. Descriptions of the 
measure as well as links to the Bill Summary and Status file were 
added, and the formatting of the tables was changed to enhance 
readability.

                           E-Mail Statistics

    Mail to the Webmaster has increased from 250 messages a month in 
previous years to an average of 450 messages a month. The majority of 
the mail to the Webmaster contains questions on where to find 
information on the web site and on search strategies for tracking 
legislation online. The number of queries from students continues to 
increase, as does the number of messages from outside the United 
States, particularly foreign students studying the United States 
Government.

           Secretary Staff Intranet (Secretary's Office Only)

    An intranet for the Office of the Secretary is being developed. The 
intranet will provide a secure place for disseminating information and 
services to all staff of the Office of the Secretary, as well as serve 
as a ``meeting place'' for staff to share information and ideas. Each 
Department will be able to ``post'' information. A prototype of the 
Secretary's intranet has been developed and content of interest to 
Secretary staff has been identified for initial deployment. This 
content includes: information on computer support and support staff 
contact information; training resources for Secretary employees; a link 
to the Library's collection catalog; an area for staff to post reports 
on conferences and seminars they've attended; job vacancy 
announcements; emergency planning information; links to reference 
materials; scheduling information; and, messages to staff from the 
Secretary. Most of this information is already in electronic format and 
therefore requires minimal development effort. Prior to web site 
deployment, policy guidelines on posting to the Web site will be 
written, approved and disseminated. The first release of the 
Secretary's intranet site will be available in April.
              administrative services--department reports
Conservation and Preservation
    The Conservation and Preservation office develops and coordinates 
programs directly related to the conservation and preservation of the 
Senate records and materials for which the Secretary of the Senate has 
statutory authority. Current initiatives include deacidification of 
paper and prints, phased conservation for books and documents, 
collection surveys, and exhibits. This office continues to assist 
Senate offices with conservation and preservation of documents, books, 
and various other items. As mandated in the 1990 Senate Library 
Collection Condition Survey, the Department continues to conduct an 
annual treatment of books identified by the survey as needing 
conservation or repair. In 2001 conservation treatments were completed 
for 110 volumes of a 7,000-volume collection of House Hearings. 
Specifically, treatment involved recasing each volume as required, 
using alkaline end sheets, replacing acidic tab sheets with alkaline 
paper, cleaning the cloth cases, and replacing black spine title labels 
of each volume as necessary. The office also assisted the Senate 
Library with five exhibits located in the Senate Russell building 
basement corridor.
    The Department works on special projects in addition to ongoing 
conservation and preservation requirement. For example, the office 
fabricated speech holder boxes, leather notebooks and framed items for 
the Leader's Lecture Series, matted and framed items for the Inaugural 
Committee, and embossed more than 1,000 Impeachment Books. The office 
assisted the Senate Curator's Office with the measurement, custom 
fitting, and installation of heavy-gauge plastic for 10 Senate Chamber 
desks, in order to protect the historic signatures inscribed in each 
drawer. And for more than twenty-one years the office has bound a copy 
of Washington's Farewell Address for the annual Washington's Farewell 
Address ceremony, in 2001 a volume was bound and read by Senator George 
Allen; in 2002 a volume was bound and read by Senator Jon Corzine.
    During 2002, the office will continue with the preservation work on 
the approximately 4,372 remaining volumes of the Senate Library 
collection of House Committee Hearings. They will also monitor the 
temperature and humidity in the Senate Library storage areas and other 
Senate collection storage areas. Beginning this year that latter task 
will be organized with written schedules and checklists. The Office is 
also working on preserving the Appropriation Bills from 1877-1943. 
Approximately 65 books are done; some 200 books remain to be repaired. 
We will finish this project this year. The office will also continue 
deacidifying the Office of the Senate Curator print collection.
Curator
    The Office of Senate Curator, under the direction of the Senate 
Commission on Art, administers the museum programs of the Senate for 
the Capitol and Senate office buildings. The curator and staff suggest 
acquisitions, provide appropriate exhibits, engage in research, and 
write and edit publications. In addition, the office studies, 
identifies, arranges, protects, preserves, and records the historical 
collections of the Senate, including paintings, sculpture, and 
furnishings, and exercises supervisory responsibility for the chambers 
in the Capitol under the jurisdiction of the Senate Commission on Art. 
All records of research and documentation related to these areas of 
responsibility are available for use by Members' offices, the media, 
scholars, and the public. With the establishment of the United States 
Capitol Preservation Commission, the Senate Commission on Art has 
become the designated recipient of objects with Senate association 
received by the Preservation Commission. The Commission is tasked to 
``provide to the Capitol Preservation Commission such staff support and 
assistance as the Preservation Commission may request.''
            Collections: Commissions, Acquisitions, and Management
    The Senate Commission on Art approved the commissioning of several 
significant portraits of Senators for the Senate Collection in 2000, 
and in 2001 artists were selected for four of these images: Senators 
Arthur Vandenberg (Republican-Michigan, 1928-1951) and Robert Wagner 
(Democrat-New York, 1927-1949) for the Senate Reception Room, and 
Senators Bob Dole and George Mitchell for the Senate Leadership 
Portrait Collection. Portraits of Senators Blanche Kelso Bruce and 
James Eastland, previously approved by the Commission, were completed 
and will be hung in the Senate wing of the Capitol. The portrait of 
Senator Margaret Chase Smith is scheduled to be completed in 2002.
    In addition to these commissioned portraits, a number of 
significant works were acquired for the Senate Collection. These 
included eight prints for the Senate's collection of historical 
engravings and political cartoons. Among the most important works 
purchased was a rare 1848 engraving by Augustus Kollner of the Senate 
Chamber, and an 1852 engraving of Andrew Jackson by Thomas Welch 
related to the Thomas Sully painting in the Senate Collection. The 
Senate's study collection of nineteenth and early twentieth century 
images of the Senate and Capitol comprises over 1,260 prints; it is one 
of the most extensive collections on the subject in the country. In 
addition, the Senate acquired two historic cast iron urns for Room S-
219, and two porcelain platters and a plate used by the Senate 
Restaurant around 1920. The 2001 Presidential Inauguration provided an 
opportunity to continue the active collecting of items from 
contemporary Senate events; the Curator's Office acquired copies of 
invitations, menus, official badges, glassware, and china from the 
inauguration. The Senate has preserved little from past inaugurations, 
and thus it is important to save such objects for future generations.
    In the area of museum automation, all collections data was 
successfully migrated into a new collections management database 
system. Data clean up and reconciliation began in 2001, and continues. 
Additionally, the process of evaluating fields in the Senate Collection 
database was initiated in order to provide field definitions and data 
standards. Future database work will include creating reports and 
viewing screens for use by all staff in the office.
    Renovations to the office's archival storage areas were completed. 
Staff worked with the Architect of the Capitol's Paint Shop and an 
outside contractor to prepare the floor and apply a durable epoxy floor 
paint; install and test a new fire suppression system; and purchase 
museum quality metal cabinets for the storage of objects not on 
permanent display. These items were placed in the cabinets using a 
systematic methodology so that location and retrieval is effortless. A 
complete inventory was conducted for these approximately 2,000 objects. 
The museum quality cabinets now installed in the rooms provide the 
proper environment for preservation and protection of the Senate 
collections.
            Emergency Preparedness
    In the area of emergency preparedness for the Senate's historic 
collections, the Curator's Office continued to work closely with the 
U.S. Capitol Police and has become an active participant in their 
Critical Incident Command Group. A preliminary draft for an Emergency 
Preparedness Plan for the collection was prepared and will be revised 
annually. The plan outlines a series of actions and regular monitoring 
to reduce the risk of a disaster and damage to the Senate collections 
in the Capitol and Senate Office Buildings, and establishes procedures 
for salvaging Senate art, historic objects, and significant materials 
damaged as the result of a disaster.
    With the discovery of anthrax in October in the Hart Senate Office 
Building, the Curator's Office worked closely with EPA officials and 
museum curators from the Smithsonian Institution, National Gallery of 
Art, and Library of Congress to determine the most appropriate care for 
cultural property located in the building during the chlorine dioxide 
gas remediation process. Many of these cultural artifacts were on loan 
from museums, public institutions, and private individuals and required 
a high standard of care, which included consideration of environmental 
conditions, security, and protection from all possible damaging 
materials. Tests were conducted by EPA using the chlorine dioxide gas 
on a variety of art and organic materials, and conservators carefully 
considered the issue. To protect and isolate the objects during 
remediation, some were carefully moved by members of the Secretary's 
Security Office and Coast Guard Strike Team.
    The Curator's Office worked closely to train the team in museum 
standards for the handling of art. The objects underwent 
decontamination, cleaning, and testing before being placed in specially 
built storage spaces located in the Dirksen Senate Office Building for 
protection during the remediation process. Following the remediation 
and rehabilitation of the building, the objects were reinstalled by the 
Curator's Office. The Curator's staff also participated in training 
sessions for the Capitol Police regarding the care and protection of 
art in the Capitol. The staff continues to educate the housekeeping 
personnel on maintenance issues related to the fine and decorative arts 
collections.
            Conservation and Restoration
    A total of 23 objects received conservation treatment in 2001. 
These included two historic clocks, six 1909 Russell Senate Office 
Building chairs, and fifteen Senate Chamber desks. The treatment of the 
six historic chairs from the Russell Building is nearly complete. The 
chairs will serve as prototypes to demonstrate original finish and 
upholstery methods, and the refinishing process will produce a detailed 
protocol treatment for use by the Senate in restoring all 1909 Russell 
chairs to their historic appearance. The office continued with the 
Senate Chamber desk restoration program, which began in 1997, and 15 
additional desks received conservation treatment. To date, nearly one 
half of the Chamber desks have been professionally restored.
    Research continues on the furniture in the Old Supreme Court 
Chamber, now under the jurisdiction of the Curator. While the chamber 
was restored in 1975, new information and knowledge of period 
furnishings and decorative arts has led to a reevaluation of the 
restoration. Part of this five-year project is to review the current 
furnishings in the Court, undertake appropriate and necessary 
conservation of these objects, and locate any missing items. 
Approximately half of the furniture in the room is original to the 1837 
period.
            Historic Preservation
    The addition of an Historic Preservation Officer to the staff in 
October 2000 allowed the Office of Senate Curator to make significant 
advancements in the development of a Senate Preservation Program. In 
order to initiate such a program, the Curator's Office contracted with 
an historical architect to develop a series of preservation program 
recommendations. His assessment was circulated along with a 
Preservation Program Development Plan, drafted by the Curator's Office. 
Many of the substantial, program-defining documents have been completed 
and the others are currently under review.
            Publications and Exhibitions
    The text for the Senate's extensive catalog entitled, The U.S. 
Senate Fine Art Collection was completed, and material for the 
conception and layout stages of the publication process was submitted 
to the graphic design section of the Government Printing Office. We 
expect to receive the preliminary design concept back from GPO this 
month (April). Several brochures were reprinted during 2001, including 
The Old Senate Chamber, The Old Supreme Court Chamber, The Vice 
Presidential Bust Collection, and The Senate Vestibule. In addition, 
the office published a new brochure, The U.S. Senate Leadership 
Portrait Collection. The Office of Senate Curator also continued to be 
a significant contributor to Unum, the Secretary of the Senate's 
newsletter.
    In January the Office of Senate Curator installed I Do Solemnly 
Swear, an exhibition of presidential inauguration images. One half of 
the exhibit features images drawn from the Senate's collection of 
historic engravings, and illustrates the history of presidential 
inaugurations from the 1850s to the early twentieth century. The second 
half of the exhibit features a photographic diary of Inauguration Day 
2001, and re-creates a table at the Inaugural luncheon using actual 
artifacts collected from the 2001 luncheon.
            Policies and Procedures
    Working in conjunction with the Secretary's General Counsel, the 
Office of Senate Curator developed rules governing the functions of the 
Senate Commission on Art. These rules, authorized by the Commission's 
enabling legislation, help to codify policies and streamline the 
functions of the Commission by establishing lines of authority and 
managerial practices. In addition to the Commission rules, the 
Commission's legislation was updated to properly reflect legislative 
history, and to place the Old Supreme Court Chamber officially under 
the jurisdiction of the Commission on Art. The legislation has been 
adopted as part of the Legislative Branch Appropriations bill in 2001.
    A draft Collections Management Policy governing the museum 
practices of the Office of Senate Curator has been completed. Through 
the Collections Management Policy, existing procedures for 
acquisitions, preservation, documentation, loans, security, inventory, 
and access are incorporated into a cohesive structure will form the 
basis for the Office of Senate Curator's stewardship of the Senate 
collections under its care. The office also drafted and circulated a 
Preservation Policy, Preservation Plan, and Preservation Procedures. 
These documents were created in partnership with the Office of the 
Clerk of the House of Representatives and the Office of the Architect 
of the Capitol.
    The Preservation Policy defines the stewardship role, 
responsibilities, and preservation philosophy regarding the 
preservation of the Capitol and Congressional Office Buildings. The 
policy applies to the decorative, historical, and architectural 
elements of those buildings. The Preservation Plan interprets the 
Preservation Policy and applies its philosophy and principles to 
individual spaces and objects. The Preservation Procedures document 
details the chain-of-command, decision-making authority, and 
responsibilities employed in all interventions at the Capitol and 
Congressional Office Buildings.
            Senate Art on the Web
    The Senate Art Web site was expanded to include a section on 
``recent acquisitions,'' and the site as a whole continued to be 
updated and improved. New efforts in 2001 focused on expanding office 
participation in providing content for the site. To this end, several 
additional staff members began training in HTML and Web posting. Work 
on the Senate Art Web site was facilitated by the installation of a new 
Macintosh G-4 workstation that upgraded the office's ability by 
providing for photonegative and transparency scanning. The Curator's 
office is also an active participant in the redesign efforts for the 
Senate Web site, www.senate.gov. Additionally, the Prints and 
Photographs section of the Senate Art Web site was redesigned to 
provide easier access, more flexible, systematic organization, and to 
prepare the information for efficient incorporation in the redesigned 
Senate.gov site.
            Objectives for 2002
    Projects in 2002 include continuing the restoration of the Senate 
Chamber desks, with an additional 15 desks to be completed during the 
August and fall recess periods, and survey and treatment 
recommendations for the historic over-mantel mirrors on the Senate side 
of the Capitol. The Office of Senate Curator will work to fully develop 
a Collection and Historic Structures Care Manual. The manual will 
provide basic, practical information needed to enable non-curatorial 
staff within the Capitol complex to plan and implement sound 
collections care and building maintenance programs. The primary purpose 
of the manual is to teach specialized handling practices, identify 
acceptable repair, maintenance, and care treatments, and establish 
necessary monitoring and maintenance schedules. Additionally, the 
office will work to update the Disaster Preparedness Plan. Together 
these two manuals will serve as a front-line defense against damage or 
misuse of collections objects and historic structures.
    The registrar and associate registrar will continue efforts to 
reorganize and edit the collections management database so that the 
office will have a user-friendly database tailored for multiple users. 
In addition, digital images of objects in the collection will be added 
to the database for reproduction and reference purposes, which will in 
turn help protect and preserve the objects for posterity. A new system 
for registering all objects that come into the Curator's Office will be 
instituted to record and track objects regardless of their accession 
status. Work will continue on streamlining data collection during the 
inventory process and to implement a regular inventory schedule.
    The Curator's Office will work toward the approval and 
implementation of the Preservation Policy and Preservation Procedures. 
This includes the establishment of an in-house Preservation Team and a 
Preservation Advisory Panel. The office will complete the final draft 
of the Preservation Plan, and outline a strategic plan for its 
implementation. The Curator's Office will continue to provide 
assistance with preservation issues related to several Architect of the 
Capitol Senate projects. The office will also develop a plan and 
approach for generating a comprehensive Historic Structures Report (to 
be completed in phases), and work to accomplish the top priorities 
identified in that plan. Work will continue on the re-examination of 
the restoration of the Old Supreme Court Chamber and, in conjunction 
with other policy-making efforts, a standard policy governing the use 
of the two historic chambers will be implemented.
    Publications scheduled for 2002 include The U.S. Senate Fine Art 
Collection, and brochures on the history of the Democratic and 
Republican Leadership Suites, the Appropriations Committee, Room S-219, 
and Isaac Bassett, a nineteenth-century Senate employee who served for 
more than 60 years. Reprinting of publications scheduled for 2002 
include The Senate Vestibule, The Leadership Portrait Collection, and 
The United States Congress and Capitol, A Walking Tour Handbook, Volume 
I and II. The upcoming year will also see the installation of the 
Constantino Brumidi exhibit in the Brumidi Corridors of the Capitol.

     CHART TWO: OFFICE OF THE CURATOR PUBLICATION PRINTING SCHEDULE
                        (Revised: April 11, 2002)
------------------------------------------------------------------------
     PUBLICATIONS TO BE PRINTED                EXPECTED DELIVERY
------------------------------------------------------------------------
Senate Leadership Portrait            Delivered on February 15, 2002
 Collection.
The Senate Vestibule................  Delivered on March 20, 2002
The United States Congress and        May 2002
 Capitol, A Walking Tour Handbook,
 vol. 1.
The United States Congress and        May 2002
 Capitol, A Walking Tour Handbook,
 vol. 2.
The Republican Leadership Suite.....  June 2002
Room S-219..........................  June 2002
The Senate Appropriations Committee.  August 2002
The Democratic Leadership Suite.....  August 2002
Isaac Bassett.......................  September 2002
The U.S. Senate Fine Art Collection.  October 2002
------------------------------------------------------------------------

Education and Training Office
    The Sergeant at Arms and the Secretary of the Senate share 
responsibility for the Joint Office of Education and Training. The 
Sergeant at Arms and I agree on the importance of ongoing training and 
education programs for our staff and for all Senate offices and I share 
his pride in the quality of the staff in our office. The Joint Office 
of Education and Training provides employee training and development 
opportunities for all 7,000 Senate staff both in Washington D.C. and in 
the states. There are three branches within the department. The 
technical training branch is responsible for providing technical 
training support for approved software packages used in either 
Washington or the state offices. The computer training staff provides 
instructor-led classes; one-on-one coaching sessions; specialized 
vendor provided training; computer based training; and informal 
training and support services. The professional training branch 
provides courses for all Senate staff in areas including: management 
and leadership development, human resource issues and staff benefits, 
legislative and staff information, new staff and intern information. In 
addition, the Health Promotion branch provides seminars, classes and 
screenings on health related and wellness issues. This branch also 
coordinates an annual Health Fair for all Senate employees and two 
blood drives each year.
            Training Classes
    The Joint Office of Education and Training offered 612 classes in 
2001. More than 4,900 Senate employees participated in these classes. 
Of the above total, in the Technical Training area, 291 classes were 
held with a total attendance of 1,638 students. An additional 461 staff 
received coaching on various software packages and other computer 
related issues. In the professional development area 321 classes were 
held with a total attendance of 3,292 students. Individual managers and 
supervisors are also encouraged to request customized training for 
their offices on areas of need. The Office of Education and Training is 
available to work with Senate office teams on issues related to team 
performance, communication or conflict resolution. During 2001, the 
office filled 51 requests for special training or team building. These 
special sessions were attended by more than 500 Senate staff. 
Professional development staff traveled to seven State offices to 
conduct specialized training/team building during the year. Technical 
training staff also traveled to seven State offices to conduct computer 
training. In the Health Promotion area, more than 600 Senate staff 
participated in Health Promotion activities throughout the year. These 
activities included: cancer screening, bone density screening and 
seminars on health related topics. Additionally, 843 staff participated 
in the Annual Health Fair held in October. More than 300 Senate staff 
participated in two blood drives.
            State Training
    Since most of the classes that are offered are only practical for 
D.C.-based staff, the Office of Education and Training worked with the 
Office Manager's Council and selected State Directors to develop a 
curriculum for Senate staff from state offices. This training, entitled 
``State Fair'', began in March 2000. This year's program was open to 
any staff member in a state office and the program was divided into 
four tracks: Casework, Outreach, Management Development and Computer 
Skills. Topics included: Public Speaking; Motivation; Managing Change; 
Ethics; Legalities of Casework; Letter and Report Writing; Delegation 
Skills; Stress Management; Myers-Briggs Type Indicator; Developing a 
High Performing Teams; Conflict Management and Performance Management. 
The program was expanded to four days in length in 2001. One hundred 
and sixty-four State office staff participated in the three State Fairs 
that were held in March, June and September of 2001.
            Response to Special Events
    As a result of the terrorist attack in September and the anthrax 
incident in October, the office provided Senate staff with special 
briefings and educational sessions. We coordinated 16 special briefings 
and educational programs during October and November of 2001 to answer 
the many questions staff had about personal safety and health. These 
sessions included medical briefings, individual coping skills 
briefings, sessions for managers to help their staff cope and safe mail 
handling sessions.
Employment Counsel
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership of the Senate in 1993 after enactment of the Government 
Employee rights Act, which allowed Senate employees to file claims of 
employment discrimination against Senate offices. With the enactment of 
the Congressional Accountability Act in 1995, Senate offices are 
subject to the requirements, responsibilities and obligations of eleven 
employment laws. The SCCE is charged with the legal representation of 
Senate offices in all employment law matters at both the administrative 
and court levels. In addition, on a day-to-day basis, the SCCE provides 
legal advice to Senate offices about their obligations under the 
employment laws.
    The SCCE has implemented two electronic systems that put the office 
at the forefront of electronic offices. First, the SCCE has installed 
and implemented a comprehensive document management system. The system 
profiles and indexes every document in the office, regardless of 
whether the document was created internally or received from an outside 
source. Thus, the office maintains all-electronic files. Documents can 
be quickly located by conducting searches by, e.g., date, author, or 
subject matter, as well as by conducting Boolean searches in full text. 
The system saves hours of time by eliminating electronic directory/
folder-type searches, and filing cabinet searches. It also is 
instrumental in preserving institutional knowledge. Second, the SCCE is 
converting to a ``paperless'' office. It has completed Phase I and part 
of Phase II of the 3-phase process, which involves scanning and the use 
of an Optical Character Recognition system for every document the 
office receives from an outside source. The use of OCR technology 
allows for computerized searches of documents.
    The reasons the SCCE is converting to a paperless office are 
fourfold. First, the SCCE saves a significant amount of office space 
and copying time because it no longer copies, distributes and stores 
numerous hard copies of documents for the use of a staff member. If an 
employee needs a document, he/she accesses it electronically. Second, 
documents can be located easily through a word search, which saves 
time. Third, staff members are able to access documents from remote 
locations, such as a courtroom. Fourth, staff members are able to file 
documents electronically with the courts, which several courts, 
including those in D.C., now require. In addition to these advantages, 
an unanticipated advantage of the system occurred during the closing of 
the Hart building, which is where the SCCE is located. Because the 
office maintains electronic files, staff was able to access all office 
files electronically, even though the staff could not physically enter 
the office. This allowed the office to remain fully operational during 
the Hart closing.
Gift Shop
    I am pleased to inform this Committee that the Gift Shop has 
completed its first business plan. The business plan development 
process identified the immediate and critical need to upgrade the Gift 
Shop's automated retail systems. The plan also includes an analysis of 
the benefits of online sales which would be made available, first 
through an internal intranet, to staff and state offices, and, if 
authorized, via the Internet, on www.senate.gov, to the public.
    The Gift Shop provides products and services to Senators, staff, 
constituents, and the many visitors to the U.S. Capitol complex. 
Products include a wide variety of souvenirs, collectibles, and fine 
gift items created exclusively for the U.S. Senate. Services include 
special ordering of personalized products and hard-to-find items, 
custom framing, gold embossing, engraving, and shipping. Additional 
special services include the distribution of educational materials to 
tourists and constituents visiting the Capitol Building and Senate 
Office Buildings.
    The Senate Gift Shop was established under administrative direction 
and supervision of the Secretary of the Senate in October 1992, 
(U.S.C., Title 2--Chapter 4). The Administrative and Special Order 
Office is located in the Dirksen Building. The main Senate Gift Shop 
store is located near the Senate Subway. A smaller Gift Shop counter is 
located in the Capitol Building. The on-site warehouse and the 
engraving department are located in the Hart building. The Gift Shop 
warehouses much of its overstock in two off-site storage facilities. 
The Capitol Gift counter will relocate to a new site in the Capitol 
Visitor Center in 2005 and be renamed the Capitol Visitor Center Senate 
Gift Shop. This will not affect the Gift Shop outlet located in the 
basement of the Dirksen Building. The CVC Senate Gift Shop will be 
located on the main level of the CVC.
            Replacing Aging Computer System
    One of our primary goals is to purchase a system to replace the 
current software/hardware operating and retail systems used by the Gift 
Shop. Our current software application, Basic Four (shared with the 
Stationery Room) is more than 20 years old and no longer meets the 
increasingly complex needs of the Gift Shop. We are currently working 
with the Customer Support Division within the Office of Support 
Services under the Sergeant at Arms to identify the most appropriate 
``shelf package'' available that can be tailored to meet the special 
technical requirements of Senate Gift Shop operations. This ``shelf 
package system'' not only will need to meet the Gift Shop's current and 
near-future requirements, but also will be capable of accommodating 
add-on features that could include sales activities at free-standing 
kiosks and from an E-Commerce Web site. I would like to thank the 
Sergeant at Arms for his support of this project. SAA staff is finding 
the software products that would be compatible with hardware the Senate 
already uses, setting up the demonstrations, and continues to provide 
invaluable expert advice.
            A Summary of Gift Shop Accomplishments:
    The 2001 Official Congressional Holiday Ornament.--The sale of the 
2001 Official Congressional Holiday Ornament was a great success. This 
most recent addition to our unique set of collectibles features ``The 
United States Capitol in Summer 2001,'' an original oil painting by 
artist Frank Morgan. As with Official Holiday Ornaments in years past, 
the authentic colors of the original oil painting were reproduced onto 
white porcelain stoneware and set with a brass frame finished in 24kt 
gold. ``The United States Capitol in Summer 2001'' was the final 
ornament in a four-year series (1998-2001) depicting Early Meeting 
Places of Congress. The four-piece collectible set is available for 
purchase, as are individually packaged ornaments from the set. Revenue 
from the sale of more than 35,000 individual 2001 Official 
Congressional Holiday Ornaments generated more than $40,000 in funding 
for the Senate Child Care scholarship program.
    Minton Tiles/Trivets.--Reproductions of the ``Minton Tiles'' of the 
Capitol Building were created as trivets and made available for sale in 
the Senate Gift Shop and at the Gift Counter. These richly patterned 
and colored trivets are modeled after one of the most striking features 
of the United States Capitol, its tiled floors. The original encaustic 
tiles laid in the Capitol extensions were manufactured at Stoke-upon-
Trent in England, by Minton, Hollins and Company. The hand-painted 
trivets carried by the Senate Gift Shop are manufactured in the United 
States by a small family-owned Company, Besheer Art Tile, located in 
Bedford, New Hampshire.
    Publications.--The book entitled The United States Capitol is one 
of the Senate Gift Shop's best sellers. This book is an unparalleled 
volume of architectural photography revealing the majestic interiors, 
both public and private, and the breathtaking exterior of this American 
landmark building. With the cooperation of the author and his wife, 
Fred and Susie Maroon, we recently had 6,000 copies of a newly revised 
edition of this book published, all of which are in possession of the 
Senate Gift Shop. Work on the revised edition of this book began in 
Spring 2001. Each of the many photographs underwent a time-consuming 
process to enhance the colors--making them more vibrant and closer to 
natural. Unfortunately, Fred was diagnosed with a critical illness in 
the Fall of 2001 and passed away within a few months. The final stages 
of preparing the book for publication were undertaken by Fred's widow, 
Susie Maroon. The book was completed in December 2001. It is gratifying 
to know that this great work, The United States Capitol, can and will 
be made available to the many visitors of the Capitol complex for years 
to come.
    The Historian of the Office of the Architect of the Capitol, 
William C. Allen, completed his work on the book History of the United 
States Capitol: A Chronicle of Design, Construction, and Politics. This 
voluminous hardback book covers the construction of the Capitol 
building that George Washington approved in 1793 and follows the 
Capitol's architectural metamorphosis over the next 200 plus years. The 
book concludes with the mention of congressional approval for the 
construction of the Capitol Visitor Center, which, coincidentally, has 
just begun! The Gift Shop secured 3,000 copies of this book, thus 
ensuring that this beautiful volume chronicling the rich history of the 
architecture of the Capitol building can be made available to visitors 
for years to come.
    Early in 2001 the Gift Shop developed an original concept for a 
children's book--How American Citizens Elect Their Leaders. Nancy Ann 
Van Wie, a noted author and publisher of children's educational books, 
agreed to write the book. The book was delivered to the Gift Shop April 
9 and is now available for purchase. The receipt of this children's 
work is timely considering 2002 is an election year. The Gift Shop has 
secured 2,000 copies of the book, thus ensuring that this wonderful 
children's book can be made available to teachers and visitors for 
years to come. It should be noted that Ms. Van Wie authored and 
published an earlier book, How a Bill Becomes a Law. The concept for 
this work was developed at the Senate Gift Shop as well. This book, 
along with the accompanying teacher's planning guide (also published by 
the author), has proven to be an important educational tool used by 
many elementary school teachers. We look forward to making these 
publications available to educators and younger customers for years to 
come.
    107th Congressional Plate.--Tiffany and Company completed the 107th 
Congressional Plate in late 2001. This plate was made available for 
sale in mid-December 2001. The elegant motifs selected for this plate 
pay tribute to the rich frescoes of the Brumidi Corridors, considered 
the decorative gem of the United States Capitol. A patriotic star 
motif, found in the center of the plate, is patterned after a design 
found throughout the Capitol in Brumidi's frescoed ceilings and walls, 
in his elaborately designed bronze staircases, and in the building's 
historic Minton Tile floors. A red, white and blue shield used in the 
parameter design of the plate is adapted directly from the roundels in 
the Patent Corridor at the east end of the Brumidi Corridors.
    Patriotic Merchandise.--After the tragic events of September 11, 
2001, the Senate Gift Shop immediately purchased and made available to 
its customers a countless number of patriotic materials. These items 
allowed many to display their American spirit and enthusiastic support 
for the country in these unsettling times. We were especially pleased 
to provide to the White House staff the flag pin that President George 
W. Bush wore on his lapel during his first post-9/11 addresses to the 
nation. We were informed by the President's staff that the thousands of 
pins that we had provided to them were distributed to many of the 
people with whom the President was meeting in the Oval Office, as the 
President kept a generous supply of these flag pins in a bowl 
prominently displayed on his desk.
    CVC Gift Shop.--One of the most important projects in the works for 
this year is preparing the groundwork for the Senate Gift Shop's 
participation in the ``soon-to-be-constructed'' Capitol Visitor Center. 
As stated, the Gift Counter in the Capitol building will relocate to 
the CVC where the Senate Gift Shop has been allotted 2,150 square feet 
of retail space. This allotment of space is significant in that it will 
allow the Gift Shop the opportunity to showcase its ability to provide 
unique souvenirs, collectibles, and historic and educational products 
to the numerous visitors to the Capitol Building and, of course, the 
new CVC.
    Online Sales.--The ``E-Commerce Business Plan'' for the Senate Gift 
Shop was developed and presented to the Secretary of the Senate in 
2001. The plan addresses the Gift Shop's need to better serve its 
customers in this new era of retail. There is an ever-growing 
constituency of Gift Shop customers, most important of all Senate 
staff, here in D.C. and in the state offices, who expect and anticipate 
the eventuality of making purchases from the Senate Gift Shop online. 
We know that a strong multi-channel consumer retail strategy enhances 
growth in both online and offline commerce, promotes high levels of 
customer satisfaction, and increases operational efficiency
    Warehousing.--Less-than-adequate warehousing is another issue to be 
addressed during 2002. Departments of the Secretary of the Senate are 
working closely with offices under the Sergeant at Arms to find better 
and additional shared off-site warehousing for the Gift Shop inventory. 
Current warehousing conditions in both Alexandria, Virginia, and Fort 
Meade, Maryland, lack basic environmental and security needs required 
for the types of products stored in them. It is our sincere hope that a 
solution for better off-site storage of product will be identified and 
implemented this year.
    Other Projects.--
  --Tree Recovery Program.--The Gift Shop has approval to recover 
        usable wood from the felled trees on Capitol grounds to produce 
        authentic and historic gift items made exclusively for sale in 
        Senate Gift Shop retail locations. The cut wood has been 
        recovered and is in the process of being milled.
  --Senate Children's Calendar.--The Gift Shop is working on its 
        proposal for a children's artwork contest. The winning 
        selections will be showcased in the first annual Children's 
        Congressional Calendar. A percentage of the proceeds may be set 
        aside to benefit both the Capitol Preservation Commission and 
        the CVC.
The Historical Office
    I am most pleased to tell the Committee that the Society for 
History in the Federal Government selected the publication, Capitol 
Builder: The Shorthand Journals of Montgomery Meigs, 1853-1861, a 
project of the Senate Historian, for its ``Pendleton Prize.'' This 
prize honors ``the outstanding major publication on the federal 
government's history produced by or for a federal history program 
during the year 2001.'' This prize is well deserved by the Senate 
Historian, Dr. Richard Baker, and his staff, who conceived of and 
nurtured this project through to publication.
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The Office advises Senators, officers, and 
committees on cost-effective disposition of their non-current office 
files and assists researchers in identifying Senate-related source 
materials. The Office keeps extensive biographical, bibliographical, 
photographic, and archival information on the more than 1,760 former 
senators. It edits for publication historically significant transcripts 
and minutes of selected Senate committees and party organizations, and 
conducts oral history interviews with key Senate staff. The Photo 
Historian maintains a collection of approximately 35,000 still 
pictures, slides, and negatives that includes photographs and 
illustrations of most former senators, as well as news photographs, 
editorial cartoons, photographs of committees in session, and other 
images documenting Senate history. The Office develops and maintains 
the historical sections of the Senate Web site.
            A Summary of the Historical Office Accomplishments
    Leader's Lecture Series.--The Lecture Series provides outstanding 
former Senate leaders and other distinguished Americans the chance to 
share their insights about the Senate's recent history and long-term 
practices. Beginning in 1998, the lectures have been held in the 
Capitol's historic Old Senate Chamber before an audience of current 
senators and specially invited guests from the executive branch, the 
diplomatic corps, the media, and private enterprise. The Historical 
Office, in coordination with other offices under the Secretary's 
jurisdiction, provided editorial and production support for the May 23, 
2001, lecture of former President Gerald R. Ford. Text and streaming 
video of all eight lectures in the series are now available on the 
Senate's Web site.
    Publication: The Journals of Montgomery Meigs, 1853-59.--Captain 
Montgomery Meigs (1816-1892), U.S. Army Corps of Engineers, supervised 
construction of the Capitol dome and the Senate and House wings from 
1853 to 1859. During this period, he kept shorthand journals with 
detailed accounts about his work on the Capitol, congressional 
operations, and political and social life in Washington. In 1991 the 
Office arranged for the translation of the journals. This project 
concluded in September 2001 with the publication of a 900-page volume, 
which includes approximately 40 percent of the total manuscript. The 
selected text highlights portions of the journal most relevant to the 
Capitol and congressional history.
    Editorial Project: Executive Session Transcripts of the Permanent 
Subcommittee on Investigations, 1953-1954.--The Office is editing the 
executive session hearing transcripts produced by the Senate Permanent 
Subcommittee on Investigations under the chairmanship of Senator Joseph 
R. McCarthy (1953-1954). The resulting multi-volume edition will be 
available for release in 2003 and 2004 to coincide with the expiration 
of the fifty-year closure period for these hearings. This publication 
will allow researchers nationwide to have equal access to these highly 
sought historical documents. During 2001, staff scanned, converted, and 
edited 124 transcripts for 1953 and surveyed 400 witnesses to determine 
whether they subsequently testified in public and to develop relevant 
biographical information.
    Editorial Project: Executive Session Transcripts of the Committee 
on Foreign Relations, Historical Series: 1967.--To assist the Senate 
Foreign Relations Committee in its efforts to identify, declassify, and 
publish its previously closed executive session transcripts for 
historical research, the Office provided the committee with an edited 
manuscript and corrected the galleys of the volume covering its 1967 
proceedings, soon to be published. Editorial work on the volume for 
1968 is in progress.
    Editorial Project: The Documentary History of the United States 
Senate.--The Office is conducting an ongoing documentary publication 
program to bring together fundamental source materials to explain the 
development of the Senate's constitutional powers and institutional 
prerogatives. Currently in production are volumes on Senate impeachment 
trials, the Senate's consideration of controversial treaties, and the 
evolution of the Senate's standing rules. For the impeachment trial 
volume, working drafts have been prepared to summarize each case, with 
selection of key documents and writing of textual notes underway. For 
the controversial treaties volume, much of the research has been 
completed and several major chapters have been drafted. Work on the 
rules volume has proceeded to provide coverage from 1789 through the 
1850s.
    Editorial Project: Administrative History of the Senate.--During 
2001, the assistant historian revised an earlier chapter structure and 
focused on the years 1789 to 1861 in this historical account of the 
Senate's administrative evolution. This study traces the development of 
the offices of the Secretary of the Senate and Sergeant at Arms, 
considers nineteenth and twentieth-century reform efforts that resulted 
in reorganization and professionalization of Senate staff, and looks at 
how the Senate's administrative structure has grown and diversified 
over the past two centuries.
    Editorial Project/Data Base: Biographical Directory of the U.S. 
Congress, 1774-present.--Since the most recent printed edition of the 
Biographical Directory of the United States Congress appeared in 1989, 
the assistant historian has added dozens of new biographical sketches 
and has revised and updated a majority of the database's 1,864 Senate 
entries. A current version of the database is available online at 
http://bioguide.congress.gov. The photo historian completed a multi-
year project of adding photographic images of former senators to this 
electronic database. Work is also proceeding on the next print edition, 
planned for publication in 2003.
    Data Base: ``Idea of the Senate'' Project.--This project identifies 
spoken and written remarks encapsulating changing concepts of the 
Senate from the institution's inception through the mid-twentieth 
century. The initial survey of approximately one hundred primary and 
secondary sources for appropriate materials was completed in May. 
Notebooks contain quotations, articles, and chapters directly related 
to the Senate's institutional operations.
    Data Base: ``Origins of the Senate'' Project.--This project 
examines state constitutions prior to 1787 to identify their influence 
on the framers of the Constitution as they shaped the Senate's 
structure and determined its functions. The project director has 
produced seventeen essays, each fully describing an essential feature 
of Senate operations.
    Data Base: Senate Topical Bibliography.--Two years in preparation, 
this bibliography presents citations for approximately seven hundred 
major books and articles related to the Senate's institutional 
development and operations. The first of its kind, this comprehensive 
subject listing is now accessible on the Senate website and is updated 
periodically.
    Oral History Program.--The Office concluded its series of 
interviews with staff involved with the 1999 presidential impeachment 
trial and continued life-review interviews with three key Senate 
observers. It also placed on the Senate website the complete 
transcripts of fifteen earlier interviews. The associate historian 
interviewed selected Senate floor staff to document the impact of the 
September 11, 2001, Pentagon and World Trade Center bombings on Senate 
legislative operations.
    Member Services: Members' Records Management and Disposition 
Assistance.--The Senate archivist continued her program of assisting 
members' offices with planning for the preservation of their 
permanently valuable records, with special emphasis on archiving 
information from computer systems and transferring records to a home 
state repository. A team approach involving customer support service 
staff from the Sergeant at Arms was implemented with particular 
success. The archivist devised a ``checklist of management goals'' in 
setting up an office and updated the electronic records section of the 
Records Management Handbook. In August, she organized and conducted a 
session at the Capitol for eighty-five congressional archivists, 
representing thirty-eight states, who were attending the annual meeting 
of the Society of American Archivists. That session focused on 
recommendations related to the papers of members contained in the 
December 2000 report of the Advisory Committee on the Records of 
Congress.
    Member Services: Committee Records Management and Disposition 
Assistance.--The Senate archivist provided each committee with staff 
briefings, record surveys, and guidance on preservation of information 
in electronic systems, and instructions for the transfer of permanently 
valuable records to the National Archives' Center for Legislative 
Archives. She oversaw the transfer to the Archives of three thousand 
feet of records. Despite the loss of the room used for processing 
committee records, the Office's archival staff continued to provide 
processing assistance to committees in need of basic help with 
noncurrent files from temporary quarters at the National Archives 
building on Pennsylvania Avenue. The archivist worked with the Senate's 
Legislative Information System's project team to develop archival 
applications for that system. She also initiated a review of records 
disposition guidelines for offices of the Secretary and assisted with 
compilation of a draft records disposition schedule for all offices of 
the Senate Sergeant at Arms.
    Member Services/Educational Outreach: ``Senate Historical 
Minutes''.--At the request of the Senate Democratic Majority Leader, 
the Senate historian prepared and delivered a ``Senate Historical 
Minute'' at each of thirty-five Senate Democratic Conference weekly 
meetings during the first session of the 107th Congress. These four-
hundred-word Minutes are designed to enlighten members about 
significant events and personalities associated with the Senate's 
institutional development, and with familiar objects and places within 
the Capitol The more than 175 Minutes prepared since 1997 are available 
as a feature on the Senate Web site.
    Photographic Collections.--The photo historian continued to expand 
the Office's 35,000-item photograph collection by creating a 
photographic record of historically significant Senate events, 
including hearings of one-third of all Senate committees. She also 
actively sought images of former senators not represented in the 
collection. The photo historian catalogued approximately 3,000 35 mm 
negatives into an image database and completed a multi-year project to 
create digitized images of 1,800 current and former Senators for the 
on-line edition of the Biographical Directory of the United States 
Congress. She continued to create digital images of frequently used 
photographs to promote their use and safeguard the originals. A large 
portion of the Office's photographic collections can now be viewed in 
electronic format and transmitted via e-mail.
    Educational Outreach: Senate Staff Lecture Series.--In coordination 
with the Senate Office of Education and Training, Historical Office 
staff provided seminars, both formal and informal, drawn from more than 
a dozen topics related to the Senate's constitutional role, 
institutional development, and internal administrative functions.
    Advisory Committee on the Records of Congress.--This eleven-member 
permanent committee, established by Public Law 101-59, meets twice a 
year to advise Congress and the Archivist of the United States on the 
management and preservation of the records of Congress. Its Senate-
related membership includes the Senate historian, appointees of the 
majority and minority leaders, and the Secretary of the Senate, who 
chairs the committee during the even-numbered sessions of Congress. The 
Senate Archivist complied, edited, and contributed to the Third Report 
of the Advisory Committee, which was distributed early in the year.
    Capitol Visitor Center Exhibition Content Committee.--The Senate 
Historian assisted this committee in developing a mission statement and 
preparing detailed exhibit plans for this 20,000 square-foot facility, 
which is scheduled to open in January 2005.
Human Resources
    The Office of Human Resources implements and coordinates human 
resources policies, procedures, and programs for the Office of the 
Secretary of the Senate, including hiring, training, performance, job 
analysis, compensation planning and administration, leave 
administration, records management, recruiting and staffing, employee 
handbooks and manuals, internal grievance procedures, and employee 
relations and services.
    The Office of the Secretary worked on two legislative changes that 
were implemented in 2001: (1) lump-sum payments for unused, accrued 
annual leave upon termination of employment and (2) an increase in the 
amount of the Public Transportation Subsidy. The lump-sum payment 
authority not only promotes administrative economies and efficiencies 
but also gives employees equal access to unused annual leave even if 
transferred to another federal agency. We anticipate that the added 
financial encouragement for Senate employees to use public 
transportation will help reduce traffic congestion and pollution and 
improve Senate parking capacity. This new incentive should also help us 
attract and retain personnel in the highly competitive Metro Washington 
labor market. The Office also assisted in the implementation of the 
Senate Student Loan Repayment Program. We are confident that this new 
incentive, sponsored by key Members of the Appropriations Committee and 
mandated by Public Law 107-68, will complement and improve the Senate's 
recruiting and retention goals and have a positive impact on employee 
morale.
    The Secretary's General Counsel and the Chief Counsel for 
Employment, in coordination with the Disbursing Office and the Rules 
Committee staff, crafted Senate Resolution 193, which was passed by the 
Senate on 18 December 2001. This resolution recognized a ``leave 
without pay status'' for those employees called to serve in the 
uniformed services. This status ensures that such employees retain the 
same benefits while serving in the uniformed services, as an employee 
from the executive branch who is called to serve in the uniformed 
services.
            Merit Review
    We conducted an in-depth merit review this past fall. A fair and 
balanced merit compensation system is a key management tool to improve 
work processes and reward top performers and will be even more 
important in the future as the competition for highly skilled employees 
continues to intensify. Funds have not been requested for a true merit 
raise program since 1996. We have requested funding this year and, 
after a complete review of our job classifications by the new Director 
of Human Resources, we plan to use these funds to reward high 
performing staff and encourage valuable employees to remain in the 
Senate. These are the people who help keep the Senate functioning and 
we want to keep them.
            Automated Capabilities Improve
    Employee information became easier to manage in 2001 with the 
implementation of a new data base system called People-Trak. The 
information available for management decision-making also became more 
plentiful and easier and faster to produce. Individual pay change 
notices for the merit review (discussed above) were produced in minutes 
versus hours under the previous system. A new upgrade to this 
economical and yet robust software package will soon give supervisors 
the capability of automatically accruing and tracking leave taken.
            COOP Implementation
    Even though the Human Resources office in the Hart building was 
closed, the office was able to perform all essential operations during 
the more than three months that the building was closed, including data 
base maintenance, appointments and other salary changes, time 
reporting, overtime calculations and payments, new employee 
orientation, transportation subsidy program administration, recruiting, 
and employee and management advisory services. Documents contained in 
the office's flyaway kit prepared for just such an emergency were used 
extensively. We have since fine-tuned information to be maintained in 
the HR flyaway kit and expanded our electronic capabilities.
            Office of the Secretary Staff Intranet
    Phase I of the Human Resources page for this intra-office Web site 
has been completed and will become operational this year. The goal of 
this initiative is to provide a mechanism for continuous on-line 
communication with employees and facilitate response to various 
personnel programs. The initial design includes a ``vision-oriented'' 
cover page and site index and a Job Opportunities section where 
employees will be able to complete a new Career Opportunities 
Application on-line and electronically transmit it to each level of 
review. We view this as a very important and critical process 
improvement for the Secretary's Office because it gives our employees 
equal access to job announcements and prompt feedback regarding 
eligibility. Plans for Phase II include a Benefits Summary page, Office 
Policies (from the Employee Handbook), and an interactive Management 
Development section.
Information Systems/Computer Support
    The staff of the Secretary's Department of Information Systems 
provides technical hardware and software support, and computer related 
support for the all LAN-based servers for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the SAA's office, 
the Government Printing Office, and outside vendors on technical issues 
and joint projects. Information Systems staff provides direct 
application support for all software installed workstations, evaluates 
new computer technologies, and continually implements next generation 
hardware and software solutions.
    Although staffing levels remained unchanged, functional 
responsibilities for support in other departments were expanded. 
Information System staff responsibilities were expanded to backfill the 
retirement of Senate Library technical personnel. Improved procedures 
were adopted to stretch support across all Secretary departments. The 
Disbursing, Office of Public Records, Chief Counsel for Employment, 
Page School, Senate Security, Stationery Room and Gift Shop have 
dedicated information technology staff. Information Systems personnel 
continue to provide first level escalated hardware and software support 
for these office staff members.
    For information security reasons, Secretary departments implement 
isolated computer systems, unique applications, and isolated local area 
networks. The Secretary of the Senate network is a closed local area 
network within the Senate. Information Systems staff continue to 
provide a common level of hardware and software integration for these 
networks, and for the shared resources of inter-departmental 
networking. Information System staff continue to actively participate 
in all new project design and implementation within the Secretary of 
the Senate operations.
            Improvements to the Secretary's LANs
    The Senate chose Windows NT as the standard network operating 
system in 1997. The continuing support strategy is to enhance existing 
hardware and software support provided by the Information Systems 
Department, and augment that support with assistance from the Sergeant 
at Arms whenever required. The shaded area in Chart Three highlights 
the installation and upgrades for Office of the Secretary server 
installations. The Secretary's Network supports approximately 300 staff 
users and patron accounts in the Capitol, the Senate Hart, Russell, 
Dirksen, and the Page School locations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Information Systems Office:
  --Installed Optical Character Recognition hardware/software solution 
        in Enrolling Clerk's office. Some committees continue to 
        provide the office of the Enrolling Clerk with hard copy 
        legislation. The installation of network scanning techniques 
        vastly improved the legislation process by reducing the amount 
        of clerical work required to manually type the documents.
  --Added Quantum Snap Server for Senate Library Oracle database.
  --Designed and implemented Office of Public Records Lobby Web site 
        hardware configuration. Installed (2) raid-compliant (redundant 
        array of independent disks, a data security standard), 
        redundant servers at PSQ (http://sopr.senate.gov). In 
        accordance with the Lobbying Disclosure Act of 1995, the 
        Secretary of the Senate has initiated this program to allow the 
        public to view filings received by the Office of Public 
        Records.
  --Retired and replaced DOS-based applications with Windows-compliant 
        Client/Server hardware and stenograph software for Official 
        Reporters; Migrated the Official Reporters of Debate ``out of 
        the Dark Ages into the Information Age.''
  --Replaced and Upgraded NT Server and all Page workstations In 
        Webster Hall.
  --Relocated the original server to the Capitol for use as a Backup 
        Domain controller.
  --Replaced older Senate Security servers and added OCR scanning 
        capability for archiving certain documents.
  --Installed redundant off-site backup servers (for our COOP plans) 
        for the Secretary's LAN at Postal Square and in Hart Office 
        Locations. This facilitates smaller, lighter-weight storage 
        units that can be transported at a moments notice.
            Continuity of Operations Plan (COOP)
    The Office of Information Systems began disaster planning for the 
Secretary's office in June of 1998. In January of 2001, this planning 
process had evolved to include other working groups within the Senate. 
Working with the Office of Senate Security, SAA, GSA, and GAO 
personnel, the initial Information Systems COOP plan was developed in 
March 2001. Initial emphasis was placed on the continuation of 
legislative and financial functions within the Senate. In retrospect 
after the September 11th 2001 events, early evaluation and pre-
September 11 implementation of redundant server storage arrays 
dramatically reduced the risk of data loss within the Secretary's 
Office. Three of the six Secretary domains were affected with the Hart 
incident, yet no data loss occurred.
    Let me emphasize these two points: We were ready for September 11. 
We transformed the backup capacity and portability of the Secretary's 
computer infrastructure, the critical infrastructure that supports the 
Secretary's offices and departments.
            COOP Planning/Data Migration
    Beginning in January 2001, new technology was implemented to 
migrate and store legislative data off-line. This success of the 
initial pilot project was used to facilitate solutions in other 
Secretary offices. The same technology was applied to provide the 
department of Public Records with off-line storage capabilities in July 
2001. Near-line server storage solutions augment the normal tape 
archival process. Individual server data continues to be backed up each 
night. The implemented solution utilizes a product manufactured by 
Quantum, and is a fault-tolerant, raid storage server, with a small 
footprint. The reduced size makes the product attractive when a major 
evacuation is required. At present there are three Secretary-of-the-
Senate Snap Servers deployed in key locations on the Capitol complex. 
Two smaller units are located off-site and rotated on a bi-monthly 
basis. In early November this office demonstrated the near-line storage 
solution for staff of the Sergeant at Arms. Their response was 
immediately positive, and our understanding is that SAA is making 
available smaller Snap server products for personal and committee 
offices.
Interparliamentary Services
    The Office of Interparliamentary Services (IPS) has completed its 
20th year of operation as a department of the Secretary of the Senate. 
IPS is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and/or Minority Leaders. The office also 
provides appropriate assistance as requested by other Senate 
delegations.
    The statutory interparliamentary conferences are: NATO 
Parliamentary Assembly; Mexico-United States Interparliamentary Group; 
Canada-United States Interparliamentary Group; and British-American 
Parliamentary Group.
    Foreign travel authorized by the Leadership is arranged by the IPS 
staff. In addition to delegation trips, IPS provided assistance to 
individual foreign trips as requested. Several trips were scheduled, 
but canceled or postponed after most of the advance work had been 
completed. Also, Senators and staff authorized by committees for 
foreign travel continue to call upon this office for assistance with 
passports, visas, travel arrangements, and reporting requirements. IPS 
has purchased currency converters for use on overseas trips.
    Known by many in the Senate as the ``protocol office'', 
Interparliamentary Services maintains regular contact with the Office 
of the Chief of Protocol, Department of State, and with foreign embassy 
officials. Official foreign visitors are frequently received in this 
office and assistance is given to individuals as well as to groups by 
the IPS staff. The staff continues to work closely with other offices 
of the Secretary of the Senate and the Sergeant at Arms in arranging 
programs for foreign visitors. In addition, individual Senators' 
offices frequently consult IPS on a broad range of protocol questions. 
On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations.
    Planning is underway for the 43rd Annual Meeting of the Canada-U.S. 
Interparliamentary Group to be held in the United States in 2002. 
Advance work, including site inspection, will be undertaken for the 
42nd Annual Mexico-U.S. Interparliamentary Group Meeting, to be held in 
the United States in 2003. Preparations are also underway for the 
spring and fall sessions of the NATO Parliamentary Assembly. This year, 
IPS has begun the process of converting to a paperless office system.
The Senate Library
    The Senate Library provides legislative, legal, business, and 
general reference services to the United States Senate. The 
comprehensive legislative collection consists of congressional 
documents dating from the Continental Congress. In addition, the 
Library maintains executive and judicial branch materials and an 
extensive book collection on politics, history, and biography. These 
sources plus a wide array of online systems assist the Library staff in 
providing nonpartisan, confidential, timely, and accurate information 
services to the Senate.
    Summary of Senate Library Achievements:
  --Presidential Vetoes, 1989-2000 published
  --Senate Library Brochure published
  --Information Resources in the United States Senate Library published
  --Librarians served as Legislative Information Service (LIS) training 
        instructors
  --United States Serial Set inventory completed
  --UNUM published by Library staff
  --Significant portions of the book collection reclassified
  --Government document collection reviewed and 4,715 items removed
  --Budget review returned significant saving
            Patron Services
    The Library's Information Services responded to 38,596 requests 
during 2001, a 4 percent increase from 2000. This total included 27,472 
phone, fax, and e-mail requests and 11,124 Senate staff who used 
resources in the Library. The Senate Library's request totals have 
remained fairly constant for the past three years while other 
information centers and libraries, including those serving the 
Congress, have witnessed declines in request levels. A reason for the 
decline is the increased availability of Internet resources to Senate 
staff, particularly Lexis-Nexis and Westlaw. The Senate Library 
responded to this trend by offering the Senate staff new services and 
products. These new offerings include providing training on commercial 
and congressional databases, publishing resources tailored to Senate 
research needs, creating a Web site focused on core reference sources, 
and continuing a very active public support program.

                                                 CHART FOUR: SENATE LIBRARY 2001 INFORMATION STATISTICS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                           Jan.    Feb.    March   April    May    June    July    Aug.    Sept.   Oct.    Nov.    Dec.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Phone, FAX, E-Mail Inquiries............................   2,689   2,094   2,552   2,139   2,489   2,506   2,643   2,205   2,164   2,130   2,038   1,823
Walk-in Inquiries.......................................     982     922   1,079     833     970   1,179     968     743     693     804   1,111     840
                                                         -----------------------------------------------------------------------------------------------
      Monthly Totals....................................   3,671   3,016   3,631   2,972   3,459   3,685   3,611   2,948   2,857   2,934   3,149   2,663
                                                         ===============================================================================================
      Total Inquiries (Includes 27,472 telephone, fax, e-
       mail and 11,124 walk-in inquiries)...............                                              338,596
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Most other activity indicators also reflect increases: 4,791 items 
delivered (+11.4 percent); 2,148 items loaned (+44.7 percent); 477 new 
patrons; 4,552 faxes sent (-1 percent); and 168,769 photocopies 
produced (+9.2 percent). In addition, Senate staff used the 
Micrographics Center to reproduce 7,810 pages from congressional 
documents and news articles. These favorable statistics are impressive, 
particularly when considering the curtailed October to December work 
schedule for many Library patrons due to the anthrax situation.
    The Library's 125-year presence in the Capitol ended when the 
Reading Room, S-333, was transferred to the Secretary's personal staff. 
The Library's February 1999 Russell Building relocation limited the 
practicality of a Capitol site and permitted the reassignment. This 
change was accomplished without comprising information services to the 
Capitol offices.

                             CHART FIVE: SENATE LIBRARY STATISTICS DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                Volumes     Materials    Facsimiles   Center Pages      Pages
                                                 Loaned     Delivered                   Printed        Printed
----------------------------------------------------------------------------------------------------------------
January.....................................          139          459          480           838         18,296
February....................................          120          523          380           550         10,067
March.......................................          169          584          346           835         12,530
                                             -------------------------------------------------------------------
      1st Quarter...........................          428        1,566        1,206         2,223         40,893
                                             ===================================================================
April.......................................          246          360          395           632         16,594
May.........................................          236          456          511           461         12,184
June........................................          284          357          588           797         18,725
                                             -------------------------------------------------------------------
      2nd Quarter...........................          766        1,173        1,494         1,890         47,503
                                             ===================================================================
July........................................          204          376          433           832         17,251
August......................................          102          366          298           711         15,813
September...................................          187          337          329           487         11,747
                                             -------------------------------------------------------------------
      3rd Quarter...........................          493        1,079        1,060         2,030         44,811
                                             ===================================================================
October.....................................          127          286          307           614         12,941
November....................................          185          431          262           448         12,006
December....................................          149          256          223           605         10,615
                                             -------------------------------------------------------------------
      4th Quarter...........................          461          973          792         1,667         35,562
                                             ===================================================================
2001 Total..................................        2,148        4,791        4,552         7,810        16,8769
2000 Total..................................        1,485        4,299        4,600         4,391        15,4554
                                             ===================================================================
Percent Change..............................        44.65        11.44        -1.04         77.86           9.20
----------------------------------------------------------------------------------------------------------------

            News, Legal, and Legislative Systems
    The Library provides a critical link between the Legislative 
Information System (LIS) and Senate staff. Two recent roles assumed by 
the Library include being the official LIS telephone Help Line and 
teaming with the Senate Computer Center as LIS training instructors. In 
both roles, Senate staff greatly benefit from the Library's unmatched 
online searching skills and extensive legislative experience. 
Previously, the Senate Computer Center was solely responsible for 
training functions, but the Library requested the transfer and the 
training programs have significantly improved.
    The Library's online training responsibilities also include Lexis-
Nexis and Westlaw, the primary news and legal databases provided to all 
Senate staff. The commercial database instruction is provided by 
telephone or through training sessions in the Library. The high number 
of new Senate staff makes effective training programs, particularly 
database training, a critical responsibility. The goal is to ensure 
that the transition of new and inexperienced Senate staff into 
productive staff is accomplished as quickly as possible. In addition, 
Library staff participated in several LIS user groups and committees. 
Currently, the Library is testing a proposed LIS e-mail alert system. 
The alert is triggered when legislative activity occurs on pre-selected 
legislation and the subscribing Senate office is notified via e-mail. 
Electronic notification of legislative activity will significantly 
improve accuracy, timeliness, and efficiency.
    The ability to fax news articles and legal materials directly from 
personal computers is an added service to Senate staff. PC faxing 
significantly reduces response time as needed materials are received 
virtually instantaneously. At this time, only a limited number of 
commercial databases offer the fax function, but the initial response 
from Senate staff has been favorable.
            Public Support and Services
    Library staff conducted more than 50 tours and demonstrations on 
Library services during 2001. Services of the Senate Library Seminars 
are offered quarterly and staff receives a personalized Library tour 
and database demonstrations. The two State Fairs and five District-
State Seminars offered presentations on the wide variety of Senate 
services available to state office staff, including Library services. 
In addition, the Library participated in eight New Staff Seminars and 
also held special seminars for office managers and the Senate Page 
School.
    The corridor display cases remain very popular with staff and 
Capitol Hill visitors and during 2001 four new cases were installed: 
Capitol Visitor Center Coins, Women in the Senate, History of the 
Capitol Police, and the Burning of the Capitol. Black History Month was 
honored with a Dirksen cafeteria book display highlighting African 
American history, biography, literature, and poetry. The displays would 
not be possible without the guidance and artistic talents of Carl 
Fritter and Steve Rye, Office of Conservation and Preservation.
    This last point is an important one: the various departments of the 
Secretary's Office continue to support each other, just as they provide 
support for the broader Senate community.
            Publications
    The Library documents the histories of cloture motions and 
presidential vetoes. In 2001, we compiled and distributed Presidential 
Vetoes, 1989-2000 (Sen. Pub. 107-10), which supplements Presidential 
Vetoes, 1789-1988 (S. Pub. 102-12). The two volumes provide the 
definitive documentary history for every veto from the First Congress 
through the 106th Congress. Vetoes was distributed to congressional 
offices and to the 1,350 libraries in the government depository library 
program.
    We have reformatted the Hot Bills List, the Library's most popular 
publication. Hot Bills is updated several times a week and lists 
current legislation that is of concern to Senate staff, important to 
constituents, and the subject of press reports. The value of Hot Bills 
is in its timeliness and that it captures the legislation of vital 
interest to Senate staff. The quick guide is available through Webster 
and is sent electronically to every Senate office and to the 
Congressional Research Service, Library of Congress. The Hot Bills List 
will be available to all Capitol Hill offices when it is added to the 
LIS main page during 2002.
    One of the Senate librarians authored the Annotated Bibliography of 
Selected Resources on Government and Politics, which describes more 
than 200 essential reference and research sources. The Annotated 
Bibliography benefits from years of research and editing experience and 
is specifically tailored to Senate staff needs. We have also revised 
the informative Library brochure. The tri-fold brochure profiles 
Library services, describes the collections, and includes a laminated 
bookmark and telephone card. We also compile the monthly New Books 
list, which details new acquisitions and is distributed to Senate 
offices.
            Library's Intranet Site on Webster (http:webster/library)
    The Library's Web page on Webster contains an electronic reference 
collection of valuable research tools and the 2001 improvements and 
enhancements include: Presidential Vetoes, 1989-2000 by Zoe Davis, Hot 
Bills List by Jennifer Casey, Books by Sitting Senators by Jean 
Keleher, Information Resources in the U.S. Senate Library by Nancy 
Kervin, Appropriations Table, Fiscal Year 1988 to Fiscal Year 2002 by 
Brian McLaughlin, Presidential Cabinet Nominations: President Carter to 
President George W. Bush by Meghan Dunn, Congressional Committee 
Bibliography of Public Law Compilations, by Lauren Gluckman, Works 
Progress Administration State Guides, A Bibliography, by former 
Reference Librarian Rick Ramponi, and Hornbook Series and Other Legal 
Works by Lauren Gluckman.
    Web site innovations also allow Senate staff to schedule a Library 
tour, order books, and place reference requests. Book ordering is 
linked our New Books page, where reviews accompany the latest 
acquisitions. New hyperlinks were also added that access the roll call 
votes provided on www.senate.gov and the wealth of information located 
on FirstGov.gov.
            Acquisitions
    The Library received 9,465 new books, government documents, and 
microforms during 2001. This included 347 books and reference volumes; 
4,963 congressional documents; and 4,155 executive branch publications 
in paper or microfiche. Significant additions of older congressional 
materials were received from the Senate Governmental Affairs Committee, 
Senate Budget Committee, Towson State University, and a local law firm 
library. The two major purchases from Congressional Information Service 
were Presidential Executive Orders and Proclamations, 1789-1921, which 
provides more than 35,000 executive documents; and Unpublished House 
Committee Hearings, 1965-1968, which includes 1,950 hearing 
transcripts. These microfiche collections with accompanying indexes 
provide invaluable resource materials previously unavailable in the 
Library.

                                                    CHART SIX: SENATE LIBRARY STATISTICS ACQUISITIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         38         41        397        117        290         20         18        104        987
February.............................................         20         30        423         28        312         24         22         58        897
March................................................         34         24        434        112        351         26         52         59      1,058
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         92         95      1,254        257        953         70         92        221      2,942
                                                      ==================================================================================================
April................................................         25         43        361         12        209         33         24         95        777
May..................................................         30         27        292          8        234         51         27        107        746
June.................................................         22         42        375         56        288         38         46        142        987
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         77        112      1,028         76        731        122         97        344      2,510
                                                      ==================================================================================================
July.................................................         46         31        244         38        261         23         39        109        745
August...............................................         23         46        259         44        263         34         30        182        858
September............................................         11         15        253        246        255         22         30        129        950
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................         80         92        756        328        779         79         99        420      2,553
                                                      ==================================================================================================
October..............................................         28         12        174         33        265         11         37         77        609
November.............................................         16         20        179         13        258         11         37        123        641
December.............................................         28         16         40         17         68          0         29         40        210
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................         72         48        393         63        591         22        103        240      1,460
                                                      ==================================================================================================
2001 Total...........................................        321        347      3,431        724      3,054        293        391      1,225      9,465
2000 Total...........................................        341        426      4,971      4,589      3,642        241        211      1,441     15,521
                                                      ==================================================================================================
Percent Change.......................................      -5.87     -18.54     -30.98     -84.22     -16.15      21.58      85.31     -14.99     -39.02
--------------------------------------------------------------------------------------------------------------------------------------------------------

            Cataloging
    Cataloging staff added a total 5,825 bibliographic records to the 
online catalog in 2001. They continued to focus their considerable 
skills on the Senate's exceptional collection of historic committee 
hearings. This ambitious retrospective project is significantly 
increasing access to these unique congressional publications. Their 
work will be available not only to the Senate, but also to libraries 
worldwide through an international database. Our cataloging of 
contemporary hearings produced a total of 3,668 hearing records. In 
addition, we added 942 bibliographic records of federal agency 
documents to the catalog and reclassified major portions of the 
international law and literature sections to comply with the Library of 
Congress's revised classification schedules.

                                CHART SEVEN: SENATE LIBRARY STATISTICS CATALOGING
----------------------------------------------------------------------------------------------------------------
                                                             OCLC Records Produced
                                Hearing --------------------------------------------------------------
                                Numbers                Government        Congressional Publications    Total New
                               Added to                 Documents     --------------------------------  Records
                                  LIS      Books  --------------------                        Docs./   Cataloged
                                                     Paper     Fiche   Hearings    Prints     Pubs.
----------------------------------------------------------------------------------------------------------------
January......................        25       145        51       149       539          8         23        915
February.....................        22       312        44        85       293          2          6        742
March........................         0        49        77       130       273          9          1        539
                              ----------------------------------------------------------------------------------
      1st Quarter............        47       506       172       364     1,105         19         30      2,196
                              ==================================================================================
April........................         0        62        29        50       448         14         43        646
May..........................        12        29        33        11       386         74          1        534
June.........................         0        23        28         4       358         45         11        469
                              ----------------------------------------------------------------------------------
      2nd Quarter............        12       114        90        65     1,192        133         55      1,649
                              ==================================================================================
July.........................         6        34        43        32       264          0          0        373
August.......................         0        21        32        42       211          3         30        339
September....................         0        48        24        24       208         18         61        383
                              ----------------------------------------------------------------------------------
      3rd Quarter............         6       103        99        98       683         21         91      1,095
                              ==================================================================================
October......................         8        22        26         2       230         13          9        302
November.....................         5        18        11         1       261         13         10        314
December.....................        25         9        13         1       197         37         12        269
                              ----------------------------------------------------------------------------------
      4th Quarter............        38        49        50         4       688         63         31        885
                              ==================================================================================
2001 Total...................       103       772       411       531     3,668        236        207      5,825
2000 Total...................       387       750       703     1,982     6,476         96         89     10,096
                              ==================================================================================
Percent Change...............    -73.39     +2.93    -41.54    -73.21    -43.36    +145.83    +132.58     -42.30
----------------------------------------------------------------------------------------------------------------

            Library.Solution, the Library's Integrated Library System
    The Library's integrated library system, Library.Solution, which 
facilitates control over acquisitions, cataloging, check-in, and 
circulation of the Library's collections, was purchased from The 
Library Corporation (TLC) and installed in January 2000. 
Library.Solution is the Library's third catalog and with each 
generation the sophistication and functionality has significantly 
increased. However, the Senate Library's 97,000 cataloged titles and 
148,000 associated volumes still present challenges to system designers 
in terms of collection size, complexity, and our demanding technical 
requirements. After completely rebuilding the local authority files and 
the installing an updated national authority database, the catalog 
performance improved to permit the loading of more than 8,000 
bibliographic records from back files and the standardization of local 
subject headings.
    A major Library goal is to provide the online catalog to the entire 
Senate community. The current catalog provides this capability, but 
action was delayed due to the estimated $25,000 cost, the pending 
release of new Oracle-based software, and the 2003 replacement of the 
current operating system. Access to library catalogs is a standard 
patron service and the Library will continue to work to make the 
catalog available to every Senate office.
    Collection Maintenance, Preservation, and Binding.--Maintenance and 
preservation projects produced a better-organized and environmentally 
protected collection. The historic collection of more than 125,000 
volumes requires constant monitoring of the critical environmental 
conditions. Mold is prevented by maintaining temperatures below 70 
degrees and humidity levels below 50 percent. However, these levels can 
be very difficult to achieve in the Russell Building location. 
Dehumidifiers operate 24 hours a day and satisfactorily control the 
humidity, but the ventilation system is not always capable of 
maintaining acceptable air quality and temperature levels. Another 
major concern is the crisscrossing maze of century-old water pipes 
hovering just a few feet above the historic collection.
    At some point, the Secretary's Office may be faced with a major 
water incident that will compromise and possibly destroy thousands of 
these irreplaceable volumes. We have already taken the pro-active step 
of contacting two different document [resurrection] companies, each of 
which would be in effect on call.
    Two major collection maintenance projects were undertaken during 
the year. The Reference Librarians reviewed the 25,000 volumes in the 
book collection and removed duplicates and dated materials. The second 
project is ongoing and is a comprehensive review of the government 
documents collection and the Library's depository library selections. 
The Library joins more than 1,350 libraries nationwide in the 
Depository Library Program and automatically receives preselected 
documents from the Government Printing Office.
    The Library's United States Serial Set is recognized as the most 
complete in existence, surpassing the collections in the Library of 
Congress and the National Archives. The Serial Set is the nation's most 
important document collection and contains more than 350,000 
congressional documents that trace America's history from 1817 to the 
present. The Library conducted a comprehensive inventory of the first 
13,000 volumes (1817-1969), and it revealed that only 41 volumes were 
missing. Fortunately, 14 of the missing 41 volumes were acquired from 
rare book dealers and the search will continue for the remaining 
volumes.
    Library Budget.--The fifth year of aggressive budget reviews 
delivered reductions totaling $7,051.04. The targeted expenditure 
categories were newspaper and journal subscriptions ($2,572.74) and 
online service contracts ($4,000.00). A review of the microform 
collection resulted in the cancellation of twelve magazine 
subscriptions received on microfiche. Restructuring database contracts 
garnered a $4,000.00 savings. The Senate's ever-changing information 
needs require a comprehensive annual collection and expenditure review. 
The reductions for the past five years total $46,693.82 and these 
efforts have been critical in offsetting continuing cost increases for 
core materials.
    Senate Hart Building Closing.--The Senate Library provided 
temporary office space to three offices under the Secretary following 
the anthrax contamination at the Senate Hart Office Building. The three 
displaced offices were the Office of Public Records, Senate Historical 
Office, and Human Resources. The displaced offices arrived October 25 
and were provided with workspace, telephones, terminals with printers, 
office supplies, and access to fax machines and photocopiers. The 
accommodations were not spacious, but all of the offices were able to 
conduct their daily activities. After three months, the offices 
returned to the Hart Building on January 22, 2002. Throughout the three 
months of physical and work flow disruption, the cooperation, patience, 
and professionalism displayed by all those involved was a tribute to 
all the employees of the Secretary's Office.
    UNUM, Newsletter of the Office of the Secretary of the Senate.--
UNUM, Newsletter of the Office of the Secretary of the Senate was 
published six times during 2001. Chief Editor Kimberly Ferguson 
continued to lead the team of talented volunteers. She is joined by two 
experienced co-editors, Senior Reference Librarian Nancy Kervin and 
Reference Librarian Jennifer Casey. Head of Technical Services Leona 
Faust continued to author profiles of offices and individuals within 
the Secretary's Office in her series titled UNUM Focus. These excellent 
articles are often the first institutional histories for many of the 
offices under the Secretary. Coping with constant deadlines, revised 
text, and printing delays, they have created a superb newsletter that 
is informative, educational, and entertaining.
    Friends of Tyler School.--The Library developed a cooperative 
relationship with the Friends of Tyler School, a tutoring program from 
Capitol Hill's Tyler Elementary School. Many of the tutors and 
volunteers are congressional staff. The Library sends unneeded 
magazines and also donated a superseded encyclopedia set. These 
donations provide basic educational resources that would otherwise be 
unavailable to the children.

           Major Goals of the Library for Calendar Year 2002

    Answer 40,000 Reference Requests.--This has been a long-term goal 
that will require a 4 percent increase over 2001 requests totals.
    Cross-Training Program.--The Library's ongoing cross-training 
program will focus on improving the reference skills of the Library 
Technicians. They will be instructed on basic reference skills to aid 
them in their front-desk duties.
    Reduce Fiscal Year 2002 Purchases by 5 percent ($7,500).--Fiscal 
year 2002 will be the Library's sixth year of aggressively reviewing 
expenditures. Total reductions in purchases through fiscal year 2001 
were $46,693.82, and these efforts have offset cost increases in core 
materials.
    Micrographics Center Reorganization.--The Library's collection of 
over 1,000,000 microfiche and 8,000 microfilm reels will be completely 
reorganized. This major project will improve accessibility and 
accommodate future growth.
    Document Recovery Program.--To ensure that all materials under the 
Secretary of the Senate are adequately protected from the lasting 
effects of fire and water damage, the Library has established working 
relationships with two document recovery firms.
    Retrospective Hearing Project.--The ten year project of cataloging 
the Library's 18,000 House and Senate committee hearings is in its 
sixth year. The collection is matched and dates to the 1880s. Once 
completed the detailed bibliographic records will be available for the 
first time to libraries nationwide. The database will provide an 
exceptional and historic look into the work of the Congress.
Office of Public Records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The Office provides for the inspection, review, and reproduction of 
these documents. From October, 2000, through September, 2001, the 
Public Records Office staff assisted more than 3,100 individuals 
seeking information from reports filed with the Office. This figure 
does not include assistance provided by telephone, nor help given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995. A total of 116,747 photocopies and 25 rolls of 
microfilm were sold in the period. In addition, the Office works 
closely with the Federal Election Commission, the Senate Select 
Committee on Ethics and the Clerk of the House of Representatives 
concerning the filing requirements of the aforementioned Acts and 
Senate rules.
            Achievements in 2001
    The Office established the first governmental Web site allowing the 
public to examine federal lobbying documents from their own home or 
office. The site has received many commendatory comments from the 
public since inception; and compares very favorably with other similar 
sites, even as an initial offering. A survey was conducted on behalf of 
the Council on Governmental Ethics Laws of 58 Canadian and American 
entities that receive lobbying disclosure reports at the federal, 
state, provincial, and local levels. Of the 42 responders, 7 American 
(including the Senate) and 2 Canadian jurisdictions reported having 
Internet public access to the documents. In comparing the other 8 
sites, the Public Records site is easy to access, easy to use and 
brings the researcher to the source documents as filed by the 
registrants (see below in Automation Activities).
    The electronic filing pilot for lobbying documents substantially 
expanded as the staff tutored those registrants who indicated interest 
in e-filing. The Office worked throughout the year to enhance the 
program by making it easier to use and by training those responsible 
for filing lobbying documents. Over 350 lobbying filers attended two 
``How to E-file'' seminars that were held in November of 2000. By the 
end of fiscal year 2001, 9 percent of all lobbying reports and 
registrations were e-filings.
    The Public Records Office also prepared a disaster recovery plan in 
fiscal year 2001. We had an opportunity to compare our template with 
the plan of the New York City Campaign Finance Board, which was 
displaced for seven weeks after 9/11. Our templates were very similar 
and validated our preparations. Based upon the review of that plan and 
our own ``look backward'' to see how the plans worked well or less 
well, we have identified some enhancements to allow us to be even 
better prepared the next time disaster strikes.
            Plans for 2002
    The Public Records Office plans to enhance the new lobbying web 
site by increasing the selection criteria to enable it to be even more 
widely used, and by allowing the printing of documents from the site in 
alternative formats. The Office also is working to make the e-filing 
site even more user-friendly by resolving some navigating and data base 
construction issues that will allow a more intuitive approach by the 
user. Additionally, there are plans to offer more seminars to increase 
the percentage of e-filing. With respect to our disaster recovery 
planning, the Office is proceeding to establish an off-site scanning 
station in order to fully implement the plan, and not to be without 
essential hardware in the event of another evacuation.
    Automation Activities.--The Senate took a significant step toward 
the goal of making the work of the Senate more accessible and applying 
the resources of technology in ways that benefit the American people. 
As of September 6, 2001, documents filed under the Lobbying Disclosure 
Act may be researched on the Internet. The site allows researchers to 
search the Public Records database using five selection criteria chosen 
based upon public inquiries received by the office over the last five 
years. The researcher may then select the document that he or she 
wishes to view. The Public Records Office staff is delighted with the 
public comments on the site and will be working with interested parties 
in making any improvements that allow for greater public access. This 
achievement fulfills the initial commitment made by the Office of the 
Secretary, which has been highlighted in the Secretary's testimony 
before this Committee each year since 1997. Also during fiscal year 
2001, the Public Records office expanded participation in the 
electronic filing pilot program. In fiscal year 2001, the office 
received 2,561 electronic documents, as compared to 300 the previous 
fiscal year.
    Federal Election Campaign Act, as Amended.--The Act required Senate 
candidates to file semi-annual reports in a non-election year. Filings 
totaled 3,656 documents containing 104,418 pages.
    Lobbying Disclosure Act of 1995.--The Act requires semi-annual 
financial and lobbying activity reports. As of September 30, 2001, 
5,160 registrants represented 15,941 clients and employed 18,854 
individuals who met the statutory definition of ``lobbyist.'' The total 
number of lobbying registrations and reports were 21,192.
    Public Financial Disclosure.--The filing date for Public Financial 
Disclosure Reports was May 15, 2001. The reports were available to the 
public and press by Thursday, June 14th. Copies were provided to the 
Select Committee on Ethics and the appropriate State officials. A total 
of 2,500 reports and amendments were filed containing 13,579 pages.
    Senate Rule 35 (Gift Rule).--The Senate Office of Public Records 
received over 1,180 reports during fiscal year 2001.
Page School
    The United States Senate Page School exists to provide a smooth 
transition from and to the page students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the nation's capital, within the 
limits of the constraints imposed by the work situation.
    I am very proud to tell this Subcommittee that Accreditation has 
been continued until December 31, 2008. The Middle States Commission on 
Secondary Schools reviewed the progress report filed By the U.S. Senate 
Page School and notified the school that no further reports are 
required before the next evaluation year.
    Summary of accomplishments:
  --Evacuation of pages was successful. Effects of the tragic events 
        that occurred on September 11, 2001, were significant but 
        controlled. School and residential staff immediately evacuated 
        pages to a Maryland shore location. Pages were lodged in a 
        hotel overnight and returned for work by 7:00 A.M. on September 
        12, 2001. Parents were immediately notified of the location and 
        safety of their children via telephone calls made by the 
        principal. Pages were allowed to use the telephone to speak 
        with family members as often as they felt the need to do so. 
        Telephone updates continued throughout September and October in 
        the aftermath of the contaminated mail. Sessions were conducted 
        by psychologists from the APA and attended by both staff and 
        pages. Mail sent to pages was addressed to the principal's home 
        and delivered each morning. Staff exercised vigilance to 
        monitor any negative reaction by pages. An evacuation plan and 
        COOP have been completed.
  --Extended educational experiences were provided to pages. Seventeen 
        field trips, eight guest speakers, opportunities to compete in 
        writing contests, to play musical instruments, and to continue 
        foreign language study with the aid of tutors were all afforded 
        pages. National tests were administered for qualification in 
        scholarship programs as well.
  --Pages and staff embraced a community Service project. LTC Brian 
        Birdwell, a burn victim of the Pentagon tragedy was ``adopted'' 
        and various forms of support to Col. Birdwell and his family 
        were supplied. Forms of support included visits to the 
        hospital, sending cards and letters, creating and delivering a 
        gift basket with an item from every state, and taking his son 
        with the pages to the Army/Navy football game. The Birdwell 
        family was invited to and attended the Closing Ceremony as 
        guests of honor.
  --Purchases have been made to update materials. These included 
        calculators, new history and government texts and support 
        materials, and Advanced Placement manuals for Calculus AB and 
        BC, as well as Advanced Placement Calculus software. 
        Replacement copies of paperback novels for English classes were 
        purchased as well as the MLA Handbook (style manual).
  --Faculty has pursued learning opportunities. Math and science staff 
        members attended Advanced Placement seminars in calculus, 
        chemistry, and physics.
  --Pages successfully completed the semester curriculum. Closing 
        Ceremony was conducted on January 18, 2002, the last day of 
        school for the semester.
  --Orientation and course scheduling for the second semester pages was 
        conducted on Tuesday, January 22, 2002. Classes began on 
        Wednesday, January 23, 2002. The needs of the incoming students 
        determined the second semester schedule.
    Summary of future goals:
  --Extended day schedules, tutoring by teachers on an as-needed basis, 
        and individualized small group instruction will be offered.
  --Foreign language tutors will provide instruction in French, 
        Spanish, German, and Latin.
  --The focus of field trips will be historically and politically 
        significant sites and events. We will add trips to the National 
        Building Museum, the National Postal Museum, Gettysburg and the 
        Eisenhower National Historic Site.
  --Staff development opportunities for 2002 include the option of 
        additional computer training for all staff, as well as seminars 
        conducted by Education and Training. Subject matter conferences 
        conducted by national organizations supporting the various 
        academic disciplines will be considered.
  --A new chemistry text and supporting software to provide students 
        the ability to conduct simulated experiments will be purchased 
        for use in the Fall, 2002. Additionally, a telescope will be 
        purchased for use in the physics course.
  --Evacuation procedures and safety seminars will be planned for all 
        tutors.
  --Coordination of communication among SAA, SOS, Page Program, Page 
        School, and Cloakrooms will be worked into written procedure, 
        as will be emergency protocol for psychiatric/psychological 
        care for pages.
  --Creation of curriculum to support a summer academic session will be 
        completed.
Printing and Documents
    The Office of Printing and Document Services is responsible for 
managing the printing and/or distribution of the Senate's official 
Title 44, U.S. Code printing requirements. The office manages Senate 
Printing expenses, and functions as the Government Printing Office 
liaison to schedule and/or distribute Senate bills and reports to the 
Senate Chamber, staff, and the public. The department provides page 
counts of Senate hearings to commercial reporting companies and Senate 
committees; orders and tracks all paper and envelopes provided to the 
Senate; provides general printing services for Senate offices; and 
assures that all Senate printing is in compliance with Title 44, U.S. 
Code, as it relates to Senate documents, hearings, committee prints, 
and other official publications.
    In the previous two years the OPDS staff was downsized by 25 
percent. During this time, the office has also implemented efforts to 
consolidate duties and cross-train personnel. In 2000, the office began 
a ``cross-working'' program in an effort to maintain office continuity 
through unforeseen events. A staff member from the printing department 
would spend a certain amount of time each week performing the duties of 
a document specialist, including ``counter time'' and/or answering 
legislative inquiries. A document specialist, on the other hand, would 
process printing and binding requisitions--completing a given number 
per week to fulfill a minimum ``cross-working'' requirement. The 
advantages to having this multi-trained staff are (1) quick response 
capability to changes within the department and (2) the flexibility to 
reduce overall staffing through better human resource management.
    During 2001, OPDS provided commercial reporting companies and 
corresponding Senate committees a total of 1,004 billing verifications 
of Senate hearings and business meetings. Billing verifications are how 
the reporting committees request payment from a Senate committee for 
transcription services. Although some hearings are cancelled or 
postponed, they still require payment to the reporting company. This is 
an average of 48 hearings/meetings per committee, and a 10.3 percent 
increase over 2000.
    The OPDS utilizes a program developed in conjunction with the 
Sergeant at Arms Computer Division that provides more billing accuracy 
and greater information gathering capacity, while adhering to the 
guidelines established by the Senate Committee on Rules and 
Administration for commercial reporting companies to bill the Senate 
for transcription services.

                            CHART EIGHT: HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                                       PERCENT
                                                                  1999         2000         2001     CHANGE 2001/
                                                                                                         2000
----------------------------------------------------------------------------------------------------------------
Billing Verifications.......................................        1,214          910        1,004         10.3
Average per Committee.......................................           58           43           48         11.6
Total Transcribed Pages.....................................       80,228       61,898       72,799         17.6
Average Pages/Committee.....................................        3,820        2,814        3,467         23.2
Transcribed Pages Cost......................................     $508,815     $401,231     $479,921         19.6
Average Cost/Committee......................................      $24,229      $18,238      $22,853         25.3
----------------------------------------------------------------------------------------------------------------

    During fiscal year 2001, the OPDS prepared 5,359 printing and 
binding requisitions authorizing the GPO to print and bind the Senate's 
work, exclusive of legislation and the Congressional Record. This is an 
increase of 9.1 percent over the number of requisitions processed 
during fiscal year 2000. In addition to processing requisitions, the 
OPDS also coordinates job scheduling, proof handling and job tracking 
for stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products.
    The Service Center within the OPDS is staffed by experienced GPO 
detailees that provide Senate committees and the Secretary of the 
Senate's Office with complete publishing services for hearings, 
committee prints, and the preparation of the Congressional Record. 
These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
because committees have been able to decrease or eliminate additional 
overtime costs associated with the preparation of hearings.
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and the GPO. This 
section ensures that the most current version of all material is 
available, and that sufficient quantities are available to meet 
projected demands.
    In 2001, a total of 25,051 pages were printed in the Congressional 
Record. Of this total, 14,084 pages were printed for the Senate, and 
10,967 pages were printed for the House of Representatives. These page 
counts are comprised of the Proceedings of the Senate and the House of 
Representatives, Extension of Remarks, Digest and miscellaneous pages. 
A total of approximately 1.3 million copies of the Congressional Record 
were printed and distributed in 2001. The Senate received 318,572 
copies, the House 459,477, with the remaining 492,915 delivered to the 
Executive Branch agencies and the public at large.

                               CHART NINE: DOCUMENT SERVICES--CONGRESSIONAL RECORD
----------------------------------------------------------------------------------------------------------------
                                                                       1999            2000            2001
----------------------------------------------------------------------------------------------------------------
Total Pages Printed.............................................          32,184          28,232          25,051
    For the Senate..............................................          15,867          12,469          14,084
    For the House...............................................          16,317          15,763          10,967
Total Copies Printed & Distributed..............................       1,500,000       1,300,000       1,300,000
    To the Senate...............................................         340,709         450,842         318,572
    To the House................................................         483,034         308,842         459,477
    To the Executive Branch and the Public......................         629,787         540,316         492,915
Total Production Costs..........................................     $17,400,000     $14,966,755     $15,428,530
    Senate Costs................................................      $8,100,000      $6,364,265      $7,452,933
    House Costs.................................................      $8,300,000      $7,920,490      $7,333,134
    Others' Costs...............................................      $1,000,000        $682,000        $642,462
Per Copy Cost...................................................          $11.63          $11.51          $12.14
----------------------------------------------------------------------------------------------------------------

    The OPDS continually tracks demand for all classifications of 
Congressional legislation. Twice a year the office adjusts the number 
of documents ordered by classification (example: Introduced in the 
Senate). The goal is to adjust numbers ordered in each classification 
to closely match demand and thereby reduce waste. In recent years, OPDS 
has taken a more aggressive approach to reducing waste of less 
requested legislation. The office supplements depleted legislation 
where needed by producing additional copies on the DocuTech machine 
located in the OPDS office. While OPDS curtails waste, at the same time 
the office pledges never to run out of copies of legislation.
    The primary responsibility of the Documents Services Section is to 
provide services to the Senate. However, the responsibility to the 
general public, the press, and other government agencies is virtually 
indistinguishable from those services provided to the Senate. Requests 
for material are received at the walk-in counter, through the mail, by 
fax, by telephone, and email. Recorded messages, fax, and email operate 
around the clock and are processed as they are received, as are mail 
requests.

                                     CHART TEN: SUMMARY OF ANNUAL STATISTICS
----------------------------------------------------------------------------------------------------------------
                                     CONGRESS/      CALLS                                              COUNTER
           CALENDAR YEAR              SESSION      RECEIVED   PUBLIC MAIL  FAX REQUEST     EMAIL       REQUEST
----------------------------------------------------------------------------------------------------------------
1997..............................      105/1st       60,926       12,739        7,261          N/A          N/A
1998..............................      105/2nd       35,116        8,131        5,162          N/A      113,862
1999..............................      106/1st       27,570        6,872        4,036          N/A      156,454
2000..............................      106/2nd       17,356        4,066        3,129          112       95,186
2001 \1\..........................      107/1st       16,186        3,449        2,093          621       88,769
----------------------------------------------------------------------------------------------------------------
\1\ From October 17, 2001 until January 22, 2002 the Document Room was displaced to the Capitol (Room S-333 and
  operated with one telephone and one computer, thereby limiting capabilities.

            The OPDS Response to the Events of September 11, 2001
    The events of October 15, 2001 compelled the OPDS to be relocated 
to the Capitol building. The OPDS began operations in Room S-333 of the 
Capitol on Monday, October 22, 2001, and returned to the Hart Building 
(Room SH-B04) Tuesday, January 22, 2002.
    Despite space limitations and having the access to just one 
telephone and one computer, the OPDS managed to fulfill all its 
obligations to the Senate Chamber, staff, committees, and the public 
with minimal delays. OPDS processed 979 printing and binding 
requisitions (an average of 17.18/day) during this time. This was 
actually 19 more than for the same period last year. Also, during the 
period from November 15th, when a computer with duplicate programs from 
OPDS was installed in S-333, OPDS processed 201 Hearing Billing 
Verifications--this was about 20 percent of the total for the entire 
year.
    On November 28th, the GPO delivered the Report of the Secretary of 
the Senate (April 1, 2001 through September 30, 2001) to the Senate 
Library, where it was met by OPDS staff. The report was then packaged, 
labeled, and delivered on time.
    With space at a premium, OPDS stored only the documents that were 
to be taken up on the Senate floor, reported on the Senate Calendar or, 
any appropriation conference reports. The balance of Bills, Public 
Laws, Resolutions were held at the GPO. Documents of all types, and 
from various Congresses, were requested by both the Senate staff and 
the public. Efforts were made to have the staff or public utilize the 
Webster or Thomas Web site to obtain a given document. Generally, the 
better response came from the public. At least once during the day, a 
list would be faxed to GPO and they would fulfill requests. GPO 
delivered most of the documents directly to the requesting offices, and 
the balance to S-333. OPDS would then either mail them or package them 
for public pick up at the Appointment Desk on the first floor of the 
Capitol. SAA employees at the Appointments Desk in the Capitol provided 
invaluable assistance during this time which we wish to recognize.
    Despite being removed from its normal location for a period of 
time, the OPDS met its obligations. Printing requests from Senate 
offices were processed and delivered, and documents were delivered to 
the Senate Chamber and were made available to Senate staff and the 
public. Daily Legislative and Executive Calendars were delivered with 
the morning newspapers.
            Online Ordering
    The OPDS is constantly seeking new ways to use technology to assist 
Members and staff with added services and enhancements to current 
methods. Beginning in late 2000, Senate offices, by way of a link to 
the Secretary of the Senate's home Web page, could order legislative 
documents online. Via the same link, a Legislative Hot List Link was 
launched shortly afterwards. At this site, Members and staff can 
confirm arrival of printed copies of the most sought after legislative 
documents. The site is updated several times daily--each time new 
documents arrive from GPO in the Document Room. And OPDS has 
implemented a new ``Printed Legislative Inventory System'', or PLIS. 
This system tracks all legislation as to its location and availability.
Stationery Room
    The Senate Stationery Room's principal functions are: (1) to sell 
stationery items for use by Senate offices and other authorized 
legislative organizations, (2) to select a variety of stationery items 
to meet the needs of the Senate on a daily basis and maintain a 
sufficient inventory of these items, (3) to purchase supplies utilizing 
open market procurement, competitive bid and/or GSA Federal Supply 
Schedules, (4) to maintain individual official stationery expense 
accounts for Senators, Committees, and Officers of the Senate, (5) to 
render monthly expense statements, (6) to insure receipt of all 
reimbursements for all purchases by the client base via direct payments 
or through the certification process, (7) to make payments to all 
vendors of record for supplies and services in a timely manner and 
certify receipt of all supplies and services, and (8) to provide the 
deliver of all purchased supplies to the requesting offices.

         CHART ELEVEN: STATIONARY ROOM 2001 AND 2000 OPERATIONS
------------------------------------------------------------------------
                                                Fiscal Year  Fiscal Year
                                                    2001         2000
                                                Statistical  Statistical
                                                 Operations   Operations
------------------------------------------------------------------------
Gross Sales...................................   $3,610,804   $3,227,951
Sales Transactions............................       62,970       56,972
Purchase Orders Issued........................        6,770        6,132
Vouchers Processed............................        7,951        6,412
Metro Fare Media Sold.........................       19,621       17,232
------------------------------------------------------------------------

    The Stationery Room provided each Senator-elect participating in 
the Senators Orientation Program in December 2000 with a Welcome 
Package. This package contained useful information relating to the 
operation of the Stationery Room, its services and products and 
suggestions to help each new office become operational. The Stationery 
Room assisted the Senators-elect staff by providing them with initial 
supplies, stationery letterheads, business cards and helped them 
transition from the election to a Senate employee on January 3, 2001.
    The accounts receivable interface between the Stationary Room and 
the Disbursing Office was finalized after development and testing. 
Initially started in fiscal year 2000, the interface imports 
expenditure information from each customer account that is certified 
for reimbursement in a Disbursing Office system format. It is then 
transmitted via e-mail to the Disbursing Office system for 
reimbursement to the Stationery Room Revolving Fund. This process has 
eliminated the need for issuing paper checks, a labor-intensive process 
for all offices involved.
    At the request of the Secretary of the Senate, the General 
Accounting Office was requested to conduct a Financial Audit of the 
Stationery Room during fiscal year 2001. This audit consumed 
approximately twenty-five percent of the Stationery Room staff and 
resources, in order to provide the GAO with the necessary information 
and documents to conduct their audit of the operation. The GAO findings 
were finalized and published in January 2002.
    During last quarter of fiscal year 2001, the Stationery Room 
implemented a new interface with the Disbursing Office to improve the 
workflow of vouchers submitted to the Disbursing Office for processing. 
This process allows for the Stationery Room to submit electronically 
via e-mail, spreadsheet files that have information imported into it 
from the Stationery Room system to a format that is then uploaded to 
the Disbursing Office system. This has eliminated the need for 
Disbursing Office staff to manually enter the data for payment 
generation. The finalization of this project, which will involve the 
Disbursing Office returning this electronic file with their data 
included for reconciliation of the Revolving Fund, should be concluded 
in the 3rd quarter of fiscal year 2002. The last month of fiscal year 
2001 was extremely demanding on the Stationery Room operation and its 
staff. This period is always the busiest because of heavy year-end 
purchases by Senators, Committees and Leadership offices. During this 
period, sales activity generated was five-fold in comparison to prior 
months.
    The Stationery Room is investigating the feasibility of creating an 
on-line intranet desktop ordering system for Senate users. We are 
currently analyzing cost, security, confidentiality, interface 
obstacles, the type of products that might be included, user 
friendliness, definitions of who the users would be, and possible 
staffing requirements. Our goal is to have this in place by the end of 
fiscal year 2003. The Web FMIS access for the Stationery Room was 
installed for testing during March 2002. This project allows for key 
Stationery Room staff to access the Disbursing Office via the Web to 
perform a number of management operations.
            Effects of the Hart Building Closure
    The Stationery Room operation adjusted its methods of operation 
when the Hart building was closed. All inbound mail, including 
invoices, destined for the Stationery Room was halted along with all 
other offices. Mail was then and now continues to be hand-delivered by 
vendors, e-mailed and faxed to the Stationery Room so that prompt 
payment for goods and future shipments of product can continue in a 
timely manner.
    The Hart-Dirksen loading dock was closed to all delivery traffic. 
Deliveries were met on the street by Stationery Room staff. Merchandise 
was then moved utilizing borrowed equipment. During the loading dock 
closure, a staff member was permanently stationed on the street, to 
insure deliveries were not turned away or missed.
    Since all of the Stationery Room material handling equipment was 
sequestered in the Hart Building, staff had to constantly borrow 
equipment that was in short supply to move pallets of product from and 
to various locations. On one specific occasion, we had a forty-foot 
tractor-trailer containing twenty-seven pallets of flags to be 
delivered to the Stationery Room. Stationery Room staff had to manually 
unload the tractor trailer carton by carton, and re-palletize the 
cartons on the street. Staff relied on some of our vendor sales 
representatives to hand carry product to our location, or to an office 
in critical need. Stationery Room staff met vendors at various 
locations to take possession of critical products to insure timeliness 
of deliveries to the customer. Stationery Room staff also were 
dispatched to various vendor locations in the metropolitan area to pick 
up products. In addition, with the closing of the Hart Building and, in 
notably our warehouse, the Stationery Room was faced with the dilemma 
of where to store products. We solved this problem by developing a plan 
to institute JIT (Just In Time) ordering and delivery capabilities.
    As yet another example of the Secretary's departments helping each 
other, office space, supplies and equipment were provided by the 
Stationery Room to the Disbursing Office during this period to help 
them provide services to Senators and their staffs. This arrangement 
created substantial traffic in the administrative offices of the 
Stationery Room due to the Open Enrollment of Health Plans and the TSP 
Plan open seasons managed by the Disbursing Office staff.
Student Loan Program
    The new student loan repayment program is operational. The Office 
of the Secretary was tasked with drawing up the required documents, 
which has been done. We have also held a series of briefings, first for 
Office Managers and staff responsible for implementing the program in 
each office, and more recently for any staff interested in learning 
more about the program. We have also arranged with the joint Office of 
Education and Training to build in a segment about the new program for 
all new staff orientation. And the Disbursing Office has designated a 
lead person to handle staff calls to provide consistent answers and 
schedule additional briefings as necessary. The first information we 
have from the Disbursing, as of April 12, 2002, shows 25 staff from 10 
different Senate offices are now enrolled in the program.
                mandated systems and financial services
Legislative Information System Augmentation (LISAP) and the XML 
        Authoring Application
    We are in the midst of an historic transformation of how 
legislation is authored in the Senate. The Appropriations Committee 
dedicated $7 million in fiscal year 2002 so that development of our own 
authoring language, based on the new XML data standard, could begin. We 
have contracted for the beginning of the project, but of more 
importance, we have hired our own staff, as has the Sergeant at Arms, 
so that the Senate is building its own internal XML expertise. This is 
cost effective, and it builds an infrastructure that will benefit the 
Senate for years to come.
    Mr. Chairman, I am very proud of this project and very proud of the 
LIS/XML team and the productive partnership we have formed with the 
Sergeant at Arms. The team includes, in addition to staff from the 
Sergeant at Arms, employees of the Library of Congress and the GPO. Our 
two most important clients during the current phase are the Senate's 
Legislative Counsel and our own Enrolling Clerk. By the beginning of 
the next Congress, the 108th, we will produce our very first Resolution 
using the new tool.
            History and Background: LIS
    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of all 
Senate legislative information and supporting documents. The 1997 
Legislative Branch Appropriations Act (2 U.S.C. 181) also established a 
program for providing the widest possible exchange of information among 
legislative branch agencies.
    The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a system for the 
authoring and exchange of legislative documents. The authoring and 
exchange systems will create standard authoring processes and document 
exchange formats that will greatly enhance the availability and re-use 
of legislative documents within the Senate and with other legislative 
branch agencies. The LIS Project Office manages the project and 
oversees the Senate's current contractor.
    An April 1997, joint Senate and House report recommended 
establishment of a data standards program using the Standard 
Generalized Markup Language (SGML) as ``an appropriate technology on 
which to base the preparation of legislative information and document 
management systems.'' The report further noted that ``. . . standards 
will evolve over time as technology and the capacity of offices and 
agencies to adopt these technologies evolves.'' Since that time, as 
anticipated, a subset of SGML known as the eXtensible Markup Language 
(XML) became an industry standard, and in December 2000, the Senate 
Committee on Rules and Administration and the Committee on House 
Administration jointly accepted XML as the primary data standard to be 
used for the exchange of legislative documents and information.
    Following the January 2000 implementation of the Legislative 
Information System (LIS) in January 2000 and the transfer of operations 
and maintenance of the LIS to the Office of the Sergeant at Arms (SAA) 
in March 2000, the LIS Project Office shifted its focus to procuring 
system development services in support of an LIS Augmentation Project 
(LISAP). In July 2000, the Committee on Rules and Administration 
directed that the scope for the LISAP procurement should include the 
data standards project, a document management system for the Senate 
Legislative Counsel (SLC), and an LIS security assessment. On October 
25, 2000, the procurement under a General Services Administration 
schedule was awarded to IBM Global Services to provide the LISAP System 
Requirements Specification for the following:
  --A Senate-wide implementation and transition to the XML data 
        standard for the authoring and exchange of legislative 
        documents
  --A document management system (DMS) for the Office of the 
        Legislative Counsel
  --A development facility for implementation of the above
  --A security assessment of the LIS.
    The XML data standard component focuses on providing a Senate-wide 
implementation and transition to XML for the authoring and exchange of 
legislative documents. This component of the LISAP also includes the 
review and update of existing document type definitions (DTD), 
development of new DTDs, the conversion of legacy documents to XML 
formats, and conversion of documents in other formats to XML.
            LISAP: First Phase 2001
    The first phase of the LISAP identified the stakeholders, 
documented the processes, and defined the system requirements for the 
authoring and exchange components. The phase concluded in August 2001 
with the contractor delivering the following: (1) the operational 
concept document, (2) the system requirements specification, (3) system 
test and deployment plan, (4) user interface prototype, (5) systems 
requirements review, and (6) the security assessment report. Project 
activities and progress were reported to project participants in a bi-
weekly status meeting. The system requirements review, conducted over 
two days in mid August for all stakeholders, provided an opportunity 
for a question and answer session with IBM as they reviewed the events 
and deliverables of the first phase.
    LISAP project activities included interviews with the Senate Office 
of the Legislative Counsel, House Office of the Legislative Counsel, 
committees who draft their own legislation, committees who use 
Legislative Counsel for drafting services, clerks in the Office of the 
Secretary of the Senate, staff of the Senate Sergeant of Arms, Library 
of Congress and the Congressional Research Service, Government Printing 
Office, and Office of the Clerk of the House. Interview questions 
focused on legislative document types and the processes for authoring/
editing, exchange, storage and retrieval, printing and distribution and 
also inquired about the use of legacy documents, workflow, archiving, 
and reports. The information gathered in the interviews was documented 
and used as input in producing the deliverables for this phase.
    With the exception of the LIS Information Security Review Report, 
which had a select distribution, all of the LISAP deliverable documents 
can be found on the LISAP website at http://156.33.247.66/lisap/
basedocuments.html. The products from the first phase will be used in 
later phases to develop the detailed requirements, overall system 
design, and implementation strategy for building the Senate-wide XML 
authoring and exchange capability.
    A database of documents created in the XML format and an improved 
exchange process will result in quicker and better access to 
legislative information and will provide documents that can be more 
easily shared, re-used, and re-purposed. Parts of one XML document can 
be re-used in another XML document because the document structure is 
similar and the format of the data (XML) is standard. As more and more 
documents are created in the XML format, the necessity for re-keying or 
converting from one type of format to another (HTML to WordPerfect or 
XyWrite locator to Word or Word to WordPerfect, et cetera) will 
disappear.
    Midway through the first phase, at the request of the Committee on 
Rules and Administration, the scope for subsequent phases of the 
project was narrowed to concentrate on the XML solution for those 
offices currently using XyWrite to author legislative documents. The 
Office of the Legislative Counsel and the Office of the Enrolling Clerk 
produce approximately 90 percent of bills, resolutions, and amendments, 
and our effort is now concentrated on these offices.
            A Description of XML
    For many years, the Legislative Counsels, Enrolling Clerks, several 
Committees, and the Government Printing Office have been using a 
proprietary, DOS-based system (Xywrite) for legislative drafting. 
Xywrite provides a workspace to enter text and the typesetting codes 
(referred to as locator or bell codes) that drive GPO's Microcomp 
composition software. Other offices that draft legislation use various 
word processing software, and these documents must be re-keyed or re-
coded into the present Xywrite system in order to be used, printed, and 
exchanged. The embedded typesetting codes are specific to paper output 
only and provide minimal information for formatting documents for the 
Web or for building useful searchable databases. The Xywrite/Microcomp 
system has been customized by GPO and the Senate and House Legislative 
Counsels.
    Although the present Xywrite system is reasonably efficient for 
long-time users, for new users it is a cumbersome, difficult-to-learn 
system that runs on an unfamiliar, out-of-date DOS platform. The 
XyWrite system also presents file size and memory problems that inhibit 
production and occasionally cause system failures.
    XML also uses embedded codes (called tags) in the document, but 
these codes describe the content of the document, not how it should be 
formatted. For example, in an introduced bill prepared with ``bell'' 
codes, the Congress, session, sponsor and all co-sponsors are preceded 
by the same code that indicates that the text should be printed in a 
large and small caps font. The data looks something like this (codes 
are bold):
    <bell>I41107<bell>T4th CONGRESS
    <bell>I421<bell>T4st Session
    <bell>I47Mr. <bell>T4BYRD<bell>T1 (for himself and Mr. 
<bell>T4STEVENS<bell>T1) introduced the following bill
    This same data, tagged in XML, looks like this (tags are bold):
    <congress>107th Congress</congress>
    <session>1st Session</session> <action><sponsor>Mr. Byrd</sponsor> 
(for himself and <cosponsor>Mr. Stevens</cosponsor>) introduced the 
following bill</action>
    The XML tags and the text of the document are stored together as an 
ASCII text file; however, the tags can be hidden from view and the text 
can be formatted for display on the screen. The XML tags in the 
document are read by computer software that formats the text (changing 
fonts, indentation, etc.) for printing to paper or displaying to the 
screen. XML tags also provide more precise information for search and 
retrieval. For example, the XML tagging above would provide a way for a 
computer search to distinguish between the bills sponsored by Senator 
Byrd and those co-sponsored by him. XML uses a document type 
description (DTD) to specify the rules concerning the content and 
structure of the document. A DTD would describe the hierarchical 
structure of section, subsection, paragraph, subparagraph, clause, 
subclause, item and specifies that a bill may contain only one sponsor, 
but may have multiple cosponsors. This ``rules-based'' authoring/
editing provides many potential benefits for automating drafting 
functions. The DTD enforces the rules during document creation, which 
provides a consistent document structure.
            Framework, Timetable, Deliverables of the LIS Project
    In October 2001, the Secretary's LIS Project Office added a 
software engineer and provided oversight for two consultants from IBM 
to conduct an 8-week evaluation of an XML authoring application being 
built by the Office of the Clerk for the House Office of the 
Legislative Counsel and the House Enrolling Clerk. The application, 
which is built in XMetaL, is in limited use for House simple 
resolutions, and the Senate contract looked at its applicability for 
Senate simple resolutions, as well as its potential for use for larger, 
more complex documents.
    Progress and findings were reported to representatives from the 
Senate Legislative Counsel, the Offices of the Secretary and the 
Sergeant at Arms, the Government Printing Office, and the Library of 
Congress in bi-weekly status meetings. In addition to the evaluation, 
this contract phase produced a comprehensive list of requirements for 
the SLC editorial system, an examination of the feasibility of 
developing an automated conversion from GPO locator codes to XML tags 
for legacy data, and a review of the resolution DTD in use by the 
House.
    Although the House application proved to be a very ambitious, well-
conceived effort that provided most of the high priority requirements 
identified by the SLC, it did not support the general editing 
activities of the Senate Legislative Counsel in an easy, 
straightforward manner. Two different XML editors and alternative 
application approaches were considered. The abbreviated evaluation of 
alternatives concluded that no product has a decisive advantage in 
resolving all of the issues. Following a briefing for the Clerk and 
House developers, the Senate chose to move forward with XMetaL as the 
XML editor on which the authoring/editing application for bills is to 
be built.
    In February 2002, an additional systems analyst from the Office of 
the Sergeant of Arms was added to the project team. Under a new 
contract with the outside contractor, two consultants returned to 
assist in the creation of use cases and the design and development of 
several functions within the editor to address the general editing 
requirements. Use case analysis is a software engineering technique for 
codifying the behavior of computer systems in order to make explicit 
the expectations from all parties. Use cases define a sequence of 
interaction between those people and other entities that interact with 
the system and the responses that the system should make. This serves 
to define the external interfaces of the system and provides functional 
acceptance tests to verify that the functions have been developed 
correctly.
    An XML authoring application will begin to emerge from this phase 
and several SLC users will be recruited to participate in 
demonstrations, provide feedback, and assist in the development of 
training materials and classes. A select number of SLC users could 
begin testing a beta version of the software by mid-summer. 
Development, implementation and training will continue through the end 
of the year. We have targeted the beginning of the 108th Congress for 
the first rollout and use of the application by the Senate Legislative 
Counsel and the Senate Enrolling Clerk. During this time the Office of 
the Secretary will work closely with the Senate Sergeant at Arms, the 
Office of the Clerk, the Government Printing Office, and the Library of 
Congress to establish a technical working group and a coordinated 
development effort for the authoring, printing, and exchange of XML 
documents.
    Completion of the XML authoring application for bills, resolutions, 
and amendments will establish a framework on which to build 
applications for other legislative documents. Bills are the first 
document type to be implemented because many elements in bills are 
common to other legislative document types including resolutions, 
amendments, conference reports, compilations, committee reports, the 
U.S. Code, and the Congressional Record.
Financial Services: The Disbursing Office
    The Senate paid its bills in a timely and thorough manner following 
the events of September 11 and October 15, 2001. We did not miss a 
payroll. Senate invoices were paid by creating a duplicate system, 
paying particular attention to smaller vendors who may have been more 
dependent upon timely payments.
            The Financial Management Information System (FMIS) 
                    Strategic Initiative
    We have requested $5 million to continue the modernization of the 
Senate's Financial Management Information System. With these funds the 
Secretary will pursue the following five strategic initiatives within 
the Disbursing Office:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot project, we will implement new technology, including 
        imaging and electronic signatures, that will reduce the 
        Senate's dependence on paper vouchers. This will enable voucher 
        processing operations from any location, in any situation;
  --Web FMIS--Requests from Accounting Locations.--We will respond to 
        requests from the Senate's Accounting Locations for additional 
        functionality in Web FMIS. We have several specific requests 
        from the Rules Committee, we anticipate additional requests 
        from Senate offices for security management, and we have 
        requests from Senate Offices for a series of new monthly 
        reports;
  --Payroll System--Requests from Accounting Locations.--We will 
        respond to requests from the Senate's Accounting Locations for 
        on-line real time access to payroll data, the capacity to 
        project payroll more than twice a month, and the ability to 
        submit payroll actions online;
  --Accounting Sub-system Integration.--We will integrate Senate-
        specific accounting systems, improve internal controls, and 
        eliminate errors caused by re-keying of data. This includes 
        updates to the approval process, the ability to track not-to-
        exceed budget amounts, and contract tracking; and,
  --CFO Financial Statement Development.--We will provide the Senate 
        with the capacity to produce auditable financial statements 
        that will obtain an unqualified opinion.
    Each of these initiatives and the specific projects composing these 
initiatives is described more fully in the separate briefing book on 
the Strategic Initiative. The flexibility of no year funding assists 
the Secretary and the Disbursing Office in implementing initiatives of 
this size and complexity. The previous FMIS funding of $7 million in 
multi-year funding was a key factor in successful execution of the 
long-term initiatives proposed when that funding was requested and 
granted.
            Background and Report of the Disbursing Office
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the distributed, individually managed 
offices, and to Members and employees of the United States Senate. To 
accomplish this mission, the Senate Disbursing Office manages the 
collection of information from the distributed accounting locations in 
the Senate to formulate and consolidate the agency level budget, 
disburse the payroll, pay the Senate's bills, prepare auditable 
financial statements, and provide appropriate counseling and advice. 
The Senate Disbursing Office collects information from Members and 
employees that is necessary to maintain and administer the retirement, 
health insurance, life insurance, and other central human resource 
programs to provide responsive, personal attention to Members and 
employees on a non-biased and confidential basis. The Senate Disbursing 
Office also manages the distribution of central financial and human 
resource information to the individual Member Offices, Committees, and 
Administrative and Leadership offices in the Senate while maintaining 
the appropriate control of information for the protection of individual 
Members and Senate employees.
    To support the mission of the Senate, the Disbursing Office is 
structured to provide quality work, maintain a high level of custom 
service, promote good internal controls, efficiency and teamwork, and 
provide for the appropriate levels of supervision and management. The 
long-term financial needs of the Senate are best served by an 
organization staffed with comprehensive institutional knowledge, sound 
judgment, and interpersonal skills that reflect the unique nature of 
the United States Senate.
    Deputy for Benefits and Financial Services.--This Deputy serves as 
the Senate's expert on Federal retirement and benefits as well as 
payroll and front office processes and coordinates the interaction 
between the Financial Services, Employee Benefits and Payroll sections. 
Ensuring that job processes are efficient and up to date, modifying 
computer support systems, planning and project management of new 
computer systems, implementing regulatory and legislated changes, 
designing and producing up to date forms for use in all three sections 
are additional areas of responsibility.
    Front Counter--Administrative and Financial Services.--The Front 
Counter is the main service area for all general Senate business and 
financial activity. And maintains the Senate's internal accountability 
of funds used in daily operations. Training is provided to newly 
authorized payroll contacts along with continuing guidance to all 
contacts in the execution of business operations. It is the receiving 
point for most incoming expense vouchers, payroll actions, and employee 
benefits related forms, and is the initial verification point to ensure 
that paperwork received in the Disbursing Office conforms to all 
applicable Senate rules, regulations, and statutes. The Front Counter 
is also the first line of service provided to Senate Members, Officers, 
and employees. All new Senate employees (permanent and temporary) who 
will be working in the Capitol Hill Senate offices are administered the 
required oath of office and personnel affidavit and provided verbal and 
written detailed information regarding their pay and benefits. 
Authorization is certified to new and state employees for issuance of 
their Senate I.D. card.
    During the Hart Building closure, Front Office operations were 
continuously maintained. At first, operations were move to the Office 
of the Assistant Secretary of the Senate in S-319. After six weeks, the 
need for limited computer access and the increased number of Senate 
staff conducting official business prompted a move to the Keeper of the 
Stationery's offices in SDB-42. Both the FEHB and TSP Open Seasons 
overlapped the closure period. Inconveniences to all Senate staff were 
kept to a minimum while maintaining a high level of customer service.
    Payroll Section.--The Payroll Section maintains the Human Resources 
Management System and is responsible for the following: processing, 
verifying, and warehousing all payroll information submitted to the 
Disbursing Office by Senators for their personal staff, by Chairmen for 
their committee staff, and by other elected officials for their staff; 
issuing salary payments to the above employees; maintaining the 
Automated Clearing House (ACH) FEDLINE facilities for the normal 
transmittal of payroll deposits to the Federal Reserve; distributing 
the appropriate payroll expenditure and allowance reports to the 
individual offices; issuing the proper withholding and agency 
contributions reports to the Accounting Department; and transmitting 
the proper Thrift Savings Plan (TSP) information to the National 
Finance Center (NFC), while maintaining earnings records for 
distribution to the Social Security Administration, and maintaining 
employees' taxable earnings records for W-2 statements, prepared by 
this section. The Payroll Section is also responsible for the payroll 
portion of the Report of the Secretary of the Senate.
    The events of September 11, 2001 set in process the review of our 
Payroll Disaster Recovery Processing. Before the review could be 
completed, the closing of the Hart Building forced the implementation 
of the existing plan. Following the evacuation of the Hart Building on 
October 17, 2001, the Payroll Section successfully procured an ACH 
processing agreement with a local financial institution; arrangements 
were made with other Government institutions to have reports, computer 
tapes and paper checks sent to Disbursing Office Managers' homes to 
ensure the proper delivery of information to the Disbursing Office; and 
ACH transmittal procedures were set up and tested with the surrogate 
bank. The Payroll Section processed and checked all transactions 
received at the remote site using creative methods of receiving the 
information. With the processing procedures in place, the Section was 
able to process six payrolls at the remote site.
    Employee Benefits Section.--The primary responsibilities of the 
Employee Benefits Section (EBS) are administration of health insurance, 
life insurance and all retirement programs for Members and employees of 
the Senate. This includes counseling, processing of paperwork, 
research, dissemination of information and interpretation of benefits 
laws and regulations. In addition, the section's work includes research 
and verification of all prior federal service and prior Senate service 
for new and returning appointees. EBS provides this information for 
payroll input and once Official Personnel Folders and Transcripts of 
Service are received, verifies the accuracy of the information provided 
and reconciles as necessary. Transcripts of Service including all 
official retirement and benefits documentation are provided to other 
federal agencies when Senate Members and staffers are hired elsewhere 
in the government. EBS processes employment verifications for loans, 
the Bar Exam, the FBI, OPM, and the Department of Defense, among 
others. Unemployment claim forms are completed, and employees are 
counseled on their eligibility.
    The primary challenges EBS faced this year were a result of the 
terrorist activities in September and October. As a result of 9/11 and 
the subsequent call-up of military reservists, EBS worked with the 
Office of Personnel Management (OPM) and other Senate entities to 
evaluate and interpret the rights of reservists and the 
responsibilities of the Senate under the provisions of USERRA in 
conjunction with their Senate employment, retirement and benefits. EBS 
counseled and educated office administrators and Senate employee 
reservists on their entitlements and options and assisted in providing 
a smooth transition to active duty. EBS assisted the Senate in 
developing legislation to provide a ``leave without pay'' status. 
Implementation of this new legislation is in progress.
    The closure of the Hart Building forced EBS to set up shop in a 
small space in Postal Square. EBS worked together to establish 
procedures for accepting and processing all the various benefits' 
forms, requests and retirement claims to provide information in a 
timely manner and maintain records while without most of our resources. 
Extensive access to information and forms were made available to Senate 
employees via the Intranet and Internet. The Disbursing Office Webster 
site was modified and publicized. DO established database access and 
continued to modify procedures and established flexible solutions so 
that there was no interruption to employee benefits or the ability to 
meet employee needs. Working with OPM, temporary procedures were 
established and implemented so that employees wishing to retire could 
do so and receive benefits without additional waiting time even though 
many of their records were locked in the Hart Building. While working 
in extremely limited space and with very limited resources, EBS 
continued to respond to employees, office and outside inquiries with 
their usual speed and effectiveness.
    Retirement case processing was heavy in 2001 due to the retirement 
of 11 Senators and the Vice President and the dissolution of their 
staffs as well as the resulting changes to committee staffs. Unique 
committee changes occurred due to the Senate's 50/50 make-up and 
subsequent midyear change of Senate majority. Retirement planning and 
counseling including extensive research and calculation of tentative 
retirement computations were at our normal level for the year.
    EBS worked with the Payroll Section and the Computer Center to 
develop and implement new procedures for the processing and reporting 
of health insurance enrollments and changes. Implementation occurred 
just prior to the October displacement, and proved to be extremely 
effective during the displacement. Reporting time has been 
significantly decreased, resulting in a higher level of enrollee 
satisfaction and a reduction in related phone inquiries. The annual 
FEHB Open Season was held during the displacement from Hart. Despite 
the inability to receive usual deliveries of Open Season materials, 
alternate means were developed to provide information and notify staff 
of their Open Season options. The Senate FEHB Open Season Health Fair 
was ``merged'' with the House of Representatives Health Fair due to the 
closure of the Hart Building. The successful merged Health Fair was 
attended by over 500 Senate employees in addition to employees of the 
House, Capitol Police, Architect of the Capitol and Senate Restaurant. 
The continued development of the Disbursing Office Webster site was 
essential as the usage and employee awareness greatly increased during 
the Open Season. A great number of FEHB plans changed or ceased 
participation. These required additional notifications and computer 
support.
    There were two TSP Open Seasons in 2001. Extensive changes to the 
TSP program required major computer modifications and education that 
were implemented from May to July 2001. This new information was 
disseminated to staff during the midyear TSP Open Season. The result 
was an excessively high number of inquiries as well as an extremely 
high volume of enrollments/changes. The second TSP Open Season occurred 
during the displacement. Two detailed retirement seminars on CSRS and 
FERS were conducted for interested Senate staff. The seminars were well 
attended and well received. Additionally, EBS staff regularly provided 
a panel participant for the monthly New Staff Orientation seminars and 
quarterly Senate Services Fairs held by the Office of Education and 
Training.
    Disbursing Office Financial Management.--Directed by the Deputy for 
Financial Management, the mission of Disbursing Office Financial 
Management (DOFM) is to coordinate all central financial policies, 
procedures, and activities to produce an auditable consolidated 
financial statement for the Senate and to provide professional customer 
service, training and confidential financial guidance to all Senate 
accounting locations. DOFM is segmented into three functional 
departments: Accounting, Accounts Payable, and Budget. The Deputy 
coordinates the activities of the three functional departments, 
establishes central financial policies and procedures, acts as the 
primary liaison to the HR Administrator, and carries out the directives 
of the Financial Clerk of the Senate.
    Financial Reporting Requirements--External.--Monthly financial 
reporting requirements to the Department of the Treasury include a 
Statement of Accountability that details all increases and decreases to 
the accountability of the Secretary of the Senate, such as checks 
issued during the month and deposits received, as well as a detailed 
listing of cash on hand. All activity by appropriation account is 
reconciled with the Department of the Treasury on a monthly and annual 
basis. The annual reconciliation of the Treasury Combined Statement is 
also used in the reporting to the Office of Management and Budget as 
part of the submission of the annual operating budget of the Senate.
    The Accounting Department also transmits all Federal tax payments 
on a monthly basis for Federal, Social Security, and Medicare taxes 
withheld from payroll expenditures, as well as the Senate's matching 
contribution for Social Security and Medicare to the Federal Reserve 
Bank on a monthly basis. The Department also performs quarterly 
reporting to the Internal Revenue Service (IRS) and annual reporting 
and reconciliation with the IRS and the Social Security Administration. 
Payments for Senate employees withholding for state income taxes are 
reported and paid on a quarterly basis to each state with applicable 
state income taxes withheld. Monthly reconciliations are performed with 
the National Finance Center regarding the Senate's employee withholding 
and agency matching contributions for the Thrift Savings Plan. All 
employee withholdings and agency contributions for life and health 
insurance, and federal retirement programs are transmitted to the 
Office of Personnel Management on a monthly basis. Any adjustment to 
employee contributions for any of the health, life, and retirement 
plans from previous accounting periods are also processed by the 
Accounting Department.
    Financial Reporting Requirements--Internal.--The Accounting 
Department prepares and transmits ledger statements monthly to all 
Member offices and all other offices with payroll and non-payroll 
expenditures. These ledger statements detail all of the financial 
activity for the appropriate accounting period with regards to official 
expenditures in detail and summary form. Substantial effort has been 
done in reformatting the monthly ledgers to comply with the requests 
and requirements of the Senate Offices.
    Report of the Secretary of the Senate.--On a semiannual basis, the 
Accounting Department prepares necessary reports and information to be 
included in the Report of the Secretary of the Senate. During this past 
year the Report of the Secretary of the Senate was redesigned. The 
Detailed and Summary of Statement of Expenditures section was modified 
to summarize information, based on OMB object code classification, and 
sort by voucher number within object code class, conforming more 
appropriately with the reporting requirements of the rest of the 
federal government. The Report of the Secretary, which has a statutory 
requirement to be made available to the public 60 days after the close 
of the reporting period, was published and delivered within the 
prescribed time even though the anthrax attack required that the work 
had to be done from the Postal Square facility.
    Financial management policies and procedures.--The Accounting 
Department has completed documenting the accounting policies and is 
preparing a procedures manual which will consist of detailed 
documentation of key procedures and flowcharts of system transactions. 
The customized documentation provides a good mechanism for staff 
training and identifies any information gaps in the day-to-day 
operations of the Disbursing Office.
    Accounts Payable.--The Accounts Payable Audit Section of the 
Accounting Department is responsible for auditing vouchers and 
answering questions regarding voucher preparation, answering questions 
concerning the permissibility of the expense, providing advice and 
recommendations on the discretionary use of funds by distributed 
accounting locations, identifying duplicate payments vouchered by 
offices, monitoring payments related to contracts, training new Office 
Managers and Chief Clerks about Senate financial practices, training 
Office Managers in the use of the Senate's Financial Management 
Information System, and assists in the production of the Report of the 
Secretary of the Senate. The Section also maintains the Senate's 
central vendor file that includes the addition of approximately 2,000-
3,000 new vendors per year to an existing vendor file of over 30,000 
vendors added and the collection of information to provide for EFT 
payments to them. Accounts Payable Disbursements is responsible for the 
receipt of over 124,000 individual expense vouchers and the writing and 
delivery of the resulting 60,000 checks. This office also prepared the 
monthly ledger statements for delivery to the 160 accounting locations 
throughout the Senate.
    Budget Department.--A key component of the continued restructuring 
of DOFM is the development of a Budget Department. The primary 
responsibility of the Budget Department is to compile the annual 
operating budget of the United States Senate for presentation to the 
Committee on Appropriations. The development of specialists in the 
budget area has allowed current staff with dual responsibilities in 
Accounting to focus their efforts on general ledger activity.
    Policy and Procedures Manual.--The objective of this project was to 
prepare an accounting policy and procedures manual to document the 
current policies and related processes that are part of the DO's 
Financial Management Group. The project started in December of 2000 and 
was completed in March 2001 with the final copies of all manuals 
delivered to the DO during June 2001 in hardcopy and electronic format. 
The manual documents the methodology used in the processing of vouchers 
and other accounting transactions and documents in the Accounts Payable 
Audit and Disbursement Sections as well as in the Accounting 
Department. The creation of this manual was the first step the DO has 
taken toward the documentation of information that would be necessary 
to engage in a financial statement review. Now the policy and 
procedures manual is maintained and updated by DO's Accounting 
Department.
    Fiscal year-end Closing.--After all activity for the fiscal year 
has been processed, a year-end close must be performed in the FMIS 
system. This process has to be completed every year after the Report of 
the Secretary for the period end September 30th is issued. The year-end 
closing process is tested during December and completed in the 
production region in January. The FMIS system has the capability of 
performing the year-end closing rules in an automated format.
    Disaster Recovery.--The Senate Sergeant at Arms currently maintains 
a contract for backup services in case of a disaster affecting the 
Senate's main data center. Every night, data and software from the 
Senate's mainframe computer systems are backed up to a magnetic 
cartridge and taken to a secure, off-site facility. This contract and 
back-up activities have been in effect since 1995. In the event of a 
disaster in the Sergeant at Arms' computing facilities at Postal 
Square, the technical staff would immediately arrange to have the data, 
software, and appropriate operating instructions forwarded from the 
off-site facilities. All software and data would be restored to the 
contractor's computer facilities. The restoration of all facilities can 
be completed within 24 hours of starting the jobs and the systems would 
be available to users at that time.
    Since the contract's inception, the Senate has tested its ability 
to restore systems and perform normal activities at least once, and 
often twice a year. Two systems for the Secretary of the Senate that 
are included in this recovery process, including regular testing, are 
the Senate's Payroll System and the Senate's Financial Management 
Information System. During 2002, there are two tests planned: one which 
occurred in late February and one scheduled for the fall. Disbursing 
Office staff and Sergeant at Arms functional staff are active 
participants in the planning and execution of these tests.
    The Disbursing Office has participated in disaster recovery testing 
of mainframe FMIS facilities since the system was implemented in 
October 1998. After being notified that the system has been restored, 
Disbursing Office and SAA Procurement staff tested the various modules 
of the mainframe application to ensure they were functioning correctly 
at the back-up site. Using workstations connected to the Senate's fiber 
network as well as laptop computers dialing into the site, users have 
tested various types of document preparation, printing, and posting to 
the financial system. In addition, system inquiries into both the 
procurement and financial modules have been tested. Finally, various 
batch-processing tasks have been tested to ensure that they perform as 
expected.
    Financial Statement Development.--One of the initial strategic 
objectives of FMIS is to provide the Senate with the capacity to 
produce an annual financial statement. In line with 1998 FMIS Project 
strategic plan, a contract was initiated in 2001 to develop the 
capacity for the first U.S. Senate-wide consolidated financial 
statement. Our proposed strategic initiative will complete the project.
    The initiative is based on the desire to adopt to the extent 
possible the financial reporting requirements of the Government 
Management Reform Act of 1996 (GMRA), the Chief Financial Officers 
(CFO) Act of 1990 and comply with the Statements of Federal Financial 
Accounting Standards (SFFAS) promulgated by the Federal Accounting 
Standard Advisory Board (FASAB). It should be noted that the U.S. 
Senate is not subject to the requirements of these Acts.
    The main objectives of this FMIS initiative were to:
  --Develop pro-forma financial statements of the United States Senate 
        as required by the Executive Branch in OMB Bulletin No. 01-09, 
        ``Form and Content of Agency Financial Statements''. The 
        statements prepared will consist of the management discussion 
        and analysis and principle statements that includes the 
        following: Balance Sheet; Statement of Net Cost; Statement of 
        Changes in Net Position; Statement of Budgetary Resources; 
        Statement of Financing; Notes to the Financial Statements; 
        Required Supplementary Stewardship Information (RSSI); and 
        Required Supplementary Information (RSI)
  --Develop a crosswalk table between the U.S. Senate's trial balances 
        and the consolidating statements and document the procedures 
        used to compile the consolidating statements, footnotes and 
        supporting schedules to serve as documentation for the 
        development of future statements.
  --Provide recommendations on how to further automate the process and 
        provide suggestions for corrections actions and improvements 
        based on feasibility and cost effectiveness.
  --Assess the staffing levels needed to prepare the annual financial 
        statements and maintain the financial information required for 
        the statements and,
  --Adopt the financial reporting requirements of the Federal Managers' 
        Financial Integrity Act of 1982 (FMFIA) and the Federal 
        Financial Management Improvement Act of 1996 (FFMIA) to the 
        extent they are applicable.
    This exercise requires a great deal of coordination with various 
departments within the Secretary's Office as well as the Office of the 
Sergeant at Arms. It also needs the compilation of financial 
information from all the Senates' revolving funds. This project did not 
include a review of internal control procedures or an assessment of the 
Senate's compliance with laws and regulations. These last two aspects 
of a full financial statement audit will be performed at a later date 
as part of the future FMIS strategic initiative described in this 
testimony.
            Disbursing Office Information Technology Office
    The Disbursing Office Information Technology staff provides both 
functional and technical assistance for all Senate Financial Management 
activities. This includes production support for the entire Senate 
community of users, system administration and support, application 
development oversight and support, as well as support for the Senate's 
contracting office and Project Manager for the Senate's Financial 
Management Information Systems (FMIS). The staff also provides the 
liaison between the users, both in the DO and the Senate Offices, and 
the technical staff in the Sergeant at Arms offices, as well as the 
contracting staff from KPMG. Furthermore, the staff perform the system 
administration activities on the DO's LAN.
    A research and query capability was defined and implemented for use 
by DO Information Technology staff that allows the generation of 
special one-time and/or ongoing ad hoc queries to respond to specific 
requests for information or research data. This project continued the 
development of reports for various users in the Disbursing Office and 
the Office of the Sergeant at Arms which will be generated on a regular 
production or ad hoc basis.
            Imaging and Digital Authentication
    One of the initial FMIS objectives was to advance the Senate into a 
paperless or reduced paper environment in which accounting items and 
supporting documentation are stored and transmitted in digitally 
authenticated image format. Through the implementation of Web FMIS and 
the interface to mainframe FMIS, the Senate is well positioned to 
utilize this technology. Products for reliable, secure digital 
authentication that is based upon industry standards are also now 
available. Once documents are scanned the workflow and security profile 
for the images could be similar to that which is performed in today's 
paper-based environment. Retrieval and research tasks would require far 
less effort than that required in a paper-based operation.
            Office Administrative Functions on the Web
    The Senate may desire to move some procurement, requisitioning and 
other activities that are currently performed by the SAA in ADPICS to 
the Web. These requirements will have to be analyzed and prioritized. 
It is envisioned that the additional requested functionality will be 
provided in multiple releases, similar to the development and 
deployment methodology that was used during the first phase of the 
project. Each of these releases will require design, development, 
testing and implementation tasks. Depending on the functionality 
provided in a given release, training also may be required.
            Date Storage
    Long-term data archival storage is required to maintain the 
capability to retrieve historical data for accounting documents no 
longer maintained at a detailed level in storage. In addition to the 
transaction processing data, the Senate maintains several data marts to 
support various reporting requirements. Data for monthly reports are 
supported through a data mart that was initially created for the ledger 
reports. The Web FMIS data mart is refreshed on a nightly basis.
            Web FMIS
    FMIS celebrated another major milestone toward the Senate's goal of 
using an integrated paperless financial management system. In July 
2001, offices began using the ``submit'' feature of Web FMIS, which 
allows offices, with the press of a single button, to send voucher data 
electronically to the Disbursing Office (DO), thus eliminating the need 
for the DO to rekey the data into the Senate's Financial Management 
Information System. The submit feature enables offices to interact with 
the Senate's general ledger system, FAMIS, and thereby receive 
immediate feedback on whether the office has a sufficient fund balance 
to pay the voucher, whether the voucher is a duplicate payment, and 
whether the office is using an expired expense category or vendor. 
Additionally, the submit process enables the DO to review the voucher 
electronically and communicate changes to the voucher electronically to 
the offices.
    To minimize burdens on the offices displaced from the Hart 
building, three original releases planned for Web FMIS were 
restructured. Under the new plan, one ``update'' was done in December 
2001 to address additional functionality and problems affecting office 
users that could be easily added or fixed. A similar ``update'' was 
done in February 2002 to address additional functionality and problems 
affecting DO users that could be easily added or fixed.
    The March 2002 release addressed new functionality requested by the 
Office Managers and Chief Clerks including reports that show all 
documents, including documents created in the last minute (current 
reports include data as of COB the prior night), a variety of ease-of-
use features for creating vouchers, a pilot of importing (rather than 
retyping) ESR-Travel information, the ability to unsubmit vouchers 
before the DO has acted on them, the ability to create records that 
void other records, and features to improve management of the inbox 
(i.e., communication with the DO regarding voucher changes).
    The June/July 2002 release will address additional new 
functionality requested by the Office Managers and Chief Clerks 
including reports that show travel advances, the ability to submit 
travel advance documents, including the obligation of advances, and 
credit documents, and enhanced record search capabilities. 
Additionally, this release will provide additional functionality for DO 
users including inboxes to consolidate voucher changes authorized by 
the office and awaiting additional action by A/P staff. As these 
releases are completed, we will begin investigating additional projects 
planned as part of the integrated paperless financial system, including 
imaging of supporting documentation and electronic signatures, adding 
functionality required to bring on offices, adding additional reports 
as requested by users, and develop interfaces to/from other systems 
such as the Asset Management System.
    The Office of the Secretary and the Disbursing Office will continue 
to build upon the technical improvements made during the FMIS 
implementation to date and will continue to work directly with the 
Senate community, particularly the Senate's Office Managers, to enhance 
FMIS functionality and accountability. Concurrent with the March 2002 
release, the Disbursing Office staff demonstrated the new functions at 
a meeting of the Joint Office Managers and Chief Clerks, and offered 
one hands-on class and one seminar for those Web FMIS users who wanted 
to learn more about the new functions.
    As these releases are completed, we will begin investigating 
additional projects planned as part of the integrated paperless 
financial system articulated in the FMS Conceptual Design document, 
approved by the Committee on Rules and Administration. These projects 
include imaging of supporting documentation and electronic signatures, 
adding functionality required to bring on offices such as the 
Secretary's Office onto Web FMIS, adding additional reports as 
requested by users, and develop interfaces to/from other systems such 
as the Asset Management System.
                       the capitol visitor center
    Officers Jacob Chestnut and John Gibson died during the summer of 
1998. Their tragic deaths focused attention on Capitol security and the 
need for a Capitol Visitor Center. The 105th Congress appropriated 
$100,000,000 for a Capitol Visitor Center and directed that the 
remaining required funds be raised by the private sector. The Fund for 
the Capitol Visitor Center was formed and successfully raised 
$35,000,000 for this project before the events of September 11 and the 
anthrax bio-terrorism incident that resulted in the closing of the Hart 
Senate Office Building for over three months. I would like to commend 
Chairman Marilyn Ware and the Board of the Fund for the Capitol Visitor 
Center for their essential contributions and their individual 
dedication in helping the Nation build a visitor center which will 
improve security while providing a significantly better educational 
opportunity for students and others who visit the Capitol Building.
    To assist in funding the Visitor Center, Congress authorized the 
Capitol Visitor Center commemorative coins. Over 360,000 coins have 
been sold and over $3.3 million was raised for the purpose of 
constructing the Capitol Visitor Center.
    For nearly 200 years, the Capitol has stood as the greatest visible 
symbol of our representative democracy. It is, and will remain, the 
workplace of our elected representatives as well as a museum and a 
major tourist attraction. Since 1859, when the present House and Senate 
wings were completed, our country has undergone tremendous growth. 
Citizens of the United States and the world visit the Capitol in 
increasing numbers and even though the events of the Fall of 2001 
resulted in a decrease in visitors, we already see that visitors will 
soon be at their highest levels once again.
    The 19th century design of the Capitol Building does not easily 
lend itself to tours and cannot safely accommodate the numbers of 
visitors we are again expecting to experience. The Capitol Visitor 
Center will provide a safe, comfortable and educational introduction to 
the Capitol Building and will allow management of the tour experience 
to enhance the safety of all visitors and those who work in the Capitol 
Building.
    Following the World Trade Center and Pentagon tragedies, Congress 
appropriated sufficient funds to fully finance construction of the 
Capitol Visitor Center. The Fund for the Capitol Visitor Center has 
ceased operation. With full funding, the Capitol Preservation 
Commission has authorized construction. Pre-construction activities 
have been underway for several months. Excavation of the East Front 
site will begin in mid-June 2002. The Capitol Visitor Center is 
expected to be completed by January 2005.
    The Clerk of the House and the Secretary of the Senate continue to 
chair weekly meeting of leadership staff who are informally charged on 
behalf of the Joint Leadership of Congress with overseeing this 
project. Project staff, representatives of the Architect of the 
Capitol, the Capitol Police, contractors, and others as appropriate 
attend these meetings. While constructing the Visitor Center will be 
disruptive, dirty, and noisy, we are confident that the American 
public, visitors, and the Congress will be proud of the new facility 
and pleased with the educational opportunities it will provide, the 
enhanced security, and the amenities it will offer all visitors to the 
Nation's Capitol Building.
                                 ______
                                 
                Prepared Statement of Timothy S. Wineman
    Mr. Chairman, I appreciate the opportunity to present to your 
Committee, the Budget of the United States Senate for fiscal year 2003.
    Mr. Chairman, the fiscal year 2003 budget estimates for the Senate 
have been included in the Budget of the United States Government for 
Fiscal Year 2003. This Budget has been developed in accordance with 
requests and proposals submitted by the various offices and functions 
of the Senate. The total budget estimates for the Senate are 
$802,244,145 which reflect an increase of $67,518,145 or 9.19 percent 
over the amount appropriated for fiscal year 2002 and does not reflect 
any adjustments to these estimates which may be presented to your 
Committee during these hearings. The total appropriations for the 
Senate for fiscal year 2002 are $734,726,000. An individual analysis of 
the budget estimates for all functions and offices has been included in 
the Senate Budget Book, previously provided to your Committee.
    The budget estimates for fiscal year 2003 are divided into three 
major categories as follows:

Senate Items............................................    $130,331,000
Senate Contingent Expense Items.........................     576,398,000
Senate Joint Items......................................      95,515,145
                    --------------------------------------------------------
                    ____________________________________________________
      TOTAL.............................................     802,244,145

    Specifically, Mr. Chairman, the fiscal year 2003 budget estimates 
reflect increases over the fiscal year 2002 enacted levels as a result 
of: (1) the anticipated 4.3 percent cost-of-living adjustment for 
fiscal year 2003, and the annualization costs of the fiscal year 2002 
4.77 percent cost-of-living adjustment; (2) the cumulative under 
funding of previous fiscal years in the Senators' Official Personnel 
and Office Expense Account due mainly to increases in population 
categories of various states and increases in the Administrative and 
Clerical Assistance Allowance authorized by the Legislative Branch 
Appropriations Acts, 1999, 2000, and 2002; (3) personnel adjustments, 
other than the cost-of-living, attributable primarily to the budget 
request of the Capitol Police; (4) increases in agency contributions 
applicable to the cost-of-living adjustments and other personnel 
increase requests; (5) the OMB proposed CSRS full cost accrual and FEHB 
costs; and (6) other miscellaneous and administrative expense 
increases.
    Mr. Chairman, I submit, for the consideration of your Committee, 
the Budget of the United States Senate for fiscal year 2003.

                      PREPAREDNESS FOR EMERGENCIES

    Senator Durbin. Thank you very much, Ms. Thomson. We have 
talked a lot about the response and the recovery from September 
11 and October 15. I would like to address the issue of 
preparedness, not to analyze what happened on that day and what 
we could have done better, but to look forward. We were 
fortunate in this respect, on September 11, the operations of 
the Senate were closed down for all but 1 day, perhaps. And you 
have addressed the Capitol Visitor Center, which I will get to 
in a minute.
    But in terms of the actual operations of the Senate, 
without disclosing anything that may be of a sensitive nature, 
would we be prepared if another emergency were to arise that 
would force the closure of the Senate Building, the Senate 
Chamber, for more than 1 day? Would we be prepared with an 
alternate site to maintain the business of the Senate?
    Ms. Thomson. The short answer is yes. And even on September 
11, not only could we have operated the Senate in another 
location, but we would have. And that is largely because of the 
dedication of the staff, both in the Secretary's Office and the 
Sergeant at Arms' office. And that dedication was really 
illustrated when we closed the Hart Building, because we were 
able to relocate 50 Senators and several committees and 
subcommittees essentially over a 3-day period.
    In the Secretary's Office, as I said earlier, we had our 
COOP plans done. And we knew what we needed to do. So we could 
have set up a Senate chamber anywhere. Could we do a better job 
today? Yes.
    Senator Durbin. In terms of preparedness, looking back to 
September 11, aside from an alternate site, are there things 
now that we are doing or need to be doing to prepare ourselves 
for some other eventuality that is currently unforeseen?
    Ms. Thomson. The breadth and scope of the planning that is 
underway is comprehensive and inclusive of almost any scenario 
that you could come up with. If you think of COG COOP planning 
as a pyramid, the top part of that pyramid is the Secretary of 
the Senate. And the three essential responsibilities of the 
Secretary are, first, to determine the membership of the Senate 
at the moment and make whatever arrangements are necessary to 
ensure that we have 100 Senators as quickly as possible.
    The second responsibility is to make sure that the Senate 
can pass legislation. The third responsibility is financial 
management. The Secretary of the Senate cannot do any of these 
things without all the rest of that pyramid. And the rest of 
the pyramid is the Sergeant at Arms responsibility: 
communications, transportation, offsite facility setup, et 
cetera. Plans are well underway and we would be happy to brief 
this committee on the details at your convenience.
    Senator Durbin. On September 11--I do not know Senator 
Bennett's experience--but I was rushed out of the Capitol and 
stood on the grass outside. And as I reflect on that, I do not 
know what I was waiting for. But I was standing there with a 
large crowd of people, Members of the Senate and the House, a 
lot of staff people, and a lot of tourists and visitors, 
waiting for the all clear, the next set of instructions, when I 
suppose what we heard next was a sonic boom. I guess now--we 
thought it was an explosion. It was probably a sonic boom and 
everybody was told to leave the grounds as quickly as you can.
    That was the moment when it suddenly dawned on me, as I 
walked past a lot of people, tourists and families who were in 
the Capitol, that there was nowhere to go. There was no place 
to turn to. There was an elderly couple and they asked me, 
``Where are we supposed to go? Is the Metro running? What's the 
next thing we should do here?'' I did not know the answers.

                         CAPITOL VISITOR CENTER

    I did know, after reflecting on it, that the idea of a 
Capitol Visitor Center was even more urgent and critical after 
that experience, not only for the security and safety of the 
building and people that work there, but also so that there 
might be someplace to turn when an emergency arises.
    Now I know there are other offices like the Architect of 
the Capitol that are uniquely involved in this. But I also know 
that you have taken a personal interest in monitoring the 
progress of this project. You said something which bears 
repeating. There are a lot of people working around the Capitol 
and visiting the Capitol who do not know what we are in for 
when they start digging the hole in June. To put it in simple 
parlance, it is going to be a mess.
    But it is going to be worth it because by 2005 we will have 
probably the largest investment on Capitol Hill in 30 or 40 
years in terms of construction and one that will serve us well 
for decades to come.
    Tell me, if you can, what your role has been in monitoring 
the progress on this Capitol Visitor Center?
    Ms. Thomson. When Congress appropriated the first $100 
million for this project, an advisory group representing the 
joint leadership was formed. I have been a part of that group 
since the beginning, initially representing Senator Daschle and 
now, as Secretary of the Senate, informally co-chairing this 
group with the Clerk of the House. We have worked very closely 
with the Architect and the membership and staff who represent 
the membership of the Capitol Preservation Commission.
    The Capitol Preservation Commission has the oversight 
responsibility for the project. And we have, I think it is fair 
to say, shepherded this through as a team, a bipartisan and 
bicameral team, that has worked very effectively together.
    You are correct when you say it is going to be a mess. We 
are going to need the indulgence of the members of the Senate 
so that we do not delay the project. We cannot afford delays. 
We must have the project completed by January 2005. The 
construction schedule has been adjusted so that we can 
accommodate certain Senate schedules. But it will be noisy, and 
there will be inconvenience to members.
    Senator Durbin. But ultimately what we will have in place 
is a staging area for visitors to the Capitol----
    Ms. Thomson. Right.
    Senator Durbin [continuing]. Which is secure.
    Ms. Thomson. Right.
    Senator Durbin. Currently, or at least before September 11, 
people would literally walk into the building, at which point 
someone would search their backpacks.
    Ms. Thomson. Right.
    Senator Durbin. From a security viewpoint, that is totally 
unacceptable. What we are trying to do is to have a staging 
area where people can be, if not searched, at least monitored 
as they visit the Capitol, a place where they can gather and 
perhaps see a movie about the building itself and the history 
of Congress.
    Ms. Thomson. The educational opportunities will be 
extensive. And this team has been working closely with the 
Smithsonian, the National Archives, and the Library of 
Congress, to catalog documents and other materials that should 
be displayed. The Architect can better address the consultant, 
Ralph Applebaum, who has been hired to oversee the development 
of the exhibitry. We think members will be pleased with it.
    The security issue should best be addressed by the Sergeant 
at Arms. But you are correct in stating that the initial 
screening of visitors will be away from the building. And that 
will make everyone safer, including those who are visiting.

                     STUDENT LOAN REPAYMENT PROGRAM

    Senator Durbin. Good. Let me talk to you about an issue 
near and dear to me, which we have conversed about, and that is 
the question about student loan repayment. The Executive Branch 
has had the authority to forgive student loans in an effort to 
retain good employees, maintain morale, and to recruit new 
employees with special skills.
    We have now put in your lap a law that gives that 
opportunity to Senate employees. Can you tell me in this, the 
first year, what the experience has been with that program?
    Ms. Thomson. Well, the Assistant Secretary really led this 
effort. The law directed, gave me an administrative directive 
to see that the program was implemented. The Secretary's Office 
has drafted the service agreements and prepared all of the 
other documentation required. We have briefed all the offices, 
Senators' offices, as well as committees. The program is 
underway. We have something more than 15 offices participating 
at this point.
    It appears to us in this early stage that it is going to be 
a very effective recruitment and retention tool. We look 
forward to reporting back to the committee, as we get a little 
bit more experience. We are pretty early in the game on this. 
But I think the team, which included the Senate chief 
employment counsel and the Senate financial clerk, did an 
outstanding job. We have had a very positive response from 
Senate offices.
    Senator Durbin. I think that we are going to find that 
different offices have come at this a little differently. At 
the end of 1 year or so, I would like to ask Senator Bennett to 
join me and the subcommittee to review how each office has 
dealt with this, what they have achieved, and to see if we need 
to address any changes in the law. This is a big experiment. I 
think it is along the right lines, but we may modify it as time 
passes.

                            SENATE WEB SITE

    Address for a minute the Senate Web site. You have told me 
of your feelings about that. I wish for the record, 
particularly since C-SPAN is covering this, if you could tell 
people where they can find it and when they log on what they 
are likely to find, and what your hope is for the development 
of this Web site.
    Ms. Thomson. The Senate's Web site is senate.gov, and one 
can just go into www.senate.gov and find it. When the site was 
first put up in 1998, it won some awards for its graphics 
display. It is a good site. It has good content. We think it 
can be better. We have a wonderful team of people working on 
this. And I am very excited about it.
    My challenge to them was to make senate.gov the best Web 
site in the world. That may sound odd, but this is the United 
States Senate and we should have the best Web site in the 
world. It should be the go-to site to find out information 
about representative democracy, about what the Senate is and 
how it was formed, about what the Senate is doing now, about 
the Senate's history.
    You should be able to get a tour of the Capitol Building 
and the Senate Chamber. You should be able to find out 
information on what Senators have served when. Students all 
across this country and all around the world should be able to 
go to this site to find information to write their reports and 
be able to use it as a major research and resource tool.
    So, that is our goal. We are in the process right now of 
recommending to the Rules Committee a new content management 
system. We expect to have the prototype up in September, and we 
would love to show it to you.
    Senator Durbin. Thank you.
    Senator Bennett?
    Senator Bennett. Thank you, Mr. Chairman. You have covered 
all of the issues that I had in mind. So I have no additional 
questions.

                          INCREASE IN EXPENSES

    But I will give you the opportunity to talk about the 
increase in expenses, $500,000 above a budget that has been 
constant for many years, at $1.6 million. $500,000 is not a big 
item here, but there may be some that would question it. Give 
us a quick explanation on that one.
    Ms. Thomson. Well, let me run back through what we are 
hoping to do here. The first item is that we need new software 
and hardware for the Senate gift shop. And the current software 
is----
    Senator Bennett. I am sorry. This is in the disbursing 
office.
    Ms. Thomson. Oh, the disbursing office. I thought you were 
talking about operating expenses.
    Senator Bennett. I apologize. I did not make that clear.
    Ms. Thomson. In the disbursing office, let me run through 
those details. We are, beginning with the feasibility study and 
a pilot project, we are going to implement new technology, 
which includes imaging and electronic signatures, so that we 
can move to a paperless voucher processing system. And we need 
to reduce our dependence on paper vouchers. This is part of the 
COOP effort to make sure that we can continue paying bills 
under almost any circumstance.
    The second major item is Web FMIS improvements. We want to 
respond to requests that we have in hand right now from the 
Senate's many accounting locations for additional 
functionality. That includes being able to develop a whole new 
series of monthly reports. We have some very specific requests 
from the Rules Committee that we need to respond to. And we 
anticipate that we are going to get some additional requests 
from Senate offices on security management and other issues.
    On the payroll improvements piece, we want to respond to 
requests that we have from Senate offices right now for online, 
real-time access to payroll data and the ability to submit 
payroll actions online. Again, this is part of COOP planning. 
We want to make sure that we can continue payroll operations 
from any location under almost any circumstances.
    On the accounting subsystem integration, this is within the 
disbursing office itself, but we still need to integrate some 
Senate-specific accounting systems and improve some internal 
controls and eliminate the errors that are inevitably caused by 
rekeying of data, including updating the approval process, the 
ability to track not-to-exceed allowances, contract tracking, 
those kinds of things.
    And the final item is the CFO financial statement 
development. We are going to provide the Senate the capacity to 
produce financial statements, which can be successfully 
audited. So those are the five principal components.
    Senator Bennett. Fine. Thank you very much.
    Mr. Chairman, I find myself in the inevitable conflict in 
the Senate. I take my duties as ranking member here very 
seriously. But I also take my duties as ranking member on the 
JEC very seriously. The Joint Economic Committee is listening 
to Mr. Greenspan at this very moment talk about the future of 
the world. He is in charge of that.
    I will have to ask your indulgence, and that of the other 
witnesses, to go to my other assignment. But I do not want 
other witnesses to think I am flagging in my interest in what 
they are doing.
    I have sufficient confidence in your ability to ask all the 
right questions that I am happy to turn whatever 
responsibilities I have over to you temporarily.
    Senator Durbin. Well, Senator Bennett, your absence will be 
certainly excused. I will try to press on with this 
responsibility, if you will promise to turn the economy around 
and----
    Senator Bennett. I will mention that to the Chairman.
    Senator Durbin. Thank you very much.
    Thank you, Ms. Thomson, for your testimony and your service 
to the Senate.
    Ms. Thomson. Thank you.
                        ARCHITECT OF THE CAPITOL

STATEMENT OF HON. ALAN M. HANTMAN, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY:
        AMITA POOLE, ADMINISTRATIVE ASSISTANT
        LARRY STOFFEL, SUPERINTENDENT, SENATE OFFICE BUILDINGS
        MICHAEL G. TURNBULL, ASSISTANT ARCHITECT OF THE CAPITOL
        GARY GLOVINSKY, CHIEF FINANCIAL OFFICER

                           OPENING STATEMENT

    Senator Durbin. We will now turn to Mr. Alan Hantman, 
Architect of the Capitol, who is accompanied by the Assistant 
Architect Michael Turnbull, the Administrative Assistant Amita 
Poole, Chief Financial Officer Gary Glovinsky, and the Senate 
Superintendent Larry Stoffel.
    The Architect of the Capitol's fiscal year 2003 budget 
proposal totals $395.6 million, $30.4 million below the current 
year budget. The decrease is attributable to $106 million in 
supplemental spending for security projects approved in 
December of last year. This budget includes seven major 
projects totaling close to $150 million, the largest being 
almost $82 million for the Capitol Power Plant modernization.
    In addition, the budget proposes 43 additional full-time 
equivalent employees.
    Mr. Hantman, as you are aware, the General Accounting 
Office has been reviewing your agency's operations as part of a 
general management review, which this committee requested. We 
asked them to look specifically at worker safety and the 
recycling program as illustrations of management issues. We 
have asked that they provide testimony for the record today on 
their findings to date.
    [The information follows:]
   Architect of the Capitol--Management and Accountability Framework 
                   Needed to Lead and Execute Change
                        (gao report gao-02-632t)
    Mr. Chairman and Members of the Subcommittee: We are pleased to 
respond to your request that we provide preliminary observations from 
our ongoing general management review of the Architect of the Capitol 
(AOC). As you know, the Senate and House Appropriations Committees 
mandated this review for completion in November 2002. At that time we 
will provide our final observations and recommendations. Upon 
completion of our review, AOC is to develop a management improvement 
plan to address our recommendations. You asked us to focus on certain 
management shortcomings at AOC that needed attention--strategic 
planning, organizational alignment, strategic human capital management, 
financial management, and information technology (IT) management. You 
also asked us to assess two key program areas--worker safety and 
recycling--both to illustrate the management issues we are addressing 
and to help AOC identify best practices and areas for improvement in 
these important programs. We plan to explore project management and 
budgeting, among other issues, in greater depth in the next phase of 
our review. We have briefed AOC on the preliminary observations in this 
statement and the accompanying appendix, which provides additional 
details on the results of our work.
    We have been working constructively with AOC managers to understand 
their complex operating environment and the long-standing challenges 
they must address. Our observations today are based on a review of 
AOC's legislative authority and internal AOC documents, including 
policies and procedures, AOC consultant reports and internal studies on 
AOC management issues, as well as GAO and other reports on best 
practices for management functions and worker safety and health and 
recycling programs. We also interviewed senior- and mid-level AOC 
managers for each of the management functions and programs we reviewed.
    AOC has demonstrated a commitment to change through the management 
improvements it has planned and under way. For example, AOC has
  --established routine management meetings to help improve 
        communication across organizational boundaries;
  --established and implemented basic policies and procedures in human 
        capital, such as a performance evaluation system for non-union 
        AOC employees up to GS-15;
  --recently drafted a senior executive performance evaluation system--
        informed by our human capital policies and flexibilities--and 
        established an employee awards program;
  --added to its professional workforce ranks by hiring new 
        jurisdictional superintendents and deputy superintendents and 
        budget and accounting officers and creating and filling new 
        positions, such as chief financial officer (CFO), facilities 
        manager, worker safety specialists, and a facilities planning 
        and development manager;
  --reorganized and took actions to improve worker and fire safety 
        programs; and
  --upgraded and filled key recycling program positions.
    AOC is also revisiting its strategic planning efforts, working with 
a consultant to implement best practices for project management, and 
implementing a new financial management system.
    AOC recognizes that because of the nature of the challenges and 
demands it faces, change will not come quickly or easily. AOC therefore 
must ensure that it has the policies, procedures, and people in place 
to effectively implement the needed changes. That is, to serve the 
Congress, central AOC management needs the capability to define goals, 
set priorities, ensure follow through, monitor progress, and establish 
accountability. Our observations today all focus on this basic issue--
building the capability to lead and execute change. Therefore, we 
believe that as a first priority, AOC should establish a management and 
accountability framework by
  --demonstrating top leadership commitment to change;
  --identifying long-term, mission-critical goals through a re-
        invigorated strategic planning process tied to serving the 
        Congress;
  --developing annual goals and a system for measuring progress; and
  --establishing individual accountability and commensurate authority 
        for achieving results.
    We recognize that this statement outlines a large and complex 
agenda for change at AOC, and that AOC cannot possibly tackle all these 
changes at once. Nonetheless, this agenda provides the broad landscape 
of issues confronting AOC and is therefore important to crafting a 
comprehensive and integrated approach to addressing AOC's challenges 
and setting appropriate priorities, even though by necessity it will 
have to be phased in over time. By drawing on the full potential of its 
management team, AOC can begin to take immediate steps on a number of 
actions, although we recognize that AOC will be able to implement some 
of these actions more quickly than others. Key actions that AOC can 
consider are highlighted in the following sections and detailed in 
appendix I.
aoc-wide communications strategy is needed to achieve mission-critical 
                                 goals
    AOC must develop a communications strategy as an integral part of 
its strategic planning and change management initiatives. Such a 
strategy will be important to providing AOC with the customer and 
employee information and perspective it needs to strike a balance 
between the competing priorities it faces and the results it seeks to 
achieve. In building a communications strategy AOC should consider 
taking the following actions:
  --Provide opportunities for routine employee feedback.
  --Develop congressional protocols.
  --Publicize the impact of highly visible projects.
  --Improve accountability reporting.
  --Measure customer satisfaction.
     strategic human capital management can improve organizational 
                accountability to mission-critical goals
    Strategic human capital management can transform AOC into a 
results-oriented organization by aligning employee performance with AOC 
goals and by providing the tools to better plan its workforce needs. In 
1994 we reported that AOC's personnel management system did not follow 
many generally accepted principles of modern personnel management.\1\ 
In our current review, we found that AOC has made progress in 
establishing a modern personnel system that is meeting the guidelines 
set forth by the AOC Human Resources Act of 1994 and the Congressional 
Accountability Act of 1995.\2\ AOC has developed basic personnel 
policies and procedures and streamlined certain human resource 
processes, and has continued to add to its professional workforce 
ranks. These efforts are helping AOC to construct a sound foundation on 
which to build a high-performing organization. As AOC moves forward 
with its human capital efforts, it has opportunities to make additional 
important improvements:
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Federal Personnel: Architect of 
the Capitol's Personnel System Needs Improvement, GAO/GGD-94-121BR 
(Washington, D.C.: Apr. 29, 1994).
    \2\ See Public Law 103-283, Sec. 312, Architect of the Capitol 
Human Resources Act.
---------------------------------------------------------------------------
  --Develop capacity to collect and analyze workforce data.
  --Identify current and future workforce needs and develop strategies 
        to fill gaps.
  --Establish agencywide core and technical competencies.
  --Link proposed senior executive and existing employee performance 
        management systems to mission-critical goals.
     aoc needs to continue and expand efforts to improve financial 
                               management
    In recognition of the critical role a chief financial officer (CFO) 
plays in achieving financial accountability and control, AOC 
established a CFO position and, in January 2002, filled the position. 
The new CFO is a member of the Architect's executive council and 
reports directly to the Architect. Organizationally, the CFO is 
responsible for the activities of AOC's Budget Office, Accounting 
Office, and Financial Systems Office. Included among the many 
challenges facing the new CFO are his responsibilities for (1) 
implementing AOC's new financial management system (Momentum), (2) 
implementing applicable accounting and operational policies and 
procedures, and (3) preparing a complete and auditable set of AOC 
financial statements.
    Among his first actions, the new CFO recently hired staff members 
to fill key budget and accounting officer positions, including 
additional accounting staff members with the general ledger accounting 
experience needed to maintain AOC's new general ledger. He has also 
focused his efforts on bringing AOC's new financial management system 
on-line. While these steps are critical and represent the initial steps 
to improving AOC's financial management and budget functions, much work 
remains to be done. The CFO has also recognized or started work on 
other key issues that need to be addressed in the near term. Building 
on the progress already under way, the new CFO needs to take the 
following actions:
  --Ensure effective implementation of new financial management system.
  --Continue and expand ongoing efforts aimed at strengthening AOC's 
        budget formulation and execution and financial accounting and 
        reporting across AOC.
  --Model AOC efforts on established best practices of leading 
        organizations.
       aoc needs to adopt an agencywide approach to it management
    Our research of private and public sector organizations that have 
effectively leveraged IT shows that these organizations' executives 
have embraced the central role of IT to mission performance. As such, 
they have adopted a corporate or agencywide approach to managing IT 
under the leadership and control of a chief information officer (CIO), 
who is a full participant in senior executive decision making. 
Additionally, these organizations have implemented certain corporate IT 
management controls such as using a portfolio-based approach to IT 
investment decision making, using an enterprise architecture or 
blueprint to guide and constrain IT investments, following disciplined 
IT system acquisition and development management processes, and 
proactively managing the security of IT assets.
    Our preliminary work shows that AOC has yet to adopt such an 
approach. AOC could greatly benefit from an agencywide approach to 
managing IT under the leadership and control of an empowered CIO. Such 
an approach should, at a minimum, include each of the above IT 
management controls as defined in relevant federal guidance and proven 
best practices. AOC's top leadership will need to consider carefully 
its environment and the scope of its IT investments to determine how 
best to apply this guidance and the best practices to its specific 
situation. The following are the key steps that AOC needs to consider 
as it seeks to more effectively leverage use of IT to improve mission 
performance:
  --Appoint a CIO to manage IT across the agency.
  --Establish and implement a portfolio-based approach to IT investment 
        management.
  --Develop, maintain, and use an enterprise architecture consistent 
        with federal guidance and recognized best practices.
  --Establish and implement disciplined processes for managing the 
        development and acquisition of information systems.
  --Establish and implement an information security program.
  aoc could make worker safety program improvements more effective by 
                    adopting certain best practices
    Because of the concerns that the Congress and others raised about 
worker safety at AOC, in 2001, the Architect issued a statement that 
safety is his highest organizational priority. To effectively implement 
the Architect's commitment to safety, and consistent with best 
practices for health and safety programs as described in the 
Occupational Safety and Health Administration's guidance and our work, 
AOC must develop comprehensive and reliable data, provide a clear 
understanding of what the program is trying to accomplish, and how it 
will evaluate results. AOC also needs to examine strengthening the 
accountability relationships between the various safety program 
officials. Best practices also indicate that standardized and 
agencywide policies and procedures must be in place--such as procedures 
that encourage employees to report incidents, accidents and unsafe 
conditions (often called hazards), and procedures to investigate causes 
of accidents to identify why accidents occurred. By gathering more 
comprehensive and reliable data, and developing and consistently 
applying policies and procedures for reporting and investigating 
accidents, injuries, and illnesses, AOC can begin to take a more 
strategic approach to addressing safety issues. For example, better 
information about the type and frequency of injuries and the hazards 
that contribute to them could help AOC establish a risk-based approach 
for addressing the most significant worker safety issues that are 
occurring and for allocating resources. Key actions that AOC should 
consider on worker health and safety can be summarized as follows:
  --Develop more comprehensive and reliable data to set goals and to 
        track program improvements.
  --Assess accountability relationships of the safety specialists at 
        the central and jurisdictional levels to carry out their work.
  --Establish agencywide policies and procedures for reporting, 
        investigating, and tracking worker safety incidents, accidents, 
        and hazards.
aoc needs to build on current efforts by adopting a strategic approach 
                              to recycling
    Programs that separate and collect recyclable materials from the 
waste stream produce numerous benefits. It is estimated that recycling 
1 ton of paper saves 17 mature trees, 3.3 cubic yards of landfill 
space, 7,000 gallons of water, 380 gallons of oil, 4,100 kilowatt hours 
of energy, and 60 pounds of air pollutants. AOC is responsible for 
operating recycling programs for much of the Capitol complex.\3\ In 
recent years, AOC, both centrally and at the jurisdiction level, has 
taken steps to improve the overall effectiveness of its recycling 
programs. To maximize the benefits derived from its recycling program, 
AOC must build on the steps it has taken to improve the effectiveness 
of its programs by taking a more strategic approach:
---------------------------------------------------------------------------
    \3\ AOC operates all aspects of the recycling programs in the House 
and Senate Office Buildings, except for the Ford building, which is 
operated by a custodial contractor. In addition, the House jurisdiction 
picks up recyclable materials collected by the House side of the 
Capitol building, the Botanic Garden, the page dorm (501 1st St.), and, 
most recently, the Capitol Power Plant. On the Senate side of the 
Capitol building, the Senate Sergeant-at-Arms operates the recycling 
program, and AOC transports the materials to its collection site in the 
Hart Office Building. The Supreme Court and the Library of Congress 
operate their own recycling programs.
---------------------------------------------------------------------------
  --Revisit and clarify recycling mission and goals.
  --Develop a performance measurement, monitoring, and evaluation 
        system that supports accomplishing recycling mission and goals.
  --Reexamine roles and responsibilities of AOC recycling program staff 
        members.
  --Implement best practices to improve performance.
           key management options require further exploration
    Adopting a vigorous approach to strategic planning and holding 
managers and employees accountable for achieving organizationwide goals 
will go a long way toward helping AOC become a high-performing 
organization. However, further measures may be needed; we plan to 
explore other options with AOC and its key congressional customers in 
the next stage of our management review. To strengthen AOC's executive 
decision-making capacity and accountability, we are exploring options 
to better define the roles and responsibilities for certain key 
functions and to clarify some accountability relationships. For 
example, a chief operating officer could be responsible for major long-
term management, cultural transformation, and stewardship 
responsibilities within AOC. Additional options are discussed in 
appendix I.
    We look forward to continuing our constructive relationship with 
AOC. In the worker safety and recycling areas, we will continue to 
provide on-the-spot advice on safety hazards and recycling practices 
observed on our site visits. For example, we identified several safety 
hazards at the Capitol Power Plant. We brought these potential hazards 
to the attention of the acting chief engineer of the plant, who said 
that he would act upon our advice. We also suggested to him that the 
power plant could start a recycling program for its office waste 
consistent with the Botanic Garden's program, which the plant is 
starting to implement. To support management improvements that we are 
recommending or options we plan to explore, we have provided best 
practices guidance and we will, at the invitation of AOC, brief AOC's 
senior managers on best management practices in the public as well as 
private sectors.
    In summary, we recognize that AOC faces long-standing management 
challenges to becoming a high-performing organization, and that it has 
many initiatives under way for improvement. As a first step in 
addressing these challenges, AOC must create a management and 
accountability framework that provides a foundation of mission-critical 
goals from which other efforts can flow, and clarifies organizational 
lines of authority and accountability. We will continue to work 
constructively with AOC, this subcommittee, the House Committee on 
Appropriations and its Subcommittee on Legislative, and other 
congressional stakeholders to support this framework, as well as to 
help AOC identify other priorities for improvement.
Appendix I.--Management and Accountability Framework Needed to Lead and 
                             Execute Change
    This appendix discusses our preliminary observations on strategic 
planning, organizational alignment, strategic human capital management, 
financial management, and information technology (IT) management. It 
also discusses two key program areas--worker safety and recycling--both 
to illustrate the management issues we are addressing and to help AOC 
identify best practices and areas for improvement in these important 
programs.
  aoc facing long-standing management challenges in complex operating 
                              environment
    AOC's general mission is to maintain and care for the buildings and 
grounds located in the Capitol Hill complex. The historic nature and 
high-profile use of many of these buildings create a complex 
environment in which to carry out this mission. For example, the U.S. 
Capitol building is, at once, a national capitol, museum, office 
building, ceremonial site, meeting center, media base, and tourist 
attraction. In making structural or other physical changes, AOC must 
consider the historical significance and the effect on each of these 
many uses. Further, AOC must perform its duties in an environment that 
requires balancing the divergent needs of congressional leadership, 
committees, individual members of the Congress, congressional staffs, 
and the visiting public. The challenges of operating in this 
environment are compounded by the events of September 11, 2001, and 
their aftermath, especially the October 2001 discovery of anthrax 
bacteria on Capitol Hill, and the resulting need for increased security 
and safety.
    In fiscal year 2002, AOC operated with a budget of $426 million, 
which included $237 million for capital expenditures. Organizationally, 
AOC has a centralized staff that performs administrative functions; 
what AOC refers to as ``jurisdictions'' handle their own day-to-day 
operations. These jurisdictions include the Senate Office Buildings, 
the House Office Buildings, the U.S. Capitol Buildings, the Library of 
Congress Buildings and Grounds, the Supreme Court Buildings and 
Grounds, the Capitol Grounds, the Capitol Power Plant, and the U.S. 
Botanic Garden. There are over 2,300 employees in AOC; nearly one out 
of every three employees is a member of a union.
    New requirements to meet long-standing labor and safety laws have 
added to the complexity of AOC operations. For example, the 
Congressional Accountability Act of 1995 (CAA) applied 11 civil rights, 
labor, and workplace laws to AOC as well as other legislative branch 
agencies. In particular, meeting the obligations of labor laws, such as 
the Fair Labor Standards Act of 1938 and the Federal Service Labor-
Management Relations Statute, while overcoming a history of poor labor-
management relations has been a struggle. CAA also requires AOC to meet 
standards set by the Occupational Safety and Health Act of 1970, which 
applied new life and fire safety codes, as well as other building 
codes, to the agency. CAA established the Office of Compliance (OOC) to 
enforce the provisions of the act through inspections, investigations, 
and prosecution of potential violations. In addition, OOC provides 
education to employees and employing offices, and administers dispute 
resolution procedures if violations are found.
           aoc has taken steps to begin addressing challenges
    AOC has a number of initiatives completed and under way to begin 
addressing its challenges and improving its performance and customer 
and client satisfaction. The following points highlight some of these 
initiatives. For example, AOC has
  --established routine management meetings to help improve 
        communication across organizational boundaries;
  --established and implemented basic policies and procedures in human 
        capital, such as a performance evaluation system for AOC's non-
        union employees up to GS-15;
  --recently drafted a senior executive performance evaluation system--
        informed by our human capital policies and flexibilities--and 
        established an employee awards program;
  --added to its professional workforce ranks by hiring new 
        jurisdictional superintendents and deputy superintendents and 
        budget and accounting officers and creating and filling new 
        positions, such as chief financial officer (CFO), facilities 
        manager, worker safety specialists, and a facilities planning 
        and development manager;
  --reorganized and took actions to improve worker and fire safety 
        programs; and
  --upgraded and filled key recycling program positions.
    AOC is also in the process of
  --revisiting its strategic planning efforts,
  --working with a consultant to implement best practices for project 
        management, and
  --implementing a new financial management system.
    The initiatives provide important aspects of a needed foundation 
for AOC to address its current and emerging challenges. To be 
successful, AOC needs to continue these efforts and take a number of 
other steps to become a high-performing organization committed to 
results, service quality, and customer satisfaction.
 building management and accountability framework to lead and execute 
                                 change
    AOC needs to build on its current efforts to create a management 
and accountability framework and establish priorities for action. This 
framework involves (1) continuing to demonstrate top leadership 
commitment to change, (2) integrating and building on existing 
strategic planning efforts to identify and communicate AOC's long-term, 
mission-critical goals to external as well as internal stakeholders, 
(3) developing annual goals and measuring performance, and (4) creating 
clear lines of accountability for achieving results, including 
satisfying customers. AOC performs its activities without the guidance 
of an agencywide strategic plan for serving the Congress or means to 
hold individuals accountable for accomplishing its mission-critical 
goals. AOC also operates without written standards or policies and 
procedures in critical areas, such as financial management, IT 
management, and facilities management. The absence of clearly defined 
goals and performance measures at AOC hampers the Architect's efforts 
to send clear and consistent messages throughout the organization about 
his priorities and performance expectations. Likewise, it hinders the 
Architect's ability to communicate in a transparent way to the Congress 
what the agency is doing, how well it is performing, and where it can 
improve.
Demonstrate Top Leadership Commitment to Change
    One of the most important elements of successful management 
improvement initiatives is the demonstrated, sustained commitment of 
top leaders to change.\4\ Top leadership involvement and clear lines of 
accountability for making management improvements are critical to 
ensuring that the difficult changes that need to be made are 
effectively implemented throughout the organization.
---------------------------------------------------------------------------
    \4\ U.S. General Accounting Office, Management Reform: Using the 
Results Act and Quality Management to Improve Federal Performance, GAO/
T-GGD-99-151 (Washington, D.C.: July 29, 1999).
---------------------------------------------------------------------------
    In looking at the experiences of leading organizations that were 
successfully pursuing management reforms, we found that top leadership 
practices were critical to making needed changes. For example, 
successful leaders create a set of mission-related processes and 
systems within which to operate, but they give their managers extensive 
authority to pursue organizational goals while using those processes 
and systems. They also integrate the implementation of separate 
organizational improvement efforts into a coherent unified effort. The 
unwavering commitment of top leadership in an agency is especially 
important to overcoming natural resistance to change, marshaling the 
resources needed in many cases to improve management, and building and 
maintaining an organizationwide commitment to new ways of doing 
business.
Refocus and Integrate Strategic Planning Efforts to Identify and 
        Implement Mission-Critical Goals for Key Results
    Since 1997, AOC and a number of its subsidiary offices and 
jurisdictions have attempted to implement strategic planning processes. 
In 1997, the Architect led the first effort to produce an AOC-wide 
strategic plan that laid out AOC's mission, vision, core values, 
strategic priorities, and goals and objectives. According to AOC 
officials, turnover in key staff and inability to reach agreement on 
how to measure performance led AOC management to discontinue that 
effort. More recently AOC has shifted to a scaled-back approach that 
focuses on tasks to be completed in a number of key priority areas: (1) 
develop a process and establish realistic goals and priorities, (2) 
improving employee support by, for example, improving communications, 
(3) safety, (4) project delivery, and (5) quality assurance. Similarly, 
a number of business units within AOC, such as the human resources 
division, the inspector general, and the House Office Buildings 
jurisdiction have developed their own strategic plans, and the Capitol 
Buildings jurisdiction is developing a new master plan for the Capitol, 
but these plans do not flow directly from an AOC-wide plan. According 
to senior AOC managers, AOC plans to place renewed emphasis on 
organizationwide strategic planning beginning immediately.
    We strongly endorse AOC's renewed emphasis on strategic planning. 
However, in revisiting strategic planning, it is crucial that AOC move 
beyond a focus on actions to be completed to a broader focus on the 
mission-critical, long-term goals needed to serve the Congress. These 
long-term goals should also provide the starting point and serve as a 
unifying framework for AOC's various business unit and jurisdictional 
planning efforts. Such an effort would position AOC to answer questions 
such as what fundamental results does AOC want to achieve, what are its 
long-term goals, and what strategies will it employ to achieve those 
goals.
    Because a major focus of AOC's mission is the stewardship of 
existing Capitol complex facilities and the design and construction of 
new ones, another important planning initiative that should flow from a 
strategic plan is a strategic facilities plan, which is the standard 
industry best practice. A strategic facilities plan would capture in 
one document all the preventive maintenance, renovation, and 
construction activities needed to accomplish AOC's facilities goals. 
The document would also show the timetable, staffing, and budget needed 
to implement the plan. In addition, a strategic facilities plan would 
provide AOC an important tool for communicating to its congressional 
stakeholders and others the resources needed to accomplish its 
facilities goals and better illustrate, for example, the effect of 
undertaking new projects on the accomplishment of the goals.
    Although a variety of management activities, such as project 
management and budgeting, are needed to develop and support a strategic 
facilities plan, an important first step is to perform a condition 
assessment of all facilities maintained by AOC. According to industry 
guidance,\5\ organizations use condition assessments to identify 
existing deficiencies they need to address. Although AOC has begun to 
assess the condition of the Capitol building, we encourage AOC to 
complete this assessment and then to begin assessments of the remaining 
buildings as soon as resources are available. We plan to explore 
project management and budgeting in greater depth in the next phase of 
our review.
---------------------------------------------------------------------------
    \5\ Harvey H. Kaiser, Ph.D., The Facilities Manager's Reference 
(Kingston Mass.: R.S. Means, 1989).
---------------------------------------------------------------------------
Develop Annual Goals and Measure Performance
    Another key action AOC needs to take is developing annual 
performance goals that provide a connection between the long-term 
strategic goals in the strategic plan and the day-to-day activities of 
managers and staff. Measuring performance allows an organization to 
track the progress it is making toward its goals, gives managers 
crucial information on which to base their organizational and 
management decisions, and creates powerful incentives to influence 
organizational and individual behavior.
    Leading organizations we have studied that were successful in 
measuring their performance generally had applied two practices.\6\ 
First, they developed measures that were (1) tied to program goals and 
demonstrated the degree to which the desired results were achieved, (2) 
limited to the vital few that were considered essential to producing 
data for decision making, (3) responsive to multiple priorities, and 
(4) responsibility-linked to establish accountability for results. 
Second, the agencies recognized the cost and effort involved in 
gathering and analyzing data and made sure that the data they did 
collect were sufficiently complete, accurate, and consistent to be 
useful in decision making.
---------------------------------------------------------------------------
    \6\ U.S. General Accounting Office, Executive Guide: Effectively 
Implementing the Government Performance and Results Act, GAO/GGD-96-118 
(Washington, D.C.: June 1996).
---------------------------------------------------------------------------
    Developing measures that respond to multiple priorities is of 
particular importance for programs operating in dynamic environments 
where mission requirements must be carefully balanced. This is the case 
for AOC where the role of protecting and preserving the historic 
facilities under its control may occasionally conflict with its role of 
providing maintenance and renovation services to occupants who use the 
facilities to conduct congressional business. For example, according to 
AOC officials, following elections, new members of the Congress may ask 
AOC to modify office suites containing historic, architectural 
features. In those cases, AOC must balance the members' needs for 
functional office design with its responsibility for protecting the 
architectural integrity of the rooms. Consequently, organizations must 
weigh their mission requirements and priorities against each other to 
avoid distorting program performance. AOC could better gauge its 
success in this environment by first employing a balanced set of 
measures that encompasses its diverse roles, such as maintaining 
historic facilities and satisfying customers and then benchmarking its 
results both internally--across its jurisdictions--as well as against 
other leading organizations with comparable facility management 
operations.
Provide Results-Oriented Basis for Individual Accountability and 
        Authority to Act
    The danger to any management reform is that it can become a hollow, 
paper-driven exercise when management improvement initiatives are not 
integrated into the day-to-day activities of the organization. We 
recently testified that a critical success factor for creating a 
results-oriented culture is a performance management system that 
creates a ``line of sight'' showing how individual employees can 
contribute to overall organizational goals.\7\ Agencies that 
effectively implement such systems must first align agency leaders' 
performance expectations with organizational goals and then cascade 
performance expectations to other organizational levels. These agencies 
must also seek to ensure that their performance management systems are 
not merely once or twice yearly expectation-setting and appraisal 
tools, but help manage the organizations on a day-to-day basis. Thus, 
an effective performance management system provides a vehicle for top 
leadership to translate its priorities and goals into direct and 
specific commitments that senior managers will be expected to meet.
---------------------------------------------------------------------------
    \7\ U.S. General Accounting Office, Managing for Results: Building 
on the Momentum for Strategic Human Capital Reform, GAO-02-528T 
(Washington, D.C.: Mar. 18, 2002).
---------------------------------------------------------------------------
    AOC has taken an important first step in this regard by drafting a 
set of policies and procedures for managing the performance of its 
senior executives.\8\ Completing and implementing this effort will be 
critical to the success of AOC's strategic planning initiative and 
would be in line with recent executive branch reforms. Five of the six 
critical job elements that form the basis of the senior performance 
management plan are structured around the Office of Personnel 
Management's (OPM) Executive Core qualifications, which OPM encourages 
for government executives. The five critical job elements corresponding 
to OPM's core qualifications are results driven, leading change, 
leading people, business acumen, and building coalitions/
communications. AOC has added equal employment opportunity as a sixth 
critical job element.
---------------------------------------------------------------------------
    \8\ Architect of the Capitol, Managing Senior Management 
Performance for Exempt Employees Serving at the Pleasure of the 
Architect, Draft.
---------------------------------------------------------------------------
    In particular, AOC's proposed ``results driven'' job element would 
provide the basis for the results-oriented individual accountability 
that we discuss. The first part of this job element generally deals 
with achieving agency and organizational objectives, while the second 
part requires each senior manager to identify individual areas of 
accountability for the accomplishment of agency goals and objectives.
    One component of AOC's draft senior executive performance 
management system is the use of performance agreements. These 
agreements provide an unparalleled opportunity for AOC to drive the 
strategic and program performance goals it sets directly into daily AOC 
operations. For example, the individual performance agreements of AOC 
facility managers could explicitly reflect AOC-wide goals for service 
quality, worker safety, and customer satisfaction flowing from its 
strategic plan, thus allowing for unambiguous links between 
organizational goals and individual performance, accountability, 
bonuses, and other rewards.
    We have evaluated the experience of several executive branch 
agencies with the use of performance agreements to align executive 
performance with agency goals and found a number of benefits of direct 
importance to achieving improved performance at AOC:
  --Strengthened alignment of results-oriented goals with daily 
        operations.--Performance agreements define accountability for 
        specific goals and help to align daily operations with 
        agencies' results-oriented, programmatic goals.
  --Fostered collaboration across organizational boundaries.--
        Performance agreements encourage executives to work across 
        traditional organizational boundaries or ``silos'' by focusing 
        on the achievement of results-oriented goals.
  --Enhanced opportunities to discuss and routinely use performance 
        information to make program improvements.--Performance 
        agreements facilitate communication about organizational 
        performance, and provide opportunities to pinpoint improved 
        performance.
  --Provided results-oriented basis for individual accountability.--
        Performance agreements provide results-oriented performance 
        information to serve as the basis for executive performance 
        evaluations.
  --Maintained continuity of program goals during leadership 
        transitions.--Performance agreements help to maintain a 
        consistent focus on a set of broad programmatic priorities 
        during changes in leadership.\9\
---------------------------------------------------------------------------
    \9\ U.S. General Accounting Office, Managing for Results: Emerging 
Benefits from Selected Agencies' Use of Performance Agreements, GAO-01-
115 (Washington, D.C.: Oct. 2000).
---------------------------------------------------------------------------
    A results-oriented approach to accountability with the use of 
performance agreements that are directly tied to AOC goals can serve as 
a basis for considering the authorities and resources managers and 
their teams need in order to achieve results. We have reported that 
high-performing organizations seek to involve and engage employees by 
devolving authority to lower levels of the organizations. Employees are 
more likely to support changes when they have the necessary amount of 
authority and flexibility--along with commensurate accountability and 
incentives--to advance the agency's goals and improve performance. 
Allowing employees to bring their expertise and judgment to bear in 
meeting their responsibilities can help agencies capitalize on their 
employees' talents, leading to more effective and efficient operations 
and improved customer service.\10\
---------------------------------------------------------------------------
    \10\ U.S. General Accounting Office, Management Reform: Elements of 
Successful Improvement Initiatives, GAO/T-GGD-00-26, (Washington, D.C.: 
Oct. 15, 1999).
---------------------------------------------------------------------------
management and accountability framework provides context for addressing 
                   other major management challenges
    The management and accountability framework we have described 
provides a context for addressing other long-standing management 
challenges AOC faces. These include (1) communicating and obtaining 
buy-in on AOC's mission, goals, and strategies from key internal and 
external stakeholders, (2) strategic human capital management, (3) 
financial management, and (4) IT management.
AOC-Wide Communications Strategy Is Needed to Achieve Mission-Critical 
        Goals
    For successful implementation of strategic planning and change 
management, AOC must develop a communications strategy for its internal 
and external customers. Communications is an integral part of striking 
a better balance between the results AOC is trying to achieve and 
improving its employee and customer communication and participation.
    AOC recognizes the need to strengthen its communications and has 
several efforts under way. In a May 2001 discussion among senior 
managers on AOC's planning and priority setting, the senior managers 
discussed the need to broaden and improve internal communications. As a 
result, the Architect implemented a series of regular meetings for 
decision making and routine sharing of information. These meetings 
include regular staff meetings, management council meetings (quarterly 
meetings of AOC's senior managers to address agency business issues and 
priorities), and superintendent meetings (monthly meetings of AOC's 
superintendents who discuss common issues and experiences across AOC's 
jurisdictions). In addition to these routine meetings, we believe that 
AOC could strengthen its internal communications by developing a 
communications strategy that will help AOC's line employees understand 
the connection between what they do on a day-to-day basis and AOC's 
goals and expectations, as well as to seek employee feedback and 
develop goals for improvement. One way of implementing such a strategy 
is to conduct routine employee feedback surveys and/or focus groups. In 
addition, AOC could adopt a ``lessons learned'' and internal best 
practices approach, to encourage and reward AOC employees who share and 
implement best practices across the various jurisdictions, teams, and 
projects. For example, we found that the safety specialist for the 
Capitol Buildings jurisdiction prepares a monthly newsletter that 
provides a summary of the accidents and injuries that have occurred in 
the jurisdiction and provides guidance on how to avoid the most 
prevalent injuries, but the practice had not been shared outside the 
jurisdiction. AOC management should actively encourage the sharing of 
such practices to determine if AOC could achieve greater performance by 
duplicating them in other jurisdictions.
    AOC also must improve its external communications and outreach in a 
number of areas, including (1) developing congressional protocols, (2) 
publicizing the impact of highly visible projects, (3) improving its 
accountability reporting, and (4) measuring customer satisfaction with 
its services. As a first step, we would encourage AOC to consider 
developing congressional protocols, which would document agreements 
between the Congress and AOC on what committees and members can expect 
when they request AOC's services. The protocols would ensure that AOC 
deals with its congressional customers using clearly defined, 
consistently applied, and transparent policies and procedures. 
Congressional protocols would also enable AOC to better cope with the 
competing demands for its services by helping the organization set 
priorities for allocating its resources. As you know, working closely 
with the Congress and after careful pilot testing, we implemented 
congressional protocols in 1999. Our experience using them as a 
transparent, documented, and consistent way to set priorities has been 
very positive for us as well as our clients.
    AOC could build on its communication efforts in high profile and 
other key projects that affect the broader community of AOC customers. 
AOC has recently expanded its efforts to keep its external customers--
including the Congress, the Capitol Hill community, the public, and the 
media--routinely informed and educated on the planning, design, and 
construction of some high-visibility projects. For example, AOC hired a 
communications officer and developed a communications plan for the 
construction of the Capitol Visitors Center (CVC). AOC is employing a 
variety of informational tools to achieve its communications goals on 
this project. In addition to developing a Web site, the communications 
officer circulates a weekly summary of the status of construction work 
on the CVC project to AOC's key congressional customers. Because 
maintenance work on the Capitol Dome will also be highly visible, the 
status of this project was recently added to the summary.
    AOC also needs to identify and address expectations gaps in the 
type of information and frequency of accountability reporting that 
would be most useful to its congressional customers. Since 1965, AOC 
has reported semiannually to the Congress on its detailed expenditures, 
such as for salaries and maintenance supplies. As directed by the 
Senate Appropriations Committee, in February 2002, AOC provided the 
committee the first of its quarterly reports indicating the status of 
all ongoing capital projects. One option that we are considering to 
make AOC's accountability reporting more useful is to require AOC to 
notify the Congress if certain predefined, risk-based ``reportable 
events'' occur that require prompt attention. Reportable events 
notification is not intended to be a substitute for a more 
comprehensive periodic reporting of financial and program performance, 
but rather is to draw attention to specific events needing immediate 
attention. In such an approach, AOC and its congressional customers 
would reach agreement on the type of information needed on key projects 
and on what events would warrant reporting, such as percentage of 
milestones slipped, percentage over budget, or both.\11\
---------------------------------------------------------------------------
    \11\ See U.S. General Accounting Office, District of Columbia: 
Oversight in the Post-Control Board Period, GAO-01-845T (Washington, 
D.C.: June 8, 2001) for more information on reportable events as an 
approach to assisting congressional oversight and decision making.
---------------------------------------------------------------------------
    AOC's communications strategy should also include tools for gauging 
customer satisfaction with its services. AOC should develop a more 
comprehensive and routine approach to obtaining customer feedback. For 
example, AOC is working on a customer feedback survey for custodial 
services. But we believe AOC could broaden and deepen these efforts to 
address all services provided by its jurisdictions. AOC could also 
learn from the efforts of the chief administrative officer of the House 
of Representatives who told us that he recently hired a consulting firm 
to develop a uniform customer satisfaction survey for his customers. 
Consistent with an effort to develop congressional protocols, AOC could 
also develop protocols for customer service so that customers know whom 
to contact for services and what to expect.
Strategic Human Capital Management Can Improve Organizational 
        Accountability to Mission-Critical Goals
    Strategic human capital management can transform AOC into a 
results-oriented organization by aligning employee performance with AOC 
goals and by providing the tools to better plan its workforce needs. In 
1994 we reported that AOC's personnel management system did not follow 
many generally accepted principles of modern personnel management.\12\ 
In our current review, we found that AOC has made progress in 
establishing a modern personnel system that is meeting the guidelines 
set forth by the AOC Human Resources Act of 1994 and CAA.\13\ AOC has 
developed basic personnel policies and procedures and streamlined 
certain human resource processes, and has continued to add to its 
professional workforce ranks. These efforts are helping AOC to 
construct a sound foundation on which to build a high-performing 
organization.
---------------------------------------------------------------------------
    \12\ U.S. General Accounting Office, Federal Personnel: Architect 
of the Capitol's Personnel System Needs Improvement, GAO/GGD-94-121BR 
(Washington, D.C.: Apr. 29, 1994).
    \13\ See Public Law 103-283, Sec. 312, Architect of the Capitol 
Human Resources Act.
---------------------------------------------------------------------------
    Specifically, AOC has made the following improvements in its 
management of human capital:
  --Created and administered a formal written, performance appraisal 
        system for its General Schedule (up to GS-15) and Wage Grade 
        employees (non-union) and, as noted elsewhere, drafted 
        performance appraisal policies for its senior executives.
  --Implemented an employee rewards and recognition program 
        (Architect's Awards program) and dedicated additional resources 
        to its employee training programs.
  --Established (1) procedures intended to produce a competitive merit-
        based system for hiring, promoting, and assigning employees, 
        (2) Equal Employment Opportunity, Conciliation, and Employee 
        Assistance programs, and (3) a position classification system.
  --Streamlined its job recruitment and hiring processes, and is 
        currently refining certain personnel action processes.
  --Added to its professional workforce ranks by hiring new 
        jurisdictional superintendents and deputy superintendents, and 
        creating new positions, such as a CFO, a facilities manager, 
        worker safety specialists, and a facilities planning and 
        development manager.
    AOC can build on the progress it has made in human capital 
management by incorporating the principles embodied in our Model of 
Strategic Human Capital Management.\14\ We designed this model based on 
the human capital practices of leading public and private organizations 
to help agency leaders manage their people and integrate human capital 
considerations into daily decision making to help achieve program 
results. AOC should especially consider applying the practices 
contained in two of the four cornerstones of the model: strategic human 
capital planning and results-oriented organizational cultures.
---------------------------------------------------------------------------
    \14\ U.S. General Accounting Office, A Model of Strategic Human 
Capital Management, Exposure Draft, GAO-02-373SP (Washington, D.C.: 
Mar. 2002).
---------------------------------------------------------------------------
    Collecting and analyzing data are fundamental building blocks for 
measuring the effectiveness of human capital approaches in support of 
the mission and goals of an agency. AOC needs to develop a fact-based, 
electronic approach to its management information systems and data 
sources to allow for accurate and reliable information across a range 
of human capital activities. The ability to gather reliable data will 
greatly enhance AOC's ability to acquire, develop, and retain talent, 
while allowing it to effectively plan for workforce needs.
    Based on mission-critical agency goals, AOC also needs to identify 
its current and future workforce needs and create strategies for 
filling any gaps. As part of this workforce planning effort, AOC should 
conduct an employee skills inventory to determine a baseline and to 
address gaps in skills needed and skills available. This workforce 
analysis will also help AOC to create a succession planning program. 
For instance, if AOC is to develop reliable project cost estimates to 
support budgeting and financial and project management, the designated 
workforce must have the necessary skills to complete these functions. 
AOC would then need to
  --determine how many project management employees it needs to 
        accomplish its project management goals,
  --assess the skills of the employees currently available to do this 
        work,
  --determine the gap in the number of skilled employees needed to do 
        this work,
  --develop a training and recruitment plan for filling the gap, and
  --create a succession plan to manage project management employees 
        exiting the organization.
    We also suggest that AOC establish agencywide core and technical 
competencies--reflecting its core values \15\--that would form the 
basis of a best-in-class facilities management environment. The 
competencies would also relate to mission-critical goals that should be 
cascaded throughout AOC in its performance management system. AOC 
competencies can also help to provide the direction for future employee 
selection, promotion, training initiatives, and succession planning 
efforts. For example, AOC's Human Resource Management Division (HRMD) 
has made progress in developing a competency model for its own staff. 
HRMD intends to use this competency model to ``reinforce its strategic 
focus'' and to outline ``the workforce requirements necessary to 
develop a highly competent cadre of HR [human resources] staff 
dedicated and committed to providing high-quality, timely and 
responsive human resources services to managers and employees of the 
AOC.'' \16\ Like HRMD, other AOC units need to adopt competency models 
reflecting their own individual needs, thus enabling the agency to 
align its workforce skills and behaviors with the its mission-critical 
goals.
---------------------------------------------------------------------------
    \15\ AOC's core values are professionalism, respect and diversity, 
integrity, loyalty, stewardship, teamwork, and creativity.
    \16\ Architect of the Capitol, HRMD's Model for Success, Oct. 1999.
---------------------------------------------------------------------------
    As discussed elsewhere, once AOC has developed mission-critical 
annual goals it should incorporate them into the ``results driven'' job 
element AOC has proposed as part of its new senior executive 
performance management system. The existing staff-level performance 
appraisal system, Performance Communication and Evaluation System 
(PCES), consists of four evaluation areas: work results, interactions 
with others, judgment, and safety; a fifth evaluation area for 
supervisors is supervision and management. As an interim step, the four 
evaluation areas could be linked to overall agency goals to increase 
assurance that AOC's mission will be met. In the longer term, AOC could 
strengthen individual accountability for achieving organizational goals 
by thoroughly reexamining PCES to incorporate core and technical 
competencies that would be linked to these goals.
AOC Needs to Continue and Expand Efforts to Improve Financial 
        Management
    AOC faces significant challenges in building sound financial 
management and budget functions. Accurate and reliable budget 
formulation and execution and financial accounting and reporting are 
key functions that form the foundation of financial control and 
accountability. Historically, the AOC has lacked reliable budgets for 
both projects and operations and has not prepared auditable financial 
statements.
    In recognition of the critical role a CFO plays in achieving 
financial accountability and control, AOC established a CFO position 
and, in January 2002, filled the position. The new CFO is a member of 
the Architect's executive council and reports directly to the 
Architect. Organizationally, the CFO is responsible for the activities 
of AOC's Budget Office, Accounting Office, and Financial Systems 
Office. Included among the many challenges facing the new CFO are his 
responsibilities for (1) implementing AOC's new financial management 
system (Momentum), (2) implementing applicable accounting and 
operational policies and procedures, and (3) preparing a complete and 
auditable set of AOC financial statements.
    Among his first actions, the new CFO recently hired staff members 
to fill key budget and accounting officer positions, including 
additional accounting staff members with the general ledger accounting 
experience needed to maintain AOC's new general ledger. He has also 
focused his efforts on bringing AOC's new financial management system 
on-line. While these steps are critical and represent the initial steps 
to improving AOC's financial management and budget functions, much work 
remains to be done. The CFO has also recognized or started work on 
other key issues that need to be addressed in the near term, including 
the following:
  --Providing continued training and support for using the new 
        financial management system, which began operating AOC-wide on 
        April 2, 2002.
  --Developing procedures and controls to ensure that accurate and 
        reliable data are produced by the new financial management 
        system.
  --Addressing systematically recommendations made by the AOC inspector 
        general and various consultants for improving internal 
        controls, as we recommended during our review.
  --Establishing a credible budget formulation and execution process 
        that includes an effective acquisition strategy to develop 
        operating and capital budget information and to help ensure 
        reliable project cost estimates (including 100 percent design, 
        current working estimates, and reliable full-time equivalent 
        information).
  --Developing and implementing policies and procedures needed to 
        properly account for and report financial information, 
        especially accounting policies needed to properly report and 
        control AOC's assets.
  --Establishing inventory management and control policies and 
        procedures that help ensure accurate and useful information, 
        provide adequate safeguards over inventory, and facilitate an 
        annual inventory and financial reporting.
  --Assessing human capital needs, which includes identifying the 
        skills and competencies needed for AOC's financial management 
        workforce and providing for continuing training to ensure a 
        financial team with the right mix of skills and competencies.
  --Integrating project-related financial information from the new 
        financial management system with the related financial 
        information maintained in the Project Information Center system 
        to enhance completeness and accuracy of financial and budget 
        information on AOC's projects.
    The AOC's CFO has endorsed the use of our executive guide on best 
practices in financial management as a road map for these and other 
needed improvements.\17\ The CFO acknowledges the challenges that lie 
ahead and has established a goal for AOC to prepare auditable 
agencywide financial statements for the first time in fiscal year 2004. 
As we continue to review AOC's financial management and budget 
formulation and execution, we plan to look more closely at the 
processes and usefulness of AOC's financial and budget information, as 
well as project cost estimation to complement our assessment of project 
management at AOC.
---------------------------------------------------------------------------
    \17\ U.S. General Accounting Office, Executive Guide: Creating 
Value Through World-class Financial Management, GAO/AIMD-00-134 
(Washington, D.C.: Apr. 2000).
---------------------------------------------------------------------------
AOC Needs to Adopt an Agencywide Approach to IT Management
    IT can be a valuable tool in achieving an organization's mission 
objectives. Accordingly, in fiscal year 2001, AOC obligated about $7.9 
million for IT-related activities. For example, AOC uses the Computer 
Aided Facilities Management System (CAFM) to automate work order 
requests and fulfillment for ongoing maintenance of the Capitol and the 
surrounding grounds. Moreover, the Records Management System archives 
available architectural drawings pertaining to the U.S. Capitol, 
Library of Congress, Botanic Garden, and other buildings.
    Our research of private and public sector organizations that have 
effectively leveraged IT shows that these organizations' executives 
have embraced the central role of IT to mission performance. As such, 
they have adopted a corporate or agencywide approach to managing IT 
under the leadership and control of a chief information officer (CIO), 
who is a full participant in senior executive decision making. 
Additionally, these organizations have implemented certain corporate IT 
management controls such as using a portfolio-based approach to IT 
investment decision making, using an enterprise architecture or 
blueprint to guide and constrain IT investments, following disciplined 
IT system acquisition and development management processes, and 
proactively managing the security of IT assets.
    Our preliminary work shows that AOC has yet to adopt such an 
approach. AOC could greatly benefit from an agencywide approach to 
managing IT under the leadership and control of an empowered CIO. Such 
an approach should, at a minimum, include each of the above IT 
management controls as defined in relevant federal guidance and proven 
best practices. AOC's top leadership will need to consider carefully 
its environment and the scope of its IT investments to determine how 
best to apply this guidance and the best practices to its specific 
situation.
    CIO.--Our research of private and public sector organizations shows 
that instituting an effective CIO organization begins with 
understanding IT's vital role in accomplishing mission objectives and 
positioning the CIO for success.\18\ It also identified a number of 
practices and strategies that senior managers in leading organizations 
use to establish their CIO positions to effectively meet business 
needs. These include establishing the CIO as a full participant in 
executive decision making; clearly defining the roles, 
responsibilities, and accountabilities of the CIO; matching the CIO 
position to the specific needs of the agency, as determined by the 
agency head based on the agency's mission and strategic plan; and 
ensuring that the CIO has the right technical and management skills to 
meet business needs.
---------------------------------------------------------------------------
    \18\ U.S. General Accounting Office, Maximizing the Success of 
Chief Information Officers: Learning From Leading Organizations, GAO-
01-376G (Washington, D.C.: Feb. 2001).
---------------------------------------------------------------------------
    AOC does not have a CIO or senior-level executive to manage IT 
across the agency. AOC has a director of information resources 
management who is neither a full member of the executive management 
team nor a participant in senior executive decision making. Without a 
CIO or other senior-level executive to manage its IT, AOC's IT does not 
have the substantive leadership, full-time attention, and consistent 
direction to effectively optimize mission performance across the 
agency.
    To address AOC's need for an effective CIO, we recommend that the 
Architect establish a CIO and position the CIO for success by 
implementing the practices referenced in this testimony and further 
discussed in our best practices guide.\19\
---------------------------------------------------------------------------
    \19\ GAO-01-376G.
---------------------------------------------------------------------------
    Investment Management.--Our best practices guide, based on research 
of private and public sector organizations that effectively manage 
their IT investments, outlines a portfolio-based approach to IT 
investment decision making that includes processes, practices, and 
activities for continually and consistently selecting, controlling, and 
evaluating competing IT investment options in a way that promotes the 
greatest value to the strategic interest of the organization.\20\ The 
first step toward establishing such an approach is putting in place 
foundational, project-level control and selection processes.
---------------------------------------------------------------------------
    \20\ U.S. General Accounting Office, Information Technology 
Investment Management: A Framework for Assessing and Improving Process 
Maturity, version 1, GAO/AIMD-10.1.23 (Washington, D.C.: May 2000).
---------------------------------------------------------------------------
    To do this, the organization needs to establish and implement 
processes and practices for (1) operating an IT investment board 
responsible for selecting, controlling, and evaluating IT investments, 
(2) providing effective oversight for ongoing IT projects throughout 
all phases of their life cycles, (3) identifying, tracking, and 
managing IT resources, (4) ensuring that each IT project supports the 
organization's business needs, and (5) establishing criteria for 
selecting new IT proposals. Once the organization has established these 
project-specific control and selection processes, it should move to 
considering each new investment as part of an integrated portfolio of 
investments that collectively contribute to mission goals and 
objectives. To do this, the organization needs to establish and 
implement processes and practices for (1) developing and implementing 
criteria to select investments that will best support the 
organization's strategic goals, objectives, and mission, (2) using 
these criteria to consistently analyze and rank all IT investments, (3) 
ensuring that the optimal IT investment portfolio with manageable risks 
and returns is selected and funded, and (4) overseeing each IT 
investment within the portfolio to ensure that it achieves its cost, 
benefit, schedule, and risk expectations.
    AOC has not implemented a portfolio-based approach to IT investment 
management. The director of information resources management proposed a 
high-level committee structure for selecting IT investments across AOC 
about 2 years ago. The proposed structure included an AOC IT Strategy 
Council, composed of the director and AOC executive management, to rank 
and approve agencywide IT investments, as well as an IT Business 
Planning Committee, composed of both IT and business representatives, 
to evaluate IT projects based on financial, business, and risk factors 
and recommend projects to the IT Strategy Council for investment. 
However, the director stated that AOC leadership has yet to adopt the 
proposal. While the proposal is a positive first step, it does not 
address many of the critical elements of an effective IT investment 
management process, as outlined in our best practices guidance. Without 
an effective investment management process, AOC does not know whether 
its IT investments are commensurate with cost and risk and whether they 
are superior to alternative investment alternatives.
    To strengthen its investment management capability, we recommend 
that AOC develop and implement an IT investment management process. In 
doing so, we recommend that the Architect develop a plan for developing 
and implementing the investment management processes we describe and 
that are also outlined in our IT investment management guide.\21\ At a 
minimum, the plan should specify measurable goals and time frames, rank 
initiatives, and define a management structure for directing and 
controlling the improvements.
---------------------------------------------------------------------------
    \21\ GAO/AIMD-10.1.23.
---------------------------------------------------------------------------
    Enterprise Architecture.--As defined in federal guidance, and as 
practiced by leading public and private sector organizations, an 
enterprise architecture, or blueprint, guides and constrains IT 
investments and defines, both in logical terms (including business 
functions and applications, work locations, information needs, and 
users and the interrelationships among these variables) and in 
technical terms (including IT hardware, software, data communications, 
and security) how the organization operates today, how it intends to 
operate tomorrow, and a road map for moving from present to future.\22\ 
This guidance also defines a set of recognized practices for 
developing, implementing, and maintaining an enterprise architecture 
that includes, among other things, developing a clear enterprise 
architecture policy statement, creating a steering committee or 
executive body to oversee the development and maintenance of the 
enterprise architecture, designating a lead individual responsible for 
developing the enterprise architecture, establishing a program office 
with appropriate resources, and selecting a framework and tool for 
developing the architecture.
---------------------------------------------------------------------------
    \22\ Chief Information Officers Council, A Practical Guide to 
Federal Enterprise Architecture, version 1.0 (Washington, D.C.: Feb. 
2001).
---------------------------------------------------------------------------
    AOC does not have an enterprise architecture consistent with 
federal guidance and recognized best practices and does not plan to 
develop one. However, the director of information resources management 
has some information that would be useful in developing some elements 
of such an architecture, such as existing network topology maps and 
server hardware and software descriptions. By not having and using a 
complete enterprise architecture, AOC lacks an effective means for 
promoting integration of, and avoiding duplication and inconsistencies 
in, business operations and supporting system investments.
    To develop, implement, and maintain an enterprise architecture, we 
recommend that the Architect implement the practices we discuss, which 
are outlined in the CIO Council's architecture management guide.
    System Acquisition/Development.--The use of disciplined processes 
and controls based on well-defined and rigorously enforced policies, 
practices, and procedures for system acquisition and development can 
greatly reduce the risk that IT systems do not perform as intended, are 
delivered late, and cost more than planned. Such processes for managing 
system acquisition/development are defined in various published models 
and guides, such as Carnegie Mellon University's Software Engineering 
Institute's (SEI) Capability Maturity ModelSM.\23\ Key processes such 
as requirements management, risk management, test management, and 
contract oversight and tracking are important for ensuring that systems 
are delivered on time, within budget, and perform as intended. 
Additionally, configuration management and quality assurance processes 
are critical to ensuring the integrity of the products and processes 
used to develop the products.
---------------------------------------------------------------------------
    \23\ Carnegie Mellon Software Engineering Institute, CMMI<SUP>SM</SUP> 
for Systems Engineering/Software Engineering/Integrated Product and 
Process Development, Continuous Representation, version 1.02 
(Pittsburgh, Pa.: Nov. 2000).
---------------------------------------------------------------------------
    AOC has not implemented agencywide, disciplined processes for 
managing the development and acquisition of systems. In 1995, AOC's 
Office of Information Resources Management (OIRM) developed its 
Information Systems Life Cycle Directive (ISLC) that defines policies 
and procedures for software development and acquisition. Based on our 
preliminary review, ISLC addresses some, but not all, of the key 
process areas that are considered critical to successful system 
development and acquisition. For example, it defines processes for 
requirements management that include, among other things, the 
definition, documentation, and validation of requirements. ISLC also 
includes processes for test management that include such important 
areas as development of a test methodology, test plan, and test 
environment and documentation and reporting of test results and 
deficiencies. However, it does not include processes for two key areas: 
risk management and contract tracking and oversight. More important, 
ISLC is not being used to guide AOC system development and acquisition 
projects. Without a complete and enforced system development and 
acquisition life cycle process, AOC risks investing in systems that do 
not perform as intended, are delivered late, and cost more than 
planned.
    To strengthen AOC's system acquisition and development controls, we 
recommend that the Architect introduce rigorous and disciplined 
processes for risk management and contractor oversight into OIRM's 
ISLC. We also recommend that the Architect ensure that OIRM's ISLC is 
implemented throughout the agency to guide systems development and 
acquisition projects, as appropriate.
    Information Security.--Our research of public and private sector 
organizations recognized as having strong information security programs 
shows that these organizations have implemented information security 
programs that include continual cycles of assessing business risks, 
maintaining policies and controls, promoting awareness, and monitoring 
and evaluating policy and control effectiveness.\24\
---------------------------------------------------------------------------
    \24\ U.S. General Accounting Office, Executive Guide: Information 
Security Management, Learning From Leading Organizations, GAO/AIMD-98-
68 (Washington, D.C.: May 1998) and Information Security Risk 
Assessment: Practices of Leading Organizations, A Supplement to GAO's 
May 1998 Executive Guide on Information Security Management, GAO/AIMD-
00-33 (Washington, D.C.: Nov. 1999).
---------------------------------------------------------------------------
    AOC does not have an information security program, although the 
director of information resources management has recently initiated 
some efforts to establish one. For example, the director has designated 
an IT security officer whose responsibilities include developing IT 
security policies, planning and coordinating security risk assessments, 
conducting security training, and evaluating IT security effectiveness. 
Also, the security officer has recently completed a risk assessment of 
AOC's general support system and some key intellectual property, and 
has begun developing policies outlining the security officer position's 
roles and responsibilities as well as a security plan to address 
vulnerabilities identified in the risk assessment.
    Nevertheless, several critical areas related to implementing 
leading security management principles, as outlined in our best 
practices guide, warrant attention. For example, AOC has not (1) 
developed and implemented policy and guidance for performing periodic 
risk assessments, (2) provided the security officer the authority and 
resources to implement an agencywide security program, and (3) 
developed policies for such areas as security training and awareness, 
incident response, and program monitoring and evaluation. Without 
effective information security practices in place, financial and 
sensitive information contained in AOC's systems may be at risk of 
inadvertent or deliberate misuse, fraud, improper disclosure, or 
destruction--possibly without detection.
    To strengthen AOC's information systems security, we recommend that 
the Architect follow the steps detailed in our information security 
guide \25\ to establish an information security program, including (1) 
providing the security officer with the authority and resources to 
implement an agencywide security program, (2) developing and 
implementing policy and guidance for performing periodic risk 
assessments, (3) using the results of the risk assessments to develop 
and implement appropriate controls, (4) developing policies for 
security training and awareness and providing training, and (5) 
monitoring and evaluating policy and control effectiveness.
---------------------------------------------------------------------------
    \25\ GAO/AIMD-98-68.
---------------------------------------------------------------------------
AOC Could Make Worker Safety Program Improvements More Effective by 
        Adopting Certain Best Practices
    Because of the concerns that the Congress and others raised about 
worker safety at AOC, in 2001, the Architect issued a statement that 
safety is his highest organizational priority. The maintenance, repair, 
and renovation of the Capitol complex is potentially dangerous work 
that exposes AOC employees to a variety of hazards related to the 
carpentry, electrical, painting, construction, custodial, and other 
work they perform. The types and severity of injuries and illnesses AOC 
employees could face range from injuries to the back, hand, and head to 
more life-threatening accidents. To effectively implement the 
Architect's commitment to safety, and consistent with best practices 
for health and safety programs as described in OSHA guidance and our 
work, AOC must develop comprehensive and reliable data, provide a clear 
understanding of what the program is trying to accomplish, and how it 
will evaluate results. AOC also needs to examine strengthening the 
accountability relationships between the various safety program 
officials. Best practices also indicate that standardized and 
agencywide policies and procedures must be in place--such as procedures 
that encourage employees to report incidents, accidents and unsafe 
conditions (often called hazards), and procedures to investigate causes 
of accidents to identify why accidents occurred. By gathering more 
comprehensive and reliable data, and developing and consistently 
applying policies and procedures for reporting and investigating 
accidents, injuries, and illnesses, AOC can begin to take a more 
strategic approach to addressing safety issues. For example, better 
information about the type and frequency of injuries and the hazards 
that contribute to them could help AOC establish a risk-based approach 
for addressing the most significant worker safety issues that are 
occurring and for allocating resources.
            AOC Has Taken Significant Steps to Address Worker Safety 
                    and Health
    AOC has taken and is in the process of implementing many 
significant steps that demonstrate its commitment to improving worker 
safety. For example, AOC has done the following:
  --Developed a high-level 5-year approach to worker safety and health 
        and is developing a 5-year worker safety master plan. This plan 
        will be used as a road map for AOC to identify its safety 
        philosophy, establish priorities, assign responsibilities, and 
        identify project and funding needs.
  --Reorganized its Office of the Executive Officer for Facilities 
        Management to increase the emphasis on safety, hired a new 
        facilities manager, and increased the staff from 5 to 10 
        professionals in the Safety and Environmental Health Division.
  --Hired eight safety specialists who oversee the safety programs for 
        the six jurisdictions and one division--the House and Senate 
        Office Buildings, Capitol Buildings, Library of Congress, 
        Capitol Power Plant, Botanic Garden, and Construction 
        Management Division.
  --Implemented 11 of 41 pending safety programs that will comply with 
        the Occupational Safety and Health Administration (OSHA) 
        regulations, and are aimed at reducing the risk and rate of 
        illnesses and injuries. The programs cover policies such as 
        handling hazardous materials, working in confined spaces, using 
        safety equipment, and wearing respiratory protection.\26\
---------------------------------------------------------------------------
    \26\ AOC has contracted out with the Department of Labor's Public 
Health Service to write these programs at a cost of about $166,000. AOC 
plans to have these 41 programs developed by fiscal year 2004.
---------------------------------------------------------------------------
  --Established safety and health committees at the executive and 
        jurisdictional levels.
  --Purchased protective equipment for employees to help reduce many of 
        the common work-related injuries.
  --Provided over 13,000 hours of formal training to employees on 
        safety and health issues to raise awareness, decrease work-
        related accidents, and maintain a safer work environment.
  --Contracted or is in the process of contracting for outside 
        experts--including technical assistance from the Public Health 
        Service, Dupont, and OSHA through the Office of Compliance--to 
        assist in establishing worker safety policies and procedures 
        and best practices and to provide additional health and safety 
        training.
            Effective Safety and Health Programs Depend on Establishing 
                    Goals and Key Policies and Procedures for Reporting 
                    and Abating Hazards
    Implementing the six core components of an effective worker safety 
program, as shown in table 1, is critical for instilling an 
organizational focus on safety and for helping reduce injuries, 
illnesses, and fatalities. Together, these components help an 
organization outline what it is trying to achieve, assess its progress, 
and ensure that it has the proper policies in place. After evaluating 
AOC's worker safety and health program, our analysis focused on four of 
the six components that we believed were the most important initially 
for AOC to address. These four core components of an effective worker 
safety and health program are management commitment, employee 
involvement, identification of problem jobs, and analysis and 
development of controls for problem jobs. In the next stage of our 
review, we plan to assess AOC's education and training and medical 
management components.

                       TABLE 1.--CORE COMPONENTS OF AN EFFECTIVE SAFETY AND HEALTH PROGRAM
----------------------------------------------------------------------------------------------------------------
            Component \1\                           Ways in which the component can be demonstrated
----------------------------------------------------------------------------------------------------------------
Management commitment...............  Establish goals for the program, collect reliable data, and evaluate
                                       results.
                                      Establish program responsibilities of managers and employees for safety
                                       and health in the workplace and hold them accountable for carrying out
                                       those responsibilities.
                                      Communicate to the staff the program's importance.
Employee involvement................  Establish mechanisms to get employees involved in the program, such as
                                       creating committees or teams to receive information on problem jobs or
                                       areas.
                                      Establish procedures for employees to report job-related fatalities,
                                       injuries, illnesses, incidents, and hazards; ensure that employees are
                                       not discouraged from reporting accidents, injuries, illnesses, or unsafe
                                       conditions.
                                      Establish regular channels of communication with employees regarding
                                       worker safety issues.
Identification of problem jobs......  Follow up on employee reports of injuries, symptoms, or hazards.
                                      Review injury logs or other data to identify problem areas.
                                      Conduct inspections of the workplace to identify hazards causing injuries,
                                       illnesses, or fatalities.
Analysis and development of controls  Through investigation or other analysis, identify hazards present in
 for problem jobs.                     problem jobs.
                                      Develop controls for problem jobs by brainstorming with employees or other
                                       methods.
                                      Follow up to ensure that hazards are abated and controls are effective.
Education and training..............  Provide general awareness training to all employees so they can recognize
                                       hazards and risks, learn procedures for reporting injuries, and become
                                       familiar with the program.
                                      Provide targeted training to specified groups of employees because of the
                                       jobs they hold, the hazards they face, or their roles in the program.
Medical management \2\..............  Encourage early reporting of symptoms and ensure that employees do not
                                       fear reprisal or discrimination.
                                      Ensure a prompt evaluation by a medical provider.
                                      Provide employees who have work-related medical conditions with restricted
                                       or light duty employment.
----------------------------------------------------------------------------------------------------------------
\1\ Different terminology is often used to describe these components. For example, identification of problem
  jobs is sometimes referred to as hazard identification and assessment. Analysis and development of controls
  for problem jobs is sometimes referred to as hazard prevention and control. The terms used here are identical
  to those used in our prior work.
\2\ Organizations may have medical management programs without necessarily having safety and health programs.
 
Sources: OSHA, Safety and Health Program Management Guidelines, Issuance of Voluntary Guidelines, Federal
  Register 54:3904-3916 (Washington, D.C.: Jan. 26, 1989) and U.S. General Accounting Office, Private Sector
  Ergonomics Programs Yield Positive Results, GAO/HEHS-97-163 (Washington, D.C.: Aug. 27, 1997).

            Management Commitment: AOC Must Develop Program Goals Based 
                    on Reliable Data and Strengthen Accountability 
                    Relationships
    Management commitment requires establishing program goals, 
collecting reliable data, and assessing progress towards those goals. 
It also involves establishing program responsibilities of managers and 
employees for safety and health in the workplace and holding them 
accountable for carrying out those responsibilities, and communicating 
to the staff the program's importance. AOC, with the personal 
involvement of the Architect, has communicated to managers and staff 
members that it must become a safer organization and is working on 
changing the organizational culture to focus on safety and health. As a 
clear sign of that commitment, in June 2001 AOC established a goal of 
reducing the rate of worker injuries and illnesses by 10 percent per 
year for 5 years, starting from the fiscal year 2000 rate of 17.9 per 
100 workers.
    AOC is measuring its progress in achieving its injury and illness 
reduction goal using OSHA's published measure of total injuries and 
illnesses, which provides the total number of cases and the rate of 
injuries and illnesses that incur costs under the federal workers' 
compensation program. The OSHA measure is important to show the extent 
to which those injuries and illnesses that could include the most 
severe--that is, those in incurring medical expenses or lost time--are 
increasing or decreasing. According to this measure, both the number 
and rate of these injuries and illnesses at AOC showed an overall 
increase from fiscal years 1997 through 2000.\27\ In fiscal year 2000, 
according to this measure, the rate of injury and illness was 17.9 per 
100 workers. Although OSHA has not published these data for fiscal year 
2001, OSHA officials told us that for AOC both the number and rate of 
injury and illness declined in 2001. At the same time, however, AOC has 
been tracking the total number of injuries and illnesses occurring at 
AOC, regardless of whether the injury or illness incurred costs under 
the federal workers' compensation program. These data show a decline in 
the total number of recorded injuries and illnesses from fiscal years 
1999 (the first year the data were available) through 2001.
---------------------------------------------------------------------------
    \27\ OSHA did not publish these data prior to 1997.
---------------------------------------------------------------------------
    AOC and OSHA's data provide valuable information for AOC. However, 
neither of these data is directly comparable to key measures used in 
the private sector, so AOC has been missing the opportunity to compare 
itself to--and learn from--the application of industry standards. 
According to private sector best practices, organizations should rely 
on a more precise measure of severe injuries and illness than either 
the OSHA or AOC total injury and illness data provide. The private 
sector generally uses a measure called ``OSHA recordables,'' which 
include any work-related injury or illness that requires more than 
first aid or leads to lost time. As a result, tracking OSHA recordables 
allow an organization to identify the most severe injuries and 
illnesses occurring in the workplace. To be more consistent with 
industry standards, in 2001, AOC began to collect on a limited basis 
OSHA recordables, which we believe will help AOC create a more accurate 
picture of its injuries and illnesses.
    At the same time AOC is developing more comprehensive illness and 
injury data, AOC needs to ensure that the data it gathers are reliable. 
For example, although AOC has established policies and procedures that 
require reporting of all workers' compensation claims, it does not have 
policies and procedures in place for reporting the more comprehensive 
data on injuries and illnesses consistent with industry best practices. 
The partnership that the AOC is developing with the Office of 
Compliance and OSHA and the contract with Dupont to provide technical 
assistance in the area of worker safety could help AOC make progress on 
assessing is policies and procedures for collecting injury and illness 
data and help ensure their completeness and reliability.
    Management commitment also dictates that an organization put the 
right people in place with the authority to make the program work. As 
we mentioned, AOC reorganized its Executive Office of Facilities 
Management to increase its emphasis on safety. The office includes the 
Safety and Environmental Health Division, which includes the safety 
officer and the central safety specialist positions. This office has 
recently increased its staffing from 5 to 10 safety and health 
professionals. In addition, AOC has hired eight safety specialists for 
six of its jurisdictions and one division. As these safety specialists 
assume their full responsibilities, AOC needs to ensure that it has 
clearly defined their roles, responsibilities, and authorities at the 
central and jurisdictional levels so that they can carry out their 
work. Implementation of the worker safety program occurs at the 
jurisdictional level. In the next stage of our review, we plan to 
explore which of the safety program responsibilities would be best 
carried out by central AOC staff and which would best be carried out by 
the jurisdictional staff.
            Employee Involvement: AOC Should Strengthen Employee 
                    Involvement with Reporting Incidents, Accidents, or 
                    Hazards
    As noted above, AOC has established mechanisms to get employees 
involved in the worker safety program and has established regular 
channels of communication with employees through the safety and health 
committees and through formal training. Employee involvement also 
includes establishing procedures for employees to use in reporting job-
related incidents, accidents, and hazards, and ensuring that they are 
encouraged to do so. AOC should develop such procedures to encourage 
and reward employees for reporting these situations. For example, AOC 
could develop procedures along with awareness training that clearly 
articulate the steps employees should take to report all job-related 
incidents, accidents, and hazards and ensure they are followed 
consistently. AOC could also recognize employees for following these 
procedures through the Architect's new employee rewards and recognition 
program. Another way to increase employee involvement is to have 
employees serve on teams responsible for identifying and ranking 
problem jobs as well as developing controls for those jobs, which 
several of the jurisdictions have initiated. Finally, AOC should hold 
top managers, frontline supervisors, and employees accountable for 
ensuring that this process is followed. In the next stage of our 
review, we plan to explore these reporting and accountability issues 
further through a series of focus groups with AOC employees.
            Identification, Analysis, and Development of Controls for 
                    Problem Jobs: AOC Needs Consistent Policies and 
                    Procedures for Conducting Investigations and 
                    Abating Hazards
    Leading organizations systematically seek to identify why injuries, 
illnesses, and accidents occur or why hazards exist and eliminate 
underlying conditions as part of a risk-based approach to creating safe 
and healthy work environments. In that respect, it is vital to have 
adequate processes to investigate problem areas, develop controls for 
those areas, and follow up to ensure that hazards are abated. 
Furthermore, staff members conducting these investigations should have 
the knowledge and authority to remedy the situations. In 1998, the 
Office of Compliance recommended that AOC develop a system to routinely 
investigate accidents or hazardous situations and ensure that hazards 
are corrected. In response, AOC has placed safety specialists in 
several of the jurisdictions, which provides greater assurance that an 
effort is being taken to investigate accidents, incidents, or 
identified hazards.
    However, there is still no consistent AOC-wide system for 
conducting investigations and follow-up to ensure that corrective 
actions have been taken. Such a system is critical to providing AOC 
with the assurance that its efforts are risk-based--targeted directly 
toward identifying and abating those factors leading to the most severe 
and frequent incidents, accidents, and hazards. To illustrate, some of 
the jurisdictions have (1) developed their own investigation 
procedures, (2) involved different staff members in the investigations 
(e.g., a safety specialist in one case, a safety and health committee 
representative in another case), and (3) developed their own forms to 
gather accident or incident data. Another important component is 
follow-up, and we found that only two of the five jurisdiction safety 
specialists we interviewed were tracking resolution of hazards 
identified. AOC has procured a data system--Facility Management 
Assistant--that is to include inspection data and provide risk analysis 
and hazard abatement assessment and follow-up, which we think is a 
positive step.\28\ According to the director of AOC's Safety and 
Environmental Health Division, this system is expected to be 
operational by July 2002.
---------------------------------------------------------------------------
    \28\ This system will be integrated with AOC's financial management 
tracking system for processing work orders.
---------------------------------------------------------------------------
AOC Needs to Build on Current Efforts by Adopting a Strategic Approach 
        to Recycling
    Programs that separate and collect recyclable materials from the 
waste stream produce numerous benefits. It is estimated that recycling 
1 ton of paper saves 17 mature trees, 3.3 cubic yards of landfill 
space, 7,000 gallons of water, 380 gallons of oil, 4,100 kilowatt hours 
of energy, and 60 pounds of air pollutants. To maximize the benefits 
derived from its recycling program, AOC must build on the steps it has 
taken to improve the effectiveness of its programs by taking a more 
strategic approach. Such an approach would include revisiting and 
clarifying recycling mission and goals, measuring and monitoring 
performance against goals to gauge and improve program effectiveness, 
and reexamining the roles and responsibilities of the recycling program 
staff to ensure accountability for achieving recycling goals. We 
provide observations on how AOC could improve recycling results by 
replicating its own and others' best practices.
            AOC Has Taken Steps to Improve Effectiveness of Recycling 
                    Programs
    AOC is responsible for operating recycling programs for much of the 
Capitol complex.\29\ In recent years, AOC, both centrally and at the 
jurisdiction level, has taken steps to improve the overall 
effectiveness of its recycling programs. Some of the steps include
---------------------------------------------------------------------------
    \29\ AOC operates all aspects of the recycling programs in the 
House and Senate Office Buildings, except for the Ford building, which 
is operated by a custodial contractor. In addition, the House 
jurisdiction picks up recyclable materials collected by the House side 
of the Capitol building, the Botanic Garden, the page dorm (501 1st 
St.), and, most recently, the Capitol Power Plant. On the Senate side 
of the Capitol building, the Senate Sergeant-at-Arms operates the 
recycling program, and AOC transports the materials to its collection 
site in the Hart Office Building. The Supreme Court and the Library of 
Congress operate their own recycling programs.
---------------------------------------------------------------------------
  --formalizing the positions and responsibilities of the AOC resource 
        conservation manager and the House and Senate recycling program 
        managers to include activities such as planning, policy and 
        program development, monitoring, and evaluation of recycling 
        operations;
  --filling the Senate recycling program manager position, which was 
        vacant for a number of months;
  --suggesting that the Senate adopt a consultant's recommendation to 
        simplify the recycling program to improve participation and 
        increase effectiveness;
  --developing a draft set of performance indicators and starting to 
        collect data; and
  --reworking the recycling program for the House Office Buildings 
        jurisdiction to increase promotion and education and reequip 
        participating offices with new recycling containers.
            Recycling Program Design Depends on Desired Goals
    There are a variety of environmental and financial benefits to be 
derived from an office recycling program, and program designs will 
differ depending on the goals selected. A typical goal is reducing to 
the extent possible the amount of solid waste sent to landfills. 
Another goal is generating as much revenue as possible from the sale of 
the recyclable materials collected. A key to achieving either goal is 
making the recycling program as easy as possible for employees to use. 
Generally, the less sorting, decision making, and walking required by 
individual participants, the more successful the program will be. And 
although the two goals of waste reduction and revenue generation are 
not mutually exclusive, the designs of each would differ.
    Specifically, a recycling program with the goal of generating 
revenue, commonly referred to as a source separation program, is more 
complicated, expensive, and difficult to implement than a program 
designed for waste reduction. This is because separating a greater 
variety of recyclable materials at the source requires more resources 
for educating clients and the recycling staff, collecting recyclable 
materials, and monitoring for compliance. The complexity of source 
separation, unfortunately, increases the likelihood of contamination of 
the recyclable materials collected, reducing their value and increasing 
the volume of waste sent to landfills. Given the complexity and 
potential performance problems with a source separation program, an 
organization needs to analyze the costs and benefits of such a program 
compared to other, simpler options to determine whether such a program 
will be cost-effective.
            AOC Needs to Revisit and Clarify Recycling Mission and 
                    Goals
    High levels of contamination have prevented the House and Senate 
recycling programs from achieving either of the two goals. AOC's 
recycling contractor does not pay for high grade (e.g., white copy) 
paper with greater than 5-percent contamination or mixed grade (e.g., 
glossy or colored) paper with greater than 10-percent contamination. 
However, in fiscal year 2001, over 60 percent of about 650 tons of 
recyclable paper collected from Senate Office Buildings and more than 
70 percent of about 1,720 tons of recyclable paper collected from the 
House Office Buildings were contaminated. Although AOC avoided the cost 
of disposing of the waste, the collected materials generated no 
revenue. The recycling contractor may sort and recycle some of this 
contaminated waste, but the rest ultimately will go to a landfill.
    AOC needs to clearly define the overall mission and goals of its 
recycling programs to assess whether it has the right program design, 
organization, and implementation strategies in place to achieve desired 
results. AOC's goals for its recycling programs are unclear. The House 
and the Senate have directed their respective jurisdictions to 
implement source separation recycling programs. Furthermore, the 
position descriptions for the House and Senate recycling program 
managers state that these managers are responsible for, among other 
things, increasing the financial returns of their programs. However, 
other documents we reviewed, such as the position description of the 
AOC resource conservation program manager and a 1999 audit by the AOC 
inspector general, indicate that AOC is also pursuing the goal of waste 
reduction. If AOC's goal is to generate as much revenue as possible 
through a source separation program, then based on the high rate of 
contamination it will need to design a program that is much more 
aggressive in terms of the education, training, and equipment it 
provides to participants and the collection staff. However, if the goal 
is reducing the volume of waste sent to landfills, then AOC should 
implement a simpler program, requiring as little separation as possible 
to increase participation and compliance.
    Cost-benefit analysis could help AOC strike the right balance in 
its recycling program. For example, the recently completed study of the 
Senate's source separation recycling program requested by the Senate 
Appropriations Committee shows that AOC could lower contamination and 
therefore increase revenues by simplifying the program. Not addressed 
in the study is whether this type of program would also reduce the 
amount of waste sent to landfills.
    Furthermore, other than coordination to remove recycling materials 
at the Botanic Garden and--in response to our recent suggestion--the 
Capital Power Plant, AOC has no formal plans to implement a Capitol 
complex-wide recycling program. For example, AOC could expand its 
recycling programs to include waste from its landscaping or 
construction activities. Incorporating these materials into its overall 
recycling program could improve AOC's overall performance in reducing 
waste sent to landfills.
    Consistent with the communication strategy we outline in this 
statement, AOC needs to seek input from its stakeholders to determine 
the most appropriate mission and goals for its recycling program(s). 
Whether the resulting program is Capitol complex-wide or is tailored to 
meet the specific requirements of the House or Senate, AOC needs to 
clarify whether the primary focus of the recycling program is to reduce 
the total amount of waste sent to landfills, to generate a desired 
level of revenue, or both.
            AOC Needs to Develop a Performance Measurement, Monitoring, 
                    and Evaluation System That Supports Accomplishment 
                    of Recycling Mission and Goals
    In response to a Senate Appropriations Committee request for a 
quarterly report on the recycling program in the Senate, AOC has 
proposed a performance measurement system that it will use to monitor 
both the Senate and the House recycling programs. The data and 
indicators they will collect include, among other things, revenue 
generated from the sale of recyclables, customer satisfaction, 
education of participating offices, status of equipping offices with 
recycling containers, rate of office participation, and training of 
recycling collection staffs.
    AOC's proposed performance system is a promising first step. In 
revisiting its program mission, goals, and design, AOC should also 
reexamine and refine this system to improve its usefulness for program 
monitoring and decision making. As discussed elsewhere in this 
statement, AOC's performance measurement system should (1) show the 
degree to which the desired results were achieved, (2) be limited to 
the vital few measures needed for decision making, (3) be responsive to 
multiple priorities, and (4) establish accountability for results. 
Also, as part of its responsibility for handling waste from government 
facilities, including recyclable materials, the General Services 
Administration (GSA) has developed a guide that describes a number of 
steps an agency can take to measure and monitor recycling efforts that 
could be useful to AOC in developing its system.\30\ These steps are 
listed in table 2.
---------------------------------------------------------------------------
    \30\ U.S. General Services Administration, Recycling Program Desk 
Guide (Washington, D.C.: Mar. 2001).

                TABLE 2.--TEN STEPS IDENTIFIED BY GSA FOR BEST ADMINISTERING A RECYCLING PROGRAM
----------------------------------------------------------------------------------------------------------------
                Steps                                             Purpose and example
----------------------------------------------------------------------------------------------------------------
Determining the building profile....  Purpose: To ascertain the types of materials to be recovered in a
                                       recycling program and identify any special restrictions or requirements.
                                      Example: Does the storage space have sprinklers or will special containers
                                       be required?
Determining the waste stream size...  Purpose: To manage and reduce a building's waste stream data on the total
                                       size of the waste stream are compiled.
                                      Example: Obtain monthly reports showing the amount of waste hauled.
Analyzing the waste stream..........  Purpose: To determine the quantity of various types of recyclable
                                       materials included in the waste stream.
                                      Example: Develop an estimate of the quantity of recyclable material
                                       collected daily.
Determining the amount recycled.....  Purpose: To show how much is being diverted from the waste stream.
                                      Example: The recycling contractor provides a monthly report showing the
                                       amounts and types of materials recycled.
Tracking the information............  Purpose: To determine the percentage of the total waste stream diverted by
                                       recycling.
                                      Example: Data are entered on a regular basis, for example, monthly, and
                                       totaled at the end of the fiscal year.
Reporting the information...........  Purpose: To report status of the program to management and to offices
                                       participating in the program.
                                      Example: Reports to offices keep employees informed about how their
                                       efforts are helping the environment and measuring progress and goals.
Reducing the waste stream...........  Purpose: To determine whether trash includes recyclable materials that are
                                       improperly discarded and opportunities to recycle other materials (e.g.,
                                       construction debris, discarded/leftover carpeting, or scrap metal).
                                      Example: Meet with office representatives to ascertain their container
                                       needs and find out what types of waste they generate.
Assessing the program...............  Purpose: To determine how well the program is working.
                                      Example: Observe whether employees understand how the program works or
                                       modifications that might be necessary.
Educating employees.................  Purpose: To provide employees with reasons for recycling and a description
                                       of how the program works; to reduce the container contamination by giving
                                       detailed instructions on what is and is not acceptable.
                                      Example: An environmental team consisting of building management and
                                       participating offices would promote and educate employees.
Monitoring and evaluating program...  Purpose: To be aware of fluctuations in the volume of recycled materials
                                       collected in an effort to identify the cause and determine whether
                                       associated waste disposal costs can be reduced.
                                      Example: Periodically review waste disposal costs and assess whether the
                                       program implemented has had an impact.
----------------------------------------------------------------------------------------------------------------
Source: U.S. General Services Administration, Recycling Program Desk Guide (Washington, D.C.: Mar. 2001).

    AOC's proposed recycling program goals are not linked to a desired 
level of performance and therefore cannot demonstrate the extent to 
which performance is achieved. For example, AOC seeks to decrease 
contamination rates for recyclable materials collected, but does not 
state a goal for a desired level of contamination against which to 
measure progress. As shown in table 2, steps 2 and 3, AOC should 
determine how much waste the Capitol complex generates overall and 
analyze how much of that waste could be recycled. Such information 
could form the basis of AOC's overall waste reduction goals. 
Furthermore, AOC should develop its performance measurement system with 
input from recycling program staff members to ensure that the data 
gathered will be sufficiently complete, accurate, and consistent to be 
useful in decision making. As AOC clarifies its goals and performance 
measures for its recycling program, it will likely identify 
opportunities to reduce the recycling data currently collected.
    After establishing an organizational mission and goals and building 
a performance measurement system, the next key step is to put 
performance data to work. As shown in table 2, steps 4 through 8 and 
step 10 provide guidance on ways to monitor and evaluate program 
performance. AOC has proposed a quarterly monitoring system. Such 
monitoring of performance against goals will enable AOC program 
managers to identify where performance is lagging, investigate 
potential causes, and identify actions designed to improve performance. 
AOC should also obtain periodic feedback from its customers/
stakeholders to obtain their views about the quality of the program, 
ease of participation, and other areas for improvement. AOC has 
proposed a recycling program customer survey as part of its performance 
measurement system. We believe AOC should develop this survey as part 
of an overall communication strategy for external stakeholders, as 
discussed earlier in the statement.
            Reexamine Roles, Responsibilities, and Number of AOC 
                    Recycling Program Staff Members
    The roles and responsibilities of AOC's recycling program staff 
members have evolved in recent years, without the guidance of a clearly 
defined mission and goals. In revisiting its recycling program mission 
and goals, AOC should also reexamine the roles and responsibilities of 
its program staff members to ensure that they are performing the right 
jobs with the necessary authority. AOC recently changed the 
responsibilities of its recycling program management positions to 
incorporate a greater focus on program planning and evaluation. 
However, according to these staff members, much of their time is spent 
in day-to-day program implementation activities, leaving little time to 
fulfill their expanded roles.
    The AOC resource conservation manager, originally responsible for 
only the AOC hazardous waste program, currently is responsible for 
planning and developing policies and programs for an AOC-wide approach 
to waste management, analyzing waste removal programs, developing and 
presenting briefing and training materials on agency recycling efforts, 
and serving as the administrator and technical representative for the 
recycling collection contract. However, according to the resource 
conservation manager, about half of her effort is devoted to hazardous 
waste management activities. She has little time and no staff to carry 
out the broad, agencywide planning and evaluation activities required 
by the position.
    In fiscal year 2001, AOC replaced its recycling coordinator 
position with a recycling program manager position in the House and 
Senate jurisdictions. These positions are responsible for working with 
other Capitol complex recycling specialists to carry out agencywide 
recycling, planning and developing recycling policies and programs, 
reviewing program effectiveness and monitoring implementation (e.g., 
compliance inspections), and analyzing the financial returns of waste 
recycling contracts. However, the House recycling program manager told 
us that the current focus is primarily on implementation activities, 
such as program promotion and education and providing recycling 
equipment to offices, limiting the time available to focus on other 
responsibilities, such as program monitoring and evaluation.
    As previously stated, AOC needs to provide a results-oriented basis 
for individual accountability. With respect to recycling, AOC has 
neither established clear goals nor assigned accountability for 
achieving results. Because program implementation occurs in the House 
and Senate jurisdictions, AOC needs to incorporate its desired 
recycling goals into its performance management system and cascade 
those goals down through the jurisdictions to the individuals 
responsible for program implementation.
    In our opinion, overlapping responsibilities for planning, 
education, monitoring, and evaluation between the resource conservation 
manager and jurisdiction recycling program managers raise questions 
about the appropriate number of staff members and mix of 
responsibilities needed to carry out AOC's recycling programs at the 
central and jurisdictional levels. In the next stage of our review, we 
plan to explore with AOC which responsibilities would be best carried 
out by a central AOC staff and which would be best carried out by 
jurisdiction staffs. For example, the focus of the central staff could 
be on planning, developing educational materials, monitoring, and 
evaluating recycling from an AOC-wide perspective. In contrast, the 
focus of the jurisdiction staffs could be on implementation of the 
recycling program, including equipping offices, educating participants, 
and collecting recyclable materials.
            Implementing Best Practices Can Help Improve Performance
    In addition to addressing strategic program management issues, AOC 
could implement best practices that may provide immediate improvements 
to its recycling program results. For example, AOC could do the 
following:
  --Take advantage of intra-agency best practices by sharing ideas 
        across jurisdictions. For example, the House jurisdiction has 
        already developed promotional materials that can be shared with 
        the Senate jurisdiction to avoid duplication of effort.
  --Expand on House efforts to promote the reuse and sharing of office 
        materials by listing available excess materials.
  --Create greater incentives to recycle by providing participants 
        feedback on the results of their recycling efforts, such as 
        trees saved, landfill space not used, or revenues generated for 
        employee programs, such as a day care or fitness center. (See 
        table 2, step 6.)
  --Provide information and solicit feedback using electronic means, 
        such as e-mails with links to an AOC recycling Web site.
  --Continue to work with participating offices to select recycling 
        containers designed to reduce contamination. For example, AOC 
        could make greater use of containers with lids designed to 
        prevent the disposal of inappropriate materials (slots for 
        paper, can-shaped holes, etc.).
           key management options require further exploration
    Adopting a vigorous approach to strategic planning and holding 
managers and employees accountable for achieving organizationwide goals 
will go a long way toward helping AOC become a high-performing 
organization. However, further measures may be needed; we plan to 
explore other options with AOC and its key congressional customers in 
the next stage of our management review. These proposed options aim to 
strengthen AOC's executive decision-making capacity and accountability, 
so that the right senior executives are making important operating and 
investment decisions, and that these decisions are based on solid 
financial, budget, and performance information. We also plan to explore 
opportunities for further improving labor-management relations, worker 
safety, and project management and budgeting at AOC. As we move 
forward, we will support AOC in exploring these management options 
through on-the-spot advice, best management practice briefings for 
AOC's senior managers, focus groups for AOC's employees, and outreach 
to AOC's labor unions and key congressional customers.
Key Management Options We Plan to Explore with AOC
    To strengthen AOC's executive decision-making capacity and 
accountability, we are exploring options to better define the roles and 
responsibilities for certain key functions and to clarify some 
accountability relationships. For example, executive-level decisions on 
issues such as major capital investments could be made by an executive 
committee consisting of these top managers, in addition to the new CFO. 
A chief operating officer (COO) could be responsible for major long-
term management, cultural transformation, and stewardship 
responsibilities within AOC. In March 2002, we testified on the 
potential for creating statutory COOs within major executive branch 
agencies, who could provide the continuity that spans the tenure of 
political leadership and helps ensure that long-term stewardship issues 
are addressed and change management initiatives are successfully 
completed.\31\ As we discussed above, a CIO could lead and manage 
policies and procedures for making agencywide IT investment decisions. 
In addition, to develop and implement congressional protocols and 
strengthen AOC's communications and outreach with its congressional 
customers, AOC may want to consider assigning full-time responsibility 
for its congressional relations functions to a senior manager. We will 
also assess whether AOC should clarify organization lines of authority 
and accountability to improve program management in areas such as 
worker safety, recycling, and facilities and project management. Such 
comprehensive organizational changes should only take place within the 
context of decisions made by AOC as it implements the framework for 
management and accountability that we discuss.
---------------------------------------------------------------------------
    \31\ U.S. General Accounting Office, Managing for Results: Building 
on the Momentum for Strategic Human Capital Reform, GAO-02-528T 
(Washington, D.C.: Mar. 18, 2002).
---------------------------------------------------------------------------
    To support improving AOC's executive decision-making capacity, we 
will continue to review the processes and usefulness of AOC's financial 
and budget information, and explore the use of performance information. 
In the next stage of our review, our analysis of project cost 
estimation will complement an assessment of overcoming challenges to 
effective project management at AOC.
    To improve labor-management relations, we will look at best 
practices in alternative dispute resolution in the workplace and 
explore the relationships between AOC's Equal Employment Opportunity 
and Conciliation Program Office, Employee Advisory Council, and newly 
created Office of the Ombudsperson--formerly the Employee Advocate--and 
the Office of Compliance. We have supported using ombudsmen in dispute 
resolution and believe that this office can be an integral part of an 
organization's human capital management strategy to create a fair, 
equitable, and nondiscriminatory workplace.\32\ We plan to assess the 
new role of the ombudsperson in AOC and whether it will adhere to the 
standards of practice for ombudsmen established by professional 
organizations. These standards revolve around the core principles of 
independence, neutrality, and confidentiality.
---------------------------------------------------------------------------
    \32\ U.S. General Accounting Office, Human Capital: The Role of 
Ombudsmen in Dispute Resolution, GAO-01-466 (Washington, D.C.: Apr. 13, 
2001).
---------------------------------------------------------------------------
We Are Helping Assess These Options and Recommending Needed Management 
        Improvements
    We are exploring these management options in several ways. In the 
worker safety and recycling areas, we will continue to provide on-the-
spot advice on safety hazards and recycling practices observed on our 
site visits. For example, we identified several safety hazards at the 
Capitol Power Plant. We brought these potential hazards to the 
attention of the acting chief engineer of the plant, who said that he 
would act upon our advice. We also suggested to him that the power 
plant could start a recycling program for its office waste consistent 
with the Botanic Garden's program, which the plant is starting to 
implement.
    To support management improvements that we are recommending or 
options we plan to explore, we have provided best practices guidance 
and we will, at the invitation of AOC, brief AOC's senior managers on 
best management practices in the public as well as private sectors, 
potentially including the following topics:
  --strategic planning and performance measurement;
  --our congressional protocols and the role of our Congressional 
        Relations Office;
  --human capital management, including our guidance on strategic human 
        capital management and our human capital policies and 
        procedures; \33\ and
---------------------------------------------------------------------------
    \33\ GAO-02-373SP and U.S. General Accounting Office, Human 
Capital: A Self Assessment Checklist for Agency Leaders, Discussion 
Draft, GAO/GGD-99-179 (Washington, D.C.: Sept. 1999).
---------------------------------------------------------------------------
  --IT management, financial management, and worker safety.
    To identify opportunities to further improve AOC's internal 
communications, we will be holding a series of focus groups with AOC's 
employees to obtain employee feedback on AOC's organizational culture, 
morale, management support, and worker safety issues, and meeting with 
officials from AOC's labor unions. To assess AOC's communications with 
its external customers, we will contact key congressional staffs to get 
feedback on the types of AOC services most important to them, their 
satisfaction with these services, and suggestions for management 
improvements.
                      contact and acknowledgments
    For further information about this statement, please contact J. 
Christopher Mihm at (202) 512-6806. Individuals making key 
contributions to this statement included Thomas Beall, Justin Booth, 
Carole Cimitile, Kevin J. Conway, Elizabeth Curda, Deborah Davis, 
Terrell Dorn, Elena Epps, V. Bruce Goddard, Christina Quattrociocchi, 
Benjamin Smith Jr., Lori Rectanus, John Reilly, William Roach, Kris 
Trueblood, Sarah Veale, Michael Volpe, and Daniel Wexler.

                             AOC MANAGEMENT

    Senator Durbin. According to the GAO, there is good news 
and there is bad news. Some improvements have been made in your 
organization in the last year. Most notably, you have hired a 
Chief Financial Officer to improve financial management and 
accountability. Some critical initial steps have been taken to 
improve financial management and budget functions. And the CFO 
has begun work on other key issues, such as developing 
procedures and controls to ensure that reliable data are 
produced by the new financial management system.
    GAO also found that the Architect of the Capitol has made 
some management improvements, such as establishing routine 
management meetings to help improve communication. In addition, 
the Architect's track record on work safety has improved 
considerably, with a drop of 38 percent in the injury rate from 
last year's very bad 17.9 injuries per 100 workers, as reported 
to OSHA.
    We also acknowledge that your office has been given 
tremendous additional responsibilities for executing a myriad 
of security-related projects funded in the supplemental 
appropriation last year. This has added considerably, I am 
sure, to your workload.
    Still, there is a lot that needs to be done. The 
improvements cited by GAO are mostly in the early, early 
stages. Basic strategic planning, performance management, and 
accountability for senior managers must still be addressed very 
seriously and very quickly.
    The GAO found that the ``Architect of the Capitol performs 
its activities without the guidance of any agency-wide 
strategic plan for serving the Congress or means to hold 
individuals accountable for accomplishing its mission-critical 
goals. The Architect also operates without written standards or 
policies and procedures in critical areas, such as financial 
management, information technology management, project 
management, and facilities management. The absence of clearly 
defined goals and performance measures at the Architect of the 
Capitol hampers the Architect's efforts to send clear and 
consistent messages throughout the organization about his 
priorities and performance expectations.''
    These are very basic systemic deficiencies, which have 
resulted in unacceptable project schedule slippage, substantial 
cost overruns, poor communications, and facilities management 
which does not meet the standard of excellence which we expect 
for the U.S. Capitol. These problems are manifest in this 
year's budget request.
    Most notable is the fact that the Architect is requesting 
$82 million for the expansion of the West Refrigeration Plant, 
double, double what we were told we would need to spend 1 year 
ago. Another illustration is the lack of a funding request for 
the Library of Congress storage modules at Fort Meade and, 
clearly, slippage in this project.
    As you know, the GAO will continue its general management 
review, which is to be completed by November of this year. We 
will be tracking this effort closely and anticipating a 
response from you which will hopefully begin to reverse the 
problems which have been identified.
    At this point, Mr. Hantman, we welcome your opening 
statement.

                    FISCAL YEAR 2003 BUDGET REQUEST

    Mr. Hantman. Good morning, Mr. Chairman, and thank you for 
your overview. And much of what you said clearly is very fair. 
And quite frankly, the GAO report hits on a lot of issues that 
we are working together to try to resolve.
    I do appreciate the opportunity to meet today to discuss 
the fiscal year 2003 budget for the Office of the Architect of 
the Capitol and the unprecedented and historic challenges the 
agency and the Congress face today and in the near future.
    Mr. Chairman, I am proud of what the AOC has accomplished 
in the last year. And I look forward to significant additional 
accomplishments this year and in the years ahead. Our employees 
have responded magnificently to developments beyond their 
control. And they have successfully adapted to circumstances 
that were undreamed of at our last budget hearings.
    We have all shed much of our innocence since September 11. 
However, our staff's ability to successfully function under 
extraordinary circumstances is a credit to them and befits our 
agency's proud tradition of service to the United States 
Congress.
    The budget request for fiscal year 2003 totals $412 million 
and 1,958 full-time equivalent employees. This request includes 
$222 million for operating expenses and $190 million for 
capital improvements. This budget addresses the most critical 
requirements for the Capitol Campus, and it builds on our 
successes and addresses those areas where we surely do need to 
improve.
    The past year has been a very busy and productive year for 
the AOC. There is a historic amount of work currently on our 
plates, as you noted, Mr. Chairman. And much more needs to be 
accomplished over the coming years. The events of September and 
October 2001 greatly added to this workload. As a result of 
these events, the AOC received over $200 million in emergency 
funding for 38 new security projects, including enhanced 
perimeter security considerations.

                         CAPITOL VISITOR CENTER

    Mr. Hantman. Funding was also provided for the Capitol 
Visitor Center, as Secretary Thomson testified, and for which I 
am very grateful to this committee and for which, quite 
frankly, future Congresses and generations of the American 
public will be even more grateful. I certainly echo the 
comments that Secretary Thomson made in her testimony. And I 
look forward to continuing to work together with this committee 
as the project progresses.
    In fact, Mr. Chairman, you mentioned something about a mess 
being certainly something we have to look forward to over here. 
And I would welcome the opportunity to take you and any other 
members of the committee who are interested to the World War II 
memorial construction site right now. They are using the same 
slurry wall construction technique that we will be using on the 
visitor center. And you can get a sense of the timing of the 
activities that need to occur to have those foundation walls 
put in. And whatever your convenience might be, we would 
welcome the opportunity to show you that.
    So this work, along with my continued emphasis on 
modernizing our buildings, updating the infrastructure to meet 
contemporary safety and technological standards, necessitated 
that we reexamine our budget request and include only those 
items that were deemed to be of the highest priority and could 
be implemented in the current environment.

                              LIFE SAFETY

    Mr. Chairman, as you know, last year I made the fire and 
life safety program the top priority for AOC. And as you 
mentioned, we have a good report on that. We placed major 
emphasis on the important issue, because we need to reduce our 
injury and illness rate. So the recent OSHA statistics, as you 
indicated, are 38 percent below the prior year. And our current 
records show that that decline is continuing this year, as 
well.
    I will continue emphasizing this area because the safety 
and well-being of AOC employees and of all Capitol employees 
and visitors are of the utmost importance. And I thank this 
committee for its support and strong guidance in this area.

                            FINANCIAL SYSTEM

    Another area that this committee has demonstrated great 
interest and support in over the past several years has been in 
financial management systems. I am also pleased to report that 
the budget execution, purchasing, accounts payable, 
disbursement, and accounts receivable modules went live this 
month. The fixed asset module will be coming up and running 
this October.
    All of this builds on the standard general ledger module 
that we implemented in September of 2000 and gives us the 
foundation for an FMS system that the Legislative Branch 
Financial Managers Council is considering modeling theirs 
after. In this budget we are requesting $1.6 million to 
continue the process by implementing the contracting module and 
an inventory system necessary for efficient operation.

                          HUMAN INFRASTRUCTURE

    As important as financial and physical improvement are, 
however, there is nothing more important than the investment in 
our human infrastructure. We are a service organization. And 
without a dedicated and safety-conscious staff little could be 
accomplished. I continue to strengthen and modernize our 
present workforce by bringing people on board with new skills 
and abilities, as well as to build the processes, the 
procedures, and the quality standards that you referred to as 
necessary to ensure consistent, high-level service to the 
Capitol complex.
    To this end, we have filled numerous, very critical 
positions over the past year by external recruitment and 
internal promotion numbering in excess of 400 positions. And we 
ask your support for the additional staffing requests we have 
submitted this year so that we can effectively help turn around 
this agency in the areas where it is weakest.

                               GAO REPORT

    You mentioned, Mr. Chairman, the GAO report. Now clearly, I 
have not had full time to review it in great detail, as it was 
submitted this morning. But I have seen drafts of it. And I 
believe, Mr. Chairman, their overview is constructive, and it 
is important to my ongoing efforts to improve the services we 
render to the Congress. The GAO reports states that the AOC has 
demonstrated a commitment to change through the management 
improvements it has planned and underway.
    It also states that the AOC recognizes that because of the 
nature of the challenges and demands it faces, change will not 
come quickly or easily.
    Mr. Chairman, I fully agree with these statements. And I am 
committed, as we work with the GAO over the coming months, to 
continue to investigate best practices and implement the 
necessary changes to serve the needs of the Congress.
    I am committed to the GAO agenda of ``crafting a 
comprehensive and integrated approach to addressing AOC's 
challenges and setting appropriate priorities,'' even though by 
necessity it will have to be phased in over time. Our current 
day-to-day activities are very heavy. Our people are running at 
full tilt now to keep up with them. And we are working to 
implement the changes that will allow us to more effectively 
control and produce the type of quality projects that the 
Congress deserves.
    Mr. Chairman, in conclusion, this year, as we continue to 
reorganize and strengthen our staff, the AOC will also be 
focusing on strategic and master planning initiatives, project 
management, quality of service and employee support, so that 
the delivery of projects and communications at all levels are 
better accomplished. No question about that. We have room to go 
in that in spades.

                           PREPARED STATEMENT

    I ask that my full opening statement be accepted for the 
record. And I look forward to responding to your questions.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
                                overview
    I appreciate the opportunity to meet with you today to discuss the 
fiscal year 2003 budget for the Office of the Architect of the Capitol 
(AOC), as well as discussing the accomplishments of the recent past, 
and the unprecedented and historic challenges the agency and the 
Congress face today and in the near future.
    I am proud of what the AOC has accomplished in the last year, and 
look forward to significant additional accomplishments in the years 
ahead. Our employees have responded magnificently to developments 
beyond their control, and they have successfully adapted to 
circumstances that were not only entirely missing from our last budget 
hearing discussions, but were undreamed of at that time. We have all 
shed much of our innocence since last we met. However, the history of 
AOC is a history of flexibility and meeting unexpected and sometimes 
rapidly evolving demands. Our workers' ability to successfully function 
under extraordinary circumstances is a credit to them, and befits our 
agency's proud tradition of service to the United States Congress.
    The budget request for fiscal year 2003 totals $412,253,000 and 
1,958 full-time equivalents. This request includes $221,966,000 for 
operating expenses and $190,287,000 for cyclical maintenance and 
important infrastructure and capital improvements. This budget 
addresses the most critical requirements for the Capitol Campus--it 
builds on our successes and addresses those areas where we need to 
improve.
    The past year has been a very busy and productive year for the AOC. 
There is a historic amount of work currently on our plate and much more 
needs to be accomplished over the coming years. The events of September 
and October 2001 greatly added to our work load. As a result of these 
events AOC received over $200 million in emergency funding for 38 
security projects. Funding was also provided for the Capitol Visitor 
Center, for which I am grateful to this Committee, and for which future 
Congresses and generations of the American public will also be 
thankful. This is a project that will greatly enhance the security of 
the Capitol and serve our visitors well for generations to come. This 
work--along with my continued emphasis on modernizing our buildings and 
updating the infrastructure to meet contemporary safety and 
technological standards--required us to re-examine our budget request 
and include only those items that were deemed to be of the highest 
priority and that could be implemented in the current environment. This 
has not been an easy task to complete or to communicate to our 
customers. We have fallen short on occasion, but this should not 
overshadow the significant number of successes that we have delivered 
on time and on budget.
    I have made the fire safety program the top priority for AOC, and 
we have made significant progress on this effort. Last year we placed 
emphasis on the very important issue of employee safety to reduce our 
injury and illness rate, which was at an unacceptable level. While we 
have had much success, I will continue emphasizing this area because 
the safety and well being of AOC employees and of all Capitol employees 
and visitors are of the utmost importance. The AOC will also continue 
to focus on strategic and master planning initiatives, project 
management, quality of service and employee support so that 
prioritization, delivery of projects and communications are better 
accomplished.
    As important as physical improvements are, there is nothing more 
important than the investments in our human infrastructure. We are a 
service organization, and without a dedicated and safety-conscious 
staff, little could be accomplished. I continue to support and 
strengthen our present workforce by bringing people on board with new 
skills and abilities, as well as to build the processes, procedures and 
quality standards necessary to ensure consistent service to the Capitol 
complex. Adding these new eyes and expertise to our existing dedicated 
staff will continue to leverage the abilities of the entire agency. To 
this end we have filled numerous very critical positions over the past 
year both by external recruitment and internal promotion and 
reassignment.
                         recent accomplishments
    As we look to the future, I believe it important to note that over 
the past year the AOC has accomplished much, as evidenced by progress 
on the following:
    The first, and most significant phase of the Dirksen Senate Office 
Building renovation project, and renovation in Senators' suites and 
Committee spaces, was completed in 14 separate increments on schedule 
and to the satisfaction of virtually all involved. The next phase will 
complete upgrades and renovations in corridors on the basement and 
ground floors, replace electrical equipment, and upgrade numerous 
heating, ventilating and air-conditioning systems. The remaining work 
is scheduled to begin this summer and will take approximately three 
years to complete. This work will have very limited adverse impact on 
the occupants of the building but, when complete, will markedly improve 
the functionality of the building. This project provides what is 
essentially a contemporary building interior with an intact exterior at 
about one-third the cost of constructing a new building, and with all 
work being accomplished in an occupied structure.
    The U.S. Botanic Garden Conservatory opened in December and has 
continued to have record attendance even with the downturn in tourism 
during the past fall and winter. The public response to this facility 
has far exceeded our expectations. The ability to control the 
greenhouse environments with state-of-the-art technology allows us to 
create unique habitats and maintain healthy and diversified plant 
collections from around the world. Awards from the Art Deco Society of 
Washington, American Society of Horticultural Science, and the 
Washington Chapter of the American Institute of Architects will be 
presented shortly. The contiguous privately funded National Garden 
project will be complete in approximately two years after receipt of 
funds. This new garden with its interpretive learning center and other 
special features should add to public interest as well as provide a new 
venue for botanical education and Congressional events.
    The fully renovated and upgraded Cannon Garage was completed on 
schedule and came in under budget in correcting structural problems and 
life safety deficiencies.
    Preconstruction work for the Capitol Visitor Center (CVC) started 
last fall and continues. The relocation of water, sewer, steam and 
electrical utilities and the relocation of trees is the prelude to the 
mobilization of heavy equipment and the major construction work that 
will begin in earnest this summer. We have a full time project manager 
on board and a senior management team solely dedicated to this project 
that is aggressively communicating the status of this project; 
addressing parking, traffic and noise issues; and ensuring that we are 
looking ahead, and working with, the appropriate staffs on space issues 
as well as the art work and educational opportunities that will be 
available in the CVC. The CVC team is using a best value, source 
selection process, open to all contractors qualifying to meet the 
project's construction experience criteria and technical requirements. 
The selection process is being conducted in partnership with the 
General Services Administration (GSA). The best value process evaluates 
proposals with predefined criteria, which mandates much more than 
consideration of price alone, and is used by GSA, Department of Defense 
(DOD) and others. This process provides a standard to differentiate and 
rank competitors by analyzing past performance and technical management 
abilities to solve specific CVC needs, thus allowing selection of a 
contractor who will give the AOC the best value to construct the CVC. 
The Government Accounting Office (GAO) is partnering with us to help 
ensure that all prudent steps are taken to minimize the risks inherent 
in a project of this magnitude.
    We have made significant progress in advancing business and human 
capital management within the agency as follows:
  --developed and implemented an employee performance management 
        system;
  --developed and implemented an awards program;
  --implemented financial management systems improvements with a 
        standard general ledger, budget execution, purchasing, accounts 
        payable, disbursement and accounts receivable modules. The new 
        system will allow us to be compliant with federal accounting 
        standards;
  --developing a performance management system for senior management;
  --working to align several of our organizations to better meet our 
        business needs to be more responsive to our customers 
        (finalizing organizational options and program functions for a 
        Chief of Staff and Congressional Relations function, work is 
        also underway to restructure delivery of architectural, 
        engineering and construction support services based on 
        completed best practices studies);
  --developing an AOC Strategic Plan that focuses on the mission 
        critical goals (preservation and maintenance of the grounds and 
        buildings entrusted to our care, campus security initiatives, 
        service excellence, strategic management and care of human 
        capital). We will link measurable goals, management 
        accountability, and a communications strategy to ensure input, 
        buy-in, and goal based performance expectations.
    Significant progress has been made in filling necessary positions 
and reducing the recruit time. Our current payroll projections indicate 
we are within one percent of our personal service budget. The top 
financial positions have been filled including a new Budget Officer and 
a new Accounting Officer, and for the first time a Chief Financial 
Officer. Sixteen safety positions have been filled, including the Fire 
Protection Division Director, Safety and Environmental Division 
Director, three Fire Protection Engineers, one Industrial Hygienist, 
nine Safety Specialists and one Fire Inspector. Fourteen of the sixteen 
positions are new employees to the AOC. Other new staffs include a 
Quality Assurance Analyst, Director of Construction Management, and 
Director of Human Resources. By bringing in new staff from outside the 
AOC for the majority of these positions we are broadening our 
experience base in these critical areas that formerly did not have 
dedicated experts devoted solely to them. Times change, and as they 
change our processes and priorities must change in accordance with 
contemporary expectations and practices.
    Congress has been generous with the resources provided in recent 
years for fire safety and those resources are providing tangible 
results. Fire safety awareness and protection have never been higher in 
the Capitol Complex. Improvements have been made in the areas of fire 
detection, fire suppression and egress. More smoke detectors have been 
installed. More areas are covered by sprinkler protection. More doors 
have been equipped with panic hardware. Revolving doors have been 
replaced with code compliant hardware. And fire protection system 
inspection, testing, and maintenance are at the highest levels ever. 
Fire safety awareness has increased as evidenced by the obvious renewed 
interest and participation from all occupants of our buildings during 
the recent evacuation drills. There are a number of fire projects in 
the design stage and there will be significant future budget requests 
to construct these improvements.
    AOC worker safety has improved measurably. Injury rates have 
decreased dramatically--from 17.9 per hundred workers in fiscal year 
2000 to 11.02 per hundred workers in fiscal year 2001--a 38 percent 
reduction. Statistics indicate that the decline is continuing this 
year. The decline is due to the fact that we have made safety a 
priority, we have set a high goal, improved measurement of those goals, 
implemented new policies and procedures, set up safety committees in 
every jurisdiction, hired more safety staff, partnered with outside 
experts (Dupont and OSHA), and have instituted unannounced safety 
visits. Safety training has increased; more than 16,000 hours of 
training were provided in fiscal year 2001. New safety programs have 
been prepared with the help of the Public Health Service and 
implementation has begun. The quick fixes are being made. Emphasis in 
fiscal year 2003 will shift toward reinforcing and sustaining changes 
in culture with safety integrated into all facets of work and 
throughout all levels of the Agency. The emphasis has shifted from 
reactionary--investigating an injury--to proactive--preventing an 
injury by investigating near misses and correcting safety problems 
before injury can occur. Across all our fire, occupational, and 
environmental safety programs, emphasis is on coordinated, consistent 
application of standards and self identification and correction of 
deficiencies; and this is being reinforced.
    It is important to address at this point one area where we've been 
less than successful. My staff has been working for some time 
coordinating projects and activities for the Library of Congress 
facilities. We recently failed to inform them of changes in our budget 
request for several new projects they requested. Additionally, a 
project for a new storage facility under construction at Fort Meade has 
fallen behind schedule. We had design and construction management 
issues, and insufficient internal communication on project status. 
Clearly this is unacceptable and I'm working with the Library of 
Congress to implement a plan to move forward positively and quickly. 
This includes tapping into on-site capabilities of the Corps of 
Engineers at Fort Meade to assure the necessary day to day project 
management and quality control for the future Library of Congress 
projects. With the assistance and concurrence from this Committee, I 
will amend my fiscal year 2003 budget request to address these issues.
                  summary of fiscal year 2003 request
    Our overall fiscal year 2003 request of $412,253,000 includes 
$221,966,000 for ongoing operations and maintenance and $190,287,000 
for the capital budget to meet cyclical maintenance and infrastructure 
improvements. Excluding the House Office Buildings, the amounts are 
$362,329,000 in total comprised of $186,252,000 for operating expenses 
and $176,077,000 for capital improvement items.
    The operations and maintenance budget request reflects a 17 percent 
increase of $32,747,000. Over 50 percent of the increase or $16,605,000 
is to fund the accrued retirement and health benefit costs of employees 
as proposed by the President. Other significant items include: 
$3,239,000 to fund 43 essential positions needed to carry out programs 
required throughout the AOC; $7,632,000 for COLAs and other mandatory 
pay items including increased transit subsidy and award levels; 
$10,325,000 for items related to other workload increases (major items 
in this area are for Information Resource Management--$2,781,000, 
renewal of warehouse space--$2,400,000, election year moves--$1,250,000 
and financial management and audit--$865,000); and $344,000 for price 
level increases. For the first time in many years, operating savings of 
approximately $5 million have been reflected in the budget. The 
majority of these savings are a result of reduced utility and lease 
costs.
    The capital budget request includes 80 projects identified for 
funding in fiscal year 2003. Seven projects, which total $149,800,000, 
account for approximately 80 percent of the capital budget request. One 
of the most critical and essential projects in the budget, the West 
Refrigeration Plant Expansion ($81,800,000), by itself accounts for 43 
percent of the capital budget request. The other six projects are; the 
Off-Site Delivery/Screening Center for the U.S. Capitol Police 
($22,000,000); design to Replace Windows throughout the complex to meet 
the General Services Administration level ``D'' standard ($11,400,000); 
Repair of the South Capitol Street Steam Line ($11,000,000); Upgrade 
Air Conditioning--East Front of the Capitol ($9,600,000); Repair of the 
Constitution Avenue Utility Tunnel ($8,500,000); and matching funds for 
the new Library of Congress Audio Visual Conservation Center, Culpeper, 
VA ($5,500,000).
              major capital requests for fiscal year 2003
    Major capital requests:
  --Our most critical project included in the fiscal year 2003 request 
        is $81.8 million for the West Refrigeration Plant Expansion. 
        This project must proceed or there will be a critical shortfall 
        in chilled water capacity and the Plant will not have the 
        ability to serve the campus with reliable chilled water. Based 
        on the April 2000 Capitol Power Plant Utility Master Plan it 
        was determined that the best approach to provide sufficient 
        chilled water capacity for the Capitol complex was to expand 
        the West Refrigeration Plant. The 50 year old equipment in the 
        East Refrigeration Plant is insufficient, unreliable, 
        inefficient, and it uses R-12 refrigerant. This refrigerant is 
        an ozone depleting substance, which was banned from production 
        in 1995 and will be banned from use in the near future. The new 
        chillers will meet environmental standards with a new 
        refrigerant. We currently have the 100 percent design documents 
        for the West Plant expansion, which were completed in November 
        2001. In December 2001, the House Office Building Commission 
        approved proceeding with the project. This project will provide 
        for three new chillers and space for additional chillers in the 
        future. Additional chillers will be added as demand requires 
        and to replace chillers in the existing West plant which are 
        also nearing their normal life expectancy of 25 years. 
        Following the model being used for the CVC and other 
        significant projects, we have a dedicated project manager who 
        is responsible for overseeing this project and we have selected 
        a project management firm to assist in running the project day 
        to day. Their task is to keep the project on schedule and 
        within budget.
  --The South Capitol Street steam lines that supply steam to the 
        Capitol are unreliable and have been patched and replaced in 
        various segments. In fact, this winter, funds had to be 
        reprogrammed to replace a rusted out segment of this line. 
        Based on a 100 percent design a total of $11 million is 
        requested to replace this line.
  --A total of $8.5 million has been requested to repair the 
        Constitution Avenue Utility Tunnel based on 100 percent design. 
        In several sections of the tunnel, the concrete ceiling has 
        already spalled and fallen and wooden timbers are presently 
        supporting the ceiling. Life safety concerns regarding the 
        structural integrity of the tunnel have been identified by the 
        Office of Compliance in a citation.
  --Insufficient air-conditioning in sections of the East Front of the 
        Capitol has been an ongoing problem. The current systems are 
        approximately 40 years-old and in general have served their 
        function well. However, due to age and the ever increasing 
        demands resulting from the increases in occupancy and equipment 
        in these areas these units need to be replaced. This project 
        has been coordinated with the Capitol Visitor Center project 
        and installation at this time in conjunction with that project 
        will result in cost savings. Delays will drive costs up.
  --In the Hart Senate Office Building, we are asking for $1.6 million 
        to continue renovations to public restrooms, $1.95 million to 
        replace electrical bus ducts and switchgear and $1.5 million 
        for elevator modernization.
  --$1.6 million is requested for the next phase of implementation of 
        our new Financial Management System. We successfully 
        implemented the initial standard general ledger module in 
        September 2000 and the budget execution, purchasing, accounts 
        payable, disbursement and accounts receivable modules went live 
        in April 2002. This new funding will allow us to implement the 
        contracting module and an inventory system, both important for 
        better productivity and accountability.
    As in past years, the budget request reflects a listing of 164 
projects that will require funds over the next several years--fiscal 
years 2004 through 2007. This forecast is for planning purposes only. 
Some of these projects are designed or are currently in the design 
phase, some are the results of studies that have been performed while 
others are only conceptual in nature. The work identified for this four 
year period of time totals approximately $1 billion. This indicates 
that our additional capital project workload will average around $235 
million each year. In life safety projects alone, the budget reflects 
$54 million in fiscal year 2004. To better schedule and plan for this 
work, I am working with GAO on implementation strategies and continuing 
the development of improved master planning activities.
    Concerning master planning there are two initiatives that are 
currently well under way that deserves mentioning. On June 6 of this 
year we expect to receive a significant update to the original 1999 
U.S. Capitol Police Master Plan. This update will provide us, in 
partnership with the Capitol Police, information that will enable the 
team to move forward with a number of projects. In November of this 
year we plan to receive the Master Plan for the U.S. Capitol Building, 
which is vital to solving a variety of issues, especially code 
compliance.
                           staffing requests
    The fiscal year 2003 request includes funding for an additional 43 
positions. These positions were deemed to be the most critical of the 
116 positions requested by our managers. Five of the positions are 
related to fire and life safety. Fourteen positions support facilities 
management including five planners and estimators who will develop and 
oversee the scope of construction projects, five additional positions 
in the Engineering Division, two Computer Aided Facilities Management 
(CAFM) managers, an Assistant Director for our Architecture Division 
and a technician for our Facility Management Division. Eight labor 
positions are requested for the Senate Office Buildings to support 
customer services needs and to provide assistance in other areas. Eight 
positions have been requested to support organization and workforce 
management, and our legal and human resources staffs. Four positions 
are for the campus energy savings program required by Section 310 of 
the 1999 Legislative Branch Appropriations Act. Four positions are 
requested to support and re-staff the newly opened U.S. Botanic Garden 
Conservatory.
                             restructuring
    The AOC faces many challenges and demands on its time and 
resources. Some of these challenges have been longstanding and are 
significant in nature. The current work load is surely an issue. We 
recognize the Congressional Accountability Act has changed not only our 
facilities requirements but also how our staff works and how we support 
employee efforts and needs.
    To improve our service delivery, we are evaluating how we currently 
do business and how we are structured. I've initiated a strategic 
planning process, held management off-sites, established new employee 
orientation sessions and provided informational notebooks, set up 
modern personnel policies, kicked off a stronger awards program, and 
created a project management information system as part of this 
improvement. Although we have made much progress, we still have further 
to go. We are exploring additional options for improvement including 
investigating other mechanisms for better controlling and implementing 
projects. In fact, we have recently signed a Memorandum of 
Understanding with the Navy to utilize services they can provide. We 
are exploring various options for the reconfiguration of management. As 
you are aware, the GAO has been reviewing our organization and we 
welcome their input into this process and view them as a partner in 
implementing changes that will make the AOC a model federal agency. The 
AOC is full of talented, hardworking employees who support our vision 
of being ``an innovative and efficient team dedicated to service 
excellence and to preserving, maintaining, and enhancing the national 
treasures entrusted to our care.''
                               conclusion
    Once again, I am proud of how our employees responded to the events 
of this past September and October and our accomplishments during the 
past year in so many critical areas. We continue to make progress in 
reducing the unprecedented work load and backlog of maintenance, safety 
and security improvements that are required to maintain our facilities 
and bring them up to current operational and safety standards. We look 
forward to working with you as we successfully face those challenges 
and continue to provide strong support to the Congress and build an 
even stronger and more responsive AOC.
    I thank you for your support and welcome whatever questions or 
comments you might have.

                         GAO MANAGEMENT REVIEW

    Senator Durbin. Thank you very much, Mr. Hantman.
    Let us go to the GAO review first. In their work for this 
committee, to date GAO has found some major deficiencies in the 
management and organization of your office. I would like to ask 
you to respond to several of their observations.
    First, do you believe a management overhaul of the 
Architect of the Capitol's office is warranted?
    Mr. Hantman. I certainly do see that we need an overhaul of 
our office for organizational change as well. We have been 
actively studying a number of organizational alternatives. And 
we have as a goal improving customer service, project 
management, managerial span of control, staff accountability, 
all of the issues that GAO is talking about.
    This effort, in conjunction with a significant number of 
management changes that have occurred the past year, are going 
to help us further tune our overall organization. While we are 
working on this, clearly we are working with GAO to continue to 
cooperate with them, as they build on the preliminary findings 
they have submitted today. Their report is due in November. And 
we are working with them during that time frame.
    And we look forward to incorporating the recommendations 
that they have into a full-blown comprehensive organization 
that makes sense from their perspective, as well as from our 
perspective.
    Senator Durbin. Mr. Hantman, this is a blunt question, but 
I have to ask it. You have been the Architect of the Capitol 
for 5 years. Why at this point in time would you be doing 
something that most people would assume would be the first 
thing that you would have achieved, to try to put a management 
plan in place as you started in the office?

                        MANAGEMENT IMPROVEMENTS

    Mr. Hantman. Mr. Chairman, clearly we are not where we want 
to be. When I came into this office, it had been called the 
last plantation. There were no management techniques. There 
were no types of procedures that would really allow people to 
plan and move forward. We have made very significant progress 
in the interim.
    The GAO indicates that the AOC has demonstrated a 
commitment to change through the management improvements it has 
planned and underway. We have established routine management 
meetings to help improve communication, established and 
implemented basic processes and procedures in human capital.
    And our reality, Mr. Chairman, is--as an analogy, this is a 
bus that is moving along the highway at 65 miles an hour. And 
we are changing all the tires while we are responding to very 
heavy day-to-day issues.
    In terms of excuse, there is no excuse for not having this 
done at this point in time. Our reality is, it is a very 
complex job. There are issues that we are continuing to learn 
about. And new responsibilities are being placed upon us, as 
you noted earlier.
    We certainly welcome the overview and the input and 
expertise of the General Accounting Office in taking a look at 
what we have done, what we are looking at doing right now, and 
getting a better sense and overview in terms of where we need 
to go from here.

                    MANAGEMENT PERFORMANCE STANDARDS

    Senator Durbin. When will you have in place, as other 
Federal agencies do, performance standards to which you hold 
senior managers accountable?
    Mr. Hantman. We have developed performance standards for 
all of our basic standard employees. These are in place, and 
they include 6-month reviews. For our specific senior staff, we 
will have this in place by mid-summer, so that we can actually 
have evaluations at that point in time.
    Senator Durbin. And what are the ramifications for senior 
managers who currently fail to meet those expectations?
    Mr. Hantman. The basic program we have corporate-wide 
basically, as I started saying before, talks about a mid-year 
review to discuss employees' level of performance, improve the 
communications, provide the guidance to improve performance and 
to avoid misunderstandings at the end of the review period.
    Our exempt personnel in the senior positions are staffed at 
the pleasure of the Architect. And as such, the Architect, 
myself, will have to decide appropriate actions regarding each 
individual senior manager's performance and employment.

                           PROJECT MANAGEMENT

    Senator Durbin. You say your highest priority management 
challenge is project management. It is my understanding that 
there are some 200 projects underway in your office. What 
specifically are you going to do to improve project management?
    Mr. Hantman. Mike, could you respond to that?
    Mr. Turnbull. Yes.
    Mr. Chairman, we had hired an outside consultant to work 
with us on project management and develop a matrix formation 
for better handling of the workload. We are also continuing to 
look at following best practice approach models that we have 
set up in the CVC and other projects, in which we would have 
separate teams dedicated to those projects.
    And following on that basic model, we will continue to 
implement other--on major projects teams to handle those major 
efforts.
    Senator Durbin. Did I understand you to say that there 
would be outside advisors or consultants as part of this?
    Mr. Turnbull. Yes. Absolutely.
    Senator Durbin. And teams for each project?
    Mr. Turnbull. For major, major projects, such as the CVC.
    Senator Durbin. CVC was obvious.
    Mr. Turnbull. Yes. Right.

                            PAY FLEXIBILITY

    Senator Durbin. And that was, I think, is one that was 
certainly warranted.
    Last year one of your highest priorities was legislation 
providing flexibility for salary adjustments for senior 
management. We were reluctant to provide that authority prior 
to a management overhaul but did, in the end, agree to it. What 
has been accomplished as a result of this pay flexibility that 
you were provided?
    Mr. Hantman. Mr. Chairman, I do thank you for having 
provided that flexibility to us last year. It is very important 
to us.
    With this tool, we have been able to hire, as you mentioned 
earlier, a new CFO at the SES level. We had been looking for a 
CFO for the past several years and had only been able to 
advertise it at a budget/CFO level, which did not compete 
effectively with any of the Federal agencies that were out 
there in terms of remuneration at the SES level that we could 
do.
    So we went out there. We were competitive. And we hired a 
person who is helping turn around our entire financial picture.
    We are also currently interviewing quality candidates for 
key security and major project management positions under this 
flexibility. Candidates, I do not believe, would have applied 
for these positions or been attracted at all before this 
flexibility.
    Additionally, Mr. Chairman, as the GAO has indicated 
before, there is a crisis in retention of good Government 
employees. With this tool, we are going to be able to adjust 
pay, so appropriately managers can have an actual gap between 
them and the people who report to them, which was really 
narrowing to virtually nothing before.
    So our issue of retention of key people, not only 
attracting key people, is really contingent upon this pay 
flexibility. And I do thank you for that.

                         LONG TERM CAPITAL PLAN

    Senator Durbin. Let me read to you, Mr. Hantman, a section 
of the committee report language from last year's 
appropriation.
    ``In addition, the Architect does not have a long-term 
capital plan, despite its reference to its capital budget as a 
5-year plan. In reality, the projects and associated funding 
change dramatically from year to year, leaving the Congress 
without a clear vision of its long-range capital requirements 
and priorities.'' And I quote, ``The Architect is directed to 
contract within 30 days of enactment of this act for necessary 
expertise to develop a 5-year master plan for the Capitol 
complex.''
    Did you do that?
    Mr. Hantman. No, Mr. Chairman, we did not. And admittedly, 
we are very late on that process. Recognizing the fact that we 
did not have the in-house necessary expertise, such as a 
facilities planner on board, we went about to try to form that 
group. We advertised for the position.
    And due to the events of 9/11 and October with our HR 
process being shut down, we have been very--it has taken awhile 
to bring our new--the head of that department on board. That 
did not happen until February of this year.
    We now have a director of planning and programming on 
board. She was the former director of the Connecticut State 
University system. And it is her mission within the next month 
now to complete that directive.
    Senator Durbin. The language asks you to contract this 
responsibility. Did you do that, or will you do that?
    Mr. Hantman. Yes, we will. Yes, we will, Mr. Chairman. The 
issue is, Mr. Chairman, as I indicated before, we just got 
several hundred million dollars more in additional work. We do 
not have--we did not have until Alex Roe was brought on, the 
capability to run a project like that. So the concept was to go 
out and find somebody who could run the project, hire the 
consultants, and make it happen.
    Originally, it was anticipated that Ms. Roe would be on 
board in September. We were basically shut down. There were 
issues in hiring. And it was our fault for not notifying this 
committee that, in fact, we would not be able to meet the 30-
day time frame. But the issue is, as soon as she came on 
board--and again, the issues of September 11 and the problem of 
hiring and bringing people to Capitol Hill in this atmosphere 
have complicated our lives.
    In terms of that, it is not an excuse. She has been on 
board since February. And she has been actively working to 
develop a baseline of a program to bring on a consultant and 
begin to formulate the overall program for a grand master plan.
    Senator Durbin. You and your office are entitled to some 
flexibility and leeway because of these unforeseen events of 
September and October; and I certainly understand that. But I 
wish the communication had been better.
    Mr. Hantman. Absolutely.
    Senator Durbin. And secondly, again, I have to say, we are 
asking you for the preparation of a 5-year plan so that we do 
not lurch from year to year with ideas being replaced by new 
ideas, without any kind of an idea of the overarching scheme or 
plan or what is on the horizon.
    It goes back to the GAO report. It is a matter of stepping 
back from the immediacy of your office and taking a long-term 
view of management, and in this case taking a long-term view of 
the capital needs that we face here on Capitol Hill.
    I am brand new to this committee. And I faced on the 
appropriation bill some suggestions that came from the House 
side and from other sources which were extremely expensive--and 
we will get to some of them in a minute here--which might have 
been dismissed on their face if we had an idea of what the 
long-term plan was for Capitol Hill. But because there was not 
one, you know, we have a lot of people now who are involved in 
a ``free skate'' here. They feel they can just come up with any 
idea and throw it at us and ask for millions of dollars to have 
it funded.
    We need some guidance. I hope this new person who arrived 
in February will take to heart language calling on your office 
to deal with this within 30 days of enactment.
    Mr. Hantman. Mr. Chairman, we have people, and we are 
hiring two people to support her. And we want to have full 
attention. The last master plan was done back in 1980. We want 
to take a look at that, reverify that, make changes as 
appropriate, and build on that, so we can actually look at 
appropriation type of needs going forward in real time.
    Senator Durbin. I would like to at this point to yield to 
Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    And thank you, Mr. Hantman----
    Mr. Hantman. Thank you, Senator.

                           INDOOR AIR QUALITY

    Senator Reed [continuing]. And your colleagues for your 
testimony today. Just very quickly, there has been some concern 
about the air quality within the Senate office buildings, and 
some testing has been underway. Do you have any results that 
can be released today or any comments?
    Mr. Hantman. We certainly can get back to you with more 
detail for the record. We have been actively involved in 
looking at the air quality, the outside air intake, the cycling 
of the air in different intermittent seasons. And we will get 
back to you, if that is all right, for the record to give you a 
report on a building-by-building basis.

                            WASTE RECYCLING

    Senator Reed. Thank you, Mr. Hantman.
    There is another issue that comes up perennially, and that 
is the recycling program.
    Mr. Hantman. Yes.
    Senator Reed. How it could be more effective? Frankly, we 
should be the model in the nation for effective, efficient, 
comprehensive recycling, and I suspect we can work a little 
harder to be that model. Can you comment?
    Mr. Hantman. You are absolutely correct, Senator. Our 
recycling performance improved only slightly in 2001 over 
fiscal year 2000. We collected 740 tons instead of 693 tons. 
That was a 6.8 percent increase. But we can certainly do better 
than that. We also cut down on the amount of contaminated 
recyclables, down to 457 versus 522 tons.
    Due to the recent 9/11 and anthrax closures, we 
essentially--our recycling program works out of the Hart truck 
dock. And we were shut down for a period of months on that. So 
we lost several months in that process. But we did install in 
July the first cardboard bailer in the Senate office building. 
And we have recycled something like 36 tons, exceeding the 
amount that was recycled in all of 2000, by--it was only some 3 
tons back then. And we expect perhaps 100 tons of recycling. So 
that is a brand new initiative that we are taking right now.
    And we have made minor progress. But the overall 
improvement has certainly not been as great as we expected and 
we wanted. The contaminated material is still too high. And 
with the help of our new AOC personnel that have been brought 
on this--and we have a new manager for that program, and also 
our consultant, Solid Waste Solutions--we now understand the 
root causes of the shortcomings of the Senate office recycling 
program. And we have proposed changes in line with that 
consultant's recommendation to the Senate Committee on Rules 
and Administration.
    And we are in the process of obtaining the committee's 
approval, and we look forward to making major changes in the 
program in the coming months. To succeed, the existing 
recycling program needs further improvement. And it needs to 
have an emphasis on simplification, on education, on training, 
and improved participation by people. So we are actually 
working very closely on that right now.

               CAPITOL VISITOR CENTER PROJECT MANAGEMENT

    Senator Reed. Thank you, Mr. Hantman.
    One final issue--the Capitol Visitor Center. It is one of 
the most ambitious programs that has been underway here for 
many, many years. At this juncture, there is the physical 
infrastructure that you are preparing and also the supportive 
services, educational, as well as basic accommodations for 
tourists visiting the Capitol.
    My presumption is that the team is in place, that the 
project manager is in place, and that you are moving forward 
optimistically and confidently. Is that correct?
    Mr. Hantman. Absolutely, Senator. We have got a belt and 
suspenders trip on this one. Because of the heavy workload we 
have internally, what we have done is we have hired, and we 
have on staff, a team of dedicated people who are being charged 
to the project. Our project managers and all are full time on 
that project for its duration. And they have no other 
responsibilities.
    We have also, Senator, gone out and we have, with the help 
of the General Services Administration, had a nationwide 
solicitation for a construction manager to work day to day, a 
private sector construction manager. And we have one of the 
best in the country working with us, Gilbane Construction, who 
have a team. And we can certainly bring you to their trailers 
on the Senate side of the Capitol right now.
    They are fully staffed. They are moving ahead. They, in 
fact, are some of the same people who are working on the World 
War II memorial and can explain to you what that process is all 
about in terms of the slurry wall construction, as I discussed 
earlier.
    So we are fully staffed on the Gilbane side, on our 
internal side. And we are moving ahead with a project that is 
very exciting, but it is a difficult project.
    Senator Reed. Thank you, Mr. Hantman.
    And thank you, Mr. Chairman, for your kindness.

                            CAPITAL PROJECTS

    Senator Durbin. Thank you, Senator Reed.
    Mr. Hantman, the Architect's Office currently has over 200 
major projects underway, including the Capitol Visitor Center, 
which is very visible and very challenging, and 60 security-
related projects. What percent are behind schedule or over 
budget by 10 percent or more?
    Mr. Hantman. It is a question of how you cut them down. 
What we would like to do, Mr. Chairman, is take a look at those 
projects, categorize them, because some of the projects that 
may be considered behind schedule would be listed as a Senate 
recarpeting program, where we are waiting for a member of that 
staff to make a decision on a carpet color. So it is behind 
schedule, perhaps, because of something like that. And I do not 
think that is the kind of information you would like.
    What I would like to do is go back to that full listing of 
projects, break it down by the categories of these smaller 
things, for the major projects that really make sense, and be 
able to report to you more intelligently.
    Senator Durbin. I am going to put carpeting in a separate 
category. Let us talk about the projects that are substantial, 
and if you could give us a report on those in terms of the 
current progress that you are making----
    Mr. Hantman. Absolutely.
    Senator Durbin [continuing]. And whether there is any 
anticipated increase in cost beyond what you suggested to us 
earlier.
    Can you assure us that you will be able to implement on 
time, and within budget, the additional capital budgets you are 
requesting in this year's appropriation, including seven major 
projects totaling about $150 million?
    Mr. Hantman. Of those seven major projects, two of them 
essentially have been moved from what was the emergency 
supplemental that was requested. There were several hundred 
million dollars again appropriated for that purpose actually 
through the emergency supplemental.
    And two of the projects in that budget were deleted because 
of the necessity to pay for the anthrax remediation. This was 
the offsite delivery program of $22 million and the window 
examination program of $11 million.
    Mr. Chairman, those are place markers. There has been no 
design done, no site selected. We are waiting for a master plan 
to be agreed to by the Capitol Police Board so that we can 
really look at the hard numbers. When that emergency 
supplemental budget was prepared, it was done within a matter 
of a couple of weeks, taking a look at all potential areas of 
security enhancement that we needed. And information was coming 
from the Senate Sergeant at Arms, from the House Sergeant at 
Arms, from the Capitol Police, and from all the consultants 
that we had.
    So those numbers for those particular projects are 
basically place markers, Mr. Chairman, which we need to--which 
were brought into this budget because it was bounced out for 
the other supplemental. So in terms of the----
    Senator Durbin. One hundred fifty million dollars worth of 
place markers?
    Mr. Hantman. No. That was those two projects.
    Senator Durbin. Those two projects.
    Mr. Hantman. The third project in there is for the 
Culpepper program for the Library of Congress. That was $5.5 
million, I believe. And Congress has committed to some $16 
million to supplement the donation of the Packard Foundation on 
that project. And they are putting some $100 million into the 
project. So that is just an ongoing accumulation of dollars for 
that.
    So that is real, and it just goes in the pot to the point 
where we can transfer the money to Packard when they have 
turned the facility over to the Congress.

                          CAPITOL POWER PLANT

    Senator Durbin. Now how were the seven major capital 
projects selected, the largest being the $81.8 million for the 
Capitol Power Plant? What were the criteria for including 
projects? Are they all needed in the next fiscal year? Can we 
be confident of the cost estimates? How did you prioritize 
these projects?
    Mr. Hantman. The largest one, of course, Mr. Chairman, as 
you mentioned, is the Capitol Power Plant, West Refrigeration 
Plant Expansion. We are in a critical situation now in terms of 
chilled water capacity. The East Plant, the existing East 
Plant, is 50 years old at this point in time. We also are using 
R-12 refrigerant in it.
    Half of the machines in the East Plant are no longer 
functioning. We have been pirating parts from one that is no 
longer functioning to keep the others in place. Also, as you 
may be aware, in 1995 the use of R-12 refrigerant was outlawed. 
It is no longer being produced. And in just a short period of 
time, we will no longer be able to operate those facilities at 
all.
    Plus, the need for chilled water is growing at the Capitol. 
And in terms of real time, we need to get this facility open 
and running by the year 2005. So the $81 million that we talked 
about is truly a necessary project.
    Now in your introductory remarks, you talked about the 
issue of going from $40 million to $80 million. Part of the 
issue over here is, at the time that the $40 million marker was 
put in place, there was no design. It was based on a per unit 
industry type of average cost for chiller units. It did not 
take into account the individual site-located needs. 
Originally, those chiller units were planned to be put as 
replacements in the east chiller plant itself. Further 
investigation found out that the foundations could not take it. 
The size of the chillers required could not fit into it. Those 
kind of design issues had not been factored in at the 
essentially placeholder level of $40 million.
    Also, there is a legacy plan in the District of Columbia, 
which is concerned with the aesthetics and how the community 
interfaces and how South Capitol Street looks. So there were 
additional dollars that were put into that project to clean up 
the plant, to reface the existing west chiller plant and the 
new chiller plant to make it look more in scale with the 
community and more friendly to visitors who are coming up from 
South Capitol Street.
    So all of these issues, in fact even the relocation of a 
major sewer line which is under that site, had not been done 
and known, because there was--again, no design at that level 
had been completed at that point in time. And that is a 
fundamental problem whenever you do place markers or try to 
plan for future years. Unless you do serious design, it is 
really impossible to get a real number.
    So what we are doing right now in terms of that $81 million 
is, we had hired a specialist in refrigeration plants. They had 
done the estimate. We have a second estimate, which is due in 
by the end of next week, to confirm the validity of the 
estimate. And basically, we are learning from the Capitol 
Visitor Center because on that project we had two estimates 
made, and we tried to reconcile the differences between the two 
to make sure that we were, in fact, covered and that the budget 
would adequately be used.

                   WEST REFRIGERATION PLANT ESTIMATE

    Senator Durbin. I guess what I find stunning here, Mr. 
Hantman, is that in the period of 1 year you have doubled your 
estimate of the cost of this project. That is something which 
is really hard for me to understand. I think even with your 
explanation as we go through the items, the summary of the cost 
changes in this plant, it is hard to imagine that the people 
who came up with the $40 million figure ignored some of these 
obvious things.
    Now so-called site improvements account for $15.6 million. 
Now I do not know if this is for the aesthetic value that you 
talked about so that the District of Columbia thinks that the 
power plant looks more pleasing in its Capitol Hill 
environment. I do not know if that is what is driving this. But 
it is just hard for me to sit here and understand how the 
Architect of the Capitol could miss it by $40 million and, in 
the course of 1 year, doubling the cost of this project.
    Mr. Hantman. Again, it was without significant design work 
at that point in time. You are perfectly right. We did not 
anticipate moving from the East Plant to the West Plant, 
changing the location. The nature of the industry and the type 
of costs that we have for equipment out there, the cost of the 
equipment in this budget alone is some $30 million.
    Senator Durbin. I guess it really calls into question a lot 
of other estimates that you are giving us. I mean, you are 
asking us for substantial investments of millions of dollars. I 
have some skepticism, based on this experience, as to whether 
any of these figures can be trusted.
    Mr. Hantman. Which is exactly why, Mr. Chairman, we are 
going out for the second estimate to confirm the first one. We 
have stopped doing internal estimates for these projects, and 
we are going out to professional estimators to look at them. 
And this is--the numbers will vary based on the construction 
market, the availability of staff. It is a very fluid 
situation. And that is why, essentially, they are called 
estimates.
    But no question about that, the concept of doubling an 
estimate in that period of time is difficult to explain.
    Senator Durbin. The estimates may be fluid, but the tax 
dollars involved are very real and solid.
    Mr. Hantman. Absolutely.

                             CAPITOL POLICE

    Senator Durbin. Before we can make commitments to your 
office for substantial investments here on Capitol Hill, which 
many are very necessary, I think we have to improve the level 
of confidence here in your operation.
    Let me tell you another problem that I have run into, and 
it relates to the Capitol Police. As I said earlier, like many 
people in your office, the Capitol Police have just done heroic 
work here and are unheralded for what they have been through 
since September 11. But I am really at a loss to explain to 
anyone what the ultimate plan is for the Capitol Police when it 
comes to, not the force itself, but how we are going to 
accommodate their needs for office space and command centers.
    It got so bad that during the course of deliberation with 
the House, people were clearly doing a windshield tour of 
Capitol Hill looking for empty buildings on the House side. 
They came up with one and said, ``For a mere $40 million to $70 
million, we can give you an empty storage building over on the 
House side of the Capitol. And then for another $50 million to 
$70 million, we are going to bring it up to what you might 
need.''
    And it was rolling forward. It looked to me like this was 
really going to happen. Finally I said, ``No way, this 
conference committee will never report. We are just not going 
to be buying real estate in that manner. It is totally 
irresponsible.''
    That suggestion is still out there, and very much alive. 
Now comes your request for $22 million for an off-site delivery 
center for the Capitol Police. I still do not know if we have a 
master plan that really talks about what the Capitol Police 
truly need and how they are going to be organized on Capitol 
Hill. How can we send you $22 million, or seriously consider a 
House suggestion of spending $50 million to $100 million on 
building on the House side, without some notion about a master 
plan for the Capitol Police and their structure and 
organization?
    Mr. Hantman. I fully agree with you, Mr. Chairman.
    Senator Durbin. But you asked for $22 million.
    Mr. Hantman. Again, that is something that was in the 
original recommendation through everybody involved in the 
emergency supplemental. It is a place marker. It is essentially 
not dropping that project.
    We had a meeting the week before Friday with a master plan 
design team, meeting with the Capitol Police Board and the 
Capitol Police to do just what you are talking about, to take a 
look at the options, to look at all the components and the 
pieces of the puzzle to see if, in fact, we should be reusing 
the existing police headquarters and creating a similar one on 
the House side, how the police should be best arrayed to serve 
their multiple functions up here on the Hill.
    A decision, Mr. Chairman, has not been made on that yet. 
The report should be submitted, I believe, next month to the 
Capitol Police, to the Capitol Police Board, so they can take a 
look at the options and make a decision and bring those 
recommendations forward to the Senate and the House.

                             PLACE MARKERS

    Senator Durbin. Mr. Hantman, we are going to need a special 
item under your budget for place markers and puzzle pieces. I 
am not going to sit here, as chairman of this subcommittee, and 
give you $22 million with the possibility that it may fit into 
some master plan. That just does not work. I think I would be 
remiss in my responsibility, if I did that.
    I am going to ask you to take another look at this budget, 
the appropriation request that you have submitted. I want you 
to send me a list of the so-called place markers, which are 
just theories that ``We may be spending money in the next 
fiscal year.'' I am not buying into it.
    Mr. Hantman. I understand.
    Senator Durbin. There needs to be a master plan. If it 
makes sense, that is fine. But to have windshield tours of 
Capitol Hill and people identifying buildings, ``Here is an old 
one. Let us see what this one costs. You know, let us put $50 
million to $100 million in this one. Oh, let us put $22 million 
in here for an off-site delivery, even though we do not have 
any master plan for the Capitol Police''--that is not fair to 
the Capitol Police. It is not fair to the taxpayers. I do not 
think it meets the responsibilities that you have been asked to 
assume here.
    I am going to ask you to be very specific with me on what 
you consider to be ``place markers.''
    Mr. Hantman. Absolutely. As far as the other major projects 
are concerned, Mr. Chairman, the steam tunnel updates on South 
Capitol and on Constitution, those are real numbers with 100 
percent design estimates. And we are hoping those move ahead.
    Senator Durbin. Okay.

                               EAST FRONT

    Mr. Hantman. The last major project is the East Front of 
the Capitol, which is proposed to be done in concurrence with 
the Capitol Visitor Center so we do not come back after that 
building is done and rip up the building again. It is the best 
way to do it, the most cost effective. We are coming up with a 
second estimate to confirm the first estimate. We should have 
that in a matter of weeks. And we will share that with you and 
confirm that estimate.

                         NEW POSITIONS REQUEST

    Senator Durbin. You are requesting funding for 1,958 full-
time equivalent employees, an increase of 43 positions at a 
cost of $3.2 million. What has changed in your operations that 
will require this increase?
    Mr. Hantman. Mr. Chairman, so much is changing. We are 
trying to bring this organization into the 21st century. As you 
indicated, as the GAO report indicates, there are abilities, 
professional capabilities that do not exist in this agency 
right now that we need to have filled, so that we can in fact 
perform the type of functions that are necessary.
    Based on some of the GAO comments and the recognized needs, 
we are emphasizing better organizational planning, project 
management within the AOC, et cetera. In fact, four of the 
positions we are requesting are for organization and workforce 
management, people who are management analysts, organizational 
development specialists, so that we can actually look at every 
aspect of our agency and say, ``Is it staffed appropriately? Is 
it not staffed appropriately?'' We do not have the expertise 
in-house right now to do that. So----
    Senator Durbin. Let me interrupt you for a second.
    Mr. Hantman. Yes, sir.
    Senator Durbin. You have requested the additional employees 
before you have developed a plan. Does that not sound 
backwards? Would you not want the plan first and then determine 
the personnel needs from that plan?
    Mr. Hantman. When we are talking about individual 
particular areas, such as fire and life safety, facilities 
management, we recognize that there are specific needs that we 
have for those. Whether or not we have enough people now or if 
this will give us enough people totally is hopefully what these 
management analysts will be able to do for us.
    We are just not able to stand still and not react to actual 
needs. For instance, there is energy management, legislation 
that we need to conform to. And we need to hire some people to 
be able to monitor energy management throughout the campus. 
There is human resources management people that we are asking 
for. And we just got legislation on Federal benefits to almost 
400 additional new employees, and we need people to be able to 
service those 400 additional employees.
    So the reality is, the people that we have requested really 
have been culled down from a request of some 128 people that 
had been requested campus-wide. So we met together with all of 
our senior management. We looked at it. We culled it down and 
came down to a list of the things that we believe we can 
justify now that are needed to carry our mission forward and to 
be more responsive to the needs of the Congress.
    The big picture, in terms of the agency as a totality, is 
what in effect the workforce management people will be 
addressing in a professional and orderly manner.

                            MANAGEMENT PLAN

    Senator Durbin. I still think you have it backwards. As I 
look at the list for 43 additional employees. Those related to 
fire and life safety you need. And I think you can have perhaps 
a dozen of them. But you have also requested gardeners, 
mechanics, attorneys, planners and estimators, clerk typists, 
laborers. I just think you have it backwards. I suggest you 
start with a plan, the capital plan that we asked you for last 
year, a plan for your office consistent with the GAO. Then you 
come in and tell us what your personnel needs are.
    I do not think it makes sense for us to be sending you 
place marker money for projects that may never happen or 43 new 
FTEs, when you clearly have not defined your management goals 
in your office. I think you are coming at this backwards.
    Let me ask you about the laborers in the Senate. Let us 
just get down to something basic. Do you have anyone who looks, 
for example, at the laborers in the Senate, compares their 
productivity to any standard either inside or outside of 
Government?
    Mr. Hantman. The workload for the laborers in the Senate 
has gone up. In terms of comparing it to outside functions, I 
am not sure that there is the function of a laborer that really 
is totally comparable on the outside. What we are looking at--
--

                            OFFICE CLEANING

    Senator Durbin. Well, let us talk about something basic.
    Mr. Hantman. Yes.
    Senator Durbin. Cleaning an office.
    Mr. Hantman. Right.
    Senator Durbin. I believe that most people who clean 
offices here are employees of your office, the Architect's 
Office.
    Mr. Hantman. Correct.
    Senator Durbin. Interestingly enough, in Chicago they 
apparently have contracted that out. There is a group that is 
doing that kind of work. Do you take a look at their 
productivity here in the Senate compared with either 
contractors who serve other Government offices or people in the 
private sector?
    Mr. Hantman. Absolutely. In fact, we did a full report, 
which we can certainly share with you--I am not sure if the 
staff has it yet--which looked at the productivity in the 
private sector, in commercial office buildings, and other 
governmental office buildings, what the General Services 
Administration is doing.
    And we came up with a cleanable area of some 15,900 square 
foot per person, based on the fact of there are a significant 
numbers of private bathrooms, carpeting, things of this nature. 
All of those elements were factored into the report. And we, in 
fact, reorganized the number of custodial workers at the Senate 
and in the House based on the cleanable square feet that we 
thought was a fair organizational agreement.
    And we talked to the Building Owners and Managers 
Association and got their statistics. And at that point in 
time, we transferred 20 people from the House over to the 
Senate to help fulfill the need for those specific work areas.
    So each work area has been defined. It is fair per 
individual. And it takes all of those issues into account.
    Senator Durbin. And do you have oversight management, for 
example, in the common and public areas that the visitors to 
the Capitol are going to see, to make certain that things are 
done on a regular basis? If you walk into any major restaurant 
in the city of Chicago or most of them in Washington, you will 
see a checklist where every 1 or 2 hours somebody comes in and 
takes a look around to make sure that things are as they should 
be. Do you do that?
    Mr. Hantman. We are doing that with a private contractor. 
We are about to let a contract for day cleaning, which had not 
happened before on a large scale. So that contract is about to 
be let for people to come in and continue the work. We had 
started that in the Dirksen Building on a preliminary basis 
with an outside contractor. And it is beginning to work out 
very well.
    Senator Durbin. And yet you still need more FTEs, as you 
are contracting out that responsibility?
    Mr. Hantman. These laborers' functions are talking about 
special events and other needs that specifically the laborers 
relate to. For instance, there were some 6,000 work orders in 
the year 2000 that the laborers responded to. In 2001, there 
were 6,900 specific work orders that they responded to. And we 
are proceeding at about pretty much that same rate today.
    So it is a question of being able to satisfy the needs and 
the time frames of our clientele. The concept there is to be 
able to eliminate some of that overtime, to turn it around more 
quickly, to react to the increased workload that the laborers 
are having.

                             BOTANIC GARDEN

    Senator Durbin. Let us talk about the Botanic Garden for a 
minute. I had a chance to visit it. It is beautiful. It took a 
little longer to complete than we had anticipated. Can you tell 
me if it came in on budget?
    Mr. Hantman. We are currently working with the contractor 
right now, the general contractor, negotiating the change 
orders that are still outstanding. We are making progress on 
that. The total appropriated funds of $35.5 million is still 
intact. We are still working off and paying off change orders 
that the contractor can verify and give us the type of 
documentation that makes sense for us to say, ``Yes, this is a 
legitimate change order.''
    Senator Durbin. Of the $35 million cost of the project, how 
much is in dispute at this point?
    Mr. Hantman. There is a series of change orders. I will 
have to get back to you with a number on that, Mr. Chairman. I 
am not----
    Senator Durbin. Is it over $1 million?
    Mr. Hantman. I would think so, yes.
    Senator Durbin. But you do not know the exact figure. So I 
am not going to put you on the spot here. But I would like you 
to get back to me in terms of what the cost overruns, or at 
least the disputed areas, are at this point.
    Mr. Turnbull. Mr. Chairman, there has been no official 
claim filed by the contractor. There are separate change 
orders. And we are going through with him on a case-by-case 
basis reviewing his view of it and our view of it. And that is 
an ongoing process.

                             WORKER SAFETY

    Senator Durbin. Let me talk to you for a moment about 
worker safety, which is an issue I raised last year. As a 
result of our hearing last year, I called the Secretary of the 
Treasury, Paul O'Neill, who had had quite a successful 
experience in the private sector in reducing worker injuries.
    And I just said to him, point blank, ``Where should I turn 
to bring someone in who can take a look at the Architect of the 
Capitol's Office?''
    And he said, ``I would suggest Dupont. I think they have a 
great approach to this. And they can take a fresh look at this 
and take what is the highest incidence of worker injuries in 
the Federal Government and perhaps suggest ways to reduce 
that.''
    Now there has been a reduction of some 38 percent over last 
year. It is still an extraordinarily high rate of injury in the 
Architect of the Capitol's Office. Can you tell me what 
progress has been made in working with Dupont in assessing 
worker safety in the Architect's Office?
    Mr. Hantman. Yes, Mr. Chairman. They have completed a 
safety baseline assessment that benchmarked our Agency's safety 
management structure against Dupont's proven best safety, best 
practices. Their draft report indicates the emphasis is 
required in the areas of establishing and communicating the 
safety program direction, clarifying program roles and 
responsibilities across the agency.
    We have scheduled for April 30 of this month one of the 
workshops--one of the two workshops that Dupont is going to be 
promoting with us. All our AOC safety professionals will be at 
that meeting. And the second meeting is for all AOC senior 
management, so that we can develop action plans for further 
improvements in our program as a result of this assessment.

                           WORKPLACE INJURIES

    Senator Durbin. Let me ask you, you testified last year 
that your goal was to reduce injuries on the job by 10 percent 
a year. Is that still your goal?
    Mr. Hantman. That was my goal last year. And clearly, we 
exceeded it. Our challenge for next year is to reduce it. 
Ultimately our goal is to reduce it to zero for any avoidable 
injuries or illnesses. That is what we would like to have. In 
terms of implementing the program and moving it down, our goal 
certainly is at least to do 10 percent more next year. And that 
is where we are going.
    Senator Durbin. I think what you will find, and what I have 
read, is that most people who come into this do not start with 
the idea of a 10 percent reduction, but start with a zero goal 
and how quickly it can be achieved. Can you tell me, what is 
the most frequently occurring type of injury for workers in 
your office?
    Mr. Hantman. It is basically backaches, back injuries. And 
what we have tried to do is try to minimize back injuries. We 
have gone out and instead of trying to be reactive, we try to 
be proactive, to try to take a look at the type of injuries 
that do occur and how we can train people to avoid that.
    I think the back injuries have been very significant in 
both the custodial area, and that has gone down something like 
38 percent this year in terms of those back injuries for that 
particular group.
    The major injuries to the electricians have gone down 50 
percent. We are going in there and trying to come up with 
methodologies that avoid the necessity to lift; for instance, 
new equipment that will do the lifting instead of people doing 
the lifting. We are telling people not to do things alone that 
you cannot rationally do alone.
    So we are embarking on a very aggressive method of trying 
to take a look at where the injuries occurred, how they 
occurred, and how do we prevent them from happening in the 
first place, rather than just counting beans.
    Senator Durbin. As I look at the injury and illness report 
that you submitted from the Architect's Office, it appears that 
the custodians and laborers are most frequently injured. Is 
that correct?
    Mr. Hantman. Yes, sir.
    Senator Durbin. Okay. It also appears from your comments 
here that a lot of it has to do with basic slip and fall, 
exposure to chemicals, for example, that may be hazardous. 
These sorts of things, I would assume, could be analyzed and 
dealt with, sort of low-hanging fruit in terms of reducing 
injuries and illnesses. What are you doing to make that happen?
    Mr. Hantman. That is exactly what we have been doing, Mr. 
Chairman. And that is why the injury rate has come down. Some 
of this has been low-hanging fruit. And what we need to do is 
put the processes and procedures in place.
    And it is really a shift in attitude on the part of our 
employees. Some employees are used to not working with a 
construction helmet when they should, or steel-toed shoes or 
gloves. And our Director of Safety Programs and I make 
unannounced walk-arounds.
    We go to shops. We go to work sites to make sure that 
people are, in fact, wearing their protective gear and that 
they understand that, ``Yes, you are your brother's keeper. If 
somebody is not working with it, it is up to you to tell them 
to work with it,'' and make sure that the supervisors 
understand that part of their evaluation is that they are 
responsible for the safety and security of those people who are 
reporting to them, and they will be evaluated on that.
    And they are also responsible for making sure that the 
appropriate reports are filled out, so that people report them, 
when they need to be reported, that we understand it, that we 
can follow through on it and make sure that we can cut down as 
close to zero. And clearly, that is certainly our goal.

                   CAPITOL VISITOR CENTER EXCAVATION

    Senator Durbin. Let us talk about the Capitol Visitor 
Center for a minute. And I think Ms. Thomson mentioned 
excavation to begin in June. Is that correct?
    Mr. Hantman. We will be letting the contract in June for 
the excavation contract. We expect that they will be mobilizing 
for the next month. And we will probably see them on site, if 
not at the end of July, early August, actually doing the 
excavation work.
    Senator Durbin. And this week your office went out with 
requests for proposals for the first phase of construction. 
Given the current construction market in Washington, do you 
perceive any problems in bidding the visitor center in terms of 
obtaining competitive and reasonable bids?
    Mr. Hantman. Mr. Chairman, I think the timing for our 
project is good. There is not a lot of other new construction 
starting up over here. The convention center and other major 
things no longer have the foundation issues under control. So 
we are pleased with the bidding interest that we have had. The 
information is out to a good list of bidders. And we feel very 
good about getting good numbers.

                   CAPITOL VISITOR CENTER DISRUPTION

    Senator Durbin. Once excavation begins, can you give me the 
period of time you estimate for, I guess, the greatest impact 
on Senate operations?
    Mr. Hantman. This goes back, Mr. Chairman, to perhaps 
visiting the World War II memorial site again. The messiest 
part of it, of course, is going to be the foundation work. When 
we get the foundation walls in, when we get the top slab--it is 
a top down construction, where the top slab will be put in, 
then we will be excavating down below and doing the rest of the 
work. That is when the most serious disruptions will be 
occurring.
    But the reality is, we are going to have trucks and workers 
in the hundreds on the East Front of the Capitol virtually up 
to and involving the completion of the building. And we will 
have this building totally complete with all visitors and 
exhibits and everything by the end of the 2005 time frame. But 
we are going to have most of it done by the inaugural in 
January of 2005, so that we can support the inaugural. But it 
will not be open to the public at that point in time.
    Senator Durbin. And you have made plans to accommodate the 
people that will be displaced during construction?
    Mr. Hantman. We are working with the Senate and with the 
House on people from the East Front of the Capitol and others 
who are being displaced. And specific space allocations are 
being worked on right now, Mr. Chairman.
    Senator Durbin. What is the General Services Administration 
doing as part of this?
    Mr. Hantman. One of the things we wanted to make sure, Mr. 
Chairman, was that we were being as fair as possible in the 
procurement process. General Services Administration operates 
something like 340 million square feet of space around the 
country for the Federal Government. They have an excellent 
procurement division. They have lots of experience in 
contracts. So we have retained them to help us in the 
procurement process. We used them to help select Gilbane 
Construction. We went out again to the entire country to do 
that. And they will be helping us in terms of selecting the 
contractors for the two major pieces of the work.

                LIBRARY OF CONGRESS BOOK STORAGE MODULES

    Senator Durbin. Let me talk for a minute about the Library 
of Congress book storage module. As you know, the Library of 
Congress is concerned about the slow progress at Fort Meade 
completing the first of at least 12 storage modules for their 
growing collection. We were disappointed to learn that the 
funding for the second and third modules was dropped from your 
budget request.
    This project was initiated over 10 years ago and the first 
module was to have been completed in 1995. What is the status 
of completing that first module?
    Mr. Hantman. We are currently commissioning the major 
building systems within the facility. And we expect the general 
contractor to complete his work next month. We will then have 
several additional items of work remaining, which we expect to 
be complete in July. And I talked to the Librarian and 
indicated that the occupancy of the building should be turned 
over to him after that.
    We also agreed that we need, frankly, to sit down and talk 
on a more regular basis in terms of the issues and the needs of 
the Library, not only at the mid level and lower level 
management in terms of coordinating projects, but the Librarian 
and myself agreed that we should be doing that.
    I also indicated to him that I would be submitting a 
request for dollars to fulfill the needs for module two, three, 
and four to the committee and apologized to him for dropping 
that out without adequate communication.
    And what we plan to do for him, and I indicated as well, 
was--Fort Meade is quite a distance away. Our lines are pretty 
well stretched thin. We have a memorandum of understanding with 
the Corps of Engineers, who has a staff of 30 people out at 
Fort Meade. What we plan to do is have them work directly with 
the Library, talking about their programs, and us certainly 
overseeing the construction on a day-to-day basis so that this 
does not occur again.
    Senator Durbin. So what are you going to do to accelerate 
the efforts for additional modules?
    Mr. Hantman. We will be coming back to you, Mr. Chairman, 
with a request for the funding to essentially do the 
construction of module two in 2003 and the planning for modules 
three and four going forward, so that we can meet the schedule 
that the Librarian has set out for the load of books that he 
constantly has coming in.

                         WASTE RECYCLING REVIEW

    Senator Durbin. Let us talk about the recycling program for 
a minute. According to GAO, there is no clear mission or goals 
in this program, nor accountability for achieving results. This 
is an item, if I am not mistaken, that we have been raising as 
a committee with your office for a number of years. So clearly 
you know that members of the Senate have been asking why 
nothing is happening here.
    Almost two-thirds of the material that is deposited in 
recycling containers here in the Senate is contaminated, which 
means it is not recycled but sent to landfills. Now that is 
poor performance, clearly. Last fall you contracted with a 
company, Solid Waste Solutions, to review the recycling 
program. And that company recommended the combined office paper 
approach.
    Will you be implementing this approach?
    Mr. Hantman. We have a submitted a report to the Senate 
Rules Committee recommending that we do this approach. And, in 
fact, GAO has recommended that, in fact, again keeping the 
program as simple as possible is the best way to do that. So we 
are waiting for guidance and approval from the committee to 
implement that approach. We think it makes an awful lot of 
sense. And that certainly is our recommendation.
    Senator Durbin. You are waiting for guidance from this 
committee?
    Mr. Hantman. No from the Rules and Administration 
Committee.
    Senator Durbin. From the Rules Committee.
    Mr. Hantman. That is correct.
    Senator Durbin. In terms of how you are going to implement 
it?
    Mr. Hantman. We have submitted a report to them and a 
recommendation. And we have been meeting with them over the 
last several months.
    Senator Durbin. What are the major problems that you want 
to correct?
    Mr. Hantman. Well, the major problems are, right now we 
have a staff that collects recycled materials from central 
locations in each of the offices. That is a problem for people 
who do not want to get up from their desks and walk over to 
recycle things. So they will throw things in their baskets, 
along with the garbage and the lunch and things of that nature.
    What this new procedure would involve would be having 
recycling bins at each desk, so that people are able to put in 
mixed papers. And we would then collect from each desk, as 
opposed to from a central location in each of the offices, and 
make sure that we have better material and less contamination.

                        WASTE RECYCLING CHANGES

    Senator Durbin. Mr. Hantman, with all due respect, these 
are not breakthrough ideas. In fact, you submitted to us in 
1999 your findings about the inadequacy of this program. And it 
virtually is a repetition of what you just said. So for 3 
years, the problems have been there unresolved and unsolved.
    What kind of assurance can you give us that this time you 
are going to try to actually implement changes in the program?
    Mr. Hantman. We have the right people on board right now. 
We are a service organization, Senator. And we have difficulty, 
and that is no excuse, finding the right people, bringing them 
up, attracting them. We raised the grade level to get the right 
people over here in terms of management. It has not been 
properly managed either. I take responsibility for that.
    In terms of getting a specific program approved, getting 
the training going, these are things that we are committed to. 
And we have some confidence that this time around we are going 
to be able to come back to you next year and show you 
tremendous progress.

                           CLOSING STATEMENT

    Senator Durbin. Thank you very much for your testimony and 
for being with us today. We have requested during the course of 
this hearing a lot of information from you about specifics in 
your appropriation.
    I just want to make one thing clear, and that is, I am 
learning on the job. In the first year, I saw the train moving 
along as it had for many years. I made a few observations about 
changes.
    I am not going to sit by and watch a repetition of last 
year's appropriation when it comes to your office. You are 
going to have to really come through with some solid 
information backing up your request. There is no room for place 
markers, no room for puzzle pieces, no room for speculation and 
guessing here.
    I understand that when you make an estimate, it cannot 
always be 100 percent right. Everybody has human frailty and 
limitations in this business. But at this point in time, many 
of the major projects which you are asking us to fund cannot be 
justified. That is unfortunate because there are many 
substantial capital needs on Capitol Hill.
    So I am certainly hopeful that we can see some more 
information from your office and some more justification and in 
a timely manner, because the appropriation process will be 
moving along very quickly.
    Mr. Hantman. Mr. Chairman, on page six of our testimony we 
do list the place markers. But we will go back over that list 
and further clarify that. And we will get you the backup 
estimates to the $81 million, as well as the East Front, so we 
can verify the estimates that we have.
    Senator Durbin. And the 5-year capital plan.
    Mr. Hantman. Absolutely.
    Senator Durbin. And master plan for the Capitol Police and 
review of the people working in the office, the basic 
management studies that have been asked for the GAO, the list 
is pretty long, Mr. Hantman. I certainly hope that you can 
address them on a timely basis.

                          SUBCOMMITTEE RECESS

    At this point, the subcommittee is going to stand in recess 
until May 1 at 10:30 a.m., when we will take testimony from the 
Sergeant at Arms and Capitol Police Board. Thank you.
    [Whereupon, at 12:14 p.m., Wednesday, April 17, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 1.]











        LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                         WEDNESDAY, MAY 1, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:26 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Reed, and Bennett.

                              U.S. SENATE

             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF HON. ALFONSO E. LENHARDT, SERGEANT AT ARMS 
            AND DOORKEEPER

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. At the risk of violating every Senate 
tradition, we are going to start early in the hopes that we can 
let busy people return to their important work.
    The subcommittee will come to order. Today we meet to take 
testimony from the Sergeant at Arms of the United States 
Senate, Al Lenhardt, and the U.S. Capitol Police Board, chaired 
by House Sergeant at Arms Wilson Livingood, on the fiscal year 
2003 budget request.
    We will hear first this morning from Mr. Lenhardt in his 
first appearance before the subcommittee. Let me welcome you. 
You came to this post with extraordinary credentials, having 
served as the highest ranking officer in charge of all police 
and security operations for the United States Army. That 
experience has served you and the Senate very well.
    You started in the Senate days before the tragic events of 
September 11th. That event was followed closely by the 
discovery of anthrax in Majority Leader Tom Daschle's office in 
the Hart Senate Office Building. Over the past 8 months you and 
your staff have put in incredibly long hours responding to 
those events and ensuring that we are prepared for avoiding 
them in the future.
    Immediately after the September 11th incident, you went 
about assessing our evacuation and communication procedures and 
looking at what needed to be done to respond more effectively. 
After the October 15th anthrax crisis, you and your staff, 
along with the employees of the Secretary of the Senate, the 
Architect of the Capitol, the Attending Physician, and the U.S. 
Capitol Police, helped manage an unprecedented remediation 
effort--literally unprecedented in history--the relocation of 
50 Member offices to temporary space, the development of new 
mail-handling protocols, and the assessment of health concerns 
associated with the irradiation of mail.
    We often take for granted that the phones, voicemail, data 
processing, and the other services we rely on are always going 
to be there, and are always going to work. But this was no 
small feat in the relocation of 50 Member offices to temporary 
space, and it could have not been possible without your work 
and the work of your dedicated staff. In addition, you have 
established an Office of Emergency Preparedness and countless 
hours have been invested in additional planning efforts.
    We thank you, your deputy Ann Harkins, whose first day of 
work we understand was October 15th, Liz McAlhany, 
administrative assistant Rick Edwards, and everyone else 
involved for your service to the Senate and to America.
    With respect to your budget, you are requesting roughly 
$162 million and 50 additional staffers. The budget would 
increase 20 percent under your proposal, more than half of 
which is associated with security-related needs such as new 
mail-handling protocols and the Office of Emergency 
Preparedness. There are also increases associated with bringing 
online the new Senate e-mail system, which we are looking 
forward to having in place.
    Mr. Lenhardt, before I turn it over to you let me 
personally thank you, because I know, having seen just a small 
part of the time and dedication that you extended during the 
crises that we faced, what a debt of gratitude we owe you and 
everyone in your office. There were some real heroes and 
sheroes in this particular experience, and you certainly rank 
up there in my estimation in terms of your continued service to 
your country and particularly now to the United States Senate.
    I am going to invite Senator Bennett to speak when he 
arrives, but in the meantime I would like to welcome you and 
give you an opportunity to make your opening statement.
    Mr. Lenhardt. Thank you, Senator. I appreciate very much 
your very kind comments.
    I am pleased to appear before you and the subcommittee 
today to present the Office of the Sergeant at Arms budget 
request for fiscal year 2003. Mr. Chairman, I ask that my 
written testimony and the fiscal year 2003 budget request be 
submitted for the record.
    Senator Durbin. Without objection.

                           SAA BUDGET REQUEST

    Mr. Lenhardt. I am respectfully requesting a total budget 
of $162.094 million, which is an increase, as you have already 
indicated, of 20 percent compared to the original fiscal year 
2002 budget. Of the $27 million increase, approximately $15 
million is requested for security improvements; $8 million will 
fund implementation and completion of the Senate Message 
Infrastructure Project previously authorized, and for 
additional technology services for Members, such as PCLAN, 
mainframe, video teleconferencing, and $1.5 million in support 
of LIS and FMIS projects for the Secretary of the Senate, which 
provides legislative and financial support for Member offices.
    Sir, as you already indicated, I took the oath of office on 
September 4, 2001. My 8th day with the Senate was September 
11th and on my 42d day the largest act of domestic bioterrorism 
occurred in Senator Daschle's suite in the Hart Office 
Building. Those two incidents set in motion a remarkable series 
of events and activities which challenged the Congress, the 
Senate, the United States Capitol Police, and especially the 
men and women of the Office of the Sergeant at Arms.
    Mr. Chairman, as you have already indicated, I have spent 
nearly 32 years serving in the United States Army and have 
considerable experience in law enforcement and security. On the 
11th of September, I had not been here long enough to identify, 
let alone evaluate, areas where my training and experience 
might be beneficial to the Senate. But I quickly saw on that 
day that the men and women of the Capitol Police had all the 
courage and determination needed to get the job done. I also 
saw where improvements in emergency preparedness, incident 
response, and command and control were sorely needed.

                         BIOTERRORISM INCIDENT

    The anthrax bioterrorism incident gave our office an 
opportunity to illustrate to the Senate community the 
extraordinary dedication of the Sergeant at Arms' men and women 
who work at our task daily. Over the course of a weekend, 
literally a weekend, the staff relocated 50 offices to new 
quarters assigned by the Rules Committee and provided basic 
computer and telephone services. They also relocated 15 
committee offices and other offices and provided basic 
telephone and computer services. They also relocated seven 
departments of the Secretary of the Senate, including the 
Disbursing Office, and provided telephone and specialized 
computer services and support. Finally, they relocated several 
Sergeant at Arms offices from the Hart Senate Office Building 
while simultaneously providing essential support to the rest of 
the Senate community.
    I can say without bias that this was a truly remarkable 
achievement in any environment, government, corporate, or 
military, and I commend each and every member of my staff for 
their extraordinary service to the Senate and for their can-do 
attitude in everything that they undertake.

                PARTNERSHIP WITH SECRETARY OF THE SENATE

    The serious threats to the people who work in the Senate 
and to the Senate as an institution highlight as never before 
the role of the Sergeant at Arms in ensuring the security and 
safety of the entire Senate, every person and every visitor to 
the Senate itself. In carrying out this charge, I am fortunate 
to have a true partnership with the Secretary of the Senate.
    This partnership includes our extensive efforts in planning 
the continuity of operations and continuity of Government 
programs. Jointly, our offices have worked with the Senate 
leadership to identify alternate chamber locations and briefing 
centers. In addition, the Office of the Sergeant at Arms 
supports all of the Secretary of the Senate's major systems: 
the Legislative Information System, the Financial Management 
Information System, the Financial Disclosure and Reporting 
Systems, and the Payroll System.
    Mr. Chairman, when the Sergeant at Arms and Doorkeeper 
position was established in 1789 it was never envisioned that 
the office would be faced with the security challenges we face 
today, with threats of biological, chemical, nuclear, 
radiological, and conventional weapons. As the Senate's chief 
law enforcement officer charged with maintaining security in 
the Capitol and all Senate buildings, as well as the protection 
of Senators, staff, and the visiting public, I am pleased to 
report to you that my staff is decisively engaged in all 
aspects of carrying out our important mission.

             BALANCING SECURITY WITH ACCESS TO THE CAPITOL

    To do this effectively, we must constantly balance the need 
for essential security with the need for free and open access 
for the American people and other visitors to see 
representative democracy at work.
    The United States Capitol is the most recognized symbol of 
democracy in the world. This historic building represents the 
United States of America and our democratic form of Government 
to freedom-loving people around the world. This is the most 
important building, not just in America, but to America. Of 
greater importance, the Congress represents the democratic 
principles which are at the heart of our form of Government.
    My career has been devoted to protecting and defending 
these principles and my military experience is the fundamental 
reason why I feel so strongly that we cannot turn the Capitol 
Building and surrounding grounds into a military base look-
alike, or allow a bunker mentality to develop here. The Capitol 
Building is the people's house. Our obligation and our duty is 
to ensure that all who visit and work here are safe and that 
our institutions continue to function in any circumstance. That 
is my guiding principle as the Sergeant at Arms of the United 
States Senate.

          LEGISLATIVE BRANCH EMERGENCY PREPAREDNESS TASK FORCE

    After September 11th, we immediately identified security 
deficiencies in our emergency planning. Initially, we formed 
the Legislative Branch Emergency Preparedness Task Force to 
zero in on the immediate actions needed to increase the safety 
and security of the congressional community. The report of the 
task force is available for review. We have created the Office 
of the Assistant Sergeant at Arms for Security and Emergency 
Preparedness and hired staff focused specifically on security 
and the protection of the people and the institution of the 
Senate.
    We now have the processes and procedures in place for 
Members and staff to follow in case of an emergency, which 
includes assigned assembly areas and procedures for safety and 
accountability purposes. We also have identified briefing 
centers for Senators where information can be provided and can 
serve as a secure place for Senators to discuss the developing 
situation.

    OFFICE OF ASSISTANT SERGEANT AT ARMS FOR SECURITY AND EMERGENCY 
                              PREPAREDNESS

    The Office of the Assistant Sergeant at Arms for Security 
and Emergency Preparedness is the permanent management 
structure to oversee and integrate security and emergency 
preparedness planning, policies, and programs within the 
Senate. This office, working in close cooperation with the 
Office of the Secretary of the Senate, also is responsible for 
continuity of operations training and assistance provided to 
Member and staff offices, as well as integrating Senate 
security plans.
    As we move forward, our goal is to be aware of the threat 
environment facing the Senate, and continue to upgrade and 
improve protection and preparedness measures that safeguard the 
Senate, the people who work and visit here, the institution, 
and the property that supports them. We will coordinate our 
security operations and plans with other legislative, judicial, 
and executive branch offices and we will prudently implement 
those actions and procedures that improve our security 
environment.

                     BUDGET BUILT ON BUSINESS MODEL

    Mr. Chairman, Senator Bennett, Senator Reed, in 
constructing this budget request I instructed the staff to use 
the business model instituted by my predecessor. The top-down, 
bottom-up review is still mandated for each department during 
construction of its long-range program and budget planning 
activities. Each department director and manager is expected to 
seek program efficiencies and cost-cutting savings in all 
mission areas. Program managers are also challenged to evaluate 
and eliminate, where necessary, duplication and dysfunctional 
redundancy in all activities. We will leverage the use of 
technology wherever possible to achieve greater efficiencies 
and improve program effectiveness.
    Our business principles and practices have improved Senate 
services and enabled us to reduce full-time employees by 11 in 
our staff and salaries by $452,000 so far this year. This 
spirit of innovation was also evident when our team devised 
procedures for processing over 90,000 items of mail received 
daily at one-third the cost of contractors doing the same work 
with other legislative branch offices.
    Our business model is applied to all programs to achieve 
the best bang for the buck. We will be especially mindful of 
this when considering improvements to security programs. We 
must resist any temptation to buy a product or service simply 
because it looks good or may satisfy an immediate need. All 
security equipment and services will be subjected to the same 
requirements-based and life cycle acquisition model used to 
evaluate all other programs.
    We believe the fiscal year 2003 budget reflects the 
resources to meet the needs and requests for services expressed 
by the Senate community. The Sergeant at Arms staff is 
committed to providing services of the highest quality in the 
most efficient manner possible. This budget will achieve the 
services, security improvements, communications and technology 
projects contained in our proposals. As an effective steward of 
our budget, I pledge to you that the staff will spend these 
precious resources wisely.

                           prepared statement

    Thank you for the opportunity to present this request to 
the committee.
    [The statement follows:]
               Prepared Statement of Alfonso E. Lenhardt
    Mr. Chairman and Members of the Committee, I am honored to appear 
before you today to present the fiscal year 2003 Budget Request for the 
Office of the Sergeant at Arms and Doorkeeper.
    I am respectfully requesting a total budget for the Sergeant at 
Arms' Office of $162,094,000, which is an increase of approximately 20 
percent compared to the fiscal year 2002 budget. The fiscal year 2003 
budget request accelerates improvements to security and reflects the 
increased costs of equipment, services and support required to ensure 
the protection of people and other critical assets of the Senate.
    Before I begin my budget presentation, I would like to salute the 
men and women of the Sergeant at Arms (SAA) organization. Over the last 
year, this team of 779 professionals has performed exceptionally well 
in response to the unusual challenges faced by the United States 
Senate.
    In the last six months, our staff met the significant challenges 
presented by two terrorist attacks on the Nation. After the September 
11, 2001 terrorist attacks, this Office immediately began working with 
the United States Capitol Police and the Senate Leadership to develop 
more comprehensive and detailed evacuation procedures for the Senate. 
After the anthrax incident on October 15, 2001, this office worked 
closely with the Rules Committee to identify space and then relocate 
Senate offices and quickly retooled our important telecommunications 
and computer infrastructure. The task was enormous and unusually 
challenging, but it gave me the opportunity to take the measure of the 
Sergeant at Arms' staff. I am pleased to tell you that the staff's 
performance was beyond my expectations and I am proud to serve with 
each and every one of them.
    Mr. Chairman, the United States Capitol Building is the most 
recognized symbol of democracy in the world. This historic building 
represents the United States of America and our democratic form of 
government to freedom loving people around the world. This is the most 
important building not just in America, but to America. And, of greater 
importance, the Congress represents the democratic principles which are 
at the very heart of our form of government. My career has been devoted 
to protecting and defending these principles and my military experience 
is the fundamental reason why I feel so strongly that we cannot turn 
this Capitol Building and surrounding Grounds into a military base 
look-alike, or allow a bunker mentality to develop here.
    The Capitol Building is the people's house. Our obligation and our 
duty is to ensure that all who visit here are safe and that our 
institutions continue to function in any circumstance. That is my 
guiding principle as the Sergeant at Arms of the United States Senate.
    Another principle is service to the Senate community. Right now, as 
we begin the 21st century, much of that service comes in the form of 
new technologies which we strive to provide to Senate offices promptly 
and efficiently. And, we in the SAA organization serve as the stewards 
of $193,251,000 consisting of the fiscal year 2002 appropriation of 
$134,986,000 and the Emergency Supplemental Appropriation of 
$58,265,000 which this Subcommittee has entrusted to us. I pledge to 
you that we will spend these precious resources wisely.
    Twice since my arrival in September of last year have we faced 
serious threats to the safety and security of the people who work in 
the Senate and to the Senate as an institution. As never before, the 
role of the Sergeant at Arms Office is to ensure the security and 
safety of every Member, every staff person and every visitor to the 
Senate. This effort extends beyond my position as a member of the 
United States Capitol Police Board, since it also includes the Senate 
imperative to make available to the Members the capability for them, 
for you, to conduct the legislative business of the Senate.
    In carrying out this charge, I am fortunate to have a true 
partnership with the Secretary of the Senate. As you know, this 
partnership includes our extensive efforts in the Continuity of 
Operations Planning and Continuity of Government programs. It is in 
this Continuity of Government effort that my office must and will work 
continually and closely with the Office of the Secretary. Jointly, we 
have worked with the Senate leadership to identify alternate chamber 
and briefing center facilities. In addition, the Office of the Sergeant 
at Arms supports all of the Secretary of the Senate's major systems: 
the Legislative Information System; the Financial Management 
Information System; the financial disclosure system; and the payroll 
system.
                                security
Security of the United States Senate
    The Joint Bipartisan Leadership issued a directive on September 6, 
2000 to the U.S. Capitol Police Board to ensure that the constitutional 
functions of the Congress could be performed under any circumstance. 
The Leadership also directed that a comprehensive Legislative Branch 
emergency preparedness program be developed. The terrorist attacks on 
September 11, 2001, and the anthrax incident on October 15, 2001, 
reinforced the need to plan for the protection of Senators, staff, and 
visitors to the Capitol; to safeguard the institution; and to have 
effective evacuation and Continuity of Operations Plans (COOP).
    To address these current and emerging security concerns, the 
position of Assistant Sergeant at Arms for Security was created to 
oversee the new Office of Security and Emergency Preparedness and its 
staff of professionals. The Assistant Sergeant at Arms for Security is 
responsible for physical security, continuity of operations, emergency 
preparedness, and personal protection matters affecting the Senate.
    This office will provide facilities and back-up services to ensure 
the timely reconstitution of Senate services in the event of a major 
incident. The office will immediately respond to incidents of a 
nuclear, chemical, biological, radiological or conventional nature with 
either in-house experts or outside assistance. Policies and procedures 
are being established and tested for relocating the Senate Chamber and 
offices to alternate locations on or off the Capitol Hill complex in an 
emergency.
    Our security strategy establishes a layered defense consisting of: 
intelligence-based analysis of vulnerabilities; security plans and 
actions to prevent an incident from occurring; preparedness measures if 
an incident does occur; and finally, implementing plans, training and 
resources to manage the consequences and respond appropriately to 
ensure the Senate's continuity of operations.
    Prevention is the first responsibility. However, we must be 
prepared in the event an incident does occur. If an incident forces us 
to relocate, we must have the ability to manage the incident, sustain 
services and, if necessary, to disperse to other locations and 
reestablish the Senate's legislative functions. This strategy 
establishes a robust response that does not allow the possibility of 
single-point failures by over-reliance on any single element.
    Another way to look at the mission of the Office of Security and 
Emergency Preparedness is that it creates concentric circles of 
security and response that integrate security, preparedness and 
continuity plans to provide a redundant, layered defense to a variety 
of threats for the protection of the Senate.
    The Office of Security and Emergency Preparedness is also 
responsible for continuity of operations (COOP) training and assistance 
and coordination with the House, the Capitol Police, and other entities 
within the legislative branch and external agencies.
    Most importantly, the office gives the Senate a core incident 
response management team under the direction of the Leadership and 
supervision of the responsible officer. Our team is fully knowledgeable 
about the Federal and civil emergency response agencies, their 
capabilities and procedures, and has established relationships with 
those agencies so that the Senate can tap into their expertise in an 
emergency.
    We have already addressed many of the needs the events of last fall 
brought to my attention. We have identified emergency briefing centers 
for Senators and Senators have been informed of procedures and 
locations. We have streamlined emergency notification procedures at 
Capitol Police Headquarters. We have issued BlackBerry devices to be 
used for emergency notification. And, we are upgrading whip pagers with 
an emergency message capability.
    Further, we are working closely with the Secretary of the Senate 
and the Architect of the Capitol to establish an Alternate Senate 
Chamber in the event the Capitol is denied to us because of a minor 
incident or a major threat. We are also proceeding jointly with the 
House and the Architect of the Capitol to establish an Alternate 
Computer Facility that, while serving both Chambers, will maintain the 
necessary separation of systems and information and provide space for 
back-up Senate telecommunications assets.
    The Capitol Police conducted an initial security assessment of 
Senators' home state offices. We will use these assessments and other 
tools to establish minimum security requirements for State offices. We 
hope to be able to provide funds to each office to upgrade office 
security based on security assessments and needs. The fiscal year 2002 
appropriation for this purpose was $1,744,000. We have requested an 
additional $2,744,000 for fiscal year 2003.
    Finally, it is worth noting that the Senate has already 
demonstrated its ability to maintain operations in difficult 
circumstances. The Senate Disbursing Office's continuity plans were a 
key element in maintaining financial services during the period that 
the Hart Building was closed due to the anthrax contamination. The 
Office of the Sergeant at Arms planned and executed the provision of 
services for 50 Senators and their staffs and 15 committees and other 
offices which were relocated for a period of 96 days while the anthrax 
attack was being remediated.
IT Security
    A software package that allows monitoring of unauthorized intrusion 
attempts to our data network has been installed. This new technology 
already has proven to be an asset to Senate offices in correcting the 
effects of widespread internet-based attacks such as Nimda, an e-mail 
virus. We need to ensure that our data networks are as secure as 
today's capabilities allow so we are contracting for additional expert 
data security consulting service which will address ongoing 
vulnerability analysis of our network and measures implemented to guard 
against a security violation of our network.
Mail Security
    Following the anthrax incident, the Senate Post Office implemented 
new processing procedures to ensure that mail introduced to the Senate 
community is free of biological hazards.
    Shortly after October 15, we sealed mailing chutes and removed 
unmonitored mail boxes in the Senate Office buildings and the Capitol 
to eliminate the possibility of a harmful agent being deposited in 
these areas. We conducted briefings and prepared materials for Senate 
offices to ensure staff knew how to identify suspicious mail and report 
it to officials. Additionally, we advised Senate office managers to 
accept letters and packages from only uniformed Senate Post Office 
employees displaying a valid ID or from bonafide couriers.
    Our Senate Postmaster actively monitors the White House Office of 
Science and Technology Policy (OSTP) and the United States Postal 
Service (USPS), as they fine-tune procedures to deliver to governmental 
offices mail that is safe from biological pathogens.
    The procedures that the Senate developed for ensuring the delivery 
of safe letters and packages have become the model for other agencies 
in the Legislative Branch. We leveraged our existing human and physical 
plant resources in crafting our mail testing program, enabling the 
Senate to perform these tasks for several million dollars less than 
other similar governmental agencies.
    Our Senate offices are customers of the United States Postal 
Service and commercial delivery services such as UPS and FedEx. When 
Senate staff indicated that they were experiencing health-related 
symptoms, the SAA office established the Legislative Mail Task Force. 
The Centers for Disease Control; White House Office of Science and 
Technology Policy; Office of the Attending Physician; United States 
Postal Service and others comprise this task force.
    The SAA tasked the National Institute of Occupational Safety and 
Health (NIOSH) to conduct a Health Hazard Evaluation of all buildings 
in the Capitol complex. The NIOSH industrial hygienists performed 
extensive testing in all Senate buildings and the Capitol Building. 
Medical officers from NIOSH interviewed 389 Congressional staff 
employees. Corrective action was taken where necessary in response to 
the NIOSH findings and guidelines were issued to staff who handle 
irradiated mail. The report was released in April 2002, and NIOSH 
representatives conducted briefings for Senate staff, reported their 
findings and answered staff questions. The SAA staff will work closely 
with the Office of the Attending Physician as the Senate continues to 
monitor this important issue.
    The Legislative Mail Task Force was instrumental in driving process 
improvements in the irradiation of mail. For instance, irradiation 
levels have been reduced twice since December 2001, without having a 
detrimental effect on the kill rate for biological contaminants. The 
result has been that the mail today approximates the appearance of mail 
that is not irradiated, and staff health concerns have been 
dramatically reduced.
    The Legislative Mail Task Force continues to seek improvements in 
reducing delivery time of processed mail to Senate offices. Last fall, 
United States Postal officials stated that processed mail would be 
delivered between seven and ten days from mailing. Currently, processed 
mail is delivered on average in sixteen days. On-site visits to the 
Brentwood Postal Facility and other USPS distribution points were 
conducted to identify causes of delays. United States Postal Service 
authorities have stated that all the mail that was backlogged in the 
Brentwood facility has been processed and delivered to the Senate. 
While the SAA is not pleased with the average sixteen-day delivery 
time, our analysis indicates Senate mail is being delivered in a more 
timely manner than that of other Legislative Branch agencies.
    I have directed that the Mail Task Force remain operational with 
its next goal to work with the U.S. Postal Service to reduce the 
excessive delay of the mail from the current 16-day average for 
delivery.
    Until October 18, 2001, the P Street warehouse was the receiving 
and inspection point for Senate mail delivered from the Brentwood Post 
Office. The P Street warehouse was closed in October 2001 after the 
discovery of anthrax spores on pieces of equipment (believed to have 
been caused by cross-contamination of the mail). The FBI, as part of 
its investigation, took custody of Senate and House mail contained 
within the P Street warehouse. Following its return by the FBI, the 
mail had to be decontaminated using the irradiation process and was 
released for distribution on April 12, 2002. Similarly, tens of 
thousands of pieces of cross-contaminated mail contained within the 
Brentwood facility had to be decontaminated and most was delivered to 
the Senate in March 2002.
    Packages quarantined in the P Street warehouse since October 2001 
were recently released by the FBI and are being processed for delivery 
to the Senate in May 2002.
    The SAA staff worked with Senate office managers, and the Committee 
on Rules and Administration in developing procedures that would allow 
for the delivery of safe packages. Packages were reintroduced for 
delivery during the first week of February 2002 and since that time 
over 13,000 packages have been delivered.
SAA Service to the Senate Community after the October Anthrax Incident
    The SAA staff was committed to maintaining Senate operations after 
the October 2001 bio-terrorist attack. Working with the Rules Committee 
and the Office of Secretary of the Senate, the SAA staff provided the 
infrastructure to support the temporary office locations in the 
Capitol, Russell and Dirksen Senate Office Buildings as well as in the 
Postal Square Building for Hart Building offices. Within a few days of 
the incident, SAA staff had installed hundreds of telephones, data 
network connections, microcomputers, copiers, facsimile machines, and 
other equipment in dozens of locations, many of which never housed 
staff before. Additional equipment and services in those spaces were 
continually provided until the Hart Building reopened on January 22, 
2002. More than 3,000 items of Senate-owned, newly-acquired, or rented 
equipment were installed during the period, and most were installed 
within the first few days of the relocation. In addition to the 
installation work, thousands of logistical tasks, such as forwarding 
telephone numbers and creating new voice mail boxes were completed to 
ensure that offices could continue functioning as normally as possible.
    All of the offices affected by the closure of the Hart Building 
required continued reliable access to the information stored on their 
networks and constituent correspondence management system servers 
located in the Hart Building. The SAA staff worked with the 
Environmental Protection Agency to ensure that the equipment was 
maintained and serviceable throughout the Hart Building decontamination 
process.
    In thirteen offices, contamination was found in the vicinity of 
data processing equipment. SAA staff provided and configured a complete 
replacement of the general application and constituent correspondence 
management system servers in those offices, with little disruption to 
the work of each office. These servers, installed at the SAA facility 
at Postal Square, completely replaced the in-office servers in the Hart 
Building. Additionally, since staff from uncontaminated offices lacked 
access to their servers to verify regular data backup, the SAA staff 
installed and configured 50 network storage devices and created a 
software routine to provide backup services to each of those offices. 
We were able to access the servers in the Hart Building over our 
recently upgraded data network, the first time such a large-scale 
action was undertaken. The SAA staff monitored all of the devices and 
the related software to ensure that each office's data was regularly 
backed up, so data could be reconstructed quickly if a server failed in 
the Hart Building. We provided these services until the devices were 
returned to the control of the Senate offices after the Hart Building 
reopened in January.
    After reopening the Hart Building, the SAA staff restored services 
and removed all of the over 3,000 items of equipment and the supporting 
services that had been installed in temporary locations, and returned 
those areas to their pre-October 15th use. We also worked closely with 
the Superintendent's office to rehabilitate all of the areas that were 
affected by the remediation and clean-up process. Our costs were 
approximately $1.8 million for the relocation and restoration of 
Sergeant at Arms services.
    From October 2001 through January 2002, the Offices of the Sergeant 
at Arms and the Secretary of the Senate worked with the Leadership, 
your staff, the Rules Committee, the USCP, and the Incident Command 
Team (particularly EPA and CDC/NIOSH), to communicate with the Senate 
community, the city, and the country about anthrax and the remediation 
of the Hart Building. We provided regular written updates and together, 
we held many briefings for Senators and staff.
    In addition, in an effort to answer the many questions about 
personal safety and health, the SAA staff in the Joint Office of 
Education and Training coordinated sixteen special briefings for Senate 
staff between October and December. These sessions included medical 
briefings, individual coping skills sessions, sessions for managers to 
assist staff with related stress, and mail briefings. The sessions were 
attended by 740 Senate staff members.
    In January, eight special sessions were offered to help staff deal 
with issues regarding the return to the Hart Building. Most recently, 
in March, we held four sessions for staff who open mail in their 
offices entitled ``Response to Hazardous Substances in the Mail Room.'' 
These sessions have been attended by 159 Senate staff. We plan to do a 
video taped version of this program to send out to Senators' state 
offices.
    In the wake of the September 11, 2001 and October 15, 2001 events, 
the Employee Assistance Program (EAP) staff met numerous evolving needs 
following these traumatic events. For example, the EAP worked with the 
medical staff of the Office of the Attending Physician to facilitate 
the screening program and offered direct counseling services to many of 
those tested for anthrax exposure.
    Following the September 11th attacks through the end of the 4th 
quarter, fiscal year 2001, 375 staff were processed through the EAP 
system for Critical Incident Stress Debriefing (CISD). Private 
counseling sessions were given to 267 of the individuals.
    During the first quarter of fiscal year 2002, Employee Assistance 
Program staff assisted approximately 600 staff members. Private 
counseling sessions were given to 128 individuals. The total number of 
sessions for both CISD and individual counseling was 886.
    Throughout this unprecedented and extraordinary time, the American 
Psychological Association Disaster Response Network Team partnered with 
the Employee Assistance Program staff and facilitated 32 group sessions 
with Senate staff, Postal workers, Senate pages, and Senate offices.
    The SAA Employee Assistance Program staff continue to be present 
and available to all Senate staff, asking how they are doing, providing 
seminars and workshops, and offering a sympathetic ear to create an 
atmosphere of acceptance and stability in the Senate community.
            technology to better serve the senate community
BlackBerry Devices
    In response to the communications difficulties experienced during 
the events of September 11, 2001, we expedited the deployment of 
BlackBerry wireless messaging devices in advance of our deployment of 
Microsoft Exchange and Outlook. The Capitol Police now have the ability 
to broadcast an emergency text message quickly to each Senator, and 
track the message to see whether it has been delivered and read. The 
services available through this platform will be expanded to make it 
even more useful to the Members and their staff.
Senate Recording Studio
    The Senate Recording Studio is being converted to a digital format. 
The broadcast industry has been mandated by the Telecommunications Act 
of 1996 and the Federal Communications Commission to provide a digital 
feed by 2006, and we, as the content provider, want to continue 
providing high quality feed to the broadcasters. Digital format also 
provides flexibility, a better way of storing the Chamber video record 
and other data. And the ability to maintain the studio because, as the 
industry moves to the digital format, it becomes more difficult to 
obtain parts for an analog system. The five-phase upgrade plan began in 
fiscal year 2000 with the conversion of Senate television to high 
definition television and the design and integration of an audio/video/
text browsing system on the intranet. Major installation phases took 
place in the spring and summer of 2001. The system that provides 
broadcast of Senate sessions was completely rebuilt using digital 
technology. On September 4, 2001, the Senate became the first 
legislative body in the world to televise in HD format.
    The second phase will focus on the deployment of digital studio 
cameras, retrofit and networking of edit suites, conversion of video 
tape operations to video servers, as well as the design and 
construction of the centralized control room facility that supports 
committee broadcasts. The third phase will convert the Senate radio 
operation to digital technology, upgrade field operations with digital 
cameras and peripherals, and the initial installation of the 
centralized control room facility. The fourth phase will be for the 
final stage of the centralized control room deployment and the design 
and purchase of equipment for the studio control rooms and core 
facility. The fifth phase will be the installation of the studio 
control rooms and core facility and will be finalized after completion 
of the Capitol Visitors' Center (CVC).
    Over the past year, the SAA staff also developed and deployed the 
systems and communications necessary to allow committees and Senators, 
in conjunction with the Senate Recording Studio, to deliver an audio/
video feed of hearings and studio productions over the internet to the 
public. This eliminated the need to use expensive commercial companies 
to provide this service. The SAA staff plans to expand this service in 
the coming year to increase the number of viewers and the number of 
simultaneous events.
Senate Switch Network (SSN) Upgrade
    The SAA staff improved network communications response time at each 
desktop, by recently completing an upgrade to the Capitol Hill network. 
This multi-year project was completed on schedule and provides high-
speed data transmission for all Senate network connections on Capitol 
Hill. Its modular design was a critical factor in our ability to 
rapidly reconnect displaced Senate staffers to their respective local 
area networks during the closure of the Hart Building. We completed the 
installation of data network switches in every Senate office local area 
network (LAN), that supports all workstations, printers and servers. 
This technology upgrade allows each workstation network connection to 
transmit and receive data at 10 megabits per second rather than sharing 
data transmission capacity with all users on the same office LAN. The 
Senate Switch Network (SSN) is a state-of-the-art, high performance 
network with high reliability through redundancy and increased 
transmission speeds at all levels of the network infrastructure.
    Response time for the State Office Wide Area Network has 
substantially improved. Our new network provides much faster access to 
Correspondence Management and internet/intranet applications. As the 
Senate Messaging Infrastructure is deployed to state offices, the SAA 
staff will monitor network performance to ensure continued high-speed 
capacity.
    By processing a record 52 million electronic mail messages this 
past year without encountering delivery delays or backlogs, the 
Sergeant at Arms staff demonstrated that previous architecture upgrades 
to mail services performed as planned. The electronic mail message 
volume increased 30 percent over last year with our overall capacity in 
the range of 30,000 to 40,000 messages per hour.
Printing, Graphics, and Direct Mail
    The conversion of our Printing, Graphics and Direct Mail (PGDM) 
Branch from analog to digital technology is near completion. Despite an 
8 percent increase in orders, we reduced FTEs by four and reduced 
salary expenses by $150,000 a year through the utilization of more 
efficient and versatile equipment placed in all Senate office 
buildings, the Capitol and Postal Square. We expect this trend to 
continue as we build our network of strategically located devices, 
designed to allow Senate offices to order printed material from the 
convenience of their desktop PCs. This network proved essential with 
the loss of the Hart Senate Office Building copier center, and with the 
elevated demand in printed material after September 11. Despite this 
significant spike in on-demand printing, PGDM was able to disperse the 
print and photocopy jobs, normally produced at the Hart Building copy 
center, to idle electronic printers located in the other Senate 
buildings via the network. This capability enabled Senate offices and 
the United States Capitol Police to receive high quality printed 
material in a timely manner.
    Many of these requests were for bound booklets, such as The United 
States Capitol Police Guide to Security Awareness, for which we were 
tasked to produce over 5,000 booklets in less than 24 hours. We would 
have been unable to complete this request in previous years. However, 
the new book binding technology installed last year enabled us to meet 
the demand. This new binder reduced production time by 77 percent and 
reduced the labor needed to operate the equipment from six to four 
FTEs.
    We installed an additional high production color printer to 
accommodate the 43 percent increase in color copy volume. The demand to 
immediately provide evacuation maps and security documents that 
required the use of color to highlight critical information became 
essential after the September 11 terrorist attacks.
    We estimate we will be able to reduce maintenance costs by $105,000 
during 2002 as a result of programmed equipment investments in PGDM. 
Additionally, we saved 29 Member offices over $21,000 in office 
expenses by introducing a more flexible method for creating digital 
signatures on letters.
Senate Messaging Infrastructure (SMI)
    The SMI project is a major multi-year initiative to replace the 
Senate's electronic mail system, Lotus cc:Mail, which is no longer 
supported by its parent company, with a new system based on Microsoft's 
products Exchange and Outlook. We are working closely with the Senate 
Committee on Rules and Administration, the Committee on Appropriations, 
and a number of Senate offices to ensure that implementation of the new 
system is completed as effectively and efficiently as possible. 
Currently, we are conducting a pilot project in five offices. We expect 
to begin Senate-wide implementation in June 2002.
    Overall, we have received positive feedback about the new system, 
and staff indicate that the system offers more capabilities that are 
far easier to use and integrate into other program applications in 
their offices. We have also learned that the preparation time for an 
office to effectively plan for such a major service upgrade is time-
intensive, particularly for the System Administrator. Additionally, due 
to the complexity of the installation and the variety of personal 
computer configurations in the offices, installations are taking longer 
than expected which may delay the full implementation within Senate 
offices. We will endeavor to minimize delays and resolve any issues to 
successful completion.
    We are about to begin working with the Senate offices in seniority 
order now so that in June we can begin the full implementation of the 
system. Depending on the Senate office schedules, we are planning to 
have all installations done by the end of this calendar year and are 
prepared to continue the installation into 2003 if the Senators' 
schedules require an extension.
                          process improvements
    We have made a number of process improvements during the past year 
and I expect the SAA team to continually seek methods--borrowing from 
the private and public sectors as appropriate--to perform tasks more 
quickly, accurately and cost effectively in achieving our mission for 
the Senate. Four examples that I would like to share are:
  --Printing, Graphics and Direct Mail saved Senate offices $951,000 in 
        postage expenses during fiscal year 2001. We established cross-
        functional teams tasked with improving outgoing mail delivery, 
        concurrent with reducing costs. Sergeant at Arms staff worked 
        proactively with Senate offices in suggesting methods to 
        prepare letters for mailing, thereby reducing processing and 
        handling expenses. Outgoing mail qualifying for discounts 
        increased by 14 percent.
  --Consolidated Parking and Identification Administration improved 
        office through-put by 33 percent, thereby minimizing customer 
        wait time. We were able to save $197,000 in salaries and 
        reduced FTEs by five people despite a 40 percent increase in 
        the number of IDs produced and a 15 percent increase in parking 
        permits.
  --The Photo Studio developed a cross-functional team that provided 
        additional photographers during peak request periods, enabling 
        a 10 percent increase in photograph processing and one less 
        FTE.
  --Our parking team has worked collaboratively with the Architect of 
        the Capitol, the United States Capitol Police and private 
        contractors as we accommodate Senate staff whose parking spots 
        were, or soon will be, displaced because of the Capitol Visitor 
        Center construction project. This team has analyzed virtually 
        every square foot of the Capitol complex in seeking safe, 
        secure and proximate parking for Senate staff. The tenets of 
        our parking team are: Security, proximity to the Capitol, 
        convenience to staff, best use of existing resources, using 
        taxpayer dollars judiciously, and friendly Customer Service.
    We recently relocated 71 senior Senate staff from Northeast Drive 
to spaces within a short walk to the north door entrance to the 
Capitol. Senate staff response to this change has been highly 
favorable. We have already defined the 255 spaces for those being 
displaced during the next three years. Much of our success has come 
from the creative reconfiguration of existing parking spaces, (i.e., 
converting parallel parking spaces to diagonal spaces). In the past, 
large scale parking space relocations were contracted out to private 
vendors located considerable distances from Capitol Hill. We estimate, 
based on previous expenditures, we saved $1 million for the duration of 
CVC construction projects. We are requesting six FTEs to facilitate 
parking during fiscal year 2003. We estimate that our parking plan will 
be about one-third the cost of renting spaces from a private vendor.
                         services to the senate
IT Services and Support
    Another initiative that increased our productivity and service to 
customers includes a new contract for the support of the SAA 
microcomputer and local area network hardware and software. The new 
contract provides: A more experienced and qualified staff, greater 
financial leverage over the contractor's performance, reduced prices 
for hardware and software, and a modern Web storefront to streamline 
purchasing.
    We expect the new vendor to significantly reduce wait times for 
repair or restoration services, thereby improving productivity.
Help Desk
    Our new Help Desk system effectively supports Senate offices by 
enabling closer tracking of customers' problems and improving SAA 
oversight capability. We replaced the former system, Tivoli Service 
Desk, because the company was sold and no longer provided long-term 
support. In a very short time, we selected, procured, designed, 
installed, tested, and implemented a new Help Desk system. Despite the 
very aggressive schedule, we were able to complete the implementation 
on time and within budget.
Customer Service
    To provide excellent customer service to the Senate, the SAA has 
implemented a program to ensure the full range of services. The 
Customers Always Require Excellent Service (C.A.R.E.S.) program ensures 
that every SAA employee is trained in customer service and every 
department has a strategy for how it will manage and continually 
improve service to our customers. All employees attended SAA C.A.R.E.S. 
training tailored to the services their departments provide to the 
Senate. Follow-up training is offered on topics such as ``Service 
Recovery'' and ``Teleprofessionalism.'' Additionally, each department 
developed a comprehensive service strategy with input from the 
employees in the department. This strategy includes the customer 
service standards for the department and the methods to be used to 
recognize and reward outstanding service.
        better communications to enhance the legislative process
    Our fiscal year 2003 budget request includes a development strategy 
for modernizing the Senate's telecommunication systems located in the 
Hart, Dirksen, Russell, Postal Square, and U.S. Capitol buildings. We 
are preparing a plan on the life-cycle, maintenance requirements, 
anticipated services, and support issues for the systems. The fiscal 
year 2002 emergency supplemental appropriation included funding to 
provide some immediate improvements to our telecommunication services. 
However, we also need to build on those immediate actions to construct 
an infrastructure that will serve the Senate reliably for years to 
come.
                  emergency supplemental appropriation
    Our funding for fiscal year 2002 was augmented by the Emergency 
Supplemental Appropriation (Public Law 107-38) which provided $58 
million to respond to the September 11 and October 15, 2001 terrorist 
attacks. This funding will assist in improving security preparedness 
and responsiveness to such attacks. A high priority initiative is the 
alternate off-site computer center. This facility, entirely redundant 
with the Postal Square facility, will ensure corporate and enterprise 
computing services provided to the Senate can continue in the event an 
incident renders the primary facility unavailable. The staff at the 
alternate computer facility will work in concert with SAA staff located 
in Postal Square providing day-to-day support to all Senate offices.
    Other high priority projects included in the emergency 
communications program include: An enhanced cellular network, redundant 
facilities for the main telephone switch, backup telecommunications 
equipment, audio teleconference upgrade, satellite dish and services, 
and television production/satellite uplink hybrid vehicle.
    The final item, the television broadcast production vehicle, will 
enable the Senate Recording Studio to continue functioning wherever the 
Senate Chamber is located. The vehicle allows for quick deployment and 
setup at an alternate location, and provides a satellite uplink for use 
as a primary or redundant transmission system.
    With the completion of these initiatives, the Senate will have the 
ability to provide far more effective, real-time communications to 
Members and staff in the event of an emergency situation.
                    fiscal year 2003 budget request
    Mr. Chairman, Senator Bennett, in constructing this budget request, 
I instructed the staff to use the business model instituted by my 
predecessor, Jim Ziglar. As in prior years, the fiscal year 2003 Budget 
Request was constructed from the bottom up with every line item 
examined in detail. We view the budget as an active management tool to 
help us achieve our broader financial and operating goals. We have 
instituted a budget process that requires SAA directors to forecast 
expenses and future needs for each of the next five years. We want to 
be able to identify for the Senate in advance systems to be modernized; 
the costs of, and the priorities for, modernization; and the schedule 
for implementation.
    The total budget request for fiscal year 2003 is $162,094,000, an 
increase of $27,108,000 or 20.1 percent over fiscal year 2002. The 
salary budget request is $44,661,000, an increase of $5,579,000 or 14.3 
percent, and the expense budget request is $117,433,000, an increase of 
$21,529,000 or 22.4 percent. The staffing request is 829, up 50 FTEs.
    This budget request accelerates improvements to physical security 
and reflects the increased costs of equipment, services and support 
required to ensure the security of information and communications 
assets of the U.S. Senate. The total request to fund security 
initiatives is $18,522,000. The most significant requests are for the 
alternate computing facility (18 FTE, $1,146,000 in salaries and 
$4,790,000 in expenses); more secure mail and package processing 
protocols (13 FTE, $520,000 in salaries and $1,035,000 in expenses); 
personnel and operating expenses requested to set up the Office of 
Security and Emergency Preparedness (8 FTEs, $730,000 in salaries and 
$2,850,000 in expenses); and upgraded communication capabilities (4 
FTEs, 235,000 in salaries and $3,287,000 in expenses); and funding for 
security upgrades for Member state offices ($2,744,000).
    Also included in the fiscal year 2003 request is $9,570,000 of 
three-year funding for the purchase of computer equipment; $5,924,000 
of no-year funding for Member Mail System purchases, $4,906,000 of no-
year funding to complete Phase Four of the digital technology migration 
for the Recording Studio and $2,744,000 of no-year funding to enhance 
the security of Member state offices.
    To help us understand and manage our cost structure and operations, 
we divided the budget into four types of costs: General Operations and 
Maintenance, Mandated Allowances & Allotments, Technology Capital 
Investment, and Nondiscretionary Items. Each of these budget areas 
covers a distinct component of SAA operations.
    In conclusion, we believe our fiscal year 2003 budget reflects the 
resources to meet the needs and requests of the Senate community. We 
are committed to providing services of the highest quality in the most 
efficient manner possible. The budget will effectively achieve the 
security and technology projects contained in our proposals. In 
addition, Members of the Senate, individually and collectively, 
continue to make clear to us that they require a modern technical 
infrastructure to support the operations of their offices. We believe 
this budget will achieve that result. I appreciate the opportunity to 
present this budget request to the Committee.
           Attachment I.--Financial Plan for Fiscal Year 2003
          office of the sergeant at arms--united states senate
                           executive summary

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Totals             Variance fiscal year
                                                             --------------------------   2003 vs. fiscal year
                                                                                                  2002
                                                              Fiscal year  Fiscal year -------------------------
                                                              2002 budget      2003                    Percent
                                                                             request       Amount    Incr/(Decr)
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries................................................      $39,082      $44,661       $5,579         14.3
    Expenses................................................      $21,687      $35,644      $13,957         64.4
                                                             ---------------------------------------------------
      Total General Operations and Maintenance..............      $60,769      $80,305      $19,536         32.1
                                                             ===================================================
Mandated Allowances and Allotments..........................      $51,365      $56,399       $5,034          9.8
Technology Capital Investment...............................      $19,860      $20,872       $1,012          5.1
Nondiscretionary Items......................................       $2,992       $4,518       $1,526         51.0
                                                             ---------------------------------------------------
      Total.................................................     $134,986     $162,094      $27,108         20.1
                                                             ===================================================
Staffing....................................................          779          829           50          6.4
----------------------------------------------------------------------------------------------------------------

    The total budget request for fiscal year 2003 is $162,094,000, up 
$27,108,000, or 20.1 percent. The salary budget request is $44,661,000, 
up $5,579,000 or 14.3 percent and the expense budget request is 
$117,433,000, up $21,529,000 or 22.4 percent. The staffing request is 
829, up 50 FTEs.
    This budget request reflects the increased costs of the equipment, 
services and support required to improve the security of the physical, 
information and communication assets of the U.S. Senate. The most 
significant requests are for personnel and operating expenses for the 
Alternate Computing Facility (18 FTEs, $1,146,000 in salaries and 
$4,790,000 in expenses); costs of more secure mail, courier and package 
processing protocols (13 FTEs, $520,000 in salaries and $1,035,000 in 
expenses); The Office of Security and Emergency Preparedness (8 FTEs, 
$730,000 in salaries and $2,850,000 in expenses); and upgraded 
communication capabilities (5 FTEs, $313,000 in salaries and $3,287,000 
in expenses). Funds for initiatives to improve archiving and back-up 
capability for documents and to upgrade security for Member state 
offices also are requested.
    Included in the fiscal year 2003 request is $9,570,000 of three-
year funding for the purchase of computer equipment; $5,924,000 of no-
year funding to support the procurement and maintenance of Members' 
constituent mail systems; $4,906,000 of no-year funding to complete 
Phase 4 of the digital technology migration for the Recording Studio; 
and $2,744,000 of no-year funding to enhance the security of member 
state offices.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Technology Capital Investment, and Nondiscretionary Items.
  --General operations and maintenance salaries is $44,661,000, an 
        increase of $5,579,000 or 14.3 percent. The increase is 
        attributable to funding a 4.2 percent COLA, $1,749,000; merit 
        funding of $1,010,000; and to add 50 new positions, $2,820,000. 
        Staffing will increase from 779 to 829.
  --General operations and maintenance expenses for existing and new 
        services is $35,644,000, an increase of $13,957,000 or 64.4 
        percent. Major factors contributing to the increase are 
        operations and support costs for the alternate computing 
        facility, $4,290,000; PC/LAN installation and support contract, 
        $3,193,000; funding for the Office of Security and Emergency 
        Preparedness, $2,350,000; Senate mail handling and processing 
        costs, $1,035,000; and software/equipment maintenance on 
        digital equipment, $209,000.
  --Mandated allowances and allotments for computers, mail systems, 
        copiers, telephones and state offices is $56,399,000, an 
        increase of $5,034,000 or 9.8 percent. Major factors 
        contributing to the increase are for new telecommunications 
        services, $2,587,000; federal and commercial office rents, 
        $1,082,000; rent for a new, more secure and climate-controlled 
        warehouse for, $1,000,000; state office security enhancements, 
        $1,000,000; computer equipment for members, committees, 
        officers, and leadership, $916,000; and member mail systems 
        maintenance, $474,000; and local and long distance services for 
        DC and state offices, $404,000. Projects completed in fiscal 
        year 2002 included the Democratic Policy Committee and 
        Republican Policy Committee studio upgrades. We acquired 
        broadcast and video equipment to enable the studios to comply 
        with future digitalization requirements. The completion of 
        these projects results in reducing the budget request for 
        fiscal year 2003 by $1,800,000.
  --Technology capital investments is $20,872,000, an increase of 
        $1,012,000 or 5.1 percent compared to the fiscal year 2002 
        budget of $19,860,000. Funding for the Senate Messaging 
        Infrastructure project (SMI, new e-mail system) increases 
        $2,965,000 to $4,742,000 to fund the final implementation and 
        post-deployment support of the project. Full deployment of 
        video conferencing capabilities for each member is funded at 
        $1,200,000, an increase of $1,100,000 over fiscal year 2002 to 
        provide each Senator with two high-end video conferencing 
        systems, one for the D.C. office and one for a state office. 
        Further refinements to our communication strategy plans and 
        alternate computing facility operations are funded at 
        $1,000,000 and $500,000, respectively. The communication 
        strategy plan will refine long-term needs for the Senate's 
        telecommunications systems and services. Other initiatives 
        include replacement of obsolete printing and document archiving 
        equipment for $1,050,000; enhancements to the CMS applications, 
        $775,000; and acquisition of a contract management system, 
        $450,000 that will replace a four-year old local database with 
        a system accessible by all appropriate program and project 
        managers. Offsetting these increases is a reduction in funding 
        for the Recording Studio Digital Upgrade, $4,348,000. In 
        addition, the Recording Studio Relocation Project, $2,100,000, 
        the Dirksen Building re-wiring project, $250,000 and the 
        Emergency Response Plan, $150,000 were funded fully in fiscal 
        year 2002 and no additional funds are requested.
  --Nondiscretionary items is $4,518,000, an increase of $1,526,000 or 
        51.0 percent. The increase is due to projects that support the 
        Secretary of the Senate: contract maintenance for the 
        Legislative Information System, $808,000, Senate Payroll 
        System, $498,000, and the Secretary of the Senate's Financial 
        Management Information System, $220,000.
     Attachment II.--Fiscal Year 2003 Budget Request by Department
    The following is a summary of the SAA's fiscal year 2003 budget 
request on an organizational basis.

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      Totals           Variance fiscal year 2003
                                                            --------------------------    vs. fiscal year 2002
                                                                          Fiscal year --------------------------
                                                             Fiscal year      2003                     Percent
                                                             2002 budget    request       Amount     Incr/(Decr)
----------------------------------------------------------------------------------------------------------------
Capitol Division...........................................      $25,174      $24,983        ($191)          0.8
Central Operations.........................................      $10,298      $12,311       $2,013          19.5
Technology Development.....................................      $25,164      $33,721       $8,557          34.0
Senate Messaging Infrastructure Project....................       $2,187       $5,190       $3,003         137.3
IT Support Services........................................      $39,741      $48,307       $8,566          21.6
Office Support.............................................      $26,381      $30,557       $4,176          15.8
Staff Offices..............................................       $6,041       $7,025         $984          16.3
                                                            ----------------------------------------------------
      Total................................................     $134,986     $162,094      $27,108          20.1
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and analyzed in detail 
beginning on the next page.
                            capitol division

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      Totals           Variance fiscal year 2003
                                                            --------------------------    vs. fiscal year 2002
                    Capitol Division \1\                                  Fiscal year --------------------------
                                                             Fiscal year      2003                     Percent
                                                             2002 budget    request       Amount     Incr/(Decr)
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries...............................................      $11,719      $13,823       $2,104          18.0
    Expenses...............................................       $1,451       $5,599       $4,148         285.9
                                                            ----------------------------------------------------
      Total General Operations and Maintenance.............      $13,170      $19,422       $6,252          47.5
                                                            ====================================================
Mandated Allowances and Allotments.........................           $0           $0           $0           0.0
Technology Capital Investment..............................      $12,004       $5,561      ($6,443)         53.7
Nondiscretionary Items.....................................           $0           $0           $0           0.0
                                                            ----------------------------------------------------
      Total................................................      $25,174      $24,983        ($191)          0.8
                                                            ====================================================
Staffing...................................................          284          306           22           7.7
----------------------------------------------------------------------------------------------------------------
\1\ The Capitol Division consists of the Executive Office, Facilities, Galleries, Recording Studio, Post Office,
  Information Technology Advisor and the Office of Security and Emergency Preparedness.

    Operations and maintenance salaries increase $2,104,000, or 19.7 
percent, to $13,823,000. In fiscal year 2003, the Capitol Division is 
adding 22 additional FTEs, $1,176,000; budgeting for an expected 4.2 
percent COLA, $497,000, and merit funding for fiscal year 2003, 
$431,000. Executive Office staffing increases by four FTEs to provide 
additional support to the office. The Post Office is required to add 13 
FTEs to implement new mail and package processing protocols. Facilities 
will reduce its administrative staff by one FTE in fiscal year 2003. 
The Office of Security and Emergency Preparedness requires six FTEs to 
direct, develop and monitor the processes and procedures needed to 
ensure security on Capitol Hill and to work on the Continuation of 
Operations Plan (COOP).
    Operations and maintenance expenses increase $4,148,000, or 285.9 
percent, to $5,599,000. The Office of Security and Emergency 
Preparedness is requesting $2,350,000 primarily to fund physical and 
information security initiatives. The budget request for the Post 
Office increases $1,037,000 to support increased mail and package 
handling and processing costs. The Recording Studio budget request is 
$894,000, an increase of $345,000 or 62.8 percent due to funding for 
software and equipment maintenance on its new digital equipment. The 
Facilities budget request of $648,000 is an increase of $54,000 or 9.1 
percent, primarily due to rising costs of supplies, materials and 
uniforms.
    The technology capital investments budget request for fiscal year 
2003 is $5,561,000, a decrease of $6,443,000 or 53.7 percent compared 
to fiscal year 2002 of $12,004,000. The Recording Studio requests 
$4,906,000 in no-year funding to continue with the Digital Technology 
Upgrade. Phase four will proceed with the construction and installation 
of a control center as well as the initial design and layout for studio 
control rooms and a terminal control center. Funding for the Continuity 
of Operations Plan, $500,000, is to maintain and enhance SAA plans for 
providing services to Senate offices in the event of a major incident. 
The Alternate Senate Chamber project, $155,000, is to prepare lighting 
and cable in a single alternate site to relocate the Senate Chamber in 
the event an incident forces evacuation of the Senate Chamber in the 
Capitol.
                           central operations

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Totals             Variance fiscal year
                                                             --------------------------   2003 vs. fiscal year
                                                                                                  2002
                   Central Operations \1\                     Fiscal year  Fiscal year -------------------------
                                                              2002 budget      2003                    Percent
                                                                             request       Amount    Incr/(Decr)
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries................................................       $7,855       $8,346         $491          6.3
    Expenses................................................       $2,443       $2,729         $286         11.7
                                                             ---------------------------------------------------
      Total General Operations and Maintenance..............      $10,298      $11,075         $777          7.5
                                                             ===================================================
Mandated Allowances and Allotments..........................           $0           $0           $0          0.0
Technology Capital Investment...............................           $0       $1,236       $1,236          0.0
Nondiscretionary Items......................................           $0           $0           $0          0.0
                                                             ---------------------------------------------------
      Total.................................................      $10,298      $12,311       $2,013         19.5
                                                             ===================================================
Staffing....................................................          181          183            2          1.1
----------------------------------------------------------------------------------------------------------------
\1\ The Central Operations Department consists of the Printing, Graphics and Direct Mail, Parking Office, ID
  Office, Photo Studio, and Hair Care Services branches.

    Operations and maintenance salaries will increase by $491,000 or 
6.3 percent to $8,346,000. This increase is due to the addition of 2 
FTEs, a net decrease of $23,000; budgeting for an expected 4.2 percent 
COLA, $332,000; and merit funding of $182,000. Printing, Graphics and 
Direct Mail is decreasing its staff by four FTEs. Improved technology 
in Printing and Mailing and in Publishing Services will enable a 
reduction of two employees in each area. The Parking Office will add 
six new FTEs in fiscal year 2003. Parking space will be reduced by the 
construction of the Capitol Visitors Center requiring labor-intensive 
stack parking and additional security in lots 11 and 12, creating a 
need for additional employees.
    Operations and maintenance expenses increase $286,000 or 11.7 
percent to $2,729,000. This increase is due to funding of security 
proximity cards for Senate building access for staff, small equipment 
replacement (large paper cutter, warehouse jack, ID hardware) and 
maintenance on prior year technology investments which had been covered 
under first-year warranties.
    The technology capital investment budget request is $1,236,000 for 
fiscal year 2003. $500,000 is requested to upgrade the document 
archiving system allowing archiving of both paper and electronic 
images. PGDM is requesting $300,000 to replace two pieces of outdated 
photocopy and two pieces of networked electronic printing equipment 
with one up-to-date, high volume, networked printer. Additionally, PGDM 
is requesting $250,000 to replace a ten-year old outdated laser 
printing system with new technology. Replacement equipment will ensure 
parts availability, lower maintenance costs, produce a higher quality 
product, improve backup capability, and allow for networking between 
machines within the department. The Parking Operations request of 
$186,000 is to improve safety and security of Senate staff by 
installing parking lot video cameras; acquiring bar code readers for 
parking permit stickers providing more efficient enforcement of parking 
regulations; and installing an automated pedestrian gate at lot 12.
                    technology development services

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Totals             Variance fiscal year
                                                             --------------------------   2003 vs. fiscal year
                                                                                                  2002
             Technology Development Services \1\              Fiscal year  Fiscal year -------------------------
                                                              2002 budget      2003                    Percent
                                                                             request       Amount    Incr/(Decr)
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries................................................       $7,599       $9,231       $1,632         21.5
    Expenses................................................       $9,744      $14,714       $4,970         51.0
                                                             ---------------------------------------------------
      Total General Operations and Maintenance..............      $17,343      $23,945       $6,602         38.1
                                                             ===================================================
Mandated Allowances and Allotments..........................           $0           $0           $0          0.0
Technology Capital Investment...............................       $4,829       $5,258         $429          8.9
Nondiscretionary Items......................................       $2,992       $4,518       $1,526         51.0
                                                             ---------------------------------------------------
      Total.................................................      $25,164      $33,721       $8,557         34.0
                                                             ===================================================
Staffing....................................................          108          128           20         18.5
----------------------------------------------------------------------------------------------------------------
\1\ The Technology Development Services Department consists of the Systems Development Services, Network
  Engineering, Enterprise IT Operations, Internet/Intranet Services, and Information Systems Security.

    Operations and maintenance salaries will increase $1,632,000, or 
21.5 percent, to $9,231,000. This increase is due to the addition of 20 
FTEs, $1,287,000; budgeting for an expected 4.2 percent COLA, $327,000; 
and merit funding for existing staff, $27,000. Eighteen new FTEs are 
required to manage, operate and administer the alternate computing 
facility. Systems Development is adding one FTE to serve as a senior 
software specialist supporting the increased number of databases. 
Internet/Intranet Services will add one FTE as a web development 
specialist responsible for providing web-site support for Senate 
offices.
    Operations and maintenance expenses increase $4,970,000, or 51.6 
percent, to $14,714,000. In fiscal year 2003, $4,290,000 is required 
for maintenance and licensing on software purchases for the alternate 
computing facility. Increases in software maintenance and support 
services, $627,000, SAA data warehouse, $505,000, and e-mail list 
management, $150,000. These increases are offset by a reduction in 
outside vendor support, $545,000.
    Technology capital investments decrease $429,000, or 8.9 percent, 
to $5,258,000. The investments are accounted for in the major data 
network infrastructure projects, the State Office wide area network 
upgrade, the data security projects, and other technology capital 
investment projects. Major data network infrastructure investment 
projects include the Data Network Upgrade, $1,500,000, to support new 
applications such as SMI, and provide increased capacity for the 
future; and the Data Network Engineering Upgrade, $1,060,000 to support 
a virtual private network to enable remote access to the network, an 
emergency backup communications systems, and support for SMI. The State 
Office Wide Area Network upgrade, $950,000, will ensure that each state 
office has improved access to all Senate applications. Data security 
projects include the Enterprise Disaster Recovery project, $498,000, to 
provide on-site data backup and off-site data recovery for all 
mainframe applications.
    Other technology capital investment projects include the Voice and 
RF Systems project, $400,000, to purchase, configure and install lab 
equipment capable of supporting both voice and data communications, and 
the equipment and software to support testing of limited radius 
wireless networks. The infrastructure to support both voice and data 
communications, called voice over IP, offers several benefits including 
the potential to allow the Senate phone system to operate over the 
existing data network in the event of a failure of the telephone 
switch. The ultimate deployment of limited radius wireless technology 
supports the expansion of Senate network access throughout the campus 
without requiring local area network or other hard wired connections. 
The www.Senate.gov data source project, $225,000, provides for the 
acquisition and integration of ``user friendly'' database resources 
requested by numerous Senate offices to operate in conjunction with the 
Senate's public web server. The availability of this data source will 
provide more customizable, flexible and reliable content on many Senate 
offices' public web sites. The Newswire Project, $125,000, is intended 
to enhance the current electronic news feeds by supporting multimedia 
news content and providing an improved user interface.
    Nondiscretionary items increase $1,526,000, or 51.0 percent, to 
$4,518,000. The request consists of three projects which support the 
Secretary of the Senate: contract maintenance for the Financial 
Management Information System (FMIS), $2,410,000; enhancements to the 
Legislative Information System (LIS), $1,610,000; and requirements 
definition for replacement of the Senate Payroll System, $498,000.
                senate messaging infrastructure project

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Totals             Variance fiscal year
                                                             --------------------------   2003 vs. fiscal year
                                                                                                  2002
                         SMI Project                          Fiscal year  Fiscal year -------------------------
                                                              2002 budget      2003                    Percent
                                                                             request       Amount    Incr/(Decr)
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries................................................         $410         $448          $38          9.3
    Expenses................................................           $0           $0           $0          0.0
                                                             ---------------------------------------------------
      Total General Operations and Maintenance..............         $410         $448          $38          9.3
                                                             ===================================================
Mandated Allowances and Allotments..........................           $0           $0           $0          0.0
Technology Capital Investment...............................       $1,777       $4,742       $2,965        166.9
Nondiscretionary Items......................................           $0           $0           $0          0.0
                                                             ---------------------------------------------------
      Total.................................................       $2,187       $5,190       $3,003        137.3
                                                             ===================================================
Staffing....................................................            5            5            0          0.0
----------------------------------------------------------------------------------------------------------------

    Operations and maintenance salaries increase $38,000, or 9.4 
percent, to $448,000. This increase is due to the budgeting for an 
expected 4.2 percent COLA, $21,000, and merit funding, $17,000.
    Technology capital investments increase $2,965,000, or 166.9 
percent to $4,742,000. This increase will fund the final implementation 
and post-deployment support of the Senate Messaging Infrastructure 
project.
                          it support services

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Totals             Variance fiscal year
                                                             --------------------------   2003 vs. fiscal year
                                                                                                  2002
                   IT Support Services \1\                    Fiscal year  Fiscal year -------------------------
                                                              2002 budget      2003                    Percent
                                                                             request       Amount    Incr/(Decr)
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries................................................       $4,987       $5,606         $619         12.4
    Expenses................................................       $6,790      $11,326       $4,536         66.8
                                                             ---------------------------------------------------
      Total General Operations and Maintenance..............      $11,777      $16,932       $5,155         43.8
                                                             ===================================================
Mandated Allowances and Allotments..........................      $26,714      $27,750       $1,036          3.9
Technology Capital Investment...............................       $1,250       $3,625       $2,375        190.0
Nondiscretionary Items......................................           $0           $0           $0          0.0
                                                             ---------------------------------------------------
      Total.................................................      $39,741      $48,307       $8,566         21.6
                                                             ===================================================
Staffing....................................................           93           98            5          5.4
----------------------------------------------------------------------------------------------------------------
\1\ The IT Support Services Department consists of the Desktop/LAN Support, IT/Telecom Support, IT Research and
  Deployment, and Equipment Services branches.

    Operations and maintenance salaries increase $619,000, or 12.4 
percent, to $5,606,000. This increase is due to the addition of five 
FTEs, $313,000; budgeting for an expected 4.2 percent COLA, $211,000; 
and merit funding for existing staff, $95,000. Telecom Services will 
add one FTE to support the additional equipment and services acquired 
to enhance communication capabilities. IT Research and Deployment will 
add four FTEs to identify, test and support new equipment and 
technologies and their application in the Senate.
    Operations and maintenance expenses increase $4,536,000, or 66.8 
percent, to $11,326,000. The increase is mainly attributable to rising 
contract costs for providing help desk, PC/LAN installation and support 
functions to the Senate, $3,193,000.
    Allowances and allotments will increase $1,036,000, or 3.9 percent 
to $27,750,000 in fiscal year 2003. This budget request will support 
voice and data communications for D.C. and state offices, $15,517,000; 
maintenance and procurement of Members' constituent mail systems, 
$5,924,000; procurement and maintenance of office equipment for 
Members' D.C. and state offices, $3,359,000; and Desktop/LAN 
installation and specialized support, $2,450,000; and the 
Appropriations Analysis and Reporting System, $300,000. The DPC and RPC 
studio upgrades will be completed in fiscal year 2002. The budget 
request for these projects is reduced by $1,800,000, resulting in a net 
increase of $1,536,000 or 5.9 percent over fiscal year 2002. The 
$5,924,000 requested for the maintenance and procurement of Members' 
constituent mail systems consists of no year funds.
    Technology capital investments increase $2,375,000, or 190.0 
percent to $3,625,000. These investments will provide the Senate with 
high-resolution videoconferencing capabilities, $1,200,000. The 
proposal provides each Senator with two high-end (near television 
quality) TCP/IP video conferencing systems, one for the D.C. office and 
one for a state office. Telecom Modernization Planning, $1,000,000, is 
a project to refine and set a long-term strategic plan for the Senate's 
telecommunications systems and services. This request also supports new 
projects that will redesign and enhance members' current constituent 
mail systems, $775,000. Other ongoing projects supported in this 
request are the Enterprise Storage Area Network, $150,000; Workflow 
Technologies, $150,000; Senate Application Service Provider, $100,000; 
and Streaming Media Upgrade, $100,000.
                        office support services

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Totals             Variance fiscal year
                                                             --------------------------   2003 vs. fiscal year
                                                                                                  2002
                 Office Support Services \1\                  Fiscal year  Fiscal year -------------------------
                                                              2002 budget      2003                    Percent
                                                                             request       Amount    Incr/(Decr)
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries................................................       $1,693       $1,871         $178         10.5
    Expenses................................................          $37          $37           $0          0.0
                                                             ---------------------------------------------------
      Total General Operations and Maintenance..............       $1,730       $1,908         $178         10.3
                                                             ===================================================
Mandated Allowances and Allotments..........................      $24,651      $28,649       $3,998         16.2
Technology Capital Investment...............................           $0           $0           $0          0.0
Nondiscretionary Items......................................           $0           $0           $0          0.0
                                                             ---------------------------------------------------
      Total.................................................      $26,381      $30,557       $4,176         15.8
                                                             ===================================================
Staffing....................................................           28           28            0          0.0
----------------------------------------------------------------------------------------------------------------
\1\ The Office Support Services Department consists of the Customer Support, and IT Request Processing, and
  State Office Liaison branches.

    Operations and maintenance salaries will increase $178,000, or 10.5 
percent, to $1,871,000. This increase will fund an expected 4.2 percent 
COLA, $72,000; and fund merit increases all positions, $106,000.
    Operations and maintenance expenses will remain flat at $37,000.
    Allowances and allotments increases to $28,649,000 due to projected 
increases in rent for federal and commercial office space, $1,082,000; 
warehouse rent, $1,000,000; state office security enhancements, 
$1,000,000; and funding for computer allocations, $916,000. No-year 
funding totaling $2,744,000 is required to continue acquisition and 
maintenance on state office security enhancements. In addition, 
$9,570,000 is requested as three-year funding to purchase computer 
equipment for Members, committees, officers, and leadership.
                             staff offices

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Totals             Variance fiscal year
                                                             --------------------------   2003 vs. fiscal year
                                                                                                  2002
                      Staff Offices \1\                       Fiscal year  Fiscal year -------------------------
                                                              2002 budget      2003                    Percent
                                                                             request       Amount    Incr/(Decr)
----------------------------------------------------------------------------------------------------------------
General Operations and Maintenance:
    Salaries................................................       $4,819       $5,336         $517         10.7
    Expenses................................................       $1,222       $1,239          $17          1.4
                                                             ---------------------------------------------------
      Total General Operations and Maintenance..............       $6,041       $6,575         $534          8.8
                                                             ===================================================
Mandated Allowances and Allotments..........................           $0           $0           $0          0.0
Technology Capital Investment...............................           $0         $450         $450          0.0
Nondiscretionary Items......................................           $0           $0           $0          0.0
                                                             ---------------------------------------------------
      Total.................................................       $6,041       $7,025         $984         16.3
                                                             ===================================================
Staffing....................................................           80           81            1          1.3
----------------------------------------------------------------------------------------------------------------
\1\ The Staff Offices Division consists of Education and Training, Human Resources, Administrative Services,
  Financial Management and Special Projects.

    Operations and maintenance salaries increase $517,000, or 10.7 
percent, to $5,336,000. This increase is due to the addition of one 
FTE, $67,000; budgeting for an expected 4.2 percent COLA, $294,000; and 
merit funding for existing staff, $156,000. Administrative Services 
will add one FTE as a technical writer to develop and draft technical 
policy and procedure manuals.
    Operations and maintenance expenses increase $17,000, or 1.4 
percent, to $1,239,000. The growth in Administrative Services is due to 
an anticipated increase in metro subsidies ($160,000), the upgrading of 
equipment for Postal Square conference rooms, and supplying of the 
Senate transition office. This increase is partially offset by a 
decrease in Human Resources due to the completion of the physical 
abilities/medical guidelines project ($200,000).
    Technology capital investments budget request is $450,000 in fiscal 
year 2003. Financial Management will acquire and implement a contract 
management system to replace a four-year-old local database with a 
system accessible by all appropriate program and project managers. The 
new system will provide contract tracking functionality of: value; 
modifications; terms and conditions; as well as notification of 
critical dates with e-mail notifications to the concerned parties. 
Report generation will bring significant efficiency gains.

    Senator Durbin. Thank you, Mr. Lenhardt.
    Senator Bennett has indicated that he does not have an 
opening statement and I will defer to questions from my 
colleagues in just a moment.

                           SECURITY MEASURES

    Let me ask initially, you were kind enough to give me a 
closed briefing, a classified briefing about security measures 
that are being considered and undertaken to deal with any 
future crises. Can you tell us outside of that context in this 
open testimony what measures or what progress has been made in 
preparing the Capitol complex for any challenge that we might 
face in the future?
    Mr. Lenhardt. Mr. Chairman, there has been a lot of work 
done. To cite just a few things in terms of response to 9/11, 
we now have intelligence coordination established with the FBI, 
Department of Defense, the Metropolitan Police Department, and 
other agencies to provide information about what is going on, 
identifying specifically the potential threat to the Capitol. 
Plans and policies have been developed, including evacuation 
plans, COOP plans, business models, and alternative facilities 
for various and sundry support services. Training of the 
Capitol Police and staff has been undertaken. We also have 
specialized equipment planned that we cannot go into in this 
session. Evacuation drills and rehearsals have been undertaken 
for the staff and for the Capitol Police.
    In the area of COOP and of COG, continuity of Government 
planning is well underway between the Offices of the Sergeant 
at Arms and the Secretary of the Senate. We have certainly 
expressed those plans and the need for those plans to all 
Senate offices and all committees and staff offices. As a 
matter of fact, this August the Secretary of the Senate and the 
Sergeant at Arms staff will undergo a tabletop exercise to test 
the validity of our plans.
    We have done, as I mentioned, evacuation drills and 
rehearsals. We have better communications. We have upgraded the 
Senate pagers, Senators' pagers rather, and BlackBerry devices. 
Coordination with national telecommunications service providers 
has been effected and established to give us a better 
continuity of services in what we can expect.
    We are working with the House in a cooperative arrangement, 
a task force as a matter of fact, looking at autonomous Hill-
wide communications and a system that will be dedicated to the 
Hill. We have made additional authorizations, as you know, for 
the Capitol Police in terms of increased number of officers. We 
have coordinated with early responders across the board in 
terms of other agencies that might assist in the event that we 
had a crisis.
    As you know, we have already established the Office of the 
Assistant Sergeant at Arms for Security and Emergency 
Preparedness. As I briefed you 1 week ago, we have concentric 
circles of security, as we term it, that identify possible 
alternate locations in the event we had to evacuate the 
Capitol. These locations correspond to our response to a threat 
here at the Capitol. The relocation might be here in the local 
area, or it might be outside the local area. Our planning 
considers how we might relocate the Chamber and continue the 
activities and business of the Senate.
    Senator Durbin. Can I ask you one basic question? Since 
1983 we have had the placement of these huge concrete planters 
all around the Capitol.
    Senator Bennett. Sewer pipes.

                      TEMPORARY SECURITY BARRIERS

    Senator Durbin. Sewer pipes, pardon me, as Senator Bennett 
refers to them. Is there any chance that, in your vision of the 
future of Capitol Hill, they may be taken out and replaced with 
something else?
    Mr. Lenhardt. Yes, Senator. We are actively engaged in that 
process and working with the Architect of the Capitol. All of 
the concrete, the sewer pipes and the other temporary conduits 
that you see, the large jersey barriers, as they are termed, 
will eventually be removed. The plan is to remove them once we 
have bollards in place, and I think you have seen some of the 
bollards. They are attractive, aesthetically pleasing, and 
conducive to the environment that we find ourselves in this new 
threat scenario.
    So all of the concrete barriers you now see are expected to 
be replaced.

                            DELIVERY OF MAIL

    Senator Durbin. Good. Let me ask one last question before I 
turn it over to Senator Bennett. The mail, we know what a mess 
it was because of the anthrax and the fact that it had to be 
shipped off for inspection, irradiation, and the like. What is 
the time now between the delivery of mail to the Sergeant at 
Arms and the actual delivery of mail to our offices, and is 
that likely to improve over time?
    Mr. Lenhardt. Thank you, Senator. Yes, in fact the delivery 
of mail is averaging at this point in time about 16 days. By 
the way, that has been reduced by at least 1\1/2\ weeks. 
Delivery used to be a much longer period of time. We 
established a Legislative Mail Task Force to look at the whole 
issue of mail, and how it might be affecting members of the 
staff in terms of handling the irradiated mail.
    I am very much concerned about the tardiness of the mail. 
We have been working with the U.S. Postal Service to drive down 
the time that it is taking for the Senate to receive mail. From 
the U.S. Postal Service, we are receiving their mail, from 
postmark date to the time that we actually receive it in our 
facilities here in the Senate, in about 14 days.
    We then have a process on top of that that seeks to 
guarantee the safety of the mail before it is delivered to the 
staff. So hence you get the 16 days. We think we can do much 
better than that.
    Initially the U.S. Postal Service advertised that they 
could do their process, the irradiation process, in 7 to 10 
days. We want to hold them to that so that we can drive down 
the time that it takes to deliver the mail.

                       EFFECT OF IRRADIATED MAIL

    Senator Durbin. Let me ask you about that irradiation 
process. In my office and many others, there was a sensitivity 
to the mail when it first arrived. The interns and people who 
were working with the mail, some, but not a lot, experienced 
some personal health problems. Has that continued? What do you 
see in terms of that challenge?
    Mr. Lenhardt. Sir, the Legislative Mail Task Force did in 
fact undertake the investigation of that, and we brought in the 
National Institute of Occupational Safety and Health to look at 
the whole issue of mail and its effect: the irradiated mail, 
and its effect on the staff. NIOSH issued its report last week 
and that report did not find any harmful effects of the mail to 
people handling the mail.
    Now, obviously we all are sensitive to various and sundry 
factors, dust in the air and other factors that might have 
contributed to people having rashes on their fingers, dryness 
or, for that matter, runny nose, dryness of the eyes and the 
like. But NIOSH has concluded that there is nothing wrong with 
the mail that would cause any of the ill effects people were 
suffering.
    Now, as a matter of fact the task force was also successful 
in working with the U.S. Postal Service to drive down, to 
reduce, the irradiation of the mail by two levels. That now has 
caused what we consider to be this beneficial effect of the 
mail not having the harmful effects that it previously had.
    You may have also noticed that the mail is no longer as 
discolored or as brittle to touch and feel.
    Senator Durbin. It is not as crispy as it used to be.
    Mr. Lenhardt. Sir, I have heard it defined as being cooked. 
So it is no longer cooked as heavily as it once was.
    All of this, again, was revealed to the staff in terms of 
informing them of the NIOSH examination results. So at this 
point in time we feel confident. The other point I would make, 
the Attending Physician's Office has also reported that the 
number of people who have come forward complaining of rashes 
and runny noses and soreness of the eyes and other parts of the 
body no longer are coming in at the same numbers. In fact, last 
week those numbers were near zero. I say near zero because 
someone is always coming forward saying they are feeling 
something, and so we respect that.
    But the task force that we established continues to monitor 
all of the conditions of the mail, to include the timeliness of 
the mail. So, until such time as we are satisfied that task 
force will remain operational.
    Senator Durbin. Thank you very much.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman.
    I did not interrupt with an opening statement, but I do 
want to thank you, Mr. Lenhardt, along with Ms. Harkins, Ms. 
McAlhany, Mr. Edwards, and the rest of your team, for the 
superb job you have done under very difficult circumstances. 
You came on board to what looked like a smooth-running 
operation with plenty of time for you to get yourself 
acclimated and suddenly found yourself in the middle of a true 
whirlwind. I congratulate you and your team for the way you 
reacted to that and the steps that you have taken.

                    HILL-WIDE COMMUNICATIONS SYSTEM

    Now, a very minor issue just came out of your answer to the 
chairman. You talk about the pager and the BlackBerry. Can you 
put those together? I carry a pager, I carry a cell phone. I 
refuse to carry a BlackBerry. Two is enough.
    [The statement follows:]

            Prepared Statement of Senator Robert F. Bennett

    Good morning, Mr. Lenhardt, Ms. Harkins, Ms. McAlhany, Mr. 
Edwards, and the rest of the Sergeant at Arms team. Along with 
the chairman, I wish to thank everyone as well as others who 
aren't here today, for the incredible dedication that has been 
shown over the 8 months in responding to the devastating events 
of last September and October. We couldn't have gone on with 
our responsibilities had it not been for the work of the 
Sergeant at Arms and all the others involved.
    As the chairman noted, most of us do take for granted the 
day-to-day workings of your department, which make the Senate 
function with phones, computers, e-mail, the delivery of mail, 
and security protections. Having experienced such severe 
disruptions to our normal operations last fall, today we are 
more aware of the importance of your work than ever.
    The $162 million budget request before us represents a 
sizable increase of 20 percent, but in these times perhaps such 
an increase is warranted. As I understand it, the largest staff 
increases are security related, including 18 FTE for a new 
alternate computer facility.
    Other increases are requested for mail processing, 
emergency preparedness, and such projects as the Senate 
Messaging Infrastructure--the new e-mail system--a project your 
office has been involved in for some time and I look forward to 
getting an update on it.
    Thank you, Mr. Chairman.

    Mr. Lenhardt. Senator, I understand. We are working. Part 
of what we are trying to look for in this Hill-wide 
communications system is a way that we can combine several of 
the features of the pager, the BlackBerry, as well as the 
cellular telephone, into at most two instruments. I say two 
because to put them all into one instrument would put us in 
danger of having a single point failure.
    Senator Bennett. Yes, I understand that, and I am willing 
to carry two, but I draw the line at three. So if you want me 
to use my BlackBerry you better tie it to the pager that tells 
me when there is a vote, so I am not fumbling to see which one 
is buzzing.
    Mr. Lenhardt. Senator, we are working on that mightily. I 
want to get rid of the notion of people wearing bandoliers with 
all the kinds of devices contained in pouches.

                         5-YEAR EVERGREEN PLAN

    Senator Bennett. Okay. Now, you made reference to the 5-
year evergreen plan that Jim Ziglar put in place and said you 
were following that. Last year he brought a chart to this 
hearing representing what he called the evergreen budget, the 
5-year budget by category. Your request is $32 million more 
than that, and I recognize that a good portion of that, $15 
million, is security initiatives.
    But even though I recognize this was not your budget, you 
have embraced it in your comment and at least the process in 
your comment. I would appreciate your telling us what accounts 
for the additional nonsecurity money, over and above that which 
Jim Ziglar laid out for us in the budget that you have 
indicated you have adopted.
    Mr. Lenhardt. Thank you, sir. In addition to the security 
items, sir, we have an increase also for accelerating funding 
for the recording studio upgrade, which is $5 million; $4 
million for phase-in of increased----

                        RECORDING STUDIO UPGRADE

    Senator Bennett. Let me interrupt you there. You say 
recording studio upgrade. That is separate and apart from 
moving the recording studio in preparation for the Capitol 
Visitor Center?
    Mr. Lenhardt. Yes, sir, it is.
    Senator Bennett. So that is something that Jim Ziglar did 
not have in his budget?
    Mr. Lenhardt. That is correct.
    Senator Bennett. Okay.

                            BUDGET INCREASES

    Mr. Lenhardt. $4 million for phase-in of increased Member 
computer allocations, approved in January 2001, but not funded 
in 2002; increased State office rents due to higher market 
rents; video conferencing equipment which is now included in 
this budget which was not in the former budget; $3 million in 
funding for post-implementation of the Senate Messaging 
Infrastructure Project; $3 million in increased costs for the 
computer support contract that was recently recompeted; and $2 
million in new FTEs, the funding for higher COLA and other 
miscellaneous items, accounts for that amount.

                           VIDEO CONFERENCING

    Senator Bennett. Talk to me about video conferencing. How 
is that going to work? Who is going to use that? Is that 
between State offices and the Washington office?
    Mr. Lenhardt. Yes, Senator, it is between the Senator's 
Washington office and one State office at this point in time. 
We do not have enough to move it to all 435 State offices, so 
we are putting our first effort into establishing the fact that 
it will work and then see how we will extrapolate from that 
point to other offices statewide.
    Senator Bennett. So in my State the three, or we hope four, 
Members of the House would come to the same location as my own 
Senate staff? We would just have one per State?
    Mr. Lenhardt. Sir, I am not sure what the House is doing. 
This is a Senate project. But it seems to me in terms of 
economy that you would allow them to use the process in some 
fashion.
    Senator Bennett. But your budget is projecting one per 
State?
    Mr. Lenhardt. One per State, plus the Senator's office here 
in the Capitol or wherever it might be among the other Senate 
office buildings.
    Senator Bennett. Has there been a lot of demand for that? 
Have people said they want to do that? It strikes me as kind of 
a nice-to-have rather than a vital.
    Mr. Lenhardt. Sir, we have had requests for that 
capability. Additionally, in thinking about how it would defer 
and reduce transportation costs, of Members moving from the 
Capitol, say, to their State offices, we think that it would 
pay for itself in a very short period of time. The state of the 
art is such that it is used in a number of other venues--the 
Government, corporate world, it is used in the military. So we 
think that this is a viable program that will expand and will 
prove to be a boon at some point in time to the Senate. Again, 
we can defer and reduce costs for transportation alone.
    Senator Bennett. Well, I think it is probably a good idea, 
but I would not get too excited about it reducing costs for 
transportation, because Senators do not go home to confer with 
their staff. They go home to campaign, and they are going to 
continue to go home to campaign whether the video conferencing 
is there or not, unless you can get the town meetings to come 
to the video conference. Then that might help.
    Mr. Lenhardt. Sir, I was thinking more in fact in terms of 
not necessarily Members going home, but staff who perhaps may 
have occasion to go out for various and sundry reasons. So this 
would affect the coordination and save costs and perhaps add to 
the effectiveness of our interaction with the staff members.
    Senator Bennett. Okay. I am glad to hear about the speeding 
up of the mail, although it has been a nice excuse whenever you 
miss an event to blame it on the mail rather than your own lack 
of desire to be at that particular event.
    Mr. Lenhardt. Sir, it is my wish to have to take that alibi 
away from you.
    Senator Bennett. I think that is all I have, Mr. Chairman.
    Senator Durbin. Thank you very much, Senator Bennett.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Let me begin by commending you, General, for your 
performance. You came in, as Senator Bennett pointed out 
earlier, at an extraordinarily critical moment and your 
professionalism and your skill and your personal qualities 
enabled you and your team to do a remarkable job. So thank you 
for that.

                       SECURITY OF STATE OFFICES

    Let me follow up on some of the thoughts that Senator 
Bennett was expressing. What about the security of State 
offices right now? Are you dealing with that in any systematic 
way?
    Mr. Lenhardt. Sir, we are. As you know, our focus has been 
the Capitol and the Capitol complex, but in terms of the 
continuity of operations plans we are encouraging Senate 
offices to certainly fold in the State offices. So we are 
making that effort in terms of understanding and causing 
sensitivity to be understood for State offices. We have not 
collected any of the plans thus far that do, in fact, address 
the State offices, but we are encouraging Member offices now to 
reach out to State offices.
    You know, the COOP plan is nothing more than a business 
plan. What will you do, what would you do, in the event of some 
unforeseen circumstance? How would you maintain your 
operations? So that is the theme that we are trying to express 
and communicate across the entire Senate. We think State 
offices are picking up on that. From time to time we do talk 
with State offices. We do get some feedback that people are 
considering that.
    Certainly in terms of Member offices here, I do know that 
they are reaching out. Now, I have not done a collective effort 
in terms of pulling all those plans together. At some point we 
may want to think about that. I am not sure what we would be 
able to do because, again, it is the Member office that has to 
reach out to the State offices. But I think we can look at it 
from the standpoint of completeness, the comprehensiveness of 
the plan, and make some recommendations certainly about how the 
plan might be shored up.
    Senator Reed. I think that would be very useful. There is a 
great deal of attention and emphasis on the offices in the 
Capitol complex, but we all have at least one office, and some 
have several offices, in the State. This was demonstrated a few 
weeks ago when Governor Ridge announced or the Attorney General 
announced targeting banks in the Northeast region. My office is 
on the second floor of a bank in the Northeast region. So you 
wonder what you should do.

                        INTERAGENCY COORDINATION

    I think the other point, too, is it might be useful to 
ensure that there is some coordination with local law 
enforcement offices, Federal agencies, et cetera. That might be 
something that you could initiate right away. I know the 
physical improvements are very expensive, complicated, and hard 
to do. But having some type of coordination with local, Federal 
and law enforcement officials would be good.

                SENATE MESSAGING INFRASTRUCTURE PROJECT

    Let me raise another issue. Senator Durbin spoke about the 
mail. I am younger and more up to date. Let us talk about the 
Internet. One of the facts is that it is a steadily rising 
portion of the communications we are getting from constituents. 
It turns out that last year there was a proposal to do a pilot 
program for moving from the current system to the Microsoft 
Exchange-Outlook program. Do you have any results yet from the 
pilot, and is there any sort of firm proposal to migrate the 
entire system to this new approach?
    Actually, I am not any younger than Senator Durbin. I am 
just being smart.
    Mr. Lenhardt. Yes, sir. The SMI project, as you have 
already identified, is to migrate from the current cc:Mail to 
Microsoft Exchange and Outlook. We have now installed the pilot 
program into five offices and we have a commitment from three 
other offices to do it within the next few weeks. During this 
pilot we have been testing our installation procedures, the 
conversion issues going from cc:Mail to Outlook, and the 
training and what would be required to move this out through 
the entire Senate community.
    We are also incorporating our BlackBerry devices, so that 
the BlackBerry then would use as its operating system Microsoft 
Outlook and Exchange.
    Overall, we have received feedback about the new system. It 
has been positive. We have identified some minor issues at this 
point in time, but the plan is to, in fact, export this to the 
entire Senate community. We expect that by the end of the year 
we will have had installed throughout the Senate all devices, 
all computers with the new Microsoft Outlook and Exchange.
    At this point in time, I am very, very much encouraged by 
the progress that has been made. Beginning in June is when we 
will start the full implementation.
    Senator Reed. Thank you.

                        BLACKBERRY RESPONSE TIME

    We had an occasion to speak just briefly this morning about 
the BlackBerry response time. For the benefit of my colleagues, 
can you respond to that issue? As I indicated, it is becoming 
very useful, but sometimes you send a message and you assume 
because it is electronic that it is instantaneous 
communication, and then you discover it arrives 30 minutes 
later.
    Mr. Lenhardt. Yes, Senator. I am concerned about the delay. 
I am also concerned about a couple of occasions when the system 
was actually down. We met 2\1/2\ weeks ago with the chief 
operating officer of one of the Internet or the BlackBerry 
exchange providers. We got a commitment from the chief 
operating officer for us to have our own base station, which 
would then give us more control over the timeliness of the 
message receipt as well as some assurance that the message or 
the system would not be as often unavailable to us.
    Now, I think the system still has a great deal of worth and 
I am encouraged that you use the system. But the assurance that 
we have at this point in time in pressing it back to the 
service provider, I think will result in the kind of response 
that we need.
    I am hoping that more Members use the system as well and as 
often as you do. But again, we have got to show where the 
confidence is there in the system for them to use it. So that 
it is very critical to us to solve this particular problem. I 
expressed that in a very forthright and a very positive way to 
the chief operating officer and got a commitment that they 
would in fact respond to our need and solve this problem. I 
think they understand also it is in their best interest to do 
so.
    Before we can say that the BlackBerry system is truly an 
emergency system for us, a backup system, we have got to have 
the capability to have it available to us when we need it.
    Senator Reed. Thank you very much, General.
    Thank you, Mr. Chairman.

                         CAPITOL VISITOR CENTER

    Senator Durbin. I want to thank the senior Senator from 
Rhode Island. I would just like to make a point here before 
returning to Senator Bennett for another question. I am taking 
this opportunity in this series of hearings and each meeting to 
remind everyone that we are going to have a big hole in our 
front yard for a long time due to the construction of the 
Capitol Visitor Center. It has been my experience, in politics 
and life, that just about the time the hole is dug, some people 
are going to look around and say, ``What is this all about?''
    This has been underway for many years. A commitment was 
made after September 11th for security reasons. It will be 
dirty, it will be inconvenient, it will be a problem for each 
and every Member of Congress and all of our visitors for some 
time. But when it is completed, I am confident that we will all 
conclude it was the right thing to do, and the only thing that 
we could do to really give our visitors to the Capitol the very 
best treatment, the very best experience in meeting here, and 
also the very best in security for all visitors and everyone 
who works here.
    I noted that when our counterparts in the House sat down to 
consider this possibility and what it meant, their first 
concern was very predictable. Next to reelection, most Members 
are concerned about parking. I know this falls under your 
jurisdiction and that the construction of the Capitol Visitor 
Center will displace parking on the east side of the Capitol.
    Can you tell us what we can expect and what you have 
planned to deal with this?
    Mr. Lenhardt. Thank you, Mr. Chairman. We have developed a 
good plan. We did take into account the issues you mentioned: 
security, proximity to the Capitol, convenience of the staff, 
the best use of existing resources, and, certainly, friendly 
customer service.
    Our plan is to move the staff only once. Right now we have 
identified 255 members of the staff who will in fact be 
affected by the Capitol Visitor Center project. That means that 
already we have moved 89 people and we have identified for them 
parking spaces that are within close proximity to their former 
space, so no one is moving and walking any great distance from 
where they formerly parked.
    Senator Durbin. So when you say moving staff, you mean 
moving their parking spaces?
    Mr. Lenhardt. I am sorry, moving the parking space itself.

                                PARKING

    So from that standpoint I think we are addressing this in a 
very positive way. The feedback we are getting is a very 
positive one from the staff. We have created--we have made this 
opportunity available through a number of ways in terms of 
creating the 255 spaces: by being more innovative and creative 
about how we configure the parking space itself. Rather than 
having parallel parking, we are now diagonally parking, so that 
you can get more spaces in the same area.
    In addition to that, on New Jersey Avenue--and I think you 
have seen it by now--New Jersey and Constitution, we created a 
parking plaza, a parking lot, essentially built right there on 
the side of the sidewalk, that will accommodate some 58 parking 
vehicles. That has already filled up. People are appreciative 
of the fact that again they do not have to walk great distances 
in order to get to the Capitol or, for that matter, Senate 
office buildings.
    In addition to that, I will say that we are working plans 
to have available parking, as much as can be made available, on 
the East Front right there near the Senate steps for Members at 
a critical time when they need to come to the Capitol to vote. 
So we are planning for that, Senator. At this point in time I 
cannot give you the exact number of spaces, but we are working 
that very feverishly, trying to make sure that we have got all 
of those things taken into account. Even with all the positive 
aspects of the Capitol Visitor Center that you mentioned, we 
must not lose sight of the fact that at the same time we have 
to accommodate some inconvenience or to expect some 
inconvenience for the good that we will realize 3 or 4 years 
from now.
    Senator Durbin. Thank you very much.
    Mr. Lenhardt. All of that being said, I think we have got 
parking covered and that we will have sufficient areas there 
for people to accommodate their vehicles.
    Senator Durbin. Thank you.
    Senator Bennett.
    Senator Bennett. Thank you.

                             CYBER SECURITY

    Going back to one of my obsessions, this was triggered by 
Senator Reed's comments about the warning of cyber attacks 
against banks. We have had some cyber attacks against the 
Senate computers, people breaking in. We have been able to 
handle those without a whole lot of difficulty. But I think we 
are a prime target.
    We went through the Y2K experience creating redundancy, 
updating, so that we did not have any Y2K problems. I have 
found since September 11th a number of people have said if we 
had not done the Y2K remediation we did, we would not have been 
able to operate after September 11th. Without our Y2K 
remediation and planning, the whole command center would have 
been paralyzed for a long period of time. And as it was, we 
were back up within a matter of minutes.
    Are you seeing any indication of cyber attacks, hackers or 
hacktivists, others, trying to get into the Senate computers 
and, if so, do you have some plans to try to deal with that?
    Mr. Lenhardt. Yes, Senator, we have seen where people have 
attempted to breach our security. But the firewall that we have 
established, the security firewall between the public and the 
Senate system, has been very, very good in thwarting and 
preventing any outside attacks. So we feel confident that that 
is there.
    But we are not resting on that fact alone. We continually 
monitor the system. We have a security specialist whose job it 
is to keep constant vigil on our system. We are constantly 
upgrading to the latest virus protectors that are out on the 
market. In addition to that, we are looking at an alternate 
computing facility that would give us a backup of the present 
center that we use, so that in the event that something did 
happen untoward, we would have the capability to very quickly 
switch over to the alternate computing facility. That, too, is 
contained in this budget.
    So everything is being done to prevent the kind of 
disruption and certainly down time that might be experienced as 
a result of someone successfully getting into our system. I do 
not think it is possible at this point in time, with everything 
that we are doing to monitor, to contain, and to certainly 
prevent an outside intrusion, of that happening. And the backup 
and the alternate computing facility would give us that much 
more, in terms of an ability to continue operations in the 
event that something did happen.
    Senator Bennett. Well, I applaud you for that and for your 
diligence in pursuing it. I just share with you the information 
that comes into my office as I focus on this question over the 
entire economy, that the level of sophistication on the part of 
the attackers is going up exponentially and a firewall that 
existed, that was more than adequate 12 months ago, is now 
obsolete.
    As the level of sophistication goes up, the dissemination 
of those tools also increases, which means that the level of 
expertise required by the hacker goes down, that someone with 
very little expertise can now get very sophisticated attack 
weapons off the Internet, download them, and then go exploring.
    So I appreciate what you are saying. It is exactly the 
right posture to maintain. My only other comment would be that 
as you deal with this you might consider red team, blue team 
kinds of exercises where you hire a hacker for a day and say, 
how long would it take you to get in? Overall, we have found in 
hearings in other committees I have been involved in that you 
can get into the average corporation in about 6 hours, you can 
get into the average university in 45 minutes. I would hope 
that the Senate would be a little more difficult to get in than 
that, by virtue of the vigilance you have just described to us.
    So I applaud you and your approach there and simply urge 
you to keep it up.
    Mr. Lenhardt. Thank you, Senator. I would like to thank 
this committee for appropriating moneys for us to continue that 
process. In the past, we have been able to use the resources 
that were given to the Office of the Sergeant at Arms to do 
just that, to hire contractors who are in fact current and 
remain current. So the idea of a blue-red team is a very good 
one and I am sure that that is already underway.
    What we will do is make sure that contractors are 
continually upgrading their systems and that they understand 
our sense of urgency about this. But you are exactly right in 
terms of the attacks out there and the sophistication of the 
attacks. As those attacks mount, we have got to be smarter and 
we have got to be more proactive and ahead of potential 
hackers.
    Senator Bennett. Thank you.
    Senator Durbin. Thank you, Senator Bennett.
    Thank you very much, Mr. Lenhardt.
                          CAPITOL POLICE BOARD

STATEMENT OF WILSON LIVINGOOD, SERGEANT AT ARMS, U.S. 
            HOUSE OF REPRESENTATIVES AND CHAIRMAN, 
            CAPITOL POLICE BOARD
ACCOMPANIED BY:
        ROBERT HOWE, ACTING CHIEF, CAPITOL POLICE
        ALFONSO E. LENHARDT, SERGEANT AT ARMS, U.S. SENATE, MEMBER, 
            CAPITOL POLICE BOARD
        ALAN HANTMAN, ARCHITECT OF THE CAPITOL, MEMBER, CAPITOL POLICE 
            BOARD

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. We will now turn to the Capitol Police 
Board which is chaired by the House Sergeant at Arms, Bill 
Livingood. Welcome to this side of the Rotunda. And also the 
Acting Chief of Police Robert Howe. We want to welcome Mr. 
Livingood, Chief Howe, and board members Alan Hantman and Al 
Lenhardt.
    The Capitol Police have really been the front line heroes 
since September 11th. Before September 11th, we recall the fact 
that two of our very best, Officers Gibson and Chestnut, gave 
their lives in defense of the people working in the United 
States Capitol and those visiting.
    Since September 11th, those of us who have watched closely 
understand the personal and family sacrifices that have been 
made by the Capitol Police. This has been an extraordinary 
burden that they have carried on our behalf for a long, long 
period of time. I have made a point of stopping and saying 
hello and commiserating from time to time. I understand that it 
has not been easy for them. We owe them a great debt of 
gratitude, not just Members of Congress but all of the staff, 
all the visitors, and everyone in America who treasures this 
great Capitol complex. The force has performed tirelessly, 
putting in 12-hour days week after week, month after month, 
working diligently to protect us.
    So we will start this portion of the hearing by thanking 
all of the officers and their leader, Acting Chief Howe, for 
his dedicated service. I think it bears repeating that these 
men and women risk their lives for us every single day. They 
get up in the morning and put on that badge, hoping that they 
will come home safely. We should never forget that, in our way 
that we view them as people, and certainly as an integral part 
of the Capitol Hill family.
    The budget request this year for the Capitol Police totals 
$212.6 million. It is an increase of roughly 35 percent over 
the current budget, including $31 million appropriated in 
supplemental funds in December last year. The increase would 
support the goal that has been established of attaining a total 
personnel level of 1,981 FTEs by the year 2004. This is an 
ambitious goal and we want to be sure that we have the 
resources and the approach that we need to achieve it.
    Senator Bennett.

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman. I simply want to 
echo your comments in support of the Capitol Police and 
indicate that I, too, discover a very high level of morale as I 
visit with police officers wherever I go. Maybe that is just 
because they recognize that I am on the committee that controls 
their budget, but I think not. I think they do have a sense of 
pride and satisfaction in a job well done.
    We recognize that you face a time of some uncertainty now. 
You have to hire new officers, which means a lot of training 
time. You are suffering some attrition as people want to take 
to the skies and become sky marshals. I am not quite sure what 
the attraction of that is. I spend enough time on airplanes 
that I welcome the opportunity not to. But as people move along 
to other opportunities, that creates more vacancies that have 
to be filled.
    You are in the process of trying to finalize a permanent 
chief and all of this circumstance does create a situation of 
some uneasiness. But it has not in any way been translated into 
a deterioration of the services that they perform. We recognize 
that and are grateful to the police for that.
    Senator Durbin. Thank you, Senator Bennett.
    Mr. Livingood and Acting Chief Howe, your written 
statements will be made part of the record. At this point we 
invite you to summarize them and thank you for joining us 
today.

                     STATEMENT OF WILSON LIVINGOOD

    Mr. Livingood. Thank you, Mr. Chairman, and thank you for 
those comments on behalf of the Capitol Police. They have done 
an outstanding job and thank you for recognizing that.
    Mr. Chairman and members of the committee: We are pleased 
to appear before you, all of us, the three members of the 
Board, to present the fiscal year 2003 budget estimate for the 
Capitol Police. I would like to officially introduce Acting 
Chief Robert R. Howe. Chief Howe is serving as interim Chief, 
as you are aware, until the Board completes its search process 
to name a new chief of police. Chief Howe's 31 years of 
experience with the U.S. Capitol Police has been and continues 
to be invaluable. Thank you, Chief Howe.
    Mr. Chairman, the events on September 11th and the 
subsequent anthrax attack on October 15th had a profound effect 
on security within the Capitol complex. In the past, we have 
testified before this and other committees regarding the 
terrorist threat we face on a daily basis. The attacks that 
occurred last fall have only deepened our concern. Regrettably, 
it is no longer a question of if a terrorism act will again 
occur on U.S. soil, it is now a question of when and where.
    It is for this reason that the Capitol Police must continue 
to receive the funding required to ensure its continued 
viability to serve and protect the people of the Capitol 
complex, and to safeguard the institution of this great 
Congress.

                             BUDGET REQUEST

    The budget submission for the U.S. Capitol Police for 
fiscal year 2003 is $220.4 million, which is a 40 percent 
increase over the fiscal year 2002 base amount. Of the total 
request, $192.305 million is for salaries and $28.1 million is 
for general expenses.
    Mr. Chairman, we have identified two areas within the 
budget that are critical to the department in meeting its 
mission and achieving organizational goals: staffing and police 
facilities. The issues are inter-related. The annual budget for 
the Capitol Police is primarily driven by the staffing level 
required to provide Congress, the public, and the buildings 
with the requisite level of security and protection in an open 
threat potential environment.
    In the fiscal year 2001 budget cycle, the Capitol Police 
Board began a major staffing initiative that will increase the 
number of FTEs to a level commensurate with the mission of the 
department. Over the course of the next 3 years, we will 
incrementally increase FTEs until the revised optimum number of 
1,981 FTEs is achieved. We are requesting funding for 1,810 
FTEs in the fiscal year 2003 budget.

                             FACILITY NEEDS

    With regard to police facilities, I am pleased to report, 
with the committee's support, we have recently moved our 
vehicle maintenance operation to 67 K Street, Southwest. The 
facility is modern, well equipped, and provides a safe work 
environment for all our personnel. Likewise, steady progress is 
being made to open a new Capitol Police training facility at 
the Federal Law Enforcement Training Center in Cheltenham, 
Maryland. I would really, particularly on behalf of the entire 
Board and the Capitol Police, like to thank the committee for 
your support on these projects. It has made a difference.
    There are, however, several police facilities that must be 
addressed. As we add more officers to the department during the 
staffing initiatives, the space requirements in the Capitol, 
and the House, and Senate office buildings will exceed our 
current allocations. Likewise, the Eney, Chestnut, and Gibson 
Building, which serves as Capitol Police headquarters, can no 
longer support the growing administrative and operational 
functions of the department.
    In addition, as we learned during the September 11th 
incident response and the response management and mitigation of 
the anthrax attack, it is imperative that the police obtain a 
state of the art command and control facility. These factors, 
combined with health and safety concerns on certain assigned 
space, have compelled the Architect of the Capitol to hire a 
consultant to update the Capitol Police facilities master plan, 
to determine the comprehensive facilities needs of the U.S. 
Capitol Police.
    Working with the Board, the Architect and the police 
command staff, the consultant will determine space requirements 
for the department and locate properties in the vicinity which 
may be obtained to co-locate police operational and 
administrative services.
    The issue of facilities is imperative to the successful 
performance of the department's law enforcement, security, and 
protective missions. Therefore, the consultant's report will be 
submitted to the committees of jurisdiction for review and 
approval of funding requests.

                        EMERGENCY RESPONSE FUND

    The Board received $110.75 million from the Legislative 
Branch Emergency Response Fund. For the 21 projects that are 
funded, we have started work on 8 and have cancelled 1 project. 
Three await the formation of our Office of Emergency Planning 
and Chem-Bio Strike Force. The remaining are in support of 
future Architect of the Capitol projects.
    A major security project is the Senate Office Buildings 
Perimeter Security. The conceptual design has been completed 
that will put into place vehicle-rated barriers and provide 
increased standoff from a vehicle attack. We look forward to 
meeting with the committees to present these ideas.
    Mr. Chairman, as you can see, the U.S. Capitol Police is an 
agency which is once again in transition. The future of the 
department is contained in the U.S. Capitol Police strategic 
plan, which is currently being updated in view of changing 
priorities. Likewise, several recent security studies of the 
Capitol complex are being reviewed and condensed into one 
comprehensive plan.

                        DEDICATION OF PERSONNEL

    However, the most important asset of the United States 
Capitol Police is its personnel. We, the Capitol Police Board, 
would like to commend the men and women of the department for 
continually performing their duty in a diligent and 
professional manner. The past 7 months have been one of the 
most challenging periods in the department's history. In the 
face of increased terrorist threats and in spite of a 
bioterrorism attack, the personnel of the United States Capitol 
Police ensured that the national legislative process proceeded 
uninhibited. They took extraordinary measures, working 
additional duty hours for extended periods of time, to provide 
security and protection to the Congress, the congressional 
community, and visitors.
    I know that I speak for all my colleagues when I say that 
we are proud to be associated with such a fine group of men and 
women, and we thank them for their service, dedication, and 
patriotism.
    We look forward to working with you to ensure the Capitol 
Police receive the funding and support required to meet their 
mission. A detailed budget of the U.S. Capitol Police has been 
submitted to the committee. We will be happy to answer any 
questions that you may have.
    [The statement follows:]
                 Prepared Statement of Wilson Livingood
    Mr. Chairman and members of the Committee, we are pleased to appear 
before you today to present the fiscal year 2003 Budget Estimate for 
the United States Capitol Police.
    I would like to formally introduce Acting Chief Robert R. Howe. 
Chief Howe is serving as interim chief until the Board completes the 
selection process to name a new Chief of Police. Chief Howe's thirty-
one years of experience with the United States Capitol Police have been 
invaluable.
    Mr. Chairman, the events of September 11th and the subsequent 
anthrax attack on October 15th had a profound effect on security within 
the Capitol Complex.
    In the past, we have testified before this and other committees 
regarding the terrorist threat we face on a daily basis. The attacks 
that occurred last fall have only deepened our concerns. Regrettably, 
it is no longer a question of if a terrorist incident will again occur 
on U.S. soil, it is now a question of when and where. It is for this 
reason that the U.S. Capitol Police must continue to receive the 
funding required to ensure its continued viability to serve and protect 
the people of the Capitol Complex and to safeguard the institution of 
the Congress.
    The budget submission for the U.S. Capitol Police for fiscal year 
2003 is $220,405,000, which is a forty percent increase over the fiscal 
year 2002 base amount. Of the total request, $192,305,000 is for 
salaries and $28,100,000 is for general expenses.
    Mr. Chairman, we have identified two areas within the budget which 
are critical to the Department in meeting its mission and achieving 
organizational goals: staffing and police facilities. These issues are 
inter-related. The annual budget for the U.S. Capitol Police is 
primarily driven by the staffing level required to provide Congress, 
the public, and the buildings with a requisite level of security and 
protection in an open, threat potential environment. In the fiscal year 
2001 budget cycle, the U.S. Capitol Police Board began a major staffing 
initiative that will increase the number of FTEs to a level 
commensurate with the mission of the Department. Over the course of the 
next three years, we will incrementally increase FTEs until the revised 
optimum number of 1,981 FTEs is achieved. We are requesting funding for 
1,810 FTEs in the fiscal year 2003 budget.
    With regard to police facilities, I am pleased to report that, with 
the committee's support, we have recently moved our vehicle maintenance 
operation to 67 K Street, SW. This facility is modern, well-equipped, 
and provides a safe work environment for our personnel. Likewise, 
steady progress is being made to open a new U.S. Capitol Police 
training facility at the Federal Law Enforcement Training Center in 
Cheltenham, Maryland. I would like to thank the Committee for your 
support of these projects.
    There are, however, several police facility issues which must be 
addressed. As we add more officers to the Department during the 
staffing initiative, the space requirements in the Capitol and the 
House and Senate Office Buildings will exceed our current allocations. 
Likewise, the Eney, Chestnut, Gibson Building, which serves as police 
headquarters, can no longer support the growing administrative and 
operational functions of the Department. In addition, as we learned 
during the September 11th incident response, and the response, 
management, and mitigation of the anthrax attack, it is imperative that 
the police obtain a state-of-the-art command and control facility.
    These factors, combined with health and safety concerns on certain 
assigned space, have compelled the Architect of the Capitol to hire a 
consultant to update the Capitol Police Facilities Master Plan to 
determine the comprehensive facilities needs of the U.S. Capitol 
Police. Working with the Board, the Architect, and the police Command 
Staff, the consultant will determine the space requirements for the 
Department and locate properties in the vicinity which may be obtained 
to co-locate police operational and administrative services. The issue 
of facilities is imperative to the successful performance of the 
Department's law enforcement, security, and protective mission. 
Therefore, the consultant's report will be submitted to the Committees 
of jurisdiction for review and approval of funding requests.
    The Board received $110,750,000 from the Legislative Branch 
Emergency Response Fund. For the 21 projects that are funded, we have 
started work on eight and have canceled one project. Three await the 
formation of our Office of Emergency Planning and Chem/Bio Strike 
Force. The remaining are in support of future Architect of the Capitol 
projects.
    A major security project is the Senate Office Buildings Perimeter 
Security. The conceptual design has been completed that will put into 
place vehicle rated barriers and provide increased standoff from a 
vehicle attack. We look forward to meeting with the Committees to 
present these ideas.
    Mr. Chairman, as you can see, the United States Capitol Police is 
an agency which is once again in transition. The future of the 
Department is contained in the USCP Strategic Plan which is currently 
being updated in view of changing priorities. Likewise, several recent 
security studies of the Capitol Complex are being reviewed and 
condensed into one comprehensive plan.
    However, the most important asset of the United States Capitol 
Police is its personnel. I would like to commend the men and women of 
the Department for continually performing their duty in a diligent and 
professional manner. The past six months have been one of the most 
challenging periods in the Department's history. In the face of 
increased terrorist threats and in spite of a bio-terrorism attack, the 
personnel of the United States Capitol Police ensured that the national 
legislative process proceeded unhindered. They took extraordinary 
measures, working additional duty hours for extended periods of time to 
provide security and protection to the Congress, the Congressional 
community, and visitors. I know that I speak for my colleagues when I 
say that we are proud to be associated with such a fine group of men 
and women and we thank them for their service, dedication, and 
patriotism.
    We look forward to working with you to ensure the police receive 
the funding and support required to meet their mission. A detailed 
budget for the U.S. Capitol Police has been submitted to the Committee. 
We will be happy to answer any questions that you may have.

    Senator Durbin. Thank you very much. Thank you for joining 
us here today.

                STATEMENT OF ACTING CHIEF ROBERT R. HOWE

    Chief Howe, if you would like to make a statement at this 
time. Your entire written statement will be made part of the 
record, and if you would like to summarize we would appreciate 
it.
    Chief Howe. Thank you very much, Mr. Chairman, Senator 
Bennett. Thank you especially for those most generous remarks. 
I will ensure that those are passed along to the men and women 
of the force and I am sure they will appreciate them as well.
    I am pleased to appear before you today to present the 
fiscal year 2003 budget request for the United States Capitol 
Police. As you said, the bulk of my statement has been 
submitted for the record, so I would like to abbreviate my 
remarks.

                           POLICE PRIORITIES

    We have made it a priority to improve the capabilities of 
the U.S. Capitol Police to deter, detect, and respond, contain 
and mitigate threats ranging from a single armed individual to 
an organized terrorist attack. Overall, the department's 
capabilities are based on four primary factors: adequate 
staffing, adequate training, adequate facilities, and adequate 
funding.
    It is clear that, given the responsibilities of the United 
States Capitol Police, it has been understaffed for a number of 
years, given the physical environment of the Capitol complex 
and the multitude of duties needed to fulfill our mission. In 
fiscal year 2001, with your support, we began an initiative to 
incrementally increase the number of officers each year until 
we have reached an optimum number of FTEs which is commensurate 
with our mission. In view of recent events, we have updated 
that optimum number to a total of 1,981, which we plan to reach 
by the year 2004. This FTE level will allow us to staff each 
access point with a minimum of two officers, staff all other 
police posts, and provide civilian technical and administrative 
support.

                    STAFF RECRUITMENT AND RETENTION

    As you can see, the annual budget for the department is 
primarily driven by required staffing levels. The majority of 
the requested increase can be attributed to salaries and 
associated personnel costs. The fiscal year 2003 request for 
1,810 FTEs is based on our ability to recruit, hire, and retain 
and train additional personnel. It should be noted that we are 
losing officers to other law enforcement agencies at an 
increasing rate. Likewise, we are competing against those same 
agencies to attract qualified personnel to increase the 
staffing level and overcome attrition.
    The pay adjustment and recruiting and retention incentives 
you approved last year will help stem the tide. I am confident 
that the pay adjustment included in the fiscal year 2003 budget 
request will allow us to continue to remain competitive with 
other law enforcement agencies regarding recruitment and 
retention of personnel.

                                TRAINING

    The capability of any organization is dependent upon the 
level of training, knowledge, and skill of its personnel. That 
is why I have made training a priority issue in the fiscal year 
2003 budget request. We must provide our personnel with high 
quality training in a myriad of operational, administrative, 
and management functions. Our employees must receive intensive, 
realistic, and demanding training that supports our mission. We 
must take steps to train our officers and civilians so that 
they are capable of performing their duty at peak 
effectiveness.
    The funds requested will allow us to implement a robust 
training program for all of our personnel. Funding is also 
included which will allow our personnel to complete continuing 
education and certification programs which enable them to 
maintain mandatory certification requirements.
    I would like to thank the committee for your support in 
enabling us to move the training bureau to the Federal Law 
Enforcement Training Center in Cheltenham, Maryland. This 
facility represents a significant step in the professional 
development of the department and will have a long-lasting 
positive effect on our ability to train our personnel.

                              SPACE NEEDS

    While the issue of training facilities has been resolved, 
we still have concern regarding other police facilities and 
space for police use. As we increase the number of FTEs, we 
will require increased space for lockers and equipment storage, 
rollcall rooms, and administrative operations. Moreover, recent 
events have underscored the need for a secure command and 
control facility for the Capitol Police to manage emergency 
situations and monitor special events. Clearly, we have already 
maximized the space that is available to us. In some cases, 
assigned space presents health and safety concerns for our 
personnel. A revision of the 1999 USCP master plan is currently 
underway to address these and other issues.

                          CHEM-BIO STRIKE TEAM

    With regard to improving our current ability to respond to 
chem-bio incidents, we have made significant progress in 
defining the mission, function, and organization of the Office 
of Emergency Management and the Chem-Bio Strike Team.
    While a significant amount of attention has been given to 
the emergency situations we handled last year, we also continue 
to provide routine law enforcement, security, and protective 
services to the United States Congress, its staff and visitors. 
I have included in my written testimony the crime statistics 
for fiscal 2001. These statistics are indicative of the threat 
management and law enforcement responsibilities we carry on on 
a daily basis.

                           STAFF RECOGNITION

    I am very proud of the level of service, sacrifice, and 
dedication displayed by the men and women of the department 
over the course of the last year. Under extremely difficult 
circumstances, they once again answered the call of duty and 
took extraordinary effort to protect and serve our community. 
They do this day in and day out with the knowledge that 
protecting the Congress, the staff and visitors in these 
buildings against those who wish to commit acts of violence is 
in the interest of the Nation.
    I would also like to express my appreciation for the 
support and acts of kindness of the Senate and House staff that 
they demonstrated to our personnel during the September and 
October incidents. Many offices provided food and refreshments 
to our officers who were working extended duty hours, even 
through the holidays. Others wrote letters or simply said thank 
you as they passed an officer standing on post. Those acts of 
kindness and recognition are what bind us to our community and 
we thank them for their display of concern and support.
    In closing, I would like to again thank the committee for 
the support you have provided to the Capitol Police over the 
past year. There are many challenges that still lie before us. 
We all shoulder the responsibility to ensure the safety and 
security of all those who work and visit within these symbolic 
and historic buildings. Clearly, the ability of the Congress to 
fulfill its constitutional responsibility is directly linked to 
the ability of the Capitol Police to meet its mission.
    This budget request is integral to ensuring continued 
development and operational readiness of the department. With 
the continuing support of this committee and the Congress, we 
can ensure the United States Capitol Police remain strong and 
up to the challenge.
    Thank you, Mr. Chairman.
    [The statement follows:]
                  Prepared Statement of Robert R. Howe
    Mr. Chairman and members of the Committee, I am pleased to appear 
before you today to present the fiscal year 2003 Budget Request for the 
United States Capitol Police.
    As Mr. Livingood stated, the events of September 11th and October 
15th have increased the challenges the Department faces. However, it is 
important that the Congressional community and the American people 
understand that our mission, and our commitment to accomplishing our 
mission, remains steadfast. We will continue to take measures to 
provide a safe and secure environment which enables Congress to fulfill 
its Constitutional responsibilities and protects all those who work and 
visit the Capitol Complex.
    We have made it a priority to improve the capabilities of the U.S. 
Capitol Police to deter, detect, respond to, contain, and mitigate 
threats ranging from a single armed individual to an organized 
terrorist attack. Overall, the Department's capabilities are based on 
four primary factors: adequate staffing, adequate training, adequate 
facilities, and adequate funding.
    It is clear that, given our responsibilities, the U.S. Capitol 
Police has been understaffed for a number of years given the physical 
environment of the Capitol Complex and the multitude of duties required 
to fulfill our mission. In fiscal year 2001, with your support, we 
began an initiative to incrementally increase the number of officers 
each year until we have reached an optimum number of FTEs which is 
commensurate with our mission. In view of recent events, we have 
updated that optimum number to 1,981, which we plan to reach by fiscal 
year 2004. This FTE level will allow us to staff each access point with 
a minimum of two officers, staff all other police posts, and provide 
civilian technical and administrative support.
    As you can see, the annual budget for the Department is primarily 
driven by required staffing levels. The majority of the requested 
increase can be attributed to salaries and associated personnel costs. 
The fiscal year 2003 request for 1,810 FTEs is based on our ability to 
recruit, hire, and train additional personnel. It should be noted that 
we are losing officers to other law enforcement agencies at an 
increasing rate. Likewise, we are competing against those same agencies 
to attract qualified personnel to increase the staffing level and 
overcome attrition. The pay adjustment and recruiting and retention 
incentives you approved last year will help stem the tide. I am 
confident that the pay adjustment included in the fiscal year 2003 
budget request will allow us to continue to remain competitive with 
other law enforcement agencies regarding recruitment and retention of 
personnel.
    The capability of any organization is dependent upon the level of 
training, knowledge, and skills of its personnel. That is why I have 
made training a priority issue in the fiscal year 2003 Budget Request. 
We must provide our personnel with high-quality training in a myriad of 
operational, administrative, and management functions. Our employees 
must receive intensive, realistic, and demanding training that supports 
our mission. We must take steps to train our officers and civilians so 
they are capable of performing their duties at peak effectiveness. The 
funds requested will allow us to implement a robust training program 
for all of our personnel. Funding is also included which will allow our 
personnel to complete continuing education and certification programs 
which enable them to maintain mandatory certification requirements.
    I would like to thank the Committee for your support in enabling us 
to move the Training Bureau to the Federal Law Enforcement Training 
Center in Cheltenham, Maryland. This facility represents a significant 
step forward in the professional development of the Department and will 
have a long-lasting positive impact on our ability to provide training 
to our personnel.
    While the issue of training facilities has been resolved, we still 
have a concern regarding other police facilities and space assigned for 
police use. As we increase the number of FTEs, we will require 
increased space for lockers, equipment storage, roll call rooms, and 
administrative operations. Moreover, recent events have underscored the 
need for a secure command and control facility for the U.S. Capitol 
Police to manage emergency situations and monitor special events. 
Clearly, we have already maximized the space that is currently 
available to us. In some cases, assigned space presents health and 
safety concerns for our personnel. A revision of the 1999 USCP Master 
Plan is currently underway to address these and other issues.
    With regard to improving our current ability to respond to chem-bio 
incidents, we have made significant progress in defining the mission, 
function, and organization of the Office of Emergency Management and 
the Chem/Bio Strike Team.
    While a significant amount of attention has been given to the 
emergency situations we handled last year, we also continued to provide 
routine law enforcement, security, and protective services to the 
United States Congress, its staff, and visitors. The following are 
crime and operational statistics for fiscal year 2001:
  --3 assaults occurred in our jurisdiction; 127 in Extended 
        Jurisdiction Zone (EJZ)
  --8 robberies occurred in our jurisdiction; 198 in the EJZ
  --4 burglaries occurred in our jurisdiction; 189 in the EJZ
  --5 autos were stolen in our jurisdiction; 222 from the EJZ
  --125 thefts occurred in our jurisdiction, 1,048 occurred in the EJZ.
    In fiscal year 2001, the United States Capitol Police made 985 
arrests; 576 for traffic offenses, 293 for misdemeanors, and 116 for 
felony offenses. We also recovered 61 weapons within the Capitol 
Complex. Attachments A and B provide depictions of the specific areas 
where we have responded to specific crimes, on the Capitol Hill 
Complex, against both persons and property.
    Also during fiscal year 2001, the U.S. Capitol Police:
  --Provided 1,070 protective escorts for visiting dignitaries.
  --Conducted 135 security and protective operations for visiting heads 
        of state.
  --Provided police services for 606 special events, including 275 
        demonstrations.
  --Conducted 35,744 K-9 explosives searches.
  --Conducted 300 protective operations for Members of Congress and 
        Congressional delegations.
  --Handled 1,557 threat assessment cases against members of Congress.
  --Conducted 1,342 bomb searches and responded to 251 suspected 
        explosive devices or suspected hazardous substances.
    These statistics are indicative of the threat management and law 
enforcement responsibilities we carry on a daily basis.
    I am very proud of the level of service, sacrifice, and dedication 
displayed by the men and women of the Department over the course of 
last year. Under extremely difficult circumstances, they once again 
answered the call of duty and took extraordinary efforts to protect and 
serve our community. They do this day in and day out with the knowledge 
that protecting Congress, its staff, visitors and these buildings 
against those who wish to commit acts of violence is in the interest of 
the nation.
    I would also like to express my appreciation for the support and 
acts of kindness the staff gave our personnel during the September and 
October incidents. Many offices provided food and refreshments to our 
officers who were working extended duty hours, even through the 
holidays. Others wrote letters or simply said ``thank you'' as they 
passed our officers standing post. Those acts of kindness and 
recognition are what bind us to the community we serve and we thank 
them for their display of support.
    In closing, I would like to again thank the Committee for the 
support you have provided to the United States Capitol Police over the 
past year. There are many challenges that still lay before us. We all 
shoulder the responsibility to ensure the safety and security of all 
those who work and visit within these symbolic and historic buildings. 
Clearly, the ability of Congress to fulfill its Constitutional 
responsibility is directly linked to the ability of the United States 
Capitol Police to meet its mission. This budget request is integral to 
ensuring the continued development and operational readiness of the 
Department. With the continuing support of this Committee and the 
Congress, we can ensure the United States Capitol Police remains strong 
and up to the challenge.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   OFFICER RECRUITMENT AND RETENTION

    Senator Durbin. Thank you much, Chief Howe.
    Let us go to the numbers here and I want to hear your 
response to what I consider to be a major challenge that we 
face. Let us start with the premise that 1,981 FTEs by the year 
2004 is the right number. We can argue about that a few here, 
there, or the other place, but if we want to reach a point 
where the men and women working here have a normal life to 
lead, I think we understand that we need to have substantially 
more people on the job.
    Now, because the attrition rate, those who have left the 
Capitol Hill Police over the last year, has been higher than 
normal, that becomes an even greater challenge. The normal 
attrition rate I understand is about 10 percent of the force. 
We have lost about 18 percent in the last few months. It is 
understandable. There is extreme hardship that is being placed 
on individuals and some cannot continue meeting their family 
responsibilities and other needs, and they have made that 
decision to try something else.
    Now let us take another factor into consideration here. Our 
goal then over the next 2\1/2\ years is to find 800 new 
qualified members for the force to fill the new slots and those 
that we lose by attrition. We also know that only 1 out of 
every 10 applicants to become Capitol Hill Police is 
successful. According to the information we have, about 30 
percent do not pass the test, another 14 percent decline to 
continue with the process after they are told what is involved, 
about 36 percent are eliminated by background, either by 
physical, psychological, polygraph, or criminal background 
test, and then 10 percent decline.
    So ultimately, it means that for every officer, our 
experience has been that we have to have 10 applicants. I hope 
that changes, but let us assume it does not. As I understand it 
then, it means in the next 2\1/2\ years we need 8,000 
applicants for U.S. Capitol Police posts to net 800 officers at 
the end of this process.
    That is an extraordinary challenge for us to face. It has 
been tough for the Capitol Police to fill 48 slots a year and 
now we are talking about filling 800 slots over 2\1/2\ years. 
How are we going to do this?
    Chief Howe. One of the biggest challenges we face right at 
this point is the hiring and retention of individuals qualified 
to carry out the responsibilities of a Capitol Police officer. 
We are competing with Federal, State, and local law enforcement 
agencies throughout the country who are rapidly recruiting 
officers, some of ours in fact. But even with those challenges, 
we remain cautiously optimistic that we are going to be able to 
meet our recruiting goals.
    So far in fiscal year 2002, actually since January, we have 
been able to hire officers as programmed. We need a net hire 
this year of 218 officers and an increase of 171 officers in 
fiscal year 2003. We have established a very aggressive 
recruiting program. Our recruiters are going out to job fairs 
in multiple States to attempt to attract officers. We have had 
4,000 people fill out the initial application so far and of 
that we have gotten 1,800 people into the process.
    Now, some of those are going to fall out along the way, as 
you mentioned. We anticipate to hire 1 in 10 of those 1,800 
people.
    Senator Durbin. Chief, when you say that you have 
competition for men and women, what do you think is the 
attraction of other service compared to the Capitol Police 
force?
    Chief Howe. There are a number of individuals who come to 
work here, Senator, who use this as a training bed to make 
themselves more attractive to, what we call in the business, 
1811s. That is, Federal criminal investigators. An opportunity 
to become a criminal investigator with the Capitol Police is 
very limited because our criminal investigation staff is very, 
very small, and some people have these as their career goals, 
and we are going to lose these people anyway.
    In almost every year, there is one organization or another 
who is trying to hire large numbers. In this particular year it 
happens to be the sky marshals. I agree with Senator Bennett, I 
do not see the attraction to this employment except maybe large 
sums of money.
    But we have expanded our recruiting effort. We have added 
additional people. We have done an incredible amount of 
advertising. We have been very successful in getting 
applications in, and we have hope that we can meet our hiring 
goals.

                          MINORITY RECRUITMENT

    Senator Durbin. Minority recruitment for the Capitol 
Police, what type of effort is being made to focus on that?
    Chief Howe. We have targeted job fairs at predominantly 
African-American colleges and places of that nature to ensure 
that our minority recruitment goals remain high. The United 
States Capitol Police is the second largest employer of 
African-Americans among Federal law enforcement agencies and we 
are just slightly behind the Federal Protective Service in that 
regard. So we have a history of doing well in that particular 
arena, and we intend to maintain the standard that we have set 
in the past.
    Senator Durbin. Thank you very much.
    Senator Bennett.

                               FACILITIES

    Senator Bennett. Thank you, Mr. Chairman.
    I want to talk about facilities because a large portion of 
your budget deals with new facilities. Mr. Livingood told us 
that the present buildings simply do not house what you need 
and certainly will not house what you are looking at as you 
make these additional hires.
    Could you describe for us the additional space requirements 
that you have, and prioritize these requirements? What are 
they? I used to work with a company that talked about vital, 
important, and nice to have. I would recommend those categories 
to you. Tell us what is vital in terms of space and what is 
important in terms of space, and then the nice to haves, so 
that if we do find we have to cut back a little on the funding, 
we are cutting back on the nice to haves rather than the 
vitals.
    I understand there is examination of the old Washington 
Post building as one possibility, but that you probably would 
not fill it up, which would mean that other people would have 
to lease there. Just spend a little time in this whole area 
with me.
    Chief Howe. I'd be happy to, Senator. As Mr. Livingood 
mentioned in his opening statement, we are engaged in updating 
our facilities master plan in cooperation with the Board, the 
Architect of the Capitol, and an outside contractor. I think 
the prime driver for space in the organization at this point is 
facilities to house and support the additional officers we 
intend to hire.
    The second critical issue is a command and control 
facility. Currently our present command and control structure 
is fragmented. Half of it is in one place and half of it is in 
another place. We need to unify those in one single facility, 
and space is needed for that.
    The study that is ongoing right now has identified two 
primary concepts for housing the department. One of them is a 
consolidated concept where everything would be housed in one 
facility. The other is a dispersed concept where we would put 
portions of the department in one facility and portions of the 
department in another facility. Each of those operational 
concepts has two sub-options for housing the department.
    The department is currently looking at its own operational 
requirements in the context of the concepts that the contractor 
has provided, and we will submit those to the Board very soon. 
The due date for that plan is June 6, 2002. Our operational 
requirements will be incorporated into the plan when it is 
submitted to the Board for its final review.
    Senator Bennett. Let me understand. The assumption of the 
consolidated says it is easier to have everything together; the 
assumption of dispersion, we are less of a target?
    Chief Howe. That is correct, Senator. You are right on the 
money.
    Senator Bennett. You have not yet made a decision as to 
which of those you favor?
    Chief Howe. We have to evaluate our operational 
requirements against those two options and look at the real 
estate opportunities and other factors that will drive this 
thing. Without trying to get too far out in front of the 
planning process, the dispersed option is attractive to us, but 
we have to weigh our operational requirements against that 
particular option and see what is available and see what will 
work.
    Senator Bennett. Well, you are making a decision that will 
have a very long-lasting impact, so I hope you are thinking not 
in terms of this is what would work really well right now, but 
in terms of what makes the most long-term sense for the next 5, 
10, 15 years as to how the Capitol Police will operate.

                           OLYMPICS SECURITY

    I just have one other observation. Having just come out of 
the Olympics, your comments about how attractive a target the 
Capitol Building is--there was actually some consideration 
given to cancelling the Olympics because of how attractive a 
target it would be. Terrorists would love to have 3.8 billion 
people watching on television while they achieved their goal of 
blowing something up.
    As I stood in the command post with the various agencies 
involved in security for the Olympics, they said to me: 
Senator, this is boring; absolutely nothing is going on. In the 
security business, boring is good. The gentleman who headed 
that said: We believe that the Olympics have been scoped out by 
potential terrorist groups, who have now said to their members: 
Do not bother; they are ready for us.
    Part of the security came from an advertisement of that 
fact, that we made it very clear and very public where we were. 
Indeed, there was one activist group that had targeted a 
particular event in the Olympics, not a terrorist group--I want 
to make that differentiation, but they were an activist group 
that was very upset with a particular part of the Olympics and 
had announced that they were going to disrupt it. They were not 
going to blow it up, they were not going to kill anybody, but 
they were going to demonstrate and disrupt it.
    In the week before the Olympics, they put on their web site 
to all of their members: Do not bother to go to Salt Lake City. 
Again, they are ready for us and they are so well organized and 
so prepared that you would just be wasting your time.
    There were, I think, four people arrested the night of the 
opening ceremonies, all four of whom showed up wanting to be 
arrested. And the dialogue went something like this: You are 
doing something that is improper. Yes, we know. If you continue 
doing it, we will have to arrest you. Yes, we know; we are 
going to continue. All right, I now arrest you. Thank you. And 
it was taken care of very quickly. They made their political 
statement by getting themselves arrested and there was no 
disruption whatsoever of the opening ceremonies or the 
transportation to and from the opening ceremonies.
    I share that with you because I think sometimes in our 
desire to keep all of our security activity confidential and 
classified, which clearly is a logical thing to do, we 
sometimes overlook the potential of making the overall impact 
of our classified actions public. The statistic I quoted on the 
Senate floor: In the Atlanta Olympics they had an average of 
200 bomb scares a day, which they were constantly running down 
to determine whether they were legitimate or not, and of course 
one of them turned out to be very real and the perpetrator 
still has not been apprehended. In the Salt Lake City Olympics, 
there were less than 100 for the entire 17 days of the 
Olympics. People just knew, they are ready for us. And even the 
hoaxes did not occur.
    So as you make your long-term plans and look at this 
question of dispersion and how visible it might be in terms of 
projecting preparedness, I think the Olympics experience is one 
that could be very helpful and I share that with you.

                               VISIBILITY

    Chief Howe. Thank you very much, Senator. Visibility plays 
a big role in what we do in terms of providing security. As 
everyone knows, there are no fences around the Capitol. There 
is an utter absence of physical barriers, to attacks on the 
building. It is one of the principal drivers of the number of 
people that we need in order to effectively secure the place 
while maintaining an open environment without fences.
    So visibility plays a very important part in what we do. If 
we are visible and we appear to be ready for any event, it 
helps protect the place.
    Senator Bennett. I recognize that very much in terms of 
visibility of the officers, but suggest that you take it into 
consideration, as you look at this question of dispersion, that 
you might have visibility of facilities also as part of the 
consideration. Having everybody in a single place may make for 
a more efficient operation, but also, frankly, may make a real 
attractive target for somebody coming along.
    But you are the experts. I simply share that experience 
with you from the Olympics experience, which we found very, 
very useful and very expensive. So we recognize the need for 
the budget that you have asked for.
    Senator Durbin. Senator Reed.

                          MILITARY RECRUITMENT

    Senator Reed. Thank you very much, Mr. Chairman.
    As I did with General Lenhardt, let me commend all of you 
for your extraordinary service. It is good to see Bill 
Livingood again from my previous experience on the Hill. Chief, 
if you can commend individually or collectively all your men 
and women, they do a great job every day for us and thank you 
very much.
    Just let me follow up on this issue of recruiting. This is 
an obvious question, Chief, since you are sitting next to 
General Lenhardt. Have you been actively recruiting from the 
military?
    Chief Howe. Yes, sir. Actually, that is one of our primary 
sources. The military runs a great number of job fairs for 
departing personnel, as well as placement programs. We have 
linked up with the military and we are very actively hunting 
for those people who are exiting out of the military and 
looking for employment.

                  RECRUITMENT AND RETENTION INCENTIVES

    Senator Reed. We all understand that one of the great 
incentives to do any type of work is what you get paid, but 
there is a certain limit about how much you can pay, which 
forces you to consider other aspects for recruitment and 
retention and traditional quality of life issues. Have you 
developed, if not a formal plan, an appreciation of what things 
you have to do within the force to make it more appealing in a 
non-monetary way? And can you share some thoughts?
    Chief Howe. We have, Senator. We have a much-improved 
benefits package, thanks to the committee. We will have tuition 
reimbursement coming on line very soon as well as recruiting 
incentives and retention incentives. We are looking very 
aggressively at a rotation policy among our personnel so that 
senior officers do not lock down the good jobs and we can 
retain the younger officers, which are the ones that we have a 
tendency to lose. The training program has targeted these 
activities as well.
    Senator Reed. Bill or General Lenhardt, any comments about 
this issue?
    Mr. Lenhardt. Thank you, Senator. I do have a few things. I 
think returning to as normal a shift rotation as we can will 
improve morale. Training is certainly key to that as well, 
because the professional image of the department goes a long 
way to saying to folks, this is the place you want to be. This 
will attract potential candidates to the U.S. Capitol Police.
    I think the department is doing a great deal to think about 
how it reinvents itself, how it gets ready for the 21st 
century. The pay increase that the committee approved certainly 
was part of ensuring the effective recruitment and retention of 
officers and it went a long way to boosting morale as well. It 
caused the U.S. Capitol Police to be in a position where other 
departments are following our example. That was very 
beneficial. I still hear from officers about the benefits of 
the recent pay raise.
    In addition to that, in terms of just thinking about how do 
we expand the recruiting area; we now can reach out to other 
States--Pennsylvania, New Jersey, New York. So that, too, in 
terms of the population we can draw from, is being worked very 
diligently by the enhanced recruiting effort that is underway 
that Chief Howe certainly was instrumental in making all of 
this possible.
    All of that is very beneficial. And in terms of whether or 
not we can get to this large number of potential applicants to 
draw from, I think we are going to go a long way to doing that. 
I think at some point in time we are going to be in such a good 
position that we will challenge the Federal law enforcement 
training people to come up with more allocations for us, in 
order to train the numbers of officers that we will be able to 
supply.
    I have a beneficial prediction of success for the 
department's recruiting efforts. As you know, my background was 
in recruiting, recruiting for the U.S. Army, and the things 
that I see in the department go a long way to addressing many 
of the ills we saw in the Army that eventually we overcame, 
resulting in a well-ordered recruiting effort.
    Senator Reed. Thank you, sir.
    Mr. Livingood. I would just like to say I think we are on 
the right track, as Al said, and we are moving ahead in 
recruitment. I think we have done very well considering the 
competition. We are always going to have that competition, but 
it has gotten a lot more, a lot of increase in the last 4 
months. The training, too, is something we have been trying to 
do for I guess 6 or 7 years now. The department and Jim Varey, 
the former Chief, started an initiative and now we have a 
training facility, thanks to you, at Cheltenham. I think that 
is going to make a big difference in morale and readiness both.
    I agree with everything else that Al said. I think one 
other thing that maybe we can look at would be other possible 
pay initiatives somewhere down the line here. That would be 
possibly additional pay if you stay x years and it builds up 
each year you stay and you get a lump sum payment, or something 
like that. I was just thinking about that the other day and I 
was going to explore that possibility, something to give them 
over and above other people's benefits.

                             NATIONAL GUARD

    Senator Reed. Thank you very much.
    Just one final question. The National Guard came in here to 
assist the Capitol Police and now have left. Can you give us a 
quick evaluation of their participation? The presumption is 
that you still have an ongoing relationship with the Guard as a 
major contingency force to call in. If you could elaborate on 
that, whoever wants to do that. Chief?
    Chief Howe. Certainly, Senator. I cannot say enough about 
the Guard. The Guard came in, they were all volunteers. They 
left their families in many cases, showed up, worked shoulder 
to shoulder with us through the middle of winter in dismal 
weather, stood side by side with our officers, and did an 
incredible job. I cannot tell you how much we appreciate the 
work that the Guard did.
    We do have a continuing relationship with the D.C. National 
Guard and I think, if the circumstances warranted it, they 
would be happy to come back again.
    Senator Reed. Just a final point, Mr. Chairman. I do not 
think--and correct me if I am wrong--that we have done enough 
formally to thank the Guard for their participation in an 
official way. Have we done that?
    Mr. Lenhardt. I can speak to that. Through the commander, 
General Freeman, we submitted a recommendation that the Guard's 
unit be cited for a superior unit award, which, as you know, in 
the military is quite a plum. The paperwork is underway and I 
am monitoring closely to make sure that it goes through the 
various wickets in the Department of Defense and the National 
Guard Bureau.
    I think also there was a resolution passed as well that 
recognized the Guard and their participation----
    Senator Reed. Yes.
    Mr. Lenhardt [continuing]. As well as a number of other 
certificates and letters of appreciation that were extended to 
the various individual members of the Guard. We also had a 
ceremony----
    Senator Reed. A going-away ceremony.
    Mr. Lenhardt [continuing]. Yes, a send-off for them, as 
they departed. So I think the relationship is a very solid one 
and we have those established connectivities now between the 
Capitol Police and the Guard that will last us well into the 
future.
    Senator Reed. Thank you very much, General.
    Bill?
    Mr. Livingood. Comments I heard from the Guard--and this 
was not one; this was probably about 90 percent--was: We really 
enjoyed being here, wish we were staying. That is the way to 
leave, with your head high like that.
    Senator Reed. Thank you.
    Mr. Livingood. They were outstanding and we thank you for 
allowing us to bring them in.
    Senator Reed. Thank you.
    Senator Durbin. Senator Reed, my understanding is that the 
resolution was a House resolution. If you would like to 
initiate a Senate resolution, Senator Bennett and I would be 
happy to join you.
    Senator Reed. Mr. Chairman, I think you should initiate and 
I will join you.

                           PREMIUM PAY ISSUE

    Senator Durbin. Great. I will be glad to do that.
    A few weeks ago I read in the paper about this premium pay 
issue and it kind of bothered me, because the story was that 
the Capitol Police men and women who were working were being 
paid for overtime, but there was a limitation to how much they 
could get paid for premium pay, that is for Sundays and 
holidays, and it had something to do with a statute and a 
limitation based on someone else's salary.
    Do we need to change the law or have you found a way to 
work this out so that the people who actually work are 
compensated for the time they have worked?
    Chief Howe. Mr. Chairman, there is draft legislation before 
the authorizing committees to change that regulation and lift 
the cap to provide for times of emergency. The executive branch 
had a similar problem and a similar provision was adopted to 
allow the lifting of the cap during times of emergency. We now 
have pending a provision to reimburse people back to September 
11th for any money they might have lost.
    I think the aggregate amount is somewhere in the 
neighborhood of $400,000, which we intend to find a way to 
absorb in our budget.

                         FACILITIES MASTER PLAN

    Senator Durbin. That is fine. Glad that is happening, 
because a lot of us were prepared, if necessary, to change the 
law. Whatever we need to do, they should be compensated for 
time actually worked, period. There should not be any 
artificial limitation on that, because they were performing 
above and beyond the call of duty.
    Let me address for a moment here the whole question about 
buildings. Senator Bennett has already raised this. I will tell 
you that I come to this with some concern. There was a force at 
work, and I do not know where it started, during the last 
appropriation discussion to move through in short order, 
without much debate, this Washington Post facility on Virginia 
Avenue. It came from the House side, but I do not know if that 
is where it started, whether it was from some of the people who 
are here today or from some other source, to move this building 
through quickly.
    I tried to send the message to them that I was not going to 
let that happen. I think that is a serious mistake. Like I have 
said to others who have appeared at this table--and I think my 
colleagues agree--we should think this through before we turn 
around and build or buy a building in terms of what we need for 
the long term.
    The idea of taking this Washington Post building and buying 
it for $50 to $75 million and then putting another $50 to $75 
million in it is a major commitment. It is also a major 
decision about the future of the Capitol Police command.
    Now, Mr. Hantman, your office was involved in the 1999 
master facilities plan for the U.S. Capitol Police, is that 
correct?
    Mr. Hantman. That is correct.

                       CURRENT SPACE REQUIREMENTS

    Senator Durbin. How does that 1999 plan compare with the 
current request? For example, on square footage I think the 
Capitol Police, today, have about 150,000 square feet of space 
available to them. What did the 1999 plan envision?
    Mr. Hantman. The 1999 plan, Mr. Chairman, talked about 
putting the General Services Administration-DOD type standards 
on the type of space that the police had at that point in time. 
The magnitude of the space requested at that point in time was 
314,000 square feet. Post-9/11, the type of issues that were 
discussed by the Chief earlier, the new command center, 
operational services bureau, all of those issues basically have 
created a delta because of the ramping up of staff as well as 
these new functions, of going from 314,000 square feet as a 
need to about 518,000 square feet. This is a change of some 
200,000 square feet from what had been envisioned in the 1999 
plan.
    Senator Durbin. Let me ask you about that, just that simple 
statistic. From 150,000 square feet that was envisioned in the 
1999 plan, we would move to double the space, slightly more. 
Now the suggestion is we would more than triple the space that 
is going to be used for the Capitol Police. What kind of 
analysis has gone into that? Has there been a similar study as 
there was in 1999 to justify that kind of square footage?
    Mr. Hantman. The analysis was based upon interviews with 
the Capitol Police and the Police Board and again using the 
type of standards that DOD and GSA have for similar functions. 
Each of the functions that the Capitol Police currently has in 
their 150,000 square feet is basically below what those 
standards call for. So even if we did not grow the force, which 
we are, as you mentioned earlier, there would be a need for 
additional space just to house it in an appropriate manner.
    Senator Durbin. I might concede, for those who do not know, 
that if you will go to some of the Capitol Police facilities 
now, you will see some very serious overcrowding. The men and 
women who work out of the Capitol Building, for example, I see 
them stacked up on top of one another with their rollcalls 
trying to do their job and do it effectively. Clearly, there is 
a need for a substantial change in the quantity and quality of 
space.
    I am not a manager. I am trying to look at this from the 
outside. When you have these dramatic deltas as you mentioned, 
Mr. Hantman, from doubling the space to more than tripling the 
space, many of us want to step back and say, now, slow down 
here; are we doing this in a fashion that we can justify? 
Because it will involve a pretty substantial investment. So I 
hope we can work with you in that regard.
    Let me just go to the point, though, of the Virginia Avenue 
building, because if this comes back again at us, the same 
message, I am going to deliver it for myself, and that is that 
I am going to resist any effort to have a windshield drive-by 
meeting with a realtor and the purchase of a major building 
without some thought as to whether or not this is the right 
thing to do. There are realtors anxious to sell buildings all 
over the place, but we ought to be purchasing what is good for 
the long-term needs of the Capitol Police.
    Has a decision been made by the Capitol Police Board on 
this one facility on Virginia Avenue in this appropriation 
process?
    Mr. Livingood. No, Mr. Chairman, it has not. We are looking 
at a list of about 8 to 10 buildings and, depending on the 
scenario that we go to, no one building sticks out or has been 
talked about at all in Board meetings.
    Senator Durbin. What process will you use and what 
timetable will you follow to reach that decision?
    Mr. Livingood. We intend to, hopefully by June 6th, when 
the master plan is due--to have a concept to present to the 
committee, either the dispersal from the one building or a 
combination, and be able to say these buildings fit into these 
concepts.

                           FUTURE FACILITIES

    Senator Durbin. In terms of the request for the next year's 
appropriation relative to that building, will that be included 
in your appropriations request?
    Mr. Hantman. The analysis has been done, Mr. Chairman, of 
the alternative sites that would be available for different 
scenarios around the Capitol Building and within a reasonable 
traveling distance, once again depending on the type of 
operational profile that the Chief talked about earlier.
    Mr. Livingood. I think one of the hardest things is we do 
not want to have all the police change in one location and we 
have to bus them or drive them to the Capitol or other 
locations. Hopefully, we will find nearby facilities or more 
space in the Capitol or other buildings. It looks like we are 
going to have to have buildings nearby, smaller places to 
change and hold rollcall. We are bursting at the seams today, 
sir.
    Senator Durbin. Maybe more than one building ultimately 
will serve.
    Mr. Livingood. Yes, sir.
    Senator Durbin. I can see that.
    Mr. Lenhardt. Which then supports the dispersal model as 
opposed to having a single structure.
    So I think, Senator, in terms of the Board's action, we are 
looking at that and trying to decide what is the best, along 
with the Chief, operational model to consider for housing the 
police force and specialized equipment.

                         CHEM-BIO STRIKE FORCE

    Senator Durbin. There has been a request in the budget for 
60 FTEs for a chem-bio ``strike team'', and we do not have any 
details on that proposal. What can you tell us today and when 
will you have a final proposal?
    Chief Howe. A final proposal will be coming by July 1. But 
in essence, the chem-bio strike team spun out of the October 
15th anthrax attack. We had a modest chemical-biological 
response team in place that were stretched to their capacity. 
We discovered in hindsight, if you will, that we could have 
done a much better job had we had the right resources and 
staff, had the right resources trained and prepared to respond 
to those incidents.
    I think it is a critical element of the overall security 
posture, given the advent of anthrax and the potential for 
chemical-biological incidents ranging from toxic industrial 
chemicals to anything else, that we have the capability to get 
on top of those immediately, because time is critical.
    Senator Durbin. Does it make sense to have our own 
dedicated strike team? It would seem that perhaps this could be 
a resource that would be shared by other law enforcement, 
either in the Federal Government or with the D.C. Police.
    Chief Howe. The resource actually is not there, Senator. 
The D.C. Fire Department is not prepared to respond. The only 
similar operation that we are aware of, at this point, is one 
dedicated to the White House that the Secret Service maintains.
    Senator Durbin. Has any thought been given to sharing this 
resource, both its expense as well as its availability in an 
emergency, with other law enforcement?
    Chief Howe. We have not had any formal discussions in that 
regard, but certainly that could be a consideration.
    Senator Durbin. Well, I do not question the need for it, 
but I think that it might be something like a bomb squad that 
comes in in a situation, a rare but very important situation, 
and is available to a number of different law enforcement 
agencies.
    Chief Howe. As part of the overall program, we do have an 
outreach to other assets, to include the Marine Corps' 
Chemical-Biological Incident Response Force and other elements. 
But competing priorities become a problem. Depending upon the 
breadth of the incident, other priorities may negate their 
ability to respond. So I think we have to be really prepared to 
do the best we can with our own internal assets.
    Mr. Lenhardt. Mr. Chairman, what we discovered during the 
anthrax incident and the response to it was that these 
specialized units were in fact occupied doing other duties. The 
request process was very tedious and time-consuming. So by the 
time we actually got the asset on board to do what we wanted 
them to do, it was delayed by as much as 1 week.
    To say that we would be able to tie into those assets on a 
regular basis, does not address the timely response needed for 
an incident here at the Capitol.
    The other thing we discovered during the anthrax incident 
was that there are not a lot of specialized units out there. So 
at a position--the Capitol Police--where we would be able to 
lend assistance to others, the rest of the community would also 
benefit. We would be a source of help in responding to the 
Capitol itself, and we would have cooperative arrangements with 
other departments to assist them as well.
    That was one of the experiences that led to our thinking 
about how we develop our own capability. Now, we could debate 
the number of people. And, we can debate many other things 
related to the issue. But in terms of having the ability, 
having the capability, I think it is very critical to us to 
have it here on Capitol Hill.
    Senator Durbin. Thank you.
    Senator Bennett.

                          POLICE FORCE MERGER

    Senator Bennett. Thank you, Mr. Chairman.
    I just have one last item to raise with you. As you know, 
for some time I have been interested in the possibility of 
merging various police forces here on Capitol Hill. The GAO is 
conducting a study on that, which I understand will be 
available fairly soon, and I would appreciate it if you pay 
close attention to what the GAO study says, because it may well 
be that in the process of merging, it becomes easier to take 
existing officers and raise their training to the level that 
they could be synergistic with the present Capitol Police 
rather than starting completely fresh.
    We do have other police forces on the Hill with overlapping 
jurisdiction, so I just raise the issue one more time and ask 
you to pay attention to the GAO reactions to it as it comes 
along.
    Mr. Livingood. We were given a briefing yesterday, just a 
short briefing, before it was finished. Very definitely, we the 
Board, are going to look at that very seriously.
    Senator Bennett. Thank you.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator Bennett.

                          subcommittee recess

    Thank you all for your testimony. The subcommittee stands 
in recess until May 8 at 10:30 in Dirksen 116.
    [Whereupon, at 12:15 p.m., Wednesday, May 1, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Thursday, May 8.]












         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                         WEDNESDAY, MAY 8, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:38 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senator Durbin.

                       GENERAL ACCOUNTING OFFICE

STATEMENT OF DAVID M. WALKER, COMPTROLLER GENERAL
ACCOMPANIED BY:
        GENE DODARO, CHIEF OPERATING OFFICER
        SALLYANNE HARPER, CHIEF MISSION SUPPORT AND CHIEF FINANCIAL 
            OFFICER
        RICHARD L. BROWN, CONTROLLER

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. The subcommittee will come to order. This 
morning we meet to take testimony from three agencies, the 
General Accounting Office, the Government Printing Office, and 
the Congressional Budget Office. We are going to hear first 
from David Walker, our Comptroller General. Mr. Walker is 
accompanied by his Deputy, Mr. Gene Dodaro, Ms. Sallyanne 
Harper, and Mr. Dick Brown, Controller of GAO. Welcome to all 
of you this morning.
    GAO's budget request is $458 million, including offsetting 
collections of $3 million, and excluding the President's 
accrual proposal for retirement and health benefits. This is an 
increase of 6 percent, $26 million over the current fiscal 
year. The budget includes $22 million in so-called mandatory 
pay and price level increases. It does not accommodate any 
additional staffing, but does provide for some enhancements in 
training and other employee benefit programs.
    I would like to thank Mr. Walker for the help the GAO has 
provided this subcommittee. In particular, we have given you a 
lot of assignments, and you have responded quickly and 
professionally. You continue to be of great service to us in 
dealing with some of the challenges we face here on the Hill. I 
appreciate the work the GAO has done to look at the Library of 
Congress retail activities and Capitol Police issues. I welcome 
you, and at this point would entertain your opening statement 
and may have a few questions to follow.
    Mr. Walker. Thank you, Mr. Chairman, very much. You have 
already acknowledged for the record my colleagues who are 
joining me, and I would just like to supplement the record by 
noting that this is Dick Brown's 27th appropriations hearing 
and will be his last. We just cannot say enough good things 
about Dick Brown, about what he has been able to do for GAO and 
for the country, and I know he has been a tremendous help for 
this committee and also on the House side over the years, and I 
want to acknowledge that for the record.
    Senator Durbin. Well, thank you, Mr. Brown, for your 
patience, and I am sure you have seen a lot of people come and 
go in this chair and other chairs at the table, and thank you 
for your service, not only to the GAO but to the Nation.

                         PERFORMANCE HIGHLIGHTS

    Mr. Walker. Just a few highlights, Mr. Chairman. As you 
know, we published our annual performance and accountability 
report, which has been provided to the committee, which 
summarizes what we accomplished last year and what we plan for 
the next several years. Fiscal year 2001 was, in fact, a very 
productive year. For that year, we achieved $26.4 billion in 
financial benefits. That is a return on investment of $69 to 
each dollar appropriated to GAO. There were a number of other 
nonfinancial benefits. We also published a number of important 
reports dealing with things like voter access and election 
reform, as well as an updated high-risk list. We added two new 
areas to the high-risk list, first the U.S. Postal Service and 
its transformation effort, which is a major challenge, and 
frankly a microcosm of some of the challenges that Government 
faces elsewhere, and second our human capital crisis across the 
Federal Government, the lack of a strategic approach to dealing 
with the Government's most important asset, namely its people.

                    FISCAL YEAR 2003 BUDGET REQUEST

    As you have noted, our request for the next fiscal year is 
a modest one. We are asking for about a 5.9 to 6 percent 
increase. A vast majority of that deals with mandatory items 
such as inflation. We are asking for some targeted investments 
in the area of human capital--education loan reimbursement, 
transit subsidy, performance-based rewards and recognition, and 
training. In addition to that, we are asking for $4 million for 
security enhancements.
    As you know, undoubtedly, Mr. Chairman, for the first time 
since the early 1800s the House of Representatives was required 
to relocate to alternative facilities, and they relocated to 
the GAO building. We, therefore, have not only to be able to 
maintain the security and safety of our building for our own 
employees and the employees of the Corps of Engineers, which is 
headquartered in our building, but we also have to consider the 
fact that we are a contingency site for the House of 
Representatives and potentially for the Senate from time to 
time, depending upon whatever events might transpire. So as a 
result, we are working very closely to make sure that any 
planned actions meet not only our needs, but also potentially 
the needs of our clients.

                           PREPARED STATEMENT

    With that, Mr. Chairman, I would be happy to respond to any 
questions that you may have. I know we have already given you 
plenty of information, and I will not be redundant by repeating 
it here.
    [The statement follows:]
                 Prepared Statement of David M. Walker
    Mr. Chairman and Members of the Subcommittee: I am pleased to 
appear before the Subcommittee today as the Comptroller General of the 
United States and head of the U.S. General Accounting Office (GAO) to 
report on GAO's fiscal year 2001 performance and results, current 
challenges and future plans, and budget request for fiscal year 2003 to 
support the Congress and serve the American public.
    Fiscal year 2001 was characterized by a series of unprecedented 
challenges for the federal government. After a lengthy waiting period 
to decide the results of the Presidential election, the year began with 
a new administration and a new policy agenda. Within a short time, the 
leadership of the Senate changed as well. Although the year began with 
the nation at peace and with modest economic growth, by year's end, the 
nation was at war and the economy was in recession. Fortunately, the 
war is going well and the economy seems to be improving.
    Against this backdrop, GAO served the Congress and the American 
people in a variety of ways. Early in the year, we conducted an 
extensive analysis of voter access and election reform. Our work was 
instrumental in enabling the House and Senate to develop election 
reform proposals and also yielded a series of reports and 
recommendations upon which the Departments of Defense and State have 
pledged to act to improve their voting assistance programs for 
Americans living abroad. In addition, our 2001 Performance and 
Accountability Series and High-Risk Update identified close to 100 
major management challenges and program risks at 21 federal agencies 
and highlighted actions needed to address these serious problems. The 
series proved useful in carrying out our responsibility under the 
Presidential Transition Act to serve as a key source of information for 
the incoming administration and members of the 107th Congress. Among 
the issues we brought to the Congress's attention was the importance of 
addressing the future human capital needs of the federal government. 
This high-risk issue is being triggered by the impending retirements of 
the baby boom generation, the knowledge and skills gap engendered in 
part by our changing economy, and the advent of new technologies. 
Another new issue added to the high-risk list is the Postal Service's 
transformational efforts and long-term outlook.
    Citizens benefited directly from GAO's work as federal agencies and 
the Congress took a wide range of actions based on our analyses and 
recommendations. The results ranged from improving services to low-
income children and disabled veterans, to protecting consumers from 
insurance fraud, to identifying billions of dollars in savings and 
resources that could be reallocated. In total, GAO's efforts helped the 
Congress and government leaders to save $26.4 billion--a $69 return on 
every dollar invested in GAO. This is number one in the world for 
organizations like GAO.
    Because of our past work and work in progress, we also were able to 
provide timely, rapid assistance on the issues raised by the tragic 
events of September 11. In numerous congressional hearings, GAO's 
witnesses offered suggestions for strengthening the security of the 
nation's airports and air traffic control system, for protecting 
critical information technology infrastructure, and for enhancing 
government's ability to analyze and manage security risks, including 
bioterrorism. We also were able to highlight a number of safeguards 
that could be used in structuring financial assistance to the airlines, 
several of which were incorporated in the emergency $15 billion 
financial aid package that was enacted. In addition, soon after the 
release of our report recommending that the President appoint a single 
focal point within the Executive Office of the President to oversee the 
collective efforts of the many agencies involved in combating 
terrorism, the President announced the creation of the Office of 
Homeland Security. This office possesses many of the functions and 
responsibilities that we had advocated for improving interagency 
coordination.
    Closer to home, 2001 was a significant year for GAO because it 
marked the 80th anniversary of our agency and 50th anniversary of our 
headquarters building. It also was a year marked by important changes 
designed to better position our agency for the future.
    GAO's mission is to support the Congress in meeting its 
constitutional responsibilities and to help improve the performance and 
ensure the accountability of the federal government for the benefit of 
the American people.
    GAO is an independent, professional, nonpartisan agency in the 
legislative branch that is commonly referred to as the investigative 
arm of the Congress. Created in 1921 as a result of the Budget and 
Accounting Act, we have seen our role evolve over the decades as the 
Congress expanded our statutory authority and called on us with greater 
frequency for oversight, insight, and foresight in addressing the 
growing complexity of government and our society.
    Today, we examine a broad range of federal activities and programs, 
publish thousands of reports and other documents annually, and provide 
a number of other services to the Congress. We also look at national 
and international trends and challenges to anticipate their 
implications for public policy. By making recommendations to improve 
the practices and operations of government agencies, we contribute not 
only to the increased effectiveness of federal spending, but also to 
the enhancement of the taxpayers' trust and confidence in their federal 
government.
    For us, achieving our goals and objectives rests, for the most 
part, on providing professional, objective, fact-based, nonpartisan, 
nonideological, fair, and balanced information. We develop and present 
this information in a number of ways to support the Congress, including 
the following: evaluations of federal policies and the performance of 
agencies; oversight of government operations through financial and 
other management audits to determine whether public funds are spent 
efficiently, effectively, and in accordance with applicable laws; 
investigations to assess whether illegal or improper activities are 
occurring; analyses of the financing for government activities; 
constructive engagements in which we work proactively with agencies, 
when appropriate, to help guide their efforts toward positive results; 
legal opinions to determine whether agencies are in compliance with 
applicable laws and regulations; policy analyses to assess needed 
actions, develop options, and note the implications of possible 
actions; and additional assistance to the Congress in support of its 
oversight and decisionmaking responsibilities.
    GAO's strategic plan for serving the Congress: Our first strategic 
plan for the 21st century, covering fiscal years 2000-2005, was an 
important milestone, providing a framework for how we would support the 
Congress and the American people in the coming years. To develop this 
plan, we worked closely with committee leadership and individual 
members and their staff, as well as with agency inspectors general, our 
sister agencies, and numerous other interested organizations and 
parties. With the plan as our blueprint, we realigned GAO's structure 
and resources to better address our long-term goals and objectives for 
helping the Congress in its legislative, oversight, and investigative 
roles.
    We have committed to updating our strategic plan every 2 years, 
coinciding with each new Congress, to make sure our efforts remain a 
vital and accurate reflection of the important issues facing the 
Congress and the nation. The world has changed considerably since our 
last plan. Two years ago, we were at peace and the economy was growing, 
with large budget surpluses projected into the future. Today, the 
country is at war, addressing threats both within and outside our 
borders. The economic outlook, uncertain before September 11, 2001, 
continues to be very difficult to predict but seems to be improving. 
This changing environment has enormous ramifications for national 
policymaking and, consequently, for GAO. Accordingly, we have prepared 
a draft strategic plan for serving the Congress during fiscal years 
2002-2007, that we will be using to help solidify how we will support 
congressional needs. The draft is now being discussed with our 
congressional clients and being made widely available for comment to 
ensure that we meet the Congress's needs and address the most critical 
issues.
    While the overall framework of our first strategic plan is still 
valid, we propose placing greater emphasis on the following areas in 
particular to reflect the altered agenda of policymakers:
  --Recognizing that the Congress and the federal government will focus 
        considerable effort and resources on homeland security, we are 
        proposing to increase our emphasis on overseeing the efficiency 
        and effectiveness of efforts across the federal government to 
        protect against and respond to various forms of terrorism.
  --In light of changing public expectations and needs, as well as 
        fiscal pressures, we have redefined one of our strategic goals 
        to focus on helping to transform the federal government's role 
        to meet the challenges of the 21st century--what it does and 
        how it does business.
  --Because of the emerging serious, long-term, and far-reaching 
        fiscal, demographic, technological, scientific, and other 
        trends affecting our society and the economy, we anticipate 
        assisting the Congress in addressing the effects of these 
        trends on program priorities and budget decisions in both the 
        short and long terms.
    Our draft strategic plan takes into account the forces that are 
likely to shape American society, its place in the world, and the role 
of the federal government over the next 6 years. As illustrated by the 
strategic plan framework that follows, we have identified seven themes 
that have implications for congressional decisionmaking and, therefore, 
underlie our strategic goals and objectives:
  --Security and preparedness: the national and global response to 
        terrorism and other threats to personal and national security;
  --Globalization: the increasing interdependence of enterprises, 
        economies, civil society, and national governments;
  --The changing economy: the global shift to market-oriented, 
        knowledge-based economies;
  --Demographics of an aging and more diverse population;
  --Science and technology and the opportunities and challenges created 
        by the rapid changes in both of these areas;
  --Quality of life for the nation, communities, families, and 
        individuals;
  --Governance: the diverse and evolving nature of governance 
        structures and tools.
    In light of recent trends and in keeping with our mission and 
responsibilities, we have identified four strategic goals and related 
objectives that will guide our work to serve the Congress in fiscal 
years 2002-2007. Our four strategic goals are as follows:
  --Provide timely, quality service to the Congress and the federal 
        government to address current and emerging challenges to the 
        well-being and financial security of the American people;
  --Provide timely, quality service to the Congress and the federal 
        government to respond to changing security threats and the 
        challenges of global interdependence;
  --Help transform the federal government's role and how it does 
        business to meet 21st century challenges;
  --Maximize the value of GAO by being a model federal agency and a 
        world-class professional services organization.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Benefits Resulting From GAO's Work
    During fiscal year 2001, GAO recorded hundreds of accomplishments 
providing financial and other benefits that were achieved based on 
actions taken by the Congress and federal agencies, and we made 
numerous other contributions that provided information or 
recommendations aiding congressional decisionmaking or informing the 
public debate to a significant extent. Our contributions to legislative 
and executive actions included: strengthening national security and 
combating terrorism; advancing and protecting U.S. interests abroad; 
better targeting defense spending; helping the Congress reduce or 
better target budget authority; ensuring public health, safety, and 
welfare; protecting the environment; addressing national election 
issues; safeguarding government information systems; highlighting 
management challenges and risks for the new Congress and 
administration; and fostering more efficient and effective government 
services and operations.
    Our recently issued performance and accountability report and a 
compact highlights version of it combine an assessment of our 
accomplishments in fiscal year 2001 with our plans for continued 
progress through fiscal year 2003. The following is a sampling of GAO's 
fiscal year 2001 accomplishments.
            Financial Benefits Exceeding $26 Billion
    For fiscal year 2001, GAO's findings and recommendations to improve 
government operations and reduce costs contributed to legislative and 
executive actions that yielded over $26.4 billion in measurable 
financial benefits. We achieve financial benefits when our findings and 
recommendations are used to make government services more efficient, 
improve the budgeting and spending of tax dollars, or strengthen the 
management of federal resources. As illustrated in the following 
graphic, the financial benefits achieved in fiscal year 2001 exceeded 
our $23 billion target for the year, as well as last year's results of 
$23.2 billion. These financial benefits are equivalent to about $69 for 
every $1 that was appropriated to GAO for fiscal year 2001.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As described below, our work on military base realignments and 
closures, restructuring the defense acquisition workforce, and 
recapturing unexpended balances in a major federal housing program, for 
instance, together yielded more than $12 billion of the year's 
financial benefits.
  --Contributing to the Military Base Closure and Realignment 
        Process.--GAO has issued a number of reports since 1979 
        documenting excess infrastructure within the Department of 
        Defense and supporting the need for a base closure and 
        realignment process. After the Congress's authorization of such 
        a process, GAO was legislatively required to provide the 
        Congress with a series of reports and testimonies validating 
        Defense's implementation. GAO monitored and assessed all phases 
        of the decisionmaking process, including executive-level 
        sessions, for compliance with congressional requirements. In 
        addition, GAO provided staff to each commission established to 
        recommend base closures and realignments for rounds held in 
        1991, 1993, and 1995. The staff helped shape the commissions' 
        decisions through analysis of issues associated with closing or 
        realigning specific installations. GAO estimated $6 billion in 
        net savings in fiscal years 1999 and 2000 for the three base 
        closure rounds.
  --Cutting the Cost of Defense's Acquisition Infrastructure.--In a 
        series of reports and comments on legislation for the House 
        National Security Committee beginning in the mid-1990s, GAO 
        examined numerous facets of the Department of Defense's 
        acquisition infrastructure, of which its acquisition workforce 
        is a major component. GAO's primary messages were that 
        acquisition infrastructure reductions had not kept pace with 
        reductions in other areas of Defense's operations and that the 
        acquisition workforce needed to be consistently defined to 
        effect appropriate reductions. Consequently, Defense redefined 
        the workforce and the Congress directed the department to 
        develop specific plans for reducing its acquisition workforce. 
        These workforce reductions totaled $3.32 billion and freed the 
        funds for other high-priority items.
  --Recapturing Unexpended Balances in a Federal Housing and Urban 
        Development Program.--GAO reviewed the unexpended balances in 
        the Department of Housing and Urban Development's Section 8 
        program, in which the department contracts with property owners 
        to provide housing for low-income families. GAO recommended 
        that the department revise the procedures used to review 
        unexpended balances and ensure that excess balances were 
        recaptured from this program. Subsequently, the department 
        recaptured nearly $3 billion of unexpended balances from prior 
        years' budgets. According to the department's officials, the 
        savings directly resulted from their implementation of GAO's 
        recommendation.
            Nearly 800 Actions Improving Government Agencies' 
                    Management or Performance
    Not all actions on GAO's findings and recommendations produce 
measurable financial benefits. As illustrated below, in fiscal year 
2001, we recorded 799 actions that the Congress or executive agencies 
had taken based on our recommendations to improve the government's 
accountability, operations, or services. Our audit and evaluation 
products issued in fiscal year 2001 contained over 1,560 new 
recommendations targeting improvements in the economy, efficiency, and 
effectiveness of federal operations and programs that could yield 
significant financial and other benefits in the future. At the end of 
the year, 79 percent of the recommendations we made 4 years ago had 
been implemented. We use a 4-year interval because our historical data 
show that agencies often need this time to complete action on our 
recommendations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The actions reported for fiscal year 2001 include actions to combat 
terrorism, strengthen public safety and consumer protection, improve 
computer security controls, and establish more effective and efficient 
government operations. Following are a few examples of GAO's work that 
led to improvements in government management and performance:
  --Improving Department of Defense antiterrorism efforts.--At the 
        request of the House Special Oversight Panel on Terrorism, GAO 
        reviewed the Department of Defense's antiterrorism efforts at 
        domestic installations. GAO identified shortcomings that needed 
        to be addressed to provide installation commanders with the 
        necessary information to effectively manage the risk of a 
        terrorist attack and develop an effective antiterrorism 
        program. The department agreed with GAO's findings and has 
        begun implementing all of the GAO-recommended corrective 
        actions. GAO also worked with the department to update and 
        improve antiterrorism standards and the secure communication 
        capabilities between some Navy facilities. This work provided a 
        foundation for developing a risk management approach that can 
        be applied to other government operations. GAO presented 
        information about this management approach to various 
        congressional committees and other organizations.
  --Strengthening nuclear nonproliferation and safety efforts.--
        Preventing the spread of weapons of mass destruction and 
        ensuring the safety of Soviet-designed reactors are important 
        national security concerns. GAO's work in this area continues 
        to have major impacts, including the implementation of GAO's 
        recommendations designed to strengthen the Department of 
        Energy's program to secure nuclear materials in Russia and 
        sustain the improvements. In addition, Energy has implemented 
        GAO's recommendations to fund only those safety projects that 
        directly improve the operation of Soviet-designed reactors and 
        to focus its Nuclear Cities Initiative funding on only those 
        projects designed to employ Russian weapons scientists. These 
        changes will result in better targeting of limited resources by 
        eliminating projects that did not meet mission goals.
  --Improving food safety.--Over the years, public awareness of 
        foodborne illness outbreaks has heightened concerns about the 
        effectiveness of the federal system for ensuring the safety of 
        the nation's food supply. GAO has served as an honest broker of 
        information on the shortcomings of the federal food safety 
        system. In particular, GAO's work has been used extensively in 
        congressional deliberations and by federal program mangers to 
        improve the food safety system. For example, GAO's work on 
        seafood safety identified several important weaknesses that 
        compromised the overall effectiveness of the Food and Drug 
        Administration's newly implemented science-based system for 
        seafood. In response, the agency made improvements in 2001 to 
        the science-based system. GAO's work identifying shortcomings 
        in shellfish safety was instrumental in the 2001 adoption of 
        the first national plan to reduce pathogenic bacteria in 
        oysters.
  --Creating a focal point for combating terrorism.--GAO identified 
        fragmentation among federal efforts to combat terrorism, as 
        several key interagency functions were spread across various 
        agencies and sometimes overlapped. During the summer of 2001, 
        GAO recommended that the President appoint a single focal point 
        within the Executive Office of the President to oversee the 
        collective efforts of the many agencies involved. Soon after 
        the release of GAO's September 2001 report, the President 
        announced the creation of the Office of Homeland Security 
        within the Executive Office of the President. The executive 
        order establishing the office provided it with many of the 
        functions and responsibilities that GAO had advocated for 
        improving interagency coordination.
            Over 150 Testimonies Contributing to Public Debate on 
                    National Issues
    GAO officials were called to testify 151 times before committees of 
the House and Senate in fiscal year 2001, as illustrated in the 
following graphic. In addition, we provided nine statements for the 
record. Our number of appearances for fiscal year 2001 was lower than 
for previous years because external factors such as the extended 
Presidential transition, a new Congress and administration both 
beginning work, and the unprecedented mid-session shift in control of 
the Senate reduced the number of congressional hearings and, therefore, 
occasions for GAO to testify. Nonetheless, we testified on a broad 
range of subjects, including combating terrorism, energy prices, the 
federal budget, and September 11 issues.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Maximizing GAO's Effectiveness, Responsiveness, and Value
    In addition to the financial and other benefits resulting from our 
work over the past year, we continued to make great progress toward 
achieving our fourth strategic goal of maximizing the value of GAO by 
being a model organization for the federal government. We strive to 
ensure that GAO's operations reflect the highest standards. As 
discussed in the following sections, we expanded congressional outreach 
efforts to ensure our responsiveness to client needs. We also 
implemented numerous human capital initiatives following best 
practices, to ensure that GAO has the appropriate mix of staff and 
skills needed to address issues of interest to the Congress. In other 
areas, such as information technology, financial management, and 
security and safety, our operations also reflect prevailing best 
practices. Following are some examples of the key efforts we have taken 
to strengthen GAO and maximize our productivity.
            Cultivating and Fostering Effective Congressional and 
                    Agency Relations
    In fiscal year 2001, we continued our efforts to strengthen 
relationships and improve communications with our congressional 
clients, federal agencies, and other key stakeholders. For example, we 
implemented a set of congressional protocols--policies and procedures--
to guide our interactions with and ensure our accountability to the 
Congress. In addition, we drafted similar protocols to guide our 
interactions with federal agencies, foreign ministries and governments, 
and international organizations, and we plan to pilot the federal 
agencies and international protocols in fiscal year 2002.
    We also began efforts to revamp our communications strategy to 
better meet the needs of our clients. In fiscal year 2001, we developed 
a new reporting product line entitled Highlights--a one-page summary 
that provides the key findings and recommendations from a GAO 
engagement. We plan to examine other means during fiscal year 2002 to 
better communicate the results of our work.
    During fiscal year 2001, we also expanded and improved access to 
GAO information for our congressional clients and other stakeholders. 
We implemented a Web-accessible active assignment list for 
congressional clients, established a transition Web site to assist the 
new administration in learning about GAO's work and to facilitate key 
contacts, enhanced the search capability for GAO products on our 
external Web site, and expanded electronic access to GAO reports issued 
since 1985.
    We also worked with the Office of Management and Budget (OMB) and 
Cabinet-level officials to assist in the congressional and Presidential 
transitions and to provide new legislators and officials with 
information about the challenges facing them. These and other 
constructive engagement efforts are helping focus increased attention 
on major management challenges and high-risk issues, leading to good 
government. For example, the President's recently issued management 
agenda for reforming the federal government mirrors many of the 
management challenges and program risks that GAO reported on in its 
2001 Performance and Accountability Series and High-Risk Update, 
including a governmentwide initiative to focus on strategic management 
of human capital. We also continue our efforts to work across 
boundaries and encourage knowledge sharing by networking through 
various boards and panels, including the Comptroller General's Advisory 
Board, the Educators' Advisory Board, the Accountability Advisory 
Board, and other global and domestic accountability organizations.
    We continued to look for more efficient ways to obtain systematic 
feedback from congressional members and key staff. In fiscal year 2001, 
we developed a Web-based process to more effectively collect feedback 
from congressional clients on our reports and products. This new 
system, which we plan to pilot in fiscal year 2002 and implement in 
fiscal year 2003, uses E-mail and a Web site to obtain client feedback 
on (1) product timeliness and (2) communications and professional 
conduct during an engagement for a sample of recently issued products.
    In addition to working with accountability agencies and 
organizations in the United States, we continued to work with our 
counterparts in other countries and with international organizations to 
strengthen accountability around the world. We are working with the 
International Organization of Supreme Audit Institutions to help combat 
government-related corruption around the world. For example, we plan to 
support a multilateral training effort with Russia, other former 
Eastern bloc countries, and selected South and Latin American countries 
on audit standards, policies, and methodologies. In addition, we are 
working to provide bilateral technical assistance with the Russian 
Chamber of Accounts to collaboratively undertake a joint audit of the 
program to dispose of Russia's chemical weapons.
            Implementing a Model Strategic and Annual Planning and 
                    Reporting Process
    GAO's strategic plan continues to be a model for aligning our 
organization and resources, and for ensuring that we remain responsive 
to the needs of the Congress. Our strategic planning process provides 
for updates every 2 years with each new Congress, ongoing analysis of 
emerging conditions and trends, extensive consultation with 
congressional clients and outside experts, and assessments of internal 
capacities and needs. In addition, the plan has become the basis for 
allocating resources and managing organizational performance.
    Our strategic plan also has helped serve as a model in providing 
clearer accountability to the Congress and the American people. In 
fiscal year 2001, we published our first Performance and Accountability 
Report, combining information on performance in achieving the plan's 
goals and objectives with financial information on the costs of 
achieving results. The report also included GAO's performance plan for 
fiscal year 2002, linking planned activities and performance with the 
resources requested in our annual appropriation.
            Aligning Human Capital Policies and Practices to Support 
                    GAO's Mission
    Over the past 3 years, we have made great progress toward 
addressing a number of human capital issues that GAO was facing when I 
arrived at the beginning of fiscal year 1999. At the time, our 
workforce was sparse at the entry level. We faced major succession-
planning issues with a significant percentage of our senior managers 
and evaluator- and related workforce becoming eligible to retire by the 
end of fiscal year 2004. The development and training of our senior 
executives in key competencies, such as leadership, communications, 
project supervision and conflict resolution, had been at drastically 
reduced levels since 1993. In addition, new technical skills were 
unavailable in needed quantities within the agency, especially 
actuarial and information technology skills, to effectively assist the 
Congress in meeting its oversight responsibilities.
    We have confronted these issues through a number of strategically 
planned human capital initiatives that have begun to yield results. For 
example, we have intensified our recruiting efforts targeted at the 
entry level and areas requiring specialized skills and expertise; 
enhanced our recruitment and college relations programs; implemented 
our early-out authority, recently acquired through GAO's human capital 
legislation; enhanced our training programs; revamped and modernized 
the performance appraisal system for analysts; enhanced performance 
rewards and employment incentives to attract and retain high quality 
staff with specialized skills; implemented a succession-planning 
program; conducted an agencywide assessment and inventory of our 
workforce's knowledge and skills; established an office of opportunity 
and inclusiveness, whose head reports directly to the Comptroller 
General, to oversee GAO's efforts to foster a work environment that 
ensures that all members of its diverse workforce are treated fairly 
and their differences are respected; and completed an organizational 
realignment and resource reallocation.
    As illustrated in the following graphic, by the end of fiscal year 
2002, we will almost double the proportion of our workforce at the 
entry-level (Band I) as compared with fiscal year 1999. Also, the 
proportion of our workforce at the mid-level (Band II) will have 
decreased by about 9 percent. In addition, we are steadily increasing 
the proportion of our staff performing direct mission work.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We also have taken steps to better link compensation, performance, 
and results in achieving our strategic plan and goals for serving the 
Congress. In fiscal year 2001, we developed a new performance appraisal 
system for our analyst and specialist staff that links performance to 
established competencies and results; this system is being implemented 
in fiscal year 2002. We also have begun creating similar performance 
systems for our attorneys and mission support staff. Also during fiscal 
year 2002, we plan to assess our pay systems and structures to identify 
ways to increase the percentage of our staff's compensation that is 
tied more directly to performance and results. Currently, levels of 
annual compensation increases are automatic, as is required by law.
            Developing Efficient and Responsive Business Processes
    We completed a number of major initiatives in fiscal year 2001 
directed at enhancing our business operations and processes. For 
example, we implemented a major organizational realignment to increase 
our ability to achieve the goals and objectives of our strategic plan. 
The realignment provides for a clearer and more transparent delineation 
of responsibilities for achieving our strategic goals and meeting the 
needs of the Congress. We also centralized certain administrative 
support services to more efficiently provide human capital, budget and 
financial management, information systems desk-side support, and other 
services to agency staff. The centralization will allow us to devote 
more resources to GAO's mission work and to obtain economies of scale 
by providing central and shared services.
    To facilitate our staff's efforts in conducting engagements, we 
developed a comprehensive desktop tool--an Electronic Assistance Guide 
for Leading Engagements (EAGLE)--that provides immediate access to 
GAO's most current policies and procedures and eliminates the need to 
print and distribute documents. We also developed a new engagement 
database to track congressional requests, monitor their status, and 
provide information on engagement reviews and results. In addition, we 
are reviewing our job management processes to identify opportunities 
for improvement based on best practices of other organizations.
            Building an Integrated and Reliable Information Technology 
                    Infrastructure
    Information technology is critical to our productivity, success, 
and viability. As such, we have been working on a number of initiatives 
to guide and protect our investments in information technology. In 
fiscal year 2001, we completed a comprehensive review of our 
information technology; made substantial progress in implementing an 
enterprise architecture program--a blueprint for operational and 
technological change; expanded information systems security efforts to 
protect our information assets; developed an information technology 
investment process guide to ensure that our investments are clearly 
linked to and support our strategic objectives and business plans; 
prepared an information technology plan for fiscal years 2001-2004 that 
identifies major initiatives and investments that directly support our 
strategic plan; and rechartered and reestablished our Information 
Technology Investment Committee to provide high-level vision, review, 
and approval of program initiatives to transition from the current 
technological environment to the target one.
    We also undertook a wide range of other efforts during fiscal year 
2001 to improve efficiency by providing new enabling technology to 
staff and improving access to GAO resources from any place at any time. 
These efforts have included piloting notebook computers; expanding the 
availability of cellular phones to GAO's senior management; and testing 
new, emerging technologies such as personal digital assistants and 
video broadcasts to the desktop. In addition, we upgraded remote access 
capability, improving the speed and reliability of dial-up connections 
to GAO's information technology facilities; completed communications 
upgrades to the field to provide high-speed, reliable connectivity to 
the GAO network; replaced aging videoconferencing equipment with 
current technology; and began planning communications upgrades to 
support evolving video technologies.
Fiscal Year 2002 Plans and Future Challenges
    During fiscal year 2002, we will continue focusing our work on 
issues of national importance facing the Congress, including homeland 
and national security, Social Security solvency, education, economic 
development, Medicare reform, international affairs, government 
management reforms, and government computer security. Other issues 
about which we will contribute to the national debate include the 
concerns emanating from the sudden collapse of Enron and other 
corporate failures: the determination of what systemic reforms are 
needed regarding accounting and auditing issues, regulatory and 
oversight matters, pensions, executive pay issues, and corporate 
governance.
    We also will be working with congressional budget committees and 
others on reviewing, reassessing, and reprioritizing what the federal 
government is doing in light of the nation's long-range fiscal 
challenges. This effort will involve raising key questions about 
government programs, tax incentives, regulations, and policies from the 
perspective of what works and what does not, as well as examining 
selected budget and performance reporting issues. Under a recent 
mandate, we have begun pilot testing several approaches for providing 
technology assessment assistance to the Congress. In addition, as noted 
earlier, we plan to issue two new sets of protocols governing our 
relations with executive branch departments and agencies, and with 
international organizations.
    Internally, we must continue our efforts and initiatives to address 
human capital and information technology challenges at GAO. While we 
have made good progress in addressing many of these issues, we continue 
to view them as significant challenges. We also are reassessing our 
security and safety issues, in light of the far-reaching effects of the 
September 11 terrorist attacks.
    After a decade of downsizing and curtailed investments in human 
capital, it became increasingly clear that GAO needed new human capital 
strategies if we were to meet the current and emerging needs of the 
Congress and the nation's citizens. The initiatives we have in progress 
or plan to begin in the coming months should build on the progress we 
have made during the past 2 years, yielding further improvements in how 
we recruit, develop, evaluate, compensate, and retain our staff. We 
will continue to develop a human capital strategic plan that both 
supports our strategic goals and ensures that diversity, skills, 
leadership, and retention issues are addressed.
    As with human capital, information technology investments at GAO 
declined significantly during the mid- to late 1990s as a result of 
mandated spending reductions. Consequently, information technology 
became a management challenge as we entered the 21st century. We have 
made progress in building an integrated and reliable information 
technology infrastructure that supports the achievement of our goals 
and objectives, but we must sustain these efforts and begin others to 
ensure that we can continue to provide quality, timely, efficient, and 
effective services to the Congress and the public. Our information 
technology plan for fiscal years 2001 through 2004 is providing a 
foundation for initiatives and investments, and we are expanding and 
accelerating our efforts to protect our agency's information assets.
    The safety and security of GAO's people, information, and assets 
are necessarily a top priority. In the aftermath of the September 11 
terrorist attacks and the subsequent anthrax incidents, we designated 
safety and security a management challenge for our agency. We are 
conducting threat assessments and a comprehensive evaluation of 
security that we plan to complete this year. Guided by these 
assessments, we will develop an implementation plan to strengthen 
security and safety within GAO. We also plan to review and update our 
emergency preparedness and response plan and to develop a continuity of 
operations plan so that we are prepared for, can respond to, and will 
recover from any major threat or crisis.
GAO's Fiscal Year 2003 Budget Request to Support the Congress
    To support the Congress as outlined in our strategic plan and 
continue our efforts to strengthen and maximize the productivity of 
GAO, we have requested a budget of $458 million for fiscal year 2003. 
This funding level will allow us to maintain current operations; 
continue initiatives to enhance our human capital and supporting 
business processes; ensure the safety and security of our staff, 
information, and other resources; and support our authorized level of 
3,269 full-time equivalent (FTE) personnel.
    Almost 80 percent of our request is for employee compensation and 
benefits. The next largest proportion of the budget--about $50 
million--is for contract services supporting both GAO's mission work 
and administrative operations, including information technology, 
training, and building maintenance and operations services. About $12 
million is for travel and transportation, critical components to 
accomplishing GAO's mission to follow the federal dollar and ensuring 
the quality of our work. The remaining funds are for office equipment 
and space rentals; telephone, videoconferencing, and data 
communications services; and other operating expenses, including 
supplies and materials, printing and reproduction, and furniture and 
equipment.
    During fiscal year 2003, we plan to increase our investments in 
maximizing the productivity of our workforce by continuing to address 
two key management challenges: human capital and information 
technology. On the human capital front, we will target increased 
resources to continue initiatives begun in fiscal year 2000 to address 
skill gaps, maximize staff productivity, and increase staff 
effectiveness; update our training curriculum to address organizational 
and technical needs; and train new staff. We also will continue to 
focus our hiring efforts in fiscal year 2003 on recruiting talented 
entry-level staff. In addition, to ensure our ability to attract, 
retain, and reward high-quality staff, we plan to devote additional 
resources to our employee benefits and training programs. For example, 
we will continue investments in our student loan repayment program, 
which we are planning to begin offering in fiscal year 2002, and mass 
transit subsidy benefits to enhance our recruitment and retention 
incentives. In addition, major efforts are underway to implement our 
new performance appraisal system for our analyst staff and to develop 
new performance systems for our legal and mission support staff.
    On the information technology front, we plan to continue 
initiatives designed to increase employees' productivity, facilitate 
knowledge-sharing, maximize the use of technology, and enhance employee 
tools available at the desktop. We also will devote resources to 
reengineering the information technology systems that support job 
management processes, such as our engagement tracking system, and to 
implementing tools that will ensure a secure network operating 
environment.
    Finally, we will make the investments necessary to enhance the 
safety and security of our people, information, facilities, and other 
assets.
    Following are additional details supporting the funding increase we 
have requested for fiscal year 2003 to cover mandatory and 
uncontrollable costs and a few modest, but important, program changes.
            Mandatory and Uncontrollable Costs
    We are requesting $19,935,000 to cover mandatory pay and benefits 
costs resulting primarily from federal cost-of-living and locality pay 
adjustments, annualization of prior year salary increases, increased 
participation in the Federal Employees Retirement System, and an 
increase in the estimated number of retirees. Also included are funds 
needed to cover performance-based promotions and merit pay increases. 
Most of these increases are automatic, as required by current law. We 
plan to review our pay systems and structures during fiscal year 2002 
to identify ways to increase the percentage of our employees' 
compensation that is tied directly to performance contributions and 
results.
    We also are requesting $2,090,000 for uncontrollable inflationary 
increases in travel and per diem, lodging, postage, printing, supplies, 
contracts, and other essential mission support services, based on OMB's 
2-percent inflation index and other factors.
            Program Changes
    A net increase of $3,832,000 is being requested to fund essential 
agency programs. This increase includes an overall reduction of 
$168,000 in ongoing or recurring programs and a one-time, nonrecurring 
request for $4 million to fund critical security and safety 
enhancements, as illustrated in the following table and accompanying 
narrative.

Requested Program Changes

                         [Dollars in thousands]

                                                             Fiscal year
        Budget category                                      2003 change

Recurring:
    Recruitment, retention, and recognition benefits:
        Education loan reimbursement.............................. $810 
        Transit subsidy...........................................  335 
        Performance-based rewards and recognition.................  114 
                                                                  ______
          Subtotal................................................1,259 
                        =================================================================
                        ________________________________________________
Training..........................................................  434 
Printing and publishing services.................................. (360)
Contract services................................................(2,000)
Offsetting collections............................................  499 
                                                                  ______
      Subtotal.................................................... (168)
                        =================================================================
                        ________________________________________________
Non-recurring: Security and safety enhancements...................4,000 
                        =================================================================
                        ________________________________________________
      Net program changes.........................................3,832 

    Recruitment, retention, and performance recognition benefits.--
$1,259,000 is requested to maintain and expand current recruitment, 
retention, and performance-based recognition programs to levels 
comparable to those of the executive branch and to help ensure our 
ability to attract, retain, and recognize high-caliber staff. This 
requested increase includes:
  --$810,000 to fund the second year of benefits under our education 
        loan repayment program, which increases total funding for the 
        program to $1.2 million. This funding level will allow GAO to 
        meet current program commitments, offer benefits to new 
        recruits, and provide more retention benefits to current staff 
        in critical skills areas.
  --$335,000 to fund the annualized cost of benefits under the transit 
        subsidy program, which was increased from $65 to $100 a month 
        during fiscal year 2002, and to extend the program to new 
        hires. This increase will raise the program's funding level to 
        $1.5 million.
  --$114,000 for performance-based reward and recognition programs to 
        ensure comparability with public- and private-sector entities. 
        This represent a 4-percent increase in these programs, 
        commensurate with the average mandatory compensation increases, 
        and will raise the program funding level to $2.7 million, which 
        is less than 1 percent of our total compensation costs.
    Training.--We are requesting $434,000 to implement a new core 
training curriculum and expand essential training opportunities to 
staff at all levels to ensure staff competency in skill areas critical 
to achieving our strategic plan.
    Printing and publishing services.--During fiscal year 2002, we will 
be implementing changes in the distribution and retention of GAO 
reports and products. We estimate savings in fiscal year 2003 of 
$360,000 in printing, publishing, and related costs and plan to use 
these savings to offset other program needs.
    Contract services.--During fiscal year 2002, we will be contracting 
for expertise not readily available within the agency to respond to 
congressional requests related to security and terrorism issues, assess 
our internal security and information technology requirements, and 
conduct a congressionally mandated technology assessment pilot. As 
these contract requirements are nonrecurring, we plan to reduce 
contract services in fiscal year 2003 by $2 million and to use these 
savings to offset other program needs.
    Security and safety enhancements.--We are seeking nonrecurring 
funds of $4 million in fiscal year 2003 to implement critical security 
and safety enhancements identified through assessments conducted of our 
security and potential threats following the September 11 attacks and 
subsequent anthrax incidents. This funding will enable us to implement 
some of the recommendations made in these assessments, such as 
enhancing our building access and perimeter security, expanding 
protection against chemical and biological intrusions, and increasing 
the number of background checks and security clearances for GAO and 
contractor staff. Implementing these measures will help ensure that we 
are prepared for, can respond to, and will reduce our vulnerability to 
major threats or crises in the future.
    Offsetting collections.--We are requesting authority to increase 
the use of revenue we receive from rental income and audit work from 
$2,501,000 to $3,000,000, to continue renovation of the GAO building.
    Finally, if a legislative proposal from the administration to 
transfer accountability for retirement costs is enacted, we are also 
requesting budget authority of $21,283,000 to cover our related costs 
for fiscal year 2003. The President has proposed a governmentwide 
initiative to transfer accountability for accruing retirement and post-
retirement health benefits costs from the Office of Personnel 
Management to individual agencies. This initiative represents a shift 
in the accounting treatment of these costs, which are presently a 
component of mandatory costs and in the future will be included in 
discretionary budget authority. Implementation of this proposal is 
contingent upon enactment by the Congress of authorizing language 
submitted by the administration.
Concluding Remarks
    As a result of the support and resources that we have received from 
this Subcommittee and the Congress over the past several years, we have 
been able to make a difference in government, not only in terms of the 
financial benefits and improvements in federal programs and operations 
that have resulted from our work, but also in strengthening and 
increasing the productivity of GAO, and making a real difference for 
our country and its citizens. Our budget request for fiscal year 2003 
is modest, but it is essential to sustaining our current operations, 
continuing key human capital and information technology initiatives, 
and ensuring the safety and security of our most valuable resource--our 
people. We seek your continued support so that we will be able to 
effectively and efficiently conduct our work on behalf of the Congress 
and the American people.
    As the Comptroller General of the United States on GAO's 80th 
anniversary, I take great pride in the many years of service GAO has 
provided the Congress and the nation. Building on this legacy, we at 
GAO look forward to continuing to help the Congress and the nation meet 
the current and emerging challenges of the 21st century.

                         REORGANIZATION OF GAO

    Senator Durbin. Let me ask you a few general questions. In 
1998, GAO initiated a reorganization or realignment of the 
agency. How has this changed the GAO?
    Mr. Walker. The realignment has made a significant 
difference, Mr. Chairman. We sought to reduce organizational 
layers to make it a flatter organization, to reduce the number 
of silos or units that we have, to reduce the number of field 
offices, and to end up having a lot more focus horizontally 
across the organization and externally with our clients, the 
accountability community, and other parties.
    It has gone extremely well. Our productivity has been 
enhanced within existing staffing allocation levels and, as you 
might imagine, any time you go through a major change like 
that, there are some people that are concerned about it. But by 
and large, I think it has gone extremely well, and it has 
certainly improved our efficiency and effectiveness.

                     STUDENT LOAN REPAYMENT PROGRAM

    Senator Durbin. You have asked for $810,000 for a student 
loan repayment program, which is roughly double the amount 
budgeted for the current fiscal year. I am a strong proponent 
of this program, and we have basically said to the agencies 
that we have the responsibility for, we are going to give you 
the resources you need and provide the greatest flexibility 
possible in using those for retention, recruitment, and morale. 
Could you tell me how you are using current funding, and why 
this increase is in your budget request?
    Mr. Walker. Mr. Chairman, there are many individuals who 
want to do public service who at the present time are faced 
with a double whammy. On the one hand, they can make more money 
by working in the private sector, but in many cases they have a 
significant amount of college debt that they have to repay. So 
if they choose public service, they are not only going to make 
in some cases less money, but they have to be able to deal with 
this debt. We want to use college loan repayments as one of a 
number of tools that we have in our portfolio to attract and 
retain top talent.
    Mr. Chairman, 95 percent of the people that we hired in the 
last year for our professional staff had masters or doctorate 
degrees from some of the top schools in the country. A 
significant percent of those individuals have debt. We are 
looking to target the loan repayment to critical occupations 
initially, areas where we have a supply and demand imbalance, 
and where we are having difficulty attracting an adequate 
number of qualified candidates. We are going to allocate part 
of the money for recruiting, and we will determine the need for 
this on a year-by-year basis, depending upon what the market 
does and what our experience is. Second, we want to target a 
greater proportion of the funds to be able to retain top-
quality professionals, especially during years 1 through 4.
    What we find is, if we can get people to stay with GAO for 
at least 3 years, then the likelihood that they are going to 
stay with the organization increases significantly. So, we will 
target funds for retention purposes during that critical time 
frame for individuals who are good performers and who have the 
skills and knowledge that we need.
    Senator Durbin. So you do not look at all of the workforce 
and consider how many are facing student loan obligations. You 
are really trying to focus in on those two particular areas, 
critical need, as well as the early-year retention.
    Mr. Walker. That is correct, and as you know, Mr. Chairman, 
there are statutory requirements. We do not have total, 
unfettered discretion. There are certain statutory requirements 
as to how these funds should be used. We want to make sure that 
this is not something that we are just using as an across-the-
board increase in compensation. We want to use it in a targeted 
fashion. We want to use it in conjunction with other tools that 
we have such as hiring or retention allowances in order to 
attract and retain top talent.

                NATIONAL ENERGY POLICY DEVELOPMENT GROUP

    Senator Durbin. Let me ask you--of course, the GAO has 
received more attention than usual over the question of the 
National Energy Policy Development Group, chaired by Vice 
President Cheney. What is the status of this issue, and what 
specifically do you need to obtain from this effort to feel 
that you have met your statutory obligation?
    Mr. Walker. Well, first let me say for the record, Mr. 
Chairman, I was not pleased with having to file suit. On the 
other hand, I believe it was absolutely the right thing to do 
under the circumstances. I have to do what I think is right, 
irrespective of who the players are.
    In this particular case, we tried very, very hard to avoid 
litigation. I personally spent about 6 months trying to see if 
we could end up getting the administration interested in coming 
up with a reasoned and reasonable approach. In the end, they 
refused. As a result, we have two principled parties with a 
difference of opinion. That is what the judicial system is for.
    It is now in the U.S. District Court, Washington, D.C. It 
has been assigned to a judge. The judge has approved a 
schedule. That schedule calls for various filings with the 
court between now and the end of the summer, and oral argument 
is scheduled for September 18, 2002. I would expect that a 
decision might come this fall. Now, that is at the district 
court level, and depending upon what that decision would be, 
and if we are not otherwise able to reach an accommodation in 
the interim, then the decision could end up being appealed to 
the circuit court, and ultimately to the Supreme Court.
    The real issue here is the right of the Congress to use the 
GAO to obtain facts; to conduct professional, objective, 
nonpartisan and nonideological analyses; and to issue reports 
to the entire Congress and to the American people. We believe 
it is a very important issue with regard to transparency and 
accountability for Government, and we are still hopeful we 
might be able to work something out with the administration, 
but they have to show a willingness to do that.
    Senator Durbin. Who represents the GAO as attorneys in 
this?
    Mr. Walker. The law firm of Arnold & Porter. Carter 
Phillips is our lead attorney.
    Mr. Dodaro. Sidley, Austin, Brown and Wood.
    Mr. Walker. I misspoke. I have got too many things on my 
mind. Sidley & Austin. Carter Phillips is our lead attorney. 
Carter Phillips, as you undoubtedly know, was a former official 
in the Reagan Justice Department. He has appeared before the 
Supreme Court 20-plus times, an extremely able professional. 
The firm, Sidley & Austin, is a top-quality firm, one of the 
top five in the country of its size.

                     EVIDENCE SOUGHT IN NEPDG SUIT

    Senator Durbin. What specific information is GAO seeking?
    Mr. Walker. What we are seeking simply is who met with 
whom, when, about what, and what did it cost? We are not 
seeking deliberative information, we are not seeking what was 
recommended to the President, and we are not seeking the notes 
and minutes of the meeting. Our view is that if GAO cannot 
obtain that type of information for the Congress, then we have 
got a real concern, because it is not just the issue of the 
energy task force, it is the ability of the administration to 
use this type of a vehicle to circumvent oversight.
    Senator Durbin. Is there precedent for the administration 
providing this information to the GAO?
    Mr. Walker. There is. We have throughout various 
administrations obtained information on issues such as the 
Clinton Health Care Task Force, the Clinton China Trade Task 
Force, and the National Performance Review, which was headed by 
Vice President Gore, a variety of different things. There are 
some similarities and there are some differences between this 
circumstance and those.
    We have tried very hard to make sure that we are being 
reasonable about this and, in fact, we have scaled back the 
request from what the original requesters wanted, but as you 
know, Senator, we now have a request from four Senate full 
committee and subcommittee chairmen for this information, and 
under our statute it says we shall do work for a committee, so 
we feel compelled to move forward.
    Senator Durbin. Now, haven't other groups also sought 
information about this task force? Has there been a disclosure 
pursuant to other litigation, or other legal action?
    Mr. Walker. The Natural Resources Defense Council and 
Judicial Watch have both filed separate pieces of litigation in 
connection with this matter. In some cases they are seeking 
similar information to what we are. In others, they are not 
seeking as much as we are.
    For example, we are seeking certain information with regard 
to the staff that were assigned to the White House on a 
temporary basis for the purpose of staffing this task force. At 
least one of those suits does not seek that information.
    We are also seeking with whom the Vice President and other 
members of the task force met. Neither of the other suits is 
seeking that information. They are bringing their action 
generally under the Freedom of Information Act and, as you 
know, Mr. Chairman, our rights extend far beyond the Freedom of 
Information Act.
    We are, however, coordinating very closely with those two 
organizations to the extent that they receive information that 
would be helpful in discharging our responsibilities to 
Congress. We obtain access to that information from the 
relevant agencies such that we can narrow what the differences 
are between what has been made available and what we need to do 
our job.

          FEDERAL ACCOUNTING STANDARDS ADVISORY BOARD [FASAB]

    Senator Durbin. There is a little-known organization, the 
Federal Accounting Standards Advisory Board, and it is my 
understanding that you have been part of an effort to change 
the composition of this board. Could you describe that?
    Mr. Walker. I would be happy to. I am the chairman of the 
Joint Financial Management Improvement Program, which is 
comprised of the Secretary of the Treasury, the Director of 
OMB, the Director of OPM, and the Comptroller General of the 
United States.
    The Federal Accounting Standards Advisory Board is the body 
which has received recognition from the American Institute of 
Certified Public Accountants as the authoritative standard-
setting body for generally accepted accounting principles for 
Federal Government entities. One of the things that we wanted 
to try to achieve is to make sure that that board was comprised 
of a majority of individuals who did not have to comply with 
the rulings that that board makes.
    In other words, we believe that it was very important that 
a majority of that board be independent, not only in fact but 
in appearance, and that there not be individuals who were with 
Federal Government entities who had to comply with the 
pronouncements that were promulgated by the FASAB. As a result, 
we looked to revise the composition to increase to six non-
Federal Government members from three along with the three 
Federal Government representatives from GAO, OMB, and the 
Treasury Department, which happen to be the three signators of 
this document.
    We are also looking to have two or three ex officio members 
of the board, who would have rights to all the information and 
would have the rights to be heard, but they would not be voting 
members. We have a meeting next week of the principals, and I 
expect at that meeting we are going to discuss this 
possibility. I would recommend that CBO, the Department of 
Defense, and possibly one civilian agency have an ex officio 
capacity. They would have access to all of that information and 
would be able to express their views on issues of interest and 
concern.
    But we believe it is very important that a majority of the 
voting members of the board be independent and not be subject 
to the standards that are being promulgated.
    I might also add that the people who would get appointed 
could be former Federal Government employees. They are not 
necessarily coming from the private sector, so this is not a 
private sector versus Government issue. It is independence from 
having to apply the standards versus not being independent with 
regard to that.
    Senator Durbin. I have two questions. It is interesting 
that you have taken this approach at a time when committee 
after committee on Capitol Hill is investigating the private 
sector accounting profession and whether or not their standards 
are sufficient to give, I guess, transparency and credibility 
to Corporate America. I went to a hearing yesterday where the 
board of directors of Enron, former members and current members 
of the board of directors of Enron basically pointed to 
everyone but themselves and said, ``they just are not doing 
their job.'' Well, that would include the auditors and 
accountants.
    At a time when people are calling into question as to 
whether or not we ought to establish new oversight standards 
for the accounting profession, you have decided on this board 
to go heavy on the private side, as opposed to public sector 
accounting. Why did you do that?

                 PURPOSE SERVED BY CHANGING FASAB BOARD

    Mr. Walker. Well, first, I think it is very important, Mr. 
Chairman, that this is not a private sector versus public 
sector issue. In other words, we want six individuals who are 
not current Federal Government employees who would not have to 
comply with the pronouncements of this body. Those individuals 
could be former Federal Government employees, and they may not 
have ever worked for the private sector, so it is really not 
private sector versus public sector. It is six individuals who 
are independent from having to comply with the standards.
    One of the current board slots is the DOD representative, 
in certain situations, he impeded the ability of this body to 
improve the transparency and accountability of Federal 
accounting and reporting. I am not talking about individuals, 
but rather the institution--impeded the ability of the FASAB to 
be able to make progress. Part of it was because they had to 
comply with the standards, and it was going to be difficult for 
them to comply with the standards.
    And so, we want knowledgeable professionals, a majority of 
whom are independent from having to comply with these 
standards. I have already sought to make sure that we look for 
former officials, former Federal Government officials, as 
candidates for some of these 6 slots.

                   CBO REPRESENTATION ON FASAB BOARD

    Senator Durbin. Let me ask a second question, and that is a 
question about the CBO not being on the board. Do you think the 
legislative branch is adequately represented?
    Mr. Walker. I do. The Comptroller General of the United 
States is clearly a legislative branch officer, and GAO will 
continue as a voting member of FASAB. I firmly believe that the 
CBO ought to have the right to have an ex officio member on 
FASAB as well. Ex officio means they are at the table, they 
receive the information, just like the other board members do, 
in advance. I think that is important. That will enable them to 
be able to articulate whatever views they have at the outset of 
each meeting and to participate to the extent that they believe 
it would be appropriate. So in summary, I do believe the 
legislative branch is adequately represented.

                     TECHNOLOGY ASSESSMENT PROGRAM

    Senator Durbin. We appropriated $500,000 this year to 
conduct the pilot to evaluate whether the Senate needs to 
expand its technological assessment capabilities. What is the 
status of that pilot?
    Mr. Walker. Well, as you know, the Senate approved that, 
and it was $500,000. We have undertaken a project dealing 
with----
    Ms. Harper. Biometrics.
    Mr. Walker [continuing]. Biometrics at the border. We are 
looking at the use of biometrics at the border for security 
purposes. We have entered into a cooperative arrangement with 
the National Academy of Sciences. That is one example of where 
we are trying to have partnerships with other organizations to 
try to help get our job done. We expect that we will brief the 
appropriate parties by mid-June on the status of that effort, 
and then we will issue our report by August.
    Gene, is there anything you want to add to that?
    Mr. Dodaro. That is correct. We have already had one 
discussion with a national panel of experts and are scheduled 
to gather information. We are on target to produce the report 
later this summer.
    Senator Durbin. A question it raises for me is whether or 
not we can do this under the current setup. Historically, the 
Office of Technology Assessment developed that type of 
expertise. They were given that type of assignment, and now 
that they are gone, I guess the question presents itself, can 
we match their performance with the current cooperative 
arrangement that we have described?
    Mr. Walker. Mr. Chairman, I would say that the Office of 
Technology Assessment obviously did important work, but it was 
also a very small office, with a limited amount of resources. 
My personal view is that GAO is well positioned in partnership 
with other parties such as the National Academy of Sciences to 
do this type of work, and that in general it may make sense to 
try, to the extent that you can, to utilize existing entities 
to accomplish objectives rather than creating new ones.
    Mr. Dodaro. Basically, the pilot assessment process 
required us to build in an evaluation of how well the pilot 
worked. So part of the pilot report that we are going to issue 
this summer will include an independent evaluation on how well 
this process worked and what alternatives and options could be 
pursued to do this on a somewhat broader scale.

                        EMERGENCY RESPONSE FUND

    Senator Durbin. In the fiscal year 2002 supplemental, you 
received $7.6 million. Will you be obligating all of those 
funds this fiscal year?
    Mr. Walker. That is for the security arrangements, as I 
recall.
    Ms. Harper. Yes, the security enhancements.
    Mr. Walker. Mr. Chairman, we are putting together a 
proposed security enhancement plan. We are in the process of 
trying to finalize our consultations with the House of 
Representatives. As I mentioned before, we have to consider not 
just what GAO's needs are, but also the fact that we may be a 
contingency site for the House of Representatives, and even 
potentially, on occasion, for the Senate.
    We are in the process of finalizing those discussions. If, 
after they are finalized, it turns out that we do not need all 
of those funds, I commit to you that I will advise you, but we 
are not at the point yet that we can give a definitive 
statement, because we have not finalized those discussions.
    Senator Durbin. I believe you have asked for $3 million 
more.
    Ms. Harper. Four million dollars more.
    Mr. Walker. Right. In other words, if you look at the 
supplemental last year plus the $4 million, we are looking at a 
total of $11.6 million. If it turns out--and we will finalize 
this, I think, within the next month or two--that we do not 
need all of that, I can assure you I will not hesitate to tell 
you.

                            CLOSING REMARKS

    Senator Durbin. Let me just say for the record that Senator 
Bennett had an unavoidable conflict and could not be here 
today, but he may have some questions that he wishes to submit 
to you and the other witnesses. I want to thank the GAO and all 
of you for the good work you are doing, and I appreciate your 
testimony.
    Mr. Walker. Thank you, Mr. Chairman.
                       GOVERNMENT PRINTING OFFICE

STATEMENT OF MICHAEL F. DiMARIO, PUBLIC PRINTER
ACCOMPANIED BY:
        ROBERT T. MANSKER, DEPUTY PUBLIC PRINTER
        FRANCIS J. BUCKLEY, JR., SUPERINTENDENT OF DOCUMENTS
        ROBERT B. HOLSTEIN, COMPTROLLER
        WILLIAM M. GUY, BUDGET OFFICER
        ANDREW M. SHERMAN, DIRECTOR, CONGRESSIONAL RELATIONS
        CHARLES C. COOK, SR., SUPERINTENDENT, CONGRESSIONAL PRINTING 
            MANAGEMENT
    Senator Durbin. Our next witness is Mr. Mike DiMario, the 
Public Printer, Mr. DiMario is accompanied by Robert Mansker, 
the Deputy Public Printer, Francis Buckley, Superintendent of 
Documents, Robert Holstein, Comptroller, William Guy, Budget 
Officer, Andrew Sherman, Director of Congressional Relations 
and Charles Cook, Superintendent of Congressional Printing 
Management.
    GPO's budget request is roughly $122 million, $90 million 
for the congressional printing and binding appropriation, and 
$32 million for the Superintendent of Documents salaries and 
expenses.
    Mr. DiMario, we expect that this may be your last 
appearance with the subcommittee. The President has announced 
his intention to nominate Bruce James as Public Printer. I want 
to thank you for your many years of public service, including 9 
years as the Public Printer. Thank you for coming here today. 
We certainly wish you the best, and we invite you at this point 
to give your testimony.

                            OPENING REMARKS

    Mr. DiMario. Thank you very much, Mr. Chairman.
    GPO's original request for fiscal year 2003 was for a total 
of $129.3 million. There is a difference between the number 
that you use and the number that I use, and that is because we 
included $6.9 million in accordance with the administration's 
instruction to charge agencies for the full cost of post-
retirement benefits for the employees covered by these 
appropriations. And I put that into the record for those people 
who may have read my prepared statement that I gave to you, so 
they understand the difference.
    Our appropriation request includes $95.3 million for the 
congressional printing and binding appropriation and $34.1 
million for the salaries and expenses appropriation of the 
Superintendent of Documents. Those appropriations have prorated 
to them the portion of the $6.9 million that they would be 
responsible for. For clarity I make that statement.
    Since the time of our original budget request, we requested 
a supplemental for $7.9 million. That is to fund a shortfall of 
$5.9 million in the fiscal year 2001 congressional printing and 
binding appropriation, and $2 million for asbestos abatement in 
our central office buildings. If that supplemental 
appropriation request is approved, our total requirements for 
fiscal year 2002 would be reduced to $123.4 million, a lesser 
amount than we originally submitted. If it is not approved, we 
will still need the shortfall funding restored in order to have 
adequate funding to carry out our mission to support the 
Congress.
    For congressional printing and binding, the funding level 
that we are requesting should be sufficient to ensure that the 
cost of Congress's printing and information products are fully 
covered. We have received shortfalls in the past, but we are 
not anticipating that at this point in time for 2003, assuming 
the appropriation is given to us.
    In 2002, at the current time, we do not anticipate any 
shortfall. 2002 is not a complete year, however, so we just do 
not know what the final budget numbers will be, but currently 
it appears that we have adequate money in that appropriation.
    For the salaries and expenses appropriation we are asking 
for an increase to replace obsolete format servers and other 
equipment, and for improvements to enhance online services 
provided through GPO Access. It is essential that we enhance 
our data archiving capabilities, including data migration 
activities, to refresh essential legislative and regulatory 
online files.
    The salaries and expenses appropriation is for the 
Superintendent of Documents function, which is our distribution 
function.
    Online formats are now the primary means of dissemination 
in the Federal Depository Library Program. We are continuing to 
transition the publications distributed to the depositories to 
electronic formats as quickly as we can without jeopardizing 
public access to the titles for which there are no dependable 
electronic equivalents.
    Finally, we are seeking a legislative change to adjust the 
statutory pay for the Public Printer and Deputy Public Printer. 
This will restore appropriate comparability with other 
legislative branch agency heads, senior staff in the House and 
Senate, and senior staff in the executive branch. We make this 
request for the interests of future GPO leaders. As you noted, 
this will be in all likelihood my last appropriation hearing, 
so it is certainly not in my interest that I advance that.

                           PREPARED STATEMENT

    Mr. Chairman, this concludes my opening remarks. We have 
given you a prepared statement which I ask be placed in the 
record.
    Senator Durbin. Your statement will be included in its 
entirety.
    Mr. DiMario. Thank you. We are prepared to answer any 
questions that you may have.
    [The statement follows:]
                Prepared Statement of Michael F. DiMario
    Chairman and Members of the Subcommittee, I am pleased to be here 
today to present the appropriations request of the Government Printing 
Office (GPO) for fiscal year 2003.
                fiscal year 2003 appropriations request
    For fiscal year 2003, the Government Printing Office (GPO) is 
requesting a total of $129.3 million: $95.3 million for the 
Congressional Printing and Binding Appropriation and $34.1 million for 
the Salaries and Expenses Appropriation of the Superintendent of 
Documents. At the direction of the Office of Management and Budget, the 
request includes $6.9 million in accordance with the Administration's 
proposal to charge agencies for the full cost of post-retirement 
benefits for the employees covered by these appropriations. It also 
includes $5.9 million to cover a shortfall in fiscal year 2001 
Congressional Printing and Binding funds.
    Exclusive of the amounts for post-retirement benefits and the 
shortfall, our requested increase over fiscal year 2002 (including 
emergency supplemental funding approved in the wake of the September 11 
attacks) is $1.9 million, or 1.7 percent. These funds are primarily to 
cover mandatory pay costs and workload changes in congressional 
printing, as well as additional capability for the Superintendent of 
Documents to provide public access to the growing volume of online 
Federal information made available through GPO Access, our online 
information service (www.gpo.gov/gpoaccess). Approximately 225,000 
titles are now made available through this service, which is used by 
the public to retrieve more than 31 million documents every month. 
Overall, our request represents an increase of $14.7 million, or 12.8 
percent, over the amount approved for fiscal year 2002 (including 
emergency supplemental funding), with most of the increase ($12.8 
million) for the shortfall and post-retirement benefits.
    Fiscal Year 2002 Supplemental.--Last month, I submitted a 
supplemental appropriations request for fiscal year 2002. I requested 
the $5.9 million for the fiscal year 2001 shortfall and $2 million for 
a necessary project to abate asbestos in the buildings comprising GPO's 
central office complex on North Capitol Street. If this supplemental 
request is approved, the $5.9 million for the fiscal year 2001 
shortfall in the Congressional Printing and Binding Appropriation would 
no longer be needed as part of the fiscal year 2003 request.
    Congressional Printing and Binding Appropriation.--The 
Congressional Printing and Binding Appropriation covers the estimated 
costs of producing the Congressional Record, bills, reports, hearings, 
documents, and related products required for the legislative process. 
This appropriation is critical to the maintenance and operation of 
GPO's in-plant capacity, which is structured to serve Congress' 
information product needs. It also covers database preparation work on 
congressional publications disseminated online via GPO Access.
    Salaries and Expenses Appropriation.--The Salaries and Expenses 
Appropriation of the Superintendent of Documents pays for documents 
distribution programs and related functions that are mandated by law. 
The majority of the appropriation is for the Federal Depository Library 
Program (FDLP), under which congressional and other Government 
publications and information products are disseminated to approximately 
1,300 academic, public, Federal, law school, and other libraries 
nationwide where they are available for the free use of the public. 
While some of the funding for the FDLP is for salaries and benefits, 
most is for printing and disseminating publications (including 
publications in CD-ROM and online formats, which are now the majority 
of items in the program) to depository libraries. Related statutory 
functions covered by this appropriation are cataloging and indexing, 
by-law distribution, and the international exchange distribution of 
U.S. Government publications. Finally, through the FDLP, this 
appropriation provides the majority of funding for the operation of GPO 
Access. GPO's other major documents distribution functions--the sales 
program and agency distribution services--are structured to be funded 
by revenues earned and receive no appropriated funds.
            congressional printing and binding appropriation
    Our request for $95.3 million for the Congressional Printing and 
Binding Appropriation includes funding to cover Congress's estimated 
printing requirements for fiscal year 2003, a prior year shortfall in 
this appropriation, and the Administration's retirement plan, and, as 
follows:

Estimated Fiscal Year 2003 Congressional Printing and Binding 
Requirements

                        [In millions of dollars]

Committee hearings................................................  21.3
Congressional Record (including the online Record, the Index, and 
    the bound Record).............................................  20.4
Miscellaneous Printing and Binding (including letterheads, 
    envelopes, blank paper, and other products)...................  16.8
Bills, resolutions, amendments....................................   7.4
Miscellaneous Publications (including the Congressional Directory 
    and serial sets)..............................................   4.5
Committee Reports.................................................   3.4
Documents.........................................................   2.5
Committee Prints..................................................   2.4
Details to Congress...............................................   2.3
Business and Committee Calendars..................................   2.3
Document Envelopes and Franks.....................................   1.0
                                                                  ______
      Subtotal....................................................  84.3
                        =================================================================
                        ________________________________________________
Elimination of the Fiscal Year 2001 Shortfall.....................   5.9
Post-Retirement Benefits..........................................   5.1
                                                                  ______
      Total.......................................................  95.3

    Fiscal Year 2003 Estimated Requirements.--Exclusive of the amounts 
for post-retirement benefits and the fiscal year 2001 shortfall, the 
funding we are requesting for Congress' fiscal year 2003 printing 
requirements represents a net increase of approximately $3.3 million, 
or 4 percent, compared with the approved level for fiscal year 2002. As 
our Budget Justification shows, there is an estimated $3.7 million in 
price level increases due to contractual wage agreements as well as 
higher costs for materials and supplies. These price level increases 
are offset by an estimated $400,000 reduction resulting from projected 
volume decreases in all production workload categories except for 
hearings and committee prints. Estimates of the changes in workload 
volume are based on historical data from previous first session years.
    Fiscal Year 2001 Shortfall.--In addition to the funding required 
for congressional work to be performed in fiscal year 2003, we are 
requesting $5.9 million to eliminate a shortfall for work performed in 
fiscal year 2001.
    Last year, in the fiscal year 2001 Legislative Branch 
Appropriations supplemental, Congress provided funding to eliminate a 
cumulative shortfall in the Congressional Printing and Binding 
Appropriation through fiscal year 2000. At that time, we projected and 
disclosed a developing shortfall for fiscal year 2001, but we did not 
request funding to cover it because the fiscal year had not concluded. 
The $5.9 million we are now requesting will eliminate all existing 
shortfalls through fiscal year 2001. At this time, no shortfall is 
anticipated for fiscal year 2002.
                  salaries and expenses appropriation
    The programs covered by our request of $34.1 million for the 
Salaries and Expenses Appropriation of the Superintendent of Documents 
are as follows:

                        [In millions of dollars]

                                                               Estimated
        Program                                             Requirements

Federal Depository Library Program................................  27.3
Cataloging and Indexing Program...................................   4.0
International Exchange Program....................................    .7
By-Law Distribution Program.......................................    .3
                                                                  ______
      Subtotal....................................................  32.3
                        =================================================================
                        ________________________________________________
Post-Retirement Benefits..........................................   1.8
                                                                  ______
      Total.......................................................  34.1

    Exclusive of the request for post-retirement benefits, the funding 
we are requesting for fiscal year 2003 represents a net increase of 
approximately $2.7 million, or about 9 percent, over the approved level 
for fiscal year 2002.
    The majority of the increase, or $2.6 million, is to replace 
obsolete formats, servers, and other equipment and for equipment 
improvements to enhance GPO's online services. It is essential that we 
enhance our data archiving capabilities, including data migration 
activities to refresh essential legislative and regulatory online 
files. Several of these files date back to 1994, while generally 
accepted practices call for systematic data maintenance on at least a 
5-year cycle.
    The requested increase also includes $482,000 for mandatory pay 
increases, including anticipated COLA's, promotions, within-grade 
increases, and transit subsidies for covered employees; $404,000 to 
cover price level changes affecting materials and supplies at the 
anticipated rate of inflation of approximately 2 percent; $348,000 to 
cover depreciation for the modernization of legacy automated systems 
supporting the FDLP; and $91,000 for 3 additional FTE's for the FDLP to 
assist in the management of the FDLP Electronic Collection. The 
additional FTE's are directly related to the increased workload of 
managing the expanding range of files available to the public through 
GPO Access.
    These increases are offset by a projected workload reduction of 
approximately $1.2 million, attributable primarily to the continuing 
decline of paper copies distributed to depository libraries. The 
decline is part of the ongoing migration of the FDLP to a predominately 
electronic program.
    Transition to More Electronic Dissemination.--The transition to a 
more electronic FDLP is continuing, as projected in the Study to 
Identify Measures Necessary for a Successful Transition to a More 
Electronic Federal Depository Library Program (June 1996) and in 
fulfillment of direction from Congress in fiscal year 2001 that 
``emphasis should be on streamlining the distribution of traditional 
copies of publications which may include providing online access and 
less expensive electronic formats.''
    Nearly 61 percent of the 37,600 new FDLP titles made available 
during fiscal year 2001 were disseminated electronically. For fiscal 
year 2002 to date, 66 percent of the new titles made available to the 
public through the FDLP have been online. Through its electronic 
information dissemination component, the FDLP now delivers more content 
to users than ever before. In order to preserve public access, the 
distribution of tangible formats continues for those titles for which 
there is no acceptable online alternative.
    Withdrawal of Publication from FDLP.--In the wake of the September 
11 attacks, the Superintendent of Documents requested Federal 
depository libraries to withdraw and destroy their depository copies of 
a United States Geological Survey (USGS) CD-ROM entitled Source Area 
Characteristics of Large Public Surface-Water Supplies in the 
Conterminous United States: An Information Resource for Source-Water 
Assessment, 1999. The CD-ROM contains information relevant to public 
drinking water supplies.
    The Superintendent's October 12, 2001, letter was issued pursuant 
to a letter from the USGS, dated October 5, 2001, which asked GPO to 
``request that depository libraries receiving the [Source-Water CD-ROM] 
be instructed to destroy their copies.'' The Superintendent's request 
went to the 335 Federal depository libraries which had selected this 
document for their collections.
    The Superintendent of Documents' request followed established 
policy for the withdrawal of documents from the FDLP. The Government 
may request the removal of materials from depository libraries since 
under Title 44 of the U.S. Code all FDLP materials remain Government 
property. Requests to withdraw happen rarely, however. Since fiscal 
year 1995, the GPO has distributed 230,019 tangible product (print, 
microfiche, and CD-ROM) titles to depository libraries, and recalled 
just 20 (16 to be destroyed, 3 returned to the agency, 1 removed from 
shelves). Such actions are taken only on the request of the issuing 
agency, most commonly because the titles contain information that is 
erroneous or has been superseded. The Superintendent has no statutory 
ability to deny agency document withdrawal requests, but instead serves 
as the statutory conduit for carrying them out. Prior to initiating any 
withdrawal request, however, GPO policy is to carefully review each 
request and ensure that all such requests are made in writing.
    GPO is working closely with the library community on the issue of 
withdrawing documents and is keeping the community, as well as the 
Joint Committee on Printing, informed. Because our mission is to 
promote public access to Government information, we take very seriously 
any Federal agency's request to restrict access to Government 
information that has been made public. However, we also have a duty 
under the law to cooperate with Federal agencies in the appropriate 
distribution of the official information they publish. Since the 
September 11 attacks, the USGS CD-ROM is the only document that the 
Superintendent of Documents has been asked to be withdrawn from 
depository libraries. Any future agency withdrawal requests will be 
handled in accordance with law and established policy.
                             revolving fund
    Financial Results for Fiscal Year 2001.--GPO's fiscal year 2001 
consolidated financial statements were audited by the firm of KPMG LLP. 
We have been advised that GPO will receive an unqualified, or 
``clean,'' opinion on the statements.
    GPO ended the year reporting a loss of approximately $1.6 million 
from the results of normal business operations, a margin of two-tenths 
of one percent on $712.4 million in total revenues. However, this 
figure does not reflect two unusual accounting adjustments: a $12 
million write-off of the cost of the Sales Program's Integrated 
Processing System (IPS), and a required actuarial increase of $31.4 
million in the long-term estimated liability of workers' compensation 
benefits under the Federal Employees Compensation Act (FECA). 
Altogether, these factors resulted in a reported loss of $45 million. 
Our statements have been prepared to reflect the uniqueness of the two 
adjustments. The loss will be covered by GPO's retained earnings and 
will not require additional appropriations.
    The implementation of IPS, which will replace the Sales Program's 
legacy automated systems, has been delayed by modification work on the 
original off-the-shelf system to make it fit the Program's needs. The 
modifications have nearly been completed. IPS has been certified by the 
GPO's Inspector General to be capable of operations, and training is 
currently being undertaken to implement the system. During the period 
in which IPS was under development it was not depreciated, in 
accordance with generally accepted accounting principles (GAAP). 
However, for fiscal year 2001, GPO's auditors recommended several 
options for making an accounting entry for IPS. A one-year write-off of 
IPS' capitalized costs was among the recommended options. We selected 
this option because it obviates the need to assign these costs via 
depreciation to future years at a time when the Sales Program is 
cutting expenses to meet reduced order volume. All of the system's 
acquisition costs have been paid for and the one-time write-off causes 
no additional reduction of GPO's available funds.
    The adjustment to the long-term liability of GPO's workers' 
compensation program is based on actuarial assumptions that are 
different from those used to compute this liability in prior years. The 
difference has arisen due to changes in the assumptions used by the 
Department of Labor affecting the computation of this liability 
governmentwide, a figure which is currently forecast at $24.7 billion. 
The adjustment in GPO's liability conforms to accepted Government 
accounting practice. As adjusted, this liability is essentially a 37- 
to 55-year forecast of what GPO's responsibility for workers' 
compensation could be in view of historical benefit payment patterns, 
current information related to benefit claims, and Labor Department 
assumptions. The required reporting of this forecast does not cause any 
expenditure by GPO, does not affect GPO's printing rates, and does not 
reflect a reduction in GPO's available funds. It is important to note 
that the FECA adjustment is not indicative of an increase in GPO's 
workplace injury and illness rates, which remain comparable to other 
Federal agencies with substantially industrial missions, such as the 
Bureau of Engraving and Printing and the U.S. Mint.
    Effect on Revolving Fund of Funding Post-Retirement Benefits.--The 
Administration's proposal to have agencies pay the total cost for their 
employees' post-retirement benefits would increase GPO costs by nearly 
$17.9 million in fiscal year 2003. Of this amount, $6.9 million has 
been included in this request for the two appropriations made directly 
to GPO. The balance of nearly $11 million would have to be charged to 
GPO's Revolving Fund, which finances operations that provide for the 
Government's printing, printing procurement, sales of publications, 
agency distribution, and related services. Recovering this cost would 
require that GPO's rates charged to Federal agencies and the prices 
charged to the public for the sale of publications be significantly 
increased. Imposing these price increases would be a heavy burden on 
GPO's agency and public customers.
    Police Merger.--We are cooperating with the General Accounting 
Office in its current review of a proposal to merge the GPO police 
force with the Capitol Police. As we have stated previously, our main 
concern is that we continue to have effective input into the management 
of GPO's unique security needs in the wake of any consolidation that 
Congress may decide upon.
    Status of Air Conditioning Project.--In the fiscal year 2001 
supplemental appropriations act last year (Public Law 107-20), Congress 
provided $6 million for more energy-efficient air conditioning and 
lighting systems at GPO. The air conditioning project is underway. The 
architecture and engineering study, which details the system design and 
equipment requirements, has been completed. Bids for the air 
conditioning contractor have been solicited and were due to GPO by 
March 25. A contract has been awarded and the work schedule calls for 
the new system to be installed and operational by the end of March 
2003. Work on the lighting improvements will follow.
    Emergency Preparedness Projects.--Last fall, Congress provided $4 
million to GPO in supplemental transfer authority for emergency 
preparedness (Public Law 107-117). As we have communicated to the 
Senate and House Appropriations Committees, our plan for spending these 
funds includes $1.1 million to replace GPO's ageing fire protection, 
signaling, and public address systems to protect GPO personnel and 
property. The balance of $2.9 million is to establish a limited remote 
printing capability at GPO's Laurel, MD, warehouse, which will provide 
for continuity of necessary printing operations in support of Congress. 
These funds are also being used to establish a remote mirror site for 
GPO Access outside of Washington, DC. We are currently reviewing GPO 
field offices for placement of this site. Both Committees have approved 
our proposal for spending these funds.
    GPO Emergency Support for Congress.--In the wake of the anthrax 
attacks last fall, GPO provided temporary work space for personnel from 
the Senate Office of Legislative Counsel and some personnel from the 
Office of the Clerk of the House. Since that time, as the result of the 
closure of the Capitol's off-site delivery center, we have provided 
space at our warehouse loading docks off North Capitol Street for use 
by the Capitol Police in screening all trucks bound for congressional 
offices for the distribution of supplies, equipment, and food. Up to 70 
trucks a day have passed through this operation. At the request of the 
Chairman of the Committee on House Administration, we are providing 
space to support off-site computer operations for House Information 
Resources.
    Sales Program.--In recent years, the volume of sales through GPO's 
sales of publications program has the been declining. The free 
availability of publications on GPO Access and other Government web 
sites has been the primary reason for this decline, although 
competition from other Government publications sales outlets has 
contributed to it. The losses have been temporarily financed through 
GPO's Revolving Fund.
    We have taken a number of steps to reduce program costs and 
increase revenues. In the past 5 years, we have cut FTE's in the sales 
program from 529 to 392, or 26 percent. Further FTE reductions of 25 
and 35 are planned for fiscal year 2002 and 2003, respectively, 
yielding an additional reduction of 15 percent during that period. We 
have reduced warehouse space for the program by closing our Springbelt, 
VA, paper warehouse and consolidating paper warehouse operations in our 
documents warehouse space in Laurel, MD. We have made across-the-board 
pricing adjustments of 20 percent over the past two years. In addition, 
we are emphasizing our online ordering service, and we have implemented 
an 800-ordering number and expanded credit card payments to include 
American Express.
    Along with these actions, we have begun closing those GPO retail 
bookstores around the Nation that no longer are economically viable. 
Closing these stores will reduce costs, and we expect to retain a 
substantial portion of store revenues through our online, fax, phone, 
and mail order operations served by our warehouse. Quick turnaround 
service for purchasers can be provided by express overnight delivery. 
At the same time, free public access to Government information will 
remain unaffected through local Federal depository libraries as well as 
Internet availability.
    To date, we have proceeded with the closure of 6 stores: San 
Francisco, Boston, the McPherson Square store in Washington, DC (one of 
3 in the Washington, DC, area), Philadelphia, Chicago, and Birmingham, 
AL. We provided advance notification to the respective House and Senate 
delegations for these 6 stores our plans, as well as the Joint 
Committee on Printing. Other closures are pending and we will be 
providing notification soon to the respective delegations about these 
stores.
    In spite of the decline in the volume of publications sold, we 
believe the continued operation of a sales program that provides the 
public with an opportunity to purchase their own copies of Government 
documents, pursuant to the provisions of chapter 17 of Title 44, is 
justified. Our objective is to reduce the costs of this program to a 
level consistent with the program revenues.
    However, part of the costs of the sales program are indirect 
overhead expenses that impose a proportionally greater burden on the 
program as revenues have declined. This overhead includes many expenses 
that are unique to Government agencies, such as costs for personnel and 
budget offices, EEO and Inspector General operations, security 
personnel, and other administrative costs. As GPO strives to find a way 
to continue providing the public service afforded by the sales program 
while minimizing its costs, it may become necessary to discuss other 
funding options for the program. For example, until 1978, the program 
received part of its funding from appropriations to cover general and 
administrative expenses.
    FTE Level.--I am requesting a statutory ceiling on employment of 
3,222 FTE's. This is a decrease of 38 from the previous year, and 
reflects a reduction of 6 FTE's from printing and binding operations 
and 35 from the sales program, offset by the increase of 3 under the 
Salaries and Expenses Appropriation. Total GPO FTE's have dropped 39 
percent between fiscal year 1990 and fiscal year 2001, 36 percent since 
fiscal year 1993 alone, when I first took office. GPO is now at its 
lowest employment point in the past century, principally due to our use 
of electronic information technology.
                           additional issues
    Legislative Changes.--We are requesting a change to section 303 of 
Title 44, regarding the pay of the Public Printer and the Deputy Public 
Printer, in order to maintain pay parity with other comparable 
legislative branch officials as well as appropriate comparability with 
senior staff throughout the Government. Changes in the pay levels for 
the Public Printer and Deputy Public Printer have been provided through 
the appropriations process, as they last were in the early 1990's.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement, and I would be pleased to answer any questions you 
may have.

                    ADMINISTRATION'S PRINTING POLICY

    Senator Durbin. Well, thank you very much.
    Mr. DiMario, the decision last week announced by the Bush 
administration in their executive order to permit agencies to 
bypass the Government Printing Office will certainly have an 
impact on the agency. First, do you question the authority of 
the administration to make this decision by Executive order?
    Mr. DiMario. I certainly do, because we are dealing with a 
statutory provision of law that requires the agencies to 
prepare printing requirements by requisition to the Government 
Printing Office, subject to certain statutory exceptions that 
exist and/or waivers that have been granted to them from time 
to time by the Joint Committee on Printing, again based upon 
statutory provisions that allow those waivers to be granted. So 
to amend the statute, or attempt to, or provisions of a statute 
by the issuance, or future issuance, of a regulation which 
stems from the statute, seems to me to be inconsistent. You 
have to have regulations that follow statutes, that do not 
modify statutes.
    Senator Durbin. Does the Government Printing Office plan to 
take legal action to assert its statutory rights as you outline 
them?
    Mr. DiMario. Well, at this point in time we are probably 
not in a position to take legal action as such. The Office of 
Management and Budget has essentially issued to the agencies of 
Government in the executive branch a notice stating this is 
what their intention is. But for them to accomplish this, which 
is to change the Federal Acquisition Regulations, we believe 
they have to do so in accordance with the Administrative 
Procedures Act.
    The Administrative Procedures Act requires that they give 
public notice, and that would be in the Federal Register; that 
there be comment periods; and that others who are impacted by 
the proposed rule may comment as to that impact that they might 
have. I cannot speak to the time frame. OMB is talking about 
September 2002 implementation. I do not know, given the 
Administrative Procedures Act provisions, whether September is 
a realistic time to anticipate that. But certainly we would 
offer comments during this period of time, and we would also 
hope that other affected organizations would do the same, that 
they would offer their comments either favorable to what is 
being proposed, or from my judgment, unfavorable to it, because 
it is an item that has been looked at many, many times, and has 
been proposed in the past.
    Senator Durbin. Let us assume for a moment that it does go 
forward and address that hypothetical. Let me ask you, what 
impact would that have on the volume of work done by the 
Government Printing Office?
    Mr. DiMario. Well, this would have to be speculative on my 
part. The way I believe their regulation would be worded is not 
to say they could not come through GPO. We would be a voluntary 
source for them, but it would not be mandatory to use us.
    Currently, we do about 50 percent of all Federal printing. 
It comes through the Government Printing Office.
    Senator Durbin. Excuse me. Now, when you say 50 percent, is 
that actual printing, or printing that you contract out?
    Mr. DiMario. That is the portion of all Federal printing 
that GPO handles. Of that 50 percent, we contract out 
approximately 70 to 75 percent. Virtually the bulk of the 
executive branch work that comes to us currently is contracted 
out. We have a network of contractors on our bid list, 10,000 
or more contractors, including some very active contractors, in 
the range of 3,000 or 4,000, that pursue Government contract 
work. They are located around the country. It is a program that 
was put in place by the Congress many, many years ago. It is 
the Federal printing program of the Joint Committee on 
Printing. It is about 50 years old.
    As I noted, 50 percent of all Federal printing is work that 
is currently coming through us. The other 50 percent does not 
go through GPO. There are waivers or other provisions of law 
that authorize other operations in printing. As an example, 
classified printing does not have to come through us, so the 
National Security Agency, the Central Intelligence Agency and 
related agencies have classified printing programs and are 
authorized to produce that work without coming through GPO.
    Senator Durbin. Let me just try to zero in here, because I 
am trying to follow the percentage of a percentage, and I am 
losing track of it here. Let me ask you this. If the OMB 
regulation, recommendation is implemented, and if you assume 
that there is no work that will be coming from the executive 
branch then from the Government Printing Office, what impact 
does this have on your current work load? What percentage of 
your printing, either in-house printing or contracted printing, 
would be eliminated?
    Mr. DiMario. If no work is coming from the executive 
branch, it would eliminate the majority of the work that is 
coming to us.
    Senator Durbin. Give me a number. Is it 90 percent of the 
workload?
    Mr. DiMario. It has got to be 80 percent. Currently our in-
plant work is about 50-50 for the executive branch and the 
Congress. It would impact virtually all of our procured 
printing--I guess $475 million last year, and roughly $80 or 
$90 million in plant.
    Senator Durbin. So if 80 percent of your printing 
responsibility is tied up with executive contracts, executive 
assignments, and it could be eliminated on the basis of this 
executive order, what percentage of your FTEs would be affected 
by that?
    Mr. DiMario. It would probably knock out, again, 75, 80 
percent. The people that we actually have procuring printing, 
as opposed to manufacturing printing, those people would for 
the most part be gone, and a lot of those are in the field, and 
the central office. If we lost half of the in-house printing, 
then the question is, we would have to lose part of that 
workforce.
    Could we lose all of the workforce one for one? I do not 
know. For example, on the same presses we do the Congressional 
Record and the Federal Register. Under the assumption that we 
lose all executive branch work, there would be an assumption 
you would lose the Federal Register, which is a separate 
statute altogether, and yet we would still have to maintain a 
workforce to keep that press capability for Congress.
    So these are numbers that I am picking off the top of my 
head with respect to FTEs, but it would be substantial impact 
on GPO.

                           EMPLOYMENT LEVELS

    Senator Durbin. And currently you have how many FTEs, 
3,000, roughly?
    Mr. DiMario. Yes, about 3,000.
    Senator Durbin. I want to make certain it is clear for the 
record here, and that I understand, I want to give you an 
opportunity to look at it more closely and maybe come back with 
more precise figures, but your general observation is, if the 
OMB recommendation goes through, that 75 percent of this 
workforce of roughly 3,000 could be negatively affected?
    Mr. DiMario. Yes, sir, and I say it that way. Not all the 
workforce deals with the printing side, but the Superintendent 
of Documents' distribution side would be affected too. If the 
agencies are in compliance with the provision in OMB's 
suggested regulation, well, they may still furnish documents, 
which they are currently required to do, to the Superintendent 
of Documents for his decision to distribute them to the 1,300 
Federal Depository Libraries. There is a chance that that 
portion of the workforce would not be impacted at the same 
level as those people who are either procuring printing, who 
would be decimated by this, or those people who are producing 
work in-plant.
    Senator Durbin. I want to follow through on that question. 
But so that it is clear for the record, it is your estimate, 
and it is only an estimate, and I am going to certainly give 
you great accommodation here because you are just trying to be 
helpful to the subcommittee at this moment in coming up with an 
idea, but if the OMB recommendation goes through, approximately 
2,200 of the 3,000 employees at the GPO would be out of work.
    Mr. DiMario. It could be that many, yes, sir.
    Senator Durbin. I think it is safe to assume that if the 
OMB proposal goes through, that each agency of Government then 
would have to assign an FTE to assume the new responsibility 
when it comes to printing. I do not know how we would avoid 
that.
    Mr. DiMario. Yes, sir. Some agencies currently have 
employees who deal with printing, but they are not procuring 
printing, so they would have to take on that burden. We have 
people with specialized skill in procuring printing, but the 
agencies would have to do that. Currently, the number of 
billing address codes, locations throughout the executive 
branch and other places of Government that we deal with, is 
about 6,300. These are locations from which we are receiving 
requests for printing Government documents throughout the 
United States Government. Each of these locations in all 
likelihood would have to have some administrative burden to be 
able to procure their own product, unless they created a series 
of centralized procurement activities for printing, or brought 
them into an agency already in being.
    So yes, there would be duplication and there would be 
administrative costs. As a result, in our judgment, the cost 
would go up sharply for Government.
    Senator Durbin. I think you said earlier, and our staff has 
indicated as well, there is still an option under the OMB 
proposal where the executive agencies could use the services of 
the Government Printing Office.
    Mr. DiMario. Well, I believe so, because they are telling 
them under the regulation they no longer have to mandatorily 
follow the statutory provisions requiring the use of GPO but 
they cannot wipe out that statutory provision.
    Senator Durbin. It says in the press report that Mr. 
Daniels' memo would allow agencies to use GPO services if they 
were the cheapest available.
    Now, here is the problem we are facing. First, we do not 
know if OMB has the statutory authority to make this decision. 
Second, we do not know when the decision will be finalized. It 
could be September, it could be later. Third, we are being 
asked to appropriate a lot of money for the Government Printing 
Office to cover your FTE needs which could range somewhere from 
800 people to 3,000, depending on how much the OMB circular 
ultimately leaves executive agencies to use your services.
    Mr. DiMario. Yes, sir. The congressional printing and 
binding appropriation would have to cover some of the workforce 
that does some executive work, the in-plant work. For procured 
printing, we recover moneys by charging a surcharge to the 
agencies, including a great deal of the overhead----
    Senator Durbin. Transcripts for the agencies coming in----
    Mr. DiMario. We charge, roughly a 7-percent surcharge, or a 
rush surcharge of about 14 percent.
    Senator Durbin. Depending on the OMB recommendation, a 
great deal of that is at risk.
    Mr. DiMario. Yes, sir. I am not contradicting your 
position. I am just saying that it is not this appropriation 
that is dealing with the entire impact. The Superintendent of 
Documents appropriation again, if they were to continue through 
the current requirements of law and agencies make available to 
the Superintendent of Documents adequate copies to be 
distributed to the Federal Depository Library System, then that 
might not impact the Superintendent of Documents' workforce to 
the maximum potential extent.
    Senator Durbin. I hope you understand the predicament.
    Mr. DiMario. I understand it.
    Senator Durbin. I am trying to estimate the appropriations 
needs of the Government Printing Office in light of this 
contingency that could dramatically impact the number of people 
actually working.
    Mr. DiMario. Yes, sir.
    Senator Durbin. I do not believe that any of us want to be 
in a position that we are appropriating for FTEs who frankly do 
not have work to do, or do not have transfers from other 
agencies to cover expenses. I think that would be an 
irresponsible approach.
    Mr. DiMario. I totally understand that concern. I guess 
what I am saying is, the greater impact may be in the areas 
that are not currently covered directly by any of these 
appropriations. It would be from the surcharge moneys and other 
transfers that we receive.
    Put it this way, if I may. We are talking about 
approximately $32 million of surcharge revenue that we use to 
fund the agency in addition to the appropriations that we are 
requesting from you, so we would lose right up front that $32 
million. We would also lose roughly $80 million for in-plant 
work that we currently charge the agencies for products such as 
the Federal Register, passports, and postal cards, that kind of 
work. That is executive branch work.
    Let us say roughly $80 million plus $32 million of our 
current funding not coming through this appropriation would be 
lost.

                             PUBLIC ACCESS

    Senator Durbin. You have acknowledged in your testimony, 
and I have noted for the record here, that there has been a 
dramatic increase in online access to publications, lessening 
significantly the need for GPO's printed publications. You have 
estimated a decline of 25 employees, FTEs this year, an 
additional 35 FTEs next year in the sales program. It sounds to 
me like this is a resource for the GPO that is diminishing 
because of new technology. The receipts from sales and such 
have obviously been negatively impacted by online access.
    Mr. DiMario. Yes, sir. I made the decision to put the 
products up for free online. When Congress passed the 1993 GPO 
Access Act, it directed us to put the Congressional Record up 
online and also the Federal Register. We have added many 
publications. The law would allow us to recover very, very 
little money for any additional distribution.
    Once we went up with free access, we became victims of our 
own success. Our sales program went downhill, especially when 
we put the Code of Federal Regulations up online. A number of 
regulatory materials which the public needed, the business 
community needed, suddenly were available for free access, a 
tremendous service. But the success of our online program 
undercut sales of printed products, and now we are trying to 
recover from that.
    Senator Durbin. Let me ask you, yesterday I had a meeting 
with the Illinois Library Association, and they were the first 
ones to bring this to my attention, because they are concerned 
about the impact if the documents, that the GPO has produced 
over the years, are not sent to the Federal Depository 
Libraries. This is a pretty ambitious undertaking. Is it not, 
in terms of what your office does and the number of libraries 
that are served?
    Mr. DiMario. Yes, sir. We have currently--and Fran can 
speak to this--some 1,300 out there that receive publications. 
Not all of them receive every publication. There are 50 
regionals, and then there are selective libraries that select 
certain publications. They provide free public access to the 
American public, a tremendous service.
    The business community uses the libraries as much as 
researchers, but research libraries and public libraries are 
all included in this structure, and it is just one of the great 
benefits to the American public that goes unnoticed, for 
roughly $30 million each year. It is not a huge sum of money 
that goes into it. The program includes cataloging and 
indexing, and foreign exchange distribution.
    You mentioned the Illinois Library Association. Jean Simon, 
Senator Paul Simon's late wife, was one of our great friends, 
my personal great friend, was a supporter of that association, 
and I know that you worked closely with Senator Simon in your 
earlier career. Jean actively supported our depository program, 
and she was a great friend of the library community, and just a 
tremendous loss to all of us.
    Senator Durbin. Yes.
    Mr. DiMario. I went out to Carbondale, and Fran went with 
me, at Jean's request. She was undergoing her surgery down in 
Texas, and she actually introduced me to a symposium at 
Carbondale by a telephone connection that we had at the 
hospital.
    Senator Durbin. Well, let me ask you, what impact would 
this OMB order or regulation have on these Federal Depository 
Libraries?
    Mr. DiMario. Fran can answer it.
    Mr. Buckley. Well, as Mr. DiMario has said, currently 
agencies, if they produce a publication on their own, are 
supposed to provide it to the depository program at their own 
expense. That is in the law. Needless to say, the law is 
honored more in the breech than in practice, and we have 
therefore a great many fugitive documents that we do not have 
access to automatically. We have access to those that are 
produced through GPO. We can ride those requisitions and obtain 
copies of those easily, but if the agency produces publications 
themselves, despite laws that they both provide them to us for 
cataloging and for depository distribution, they tend not to.
    Not long ago, the Inspector General of the Health and Human 
Services Department did an audit of publications by the 
National Institutes of Health. The research institutes have a 
legislative exemption from printing through GPO, but it only 
affects the printing, and the IG investigated their compliance 
with the cataloging requirements and the depository library 
requirements.
    This review disclosed that over 78 percent of the titles 
that were appropriate for the depository program that they 
reviewed were not provided to GPO. Now, it was not that NIH 
does not have a tremendous program for disseminating their 
information. You know, they mail a lot of things out, but those 
things that are not provided to the depository program then do 
not go into libraries for permanent retention, and they are not 
cataloged into the national bibliography, so it is harder over 
time for people to find access to them.
    Senator Durbin. Excuse me. Can they meet the requirement by 
providing this information online as well?
    Mr. Buckley. If they provide it to us. If you just put it 
up online, that is fine, but then the agency does not have any 
requirement to keep it up online.
    Senator Durbin. But I mean, could they transfer it to you, 
and could the GPO----
    Mr. Buckley. If they notified us, we would then copy it. We 
would catalog it and we would then enter it into our digital 
archives.
    What we are doing currently with agencies who put things up 
on their own, if we know about the things, if we find them or 
if they notify us, we will catalog the items, because it is, 
again, part of the national bibliography. We either will try to 
work out a cooperative agreement with them for permanent access 
and permanent retention, or we will copy the item into our own 
digital archive so if they take it down we would have a backup 
copy for the public.
    Mr. DiMario. OMB made a little footnote about depository 
distribution requirements in their memorandum issued last week. 
It is almost an afterthought that they put at the very end of 
the requirement.
    Let me also note that if the OMB proposal goes through, the 
cost of congressional work will go up, and I think that is part 
of what I was suggesting to you about the policy. We are doing 
the work for Congress in the plant. We would have an impact on 
supporting personnel that are important to get the job done, so 
there would definitely be an increase that we would anticipate 
for congressional work. In the process of producing the 
Congressional Record we use vegetable-based inks, soy in 
particular. I know you have a personal interest in that aspect.
    We have accommodated a range of congressional purposes in 
producing the Congressional Record. We use recycled paper, as 
an example. We have accommodated a number of issues in the 
process. I would anticipate that over time, obviously, the 
paper products are going down, and we are not just trying to 
preserve things, but we do important work.

                           COST OF DOWNSIZING

    Senator Durbin. If under the worst-case scenario there were 
2,000-plus employees who were jeopardized by this OMB order, 
this new rule, can you at this moment speculate on expenses of 
changing the workforce at the Government Printing Office from 
over 3,000 to 1,000? What would be the obligation of the 
Federal Government to those employees that have been 
terminated?
    Mr. DiMario. I really cannot speak intelligently to it in 
real numbers, but there are provisions in title V that provide 
for severance pay, and you have those kinds of things if people 
lost their jobs under a reduction-in-force action, and whether 
that would be any kind of adequate compensation would be a real 
question of judgment.
    We are informed that the average RIF cost is $35,000 per 
employee. You are going to have a significant cost. There is a 
clear cost, and we would follow the provisions of title V with 
respect to any forced downsizing.
    Senator Durbin. I am going to ask you, Mr. DiMario, and 
this is a tough assignment for you, something you probably did 
not want to do at this point in your career, but I am going to 
ask you if you could help us by coming back with at least a 
realistic scenario, if this goes through, as to what this means 
to the Government Printing Office in the next fiscal year, the 
employees who would be impacted, those who would have a 
continuing obligation regardless of this OMB decision, and 
those that might be jeopardized, the impact that it might have 
on the cost of congressional work for the Congressional Record, 
so we can have some indication there.
    I hate to ask you to do this, but I do not know any other 
way to approach it. I have to at least consider this 
possibility as we try to construct appropriation for the next 
fiscal year.
    Mr. DiMario. I would be delighted to do it, and I am 
certain that my staff will put forward their best effort to do 
it.
    Senator Durbin. Well, it also is going to give us, I think, 
a better opportunity to assess the real impact of this. 
According to Mr. Daniels the Government stands to profit by $50 
to $70 million a year, a figure which you do not agree with, 
and if we make it clear what the cost of this will be, perhaps 
it could put it in perspective.
    Mr. DiMario. That figure, even arguably taking his figure, 
is spread across the entire Government. It is a very, very 
minuscule sum of money. I would refute it, as you noted, and I 
think we have an analysis of that issue already prepared. It is 
preliminary. It is not the final analysis, and I would 
certainly like to make it available to you and your staff to 
look at.
    Senator Durbin. Good. That is great.
    [The information follows:]
                     Letter From Michael F. DiMario
                                                      June 5, 2002.
The Honorable Richard J. Durbin,
Chairman, Subcommittee on Legislative Branch Appropriations, Committee 
        on Appropriations, U.S. Senate, Room 119, Dirksen Office 
        Building, Washington, DC 20510.
    Dear Senator Durbin: At the hearing of the Government Printing 
Office (GPO) before your Subcommittee on May 8, 2002, you asked us to 
develop a cost impact scenario of what might happen as the result of 
the policy change announced by Office of Management and Budget (OMB) 
Memorandum M-02-07, ``Printing and Duplicating Through the Government 
Printing Office'' (May 3, 2002). The enclosed report responds to your 
request.
    In our view, significant adverse cost impacts both on GPO and 
executive branch agencies would occur if the OMB memorandum is 
implemented. While OMB claims there will be savings of $50 million to 
$70 million by permitting agencies to perform or procure their own 
printing, our analysis shows that if all executive branch printing were 
to be removed from GPO, the cost to the Government could potentially 
increase over current levels by a range of $231.5 million to $335.2 
million in the first year, and from $152.8 million to $256.5 million 
annually thereafter.
    These increases would include a 60 percent rise in the cost of 
printing covered by the Congressional Printing and Binding 
Appropriation; a transfer to the executive branch of $4.2 million in 
depository printing costs currently covered by the Salaries and 
Expenses Appropriation of the Superintendent of Documents; and $78.7 
million in first year costs to cover the expense of downsizing GPO's 
staff and paying for close-out costs for GPO facilities nationwide. The 
balance would be for potential increases in executive branch printing 
costs resulting from inefficient, duplicative printing and printing 
procurement operations throughout multiple departments and agencies, as 
well as reduced competition in Government printing contracts.
    In addition to increased printing costs, the OMB memorandum--if 
implemented--would also lead to a number of non-quantifiable cost 
impacts on Government printing, as well as economic impacts on the 
private sector printing industry, especially the small businesses that 
currently handle most of the orders procured by GPO. There are likely 
to be serious adverse impacts on the public's ability to access 
Government information through Federal depository libraries. The 
decentralization of Government printing will also effectively terminate 
the ability of GPO's sales program to serve the public for anything 
other than legislative branch publications.
    As I stated during the hearing before your Subcommittee, the OMB 
memorandum contradicts existing law that requires executive branch 
agencies to obtain their printing from GPO. As you may be aware, the 
most recent addition to this law was enacted at the instance of the 
Senate and House Appropriations Committees in 1994, and is currently 
codified as a note to section 501 of Title 44, U.S.C.
    Observance of the requirements of the public printing and documents 
chapters of Title 44 by Federal departments and agencies is necessary 
in order to achieve the taxpayer economies that the law is designed to 
promote. Compliance with the law is also essential if the system of 
public access provided by GPO's documents distribution programs is to 
continue to be effective. Both of these sound public policy objectives 
will be severely undermined if the OMB memorandum on printing is 
implemented.
    Mr. Chairman, I genuinely appreciate your interest in this very 
serious matter, and I am at your disposal should you require additional 
information.
            Sincerely,
                                        Michael F. DiMario,
                                                    Public Printer.
Cost Impact Scenario: Loss of Executive Branch Work From GPO Under OMB 
 Memorandum M-02-07, ``Printing and Duplicating Through the Government 
                    Printing Office'' (May 3, 2002)
    Background.--Section 501 of Title 44 of the United States Code 
requires Federal agencies of the executive branch to use the Government 
Printing Office (GPO) for their printing and printing procurement 
needs. Office of Management and Budget (OMB) Memorandum M-02-07, 
``Printing and Duplicating Through the Government Printing Office'' 
(May 3, 2002), is an attempt to devolve authority for printing 
executive branch documents away from GPO and to executive branch 
agencies themselves.
    The OMB memorandum requests that the Federal Acquisition Regulation 
(FAR)--the rules under which executive branch agencies procure goods 
and services--be revised. Presumably, a revision to the FAR would be 
accompanied by a period of public notice and comment, so the policy 
announced in the OMB memorandum would not take effect immediately. 
However, for those agencies not covered by the FAR, OMB has indicated a 
target date of September 1, 2002, for implementation of its printing 
policy, near the beginning of fiscal year 2003.
    The OMB memorandum echoes earlier efforts to transfer printing 
authority to executive branch agencies. This policy was pursued by the 
Reagan Administration in 1987 with a proposal to revise the FAR 
regarding printing. It was pursued by the Clinton Administration in 
1993-94 as part of its ``reinventing Government'' initiative. In the 
former case, the FAR revision was withdrawn after Congress enacted a 
law requiring executive branch agencies to procure printing for their 
publications (including forms) through GPO. In 1994, following hearings 
on the issue, Congress declined to take up legislation to effect the 
transfer of authority.
    Cost Impact Scenario Summary.--There would be significant adverse 
cost impacts both on GPO and executive branch agencies if the OMB 
memorandum is implemented. While OMB claims there will be savings of 
$50 million to $70 million by permitting agencies to perform or procure 
their own printing, our analysis shows that the cost to the Government 
could potentially increase over current levels by a range of $231.5 
million to $335.2 million in the first year, and from $152.8 million to 
$256.5 million annually thereafter. These cost increases would result 
from:
  --$49 million in increased costs to GPO's Congressional Printing and 
        Binding Appropriation, a 60 percent increase from the current 
        level of $81 million to $130 million annually, to cover GPO's 
        fixed costs of maintaining a large printing facility solely to 
        support congressional printing needs;
  --$78.7 million in first year costs to cover the combined expense of 
        a retirement incentive program and reduction-in-force (RIF) to 
        reduce GPO's current staffing requirements by half, to fund 
        approximately 3 months of continued employment for the current 
        workforce until these reduction actions can take effect, and to 
        pay for the cost of lease terminations/close-outs in GPO 
        facilities nationwide; and
  --$103.8 million to $207.5 million annually to cover the increased 
        cost of executive branch printing resulting from the 
        establishment of duplicative printing procurement operations, 
        and/or the expansion of duplicative in-plant printing 
        operations, throughout the executive branch, as well as reduced 
        competition in contracting.
    In addition, assuming that agencies comply with OMB's requirement 
that they provide copies of their publications to the Superintendent of 
Documents for distribution to depository libraries, there would be a 
net transfer of about $4 million in depository printing costs from the 
legislative branch to the executive branch (actually, because executive 
branch printing costs are likely to be higher under the OMB memorandum, 
the cost impact of this transfer may be greater). However, because the 
probable level of compliance by agencies with depository distribution 
requirements under the OMB memorandum is highly questionable, the 
potential extent of this cost transfer is not clear.
    If agencies fail to provide printed copies to GPO for depository 
distribution, there would be significant adverse impacts on public 
access to Government information provided through Federal depository 
libraries. There are also likely to be similar impacts on public access 
to Government information through GPO's sales program, and there would 
be adverse impacts on the small businesses that make up the majority of 
the contractors from whom GPO procures Government printing work. These 
impacts have not been quantified by this analysis.
    Assumption.--The OMB memorandum would permit executive branch 
agencies to continue using GPO ``if GPO can provide a better 
combination of quality, cost, and time of delivery . . .'' This 
provision establishes a ``best value'' standard that makes it difficult 
to objectively determine the amount of executive branch work that may 
or may not be performed by GPO if the OMB memorandum is implemented. 
GPO has many long-term established relationships with executive branch 
agencies that would most likely continue based on the efficiency and 
effectiveness of the services provided. However, any loss of executive 
branch work from the current level of operations will have an adverse 
cost impact on GPO. For the purposes of this analysis, we have assumed 
that all executive branch agency work would be removed from GPO in 
order to illustrate the potential impact the OMB memorandum could have 
on remaining GPO operations as well as the cost of Government printing 
and public access to Government information.
    Impact on GPO Staffing and Fixed Cost Requirements.--Excluding the 
cost of procured printing that passed through GPO from customer 
agencies to private sector printers, in fiscal year 2001 GPO received 
over 60 percent of its total revenues (after eliminations), or about 
$187.7 million out of $296.9 million, from executive branch agencies. 
These revenues were for in-plant printing and printing procurement 
services (including sales of blank paper), sales of executive branch 
publications to the public, reimbursable distribution services 
performed for executive branch agencies, and the distribution of 
executive branch agency publications to depository libraries and other 
statutory recipients.
    Based on the current distribution of GPO's workforce by major 
program area, revenues from executive branch agencies support 1,919 
employees, or 63 percent of GPO's current workforce of 3,026 full-time 
equivalents (FTE's). These employees include those who directly perform 
printing, printing procurement, and documents distribution services for 
executive branch agency publications, as well as employees indirectly 
supporting these services via support functions such as executive 
offices (including budget, legal, inspector general, and congressional 
affairs), equal employment opportunity, occupational health and safety, 
personnel, finance, engineering, security, and information resources 
management. Some of these functions are specifically required by 
statute, such as GPO's inspector general. Others are required to manage 
GPO both as a printing and distribution enterprise and as a Federal 
agency. Unlike most Federal agencies, however, GPO does not receive 
appropriations to fund these employee costs, but must do so through the 
rates and prices charged for printing and distribution services. Both 
direct and indirect employee support costs are allocated to GPO's 
printing and distribution operations in accordance with relevant 
provisions of Title 44 and generally accepted accounting principles.
    GPO has 1,095 employees supported by revenues from legislative 
branch work, along with an additional 12 employees supported by 
judicial branch revenues (which represent about 0.4 percent of total 
revenues). These employees would continue at GPO under OMB's policy. 
However, we estimate that approximately three-quarters of the employees 
currently performing general and administrative functions would still 
be required even if all executive branch work were removed from GPO. 
They perform functions that would be required regardless of the 
workload level. For example, GPO's police force protects all GPO 
buildings notwithstanding the amount of printing work GPO performs. In 
addition, despite the loss of executive branch agency work, staffing 
requirements in GPO's Library Programs Service area would most likely 
remain unchanged in order to devote resources to locating ``fugitive'' 
publications in a decentralized printing system. Retaining all of these 
capabilities would lead to a staffing requirement of approximately 
1,500, at an annual cost of $100.9 million.
    In addition, GPO has other fixed costs for supplies and materials; 
rents, communications, and utilities; transportation; and depreciation 
of existing equipment. These costs are associated with maintaining a 
large printing plant whose primary purpose is to provide for 
congressional printing needs. As originally envisioned by Congress, the 
plant would produce congressional work when Congress is in session and 
executive branch work during congressional recesses. In this manner, 
GPO's fixed costs can be covered by maximizing the use of available 
plant capacity. In fiscal year 2001, GPO's fixed costs totaled about 
$95 million. With the removal of executive branch work, they could be 
reduced by about a third due to reduced requirements for materials and 
supplies (assuming GPO retains its statutory role in providing blank 
paper to Federal agencies in the national capital area), the 
elimination of rents for GPO's regional printing procurement offices 
and bookstores nationwide, and significant reductions in the cost of 
publications sold and surplus publications. Approximately $60.8 million 
in these costs would continue.
    GPO would also continue to perform a small amount of printing 
procurement for legislative and judicial branch entities, at an annual 
cost of about $8.3 million.
    Impact on GPO Appropriations Requirements.--The annual costs to GPO 
of required personnel, fixed expenses, and printing procurement work 
that would remain after the loss of executive branch agency work would 
total $170 million. GPO would have only three sources of revenue to 
cover these costs: the Salaries and Expenses appropriation of the 
Superintendent of Documents; miscellaneous revenues; and the 
Congressional Printing and Binding Appropriation.
    The Salaries and Expenses Appropriation of the Superintendent of 
Documents, which is currently about $30 million, would decrease to $26 
million. The OMB memorandum requires agencies that print elsewhere than 
GPO to supply copies of their publications to the Superintendent of 
Documents for distribution to Federal depository libraries. Under 
current law, GPO pays for the cost of copies distributed to depository 
libraries when the printing is performed through GPO; otherwise, 
agencies must pay for the cost of depository copies provided to GPO. In 
fiscal year 2001, approximately $4.2 million was spent by GPO on 
printing executive branch agency publications for depository 
distribution. Assuming that all executive branch agency work is removed 
from GPO, the OMB printing policy would transfer responsibility for 
this expense from the legislative to the executive branch (and this 
cost may increase as the result of increases in overall executive 
branch printing costs). However, the remaining level of funding for the 
Salaries and Expenses appropriation would still be required to fund 
staff capability to track down ``fugitive'' publications in a 
decentralized printing system and expand efforts to locate, catalog, 
and provide permanent public access to electronic executive branch 
agency documents.
    Miscellaneous revenues would be about $14 million, primarily 
comprising sales of blank paper to Federal agencies (assuming that GPO 
would retain this role as provided by section 1121 of Title 44.) In 
fiscal year 2001, revenues from blank paper sales totaled $12.3 
million. Also, GPO would still generate revenues from the sale of 
congressional and other legislative branch publications. In fiscal year 
2001, about $2.1 million was generated from such sales. There may also 
be miscellaneous revenues from printing procurement for legislative 
branch entities, the sale of waste and scrap, and GPO's pay parking 
program.
    Section 309 of Title 44 requires GPO to recover its costs ``at 
rates which include charges for overhead and related expenses, [and] 
depreciation of plant and building appurtenances . . .'' Accordingly, 
all fixed and variable costs that are not recovered through the 
Salaries and Expenses Appropriation and miscellaneous revenues would 
have to be recovered through GPO's remaining source of revenue, the 
Congressional Printing and Binding Appropriation. With $170 million in 
costs, and $40 million in revenues provided through other sources, the 
remaining costs would require an annual appropriation of approximately 
$130 million for congressional printing, representing an increase of 60 
percent over the current level of $81 million.
    Costs of Reducing GPO Staffing Levels.--In addition to increasing 
overall funding requirements for GPO's annual appropriations, GPO would 
need to request appropriations to cover the cost of downsizing its 
workforce by 1,500 staff.
    GPO has retirement incentive authority provided by the Legislative 
Branch Appropriations Act for Fiscal Year 2002. This authority 
authorizes ``buy-out'' payments of $25,000 or the affected employees' 
severance, whichever is less. It also requires that GPO pay the Office 
of Personnel Management (OPM) a premium of 15 percent of the affected 
employees' salaries to offset reductions in Federal pension programs 
resulting from the ``buy-out.'' At an average salary of $55,000 (not 
including benefits), reducing the rolls by 1,500 staff using this 
retirement incentive authority could cost $33,250 per employee, or 
$49.9 million. Currently, slightly more than half of GPO's workforce is 
eligible for either optional or early retirement, so a retirement 
incentive program may be effective in achieving the necessary 
reduction.
    However, while such a program can induce retirements, it cannot 
force them, and it may be unattractive to younger employees. A ``buy-
out'' also needs to be managed so that GPO does not lose employees who 
are essential to continued operations. If a ``buy-out'' does not 
achieve the necessary staffing reductions in non-essential areas, GPO 
would have to impose a reduction-in-force (RIF). Under Federal law, 
employees subjected to a RIF are entitled to accumulated leave and 
severance payments. In the mid-1990's, OPM reported that these costs 
resulted in an average RIF cost to the Government of approximately 
$35,000. Assuming that half of the necessary reduction is achieved 
through a ``buy-out,'' the other half would have to be achieved through 
a RIF, which alone would cost $26.3 million. Combined with a cost of 
$24.9 million from a ``buy-out,'' the total cost could reach $51.2 
million. A RIF is enormously disruptive to a workforce, as it forces 
out younger employees at the expense of those with more service time. 
Also, RIF's tend to fall disproportionately on minority employees. 
Currently, minorities comprise 63 percent of GPO's workforce.
    Additional First Year Costs.--GPO would likely sustain about $27.5 
million in additional first year costs as the result of losing 
executive branch work. Apart from the costs of a ``buy-out'' or RIF, it 
would take approximately 3 months to implement either program. During 
that time, the cost for 1,500 excess employees would be approximately 
$25 million.
    In addition, GPO would incur costs for early lease termination, or 
letting leases run out, for its regional and satellite printing 
procurement offices in Atlanta; Charleston, SC; Boston; Chicago; 
Columbus, OH; Dallas; New Orleans; Oklahoma City; San Antonio; Denver; 
Hampton, VA; Los Angeles; San Diego; New York City; Philadelphia; 
Pittsburgh; San Francisco; Seattle; and St. Louis. Leases would also 
have to be terminated or allowed to run out for Superintendent of 
Documents warehouse distribution facilities in Laurel, MD, and Pueblo, 
CO. In addition, leases for bookstores in Atlanta; Dallas; Houston; New 
York City; Portland, OR; Seattle; Cleveland; Denver; Jacksonville, FL; 
Los Angeles; Columbus, OH; Detroit; Kansas City, MO; Milwaukee; and 
Pittsburgh would have to be terminated or allowed to run out (while GPO 
has plans to close several of these bookstores, the closures are to be 
phased out, not implemented at once.) The OMB policy would also put at 
risk a documents sales inventory that currently is valued at 
approximately $10 million.
    Problems With OMB's Cost Analysis.--The OMB memorandum claims that 
$50 million to $70 million would be saved by executive branch agencies 
annually if they are permitted to perform or procure their own 
printing. OMB appears to base this assessment on the avoidance of GPO's 
7 percent procurement surcharge and its 14 percent rush surcharge (and 
to a lesser extent, the avoidance of GPO's in-plant rates; however, the 
vast majority of executive branch printing sent to GPO is procured). 
The memorandum also complains that GPO does not return prompt payment 
discounts to customer agencies.
    For a surcharge of 7 percent (on jobs worth up to $285,715; the 
surcharge declines thereafter), GPO earns revenues that support its 
procurement program. A maximum rush surcharge of 14 percent can be 
charged, but is rarely used. It was imposed on only 2.9 percent of all 
procurement job orders in fiscal year 2001, and virtually always at the 
request of the ordering agency in order to move their jobs to the front 
of the procurement line. The rush surcharge reflects the cost of the 
additional effort to immediately bid rush jobs, sometimes in a matter 
of hours.
    The surcharge covers the cost of a wide variety of services: GPO 
reviews requisitions and offers suggestions for economizing; develops 
specifications; competes, awards, and administers contracts; performs 
press inspections and other on-site reviews to assure quality; performs 
quality control reviews utilizing a unique program that quantifies 
quality ranking factors that has become widely recognized throughout 
the industry; provides voucher examination and payment services; 
provides legal advice on contracting; and makes available a dispute 
resolution service through GPO's Board of Contract Appeals. These same 
services would have to be provided by every executive agency that opts 
to procure printing itself under the OMB memorandum.
    No funds are appropriated by Congress to GPO to support its 
printing procurement program. Revenues from the surcharge cover the 
cost of GPO's 330 procurement personnel, who are located in Washington, 
DC, and in 20 regional and satellite procurement offices around the 
country to support the printing needs of executive branch agencies 
nationwide. The many Federal entities with whom GPO does business are 
currently represented by approximately 6,300 billing address codes in 
all three branches of Government, with the preponderant number in the 
executive branch.
    Buying printing is not like buying paper clips. A knowledge of 
printing requirements and processes is essential to ensure the 
acquisition of the best possible value. GPO printing contracts are 
developed and carried out by knowledgeable printing experts via a 
package of procurement support services. This package of services is 
highly economical. The vast majority of GPO's procured print jobs are 
worth $2,500 or less, yielding a surcharge of about $175 to cover all 
the services available to support the procurement.
    For each job, whether it is worth $100 or $1 million, GPO charges a 
nominal processing fee of $7.50 ($15.00 for the rare rush-surcharged 
order). This fee helps recover procurement costs on small dollar 
orders. For 147,800 orders in fiscal year 2001, this fee recovered a 
little over $1 million. For fiscal year 2001, GPO generated total 
printing procurement revenues of $431.7 million; total surcharge 
revenues (including the revenues from the flat fee per procurement) 
were $32.5 million, not $50 million to $70 million.
    From its total procurement revenues for fiscal year 2001, GPO 
earned prompt payment discounts of $6.6 million (an effective rate of 
1.5 percent, not 5 percent as stated by OMB). GPO is able to make 
prompt payments usually in 28 days or less due to its specialization in 
dealing with private sector printers, a record that is not always 
matched in the executive branch. GPO's Revolving Fund benefits 
executive branch agencies by operating as a temporary funding 
mechanism. GPO pays the contractor promptly upon evidence of 
performance. The ensuing collection by GPO from the agency may 
sometimes take longer. Because GPO's Revolving Fund is able to make the 
payment and finance the lag, there is continuity of printing services 
to the agency. In a decentralized system of printing, if there are 
delays in payments by agencies, the cost of future printing orders with 
contractors could increase.
    Significant Cost Increases for Executive Branch Printing Are 
Likely.--In addition to cost impacts on GPO itself, which would have to 
be borne by legislative branch funding, there are likely to be 
significant cost impacts on the executive branch. Previous studies have 
indicated that decentralizing authority for printing among executive 
branch agencies could lead to significant cost increases in Government 
printing. The extent of the cost increases would vary depending on how 
agencies decide to handle their work.
    The most significant cost increase would occur if agencies produce 
their printing work in their own printing and duplicating facilities. 
Previous studies by the General Accounting Office, the Office of 
Technology Assessment, the Joint Committee on Printing, and various 
Inspectors General have shown that it can be has much as 50 percent 
more expensive for agencies to print in-house than to procure their 
printing through GPO. That alone could result in an annual cost 
increase of $207.5 million over current GPO printing procurement costs. 
There is a strong potential that agencies will pull work out of the 
procurement stream and produce it in their own facilities. Currently, 
GPO only sees about half of all Federal printing needs, as itemized in 
OMB's object class analysis of the Federal budget. In our view, rather 
than establishing the sophisticated print procurement services that GPO 
currently provides, there is a strong potential that most agencies 
would opt to produce printing in their own facilities. A significant 
amount is already produced this way (GPO handles less than half of all 
Federal printing).
    If agencies procure work themselves from the private sector, 
earlier analyses have suggested that they would be likely to pay more 
for their own procurement costs. As noted above, agencies would be 
required to perform the same contract-support services that GPO 
provides. Yet without GPO's economies of scale, agency procurement 
costs are likely to be substantially higher than GPO's.
    Previous analyses have also indicated that the prices that agencies 
pay for printing itself are likely to be higher. Agencies are unlikely 
to maintain the same universe of competition among private sector 
printers that GPO achieves (10,000-12,000 printers). The resulting 
decrease in competition could result in significant price increases, by 
some estimates as much as 25 percent, or $103.8 million over GPO's 
current printing procurement costs. Private sector firms would have to 
deal with procurement process established by the FAR instead of GPO's 
Printing Procurement Regulation. Decreased competition could also lead 
to increased opportunities for favoritism and corruption.
    In addition, with the loss of GPO's one-stop-shopping alternative 
for printing contracts, private sector printers would need to increase 
their costs to locate contracting opportunities among the multitude of 
agencies seeking vendors. They would also lose the standardization for 
bidding for printing jobs that currently is available through GPO, 
potentially increasing their paperwork costs. For large private 
printing firms, these costs may not impact price appreciably, but for 
smaller firms there could be a substantial impact. Currently, 77 
percent of all GPO printing procurement orders are handled by small 
businesses.
    Recent Examples of Higher Executive Branch Printing Costs.--Along 
with previous studies, two recent real life tests have strongly 
suggested the probability of increased executive branch printing costs 
in a decentralized system. In 1997, the printing program of the 
National Institutes of Health (NIH), which has its own printing 
authority by law, was reviewed by the Inspector General of the 
Department of Health and Human Services (HHS), working with GPO's 
Inspector General. The review disclosed that NIH internal printing 
procurement costs ran between 10 percent and 18 percent of the value of 
procured work, more than double GPO's surcharge. It also disclosed that 
NIH's printing costs were higher than GPO's.
    GPO's recent experience with the loss of the Commerce Business 
Daily (CBD) provides another example. When the National Performance 
Review was issued in 1993 it contained a section regarding the 
executive branch's use of GPO. Like the current OMB memorandum, one of 
the ideas advanced was that GPO should compete for executive branch 
work; if it was the low bidder, GPO would receive the contract. In 
1996, the Commerce Department, acting on OMB's desire to automate the 
CBD and make it available in electronic format to private sector 
contractors, solicited bids to accomplish the project. GPO bid on and 
won the project, and subsequently developed the online CBDNet project 
in 3 months at a cost of about $125,000.
    CBDNet made it easy for Federal procurement offices to enter 
notices into the system and for private sector contractors to find the 
notices. The cost of system development and daily operations was 
recovered by billing Federal procurement offices $5.00 for each notice 
they entered. GPO offered a variety of electronic payments systems and 
provided the agencies with detailed reports showing the title of each 
notice submitted. GPO operated the system for the Commerce Department 
for 5 years without raising the price. Recently, however, the General 
Services Administration (GSA) spent millions of dollars to create 
FedBizOpps, a system that performed essentially the same functions as 
CBDNet plus a few enhancements. There was no bidding or competition for 
FedBizOpps by the executive branch, and GPO was not given an 
opportunity to compete for this project.
    FedBizOpps became fully operational in 2002 and CBDNet was 
discontinued. A few months later, GPO received a bill from GSA for 
placing procurement notices into FedBizOpps that is 22 percent higher 
than what GPO was charged under CBDNet. The bill is an estimate of 
future usage and does not contain any specific information about the 
notices actually submitted, as was the practice under CBDNet. In 
summary, the executive branch spent millions of dollars to develop a 
duplicate computer system that provides less billing information to 
customer agencies. It now operates FedBizOpps at a cost that is 22 
percent higher than the operating cost of the discontinued system.
    Other Negative Impacts on Government Printing.--Earlier analyses 
have acknowledged that there could be other impacts on Government 
printing under a system of decentralized printing authority. While it 
is difficult to quantify these impacts in terms of cost, there 
nevertheless is a strong potential for these problems to occur. GPO 
would no longer be able to apply uniform standards of print quality to 
Government work. As a result, it would be difficult to ensure 
standardization of quality governmentwide, leading to problems in 
contract disputes between vendors and agencies. GPO would be unable to 
monitor and enforce the consistent application of requirements for the 
use of recycled paper, alkaline and permanent papers, and vegetable 
oil-based printing inks, all required by law. With the prospect of 
reduced printing jobs flowing to the private sector, or increased costs 
for those jobs, the financial stability of many private sector printing 
firms could be jeopardized.
    Public Access Could be Impaired.--More important than the effects 
on the cost of printing would be the impact of decentralizing printing 
authority on public access to Government information. All previous 
discussions of this issue have focused heavily on the problems that 
would arise from breaking the efficient link between production and 
distribution of Government documents that currently exists in GPO. 
Without this link, the public's access to Government publications and 
information would be significantly impaired.
    This link currently serves as the source of publications for GPO's 
Federal Depository Library Program (FDLP), which GPO operates in 
partnership with approximately 1,300 academic, public, law, and other 
libraries nationwide, and which serves millions of citizens every year. 
Also impacted would be GPO's cataloging and indexing program, statutory 
distribution program, and international exchange program, as well as 
GPO's Internet information service, GPO Access (www.gpo.gov/gpoaccess). 
These programs are funded by legislative branch appropriations. Some 
observers have suggested that decentralizing printing authority to 
executive agencies would effectively transfer the responsibility for 
ensuring public access to Government information from the legislative 
branch, where this responsibility resides closest to the elected 
representatives of the people, to the executive branch.
    There are significant concerns that compliance with OMB's 
depository distribution policy would be low. Publications that belong 
in the FDLP and related programs but are not included are called 
``fugitive documents.'' Already, the rate of fugitive documents is 
high: prior estimates have placed it in the neighborhood of 50 percent, 
which corresponds roughly to the amount of Federal printing not coming 
through GPO. With the decentralization of printing authority to Federal 
agencies, the rate of fugitive documents would be likely to increase. A 
1998 HHS Inspector General review of NIH's publications program found 
that 78 percent of NIH's publications qualified as fugitive documents. 
The IG's report said: ``NIH did not always provide copies of printed 
publications to GPO for distribution to [depository libraries], or 
provide single copies to GPO for [cataloging and indexing] . . . By NIH 
not providing copies of publications to GPO for FDLP distribution, 
depository libraries, and the public who use them, do not have ready 
access to documents to which they are entitled, that were being printed 
with taxpayer money . . .''
    While GPO's distribution programs are increasingly electronic, 
print, microfiche, and CD-ROM products continue to play an important 
role in providing public access to Government information. There is 
still a substantial amount of Government information for which no 
reliable online alternative exists, and problems with ensuring 
permanence and other issues are still present for many online products. 
In fiscal year 2001, GPO distributed a total of 5.9 million copies of 
approximately 14,700 tangible titles (from all three branches of the 
Government) to depository libraries. GPO achieves important economies 
of scale in the distribution of tangible products by combining multiple 
products from different agencies in shipments to the libraries. For 
thousands of Federal entities to ship thousands of products annually to 
1,300 libraries in an organized, cohesive system would be cost 
prohibitive, and likely would not be done at all by executive branch 
agencies.
    The success of GPO Access, which makes available nearly 225,000 
Government information titles, and from which the public retrieves more 
than 31 million documents per month, is dependent in part on the 
centralized system established by Title 44. GPO uses that system to 
monitor for new electronic products which can either be loaded on GPO's 
servers or to which GPO can link. Without it, the current level of 
comprehensive access would likely be diminished.
    The public would also lose the convenience of locating and ordering 
their own copies of Government publications, which they currently enjoy 
through GPO's sales program. Although the scope of this program has 
declined markedly in recent years with the introduction of free 
Government information via the Internet, it is still a sizable 
operation: in fiscal year 2001, the program earned $42.4 million in 
revenues. Nearly 95 percent of these revenues were from the sale of 
executive branch agency publications, primarily subscriptions. Unlike 
the Federal depository library program, there is no requirement in law 
that agencies which print elsewhere than GPO supply the Superintendent 
of Documents with copies for the sales program. The only authorization 
available is one under which agencies may turn over surplus copies of 
publications to the Superintendent of Documents for public sale. 
Without a system of centralized printing as a source of supply, the 
sales program would be restricted to sales of legislative branch 
products and whatever could be sold from the existing inventory, 
currently valued at approximately $10 million. In fiscal year 2001, 
legislative branch products--which include many valuable historical 
titles--earned not quite 5 percent of total sales program revenues.
    Summary.--The implementation of OMB Memorandum M-02-07 is likely to 
lead to significant cost increases in Government printing in both the 
legislative and executive branches. There are also likely to be non-
quantifiable cost impacts on Government printing, as well as economic 
impacts on the private sector printing industry, particularly the small 
businesses that currently handle most of the orders procured by GPO. 
Finally, there are likely to be adverse impacts on the ability of the 
public to access Government information products through Federal 
depository libraries, and the decentralization of Government printing 
will effectively terminate the ability of GPO's sales program to serve 
the public for anything other than legislative branch publications.
    Title 44 of the U.S. Code continues to require that executive 
branch agencies obtain their printing and printing procurement needs 
through GPO. Observance of the requirements of the public printing and 
documents chapters of Title 44 by Federal departments and agencies is 
necessary in order to achieve the taxpayer economies that the law is 
designed to promote. Compliance with the law is also essential if the 
system of public access provided by GPO's documents distribution 
programs is to continue to be effective. Both of these sound public 
policy objectives will be severely undermined if the OMB memorandum on 
printing is implemented.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. Is there anything else you would like to 
add? If not, thank you for joining us today.
    Mr. DiMario. Thank you very much, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard J. Durbin
                            gpo book stores
    Question. There has been a dramatic increase in on-line access to 
publications, lessening significantly the need for GPO's printed 
publications. This has been felt in the sales program which has been 
experiencing significant losses--about $7 million last year. GPO has 24 
bookstores and has closed 6 stores to date, including one in Chicago.
    Do you need to keep any of the stores open when you have on-line 
and telephone ordering?
    Answer. GPO had 24 bookstores. With the closing of six stores, we 
have 18 remaining. One of these is a retail sales outlet at our 
warehouse in Laurel, MD. In addition to on-line, telephone and mail 
order capability, the bookstores provide the public with a high level 
of customer service and convenience, and they also process local mail 
and telephone orders. Some of the stores are economically viable at 
this time. The closures are directed at those stores determined not to 
be economically viable. Ultimately, however, the sales program may 
decide to end all retail bookstore operations.
    Question. When do you expect the sales program to be in a break-
even posture? You estimate the decline of 25 FTE this year and an 
additional 35 FTE for next year in the sales program. This will bring 
down total FTE to 332. Where do you need to be in order to be self-
sustaining? Do you project sales to continue to decline or have they 
stabilized?
    Answer. Based on current conditions, it would be feasible to 
achieve a break-even in two to three years. This assumes that sales 
revenue will stabilize at about $35 million, a decline of $7 million 
from the fiscal year 2001 level of $42 million, and would require 
continued restructuring of program operations and staffing decreases of 
one-third to 50 percent below the current level. The major unknown in 
projecting a break-even is the volume of sales. Sales volume declined 
by about 60 percent over the past four years, and continues to decline 
at rates approaching 18 percent per year. If this trend continues for 
several more years, it will not be feasible to reach a break-even and 
fund the program solely through sales revenue. Alternatives to the 
present program and funding structure will be necessary.
    It should be noted that implementation of the recently announced 
OMB printing policy would negate the possibility of the program 
returning to a break-even. It would become difficult for GPO to obtain 
copies of executive publications for sale and those that GPO could 
obtain would cost substantially more. The public would lose the current 
one-stop shopping provided by GPO.
                             strategic plan
    Question. Does GPO have a strategic plan? If so, what are your 
vision, goals, and objectives for the next 5 years?
    Answer. Yes, GPO has a strategic plan, which has been accessible 
online since 1999, at http://www.access.gpo.gov/. An excerpt from the 
plan follows:
                                 Vision
    GPO will be the primary provider and guarantor of information 
creation, replication, and dissemination services for the Federal 
Government and the public, into the next millennium.
Mission
    GPO's mission is to provide a broad spectrum of cost effective and 
timely services to Congress and the various agencies of the Federal 
Government in creating, replicating, and disseminating a full range of 
Government information products, and to provide the public with 
equitable, timely, and reliable access to Government information.
General goals and objectives
    To accomplish our mission, GPO must in all circumstances:
    A. Emphasize Customer Service
  --GPO will produce, purchase, deliver, and disseminate products and/
        or services in accordance with standards and schedules agreed 
        to with our customers.
  --GPO will treat customers with courtesy and respect, providing them 
        with a rewarding and satisfying business experience.
  --GPO will ensure that work for its customers is safeguarded and 
        accomplished under appropriate security conditions.
    B. Produce High Quality and Timely Products
  --GPO will continue its evolution from an operation based on 
        traditional print technologies toward an integrated information 
        processing operation utilizing electronic technologies in the 
        creation, replication, and dissemination of Government 
        information products.
  --GPO will produce or acquire printed and other products and/or 
        services in accordance with the highest standards.
  --GPO will continue to strive to provide simplified and equitable 
        access to Government information using the most timely and 
        cost-effective methods of product and service delivery.
    C. Maintain A Sound Financial Structure
  --GPO will provide products and services to customers using the most 
        efficient and economical alternative.
  --GPO will continue controlling the cost of its operations to ensure 
        financial stability.

    Question. Throughout the federal government, departments and 
agencies are facing many human capital challenges. Have you completed 
an assessment of your human capital and what challenges GPO is facing?
    Answer. Two studies have been conducted, one by Booz-Allen Hamilton 
in 1998 and the other by the Office of Personnel Management (OPM) in 
2001, which reviewed our human resources programs. The Committees on 
Appropriations of the Senate and the House directed the 1998 study. We 
are implementing or have implemented recommendations from both reports. 
GPO faces challenges in the human resources area. As with most of the 
rest of the Federal government, we expect to lose a large number of 
experienced personnel by retirement over the next five years. We face 
challenges in training the workforce in new skills required by evolving 
technology. In the Sales Program, we will need to continue reducing the 
size of the workforce performing functions, which are impacted by 
declining workload and changes in processes, while maintaining adequate 
service to the public.
                           space utilization
    Question. What recent assessments has GPO made of its space 
utilization, and what have you done about looking for opportunities to 
release underutilized space for other uses?
    Answer. We have surveyed space to determine what could possibly be 
made available. There are small amounts of space available. GPO is able 
to assist the Congress in meeting space needs, as we did when anthrax 
forced the closure of House and Senate office buildings. GPO provided 
temporary space for personnel from the Office of the Clerk of the House 
and the Senate's Office of Legislative Counsel to continue their work. 
We turned over the loading docks at our paper warehouse on North 
Capitol Street for the temporary use of Capitol Police in screening 
deliveries to Capitol Hill, with up to 70 trucks a day passing through 
this process. In the past, GPO provided temporary offices for small 
groups from the Federal Aviation Administration and the Census 
Monitoring Board. GPO has reduced facilities. Several years ago, GPO 
returned 25,000 square feet of rental space in the Laurel warehouse to 
reduce cost. GPO closed the warehouse in Springbelt, VA, and relocated 
the paper storage operation to the Laurel warehouse, eliminating about 
180,000 square feet. This reduced costs in the sales program, which 
gave up 23,000 square feet of its leased warehouse space in Laurel, MD, 
to be used for paper storage by GPO. In addition, within the past ten 
years, we closed all but one of our six regional printing plants, six 
of 24 bookstores, and vacated 61,000 square feet of leased office space 
at Union Center Plaza in Washington, DC.

                     ADDITIONAL SUBMITTED STATEMENT

    [Clerk's Note.--The subcommittee has received a statement 
from the American Association of Law Libraries which will be 
inserted in the record at this point.]
   Prepared Statement of the American Association of Law Libraries, 
 American Library Association, Association of Research Libraries, and 
                      Medical Library Association
    On behalf of the American Association of Law Libraries (AALL), the 
American Library Association (ALA), the Association of Research 
Libraries (ARL) and the Medical Library Association (MLA), we write in 
support of the fiscal year 2003 budget request of the Government 
Printing Office (GPO). Collectively, these three associations represent 
thousands of individuals and institutions serving communities 
throughout the Nation, including the more than 1,300 federal depository 
libraries located in nearly every congressional district.
    AALL is a nonprofit educational organization with over 5,000 
members dedicated to promoting and enhancing the value of law 
libraries, fostering law librarianship and providing leadership and 
advocacy in the field of legal information and information policy. ALA 
is a nonprofit educational organization of 64,000 librarians, library 
trustees, and other friends of libraries dedicated to improving library 
services and promoting the public interest in a free and open 
information society. ARL is an Association of 123 research libraries in 
North America. ARL programs and services promote equitable access to 
and effective use of recorded knowledge in support of teaching, 
research, scholarship, and community service. MLA is an educational 
organization of more than 1,000 institutions and 3,800 individual 
members in the health sciences information field.
Fiscal Year 2003 Budget Request Essential
    We urge your support for the Public Printer's fiscal year 2003 
budget request of $129.3 million for the GPO that includes $34.1 
million for the Salaries and Expenses (S&E) Appropriation of the 
Superintendent of Documents and $95.2 million for the Congressional 
Printing and Binding (CP&B) Appropriation. The S&E request includes 
$27.3 million to fund the Federal Depository Library Program (FDLP), 
$4.0 million for the Cataloging and Indexing Program, $.7 million for 
the International Exchange Program and $.3 million for the By-Law 
Distribution Program. This amount includes necessary increases to 
support the continued operation of the FDLP, its continuing electronic 
transition plans and the increased demands upon GPO Access. We urge you 
to approve the full S&E appropriations request for fiscal year 2003.
Growth of GPO Access and the Electronic Collection Impressive
    The FDLP is a unique program and one of the most effective, 
efficient and successful partnerships between Congress and the American 
public. The FDLP provides your constituents with equitable, ready, 
efficient and no-fee access to Federal government information in an 
increasingly electronic environment. Today Congress, government 
agencies, and the courts increasingly are relying on state-of-the-art 
technologies to create and disseminate government information through 
the Internet. One of the critical keys to GPO's successful transition 
to a more electronic program has been the growth of the GPO Access 
system, a central access point within the GPO for electronic government 
information that today makes available to the public approximately 
225,000 titles. Created by Public Law 103-40, GPO Access has grown into 
a unique digital collection of official government databases from all 
three branches of government including the Congressional Record, the 
Federal Register and the Code of Federal Regulations. Currently an 
average of 31 million documents are downloaded by the public each 
month, a substantial increase from last year that attests to the 
importance and value of this award-winning system to the American 
public.
    The FDLP and GPO Access are vital to the dissemination and access 
of Federal government information to our citizens. We believe that the 
fiscal year 2003 S&E budget request is essential to the continued 
transition to a more electronic program and the continued success of 
GPO Access. We urge you to approve the requested increase that includes 
$91,000 to hire 3 additional FTEs to assist in managing the FDLP 
Electronic Collection and $2.6 million for equipment and systems 
improvements necessary to enhance GPO Access. Since GPO is responsible 
for permanent public access to the content of its Electronic 
Collection, funding to strengthen digital archiving and migration 
capabilities is essential.
    GPO has continued to make excellent progress over the past year in 
enhancing its Electronic Collection. GPO constantly adds new data and 
products to the system, building a current collection of valuable new 
electronic resources. At the same time, GPO provides permanent access 
to core legislative and regulatory information and to agency 
information managed by GPO on GPO servers. Each year, the historic 
electronic collection grows, requiring GPO to meet its responsibility 
for ensuring permanent public access. This function presents probably 
the most difficult challenge of the networked electronic environment. 
Just as the government has an affirmative obligation to provide current 
access to its information, in the digital arena this obligation extends 
to ensuring the preservation of and permanent public access to 
electronic government publications.
FDLP Libraries' Significant Services and Investments
    FDLP libraries are doing their part by investing in technologies to 
assist them in accessing electronic government information. These 
investments exemplify the substantial costs that participating 
depository libraries incur in order to provide your constituents with 
equitable, ready, efficient and no-fee access to government information 
in both print and electronic formats. These costs include providing 
highly trained staff, adequate space, necessary additional materials, 
expensive equipment and Internet connections. The success of GPO Access 
cannot be measured without acknowledging the substantial costs covered 
by libraries. Depository libraries serve as important channels of 
public access to government publications and contribute significantly 
to the success of this program. The government's responsibility to make 
available to depository libraries government publications in both 
tangible and electronic formats is successful because of the necessary 
partnerships developed between the Federal government, the GPO, and the 
Federal depository libraries. In order for GPO to continue to increase 
the amount of government information available for current and future 
public access through the Internet and in order for the Federal 
government to fulfill its responsibilities of the partnership, it is 
critically important that Congress provide adequate funds to support 
the transition to a more electronic program.
Importance of Full Funding for the CP&B
    We also urge your support for the Public Printer's request of $95.2 
million for the Congressional Printing and Binding (CP&B) 
appropriation. This amount includes $5.9 million to cover a budget 
shortfall in the fiscal year 2001 appropriations that will not be 
needed if Congress approves GPO's fiscal year 2002 supplemental 
appropriations request submitted last month. Broad public access to 
legislative information, including the Congressional Record, the text 
of bills, as well as committee hearings, reports, documents and other 
legislative materials, is crucial to the ability of our citizenry to 
engage in the political process. Indeed, recent polls have demonstrated 
the public's increasing awareness of and thirst for information from 
their government, including Congress. Full support for the CP&B request 
will ensure the necessary electronic infrastructure to make 
congressional materials available in a timely manner for permanent 
accessibility through GPO Access and will maintain GPO's in-plant 
printing operation for Congress.
OMB Memorandum Concerning Procurement through the GPO
    Chairman Durbin, we were pleased with the thoughtful questions that 
you posed to Public Printer Michael DiMario during the Subcommittee 
hearing on May 8, 2002 on the impact of the recent OMB memorandum 
regarding the ``Procurement of Printing and Duplicating through the 
Government Printing Office'' (M-02-07). The library community has 
opposed previous efforts by the Office of Management and Budget to 
eliminate GPO's centralized role in the procurement of government 
publications because of the negative impact it would have on public 
access through the Federal Depository Library Program. The FDLP is 
successful in its distribution of tangible government publications--in 
print, microfiche, and CD-ROM--because of the transparency that exists 
between the procurement functions of GPO and the distribution of 
government publications procured or produced by GPO to depository 
libraries. While the government has made progress in providing greater 
Internet access to online government information, there remains a 
sizeable number of materials that continue to be produced by agencies 
in tangible formats. According to GPO's fiscal year 2001 statistics, 
5.9 million copies of 14,700 titles were distributed in tangible 
formats to depository libraries. That figure remains constant for 
fiscal year 2002.
    To destroy the important link between procurement and distribution 
by allowing each executive agency to procure its own printing would 
result in a substantial increase in the number of fugitive documents 
that already exist because of agency in-house printing and 
privatization efforts. While the memorandum includes a footnote that 
``Departments and agencies shall continue to ensure that all government 
publications, as defined in 44 U.S.C. Part 19, are made available to 
the depository library program through the Superintendent of 
Documents,'' there is no mechanism for this to occur and past history 
tells us it would be ineffective and inefficient.
    Indeed, the Department of Health and Human Services' Review of the 
National Institutes of Health Printing Program focuses on several 
National Research Institutes that in 1988 were given the authority to 
publish outside of the GPO but were required to ensure that GPO 
received sufficient number of copies of such titles for distribution to 
depository libraries and one copy for GPO's Cataloging and Indexing. 
Additional, the National Institute of Health (NIH) was to report to GPO 
monthly a list of publications that had been published outside of GPO. 
The results of the review illustrate a lack of compliance with 44 
U.S.C. Chapters 17 and 19 (cataloging and distribution) and the 
reporting requirement by these entities at NIH. Thus most publications 
of these institutes became fugitive documents and, although created by 
government employees and paid for by taxpayer dollars, they were not 
made available to the public through the FDLP as required by the 
printing waiver.
    The transparent link between the procurement and printing of 
publications through the GPO and distribution through the FDLP is a 
system that has worked efficiently for over 100 years and served the 
government, Congress and the American public very well. Destroying this 
important link by allowing agencies to procure their publications on 
their own as proposed by OMB M-02-07 would decimate the depository 
library program and deprive the public of access to tangible government 
publications paid for by their tax dollars through their local 
depository library. The library community strongly opposes this 
proposed change.
    We are very grateful to you and to the Subcommittee for your past 
support of GPO Access, the Federal Depository Library Program and GPO's 
Congressional Printing and Binding services. The investment in systems 
and services to provide the public with government publications in all 
formats will ensure that valuable electronic government information 
created today will be preserved for future generations. We respectfully 
urge your continued support by approving the Government Printing 
Office's fiscal year 2003 appropriations request in its entirety. We 
ask that you please include this statement as part of the May 8, 2002 
hearing record. Thank you very much.
                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DAN L. CRIPPEN, DIRECTOR
ACCOMPANIED BY BARRY B. ANDERSON, DEPUTY DIRECTOR

    Senator Durbin. Let me invite our final witness this 
morning, Dan Crippen--thank you for joining us--Director of the 
Congressional Budget Office. I welcome you and your Deputy, 
Barry Anderson.
    The fiscal year 2003 budget for CBO puts forth totals 
roughly of $32 million and 236 FTEs, an increase of $3 million, 
or 5.2 percent over the current year, and four additional FTEs. 
I invite you to proceed with your statement. Your written 
statement will be made part of the record.
    Mr. Crippen. Thank you, Mr. Chairman. Not to complicate 
your life further, but I understand OMB is thinking up a 
proposed regulation that would eliminate CBO.
    Senator Durbin. Well, we have to consider that contingency.

                            OPENING REMARKS

    Mr. Crippen. Mr. Chairman, thank you, and before I address 
our budget directly, let me say that, as one of your other 
witnesses has this morning, this is likely to be my last 
appearance before the committee. My term is up at the end of 
the year, and unless you call us back for other reasons, this 
may well be my last chance to address this committee.
    Senator Durbin. Well, thank you for being here today, and 
thank you for your service. I have enjoyed working with you.
    Mr. Crippen. Thank you, and I want to thank the committee 
for all its support, and you in particular. You have been very 
helpful to the agency and to me personally, and your recent 
help in getting us access to Census data was very important. We 
think that is going to be accomplished. We are not there yet, 
though we are making progress.
    Senator Durbin. Good.

                       VISITING SCHOLARS' PROGRAM

    Mr. Crippen. Mr. Chairman, as you said, our budget request 
for this year is a modest, if you will, increase of 5.2 
percent, mostly for pay and fringe benefits. The primary 
addition is a request for four additional FTEs, which we would 
use to establish what I hope to be a more permanent guest 
scholar program.
    We currently have guest scholars on occasion. We try to 
keep one or two around to bring us new ideas, but also to help 
us fill gaps in knowledge that we cannot buy. Many of our guest 
scholars are chaired professors, who have academic careers, and 
they are not willing to chuck all that and come to Washington 
and work at CBO, but we can talk them into spending some time 
with us. They have been a very valuable addition.
    I have created a position called Chief Economist, which is 
a rotating position filled by a visiting scholar. Most 
recently, this was a woman from Northwestern, who was a chaired 
professor there in the Kellogg School, just a terrific 
economist and a finance analyst. That kind of talent we could 
not attract on a permanent basis. A guest scholar program would 
allow us to start what I hope would be a little more 
competitive program, something that might have a reputation 
such that people would want to come and spend time with us--
rather than having us go searching for them. So that is what 
the additional FTEs are for, to begin that kind of program.

                           PREPARED STATEMENT

    Other than that, things are fairly vanilla-flavored in my 
submitted request, and I will stop for your questions.
    [The statement follows:]
                  Prepared Statement of Dan L. Crippen
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the fiscal year 2003 budget request for the Congressional 
Budget Office. The mission of CBO is to provide the Congress with the 
objective, timely, nonpartisan analysis it needs about the economy and 
the budget and to furnish the information and cost estimates required 
for the Congressional budget process.
Overview of CBO's Budget Request for Fiscal Year 2003
    Excluding the cost of the Administration's proposal to charge each 
agency the full cost of federal retirees, we are requesting $32,390,000 
for fiscal year 2003--roughly 5.2 percent over the agency's fiscal year 
2002 appropriation. Our budget continues to be driven by the need to be 
competitive in a specialized labor market, with nearly all of the 
increase going to mandatory increases in personnel costs. Specifically, 
we are asking for a 5.8 percent increase in mandatory pay and benefits, 
which will allow us to remain competitive in our recruitment and 
retention efforts. Other increases--for four additional positions, 
inflation in administrative spending, and maintaining a disaster 
recovery capability--are largely offset by savings in time-sharing 
costs and a year-to-year reduction in technology purchases.
    Adding four additional positions would allow us to expand our 
visiting scholars' program, with which we appoint postdoctoral and 
midcareer economists with highly specialized expertise in areas such as 
health, finance, tax, and macroeconomics. This program has proven to be 
highly cost-effective in attracting specialists for assignments of 12 
to 18 months in areas where we have great difficulty recruiting 
permanent employees. In the last three years, the contributions of such 
scholars to CBO have been considerable.
    We also want to (1) increase slightly our budget for recruitment 
bonuses, which is currently limited by report language; (2) begin using 
our student loan repayment authority; and (3) establish a new 
professional development program to enhance the abilities and 
effectiveness of CBO employees through extended study or external work 
experiences in specialized areas where we have difficulty recruiting 
staff.
    As noted above, technology spending will decrease (by $491,000) as 
we realize savings in time-sharing costs from replatforming major 
analytical programs--the Budget Analysis Data System, SAS, and APT--and 
as expenses for software and hardware drop to a more normal level after 
increases in 2002 in response to potential data security threats and 
disaster recovery needs.
    Specifically, the fiscal year 2003 request would do the following:
  --Support a workload estimated at 1,960 legislative cost estimates 
        and mandates cost statements, 30 major reports, 43 other 
        publications, and a heavy schedule of congressional testimony.
  --Provide a pay adjustment of 4.1 percent for staff below the level 
        of senior analyst, consistent with the increase requested by 
        other legislative branch agencies.
  --Raise our staffing ceiling to 236 full-time-equivalent positions 
        (FTEs), four more than in fiscal year 2002, to allow us to 
        appoint academic experts for limited-term research fellowships 
        in technical areas where we have difficulty attracting 
        permanent employees. The cost of these positions would be 
        largely offset by savings in time-sharing and other 
        administrative expenses, as noted above.
  --Fund a combination of within-grades, promotions, and merit 
        increases for staff below the level of senior analyst and 
        provide performance-based raises for managers and senior 
        analysts who no longer receive automatic annual salary 
        increases.
  --Allow us to increase our budget for bonuses (recruitment and 
        performance) to 1.25 percent of the pay base. This budget has 
        been limited by report language to 1 percent of the pay base 
        since we received the authority in fiscal year 2000. 
        Recruitment bonuses have been helpful in hiring specialists, 
        but the funding limitation has constrained their use.
  --Fund price increases of $131,000 for technology and administrative 
        support spending and maintain the disaster recovery capability 
        we are now working to develop in 2002, assuming we receive a 
        transfer of funds from the emergency supplemental.
    We are also requesting two changes in our legislative authority. 
The first would allow us to provide employees with advanced training in 
difficult-to-acquire specialities, through study or work experiences at 
other government agencies or in the private sector. This approach would 
allow us to build our capacity in highly competitive disciplines where 
recruitment alone has proven insufficient. Such assignments (which are 
authorized for all executive branch agencies) would be accompanied by a 
substantial service commitment. The other authority would restore an 
expired provision that exempted CBO from a burdensome and obsolete 
procurement statute, originally enacted in 1861 and from which the 
executive branch has been exempted for 50 years. These changes are 
explained in greater detail in an appendix at the end of my statement.
Accomplishments in Fiscal Year 2001
    Fiscal year 2001 presented major challenges for the Congress as it 
worked to mitigate the effects of a slumping economy and protect the 
country from terrorist attacks. We assisted the Congress as it debated 
a variety of legislative responses to the economic and terrorist 
threats while we also carried out our core duties under the Budget Act 
and continued to build on our long-term estimating capability.
    CBO produced 450 bill cost estimates and more than 800 estimates of 
the impact of unfunded mandates on state and local governments and the 
private sector, experiencing the usual cyclical dip in mandated 
workload while the first session of the 107th Congress organized. Major 
legislative initiatives in fiscal year 2001 with a significant 
budgetary impact included The Economic Growth and Tax Relief 
Reconciliation Act of 2001, the authorization of new education 
programs, the Bipartisan Patients' Bill of Rights Act, the National 
Defense Authorization Act for Fiscal Year 2002, the Farm Security Act 
of 2001, aviation security measures, federal insurance for future 
terrorist attacks, prescription drug coverage for the elderly, and the 
taxation of Internet sales.
    An important part of the agency's mandate is the preparation of 
regular economic forecasts and detailed analyses of the state of the 
economy and of the Administration's economic forecast. This effort is 
supported by the advice of a distinguished panel of advisers who 
represent a wide spectrum of economic views. As the economy slowed in 
2001, we devoted significant resources to collecting and analyzing data 
bearing on the rate at which the economy was growing and the impact 
that would have on the federal budget. We also provided testimony on 
reforming the federal budget process and on extending the Budget 
Enforcement Act provisions that expire at the end of fiscal year 2002.
    Overall, we testified before the Congress 16 times in fiscal year 
2001 on a variety of significant budget and economic issues, and we 
expect the number of appearances to grow in 2002.
    Responding to requests from Congressional committees for analyses 
of budgetary and programmatic issues is an important function of the 
agency. As the following discussion shows, CBO studied a broad range of 
policy initiatives and proposals in 2001.
    Social Security.--During fiscal year 2001, a major effort was the 
construction of an analytical framework for examining proposals to 
restructure Social Security. That framework was utilized in preparing 
Social Security: A Primer, which was released early in fiscal year 2002 
and which we hope will be useful to the Congress and the public in 
understanding the issues and debate regarding Social Security reform. 
We also produced estimates of the costs of proposals to eliminate the 
retirement earnings test and to make other changes to the program.
    During the year, we used our long-term actuarial model of Social 
Security to produce new long-term budget projections (75 years) for 
CBO's Budget and Economic Outlook. We also devoted significant 
resources to a second long-term modeling project--namely, a dynamic 
microsimulation model that projects outcomes for a representative 
sample of the population. It takes into account how the population 
changes over time and could provide more realistic cost projections. We 
also extended our long-term models to include the impacts of Medicare 
and other significant federal benefit programs, as well as 
macroeconomic feedback.
    Medicare and Other Health Issues.--Major CBO work efforts provided 
analyses and extensive testimony on proposals to add prescription drug 
benefits to Medicare. Our staff also worked closely with the House Ways 
and Means, Senate Finance, and House Energy and Commerce Committees in 
formulating proposed drug benefit bills, providing extensive feedback 
and technical advice. With the help of an expert panel of researchers 
and private industry experts, we undertook a thorough review of our 
methodology for examining and estimating the potential costs of drug 
proposals. We also analyzed dozens of specific legislative proposals to 
alter how Medicare providers (hospitals and doctors) are reimbursed.
    Finally, we analyzed a variety of approaches to increasing the 
number of Americans with health insurance coverage and provided 
estimates of the budgetary and private sector costs of proposals for a 
patients' bill of rights, including analyzing the private health 
insurance cost impacts of every provision of all four major bills.
    National Security.--In fiscal year 2001, defense-related 
accomplishments included support to the Congress through direct 
assistance and significant published reports. For example, an overview 
study summarized trends in spending by type of operation and 
maintenance (O&M) cost, and a related study analyzed the effects of 
aging on the O&M costs of maintaining military equipment; a project on 
Alternatives for the Future U.S. Navy identified a shortfall between 
the long-term costs to support the Navy and present and projected 
budgets. In June 2001, we also convened a symposium of experts on how 
we could best contribute to the homeland security debate. We were 
subsequently asked by the House Committee on Intelligence to identify 
the resources being spent on counterterrorism and critical 
infrastructure protection by each federal agency and trace those 
resources back to the authorizing and appropriating committees. In 
addition, we completed two reports on NATO--Integrating New Allies Into 
NATO and NATO Burdensharing After Enlargement. Finally, we provided 
informal support and information to the Armed Services, Budget, and 
Foreign Affairs/International Relations Committees.
    Domestic Economic, Tax, and Financial Issues.--Our efforts to 
better understand the economy and the economic impact of legislation 
included work on the ``New Economy'' and how it has changed the 
economic outlook, the effect of an aging population on the long-term 
outlook for the budget and the economy, and the effect of taxes on the 
macroeconomy. We also published analyses of (1) the multibillion-dollar 
financial benefits conferred on Fannie Mae and Freddie Mac by their 
federal affiliation; (2) H.R. 2329, the High-Speed Rail Investment Act 
of 2001, which would provide assistance to Amtrak; (3) four proposals 
for reducing carbon emissions; (4) the need for better price indices 
for communications equipment; and (5) industry estimates of future 
investment requirements for waste and drinking water systems.
Work Priorities for Fiscal Years 2002 and 2003
    Significant priorities in fiscal years 2002 and 2003 are (1) 
strengthening the resources and level of effort devoted to health care 
issues; (2) sharpening our focus in the national security area; (3) 
redeploying staff to address budget issues on anti-terrorism and 
homeland security; (4) continuing to emphasize our long-term modeling 
for Social Security and Medicare; and (5) generally focusing more 
attention on how we select, plan for, and manage our major projects.
    The year began under difficult circumstances, as CBO staff had to 
work in alternate locations and from their homes for about three weeks 
during the closure of the Ford House Office Building. During that 
shutdown, we were able to continue providing daily assistance to the 
Appropriations Committees during consideration of several fiscal year 
2002 funding bills and to continue work on a new projection of the 
economy. We also completed many formal cost estimates during the 
closure, including those for the Aviation Security Act and the Best 
Pharmaceuticals for Children Act.
    As always, our primary objectives will be to provide technical 
assistance and analytical support to the Congress in its work on annual 
budgets and to prepare estimates for legislative proposals with 
budgetary impact. This will, of course, include the annual preparation 
of baseline spending and revenue projections, projections of the 
condition of the economy, cost estimates for authorization and direct 
spending legislation, and outlay estimates for appropriation bills. We 
also plan to issue a comprehensive analysis of budget options in 2003.
    Other priorities for the remainder of this year and next will 
include work on fiscal stimulus proposals, the extension of farm and 
nutrition assistance programs, and the reauthorization of the Temporary 
Assistance to Needy Families program and the Individuals with 
Disabilities Education Act. We also expect to analyze proposals to 
change the Medicare program that include its handling of prescription 
drugs, managed care, and providers' reimbursement, as well as proposals 
for a patients' bill of rights and Medicaid reform.
    Another major project on Medicare is examining ``high-cost 
beneficiaries''--the most expensive 5 percent--who account for nearly 
half of program spending. Using a large database on recipients and 
claims, which is now being assembled, we will improve our long-term 
estimates of both Medicare spending and the utilization of services by 
individuals over time.
    Efforts to improve our methods for estimating will continue, as we 
reassess the uncertainty of budget projections and work with the Joint 
Committee on Taxation and the Department of the Treasury to develop and 
implement new methods for both estimating the effects of recently 
enacted tax legislation on receipts and projecting the flow of receipts 
under existing law.
    We will continue development work on our long-term model for Social 
Security and Medicare and continue to produce long-term budget 
projections. And we expect to publish major studies on issues and 
options for funding long-term care for the elderly and trends in the 
number of households in the United States without health insurance.
    Our work on national security is focused on several broad themes, 
including enhancing homeland security, better utilizing defense 
resources, achieving defense efficiencies, and transforming forces to 
meet 21st century needs. We also anticipate providing support to the 
Congress in its consideration of the annual defense authorization bill 
and potential additions to foreign assistance spending (for example, 
aid to Afghanistan).
    Other important work will analyze proposed tax law changes; federal 
reinsurance for terrorism insurance; water infrastructure needs; 
foreign exposure of U.S. banks; regulation and government intervention 
in sectors such as aviation, agriculture, banking and finance, energy; 
and the effects of technical progress in computers and communications 
on the national economy.
Internal Management Strategy, Progress, and Priorities for Fiscal Years 
        2002 and 2003
    In addition to focusing directly on its mission, CBO, like any 
successful organization, must devote resources to attracting talented 
people, developing their skills, and properly equipping them. It must 
also organize its key work processes to be as efficient as possible.
Enhancing Recruitment and Retention
    During fiscal years 2002 and 2003, we will continue to pursue the 
goals and initiatives undertaken in the last two years to identify, 
hire, and retain a highly talented and diverse workforce.
    1. Strengthen Recruitment Strategy.--Our goal has been to focus our 
efforts on quickly filling key vacancies, particularly in hard-to-
attract disciplines, while building a more diverse workforce.
    In 1998, the agency experienced an unusual number of vacancies and 
was unable to quickly replace the individuals lost. Consequently, 
staffing dropped from 227 full-time-equivalent positions in 1997 to 205 
in December 1998, even though 232 FTEs were funded. We began to recover 
in 1999 but still ended the year short of our staffing needs. We met 
our mandates, but the shortfall created a hardship for our staff, and 
it meant that our ability to produce nonstatutory cost estimates and 
major studies suffered. To address this, we developed a comprehensive 
recruitment strategy, and specific actions to implement. This strategy 
has allowed us to fill vacancies more quickly and to reach our staffing 
goals of 225 and 228 in 2000 and 2001, respectively. To achieve this 
we:
  --Simplified our application process, shortened the time from 
        application to job offer, and developed new automated systems 
        to track both job applicants and recruitment contacts;
  --Created a high-quality recruitment brochure for our college 
        recruitment program, strengthened the employment pages on our 
        Web site, and expanded the number of schools where we actively 
        recruit, including many with significant minority populations;
  --Began the use of recruitment bonuses in hard-to-fill specialities 
        (these bonuses have been particularly useful, but funding for 
        this purpose is very limited as compared to what the private 
        sector and the executive branch can spend);
  --Raised offering salaries for new Ph.D. and Master's candidates and 
        enhanced our internship programs to reach more candidates with 
        relevant skills, including more minority applicants;
  --Attended conferences, symposia, and other functions aimed 
        specifically at encouraging, developing, and recruiting 
        minority economists; and
  --Implemented an awards program for outstanding performers, which 
        recognizes roughly a third of our permanent employees each 
        year.
    In fiscal years 2002 and 2003, we will further expand our campus 
visits to include more schools with diverse student populations and 
provide additional training on effective recruitment techniques. We 
also wish to:
  --Formalize our effort to attract technical experts in high-demand 
        disciplines with a competitive visiting scholars' program for 
        postdoctoral fellows and midcareer academics, and
  --Expand our use of recruitment bonuses and develop procedures for 
        our student loan repayment program as additional recruitment 
        and retention tools.
    2. Improve CBO's Training Program.--Our goal is to improve 
management and job skills by investing in our people through training, 
education, and professional development.
    CBO has always invested in the job skills of its employees, but the 
amount spent on job training and professional development has been far 
less than that of other high-impact organizations, and much less than 
recommended by management experts. CBO spent less than 0.5 percent of 
its personnel costs on training in 1999, compared with the 2 to 4 
percent typical of high-performing private firms we recruit against. In 
fiscal year 2000, we increased our training expenditures by nearly 30 
percent while eliminating less cost-effective training and providing 
skill training to a much higher percentage of our staff. Training of 
CBO employees increased again in fiscal year 2001, with expenditures up 
another 10 percent, resulting in 61 percent of CBO employees receiving 
training. We also began training managers in leadership and 
communications skills. To date, we have provided leadership training to 
60 percent of our managers.
    During fiscal years 2002 and 2003, we will maintain the higher 
level of spending on training, education, and professional development; 
provide management training to the remainder of our senior staff; 
provide management development to analysts with strong leadership 
potential; expand our in-house educational conferences; provide 
additional computer training; and enhance our orientation program for 
new employees. As noted earlier, we also plan to develop a program for 
extended professional development through study or external work 
experiences in government or the private sector.
    3. Modernize and Revitalize the Working Environment.--Our goal is 
to reconfigure and, where necessary, renovate offices to better use our 
space and to provide a quality work environment for new employees and 
those currently in inadequate space.
    Most of CBO's space was configured shortly after the agency's 
creation 25 years ago--in a building designed primarily for file 
storage, not human occupancy. At that time, there were few desktop 
computers, many more support staff, less specialization, and a less 
competitive employment marketplace. Consequently, a significant 
percentage of our space was configured for clerical staff, and many 
analysts had work space that was in passageways or was otherwise 
undesirable. Conference space, which is critical to the collaborative 
nature of our work, was also in short supply.
    In close cooperation with staff of the Architect of the Capitol and 
the Superintendent of House Office Buildings, we developed a range of 
strategies to address our space problems--primarily the demolition of 
existing partitions and replacement with prefabricated movable wall 
panels. By the end of December 2001, we had completed the 
reconfiguration of roughly 17 small office suites and other areas, 
constituting roughly 23 percent of our usable floor space. The result 
was about 53 offices renovated, with a net gain of 22 private offices 
and three additional conference areas. In the process, we were also 
able to reduce wasted space, including inefficient storage.
    During fiscal years 2002 and 2003, we will still have a significant 
number of employees in unacceptable space. We plan to renovate another 
20 small suites. In the process, we will eliminate approximately 25 
additional substandard work spaces, while realizing a net gain of 
roughly 30 private offices. We will also improve the efficiency of 
smaller offices by using systems furniture more suitable to a modern 
work environment.
    4. Access to Critical Data.--Expand CBO's access to, and use of, 
major data sets in its modeling and analytical endeavors.
    CBO's ability to carry out its mission relies heavily, and in some 
cases, almost entirely on having access to comprehensive programmatic 
and economic data. Such data is used to estimate the costs of bills, 
make 10-year (and long-term) budget and economic projections, and 
analyze other aspects of legislative proposals. In the last two years, 
we have more than doubled the amount of storage on our network to 1.5 
terabytes, including at least 50 major databases and hundreds of 
individual data series. Two major additions to our data access in the 
last year have allowed us to:
  --Begin using a huge Census ``Matched Data Set'', which combines 
        Census and IRS data on a large sample of survey respondents to 
        build a microsimulation that more accurately predicts future 
        Social Security costs.
  --Increase our use of additional Social Security earnings data and 
        disability and retired worker beneficiary and benefit data.
    And we have recently created an inventory of internal and external 
data sets which all of our analysts can use to identify information 
already available to CBO as they plan or begin new work.
    During 2002 and 2003, we will continue to work with the Census 
Bureau and Congress in our effort to obtain permanent access to survey 
data critical to our ongoing modeling and analysis. We have also just 
obtained permission to receive Medicaid data on a recipient basis from 
the Centers for Medicare and Medicaid Services, to be used for the 
first time in analyzing proposed legislative changes.
Communications Priorities
    The value of CBO's work to the Congress and the public derives from 
the quality, readability, and availability of its products. While the 
demand for CBO's printed publications remains strong, the use of 
electronic versions on the agency's Web site is growing significantly 
year to year.
    5. CBO's Web Site.--Our goals are to respond to the growing demand 
for electronic products and to enhance the site's functionality and 
accessibility.
    Usage of CBO's Web site is roughly doubling every year and reached 
more than 9 million hits and 2.3 million page requests in 2001. To 
accommodate the increase in traffic and provide better performance, we 
(1) upgraded our Web server; (2) simplified our cataloguing of 
publications so that users can browse all documents by subject area 
without knowing the type of document; and (3) significantly improved 
the search function for publications. To determine what our customers 
need from our Web site, we conducted numerous interviews of 
Congressional staff, senior policy analysts in think tanks, and current 
employees, and we posted a survey on the site that elicited hundreds of 
responses.
    In fiscal years 2002 and 2003, we will undertake a more 
comprehensive redesign of the Web site on the basis of users' 
suggestions. The site will incorporate additional functions; more 
budget-related links; topical collections of publications and cost 
estimates; and research materials, including downloadable spreadsheets. 
Given the difficulty involved in promptly delivering our products to 
Congressional customers since September 11, we are also experimenting 
with e-mailing reports and testimony to Members and Congressional 
staff, while urging other recipients to access our products from our 
Web site. Meanwhile, a new ListServer is improving our notification to 
subscribers when new publications are issued. We will also:
  --Complete an on-line archive of all CBO's earlier publications and
  --Produce more publications that take advantage of the electronic 
        environment, specifically, publications that are 
        ``interactive'' and include advanced search capabilities and 
        links to other information. For example, our last Budget 
        Options report utilized this capability and we will use this 
        approach in a study analyzing tax incentives for retirement 
        savings.
    6. CBO's Publications and Production Processes.--Our goals are to 
produce high-quality publications that are easily identified as CBO 
products and to improve production processes for efficiency.
    As usage of CBO's Web site has increased, we have been able to 
print fewer reports and keep inventory costs in check. Demand for our 
printed reports nonetheless remains strong, so we are improving their 
quality and modernizing their look while seeking additional 
efficiencies. For example, in fiscal year 2001, we:
  --Improved the appearance of reports produced in-house and graphics 
        used in Congressional hearings to make them more professional 
        looking and readily identifiable as CBO products and developed 
        a better capability to produce graphics in-house, saving time 
        and thousands of dollars;
  --Took advantage of new reproduction technology to produce higher-
        quality reports more quickly; and
  --Established the capability to reproduce high-quality reprints of 
        most reports, allowing us to reduce the size of initial print 
        runs and the space devoted to stocking reports.
    In fiscal years 2002 and 2003, we will finish modernizing our 
remaining report formats and further improve the production processes 
underlying our reports. Moreover, we are upgrading our distribution 
system to provide a more customized delivery of every report--to put 
copies into the hands of policymakers and interested readers but avoid 
excess printing. We will also increase reliance on electronic 
publishing from CBO's Web site and e-mailing reports to give Members of 
Congress earlier access. We also plan a customer survey to determine 
how our reports are used and how to improve them.
Technology
    As noted earlier, highly effective organizations must provide staff 
with the technology they need to do their work. In exit interviews and 
focus groups with current staff, technology emerges as an area where 
CBO excels compared to other places people have worked. Technology is 
also critical to our ability to do the highly complex analyses that 
underpin much of CBO's work.
    7. Maintain Our Technological Edge.--Our goal is to continue to 
provide the best technology systems economically available to support 
the agency's mission while constantly improving the performance of 
those systems and employee satisfaction.
    During fiscal years 2000 and 2001, we upgraded most desktop 
computers and, for the first time, achieved an ideal hardware/software 
configuration for every employee. In 2001, we improved our network 
communications, tightened network security with a firewall and other 
hardware, added nearly a terabyte of needed data storage, and 
strengthened system reliability. We also began a multiyear project to 
reengineer and automate key work processes. This has resulted in the 
development or acquisition of many new automated systems, including 
ones for job applicant tracking, requisition and procurement, credit 
card management, and telecommunications management.
    At the insistence of House Information Resources (HIR), we recently 
moved our Budget Analysis Data System from the HIR mainframe to the 
National Business Center in Denver, Colorado. We also began a major 
redesign of the system, which will improve its performance and 
usability and achieve significant cost savings. We are also 
replatforming our use of SAS, which will yield additional savings. 
Finally, we began a complete redesign of our intranet.
    Thus, in fiscal year 2002, we will pursue the following:
  --Continue design work on a PC-based replacement for our mission-
        critical Budget Analysis Data System to improve performance and 
        further reduce costs.
  --Complete automation efforts for project tracking, supply 
        distribution, and equipment inventory.
  --Further develop our intranet as a primary delivery mechanism for 
        internal communication and service delivery. It will become the 
        primary repository for policy and guidance, a major source for 
        research materials, and a launching pad for all internal 
        administrative systems.
  --Update a limited number of network and desktop software packages, 
        further improve computer system reliability and security, and 
        bring other analytical time-sharing functions in-house to 
        reduce costs.
    Our major objectives for fiscal year 2003 will be to upgrade older 
desktop hardware and software systems; strengthen network security by 
updating software and equipment and periodically auditing for 
vulnerability; and improve infrastructure reliability by upgrading the 
network backbone and aging components.
    8. Prepare for Disaster Recovery.--Our goal is to develop plans and 
assets that would allow the prompt restoration of CBO's mission-
critical support to the Congress.
    In fiscal year 2001, we took significant steps to prepare for 
disaster recovery. They included (1) moving CBO's mission-critical 
server room to the 6th floor of the Ford building, which has emergency 
power, air conditioning, and a higher level of physical security; (2) 
backing up network data to tape and storing it in fireproof safes; and 
(3) installing redundant computer, network, and communications 
equipment to eliminate single points of failure.
    Although we were able to rapidly restore our critical functions 
when the Ford building closed, the events of September 11 reemphasized 
the importance of disaster recovery planning and caused us to reorient 
our thinking and reconsider threats that were previously deemed too 
remote to worry about.
    As a result, we identified vulnerabilities and concluded that more 
effort and money needed to be devoted to protecting our mission-
critical systems and data in fiscal years 2002 and 2003. Consequently, 
we plan to:
  --In cooperation with HIR and a legislative branch working group, 
        establish a secure off-site computer facility to mirror our 
        most mission-critical systems and formalize our off-site 
        storage of backup data;
  --Provide remote access to important application programs to allow 
        staff to work at home or at work sites outside the Ford 
        building; and
  --Negotiate reciprocal agreements with other legislative or executive 
        branch agencies to provide emergency work space and data 
        communications.
    9. Enhance Network Security.--Our goal is to strengthen network 
security and establish a separate network for the storage and 
processing of sensitive data from the Internal Revenue Service, Social 
Security, and Health and Human Services.
    Much of the government information that CBO uses for its analysis 
and model development is highly sensitive, and we adhere to the strict 
security procedures dictated by the agencies providing the data. As the 
use of such information has grown, so has our need for information 
security measures. As a result, this fiscal year we are installing a 
separate local area network to store and access our most sensitive 
data. To do so, we are:
  --Deploying an independent network server, disk storage system, and 
        wiring;
  --Physically separating the secure network from the Internet to 
        prevent dial-up or other external access, and encrypting all 
        sensitive data using a secure algorithm that meets the 
        Department of Defense's security standards;
  --Developing detailed security procedures and internal audit controls 
        and educating users; and
  --Protecting secure workstations with an access control device that 
        generates a randomly generated password that is virtually 
        impossible to duplicate.
Streamlining Operations and Redesigning Key Processes
    As mentioned before, we have also devoted significant attention to 
automating and modernizing our internal processes. Examples discussed 
earlier in some detail are our job applicant tracking system, which 
allows us to process applications more quickly and efficiently, and 
changes in our report production process.
    10. Process Redesign.--Our goal is to modernize and automate 
internal processes to provide services and information electronically 
while reducing the time needed to use and support administrative 
functions.
    In fiscal year 2001, we began work on a wide range of automated 
systems that in essence reengineer our key work processes. Many of 
those will provide internal services and information through the 
redesigned CBO intranet, including human resources information, library 
services and research support, conference room scheduling, technical 
assistance services, requisitioning, policy dissemination, travel 
administration, and many others. Much of this work will be completed in 
2002.
    We have also introduced (1) an applicant resume tracking system 
that routes electronic resumes to CBO managers and e-mails feedback to 
job candidates; (2) a telecommunications database to control our phone 
costs, which helped us save $30,000 in fiscal year 2001 and now 
generates paper and electronic phone directories and provides employee 
data for other systems; and (3) a credit card system used to track 
purchases as they are made and assist in fund management. We are now 
implementing an on-line project tracking system, which will revamp the 
way we select, plan, and manage major projects.
    In fiscal year 2003, we plan to further automate administrative 
systems, including a human resources information system to manage 
personnel information and a service request tracking system to help 
manage all internal support services.
    11. Streamline Procurement.--Our goal is to modernize our 
procurement process so that it is a streamlined, paperless process with 
greater emphasis on cycle times, competition, and cost reduction.
    In fiscal year 2000, we undertook a major effort to reengineer our 
procurement process. We investigated the procedures and supporting 
software used by other organizations and redesigned and simplified our 
process.
    During fiscal year 2001, we reorganized and retrained our 
procurement staff and selected and began implementation of a new 
automated procurement system, PDT (Procurement Desktop), which is 
integrated with our accounting system at the Library of Congress (LoC). 
Because we now obligate our own funds, the system has also allowed us 
to reduce our payments to the LoC for administrative support while 
providing us with better control over financial transactions. We also 
streamlined many aspects of our procurement process to save effort and 
reduce cycle times. During fiscal year 2002, we will:
  --Expand the use of our Web site to communicate with current and 
        potential vendors and contractors to encourage more 
        competition;
  --Design a system that will use detailed procurement data to assist 
        in budget preparation and execution processes; and
  --Implement an off-the-shelf asset management system to better track, 
        safeguard, and depreciate fixed assets.
Conclusion
    Mr. Chairman, during the last three years we have worked very hard 
to meet the needs of the Congress and to rebuild our staff during a 
period of great competition in the labor market. To do this, we have 
raised starting salaries for new graduates and undertaken a variety of 
efforts to make CBO a more desirable employer for talented economists 
and policy analysts. The budget increases provided in 2001 and 2002, 
along with extensive efforts to reduce our nonpayroll costs, have 
allowed us to return to full strength and make progress in attracting 
specialized staff, while modernizing our products, processes, and 
infrastructure.
    Nonetheless, we continue to have the same concerns of all federal 
employers--our salaries are not always competitive, many new graduates 
shun government service, anticipated retirements are worrisome, and 
replacing staff in high-demand disciplines is not easy or quick. At 
CBO, we have particular difficulty attracting and retaining new Ph.D.s 
and experienced experts in areas such as finance, health, and 
macroeconomics. The new initiatives for which we need your support--for 
the visiting scholars' program, additional funding for recruitment 
bonuses, and the professional development authority--and our 
implementation of a student loan repayment program will provide us with 
additional tools we can use in our efforts to attract the best and the 
brightest to serve the Congress.
                                Appendix
Request for Legislative Authorities
    With the fiscal year 2003 budget request, CBO is also asking for 
legislative authority in the following administrative areas.
    Employee Professional Development.--This language would give CBO 
authority that executive branch agencies have to establish an 
educational program to enhance the abilities and effectiveness of CBO 
employees through study or work experiences, including periods of 
employment with private sector organizations. The executive branch has 
such authority for members of the Senior Executive Service under 5 
U.S.C. Sec. 3396. CBO may currently fund with its annual appropriation 
a narrower group of activities authorized by the Intergovernmental 
Personnel Act, but that authority only applies to work for 
universities, nonprofit organizations, states, and local governments. 
For example, CBO cannot now adopt the executive branch practice of 
detailing employees to other agencies for learning and development. The 
provision would provide such authority.
    Sec. 102. The Director may, by regulation, make applicable such 
provisions of section 3396 of title 5, United States Code, as the 
Director determines necessary to establish hereafter a program 
providing opportunities for employees of the Office to engage in 
details or other temporary assignments in other agencies, study, or 
uncompensated work experience which will contribute to the employees' 
development and effectiveness.
    Reinstatement of Exemption from Advertising.--This language 
restores a provision that had been included in the past as a regular 
appropriation provision and that CBO mistakenly believed had been 
enacted as permanent law. Following establishment of CBO in 1974, 
legislative branch appropriation acts for fiscal years 1976 and 1977 
exempted CBO from an obsolete procurement statute, originally enacted 
in 1861, which effectively prohibits modern acquisition methods such as 
competitive negotiations. The executive branch has been exempted for 
over 50 years (5 U.S.C. Sec. 260; 10 U.S.C. Sec. 2314), and other 
legislative branch agencies, such as the General Accounting Office (31 
U.S.C. Sec. 781(c)(1)), the Architect of the Capitol (41 U.S.C. 
Sec. 6a-1), and the Government Printing Office (44 U.S.C. Sec. 311(b)), 
are exempt. While CBO's exemption was included in the United States 
Code (2 U.S.C. Sec. 604), it did not contain language necessary to 
establish the exemption as permanent law. Consequently, after the 
exemption was omitted from the 1978 appropriation act, it was omitted 
from the code, although CBO continued to procure goods and services as 
previously authorized. This would restore the original language as a 
permanent provision.
    Sec. 103. The Director is hereafter authorized to enter into 
agreements or contracts without regard to section 3709 of the Revised 
Statutes (41 U.S.C. 5).

              FEDERAL ACCOUNTING STANDARDS ADVISORY BOARD

    Senator Durbin. Let me ask you about this Federal 
Accounting Standards Advisory Board. I think you may have heard 
the questions earlier.
    Mr. Crippen. I did.
    Senator Durbin. What are your thoughts?
    Mr. Crippen. Well, the history of it is, I think, a little 
clearer than what he was discussing with you. That is, the 
private AICPA, the private accountants, had recommended a 
number of things to principals of this board. As I am told, the 
Secretary of the Treasury thought it was a good idea to add 
more nongovernmental representatives, and as a result they 
ended up with an organization that was really not the same as 
what the AICPA had recommended.
    Indeed, the ultimate organization, as I understand it, is 
now six nongovernmental employees--called private in some of 
the organization's memos--and three Government employees, three 
principals, as Mr. Walker said. I think even the chair is 
supposed to be a nongovernmental employee, ultimately.
    The concern I have with the current composition is this: 
not only are there many issues that private-sector accounting 
cannot address, or does not address very well in a Government 
setting, but I do believe there is an impact on congressional 
representation, let alone governmental representation.
    We have a couple of experiences from the last 
administration, for example, when the Director of OMB and 
Secretary of the Treasury wanted to change, and in some cases 
were successful in changing, the accounting of some programs; I 
do not want to question their motives, but I do not think the 
changes added clarity in what they were endeavoring. In fact, 
we argued the opposite, and I think we had some effect, just as 
a member of the board.
    I also think it would be useful to have more congressional 
representation. Whether that is us or somebody else is up to 
the Congress, but I know that as in the past administration, 
there is no reason to believe that it will not again be 
tempting for the OMB Director and Secretary of the Treasury to 
change standards to suit a purpose other than clarity of 
financial exposition.

         OPPORTUNITIES FOR EMPLOYEES' PROFESSIONAL DEVELOPMENT

    Senator Durbin. Last year, you sought authority to develop 
an education trust fund financed by outside sources, and this 
was not included in the final appropriation bill. You are not 
pursuing similar language in this next year's budget.
    Mr. Crippen. No.
    Senator Durbin. Instead, you requested authority for an 
educational program for a study or work experience with 
private-sector organizations or other executive agencies. Does 
this new proposal fill the need for advanced education 
opportunities that CBO sought last year?
    Mr. Crippen. I think it does in part. One of the things 
that I was looking for last year as well was an advanced or 
enhanced guest scholar program, so with the additional FTEs and 
this authority, we could accomplish most of what I had in mind.
    The executive branch currently can send folks out for 
experience in other places, both within the Government and the 
private sector, and it is that authority that could be 
attractive to some of our folks in both recruiting and 
retention. So this does, between the FTE increase and this 
authority, pretty much cover what we had in mind.

                     STUDENT LOAN REPAYMENT PROGRAM

    Senator Durbin. Do you use student loan forgiveness 
programs?
    Mr. Crippen. We will. We have not used the authority as 
yet, obviously. It is fairly new. We have developed regulations 
for how we are going to use it, which I think the committee 
has. It was in February that we developed them, so we have in 
place the program and regulations. We intend to use it very 
much the way the Comptroller General described it, in a 
targeted way to attract people in areas where we have 
difficulty recruiting, not as a general benefit.
    I was up at Syracuse last week recruiting, and many of the 
students there, the Maxwell School master's degree students, 
are going to come out with $30,000 or $40,000 in debt, so it is 
difficult for them to commit to public service, where we 
typically pay lower salaries. This would certainly enhance our 
ability to attract those kinds of students who would be 
otherwise inclined to public service.
    Senator Durbin. How about retention? Will you be using it 
for retention?
    Mr. Crippen. Well, we have written into our regulations, 
which may be partly for statutory reasons, I do not recall, 
that a 3-year commitment would be required of anyone getting 
this benefit. And of course there would be a termination 
provision and payback and those kinds of things. So those 
requirements clearly would help in terms of locking people in 
up front.
    We do not worry quite as much about retention as we do 
recruitment in a couple of ways. Our Budget Analysis Division, 
which does the lion's share of the numbers crunching, is the 
largest single division, largely made up of master's graduates 
in economics, public administration, statistics, other fields. 
It has been true since the beginning that CBO has had little 
difficulty recruiting these folks and has been a good training 
ground for congressional staff and other governmental staff. So 
the fact that someone comes in as a master's degree holder and 
does not spend his or her life there is not surprising or of 
concern.
    We have a relatively high turnover of 10 to 15 percent a 
year in that group because it is such a good training ground. 
They learn the budget, the budget process, the Congress, and 
many of them come over here to work for you all or go downtown. 
We would not look at helping with student loans as a way to 
make master's students commit their life to CBO, whereas we 
would mostly use the authority to help recruit specialized 
employees whom we want to stay much longer.

                         CONCLUSION OF HEARINGS

    Senator Durbin. Thank you. That is all the questions I 
have. I appreciate you being here today, and thank you for the 
good work you are doing at CBO.
    Mr. Crippen. Thank you, sir.
    Senator Durbin. The subcommittee will stand recessed.
    [Whereupon, at 11:45 a.m., Wednesday, May 8, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]










       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
American Association of Law Libraries, prepared statement........   300
American Library Association, prepared statement.................   300
Anderson, Barry B., Deputy Director, Congressional Budget Office.   305
Association of Research Libraries, prepared statement............   300

Bennett, Senator Robert F., U.S. Senator from Utah:
    Opening statement............................................   230
    Prepared statement...........................................   220
    Statements of................................................20, 80
Billington, Dr. James:
    Librarian of Congress, Library of Congress...................     1
        Letter from..............................................    66
        Prepared statement.......................................     2
    Chairman, Board of Trustees, Center for Russian Leadership 
      Development, prepared statement............................    10
Boothby, Lee, Vice President, International Academy for Freedom 
  of Religion and Belief, prepared statement.....................    71
Brown, Richard L., Controller, General Accounting Office.........   253
Buckley, Francis J., Jr., Superintendent of Documents, Government 
  Printing Office................................................   277

Collins, Honorable James F., Member, Center's Board of Trustees 
  and International Advisor, Akin, Gump, Strauss, Hauer and Feld, 
  L.L.P., prepared statement.....................................    69
Cook, Charles C., Sr., Superintendent, Congressional Printing 
  Management, Government Printing Office.........................   277
Crippen, Dan L., Director, Congressional Budget Office...........   305
    Prepared statement...........................................   306

DiMario, Michael F., Public Printer, Government Printing Office..   277
    Letter from..................................................   291
    Prepared statement...........................................   278
Dodaro, Gene, Chief Operating Officer, General Accounting Office.   253
Durbin, Senator Richard J., U.S. Senator from Illinois:
    Opening statements..................................1, 79, 229, 253
    Questions submitted by......................................43, 299
    Statement of.................................................   197

Glovinsky, Gary, Chief Financial Officer, Architect of the 
  Capitol........................................................   143
Guy, William M., Budget Officer, Government Printing Office......   277

Hantman, Hon. Alan M., Architect of the Capitol, member, Capitol 
  Police Board.................................................143, 229
    Prepared statement...........................................   171
Harper, Sallyanne, Chief Mission Support and Chief Financial 
  Officer, General Accounting Office.............................   253
Holstein, Robert B., Comptroller, Government Printing Office.....   277
Howe, Robert, Acting Chief, Capitol Police, Capitol Police Board.   229
    Prepared statement...........................................   236
    Statement of.................................................   234

Lenhardt, Hon. Alfonso E., Sergeant at Arms and Doorkeeper, 
  Office of the Sergeant at Arms and Doorkeeper, U.S. Senate, 
  member, Capitol Police Board.................................197, 229
    Prepared statement...........................................   202
Livingood, Wilson, Sergeant at Arms, U.S. House of 
  Representatives and Chairman, Capitol Police Board.............   229
    Prepared statement...........................................   232
    Statement of.................................................   230

Mansker, Robert T., Deputy Public Printer, Government Printing 
  Office.........................................................   277
Medical Library Association, prepared statement..................   300
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress............................................     1
    Prepared statement...........................................    13

Peters, Marybeth, Register of Copyrights, Copyright Office, 
  Library of Congress, prepared statement........................    16
Poole, Amita, Administrative Assistant, Architect of the Capitol.   143

Scott, General Donald L., Deputy Librarian of Congress, Library 
  of Con- 
  gress..........................................................     1
Sherman, Andrew M., Director, Congressional Relations, Government 
  Printing Office................................................   277
Stoffel, Larry, Superintendent, Senate Office Buildings, 
  Architect of the Capitol.......................................   143
Symington, Honorable James W., Member, Board of Trustees, Center 
  for Russian Leadership Development, prepared statement.........    67

Tabb, Winston, Associate Librarian for Library Services, Library 
  of Con- 
  gress..........................................................     1
Thomson, Jeri, Secretary, Office of the Secretary, U.S. Senate...    79
    Prepared statement...........................................    86
Timmer, Barbara, Assistant Secretary, Office of the Secretary, 
  U.S. Senate....................................................    79
Turnbull, Michael G., Assistant Architect of the Capitol, 
  Architect of the Capitol.......................................   143

Walker, David M., Comptroller General, General Accounting Office.   253
    Prepared statement...........................................   255
Wineman, Tim, Financial Clerk, Office of the Secretary, U.S. 
  Senate.........................................................    79
    Prepared statement...........................................   136










                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page
Architect of the Capitol:
    Management...................................................   167
    Management and Accountability Framework Needed to Lead and 
      Execute Change.............................................   143
Botanic Garden...................................................   189
Budget request, fiscal year 2003.................................   168
    Summary of...................................................   174
Capital plan, long term..........................................   179
Capital projects.................................................   182
Capitol Police...................................................   185
Capitol Power Plant..............................................   183
Capitol Visitor Center...........................................   169
    Disruption...................................................   192
    Excavation...................................................   191
    Project management...........................................   181
East Front.......................................................   186
Financial system.................................................   170
GAO:
    Management review............................................   176
    Report.......................................................   170
Human infrastructure.............................................   170
Indoor air quality...............................................   180
Library of Congress book storage modules.........................   192
Life safety......................................................   169
Major capital requests for fiscal year 2003......................   174
Management:
    Improvements.................................................   177
    Performance standards........................................   177
    Plan.........................................................   187
Office cleaning..................................................   188
Pay flexibility..................................................   178
Place markers....................................................   186
Positions request, new...........................................   186
Project management...............................................   177
Recent accomplishments...........................................   172
Restructuring....................................................   175
Staffing requests................................................   175
Waste recycling..................................................   180
    Changes......................................................   194
    Review.......................................................   193
West refrigeration plant estimate................................   184
Worker safety....................................................   189
Workplace injuries...............................................   190

                          CAPITOL POLICE BOARD

Budget request...................................................   231
Chem-bio strike force............................................   250
Chem-bio strike team.............................................   235
Emergency response fund..........................................   232
Facilities.......................................................   242
    Future.......................................................   250
    Master plan..................................................   248
Facility needs...................................................   231
Military recruitment.............................................   245
Minority recruitment.............................................   242
National Guard...................................................   246
Officer recruitment and retention................................   240
Olympics security................................................   243
Personnel, dedication of.........................................   232
Police:
    Force merger.................................................   251
    Priorities...................................................   234
Premium pay issue................................................   247
Recruitment and retention incentives.............................   245
Space:
    Current requirements.........................................   248
    Needs........................................................   235
Staff:
    Recognition..................................................   236
    Recruitment and retention....................................   234
Training.........................................................   235
Visibility.......................................................   244

                      CONGRESSIONAL BUDGET OFFICE

Employees' professional development, opportunities for...........   315
Opening remarks..................................................   305
Student loan repayment program...................................   316
Visiting scholars' program.......................................   305

                       GENERAL ACCOUNTING OFFICE

Budget request, fiscal year 2003.................................   254
Emergency response fund..........................................   274
Federal Accounting Standards Advisory Board [FASAB]..............   271
    CBO representation on........................................   273
    Purpose served by changing...................................   273
National Energy Policy Development Group.........................   270
    Suit, evidence sought in.....................................   270
Performance highlights...........................................   254
Reorganization of GAO............................................   268
Student loan repayment program...................................   269
Technology assessment program....................................   273

                       GOVERNMENT PRINTING OFFICE

Additional committee questions...................................   298
Additional issues................................................   284
Administration's printing policy.................................   284
Appropriations request, fiscal year 2003.........................   279
Congressional printing and binding appropriation.................   279
Cost Impact Scenario: Loss of Executive Branch Work From GPO 
  Under OMB Memorandum M-02-07, ``Printing and Duplicating 
  Through the Government Printing Office'' (May 3, 2002).........   292
Downsizing, cost of..............................................   290
Employment levels................................................   286
GPO book stores..................................................   299
Opening remarks..................................................   277
Public access....................................................   288
Revolving fund...................................................   281
Salaries and expenses appropriation..............................   280
Space utilization................................................   300
Strategic plan...................................................   299
Vision...........................................................   299

                          LIBRARY OF CONGRESS

Acquisitions.....................................................    44
Additional committee questions...................................    42
Administrative and technical initiatives.........................    23
Aging of the U.S. population.....................................    39
    Assisting the Congress on issues related to the..............    15
Automated hiring system..........................................     9
Budget request:
    Major elements of the Library's..............................    20
    Summary, fiscal year 2003....................................    17
Collections security, access, and preservation...................     4
Computer security................................................    47
Congressional Research Service (CRS)............................. 7, 40
    Technology initiative, status of fiscal 2002.................    13
    Workforce diversity..........................................    41
Copyright Office.................................................     7
    Fees, proposed adjustment in some............................    18
    Mission......................................................    17
Digital futures..................................................    31
Digital materials, acquisition and preservation of...............    28
Director's Report--Diversity in the Congressional Research 
  Service--November 2001.........................................    51
Diversity report.................................................    50
Fort Meade:
    Module one...................................................    42
    Modules two and three........................................    42
    Storage facilities...........................................    41
Global legal information network.................................    46
Hiring and Avue system...........................................    48
Hiring system....................................................32, 48
    CRS vacancies filled using...................................    34
    Implementation problems......................................    37
    Knowledge of problems........................................    36
    Other agencies using.........................................    34
Infrastructure:
    And security enhancements....................................    22
    Support......................................................     6
Inspector General's recommendations..............................    32
Law Library......................................................     6
    Arrearage....................................................    45
Library buildings and grounds....................................     8
Library of Congress today........................................     3
Mail.............................................................    43
    Backlog......................................................    25
    Competitive bidding..........................................    25
    Contracting out..............................................    24
    Impact on Library's operations...............................    35
    Processing...................................................    24
    Sole source vendor...........................................    25
National Digital Information Infrastructure and Preservation 
  Program (NDIIPP)...............................................    28
    Strategic funding plan.......................................    30
National Digital Library.........................................     4
National Library in-process arrearage............................    44
National Library Service for the Blind and Physically Handicapped     8
    Digital technology...........................................    46
Office work and future plans, review of..........................    18
Our Nation's challenges..........................................    21
Photoduplication Service.........................................    26
Retail sales.....................................................    25
Russian Leadership Program.......................................    36
Science and technology, growing capacity for Congress in the 
  areas of.......................................................    16
Supplemental request, fiscal 2002................................    17
Terrorism and homeland security..................................    38
    Assisting the Congress on issues related to..................    13
Terrorism, war on................................................    21
Travel funding request...........................................    38
Veterans History Project.........................................    45
Workforce diversity..............................................    37

                              U.S. SENATE

                        Office of the Secretary

Administrative services--Department reports......................    97
Anthrax incident.................................................    80
Budget request, fiscal year 2003.................................    86
Capitol Visitor Center.....................................85, 135, 138
Captioning system................................................    83
COOP and COG planning............................................    84
Departmental operations..........................................    82
Emergencies, preparedness for....................................   136
Expenses, increase in............................................   140
Legislative services.............................................    89
    Department reports...........................................    90
LIS and FMIS.....................................................    81
Mandated systems and financial services..........................   125
Office of the Secretary of the Senate, staff of the..............    86
Senate web site..................................................   139
September 11, 2001, evacuation and October 15 anthrax attack: 
  Continuity of operations planning..............................    89
September 11th...................................................    79
Strategic initiatives............................................    82
Student loan repayment program...................................   139

             Office of the Sergeant at Arms and Doorkeeper

Bioterrorism incident............................................   199
BlackBerry response time.........................................   224
Budget:
    Built on business model......................................   201
    Increases....................................................   222
    Request, fiscal year 2003....................................   210
Capitol Visitor Center...........................................   225
Capitol, balancing security with access to the...................   200
Cyber security...................................................   227
Emergency supplemental appropriation.............................   209
5-year evergreen plan............................................   221
Hill-wide communications system..................................   220
Interagency coordination.........................................   224
Legislative Branch Emergency Preparedness Task Force.............   200
Legislative process, better communications to enhance the........   209
Mail:
    Delivery of..................................................   219
    Effect of irradiated.........................................   219
Office of Assistant Sergeant at Arms for Security and Emergency 
  Preparedness...................................................   201
Parking..........................................................   226
Process improvements.............................................   208
Recording studio upgrade.........................................   221
SAA budget request...............................................   198
Secretary of the Senate, partnership with........................   199
Security.........................................................   203
    Measures.....................................................   217
    Of State offices.............................................   223
    Temporary barriers...........................................   218
Senate:
    Messaging infrastructure project.............................   224
    Services to the..............................................   209
Technology to better serve the Senate community..................   206
Video conferencing...............................................   222

                              <greek-d>

</pre></body></html>
